                   U.S. Department of Agriculture

                      Office of Inspector General
                       Financial & IT Operations




         Audit Report

 U.S. Department of Agriculture’s
Consolidated Financial Statements
  for Fiscal Years 2005 and 2004




                         Report No. 50401-56-FM
                                 November 2005
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                    Washington, D.C. 20250


November 15, 2005



REPLY TO
ATTN OF: 50401-56-FM

TO:          Patricia E. Healy
             Acting Chief Financial Officer
             Office of the Chief Financial Officer

ATTN:        Kathy Donaldson
             Senior Program Analyst
             Office of the Chief Financial Officer
             Planning and Accountability Division

FROM:        Phyllis K. Fong       /s/
             Inspector General

SUBJECT: U.S. Department of Agriculture’s Consolidated Financial Statements for
         Fiscal Years 2005 and 2004


This report presents the results of our audit of the U.S. Department of Agriculture’s
consolidated financial statements for the fiscal years ending September 30, 2005 and
2004. The report contains an unqualified opinion and the results of our assessment of the
Department’s internal control structure and compliance with laws and regulations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned, including the timeframes, on our
recommendations. Please note that the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.

We appreciate the courtesies and cooperation extended to us during the audit.
Executive Summary
U.S. Department of Agriculture’s Consolidated Financial Statements for Fiscal Years
2005 and 2004 (Audit Report No. 50401-56-FM)

Purpose             Our audit objectives were to determine whether (1) the consolidated financial
                    statements present fairly, in all material respects, in accordance with
                    generally accepted accounting principles, the assets, liabilities, and net
                    position, net costs, changes in net position, budgetary resources, and
                    reconciliation of net costs to budgetary obligations; (2) the internal control
                    objectives were met; (3) the Department complied with laws and regulations
                    for those transactions and events that could have a material effect on the
                    consolidated financial statements; and (4) the information in the Performance
                    and Accountability Report was materially consistent with the information in
                    the consolidated financial statements.

                    We conducted our audit at the financial offices of various U.S. Department of
                    Agriculture (USDA) agencies and the Office of the Chief Financial Officer
                    (OCFO) located in Washington, D.C., and its National Finance Center
                    located in New Orleans, Louisiana. We also performed site visits to selected
                    agencies’ field offices.

Results in Brief    In our opinion, the consolidated financial statements referred to above present
                    fairly, in all material respects, the financial position of USDA as of
                    September 30, 2005 and 2004; and its net costs, changes in net position,
                    reconciliation of net costs to budgetary obligations, and budgetary resources
                    for the years then ended, in conformity with accounting principles generally
                    accepted in the United States of America.

                    We have also issued reports on our consideration of USDA’s internal control
                    over financial reporting and its compliance with certain provisions of laws
                    and regulations.

                    For internal controls over financial reporting, we identified three reportable
                    conditions.

                      •   Improvements needed in overall financial management across USDA,
                      •   improvements needed in information technology security and controls,
                          and
                      •   improvements needed in certain financial management practices and
                          processes.

                    We believe the first two conditions are material weaknesses. Our report on
                    compliance with laws and regulations discusses two instances of
                    noncompliance relating to the Federal Financial Management Improvement
                    Act and the Anti-Deficiency Act.
USDA/OIG-A/50401-56-FM                                                                       Page i
Key
Recommendations    OCFO has immediate and long term plans to address most of the weaknesses
                   in its financial management systems. The key recommendations in this
                   report were limited to additional improvements in financial management.




USDA/OIG-A/50401-56-FM                                                              Page ii
Abbreviations Used in This Report


C&A               Certification and Accreditation
CCC               Commodity Credit Corporation
CFO               Chief Financial Officer
FACTS             Federal Agencies’ Centralized Trial Balance System
FFIS              Foundation Financial Information System
FFMIA             Federal Financial Management Improvement Act
FFMSR             Federal Financial Management Systems Requirements
FISMA             Federal Information Security Management Act
FS                Forest Service
FSA               Farm Service Agency
GAO               U.S. Government Accountability Office
IT                Information Technology
ITS               Information Technology Services
JFMIP             Joint Financial Management Improvement Program
NIST              National Institute of Standards and Technology
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OIG               Office of the Inspector General
OMB               Office of Management and Budget
RSSI              Required Supplemental Stewardship Information
SFFAS             Statement of Federal Financial Accounting Standard
SOF               Statement of Financing
SV                Standard Voucher
USDA              U.S. Department of Agriculture




USDA/OIG-A/50401-56-FM                                                 Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Report of the Office of Inspector General ............................................................................................ 1

Report of the Office of Inspector General on Internal Control Over Financial Reporting............. 3

Report of the Office of Inspector General on Compliance with Laws and Regulations .................. 5

Findings and Recommendations............................................................................................................ 7

    Section 1. Internal Control Over Financial Reporting – Material Weaknesses........................ 7

        Finding 1             Improvements Needed in Overall Financial Management Across USDA.............. 7
                                  Recommendation No. 1.................................................................................... 9
                                  Recommendation No. 2.................................................................................... 9
                                  Recommendation No. 3.................................................................................... 9
                                  Recommendation No. 4.................................................................................... 9
        Finding 2             Improvements Needed in Information Technology (IT) Security and
                              Controls ................................................................................................................... 9

    Section 2. Internal Control Over Financial Reporting – Reportable Condition..................... 13

        Finding 3             Additional Financial Management Issues Warrant Attention ............................... 13
                                 Recommendation No. 5.................................................................................. 14
                                 Recommendation No. 6.................................................................................. 14
                                 Recommendation No. 7.................................................................................. 14

    Section 3. Compliance With Laws and Regulations .................................................................. 16

     Finding 4     Substantial Noncompliance With FFMIA Requirements ..................................... 16
     Finding 5     Anti-Deficiency Act Violation .............................................................................. 18
Exhibit A – Audit Reports Related to the Fiscal Year 2005 Financial Statements......................... 19
Exhibit B – Performance and Accountability Report ....................................................................... 20




USDA/OIG-A/50401-56-FM                                                                                                                           Page iv
                           UNITED STATES DEPARTMENT OF AGRICULTURE
                                       OFFICE OF INSPECTOR GENERAL

                                            Washington, D.C. 20250




Report of the Office of Inspector General

To:    Patricia E. Healy
       Acting Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of Agriculture
(USDA) as of September 30, 2005 and 2004, and the related consolidated statements of net cost,
changes in net position, and financing, and the combined statements of budgetary resources
(hereinafter referred to as the “consolidated financial statements”) for the fiscal years then ended. The
consolidated financial statements are the responsibility of USDA’s management. Our responsibility is
to express an opinion on the consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements.” Those standards and
OMB Bulletin No. 01-02 require that we plan and perform the audits to obtain reasonable assurance
that the consolidated financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall consolidated financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the USDA as of September 30, 2005 and 2004; and its net costs,
changes in net position, reconciliation of net costs to budgetary obligations, and budgetary resources
for the years then ended, in conformity with accounting principles generally accepted in the United
States of America..

The information in the Performance and Accountability Report (see exhibit B) is not a required part of
the consolidated financial statements, but is supplemental information required by accounting
principles generally accepted in the United States of America or by OMB Circular No. A-136,
“Financial Reporting Requirements.” We attempted to apply certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, the Department did not provide its final analysis in time for




USDA/OIG-A/50401-56-FM                                                                            Page 1
us to complete our review. Therefore, we can provide no assurance on the reliability of the
information. In addition, we did not audit this information and, accordingly, we express no opinion on
it.

We have also issued reports on our consideration of USDA’s internal control over financial reporting
and its compliance with certain provisions of laws and regulations. These reports are an integral part
of an audit performed in accordance with Government Auditing Standards, and, in considering the
results of the audit, should be read in conjunction with this report. For internal controls over financial
reporting, we identified three reportable conditions.

      •   Improvements needed in overall financial management across USDA,
      •   improvements needed in information technology security and controls, and
      •   improvements needed in certain financial management practices and processes.

We believe the first two conditions are material weaknesses. Our report on compliance with laws and
regulations discusses two instances of noncompliance relating to the Federal Financial Management
Improvement Act and the Anti-Deficiency Act.

This report is intended solely for the information of the management of USDA, OMB, and Congress,
and is not intended to be and should not be used by anyone other than these specified parties.


/s/

Phyllis K. Fong
Inspector General


November 10, 2005




USDA/OIG-A/50401-56-FM                                                                             Page 2
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                          Washington, D.C. 20250



Report of the Office of Inspector General on
Internal Control Over Financial Reporting

To:    Patricia E. Healy
       Acting Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of
Agriculture (USDA) as of September 30, 2005 and 2004, and the related consolidated statements
of net cost, changes in net position, and financing, and the combined statements of budgetary
resources (hereinafter referred to as the “consolidated financial statements”), and have issued our
report thereon dated November 10, 2005. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 01-02, “Audit
Requirements for Federal Financial Statements.”

In planning and performing our audits, we considered USDA’s internal control over financial
reporting by obtaining an understanding of the internal controls, determining whether the internal
controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in OMB Bulletin No. 01-02 and Government
Auditing Standards. We did not test all internal controls as defined by the Federal Managers’
Financial Integrity Act of 1982. The objective of our audit was not to provide assurance on
USDA’s internal control. Consequently, we do not provide an opinion on internal control over
financial reporting.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions
are matters coming to our attention relating to significant deficiencies in the design or operation
that, in our judgment, could adversely affect the agency’s ability to record, process, summarize,
and report financial data consistent with the assertions by management in the consolidated
financial statements. Material weaknesses are reportable conditions in which the design or
operation of one or more internal control components do not reduce to a relatively low level the
risk that misstatements, in amounts that would be material in relation to the consolidated financial
statements being audited, may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions. Because of inherent limitations in any
internal control, misstatements due to error or fraud may occur and not be detected.


USDA/OIG-A/50401-56-FM                                                                            Page 3
We noted certain matters described in the “Findings and Recommendations” involving the internal
control over financial reporting and its operation that we consider to be reportable conditions.

      •   Improvements needed in overall financial management across USDA (Section 1),
      •   improvements needed in information technology security and controls (Section 1), and
      •   improvement needed in certain financial management processes and practices (Section 2).

We believe that the first two conditions are material weaknesses.

Additional Other Procedures

As required by OMB Bulletin No. 01-02, we considered USDA’s internal controls over Required
Supplemental Stewardship Information (RSSI) by obtaining an understanding of the internal
controls, determining whether these internal controls had been placed in operation, assessing
control risk, and performing tests of controls. Our procedures were not designed to provide
assurance on internal controls over such RSSI; accordingly, we do not provide an opinion on such
controls.

As further required by OMB Bulletin No. 01-02, with respect to internal control related to
performance measures determined by management to be key and reported in the Management’s
Discussion and Analysis section of the Performance and Accountability Report, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions. Our procedures were not designed to provide assurance on internal
control over reported performance measures; accordingly, we do not provide an opinion on such
controls.

This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 10, 2005




USDA/OIG-A/50401-56-FM                                                                          Page 4
                         UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Compliance with Laws and Regulations

To:    Patricia E. Healy
       Acting Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the consolidated balance sheets of the U.S. Department of Agriculture (USDA) as
of September 30, 2005 and 2004, and the related consolidated statements of net cost, changes in
net position, and financing, and the combined statements of budgetary resources (hereinafter
referred to as the “consolidated financial statements”), and have issued our report thereon dated
November 10, 2005. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal
Financial Statements.”

The management of USDA is responsible for complying with laws and regulations applicable to it.
As part of obtaining reasonable assurance about whether the consolidated financial statements are
free of material misstatement, we performed tests of USDA compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts, and certain provisions of other laws
and regulations specified in OMB Bulletin No. 01-02, including certain requirements referred to in
the Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of
compliance to the provisions described in the preceding sentence and did not test compliance with
all laws and regulations applicable to USDA. However, providing an opinion on compliance with
laws and regulations was not an objective of our audit, and accordingly, we do not express such an
opinion.

The results of our tests of compliance disclosed one instance of noncompliance with laws and
regulations discussed in the second paragraph of this report, exclusive of FFMIA, that are required
to be reported under Government Auditing Standards and OMB Bulletin No. 01-02. (See Findings
and Recommendations, Section 3, “Compliance With Laws and Regulations.”)




USDA/OIG-A/50401-56-FM                                                                          Page 5
This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 10, 2005




USDA/OIG-A/50401-56-FM                                                                  Page 6
Findings and Recommendations
Section 1.   Internal Control Over Financial Reporting – Material Weaknesses

                     Material weaknesses are reportable conditions in which the design or
                     operation of one or more internal control components do not reduce to a
                     relatively low level the risk that misstatements, in amounts that would be
                     material in relation to the consolidated financial statements being audited,
                     may occur and not be detected within a timely period by employees in the
                     normal course of performing their assigned functions. Because of inherent
                     limitations in any internal control, misstatements due to error or fraud may
                     occur and not be detected. We believe that the findings discussed in this
                     section are material internal control weaknesses.




Finding 1            Improvements Needed in Overall Financial Management Across
                     USDA

                     During fiscal year 2005, the Department continued to make significant
                     improvements in its overall financial management. However, we noted areas
                     where further improvements are needed. For example:

                        •   In response to last year’s audit report OCFO revised its methodology in
                            fiscal year 2005 for compiling the consolidated statement of financing
                            (SOF). However, as the OCFO did not timely engage Forest Service
                            personnel in the process, the initial revised methodology did not
                            correctly produce the SOF at the Forest Service level. For example,
                            the USDA OCFO made assumptions that were not correct because of
                            the uniqueness of certain Forest Service business processes.

                        •   Abnormal balances existed at yearend without being fully researched
                            and corrected. As of fiscal yearend, we noted that over 90 abnormal
                            account balances existed, totaling over $1 billion. According to the
                            Department, the existence of an abnormal balance indicates that
                            transactions or adjustments may have been posted in error to an
                            account. Agencies reported that their abnormal balances were caused
                            by a variety of reasons. Although the number of abnormal account
                            balances had been reduced by about half, the dollar value had
                            increased. When abnormal balances exist, immediate research should
                            be performed to identify the cause and correct the condition.

                        •   Our review disclosed that budgetary and proprietary accounts were
                            sometimes forced to equal each other in order to pass the Federal

USDA/OIG-A/50401-56-FM                                                                      Page 7
                         Agencies’ Centralized Trial Balance System (FACTS) II edit checks.
                         These accounting relationships should exist naturally; when they do
                         not, immediate research should be performed to identify the cause and
                         correct the condition.

                     •   We also noted the lack of financial management systems and processes
                         that were not always capable of fully monitoring and controlling
                         budgetary resources for all programs. This occurred, primarily,
                         because the Commodity Credit Corporation (CCC) and the Forest
                         Service (FS) do not yet track and manage the status of obligations and
                         administrative limitations established by legislation or agency policy
                         and are dependent upon manual processes. This subjects overall funds
                         control to significant risk. Funds control is a vital component of any
                         Federal Government operation.

                     •   We continued to identify deficiencies in the credit reform processes
                         used by CCC and the Farm Service Agency (FSA) relating to their cash
                         flow models. We have reported material internal control weaknesses
                         relating to credit reform processes and practices for fiscal year 2001
                         and all subsequent years. The conditions described below were
                         primarily caused by the lack of adequate management oversight and
                         review.

                          °   FSA incorrectly entered the loan maturity range for one loan
                              program. FSA’s cash flow model for direct loans also did not
                              calculate the weighted average interest rate correctly. We
                              identified these situations and brought them to FSA’s attention.
                              FSA immediately corrected the model and re-ran the reestimates
                              used for financial reporting.

                          °   CCC made errors in the development, implementation, and
                              maintenance of cash flow models. Additionally, the data
                              underlying the cash flow models were not always appropriately
                              processed. Errors in the cash flow models and related data were
                              corrected by CCC prior to finalizing the reestimates used for
                              financial reporting.

                          °   Additionally, our review of the initial version of the footnotes
                              found errors in disclosure relating to CCC’s loans. Corrections
                              totaling more than $8 billion were subsequently made to the
                              footnote.

                     •   We also noted that FS and CCC yearend accrual processes need to be
                         calculated accurately and posted prior to providing the financial
                         statements for audit. CCC also inappropriately applied accounting

USDA/OIG-A/50401-56-FM                                                                  Page 8
                         standards and erroneously determined no accrual was needed for one
                         program, and the auditors proposed an adjustment and a liability in the
                         amount of about $7 billion was recorded.

Recommendation No. 1

                   Finalize supporting documentation for any required manual adjustments to
                   the SOF. The SOF compilation should be supported by transactions and
                   account balances that are traceable to the general ledger.

Recommendation No. 2

                   Provide additional training on the relationship of the SOF to the statements of
                   budgetary resources and net cost.

Recommendation No. 3

                   Continue to assess the overall process used to compile the SOF in order to
                   identify approaches and techniques that provide for a more efficient,
                   accurate, and consistent compilation process. The compilation should be
                   subjected to a secondary review by a trained manager who is independent of
                   the financial statement preparation process. In addition to reviewing specific
                   support for the compilation, the review should also include an analytical
                   analysis of the relationships among balances.

Recommendation No. 4

                   Provide oversight to the lending agencies to ensure that cash flow models and
                   data inputs as well as estimates and reestimates are subject to appropriate
                   controls, including management oversight review.




Finding 2          Improvements Needed in Information Technology (IT) Security
                   and Controls

                   Federal information security has been on the U.S. Government
                   Accountability Office (GAO) list of high-risk areas since 1997. Federal
                   agencies rely extensively on computerized information systems and
                   electronic data to carry out their missions. The security of these systems and
                   data is essential to preventing data tampering, disruptions in critical
                   operations, fraud, and inappropriate disclosure of sensitive information.


USDA/OIG-A/50401-56-FM                                                                     Page 9
                                     Protecting federal computer systems and the systems that support critical
                                     infrastructures is a continuing concern.

                                     The efforts of the Department’s Office of the Chief Information Officer
                                     (OCIO) and OIG in the past few years have heightened program
                                     management’s awareness of the need to plan and implement effective IT
                                     security. Agencies and the Department accelerated their efforts to comply
                                     with Federal information security requirements during the fiscal year. While
                                     progress has been made there is still much to be accomplished. Due to the
                                     significance of these weaknesses the Department cannot be assured that its
                                     systems and data are adequately secured. As a result, IT management and
                                     security remains a material weakness within the Department.

                                     While individual agencies need to improve the management and security of
                                     their respective IT environments, the Department should retain accountability
                                     for the lack of adequate guidance, oversight, and management of the
                                     certification and accreditation efforts, and the general support system of the
                                     service center agencies 1 operated by Information Technology Services (ITS),
                                     a component of OCIO. These departmental weaknesses have had a
                                     significant impact on the integrity, confidentiality, and availability of the
                                     systems and data.

                                     The results of our audit work throughout the year are highlighted in the
                                     paragraphs below.

                                     Certification and Accreditation

                                     The Department and its agencies have made progress in addressing the lack
                                     of compliance with OMB Circular No. A-130, Appendix III, but weaknesses
                                     continue to exist. While the Department’s efforts were commendable,
                                     completion of the first accreditation process did not correct the Department’s
                                     security weaknesses; rather, it was the first step in identifying controls,
                                     documenting and testing those controls, and ensuring that the process is
                                     integrated into each system’s development life cycle as OMB intended.

                                     We found that the Department certification and accreditation (C&A) process
                                     did not produce complete and reliable documentation to support the
                                     accreditation decisions. Agencies did not fully comply with the National
                                     Institute of Standards and Technology (NIST) guidance in preparing the
                                     necessary system documentation, misapplied Federal Information Processing
                                     Standards 199 in assessing system risk, and did not ensure that thorough and
                                     adequate independent testing was performed during the Security Testing and
                                     Evaluation stage of the process. Finally, our review disclosed that the
                                     agencies had not yet established effective configuration management or

1
    The service center agencies include Rural Development, FSA, and the Natural Resources and Conservation Service.

USDA/OIG-A/50401-56-FM                                                                                                Page 10
                                   continuous control monitoring of their systems, an integral part of the C&A
                                   process. Additional details of the weaknesses we identified are available
                                   under separate cover. 2

                                   Common Computing Environment Management and Security

                                   OCIO-ITS assumed the responsibilities over the general support system for
                                   the Department’s service center agencies. Our audit identified many of the
                                   same weaknesses we had identified in prior audits of the service center
                                   agencies individually. While the service center agencies retained ownership
                                   and control over their own applications, weaknesses in the general support
                                   system had significant implications regarding the reliability of the data
                                   processed by those agencies.

                                   We found that OCIO-ITS had not established effective policies and
                                   procedures covering its operations, established clearly defined roles and
                                   responsibilities, adequately prepared to take over the vulnerability scanning
                                   and mitigation process, established a reliable baseline inventory of all
                                   systems and network equipment, nor established effective physical or
                                   environmental controls over the network equipment in the offices we visited.
                                   Additional details of the weaknesses we identified are available under
                                   separate cover. 3

                                   Federal Information Security Management Act Report (FISMA)

                                   Our FISMA report consolidated the results of our audits, and those conducted
                                   through contract auditors throughout the year. This year, those audits
                                   continued to disclose noncompliance with OMB Circular No. A-130,
                                   Appendix III, and NIST guidance. Our conclusion was arrived at primarily
                                   from the results of our audit of the Department’s certification and
                                   accreditation efforts cited above; however, we noted other weaknesses that
                                   persisted within the Department. For instance, the Department was still
                                   unable to produce a reliable inventory of applications and general support
                                   systems, had not yet established a reliable inventory of Internet Protocol
                                   addresses, had not ensured that agencies reported complete and accurate Plan
                                   of Action and Milestone reports, and had not ensured that all Department
                                   personnel received security awareness training. Additional details of the
                                   weaknesses we identified are available under separate cover.4

                                   The Department and its agencies are in the process of addressing the above
                                   weaknesses by implementing the recommendations we made in the cited


2
  Audit Report No. 50501-4-FM, “Review of the U.S. Department of Agriculture’s Certification and Accreditation Efforts,” dated October 21, 2005.
3
  Audit Report No. 50501-3-FM, “Office of the Chief Information Officer, Management and Security Over Information Technology Convergence –
Common Computing Environment,” dated October 24, 2005.
4
  Audit Report No. 50501-5-FM, “Fiscal Year 2005 Federal Information Security Management Act Report,” dated October 6, 2005.

USDA/OIG-A/50401-56-FM                                                                                                              Page 11
                   audit reports. Therefore, we are making no additional recommendations in
                   this report.




USDA/OIG-A/50401-56-FM                                                             Page 12
Section 2.   Internal Control Over Financial Reporting – Reportable Condition

                     Reportable conditions are matters coming to our attention relating to
                     significant deficiencies in the design or operation that, in our judgment, could
                     adversely affect the agency’s ability to record, process, summarize, and report
                     financial data consistent with the assertions by management in the
                     consolidated financial statements.




Finding 3             Additional Financial Management Issues Warrant Attention

                     Our review disclosed certain areas for which financial management processes
                     and practices can be improved. For example:

                        •   The Foundation Financial Information System (FFIS) uses standard
                            vouchers (SV) to process adjustments to the general ledger. SVs use
                            predefined debits and credits based on business rules. We reviewed 91
                            SVs processed for fiscal year 2005 prior to October 1, 2005. We noted
                            that 26 of the SVs reviewed were processed to (1) correct a system
                            weakness, (2) compensate for a control weakness, and/or (3) correct
                            another SV. Additionally, our review disclosed that the supporting
                            documentation was inadequate for 47 SVs. The types of problems that
                            we found could have been reduced had the agencies effectively
                            implemented the controls outlined in FFIS Bulletin 02-06, “Internal
                            Controls Over Standard Vouchers in the FFIS,” which establishes
                            overarching guidance for developing proper internal controls.

                        •   We reviewed 65 documents processed after the close of agency fiscal
                            month 12. These were needed to correct account balances for financial
                            reporting. Many of the documents reviewed impacted cash or
                            budgetary accounts. We noted that 28 of the documents were
                            processed to (1) correct a prior adjustment, (2) compensate for a
                            control weakness, and/or (3) correct a system weakness.

                        •   Our review of FFIS application controls disclosed that controls relating
                            to agency approvals could be strengthened. For example, we found
                            that significant documents such as manual adjustments, payment
                            documents, and appropriation documents did not require approval at
                            some agencies. This preventative measure would provide a basis for a
                            good quality control structure within the accounting system.

                        •   Our review disclosed that obligations were not always valid because
                            agencies were not effectively reviewing all unliquidated (open or
USDA/OIG-A/50401-56-FM                                                                      Page 13
                                         active) obligations and taking appropriate actions (de-obligating). 5
                                         Invalid obligations increase the risk that funds may be inappropriately
                                         diverted for purposes other than what Congress intended. Treasury’s
                                         annual closing guidance (Bulletin No. 2005-06) requires the annual
                                         review of unliquidated obligations. Departmental Regulation 2230-1,
                                         “Reviews of Unliquidated Obligations,” dated April 17, 2002, requires
                                         semi-annual reviews and annual certifications from agency Chief
                                         Financial Officers (CFO) that the semiannual reviews were performed
                                         and unliquidated obligations existing at yearend are valid based on the
                                         reviews. Both Treasury and USDA require appropriate records of the
                                         reviews to be retained for audit purposes. However, we noted the
                                         following exceptions.

                                              •   We selected 60 unliquidated obligations from 4 agencies for
                                                  which no activity had occurred for over 2 years. We found that
                                                  54 of 60 (90 percent) obligations reviewed were invalid and
                                                  agencies indicated the items would be de-obligated.

                                              •   We also requested evidence of the March 31, 2005, reviews
                                                  from seven agencies. Three were unable to provide complete
                                                  evidence of their reviews.

                               The OCFO has immediate and long-term plans to improve its financial
                               management systems. These actions include working with the business
                               process owners to address the problems with the legacy feeder systems, with
                               the objective to provide an improved integration of the financial management
                               architecture within the Department.

Recommendation No. 5

                               Ensure that agencies adhere to FFIS Bulletin No. 02-06, “Internal Controls
                               Over Standard Vouchers in the FFIS.”

Recommendation No. 6

                               Ensure that agency approval of appropriate significant documents is required
                               prior to processing.

Recommendation No. 7

                               Provide oversight to ensure that general ledgers reflect valid obligations and
                               that agencies perform the required reviews of unliquidated obligations


5
 Obligation means a binding agreement that will result in outlays, immediately or in the future. Budgetary resources must be available
before obligations can be incurred legally.
USDA/OIG-A/50401-56-FM                                                                                                     Page 14
                  appropriately and effectively.   Additionally, ensure that agencies maintain
                  evidence of the reviews.




USDA/OIG-A/50401-56-FM                                                                Page 15
Section 3.   Compliance With Laws and Regulations

                    The management of USDA is responsible for complying with laws and
                    regulations applicable to it. As part of obtaining reasonable assurance about
                    whether the consolidated financial statements are free of material
                    misstatement, we performed tests of USDA compliance with certain
                    provisions of laws and regulations, noncompliance with which could have a
                    direct and material effect on the determination of the consolidated financial
                    statement amounts, and certain provisions of other laws and regulations
                    specified in OMB Bulletin No. 01-02, including certain requirements referred
                    to in the Federal Financial Management Improvement Act (FFMIA).




Finding 4           Substantial Noncompliance With FFMIA Requirements

                    Under FFMIA, agencies are required to annually assess whether their financial
                    management systems comply substantially with (1) Federal financial
                    management system requirements (FFMSR), (2) applicable Federal
                    accounting standards, and (3) the U.S. Government Standard General Ledger
                    Ledger at the transaction level. In addition, FISMA requires each agency to
                    report significant information security deficiencies, relating to financial
                    management systems, as a lack of substantial compliance under FFMIA.
                    FFMIA also requires auditors to report in their CFO Act financial statement
                    audit reports whether the financial management systems substantially comply
                    with FFMIA’s systems requirements.

                    During fiscal year 2005, USDA agencies worked to meet FFMIA and FISMA
                    objectives, and as a result, corrective actions were taken to mitigate several
                    significant deficiencies; however, additional work remains. USDA’s fiscal
                    year 2005 Performance and Accountability Report reported that financial
                    management systems continued to be out of substantial compliance with the
                    three requirements of the FFMIA. Our audit work during fiscal year 2005 has
                    identified the following significant system nonconformances with FFMIA.

                       •   FSA/CCC financial auditors reported non-compliance with all three
                           requirements of the FFMIA. They found that although CCC had
                           issued policies and procedures to correct deficiencies previously
                           reported in its budgetary accounting and accounting for accruals, CCC
                           was not able to fully implement them in fiscal year 2005. Auditors
                           reported the inability of CCC to properly assess the correct accounting
                           treatment for certain budgetary transactions in accordance with
                           generally accepted accounting principles. Additionally, it was reported
                           that CCC inappropriately applied the accounting standards in

USDA/OIG-A/50401-56-FM                                                                    Page 16
                         formulating the policies related to accrued program liabilities. Finally,
                         auditors reported the lack of a complete information security
                         management program that can be applied to its general support and
                         financial systems, along with the need for establishing and maintaining
                         sustainable and repeatable information security and contingency
                         planning controls.

                     •   IT control weaknesses, which include an unreliable certification and
                         accreditation process and ineffective controls in the OCIO-ITS general
                         control environment, have a material effect on the integrity,
                         confidentiality, and availability of Rural Development’s systems and
                         data. Rural Development aggressively pursued accreditation of its
                         major applications as required by OMB Circular No. A-130. However,
                         our review of the C&A documentation supporting four applications
                         disclosed that the documentation did not meet basic accreditation
                         requirements, the security testing and evaluation were inadequate,
                         and/or the systems were fully accredited without restriction or
                         limitation before all components were fully operational. Additionally,
                         our review of the common computing environment network and
                         systems identified the same types of weaknesses that our prior audits
                         identified in the Service Center Agencies individually, including
                         inadequate controls over physical and logical access, inventory of
                         systems and network equipment, effective policies and procedures, and
                         vulnerability scanning and mitigation.

                  In addition, we noted other information security control weaknesses during our
                  fiscal year 2005 Federal Information Systems Control Audit Manual reviews
                  that should have been reported as FFMIA noncompliance by the Department
                  and its component agencies. Those weaknesses are described in Finding No. 2
                  of this report. Unresolved information security weaknesses could adversely
                  affect the ability of agencies to produce accurate data for decision making and
                  financial reporting because such weaknesses could compromise the reliability
                  and availability of data that are recorded in or transmitted by an agency’s
                  financial management system.

                  The Department continues its effort to achieve compliance with the FFMIA
                  requirements. It has been working with the component agencies to accelerate
                  completion of corrective actions previously estimated to extend into fiscal year
                  2006. Currently, all scheduled completion dates are targeted for fiscal year
                  2006, except for corrective actions relating to CCC funds control. CCC’s
                  funds control completion is scheduled for fiscal year 2009. Issues regarding
                  modernization of systems continue to be and will remain significant
                  challenges in fiscal year 2006. These are complex areas and significant efforts
                  will be needed to accomplish the target dates without, again, extending
                  timeframes. We believe correcting these deficiencies should be a primary
                  concern and priority for the Department during fiscal year 2006.
USDA/OIG-A/50401-56-FM                                                                   Page 17
                               Improving Federal financial management systems is critical to increasing the
                               accountability of financial program managers, providing better information for
                               decision-making, and increasing the efficiency and effectiveness of services
                               provided by the Federal Government.




Finding 5                        Anti-Deficiency Act Violation

                                  During fiscal year 2005, Rural Development reported a $1 billion Anti-
                                  Deficiency Act violation. The violation occurred when a bond guarantee
                                  agreement and the related guarantee of payment were executed prior to the
                                  approval of the apportionment of funds. 6 Specifically, the initial note and
                                  guaranteed loan level was signed on June 14, 2005, and the apportionment
                                  was not approved by OMB until July 20, 2005.

                                  OIG’s review of this matter disclosed that controls existed to prevent an
                                  Anti-Deficiency Act violation from occurring; however, management
                                  circumvented those controls. Rural Development has stated that to prevent
                                  future violations, any unsigned note will be held in the Office of the
                                  Assistant Administrator for Electric Programs pending written verification
                                  that OMB has processed the Apportionment of Funds.

                                 We are making no further recommendations because the Anti-Deficiency Act
                                 violation was appropriately reported to OMB and the President.




6
 There is no budget authority associated with the $1 billion bond guarantee. Section 6101 of the Farm Security and Rural Investment
Act of 2002 (P.L. 107-171) directed the Secretary to guarantee Investment Grade Bonds issued by non-profit lenders if the proceeds were
used for electric and telephone projects eligible for assistance under the Rural Electrification Act of 1936.
USDA/OIG-A/50401-56-FM                                                                                                      Page 18
Exhibit A – Audit Reports Related to the Fiscal Year 2005 Financial Statements


   AUDIT                        AUDIT TITLE                            RELEASE
  NUMBER                                                                DATE
              Federal Crop Insurance Corporation/Risk
05401-14-FM   Management Agency’s Financial Statements for            November 2005
              Fiscal Years 2005 and 2004
              Commodity Credit Corporation’s Financial
06401-20-FM                                                           November 2005
              Statements for Fiscal Years 2005 and 2004
              Forest Service’s Financial Statement Audit for Fiscal
08401-5-FM                                                            November 2005
              Years 2005 and 2004
              Fiscal Year 2005 Review of the National Finance
11401-22-FM                                                           November 2005
              Center General Controls
              Rural Telephone Bank’s Financial Statements for
15401-6-FM                                                            November 2005
              Fiscal Years 2005 and 2004
              Food and Nutrition Service’s Financial Statements
27401-1-FM                                                            November 2005
              for Fiscal Year 2005
50501-3-FM    Management and Security Over IT Convergence             November 2005
              Review of USDA’s Certification and Accreditation
50501-4-FM                                                            November 2005
              Effort
              Fiscal Year 2005 Federal Information Security
50501-5-FM                                                             October 2005
              Management Act Report
              Rural Development’s Financial Statements for Fiscal
85401-12-FM                                                           November 2005
              Years 2005 & 2004
              National Information Technology Center General
88501-2-FM                                                            September 2005
              Controls Review-Fiscal Year 2005




USDA/OIG-A/50401-56-FM                                                                 Page 19
Exhibit B – Performance and Accountability Report




 USDA Performance and Accountability Report
            for Fiscal Year 2005



                         (Prepared by USDA)




USDA/OIG-A/50401-56-FM                              Page 20
11/9/2005 5:07 PM




                                            TABLE OF CONTENTS
Message from the Secretary ............................................................................................... ii
About this Report ............................................................................................................... iv
I.       Management’s Discussion and Analysis .................................................................. 1
         An Overview of the United States Department of Agriculture .............................................................. 1
         Resources ............................................................................................................................................... 6
         Performance Goals and Results.............................................................................................................. 7
         Management Challenges ...................................................................................................................... 10
         Future Demands, Risks, Uncertainties, Events, Conditions and Trends .............................................. 14
         USDA’s Results Agenda—Implementing Federal Management Initiatives ........................................ 15
         Financial Statement Highlights ............................................................................................................ 25
         Management Accountability and Control ............................................................................................ 28

II.      Annual Performance Report................................................................................... 33
         Strategic Goal 1: Enhance Economic Opportunities for Agricultural Producers ................................. 34
         Strategic Goal 2: Support Increased Economic Opportunities and Improved Quality of Life In Rural
         America................................................................................................................................................ 59
         Strategic Goal 3: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply......... 75
         Strategic Goal 4: Improve the Nation’s Nutrition and Health.............................................................. 95
         Strategic Goal 5: Protect and Enhance the Nation’s Natural Resource Base and Environment......... 110
         Fiscal Year 2005 Program Obligations Incurred................................................................................ 123
         Fiscal Year 2005 Staff Years ............................................................................................................. 131
         Data Assessment of Performance Measures....................................................................................... 133
         Program Assessment Rating Tool (PART) Evaluations..................................................................... 159
         Program Evaluations .......................................................................................................................... 173

III. Systems, Controls and Legal Compliance ........................................................... 185
         Inspector General Act Amendments of 1988 Management’s Report on Audit Follow-Up ............... 185
         Federal Managers’ Financial Integrity Act Report on Management Controls .................................. 192
         Federal Financial Management Improvement Act Report on Financial Management Systems......... 200

IV.      Financial Statements, Notes, Supplemental and Other Accompanying
         Information............................................................................................................. 209
         Message From The Chief Financial Officer....................................................................................... 209
         Consolidated Financial Statements .................................................................................................... 211
         Required Supplementary Stewardship Information ........................................................................... 216
         Required Supplementary Information ................................................................................................ 282

V.       Report of the Office of Inspector General ........................................................... 313
VI.      Appendices.............................................................................................................. 317
         Appendix A—Management Challenges............................................................................................. 317
         Appendix B—Improper Payment and Recovery Auditing Details .................................................... 336
         Appendix C—Table of Exhibits......................................................................................................... 354
         Appendix D—Acronyms.................................................................................................................... 357



                                                                                                                                                         USDA
                                        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                      i
11/9/2005 5:07 PM




                      MESSAGE FROM THE SECRETARY
The United States Department of Agriculture (USDA) appreciates this
opportunity to share with Congress, the Executive Branch, and all Americans
information on the important efforts undertaken and progress made on your
behalf during the past year. From expanding the economic security and
opportunities available to farmers and ranchers, to safeguarding the Nation’s
food supply, to enhancing the quality of life in rural America, to promoting
nutrition and health, to protecting our natural resources, USDA has a proud
record of accomplishment in 2005 advancing timeless objectives for our
Nation. We are pleased to share the highlights of our efforts in this FY 2005
Performance and Accountability Report.

USDA and its more than 100,000 employees directly touch the lives of
virtually every American every day. Evolving over 140 years, USDA is one
of the most complex departments in the Federal Government, with more than 300 programs advancing
progress in a diverse array of significant public responsibilities. Annually, we spend more than $75 billion of
our fellow Americans’ money. In 2005, these resources helped:
            Expand economic opportunities and security for farmers, ranchers, and rural communities by
            implementing the Farm Security and Rural Investment Act of 2002;
            Provide access to a healthy diet for needy households;
            Improve the health of low-income pregnant and postpartum women, infants, and children;
            Aid U.S. agricultural producers battered by severe weather conditions;
            Enhance U.S. farm export opportunities by advancing America’s commitment to free trade;
            Implement the President’s Healthy Forests Initiative;
            Protect public safety, homes, and resources during a severe wildland fire season in the West;
            Support the increased use of renewable fuels, such as ethanol and biodiesel, to provide new revenues
            to farmers while reducing our Nation’s dependence on foreign fuel;
            Improve and expand conservation programs;
            Invest in infrastructure that can bring new economic opportunities and jobs to rural areas;
            Modernize the nutrition guidance we give the Nation to reflect the latest scientific information and to
            increase our efforts to combat our country’s growing obesity epidemic;
            Further advance food safety and protect U.S. agriculture from both existing and emerging threats;
            and
            Leverage technology to ensure that the resources provided to us by Congress and the American
            people reach those who need them, with minimal expense and maximum impact.




 USDA
     ii             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
11/9/2005 5:07 PM




The dedicated public servants of USDA have good reason to be proud of the work they did in 2005. Their
efforts have made a tangible, positive difference in the lives of all Americans—from the safety of the food on
your plate, to the abundance and affordability of the food in your grocery store, to the economic viability of
America’s farms and ranches, to the prosperity and opportunity available in rural communities, to the
wholesome meals provided to citizens in need, and to agriculture’s contributions to global food security and
international commerce. To ensure we have a strong foundation for the performance and accountability
process, USDA managers have reviewed the data used in this report. Except where we point out and discuss
specific limitations, I hereby provide reasonable assurance that the data we provide are valid, reliable, and an
accurate measure of where we have made real progress and where we still have room for improvement. This
effort complies with the Federal Managers’ Financial Integrity Act (FMFIA), both in terms of the strength of
our financial management systems and of the overall efficient, effective operations of our programs.

This report also satisfies FMFIA reporting requirements. FMFIA ensures that Federal programs are operated
efficiently, effectively, and in compliance with relevant laws. Therefore, except for those areas in need of
improvement identified in this document, USDA is providing qualified assurance that our systems of internal
control comply with FMFIA’s objectives. FMFIA also requires financial systems to conform to certain
standards, principles, and other specifications to ensure timely, relevant, and consistent financial information.
The Department’s financial management systems comply substantially with the objectives of FMFIA, with the
exception of the material deficiencies identified in this report.

USDA was first called “the people’s department” by President Abraham Lincoln. I believe we still live up to
that title today. I am proud of our employees and the positive impact their diverse efforts have had on
American life over the course of the past year. I also want to thank you for your interest in USDA and its
work. I am pleased to share this information with all of our stakeholders, and I look forward to reporting even
more progress in the year ahead.




Mike Johanns
Secretary of Agriculture
November 15, 2005




                                                                                                         USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  iii
11/9/2005 5:07 PM




                               ABOUT THIS REPORT
The Government Performance and Results Act of 1993 requires all Federal agencies to engage in a strategic
planning process that directly aligns resources with results, and enhances the accountability of all government
endeavors to the American taxpayers who finance them.

This results-oriented process includes the development and implementation of a five-year strategic plan, as
well as annual reporting that sets specific, measurable targets for performance at the beginning of each fiscal
year and then offers a concrete, data-based assessment at year-end of the success of these endeavors.

This FY 2005 Performance and Accountability Report is the year-end progress report of the U.S. Department
of Agriculture (USDA). It reviews the strategic goals and objectives the Department set for itself at the
beginning of the fiscal year and compares initial targets to actual performance.

In addition to promoting accountability and enhancing the management of USDA programs, this reporting
also helps illuminate the strategic allocation of resources in the future, by directly linking program
performance to budgetary decisions.

This report aims to inform the decisions of policymakers who make critical choices that impact USDA
programs. It also strives to provide transparency to all Americans who have an interest in the workings of
their government and USDA’s ability to “manage for results” in performing its many vital public functions.




 USDA
     iv             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
I.                 Management’s Discussion and Analysis

AN OVERVIEW OF THE UNITED STATES DEPARTMENT OF
AGRICULTURE
Exhibit 1:          Headquarters Organization

                                                                  SECRETARY
                                                                  SECRETARY
                                                                 Deputy
                                                                 DeputySecretary
                                                                        Secretary




     Chief
     ChiefInformation
            Information      Chief
                             ChiefFinancial
                                   Financial                                         Executive
                                                                                      Executive              Director
                                                                                                              Directorof
                                                                                                                       of
                                                   Inspector
                                                    InspectorGeneral
                                                             General                                                                General
                                                                                                                                    GeneralCounsel
                                                                                                                                            Counsel
           Officer
           Officer               Officer
                                 Officer                                             Operations
                                                                                     Operations            Communications
                                                                                                           Communications




           Under Secretary     Under Secretary       Under Secretary            Under Secretary      Under Secretary      Under Secretary        Under Secretary
             for Natural        for Farm and            for Rural                  for Food,         for Food Safety       for Research,        for Marketing and
           Resources and           Foreign            Development                Nutrition, and                            Education and            Regulatory
            Environment          Agricultural                                     Consumer                                  Economics               Programs
                                  Services                                         Services
          • Forest Service    • Farm Service        • Rural Utilities          • Food and            • Food Safety and   • Agricultural         • Agricultural
          • Natural             Agency                Service                    Nutrition Service     Inspection          Research Service       Marketing
            Resources         • Foreign             • Rural Housing            • Center for            Service           • Cooperative State      Service
            Conservation        Agricultural          Service                    Nutrition Policy                          Research,            • Animal and Plant
            Service             Service             • Rural Business-            and Promotion                             Education, and         Health Inspection
                              • Risk                  Cooperative                                                          Extension Service      Service
                                Management            Service                                                            • Economic             • Grain Inspection,
                                Agency                                                                                     Research Service       Packers and
                                                                                                                         • National               Stockyards
                                                                                                                           Agricultural           Administration
                                                                                                                           Statistics Service




                                        Assistant
                                        AssistantSecretary
                                                    Secretary     Assistant
                                                                  AssistantSecretary
                                                                            Secretary       Assistant
                                                                                            AssistantSecretary
                                                                                                        Secretary
                                         for
                                          forCongressional
                                             Congressional        for
                                                                   forAdministration
                                                                      Administration          for
                                                                                               forCivil
                                                                                                  CivilRights
                                                                                                        Rights
                                              Relations
                                              Relations




                 Mission Statement:
                     The United States Department of Agriculture provides leadership on food,
                     agriculture, natural resources, quality of life in rural America and related issues
                     based on sound public policy, the best-available science and efficient
                     management.



The United States Department of Agriculture (USDA) is a diverse and complex organization with programs
that touch the lives of all Americans every day. More than 100,000 employees deliver more than $75 billion in
public services through USDA’s more than 300 programs worldwide, leveraging an extensive network of
Federal, State and local cooperators.

Founded by President Abraham Lincoln in 1862, when more than half of the Nation’s population lived and
worked on farms, USDA’s role has evolved. Today, USDA improves the Nation’s economy and quality of life
by:
              Enhancing economic opportunities for U.S. farmers and ranchers;



                                                                                                                                                         USDA
                                        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                      1
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            Ensuring a safe, affordable, nutritious and accessible food supply;
            Caring for public lands and helping people care for private lands;
            Supporting the sound, sustainable development of rural communities;
            Expanding global markets for agricultural and forest products and services; and
            Working to reduce hunger and improve America’s health through nutrition.

Addressing these concerns presents its share of challenges. America’s food and fiber producers operate in a
global, technologically advanced, rapidly diversifying and highly competitive business environment driven by
sophisticated consumers.

This report provides information on USDA’s core performance measures as described in its revised FY 2005
Annual Performance Plan/Performance Budget. There are five strategic goals that guide the Department.
They are:
            To enhance economic opportunities for agricultural producers;
            To support increased economic opportunities and improved quality of life in rural America;
            To enhance protection and safety of the Nation’s agriculture and food supply;
            To improve the Nation’s nutrition and health; and
            To protect and enhance the Nation’s natural resource base and environment.

The primary legislative authority guiding USDA’s efforts is the Farm Security and Rural Investment Act of
2002 (FSRIA). This law aims to advance: a reliable, safe and affordable food and fiber supply; sound
stewardship of agricultural land and water resources; the economic opportunities available for American farm
products at home and abroad; continued economic and infrastructure development in rural America; and
leading-edge research to maintain an efficient and innovative agricultural and food sector.

Some of the more substantial reforms called for by this legislation include:
            Introducing counter-cyclical farm income support to assist farmers during hard times;
            Expanding conservation programs and adding emphasis on farm environmental practices;
            Making more borrowers eligible for Federal farm credit assistance;
            Restoring food stamp eligibility for legal immigrants;
            Adding several commodities to those requiring country-of-origin labeling;
            Introducing animal welfare provisions; and
            Enhancing the Nation’s biobased product and bioenergy programs.

As USDA moved into the fourth year of implementing this legislation, FY 2005 key milestones included:
            Announcing $1.7 billion in funding for conservation programs on working lands;
            Allocating funds to States for financial and technical assistance for FSRIA programs and other
            activities. USDA will use at least $30 million for technical service providers and nearly $41 million
            to implement the new Conservation Security Program (CSP) under a final rule that will be published



 USDA
     2              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                      MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            shortly. CSP is a voluntary program that provides financial and technical assistance to promote the
            conservation and improvement of soil, water, air, energy, plant and animal life, and other
            conservation purposes on Tribal and private working lands. The allocation also includes $54 million
            in financial assistance for the Grasslands Reserve Program (GRP), which the Department hopes to
            operate this year under an interim final rule that will be published shortly. GRP is a voluntary
            program that helps landowners and operators restore and protect grassland, including rangeland and
            pastureland, and certain other lands, while maintaining the areas as grazing lands;
            Publishing a Departmental final rule for Conservation Innovation Grants and announcing the
            availability of more than $19 million to fund selected grant proposals in 2005;
            Publishing a Departmental regulation to establish the USDA policy to increase the purchase and use
            of biobased products to the extent practicable;
            Implementing the Beginning Farmer and Rancher Contract Land Sales Program. This pilot program
            guarantees up to five loans each in at least five geographically diverse States. A private seller will
            make these loans to a beginning farmer on a contract land sale basis provided that underwriting
            criteria are met and a commercial bank agrees to serve as escrow agent;
            Providing funds to help rural businesses create or save more than 15,000 jobs;
            Approving $331 million of funding for broadband loans and reviewing additional applications;
            Awarding $21 million in grants under the Renewable Energy and Energy Efficiency Program for FY
            2005. The program is designed to help rural small businesses, farmers and ranchers develop
            renewable energy systems and promote energy efficiency improvements;
            Awarding with the U.S. Department of Energy (DOE) $12.6 million in grants under the USDA and
            DOE’s joint Biomass Research and Development Program to 11 projects in FY 2005. The program
            makes grants available to eligible entities to research develop and show the benefits of biobased
            products, bioenergy, biofuels, biopower, and related processes;
            Making almost $67 million in Bioenergy Program producer payments for FY 2005. The Bioenergy
            Program seeks to expand industrial consumption of agricultural commodities by promoting their use
            in bioenergy production (ethanol and biodiesel);
            Improving surveillance programs for animal diseases, contributing to the eventual control or
            eradication of such diseases and assisting in certifying the status of the U.S. or its regions with regard
            to freedom from specific animal diseases; and
            Utilizing approximately $370 million to purchase fruits, vegetables and other specialty crops for
            distribution through USDA nutrition assistance programs. USDA made $24 million available to the
            U.S. Department of Defense for the procurement of fresh fruits and vegetables.
MISSION AREAS

To ensure that USDA’s efforts focus squarely on meeting its real world objectives, the Department’s work is
organized by mission areas, which are a collection of agencies that work together to achieve USDA’s
aforementioned strategic goals. USDA’s seven mission areas follow.




                                                                                                              USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   3
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




Natural Resources and Environment
The Natural Resources and Environment (NRE) mission area consists of the Forest Service (FS) and the
Natural Resources Conservation Service (NRCS). These agencies work to ensure sustainable management of
both public and private lands. FS manages 192 million acres of National Forests and Grasslands for the
American people. NRCS assists farmers, ranchers and other private landowners in managing their acreage for
environmental and economic sustainability. Both agencies work in partnership with Tribal, State and local
Governments, communities, related groups and other Federal agencies to protect the Nation’s soils,
watersheds and ecosystems.

Farm and Foreign Agricultural Services
The Farm and Foreign Agricultural Services (FFAS) mission area is comprised of the Farm Service Agency
(FSA), which delivers most traditional farm programs, the Foreign Agricultural Service (FAS), which assists
with U.S. agricultural exports, and the Risk Management Agency (RMA), which predominately handles
programs aimed at helping farmers and ranchers weather the unavoidable challenges inherent in agriculture,
such as natural disasters.

This mission area also includes two Government-owned corporations. The Commodity Credit Corporation
(CCC) exists to stabilize farm income and prices in order to help ensure an adequate, affordable supply of
food and fiber. This Corporation is the financial mechanism by which agricultural commodity, credit, export,
conservation, disaster and emergency assistance is provided. The Federal Crop Insurance Corporation (FCIC)
improves the economic stability of agriculture through a sound system of crop insurance.

Rural Development
The Rural Development (RD) mission area focuses on creating economic opportunities and improving the
quality of life in rural America. From rural infrastructure projects that finance the delivery of everything from
safe, running water to high-speed Internet access to housing programs and economic development initiatives,
this mission area unites a variety of valuable programs that together comprise the backbone of Federal efforts
to ensure rural communities are full participants in economic and other community opportunities.

Food, Nutrition and Consumer Services
The Food, Nutrition and Consumer Services (FNCS) mission area is comprised of the Food and Nutrition
Service (FNS), which administers Federal nutrition programs, and the Center for Nutrition Policy and
Promotion (CNPP), which provides science-based dietary guidance to the Nation. USDA’s Federal nutrition
assistance programs include the Food Stamp Program, Child Nutrition Programs, such as school lunches, and
the Special Supplemental Nutrition Program for Women, Infants and Children. These programs provide vital
access to nutritious food and support for better dietary habits for one in five Americans. USDA’s nutrition
research and promotion efforts aid all Americans by linking cutting-edge scientific research to the nutritional
needs of consumers.

Food Safety
The Food Safety Mission Area is comprised of the Food Safety and Inspection Service (FSIS), which ensures
the safety, wholesomeness and correct labeling and packaging of meat, poultry and egg products. FSIS sets
public health performance standards for food safety, and inspects and regulates these products in interstate and


 USDA
     4              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




international commerce, including imported products. This mission area has significant responsibilities
coordinating efforts among various Federal agencies, including the Department of Health and Human Services
and the Environmental Protection Agency.

Research, Education and Economics
The Research, Education and Economics (REE) mission area brings together all of the efforts underway
throughout USDA to advance a safe, sustainable and competitive U.S. food and fiber system through science
and the translation of science into real-world results. This mission area is integrally involved with every
aspect of USDA’s work. REE is comprised of the Agricultural Research Service (ARS), the Cooperative State
Research, Education and Extension Service (CSREES), the Economic Research Service (ERS) and the
National Agricultural Statistics Service (NASS).

Marketing and Regulatory Programs
The Marketing and Regulatory Programs (MRP) mission area is made up of the Agricultural Marketing
Service (AMS), the Animal and Plant Health Inspection Service (APHIS) and the Grain Inspection, Packers
and Stockyards Administration (GIPSA). This mission area facilitates the domestic and international
marketing of U.S. agricultural products, including food and fiber, livestock, and grain through a wide variety
of efforts, including the development of national and international agricultural trade standards via Federal,
State and international cooperation. This mission area also conducts increasingly critical and sophisticated
efforts to protect U.S. agriculture from plant and animal health-related threats, and ensures the humane
treatment of animals.

DEPARTMENTAL OFFICES

Department-level offices provide centralized leadership, coordination and support for USDA’s policy and
administrative functions. Their efforts support agencies which then maximize the time, energy and resources
they devote to the delivery of services to USDA customers and stakeholders.




                                                                                                       USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                5
                                MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




RESOURCES
Congressional appropriations are the primary funding source for USDA operations. FY 2005 program
obligations totaled $111.3 billion, an decrease of $.95 billion compared to FY 2004. These are current year
obligations from unexpired funds. They do not include prior year upward or downward obligation
adjustments. Staff year resources totaled 109,558, decreasing 1,943 compared to FY 2004.
Exhibit 2:              FY 2005 and 2004 USDA Program Obligations Dedicated to Strategic Goals*

                                              USDA Program Obligations Dedicated to Strategic Goals
                                      FY 2005 Actual                                                                            FY 2004 Actual

                        2005 PROGRAM OBLIGATIONS                                                             2004 PROGRAM OBLIGATIONS

                                                  Strategic Goal 1:
                                                  Enhance Economic                                           Strategic Goal 5:
               Strategic Goal 5:                                                                             Protect and Enhance
               Protect and Enhance                Opportunities for
                                                  Agricultural Producers                                     the Nation’s Natural
               the Nation’s Natural
                                                  — 15%                                                      Resource Base and
               Resource Base and
                                                                                                             Environment — 8%
               Environment — 4%
                                                                                                                                                         Strategic Goal 1:
                                                                                                                                                         Enhance Economic
                                                                                                                                                         Opportunities for
                                                                   Strategic Goal 2:                                                                     Agricultural Producers
                                                                   Support Increased                                                                     — 34%
                                                                   Economic
                                                                   Opportunities and        Strategic Goal 4:
    Strategic Goal 4:                                              Improved Quality of      Improve the Nation’s
    Improve the Nation’s                                           Life in Rural America    Nurtition and Health
    Nurtition and Health                                           — 34%                    — 40%
    — 45%

                                                                                                                                                 Strategic Goal 2:
                                                   Strategic Goal 3:                                              Strategic Goal 3:              Support Increased
                                                   Enhance Protection                                             Enhance Protection             Economic
                                                   and Safety of the                                              and Safety of the              Opportunities and
                                                   Nation’s Agriculture                                           Nation’s Agriculture           Improved Quality of
                                                                                                                  and Food Supply                Life in Rural America
                                                   and Food Supply — 2%
                                                                                                                  — 3%                           — 15%


 *The sum of the pie chart percentages may be greater than 100 percent because of rounding.

Exhibit 3:              FY 2005 and 2004 USDA Staff Years Dedicated to Strategic Goals*

                                                        USDA Staff Dedicated to Strategic Goals
                                      FY 2005 Actual                                                                           FY 2004 Actual

                                2005 Staff Years                                                                            2004 Staff Years

                                                                                                                                                 Strategic Goal 1:
                                                          Strategic Goal 1:                                                                      Enhance Economic
                                                          Enhance Economic                                                                       Opportunities for
                                                          Opportunities for                                                                      Agricultural Producers
                                                          Agricultural Producers                                                                 — 23%
 Strategic Goal 5:                                        — 23%                            Strategic Goal 5:
 Protect and Enhance                                                                       Protect and Enhance
 the Nation’s Natural                                                                      the Nation’s Natural
 Resource Base and                                                                         Resource Base and
 Environment — 49%                                                                         Environment — 49%                                           Strategic Goal 2:
                                                                Strategic Goal 2:
                                                                                                                                                       Support Increasede
                                                                Support Increasede
                                                                                                                                                       Economic Opportunities
                                                                Economic Opportunities
                                                                                                                                                       and Improved Quality of
                                                                and Improved Quality of
                                                                                                                                                       Life in Rural America —
                                                                Life in Rural America
                                                                — 7%
                                                                                                                                                       8%


                                                       Strategic Goal 3:                                                                            Strategic Goal 3:
                                                       Enhance Protection                                                                           Enhance Protection
                 Strategic Goal 4:                     and Safety of the                                   Strategic Goal 4:                        and Safety of the
                 Improve the Nation’s                  Nation’s Agriculture                                Improve the Nation’s                     Nation’s Agriculture
                 Nutrition and Health                  and Food Supply                                     Nutrition and Health                     and Food Supply
                 — 3%                                  — 18%                                               — 3%                                     — 18%




 *The sum of the pie chart percentages may be greater than 100 percent because of rounding.




 USDA
      6                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                        MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




PERFORMANCE GOALS AND RESULTS
Of the performance goals contained in USDA’s FY 2005 Revised Annual Performance Plan/Performance
Budget, 29 were met or exceeded, 6 were reported as deferred [unable to report the necessary data until a
specified date] and 4 were unmet. The following Performance Scorecard, organized by USDA’s strategic
goals and objectives, provides a summary of the Department’s performance results. Additional analyses of
these results can be found in the Performance Section of this report. Information on data quality is contained
in the Data Assessment of Performance Measures section.
Exhibit 4:          USDA Scorecard for FY 2005

                                           Performance Scorecard for FY 2005
             Objectives                               Annual Performance Goals                                Result
                      Strategic Goal 1: Enhance Economic Opportunities for Agricultural Producers
 1.1       Expand International    1.1.1   Dollar value of trade preserved through USDA staff                Exceeded
           Market Opportunities            interventions and trade agreement monitoring
 1.2       Support International   1.2.1   Number of mothers, infants and schoolchildren receiving daily     Exceeded
           Economic                        meals and take-home rations through McGovern-Dole
           Development and                 International Food for Education and Child Nutrition Program
           Trade Capacity
           Building
 1.3       Expand Alternative      1.3.1   Number of groups of biobased products designated for              Deferred
           Markets for                     procurement.
           Agricultural Products
 1.4       Provide Risk            1.4.1   Increase the percentage of beginning farmers, racial and ethnic   Exceeded
           Management and                  minority farmers, and women farmers financed by USDA
           Financial Tools to                                                                                Exceeded
                                   1.4.2   Reduce average processing time for direct loans
           Farmers and
           Ranchers                1.4.3   Reduce average processing time for guaranteed loans                 Met
                                   1.4.4    Increase the value of risk protection provided to agricultural   Exceeded
                                            producers through FCIC-sponsored insurance
     Strategic Goal 2: Support Increased Economic Opportunities and Improved Quality of Life in Rural America
 2.1      Expand Economic        2.1.1   Create or save additional jobs through USDA financing of      Exceeded
          Opportunities through          businesses
          USDA Financing of
          Businesses
 2.2      Improve the Quality of 2.2.1   Homeownership opportunities provided                          Exceeded
          Life in Rural America
          through USDA                                                                                  Unmet
                                 2.2.2   Customers served by new or improved telecommunications
          Financing of Quality
                                         facilities
          Housing, Modern
          Utilities and Needed   2.2.3   Customers served by new or improved water and waste           Exceeded
          Community Facilities           disposal facilities
                                 2.2.4   Customers served by new or improved electric facilities       Exceeded

                                   2.2.5    Customers served by new or improved community facilities           Met

               Strategic Goal 3: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
 3.1       Reduce the Incidence     3.1.1  Prevalence of Salmonella on broiler chickens                    Unmet
           of Foodborne                                                                                     Met
                                    3.1.2  Prevalence of Listeria monocytogenes in ready-to-eat meat and
           Illnesses Related to
                                           poultry products
           Meat, Poultry and Egg
           Products                 3.1.3  Prevalence of E. coli O157:H7 on ground beef                     Met
                                    3.1.4  Millions of viewings of food safety messages (mixed media —    Exceeded
                                           e.g., USDA Food Safety Mobile, USDA Meat and Poultry
                                           Hotline, etc.).




                                                                                                                USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                    7
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                               Performance Scorecard for FY 2005
            Objectives                                      Annual Performance Goals                                 Result
 3.2       Reduce the Number           3.2.1   Number of significant introductions of foreign animal diseases         Met
           and Severity of                     and pests that spread beyond the original area of introduction
           Agricultural Pest and               and cause severe economic or environmental damage, or
           Disease Outbreaks                   damage to the health of animals or humans
                                       3.2.2    Percentage of facilities in complete compliance at the most          Unmet
                                                recent inspection
                                       3.2.3    Number of animals affected by noncompliances documented on           Unmet
                                                inspection reports
                                       3.2.4    Expand the ability to detect plant diseases to protect the Nation   Exceeded
                                                from disease outbreaks
                                       3.2.5    Expand the ability to detect animal diseases to protect the         Exceeded
                                                Nation from disease outbreaks
                                       3.2.6    Provide scientific information to protect animals from pests,         Met
                                                infectious diseases, and other disease-causing entities that
                                                impact animal and human health
                                   Strategic Goal 4: Improve the Nation’s Nutrition and Health
 4.1       Improve Access to           4.1.1   Rates of eligible populations participating in the Food Stamp        Deferred
           Nutritious Food                     Program
                                       4.1.2    Rates of eligible populations participating in the School           Deferred
                                                Breakfast Program
                                       4.1.3    Rates of eligible populations participating in the Special          Deferred
                                                Supplemental Nutrition Program for Women, Infants and
                                                Children
 4.2       Promote Healthier           4.2.1    Improve the Healthy Eating Index (HEI) scores for the U.S.          Deferred
           Eating Habits and                    population
           Lifestyles                                                                                                 Met
                                       4.2.2    Determine food consumption patterns of Americans, including
                                                those of different ages, ethnicity, regions, and income levels.
                                                Provide sound scientific analyses of U.S. food consumption
                                                information to enhance the effectiveness and management of
                                                the Nation's domestic food and nutrition assistance programs.
 4.3       Improve Food            4.3.1   Increase Food Stamp payment accuracy                            Deferred
           Program Man-
           agement and
           Customer Service
              Strategic Goal 5: Protect and Enhance the Nation’s Natural Resource Base and Environment
 5.1       Implement the           5.1.1   Number of acres of hazardous fuel treated that are in the         Met
           President’s Healthy             wildland urban interface and the percentage identified as high
           Forests Initiative and          priority through collaboration consistent with the 10-year
           Other Actions to                Comprehensive Strategy Implementation Plan
           Improve Management                                                                              Exceeded
                                   5.1.2   Number of acres of hazardous fuel treated that are in Condition
           of Public Lands
                                           Classes 2 or 3 in Fire Regimes 1,2, or 3 outside the wildland-
                                           urban interface, and percentage identified as high priority
                                           through collaboration consistent with the 10-year plan
                                       5.13     Number of acres of: hazardous fuel treated with direct funds
                                                outside the wildland urban interface in Condition Class 1 in Fire
                                                Regimes 1, 2, and 3 and in all Condition Classes in Fire
                                                Regimes 4 and 5; and hazardous fuel reduction for all Fire
                                                Regimes as a secondary benefit of other vegetation
                                                management that improve Condition Class.
 5.2       Improve Management          5.2.1    Conservation plans written for cropland and grazing lands             Met
           of Private Lands                                                                                           Met
                                       5.2.2    Cropland and grazing lands with conservation applied to protect
                                                the resource base and environment
                                       5.2.3    Reduction in the acreage of cropland soils damaged by erosion         Met
                                       5.2.4    Number of comprehensive nutrient management plans applied             Met




 USDA
     8              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                     MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                          Performance Scorecard for FY 2005
             Objectives                               Annual Performance Goals                           Result
                                  5.2.5   Increase Conservation Reserve Program (CRP acres of riparian    Met
                                          and grass buffers)
                                  5.2.6   Agricultural wetlands created, restored, or enhanced             Met
                                  5.2.7   Increase CRP restored wetland acres                              Met


ACTIONS ON UNMET AND DEFERRED GOALS

USDA continuously works to improve its performance across all of its strategic goals and objectives. While
substantial anecdotal information exists that USDA has pursued its strategic objective to improve the Nation’s
nutrition and health successfully, with the exception of research goals, the Department has deferred reporting
on these goals until accurate and complete data are available to document the progress of these efforts in FY
2005. Sometimes circumstances arise that result in the Department falling short of its goals. At other times,
while USDA consciously alters its approach to enhance its service to the public, the Department makes a
specific performance goal a less effective indicator of real progress. The Annual Performance Report section
of this report offers further discussion of the Department’s actions on its goals.
            Performance Goal 1.3.1—Deferred. Number of groupings of biobased products designated for
            procurement. Regulations advancing this performance goal have been delayed. It is expected that the
            first designation will be published as a final rule during the second quarter of FY 2006.
            Performance Goal 2.2.2—Unmet. Increase the number of subscribers receiving new and/or
            improved telecommunication services (broadband). The primary reason for this performance goal
            being unmet is that the budget authority was not fully utilized. USDA is increasing outreach efforts
            to assist prospective loan applicants and to increase awareness of the Broadband program. However,
            USDA will monitor this and reevaluate the target if any trends indicated the need to reevaluate how
            many loan dollars are needed per subscriber receiving new or improved service.
            Performance Goal 3.1.1—Unmet. Prevalence of Salmonella on broiler chickens. FSIS did not have
            a risk-based, public policy in place in FY2005 to specifically target upward trends in this
            performance measure. Beginning in FY 2006, FSIS has identified specific actions that will be
            published in the Federal Register that are expected to be implemented and will target poultry
            operations that exceed an action level that is set below the current regulatory limit. The FSIS actions
            will focus on ensuring that poultry operations are fully addressed factors that contribute to increased
            likelihood of Salmonella presence on broilers.
            Performance Goal 3.2.2—Unmet. Percentage of facilities in complete compliance at the most recent
            inspection. Data for the number of animals affected by compliances documented on inspection
            reports in 2005 were inaccurate. Thus, there is no means to compare program performance in FY
            2005 with previous years. The Licensing and Registration Information System database, which
            provides these data, is obsolete and will be replaced during the coming year.
            Performance Goal 3.2.3—Unmet. Number of animals affected by noncompliances documented on
            inspection reports. Data for the number of animals affected by compliances documented on
            inspection reports in 2005 were inaccurate. Thus, there is no means to compare program performance




                                                                                                            USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  9
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            in FY 2005 with previous years. The Licensing and Registration Information System database, which
            provides these data, is obsolete and will be replaced during the coming year.
            Performance Goal 4.1.1—Deferred. Rates of eligible populations participating in the Food Stamp
            Program. The measure has been deferred due to unavailable data.
            Performance Goal 4.1.2—Deferred. Rates of eligible populations participating in the School
            Breakfast Program. The measure has been deferred due to unavailable data.
            Performance Goal 4.1.3—Deferred. Rates of eligible populations participating in the Special
            Supplemental Nutrition Program for Women, Infants and Children. The measure has been deferred
            due to unavailable data.
            Performance Goal 4.2.1—Deferred. Promote the Healthy Eating Index. The measure has been
            deferred due to unavailable data.
            Performance Goal 4.3.1—Deferred. Improve Food Program Management and Customer Service.
            The measure has been deferred due to unavailable data.

MANAGEMENT CHALLENGES
The Office of Inspector General (OIG) prepares an annual report to the Secretary on the most serious
management challenges faced by the Department (Appendix A). USDA management addresses these
challenges and responds by providing accomplishments for the current fiscal year and planned actions for the
upcoming fiscal year, if required. The chart below compares the challenges reported by OIG in the FY 2004
report with those that remain in the FY 2005 Management Challenges Report.
             FY 2004 Management Challenges                              FY 2005 Management Challenges
 Increased Oversight and Monitoring of Food Safety          Interagency Communication, Coordination and Program
 Inspection Systems are Needed                              Integration Need Improvement
 Research Misconduct Policy Not Consistently Implemented
 Agencies Need to Better Coordinate Program Delivery and
 Control
 Financial Management – Improvements Made but               Implementation of Strong, Integrated Management Control
 Additional Actions Still Needed                            (Internal Control) Systems Still Needed
 Integrity of the Federal Crop Insurance Programs Must be
 Strengthened Through Improved Quality Control Systems
 and IT Processing
 A Strong Internal Control Structure is Paramount to the
 Delivery if Forest Service Programs
 Information Technology Security – Much Accomplished,       Continuing Improvements Needed in Information
 More Needed                                                Technology (IT) Security
 Risk Must be Examined and Improper Payments Minimized      Reducing Improper Payments Continues to be a Priority of
 Within USDA                                                Congress and the Administration
 Homeland Security Considerations Should be Incorporated    Departmental Efforts and Initiatives in Homeland Security
 Into Program Design and Implementation                     Need to be Maintained
 Controls over Germplasm Storage Material and Genetically   Department-wide Efforts and Initiatives on Genetically
 Engineered Organism Field Testing are Critical to U.S.     Engineered Organisms Need to be Strengthened
 Markets
 Civil Rights Complaints Processing Still a Concern at      This challenge has been removed from the list.
 USDA
 Improvements and Safeguards Needed for the Rural Multi-    This challenge has been removed from the list.
 Family Housing Program




 USDA
    10              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




The table that follows includes FY 2005 accomplishments and/or FY 2006 planned actions.

USDA’s Management Challenges
                                                             Fiscal Year 2005 Accomplishments and/or Planned
             2005 Major Management Challenges                            Actions for Fiscal Year 2006
 1) Interagency Communications, Coordination, and Program Integration Need Improvement
 • Establish comprehensive information management          USDA has implemented electronic verification of
   systems, data reconciliation processes, and effective   participant eligibility through the Program Contracting
   data mining for farm programs                           System. This system uses a web link to USDA records for:
                                                           • Obtaining current and prior-year eligibility information;
                                                           • Internal controls to enforce business rules and screen
                                                              eligibility; and
                                                           • Controls to block unauthorized obligations and
                                                              payments for applicants.
                                                           Policy guidance was issued in August 2005.
                                                           The Risk Management Agency, Farm Service Agency and
                                                           the Natural Resources Conservation Service have joined
                                                           efforts to develop a web-based:
                                                           • County office application;
                                                           • Management reporting application; and
                                                           • Notification system that will allow county offices and
                                                             approved insurance providers the ability to
                                                             communicate on reported discrepancies and track
                                                             progress.
 • Implement a Department-wide Research Misconduct         The REE mission area will:
   Policy                                                  • Coordinate and implement a Department wide research
                                                             misconduct policy that is compliant with the Office of
                                                             Science and Technology requirements; and
                                                           • Develop Memoranda of Understanding with the
                                                             Department’s research agencies for the referral of
                                                             research misconduct allegations.
 • Ensure that animal disease surveillance program         On July 6, 2005, APHIS and FSIS entered into a
   policies and procedures are well-defined and            Memorandum of Understanding documenting shared
   supportable and terminology and practices are           responsibilities to ensure the safety of the food supply.
   consistent with public announcements                    USDA’s Veterinary Services’ National Center for Import
                                                           and Export (NCIE) established an intranet site to allow
                                                           staff to communicate on policy changes. For more
                                                           information, visit www.aphis.usda.gov/vs/ncie/. NCIE has
                                                           also developed a tracking system that will serve as a
                                                           central point of access for:
                                                           • Current policy changes;
                                                           • Product certifications; and
                                                           • Permit guidelines.
                                                           To further strengthen controls, FSIS and APHIS will:
                                                           • Evaluate the FSIS ante-mortem/alternative collection
                                                             site procedures to ensure that no condemned animals
                                                             enter the food supply;
                                                           • Evaluate the Bovine Spongiform Encephalopathy
                                                             Surveillance Program for application to other animal
                                                             disease surveillance programs; and
                                                           • Continue efforts to enhance communications between
                                                             APHIS and FSIS on border related investigations.




                                                                                                                  USDA
                              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                        11
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                                             Fiscal Year 2005 Accomplishments and/or Planned
            2005 Major Management Challenges                              Actions for Fiscal Year 2006
 2) Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed
 Strengthen the quality control in the Federal Crop       RMA will conduct a review of selected insurance provider
 Insurance Programs.                                      operations to evaluate compliance with quality control
                                                          guidelines as outlined in the Standard Reinsurance
                                                          Agreement.
 Prepare complete, accurate financial statements without  OCFO in conjunction with component agencies will
 extensive manual procedures and adjustments.             continue to improve financial systems and support
                                                          financial reports by automating manual processes.
 Improve Forest Service (FS) internal controls and        FS planned actions include:
 management accountability in order to effectively manage • Establishing accountability for performance measure
 its resources, measure its progress towards goals and        reporting accuracy;
 objectives, and accurately report its accomplishments.   • Establishing management controls to ensure adequate,
                                                              reliable, and verifiable information;
                                                          • Holding managers accountable; and
                                                          • Ensuring that targets and goals not met are identified.
                                                                 To further ensure accountability, FS will:
                                                                 • Conduct comprehensive risk assessments of its
                                                                    programs and develop plans to address identified risks;
                                                                 • Obtain closure on 50% of audits less than 1 year old;
                                                                    and
                                                                 • Obtain official closure on 70% of outstanding audits
                                                                    more than 1 year old.
 3) Continuing Improvements Needed in Information Technology (IT) Security
 Agencies need to:                                                To compliment agency-specific initiatives to address these
 • Emphasize security program planning and                        challenges, OCIO will:
    management;                                                   • Amend existing certification and accreditation policy to
 • Establish an internal control program throughout the              add the Associate Chief Information Officer for Cyber
    systems’ lifecycle;                                              Security as a mandatory concurrence signatory to all
 • Identify, test, and mitigate IT security vulnerabilities (risk    accreditations;
    assessments);                                                 • Engage multiple contractors to perform a wide variety of
 • Improve access controls;                                          security activities including Federal Information Security
 • Implement appropriate application and system software             Management Act tracking and reporting, security
    change control; and                                              strategic planning, and independent verification and
 • Develop disaster contingency (service continuity) plans.          validation of accreditations;
                                                                 • Develop an information technology security scorecard
                                                                   to rate agencies/systems owners on security posture;
                                                                   and
                                                                 • Develop and implement a sustainable process to
                                                                   perform periodic on-site compliance reviews.
 4) Reducing Improper Payments Continues to be a Priority of Congress and the Administration
 Assign sufficient resources and provide management      In addition to agency-specific plans outlined in Appendix B,
 oversight.                                              OFCO will:
 Strengthen program risk assessment methodology to               • Develop a list of all programs and a plan to conduct risk
 identify and test the critical internal controls over program     assessments by the end of the second quarter of fiscal
 payments totaling over $100 billion.                              year 2006;
 Develop a supportable methodology/process to detect and         • Ensure that agencies complete sampling results and
 estimate the extent of improper payments.                         corrective action plans for all high-risk programs; and
                                                                 • Ensure that agencies develop plans to measure
 Develop and implement a corrective action plan to address         improper payments for all high risk programs in
 the weaknesses that allowed the improper payments to              FY 2007.
 occur.
 Agencies that have identified programs that are susceptible
 to improve payments need to develop and implement
 action plans to reduce the amount of these payments.




 USDA
    12              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                                               Fiscal Year 2005 Accomplishments and/or Planned
            2005 Major Management Challenges                                 Actions for Fiscal Year 2006
 5) Departmental Efforts and Initiatives in Homeland Security Need to be Maintained
 Continue efforts to coordinate with DHS in implementing     APHIS will:
 effective control systems to ensure the safety and security • Finalize a Memorandum of Understanding with the
 of agricultural products entering the country.                 Department of Homeland Security (DHS) to perform
                                                                joint port reviews; and
                                                             • Schedule regular meetings with DHS to ensure
                                                                effective coordination and communication.
                                                                FSIS will:
                                                                • Secure an agreement with the Bureau of Customs and
                                                                  Border Protection (CBP) to share information between
                                                                  agencies to improve cooperation between CBP and
                                                                  FSIS and ensure regulatory compliance and food
                                                                  defense; and
                                                                • Obtain interim access to CBP data available via the
                                                                  Internet as part of the eCustoms Partnership team.
 Conduct vulnerability and risk assessments to determine        FSA/CCC will:
 adequate food safety and security over agricultural            • Conduct on-site risk assessments of warehouse
 commodities that the Department manages, handles,                operations in collaboration with USDA’s Homeland
 transports, stores and distributes.                              Security Office and the U.S. Food and Drug
                                                                  Administration;
                                                                • Participate in Carver Plus Shock training for future risk
                                                                  assessments. Carver Plus Shock is a risk tool designed
                                                                  to identify vulnerabilities and rate the risk associated
                                                                  with those vulnerabilities. The Department of Homeland
                                                                  Security and the Department of Defense require this
                                                                  tool; and
                                                                • Evaluate results of risk assessments to identify
                                                                  vulnerabilities and develop corrective measures.
 Continue to work with OIG and other USDA agencies to           The Office of Homeland Security will:
 ensure effective coordination and implementation of            • Host bi-weekly discussions with mission area
 Homeland Security Presidential Directive 9 (HSPD-9); i.e.,       representatives; and
 develop a coordinated agriculture and food-specific
 standardized response plan for integration into the National   • Require quarterly status reports on HSPD-9 tasks.
 Response Plan and a National Veterinary Stockpile.
 Strengthen controls over select agents and toxins.             FSIS will:
                                                                • Utilize data from CBP on the status of imports arriving
                                                                  at U.S. ports of entry;
                                                                • Participate in the Federal Health Architecture (FHA)
                                                                  food safety work group; and
                                                                • Participate in the development of the International
                                                                  Trade Data Systems (ITDS). ITDS is a Federal
                                                                  Technology initiative sponsored by the CBP to
                                                                  coordinate, standardize, and simplify federal border
                                                                  clearance and other international trade and
                                                                  transportation processes.

 • Establish Department-wide policies and procedures for        FSIS will:
   defining sensitive and dual use information and              • Participate in the Federal Health Architecture (FHA)
   implementing adequate controls to protect such                 food safety group. FHA is an OMB Presidential
   information.                                                   Initiative, led by the Department of Health and Human
                                                                  Services to link local, State and Federal health
                                                                  information systems into an integrated, national health
                                                                  system; and
                                                                • Participate with 15 other agencies to develop model
                                                                  architecture for linking food-related public health
                                                                  surveillance systems.




                                                                                                                     USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                          13
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                                              Fiscal Year 2005 Accomplishments and/or Planned
          2005 Major Management Challenges                                 Actions for Fiscal Year 2006
 6) Department-wide Efforts and Initiatives on Genetically Engineered Organisms (GEO) Need to be Strengthened
 Strengthen germplasm policies and procedures.              The Biotechnology Regulatory Service (BRS) was
 Strengthen GEO field testing process.                      established under APHIS to oversee work done with
                                                            genetically engineered organisms (GEOs). APHIS
                                                            published a Federal Register notice on the scoping of a
                                                            programmatic Environmental Impact Statement (EIS) to
                                                            address regulatory revisions. The notice covered issues
                                                            such as criteria and standards for field-testing and
                                                            information requirements.
                                                            BRS will prepare the programmatic EIS that will provide
                                                            the analysis and public input needed for the major
                                                            revisions being considered. A draft will be completed in
                                                            2006.
                                                            BRS and Plant Protection and Quarantine (PPQ):
                                                            • Have signed a Memorandum of Understanding that
                                                               clarifies roles and responsibilities for field inspections,
                                                               and outlines a formal work flow for inspections and
                                                               provides guidance on cross-unit coordination;
                                                            • Have defined their responsibilities in an inspection
                                                              manual released in 2005. The manual includes:
                                                              − New inspection checklists;
                                                              − Questions directly related to regulations;
                                                              − Inspection procedures;
                                                              − Requirements for written inspection reports; and
                                                              − Guidance for inspectors to improve the consistency
                                                                  and quality of BRS inspections.
                                                            • BRS and PPQ will conduct monthly conference calls to
                                                              discuss inspections and other relevant issues.
 Establish improved methods to detect GEO products in       BRS will develop a comprehensive, integrated
 trade exports.                                             management system to track all information on permits
                                                            and notifications.



FUTURE DEMANDS, RISKS, UNCERTAINTIES, EVENTS,
CONDITIONS AND TRENDS
USDA is influenced by many of the same forces that shape the American economy—globalization of markets,
scientific advances and fundamental changes in the Nation’s family structure and workforce. U.S. farmers and
food companies operate in highly competitive markets with constantly changing demand for high quality food
with a variety of characteristics, including convenience, taste and nutrition.

In addition to these enduring factors, homeland security has emerged as a significant, ongoing priority for
USDA. The Department is working with the U.S. Department of Homeland Security to help protect
agriculture from intentional and accidental acts that might affect America’s food supply or natural resources.

External factors that will challenge USDA’s ability to achieve its desired outcomes include:
            Weather-related hardships and other uncontrollable events at home and abroad;
            Domestic and international macroeconomic factors, including consumer purchasing power, the
            strength of the U.S. dollar and political changes in other countries that can impact domestic and
            global markets greatly in any year;




 USDA
    14              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                     MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            The availability of funds for financial assistance provided by Congress and the local and national
            economies;
            Sharp fluctuations in farm prices, interest rates and unemployment also impact the ability of farmers,
            other rural residents, communities and businesses to qualify for credit and manage their debts;
            Economic conditions and actions by a variety of Federal, State and local Governments that will
            influence the sustainability of rural infrastructure;
            The increased movement of people and goods, which provides the opportunity for crop and animal
            pests and diseases to move quickly across national and international boundaries; and
            Potential exposure to hazardous substances, which may threaten human health and the environment,
            and the ability of the public and private sectors to collaborate effectively on food safety, security and
            related emergency preparedness efforts.

USDA’S RESULTS AGENDA—IMPLEMENTING FEDERAL
MANAGEMENT INITIATIVES
USDA is working to strengthen its focus on results through vigorous execution of the President’s
Management Agenda (PMA). This agenda focuses on management improvements that help USDA
consistently deliver more efficient and effective programs to its stakeholders. This process is designed to
improve customer service and provide more effective stewardship of taxpayer funds. As discussed in the
Department’s Strategic Plan for FY2002-2007, USDA plans to:
            Ensure an efficient, high-performing, diverse workforce, aligned with mission priorities and working
            cooperatively with partners and the private sector;
            Enhance internal controls, data integrity, management information and program and policy improve-
            ments as reflected by an unqualified audit opinion;
            Implement business processes and information technology needed to make its services available
            electronically;
            Link budget decisions and program priorities more closely with program performance and recognize
            the full cost of programs;
            Reduce improper payments by developing targets and corrective action plans, and tracking the results
            annually to ensure that the corrective actions are effective;
            Efficiently and effectively manage its real property;
            Improve its research and development investments by using objective criteria; and
            Support the essential work of faith-based and community organizations.

USDA employees are charged with executing these management initiatives, which they do with an emphasis
on customer service. The PMA calls for the Office of Management and Budget (OMB) to score departments
on each initiative. Green indicates success; yellow indicates mixed results and red indicates an unsatisfactory
score. There are two scores awarded. “Status” indicates that a department is meeting the standards established
for success. “Progress” indicates that a department is progressing adequately in meeting established




                                                                                                             USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 15
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




deliverables and timelines. As of September 30, 2005, USDA had earned a “green” progress score for all of its
initiatives. The following is a summary of major USDA management initiatives and FY 2005 highlights.

HUMAN CAPITAL

The President wants Executive agencies to be responsive to citizens and dedicated to obtaining results.
USDA’s Strategic Human Capital Plan addresses this by identifying human capital challenges and developing
an accountability system. Targeted challenges include meeting the demand for cutting-edge research talent,
creating a workforce with a combination of skills not previously required, and fully supporting the
Department’s mission with the same or fewer staff.

In managing its human capital and delivering its services to customers, USDA will continue to focus on
ensuring civil rights and equal employment opportunity for everyone, regardless of race, color, national
origin, gender, religion, age, sexual orientation, disability, or marital or familial status. The Department is
committed to continuous civil rights progress in the workplace, program delivery and processing complaints
timely and efficiently.

USDA’s plans include:
            Maintaining the links among Departmental and agency human capital and annual performance plans;
            Integrating the human capital impact of such Presidential initiatives as competitive sourcing and
            eGovernment;
            Using workforce planning and hiring flexibility to recruit, retain and reward employees while
            developing a high-performing and accountable workforce; and
            Ensuring employment opportunities for all, while implementing programs targeting critical
            occupations with projected skill gaps and underrepresented groups; and

Actions taken by USDA in FY 2005 to achieve this result include:
            Aligned performance plans in mission critical occupations with the strategic goals of the
            organization. The Office of Management and Budget and the Office of Personnel Management
            (OPM) documented that at least 60 percent of all performance plans were aligned with the strategic
            goals of the organization;
            Completed a comprehensive review of the Department's human capital plan, analyzed the results and
            documented how they were used in improving human capital. This involved a review of more than
            100 human capital action strategies. It demonstrated the integration of competitive sourcing and
            eGovernment PMA initiatives with human capital;
            Achieved a hiring timeline of 28 days against the OPM standard of 45 days for general schedule
            employees and significantly reducing the hiring timeline for senior executive service employees;
            Demonstrated the use of hiring flexibilities to recruit and retain a high performing workforce
            Reduced under-representation and established process to sustain diversity; and




 USDA
    16              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                        MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            Reduced skill gaps to less than 3 percent in 18 of the Department's 19 mission critical occupations.
            Reduced the number of mission critical occupations with skill gaps exceeding 3 percent from
            4 to only 1.

COMPETITIVE SOURCING

USDA is implementing competitive sourcing reasonably and rationally to achieve significant cost savings,
improved performance and a better alignment of the agency’s workforce to its mission. This initiative is
aimed at improving organizations through efficient and effective competition between public and private
sources. The Department will continue to simplify and improve the procedures for evaluating sources.

The Department improved its use of competitive sourcing process by ensuring that the studies it conducts
reflect more strategically grouped and related functions to maximize the impact of this initiative. The
Department required that a feasibility study, including cost-benefit analysis, be completed prior to conducting
a competitive sourcing study. This will ensure that functions selected for public-private sector competitions
will result in an organization implemented with lower costs and increased management efficiencies. Studies
are now being linked to agency human capital plans to ensure work force planning and restructuring, and
retention goals are met while achieving cost savings.

USDA plans to continue to evaluate its jobs to identify those that can be studied to achieve efficiency and/or
quality improvement.

Actions taken by USDA in FY 2005 to achieve this result include:
            Completed competitions improve productivity and produce annual savings;
             Estimated gross savings is $179.2 million over a five-year period for competitive sourcing
                    studies completed in FY 2004.
            Completed feasibility studies as follows:
             APHIS—Protection & Quarantine—272 FTEs – December 2004;
                    •   Results of the feasibility study did not indicate a favorable return on investment.
             Completed RMA—Program Support – 66 FTEs – December 2004;
                    •   Results of the feasibility study did not indicate a favorable return on investment.
             Completed FSIS—Financial Systems Support—44 FTEs;
                    •   Determined it is not feasible to study. Automation of the function was scheduled for
                        implementation beginning in September 2005. The modernization will eliminate the FTEs,
                        which will save $1,000,000 by July 2007.
             Completed GIPSA—Rice Inspection—45 FTEs – March 2005;
                    •   Completed GIPSA feasibility study for rice inspection indicates a positive return on
                        investment. Due to actions by Anheuser Busch to eliminate mandatory rice inspections,
                        GIPSA lost about 25 percent of its rice inspection business. As a result, GIPSA will
                        restructure its program and associated personnel. OMB has agreed to delay the start of the
                        GIPSA competitive sourcing study until GIPSA’s personnel restructuring actions have been
                        resolved—approximately in one year’s time. GIPSA will then reevaluate the feasibility of
                        conducting the study on its rice inspection services.
             Completed FAS—Administrative Support—73 FTEs—March 2005;


                                                                                                              USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                17
                        MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                    •   Results of the feasibility study did not indicate a favorable return on investment.
             Completed NRCS—Soil Conservation Technicians—280 FTEs – January 2005;
                    •   Results of the feasibility study did not indicate a favorable return on investment.
             Completed NRCS—Civil Engineering Technicians—127 FTES – January 2005;
                    •   Results of the feasibility study did not indicate a favorable return on investment.
             Completed NRCS—Geological Analysis—36 FTEs – January 2005;
                    •   Results of the feasibility study did not indicate a favorable return on investment.
            Conducted training on feasibility studies, most efficient organization and FAIR Act inventory; and
            Reviewed the FAIR Act inventory justification for similar positions among different agencies
            Department-wide and addressed inconsistencies in the classification of like functions.

Challenges
            FS Legislative Restrictions—FY 2005 $2 million cap on competitive sourcing spending;
             House Appropriations Committee’s Interior, Environment and Related Agencies Subcommittee
                    voted to continue cost limits on competitive sourcing—FY 2006 $2.5 million cap.
             FS will complete and implement the recommendations of the agency’s business process
                    reengineering initiatives for Human Resources and the Budget and Finance functions.
                    Additionally, FS is implementing the IT competitive sourcing study during FY 2005 and FY
                    2006. Completion of these major organizational and cultural changes will enable FS to begin
                    additional competitive sourcing studies in late FY 2006 and/or early FY 2007.
            Farm Service Agency (FSA) and Rural Development (RD) Legislative Restriction—FY 2005
            Appropriations Act prohibits funds to be used to study, complete a study of, or enter into a contract
            with a private party to carry out, without specific authorization in a subsequent Act of Congress, a
            competitive sourcing activity of the Secretary of Agriculture, including support personnel of the
            Department of Agriculture, relating to rural development or farm loan programs.
FINANCIAL PERFORMANCE

USDA’s Financial Performance is overseen by the Office of the Chief Financial Officer (OCFO), which
works in partnership with all USDA agencies to ensure the Department’s financial management reflects sound
business practices. The PMA requires all Federal agencies to maintain an unqualified financial statement audit
opinion, which indicates a department’s financial statements are free of significant errors or misstatements.
USDA financial managers have focused significant attention on enhancing internal controls, improving asset
management, implementing a standard accounting system and improving related corporate administrative
systems across the Department. USDA’s clean audit opinion was sustained in FY 2005.

Effectively managing the use of taxpayer dollars is a fundamental Federal responsibility. USDA intends to
ensure that all funds spent are accounted for properly to taxpayers, Congress and the Government
Accountability Office (GAO). The Office of the Chief Financial Officer (OCFO) works to improve financial
management, in partnership with the Chief Financial Officers of USDA agencies, as a core attribute of the
Department’s operating culture. OCFO is working closely with USDA agencies to eliminate all material
weaknesses.




 USDA
    18              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                     MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




OCFO will lead efforts to improve management information by helping USDA’s agencies craft and access
useful, timely information. This information includes monthly financial reports, on-line access to real-time
information and program cost reporting. By enhancing the integrity of financial and administrative data, the
Department will protect corporate assets and conserve scarce resources.

USDA has issued a Request for Information (RFI) for the Financial Management Modernization Initiative
(FMMI) for the replacement of USDA’s legacy corporate financial management system. The purpose of the
RFI is to solicit vendor comments and suggestions on our financial management concept and USDA’s
functional requirements for future systems modernization. Implementing the FMMI solution will provide
USDA agencies with a modern, efficient core financial management system. FMMI will provide high quality
information to our managers who need it, when they need it and will enable them to use the information to
manage their business areas more effectively, consistent with the OMB’s Financial Management Line of
Business initiative. USDA uses the Financial Data Warehouse to integrate program and financial information
that complies with system architecture standards in OMB Circular A-127.

USDA’s plans include:
            Maintaining an unqualified audit opinion on its financial statements;
            Eliminating all material weaknesses;
            Improving financial-reporting procedures and systems; and
            Increasing the use of financial information in day-to-day decision-making.

Actions taken by USDA in FY 2005 to achieve this result include:
            USDA sustained an unqualified audit opinion on its FY 2005 consolidated financial statements,
            making this the fourth consecutive year for receiving a clean opinion;
            The Financial Data Warehouse (FDW) modernization, used for agency ad-hoc reporting, was
            completed, migrating platforms to a mid-range environment for faster queries with enhanced query
            capabilities;
            Held monthly meetings with agency CFOs to discuss financial management policy, information
            systems, and quality assurance issues and initiatives. At these meetings, agencies are provided with
            financial indicator data to provide focus for financial reporting quality control activities;
            USDA began web enablement of USDA Corporate Financial and Performance Reporting, a quarterly
            performance system that the Secretary of Agriculture and his senior executives will use to drive
            program results;
            USDA awarded a contract to build web-enabled Financial Management Dashboards. The
            dashboards, when implemented, will provide agencies with more timely access to the results of their
            account relationship tests—a series of 28 tests that measure standard general ledger budgetary and
            proprietary account relationships. The dashboards will provide a drill-down capability to identify
            specifically where relationship failures occurred so that appropriate action to fix the problems can be
            taken; and
            USDA agencies improved their financial performance measures, targets and milestones in its efforts
            to expand the use of financial information for decision-making.



                                                                                                           USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                19
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            USDA continued reviews of year-end adjusting entries; standard general ledger abnormal balances;
            financial statement line item variance analysis; and other aspects of financial statement preparation in
            order to assure quality of financial statement data throughout the fiscal year.
            USDA developed a new methodology for automating the Statement of Financing and produced an
            automated prototype using the financial data warehouse information. This methodology was shared
            with other Departments of the Federal Government and the Federal Accounting Standards Advisory
            Board as a methodology to improve the timeliness and quality of financial data.

ENHANCING EGOVERNMENT

USDA launched a Department-wide effort in 2001 to improve the methods through which its agencies
collectively executed its broad mission objectives. The Department’s strategies, published in USDA’s
eGovernment Strategic Plan in 2002, focus on improving the delivery of its information and services and
reducing costs.

USDA is using an Enterprise Architecture to inform and guide its decision-making. Enterprise Architecture
refers to a strategic information asset base, which defines a Department’s mission, the information and
technologies necessary to perform that mission, and the transitional processes executed in response to any
changing mission needs.

USDA plans to:
            Provide customers with single points of access to information and services;
            Simplify and unify business processes spanning multiple agencies;
            Establish information and service-delivery standards; and
            Consolidate redundant information technology services and systems through use of shared USDA or
            Government solutions.

Actions taken by USDA in FY 2005 to achieve this result include:
            Provided an OMB-approved eGovernment Implementation Plan;
            Submitted completed Enterprise Architecture (EA) - improved EA score from 0.38 to 3.38;
            Fully executed all memoranda of understanding with managing partners fully;
            Remediated 36 of 43 business cases on the management watch list;
            Coordinated final earned value management regulation;
            Published draft earned value implementation guide; and
            Saw its eAuthentication service pass the security assertion markup language testing by the General
            Services Administration (GSA) and receive GSA certification. The service now becomes a Security
            Assertion Markup Language (SAML)-compliant service provider. SAML allows users with approved
            credentials to gain access to applications across the Federal Government.




 USDA
    20              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                     MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




BUDGET AND PERFORMANCE INTEGRATION

USDA continues to improve how it integrates performance information into its budget decisions. Beginning
with the FY 2005 President’s Budget, the Department integrated budget and performance throughout the
budget-formulation process. This integration includes the use of OMB’s Program Assessment Rating Tools
(PART) assessments. PART is used to assess and improve program performance and efficiency within the
Federal Government in order to achieve better results. USDA program analysts and budget staff are working
closely with mission area and agency representatives to establish budget priorities based on USDA’s strategic
goals and desired outcomes. The Department continues to improve its performance information annually.

USDA plans to:
            Continue using performance information during all stages of the budget formulation process;
            Systematically evaluate programs and integrate the results of those evaluations into the budget
            decision-making process, i.e., rely upon PART assessments in budget formulation; and
            Align the budget with the Department’s strategic plan to keep the focus on results and continue to
            encourage effective management.

Actions taken by USDA in FY 2005 to achieve this result include:
            USDA issued guidance and continued working with agencies to integrate PART recommendations
            into the formulation and presentation of agency budget proposals as well as discussing those findings
            in budget justifications;
            The Deputy Secretary held in-depth meetings with subcabinet officials to discuss the specific plans
            and milestones to address recommendations in PARTs with a “Results Not Demonstrated” rating in
            order to complete reassessments by the second quarter of FY 2006;
            The Department continues working with agencies to ensure that their milestones are reasonable and
            detailed enough to fully address OMB PART recommendations, and, lead to improved program
            performance. The Department’s budget office uses the Internal Scorecard process to track agency
            progress towards meeting these recommendations; and
            The Department’s budget office enhanced the quarterly financial and performance report in order to
            enable more active and efficient participation by Senior Department officials during the integration
            of budget and performance.

REAL PROPERTY

Executive Order (E.O.) 13327, Federal Real Property Asset Management, establishes the framework for
improved use and management of real property owned, leased or managed by the Federal Government. It is
USDA policy to promote the efficient and economical use of its real property assets and assure management
accountability for implementing Federal real property management reforms. Based on this policy, USDA
agencies shall recognize the importance of real property resources through increased management attention,
the establishment of clear goals and objectives, improved policies and levels of accountability, and other
appropriate action. As the foundation of the Department’s real property asset management program, the
following strategic objectives will be used for real property management improvement:



                                                                                                          USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               21
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                 USDA Real Property Asset Management Strategic Objectives
 1.    Department’s holdings support agency missions and
                                                              6. Provide appropriate levels of investment
       strategic goals and objectives
 2.    Maximize facility utilization by co-locating agency
                                                              7. Eliminate unneeded assets
       operations when possible
 3.    Accurately inventory and describe real property assets
                                                              8. Use appropriate public and commercial benchmarks
       using the Corporate Property Automated Information
                                                                  and best practices to improve asset management
       System
 4.    Use performance measures as part of the asset
                                                              9. Advance customer satisfaction
       management decision process
 5.    Employ life-cycle cost-benefit analysis in the real
                                                              10. Provide for safe, secure and healthy workplaces
       property decision-making process


USDA’s plans include:
            Establishing the Real Property Council (RPC) to advise the Assistant Secretary for Administration
            and Senior Real Property Officer (SRPO). RPC also will provide internal agency coordination and
            guidance, and disseminate information for implementing E.O. 13327 and the President’s
            Management Agenda within USDA;
            Establishing an asset management planning process for agencies (asset management plan) and
            agencies’ building block plans and monitoring and reporting its performance in implementing this
            policy. This work includes policies and methodologies for maintaining property holdings in an
            amount and type according to agency budget and mission. It is designed to optimize the level of real
            property operating, maintenance and security costs;
            Establishing asset management performance measures;
            Maintaining a comprehensive inventory and profile of agency real property, and providing timely
            and accurate information for inclusion into the Government-wide real property inventory database;
            Establishing a three-year rolling timeline that addresses opportunities and determines priorities as
            identified in agency building block plans, and demonstrates implementation through compliance with
            the established timeline;
            Institutionalizing the management of the Department’s real property assets consistent with its
            strategic plan, the AMP and performance measures. The Department then would use these
            documents and indicators as the foundation to assist leadership in formulating and making real
            property management decisions; and
            Actively participating in such Government-wide management vehicles as the Federal Real Property
            Council (FRPC). FRPC provides a forum to address critical real estate and workplace issues
            challenging all Federal agencies.

Actions taken by USDA in FY 2005 to achieve this result include:
            Developed a comprehensive asset management plan, including agency-specific building block plans,
            and submitted to OMB for review and approval;
            Finalized an OMB-approved methodology for implementing FRPC performance measures at the
            constructed-asset level;




 USDA
      22            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                     MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            Submitted and received OMB approval of a strategy and timeline for making necessary system
            enhancements and capturing constructed asset level FRPC data across USDA agencies; and
            Issued Secretary’s Memorandum 5100-002, Implementing Executive Order 13327-Federal Real
            Property Asset Management.

RESEARCH AND DEVELOPMENT INVESTMENT CRITERIA

This program initiative calls on Federal Government agencies to apply a framework to research using three
criteria—relevance, quality and performance. USDA’s research and development agencies—the Agricultural
Research Service (ARS); Cooperative State Research, Education and Extension Service (CSREES); Economic
Research Service (ERS); and Forest Service Research and Development—have aggressively moved forward
to integrate this framework. The use of the criteria is an effective means to ensure that programs are
addressing the right issues, meeting high-quality standards and accomplishing what they set out to do.

USDA’s plans include:
            Continuing to apply objective criteria as projects are evaluated for funding;
            Closely coordinating among research agencies to ensure that common criteria and performance
            measures are used where possible; and
            Incorporating results into decision making.

Actions taken by USDA in FY 2005 to achieve this result include:
            Its research agencies continuing to conduct independent external program reviews and committing to
            implementing such reviews in FY 2006. The reviews were structured by the three investment criteria;
            Program reviews becoming an integral component of program planning, management and assessment
            in ARS, CSREES and ERS; and
            ARS and CSREES actively using the results and recommendations from the program reviews in
            program planning and management.

ELIMINATING IMPROPER PAYMENTS

USDA has developed comprehensive internal control and quality-assurance processes and systems to ensure
accurate and complete program payments. In FY 2005, Eliminating Improper Payments became a President’s
Management Agency (PMA) initiative. The Office of the Chief Financial Officer (OCFO) issued specific
policy guidance including templates and timelines for implementing the Improper Payments Information Act
(IPIA) and meeting the goals of the PMA initiative.

Based on recent audit estimates, Federal agencies make more than $45.1 billion in improper payments
annually. The initiative requires that agencies measure their improper payments annually, develop
improvement targets and corrective action plans, and track the results annually to ensure that the corrective
actions are effective. USDA has identified 11 programs that are risk susceptible. The Department has prepared
corrective-action plans for these programs to reduce and recover improper payments. The plans will reduce
improper payments by approximately $49 million while recovering approximately $43 million in improperly




                                                                                                       USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                            23
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




made payments. Reductions in improper payments will include reducing errors in direct benefit programs and
contracting/administrative payments.

USDA plans include:
            Assessing the risk of improper payments in all its programs annually;
            Working at the Department and agency levels to reduce the number of improper payments made; and
            Recovering, where possible, overpayments made to individuals and organizations.

Actions taken by USDA in FY 2005 to achieve this result include:
            Completed risk assessments for all USDA programs and activities (286 risk assessments completed,
            11 identified as high risk);
            Developed plans to measure improper payments for all programs determined to be high risk and
            received OMB approval;
            Completed testing to determine the amount of improper payments for programs determined to be
            high risk. The results of these tests are shown in Appendix B of this report;
            Planned corrective actions and set targets to both reduce and recover improper payments. These plans
            were submitted to OMB for approval; and
            Completed a pilot recovery-auditing project at the Forest Service. Using an independent recovery
            audit contractor working on contingency, USDA was able to identify $333 thousand improper
            payments and has recovered $189 thousand to date.

For a detailed report on FY 2005 management actions, plans to address erroneous payments in progress and
results of recovery auditing program, see Appendix B.

FAITH-BASED AND COMMUNITY INITIATIVE

This initiative strives to support the essential work of faith-based and community organizations. The initiative
accomplishes this goal by ensuring that these organizations are allowed to compete on equal footing for
Federal dollars, and educating them on grant opportunities. Agencies have already identified several barriers
to participation in Federal programs and are working to eliminate them. They are increasing outreach and
technical assistance to faith-based and community organizations. The agencies are also testing innovative
ways to improve program services by engaging faith-based and community organizations in pilot projects.

USDA has a long history of working with faith-based and community organizations to help those in need. The
Department is strengthening these partnerships and creating new ones to alleviate hunger and build strong
communities.

USDA plans include:
            Ensuring that faith-based and community organizations have equal access to USDA programs;
            Educating these organizations about any programs designed to enhance their capacity to serve their
            communities;




 USDA
    24              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




            Continuing to reduce barriers and encourage participation through improved coordination with State
            and local organizations;
            Seeking opportunities to meet the needs of communities through USDA programs; and
            Reporting on progress to ensure that USDA is producing real results for Americans in need.

Actions taken by USDA in FY 2005 to achieve this result include:
            Coordinated outreach & technical assistance by developing comprehensive strategy using 12 best
            practices;
            Worked to ensure barrier-free access, including 7 of 14 best practices;
            Established procedures to collect data on participation by Faith-Based Organizations and Community
            Based Organizations in select programs available to the public; and
            Continued to manage 4 pilot programs to test new ways for Faith-Based Organizations and
            Community Based Organizations to assist it meeting its program goals. The Department also
            reported outcome-based evaluations of these projects.

FINANCIAL STATEMENT HIGHLIGHTS
BUDGETARY RESOURCES AND OUTLAYS

USDA receives most of its funding from appropriations authorized by Congress that are administered by the
Treasury Department. Total resources consist of the balance at the beginning of the year, appropriations
received during the year, spending authority from offsetting collections and other budgetary resources.

Appropriations Received as reported in the Statement of Budgetary Resources differ from Appropriations
Received as reported in the Statement of Changes in Net Position due to Special and Trust funds appropriated
receipts. These are shown as Appropriations Received in the budgetary statement but are reported based on
their nature, either as exchange revenue in the Statement of Net Cost, or non-exchange revenue or transfers in
the Statement of Changes in Net Position.
                                                     2005              2004           % Change
                    Appropriations Received         88,941            94,316            (6)%
                    Total Budgetary Resources      166,662           142,890            17%
                    Obligations Incurred           140,374           117,809            19%
                    Outlays                         91,065            78,446            16%
                    Data in millions



Analysis of Resources
Appropriations Received decreased by $5.4 billion during FY 2005. This decrease is due in part to the
Commodity Credit Corporation (CCC) reduced appropriation in the current year of $9.5 billion for its prior
year realized losses.

The Food and Nutrition Service (FNS) reflected an increase in appropriations of $4.8 billion, 84% of the
increase is attributable to growth in the Food Stamp Program, with 16% attributable to the Child Nutrition
Programs for meal services and for higher food costs.



                                                                                                         USDA
                                       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                      25
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




Total Budgetary Resources increased during FY 2005 by $23.8 billion. $15 billion is attributable to the CCC
established borrowing authority on its revolving fund. The fund is indefinite in nature and CCC estimates the
authority that is needed to cover current fiscal year obligations. FNS contributed with $4.8 billion of increased
resources with most of the remaining resources attributable to National Resources and Conservation Services
(NRCS) Programs.

Obligations and Outlays
Obligations Incurred increased in FY 2005 by $22.6 billion. CCC and FNS Programs contributed 89% of the
total increase. For CCC, Direct and Counter Cyclical, Crop Disaster and Loan Deficiency Program payment
accounted for $14.8 billion of increased obligations. FNS’s obligations for the Food Stamp and Child
Nutrition Programs accounted for $5.4 billion obligation increases.

Outlay increases in FY 2005 amounted to $12.6 billion. These directly relate to the Program Obligations as
described above.

BALANCE SHEET AND NET COST OF OPERATIONS

Presented below are some key components of the USDA Balance Sheet for comparison and analysis.
                                           CONDENSED BALANCE SHEET DATA
                                     As of September 30, 2005 and September 30, 2004
                                                       (in millions)
                                                                     FY 2005       FY 2004      % CHANGE

          Fund Balance with Treasury                              $    42,289    $    39,488          7   %
          Loans Receivable & Related Foreclosed Property               75,162         73,841          2   %
          General Property, Plant, and Equipment, Net                   4,875          4,914        (1)   %
          Other                                                         3,436          3,571        (4)   %
          Total Assets                                                125,762        121,814          3   %


          Debt                                                         83,524         69,054        21    %
          Loan Guarantee Liability                                      1,214          1,188         2    %
          Other                                                        38,030         36,588         4    %
          Total Liabilities                                           122,768        106,830        15    %


          Unexpended Appropriations                                    21,492         22,158        (3) %
          Cumulative Results of Operations                            (18,498)        (7,174)      158 %
          Total Net Position                                            2,994         14,984       (80) %

          Total Liabilities and Net Position                      $ 125,762      $ 121,814           3%



Fund Balance with Treasury
Congressional appropriations are the primary funding source for USDA operations.

Appropriations are used to fund programs and are available to pay current liabilities and finance authorized
purchase commitments. Funds received and disbursed are generally processed by the U.S. Treasury.

Loans Receivable and Related Foreclosed Property
Loans Receivable and Related Foreclosed Property is the single largest asset on the USDA Balance Sheet.



 USDA
    26              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




Rural Development offers both direct and guaranteed loan products for rural housing and rural business
infrastructure. These represent 81% of the total USDA loan programs. Commodity Loans, and Credit
Programs administered by Commodity Credit Corporation (CCC) represent 11% of the total. CCC’s loans are
used to improve economic stability and provide an adequate supply of agriculture communities. CCC credit
programs provide foreign food assistance, expand foreign markets, and provide domestic low cost financing to
protect farm income and prices. The remaining 8% of loans receivable are the direct and guaranteed loan
programs administered by the Farm Service Agency, providing support to farmers who are temporarily unable
to obtain private, commercial credit.

General Property, Plant and Equipment, Net (PP&E)
Improvements to Land, which represent 48% of the net PP&E, consist primarily of forest road surface
improvements. Building improvements and Other Structures represent an additional 25%. Other primary
categories of PP&E include equipment and software.
Other
Accounts Receivable, Net represent 87% of total Other Assets and 21% are Intragovernmental Receivables.
Liabilities
Liabilities represent the amount of monies or other resources that are likely to be paid as a result of a
transaction or event that has already occurred. However, no liability can be paid absent an appropriation.
Where an appropriation has not been enacted, liabilities are considered not covered by budgetary resources.
Debt-Intragovernmental
CCC’s debt to Treasury increased by $11billion over the prior fiscal year. Funds were used to repay prior year
debt and cover current year obligations for the Direct and Counter Cyclical programs, Crop Disaster and Loan
Deficiency programs. RD increased its debt to Treasury by $3.2 billion to fund Housing Loan activity.
Loan Guarantee Liability
USDA’s loan guarantee liability is affected by guaranteeing new loans, adjustments from loan activity (i.e.
collecting fees, interest subsidies, claim payments), and the annual reestimate of loan costs. In fiscal 2005, the
increased loan guarantee liability is primarily due to disbursing $3.9 billion in new loans, resulting in
increased guarantee liability.
Other
Of the $38,030 and $36,588 million in other liabilities in Fiscal 2005 and 2004 respectively, $16,818 and
$17,469 million respectively, is payable to Treasury. The amount payable to Treasury represents the net
resources of pre-Credit Reform Net.

Net Position
The Net Position on the Balance Sheet represents on an accrual basis, the changes of the assets and liabilities
during the year and the current year Net Cost of Operations. The decrease in Net Position by approximately
$12 billion can be attributed primarily to the $16 billion of increased costs of operations and a net of $4 billion
utilized from prior years results to cover current year operations.




                                                                                                          USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 27
                         MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




NET COST OF OPERATIONS
                                             CONDENSED STATEMENT OF NET COST:
                                                                      FY 2005      FY 2004      % Change
                    Enhance Economic Opportunities for Agricultural
                    Producers:
                      Net Cost of Goal 1                              $   27,861   $   16,604      68 %

                    Support Increased Economic Opportunities and
                    Improved Quality of Life in Rural America:
                      Net Cost of Goal 2                                   1,013        2,113     (52) %

                    Enhance Protection and Safety of the Nation's
                    Agriculture and Food Supply:
                     Net Cost of Goal 3                                    2,457        2,415       2%

                    Improve the Nation's Nutrition and Health:
                      Net Cost of Goal 4                                  50,987       45,411      12 %

                    Protect and Enhance the Nation's
                    Natural Resource Base and Environment:
                      Net Cost of Goal 5                                   7,673        7,479       3%


                    Net Cost of Operations                            $   89,991   $   74,022      22 %


USDA Net Cost of Operations totaled $89,991 million and $74,022 million for fiscal years 2005 and 2004,
respectively. Grants and Direct Payments for CCC and Grant & Program Benefits for FNS represent the
largest portion of USDA cost, with $70,628 million and $56,082 million in cost for 2005 and 2004,
respectively. Grants and Direct Payments increased in fiscal 2005 primarily due to changes in CCC activity
related to increases in payments for peanut quota buyouts, milk income loss contracts, direct and counter-
cyclical programs, and crop disaster assistance program and for FNS to the Food Stamps and Child and
Nutrition Programs.

The cost of Grants and Direct Payments for CCC, directly associate with the USDA goal to Enhance
Economic Opportunity for Agricultural Producers. For FNS, Grants and Program Benefit cost associate with
the goal to improve the Nation’s nutrition and health.

MANAGEMENT ACCOUNTABILITY AND CONTROL
USDA is providing qualified assurance of compliance with the objectives of the Federal Managers’ Financial
Integrity Act and OMB Circulars A–123, “Management Accountability and Control,” and A–127, “Financial
Management Systems.” Not included in that assurance are the material deficiencies described in this report.

Within USDA, subcabinet officials, agency administrators and staff office directors are responsible for the
efficient operation of their programs and compliance with relevant laws. These executives also ensure that
their financial management systems conform to applicable laws, standards, principles and related
requirements. USDA’s goal was to eliminate the remaining material deficiencies by the end of FY 2006, and
correct any new material deficiencies within one year.




 USDA
    28              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                        MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




SUMMARY OF MATERIAL DEFICIENCIES

USDA completed corrective action on one of the three existing material deficiencies. Additionally, it is
reporting one new material deficiency for FY 2005. USDA has reduced the number of existing material
deficiencies from a high of 19 in FY 2002 to 3 in FY 2005. This is an 84 percent decrease in the number of
outstanding material deficiencies reported 3 years ago. Additional information is found in the Systems,
Controls, and Legal Compliance section.
Exhibit 5:          Summary of Outstanding Material Deficiencies and Estimated Completion Dates

                                                                            Reason for
                                                                            Change in                     Current
                       Material                                              Estimated                   Estimated
 Responsible          Deficiency             Corrective Actions             Completion       Year       Completion
 Agency(ies)         Description           Remaining To Be Taken               Date        Identified      Date
 Section 2 Material Weakness
 Multiple       Multi 00-01: USDA        • Improve the quality and         Extensive and   FY 2000       FY 2006
                Information                process for managing            wide-ranging
                Security Weakness:         USDA information security       weaknesses
                Weaknesses have            vulnerabilities and actions;    within USDA’s
                been identified in       • Complete vulnerability          information
                the Department’s           assessments of all mission      security
                ability to protect its     critical systems;               program have
                assets from fraud,       • Continue to manage the          delayed
                misuse and                 USDA information                completion.
                disruption.                survivability program to
                                           guide agencies in the
                                           development and testing of
                                           disaster recovery and
                                           business resumption plans
                                           for USDA’s highest priority
                                           mission critical systems;
                                         • Implement and maintain a
                                           robust Internet Protocol (IP)
                                           database that includes
                                           accurate, up-to-date
                                           contacts for each IP
                                           address;
                                         • Refine policy and issue new
                                           policy; and
                                         • Ensure that security
                                           management positions
                                           have the authority and
                                           cooperation of agency
                                           management to implement
                                           and manage security
                                           programs effectively.




                                                                                                            USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               29
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                                                              Reason for
                                                                              Change in                        Current
                         Material                                              Estimated                      Estimated
 Responsible            Deficiency              Corrective Actions            Completion          Year       Completion
 Agency(ies)            Description          Remaining To Be Taken               Date           Identified      Date
                                           • FS will: Improve controls                           FY 2005       FY 2006
                                             over the PRCH system data
                                             access, input, and integrity
                                             and segregation of duties.
                                           • NRCS will: Document                                FY 2005       FY 2006
                                             change control processes,
                                             software changes, and
                                             testing processes for the
                                             ProTracts System. Improve
                                             controls and documentation
                                             of change control for
                                             payment specifications.
                                             Reconcile Protracts
                                             appropriations, obligations
                                             and payments to FFIS.
                                           • FSA/CCC will: Collaborate                          FY 2004       FY 2006
                                             with OCIO to identify and
                                             implement additional
                                             improvements needed to
                                             improve the agency’s
                                             general control
                                             environment.
 Multiple            Multiple 05-01:       • FS will determine specific     N/A                 FY 2005       FY 2006
                     Improvement             actions to be taken.
                     needed in financial
                     accounting and
                     reporting policies,
                     practices and
                     procedures
                                           • FSA/CCC will: Re-examine                           FY 2004       FY 2006
                                             existing accrual policies
                                             and analytical procedures
                                             with regard to Federal
                                             accounting standards and
                                             CCC business practices,
                                             determine where
                                             improvements need to be
                                             made, and implement
                                             improvements.
 Section 4 Financial Management System Nonconformance
 FSA/CCC        MW 04-01:          FSA/CCC will:                            Although FSA        FY 2004       FY 2006
                Improvement        • Document and evaluate                  made progress
                Needed in Funds       current system of                     in correcting
                Control               budgetary accounting                  weaknesses
                Mechanisms            controls, identify                    identified in its
                                      deficiencies and develop              prior year
                                      improved control                      financial
                                      processes;                            statement
                                   • Obtain training for staff,             audit, more
                                      and implement                         work is needed
                                      organizational changes;               to ensure
                                                                            compliance
                                                                            with FMFIA.




 USDA
    30              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM



                                                                     Reason for
                                                                     Change in                      Current
                     Material                                         Estimated                    Estimated
 Responsible        Deficiency           Corrective Actions          Completion        Year       Completion
 Agency(ies)        Description       Remaining To Be Taken             Date         Identified      Date
                                    • Identify compensating
                                      controls to address material
                                      weakness and ensure
                                      requirements are
                                      incorporated into the next
                                      generation of program
                                      feeder systems; and
                                    • Enhance usage of existing
                                      web services for funds
                                      control.



CONCLUSION
We hope this overview of the Department helps inform all stakeholders of the significant efforts underway to
enhance, through sound management practices, the performance of all USDA programs and the Department’s
stewardship of the significant taxpayer dollars entrusted to it. Through the performance and accountability
process, USDA has undertaken an intensive effort to link Departmental and program management to the only
result that matters: the provision of valuable programs and services delivered in a high-quality, cost-effective
way to the American people. While this section has focused on overall management efforts that encompass
the Department as a whole, additional information on how these initiatives impact specific programs, agencies
and USDA efforts can be found in the next section, the Annual Performance Report, which offers a detailed,
objective-by-objective discussion of the progress USDA made in reaching its FY 2005 goals.




                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                31
                       MANAGEMENT’S DISCUSSION AND ANALYSIS
11/9/2005 5:07 PM




 USDA
    32              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
II.         Annual Performance Report
The United States Department of Agriculture’s (USDA) mission is to provide leadership on food, agriculture,
natural resources and related issues based on sound public policy, the best available science and efficient
management. The Department executed this mission in 2005 through such activities as:
        Providing farmers and ranchers with risk management and financial tools;
        Meeting with experts from around the globe to discuss current and new economic opportunities;
        Ensuring the safety and protection of the Nation’s food supply;
        Helping millions of low-income households and most of America’s children improve their health and
        diets via Departmental implementation of nutrition assistance programs;
        Delivering targeted nutrition assistance to children and low-income people;
        Fostering better nutrition and health with dietary guidance and promotion;
        Completing new free trade agreements, opening new international markets and maintaining existing
        markets;
        Fighting potential pests and disease outbreaks;
        Working to ensure the health and protection of the environment; and
        Providing aid to those impacted by severe weather and other disasters.

USDA’s public performance management reporting process includes:
        A strategic plan that contains the Department’s long-term goals and strategies (www.usda.gov);
        An annual performance budget that outlines year-to-year strategies and targets for achieving USDA’s
        long-term goals; and
        A performance and accountability report that illustrates to Congress and the American people how
        well the Department did in reaching the goals established in the previous fiscal year.

Most of USDA’s programs and activities are represented in specific performance goals and targets. The
Department also conducts and supports a broad range of research, educational and statistical activities that
contribute to the achievement of each of its overall goals. The creation of knowledge at the frontiers of
biological, physical and social sciences, and the provision of that knowledge to agriculture, forestry,
consumers and rural America are core processes for USDA. Accordingly, selected accomplishments in
research are presented throughout this report. Additionally, the report describes the data used to measure
performance. These descriptions cover any material inadequacies in the completeness, reliability and quality
of the performance data. Also included is a brief reason for why the data are inadequate and the actions USDA
is taking to remedy such inadequacies. The thresholds, or ranges, for determining year-end performance
results are also identified in the report. These thresholds are identified by program managers and document
the process for determining if a performance goal was exceeded, met or unmet. The program managers also
provided the rationale used to establish the met range.




                                                                                                     USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                            33
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



The report includes a list of programs that have undergone the Office of Management and Budget Program
Assessment Rating Tool (PART). The PART identifies how well and efficiently a program is working and
what specific actions can be taken to improve its performance. Other program evaluations, which discuss the
achievements or conclusions from the completion of internal and other external assessments conducted during
Fiscal Year (FY) 2005 related to the measures, are also included. Only Federal employees participated in the
preparation of the performance information contained in the Annual Performance Report section.

When he created the USDA, it was President Abraham Lincoln’s hope “that by the best cultivation in the
physical world, beneath and around us, and the intellectual and moral world within us, we shall secure an
individual, social and political prosperity and happiness, whose course shall be onward and upward, and
which, while the earth endures, will not pass away.” The following chapters of the USDA Performance and
Accountability Report show how the Department committed itself to keeping President Lincoln’s dream alive
during 2005.

STRATEGIC GOAL 1: ENHANCE ECONOMIC OPPORTUNITIES FOR
AGRICULTURAL PRODUCERS
Expanding and maintaining global markets for agricultural products is critical for the long-term economic
health and prosperity of our food and agricultural sector. U.S. farmers have a wealth of natural resources,
cutting-edge technologies and a supporting infrastructure that result in a production capacity beyond domestic
needs. Expanding and maintaining global markets will increase demand for agricultural products and
contribute directly to economic stability and prosperity for America’s farmers.

To expand overseas markets and facilitate trade, USDA assists in the negotiation of new U.S. trade
agreements and the monitoring and enforcement of existing trade agreements. In cooperation with private
sector producer and commodity trade associations, USDA conducts an array of market development and
export promotion programs designed to build long-term markets overseas. The Department helps to expand
market opportunities through programs of technical assistance and training that support economic
development and growth in developing countries and assist them to participate and benefit from international
trade. USDA works to facilitate trade through the adoption of science-based regulatory systems and standards.

An economically prosperous food and agricultural sector contributes to the Nation’s economic vitality and
standard of living. The sector’s success depends on the ability to expand into new markets, gain adequate
capital, protect itself adequately against financial risk and adjust to changing market needs. Increasing the
efficiency of the agricultural sector and developing new uses for agricultural products is critical to the
economic health of the Nation; USDA supports farms and farmers in many ways. When natural disasters
strike, USDA reacts quickly to help affected producers recover from their losses and restore their lands to
prior productivity levels. The Department partners with commercial lenders to guarantee ownership and
operating loans. It also makes direct loans to producers to finance operating expenses and farm ownership
loans, and provides needed capital in times of emergency. USDA also provides for income stability to keep
producers economically viable through economic safety net programs in the form of direct payments,
marketing assistance loans and commodity support programs. USDA supports much-needed basic research to
identify new uses and more efficient technology for producing and marketing agricultural products.




 USDA
    34              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




OBJECTIVE 1.1: EXPAND INTERNATIONAL MARKET OPPORTUNITIES


Exhibit 6:          Resources Dedicated to Expand Alternative Markets for Agricultural Products and Activities

                                                                                 FY 2005
                      USDA Resources Dedicated to Objective 1.1        Actual        Percent of Goal 1
                     Program Obligations ($ Mil)                       1,830.0           11.19%
                     Staff Years                                        6,655            26.52%



Introduction
Expanding market opportunities through trade negotiations and maintaining market access by enforcing
existing agreements to maintain market access are extremely beneficial to the U.S. economy. They create jobs
for Americans throughout the agricultural production, processing and marketing chain. USDA continues to
make this a pillar of its economic enhancement plan.

U.S. agricultural exports were forecast at $62 billion in FY 2005, only slightly lower than the record
$62.4 billion set in FY 2004. This year, exports of horticultural products, pork and dairy products reached new
records, supported in part by the lower value of the dollar and strong demand. With an export value of
$14.5 billion, horticultural products consist of many kinds of fresh and processed fruits, vegetables and tree
nuts. This year, almond exports account for nearly half the increase as prices rise in response to strong
demand and limited supply. Offsetting gains in high-value products, the value of U.S. bulk commodity
exports is lower due to record global supplies. These extra supplies reduced grain, oilseed and cotton prices,
and lowered wheat export volume due to increased competition. U.S grain and feed exports are forecast at
$15.8 billion in FY 2005, oilseeds and products are set at $11.1 billion, and cotton at $3.9 billion.

FY 2006 U.S. agricultural exports are forecast at a record $63.5 billion. Exports of horticultural products are
projected to rise $1.4 billion to a record $15.9 billion on higher unit values and volumes for many products.
Predicted to rise $600 million exports of tree nuts (mostly almonds) again will account for nearly half the
increase. Gains also are expected for exports of wine, essential oils, and highly processed fruit and vegetable
products. Additionally, cotton exports are forecast to rise $600 million on higher unit values. While some
increase in grain volumes exported is expected due to reduced competition, lower wheat prices limit any
overall value increase for grains. The oilseeds outlook calls for little change in volume of soybean exports due
to record demand from China. It also calls for weaker unit values with the expected rebound in Brazil’s crop.
A competitive dollar and moderate global economic growth support export expansion.

Overview
The Department’s work with the World Trade Organization (WTO) is key in establishing international market
opportunities for U.S. agricultural producers. WTO is a multilateral institution charged with administering
rules for trade among its 145 member countries. While WTO did not meet its goal of achieving a “first
approximation” of an agricultural text by the end of July 2005, trade ministers will meet again in Hong Kong
this December. Work will continue through the fall in preparation for that meeting. The basic goals for which
all participating countries will continue to work remain. These goals include eliminating export subsidies,
reducing trade distortion and domestic support, and increasing market-access opportunities. A big step



                                                                                                            USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  35
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



towards increasing international marketing opportunities for U.S. agricultural producers took place
August 2, 2005, with the passage of the Central American Free Trade Agreement (CAFTA-DR), a
comprehensive trade agreement between the U.S., Costa Rica, the Dominican Republic, El Salvador,
Guatemala, Honduras and Nicaragua. It is designed to give U.S. agricultural exporters the same or better
access to CAFTA-DR consumers as its competitors, providing promising new opportunities in a regional
market where domestic exports currently total nearly $1 billion.

USDA also continues to work to create new export opportunities through other free trade agreements. In
particular, the Department is focused on the forthcoming expiration of Trade Promotion Authority (TPA) in
2007. The TPA is designed to put the U.S. in a strong position to lead the way in completing major new trade
agreements that advance the global interests of domestic agriculture.

Negotiating reductions in trade barriers to create opportunities is just the beginning for U.S. exporters. To help
U.S. exporters capitalize on trade agreements, USDA actively works to ensure that market opportunities are
maintained. This increases U.S. exporter confidence enabling them to take the risks associated with export
sales. These sales depend on consistent and reliable market access. As more international trade agreements are
concluded, additional Department resources for monitoring and compliance efforts are necessary. For
example, WTO members submit more than 800 notifications of intent annually to alter or create new import
requirements related to food safety or plant and animal health. USDA has worked aggressively to increase the
notification rate for such new or revised standards so that it can halt or change restrictive measures before they
take effect. Each notification must be evaluated for U.S. impacts and immediately addressed if domestic
exports or export opportunities are affected negatively. The Department continues to work toward long-term
solutions. Challenges include trade restrictions related to Bovine Spongiform Encephalopathy (BSE) and bio-
engineered crops. (BSE is a chronic degenerative disease affecting the central nervous system of cattle.)

USDA also continues to monitor the impact of the North American Free Trade Agreement (NAFTA). NAFTA
is a comprehensive trade-liberalization agreement among the U.S., Canada and Mexico. U.S. agricultural
exports to its NAFTA partners continue to set new records. Canada remains the largest market with annual
U.S. sales forecast at $10.5 billion in FY 2005. Free trade agreements (FTAs), which removed trade barriers
and promoted a strong economy, propelled Canada past the European Union (EU-25) and Japan to become the
U.S.’ top overseas market by the mid-1990s. Canada is a major market for U.S. fresh and processed fruits and
vegetables, snack foods, juices, wine, and many other consumer-ready products. Forecast at $9 billion in FY
2005, Mexico overtook Japan as the second-largest market. Trade with Mexico, like Canada, benefited from
NAFTA thanks to the removal of trade barriers. Closely tied to the U.S. economy, Mexico has enjoyed strong
economic growth, which strengthened domestic demand for international goods. While Mexico continues to
be a good customer of coarse grains, cotton and wheat, higher-value consumer foods are increasingly
important. Strong Mexican demand supports rising sales of U.S. pork, beef, poultry, fresh and processed
fruits, and snack foods.

U.S agricultural exports to Japan are forecast at $7.6 billion, making it the third-largest market. An absence of
new trade agreements that would reduce Japan’s existing high tariffs and the country’s economic collapse in
the 1990s, largely have halted U.S. export expansion to this country. About half of U.S. sales to Japan consist
of bulk commodities, mainly coarse grains and soybeans. While most of the remaining sales are consumer-




 USDA
    36              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                            ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



ready foods, much of that has remained limited to beef and pork, although fruit and tree nut sales are
noteworthy. Beef trade has recently been halted since the country imposed its BSE ban.

EU-25 is now the fourth-largest market for U.S. agricultural products, with little change in total sales and
estimated at $7 billion. EU-25 is a major market for soybeans and tobacco as well as tree nuts, especially
almonds. Wine sales are also noteworthy because wine is among the top five U.S. agricultural exports to the
EU-25. Opportunities remain limited in most other categories. Production subsidies keep domestic supplies
high, and trade barriers limit market access. Expansion opportunities for U.S. agricultural exports to Europe
have remained limited for many years.

China has risen in recent years, now representing the fifth-largest market for agricultural products. After
posting a record $6.1 billion in 2004, FY 2005 saw a drop to $5.4 billion. The decrease was attributed to lower
soybean and cotton prices, as shipping volumes are expected to continue at higher levels. These numbers
compare to $1.8 billion in FY 2002. China’s domestic supply-demand situation creates new opportunities to
ship greater volumes of cotton, soybeans and wheat. Considerable progress has recently been made to reduce
China’s trade barriers through its WTO membership. Those dividends will continue during the next several
years.

In terms of agricultural trade, China's first year of WTO membership in 2002 involved implementing
regulations relating to biotechnology safety, testing and labeling. These rules, issued by China's Ministry of
Agriculture shortly before the country's WTO accession, did not provide adequate time for scientific
assessment and the issuance of final safety certificates for U.S. biotechnology products. Following concerted
high-level pressure from USDA and other U.S. agencies, China agreed to issue temporary safety certificates.
Additionally, in July 2005, China issued a final safety certificate for NK603 – the last biotech corn variety
needing approval.

Selected Results in Research, Extension and Statistics
Enhanced Statistics to Understand the Impact of Hurricanes on Citrus—Officials added Florida citrus
forecasts to the November Crop Production Report because of several hurricanes moving through the State
during August and September 2005. Citrus forecasts typically are excluded from the November Crop
Production Report.

Enhanced Understanding of Producer Response to Soybean Rust—Due to the discovery of Asian
soybean rust in the U.S., speculation rose on how growers would react to the fast-spreading, yield-reducing
disease. Thus, USDA included related questions in its March Agricultural Survey for the 31 soybean-
producing States. The survey provided information on farmers’ awareness of Asian soybean rust and how its
discovery has affected their planting decisions for the 2005 crop. Prospective Plantings published the results
of the survey.

Global Markets for High Value Foods—Understanding the myriad factors that affect the choice of
locations to produce and sell food products shows the competitiveness of U.S. agriculture in global markets.
Two new reports—New Directions in Global Food Markets and Market Access for High-Value Foods—show
how food trade patterns are influenced strongly by the changing nature of competition in the global food
industry. Key factors include shifting consumer preferences, the growth in multinational food retailers and
changes in global supply chains. Consumer-driven changes increasingly are pushing food suppliers to meet



                                                                                                         USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 37
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



consumer demand and preferences locally. These moves occur even as the food industry becomes more
global. For more information on high-value food markets, including data on trade and international
investment, visit www.ers.usda.gov.

Market Analysis and Outlook—USDA continues to work closely with the World Agricultural Outlook
Board (WAOB) to provide short- and long-term projections of U.S. and world agricultural production,
consumption and trade. WAOB reviews and approves USDA's commodity and farm-sector forecasts. Several
initiatives have increased the exposure and accessibility of the data and analysis. This exposure occurred
through the documentation of business rules and models used in the forecasting process. The report
Forecasting the Counter-Cyclical Payment Rate for U.S. Corn: An Application of the Futures Price
Forecasting Model offered details on this process and an associated data product that covers the three major
field crops of corn, soybeans and wheat. Another initiative documented key aspects of wheat market analysis.

Fruit Fly Control Techniques Show Promise—A USDA program called the Hawaii Area-Wide Fruit
Fly Integrated Pest Management Program could open export markets for the State’s diverse array of tropical
fruits. Under the program, USDA teamed up with the Hawaii Department of Agriculture and the University of
Hawaii to create techniques to control medfly, melon fly, Malaysian fruit fly and oriental fruit fly, and help
Hawaiian farmers implement them. Hawaiian farmers who have adopted the integrated pest management plan
have cut chemical pesticide use by 75 to 95 percent and are growing crops they had once given up on because
of fruit fly damage. California, Florida and Texas are monitoring the program's ability to control fruit flies.
While keeping medfly out of California has cost the State nearly $500 million during the past 25 years, it
could lose more than $1.4 billion annually if the pests established themselves there. California would suffer
losses from lost markets, export sanctions, treatment costs and reduced crop yields.

Enhanced Statistics on Non-Ambulatory Cattle—USDA, in cooperation with the National Animal
Health Monitoring System (NAHMS), conducted the second phase of a two-year survey effort to study non-
ambulatory cattle on U.S. farms. NAHMS collects, analyzes and disseminates data on animal health,
management and productivity across the U.S. This survey, coordinated with USDA’s January 2005 Cattle
Inventory Survey, provided statistical services such as questionnaire development, data collection, keying and
editing, and summarization. In May 2005, USDA published figures on non-ambulatory cattle and calves in the
U.S. by region, based on data collected in January 2004 and 2005.

Strengthening Access to Agricultural Resource Management Survey—The Agricultural Resource
Management Survey (ARMS), USDA’s annual, national survey of farms, is the primary source of information
about the financial condition, production practices, use of resources and economic well-being of America’s
farmers and farm households. ARMS provides a powerful data source to provide direct answers to key
questions from USDA policy officials, Congress and other decision-makers within and outside the Federal
Government. The Department continued expanding access through outreach activities to researchers at U.S.
universities and agency staff. An increased sample starting in 2004 allows ARMS survey information about
farm production, business and households to include detailed data for 15 top farming States. In FY 2005,
public access to summarized ARMS data improved greatly. USDA presented ARMS data in a dynamic,
technologically advanced and easy-to-use web-based delivery tool. Users can select among survey data sets to
build custom reports, refine queries with specific samples/populations, and group summary statistics for




 USDA
    38              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



comparisons. Advanced statistical analysis is available to registered users for additional statistical analysis and
economic modeling.

Challenges for the Future
The next few years present exciting challenges for the Department. USDA can increase export opportunities
for the U.S. by reaching agreement in the WTO on new rules for agricultural trade while working toward
additional FTAs. New WTO trade rules will eliminate export subsidies, decrease trade-distorting domestic
support and reduce market access barriers around the world. Agriculture is a central theme for this round of
WTO negotiations and a sensitive issue for most developing counties. In these countries, the food and
agriculture sector is the dominant economic driver. They are also the singular focus in establishing a stable
social environment and a sustainable market infrastructure. Additional FTAs will address country- or region-
specific market-access issues, immediately enhancing trade. USDA will continue to monitor implementation
of agreements.

U.S. export opportunities will increase in large and important export markets and emerging markets. This
increase could push total U.S. agricultural exports to record levels in the next few years. U.S. meat, grains,
soybeans, cotton and especially value-added, consumer-ready products will benefit from expanding export
sales. On the U.S. import side, consumers are expected to continue their interest in high-value, internationally
produced agricultural products. Additionally, developing countries will want more access to U.S. markets.
This new access will allow them to improve their own food standards as they learn to compete in the
international marketplace. USDA also recognizes that its international trading partners have concerns about
how the Department addresses their market-access goals. Among those concerns is the lengthy rulemaking
process—from risk assessment to final rule—that opens the domestic market to international commodities.
USDA is looking to improve its processes to ensure it can continue to meet its international obligations as
more and more countries seek to enter the global agricultural trading system.

Key Outcome:          Improved International Market Opportunities
USDA works closely with the Office of the U.S. Trade Representative (USTR) and other Government
agencies to pursue new trade agreements and enforce the provisions of existing agreements. These agreements
include technical regulations and measures designed to enhance food safety and protect plant and animal
health. The Department’s industry partners promote trade and outreach activities to educate producers,
processors and exporters on emerging market opportunities as a result of trade agreements. To capitalize on
trade opportunities, USDA offers market intelligence, supply and demand forecasts, and sales-development
assistance to enhance U.S. exporters’ success in the highly competitive global marketplace.

USDA staff in more than 90 countries helps open, retain and expand international markets for U.S. food and
agricultural products. This staff includes veterinarians and individuals with high-level training and education
in economics, marketing and technical fields such as plant pathology and veterinary science. While this group
represents USDA overseas as its key supplier of market intelligence, it also helps solve minor trade threats
before they become substantial disruptions. Staff members do this by being able to speak knowledgeably with
international decision makers. They also help support U.S.-based technical experts who develop science-based
protocols and health certification procedures for exporting all U.S. food and agricultural products.




                                                                                                          USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   39
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 7:          Increase U.S. Market Opportunities

                                                                                 Fiscal Year 2005
                Annual Performance Goals and Indicators                Target          Actual         Result
  1.1.1     Dollar value of trade preserved through USDA staff         $2,500          $2,800        Exceeded
            interventions and trade agreement monitoring ($ Mil)



Analysis of Results
USDA exceeded its performance goal by $300 million. This was accomplished by trade opportunities
preserved through monitoring and compliance enforcement, overseas advocacy services, negotiations of
technical protocols, and trade negotiations. Contributing to the performance was a delay in implementation of
certain aspects of EU-25’s new regulations on wood-packaging material. The regulations would have
impacted tens of billions of dollars in U.S. commercial trade and caused an estimated $1 billion in short-term
damage to U.S. food and agricultural trade. USDA estimates that roughly half, or $80 billion, of commercial
goods annually are shipped on wood pallets or another wood-packaging material. None of this material meets
the proposed EU-25 standards because we have no certification process in place to ensure that the pallets are
made from wood that was debarked. Also contributing to the performance was the reopening of many markets
that had been closed following the discovery of BSE in Washington State in December 2003. USDA projected
a target of $2.5 billion in trade access and opportunities preserved in FY 2005.

The number of trade maintenance issues and their potential impact on U.S. exports depends primarily on
foreign governmental action, sometimes in response to such events in the U.S. as a livestock disease outbreak.
Both the problems and the solutions are highly unpredictable. Solutions can range from a quick agreement
with officials at the port of entry to a long negotiation process followed by a lengthy regulatory or legislative
process in the country in question. The impact of any given action can range from a few thousand dollars to
billions of dollars. While USDA can use the list of outstanding concerns to help guide work priorities and set
annual goals, a portion of the goal recognizes that additional events likely will occur that require immediate
regrouping and realigning of staff and work priorities.

USDA’s selection of this performance measure demonstrates the critical role that trade monitoring and
compliance enforcement play in protecting U.S. exporter opportunities to capture sales as an outcome of
successful negotiations. As the U.S. Government continues to negotiate new bilateral, regional and
multilateral trade agreements, the challenge will be to monitor and enforce compliance effectively. This
monitoring will ensure that U.S. agriculture receives full benefits from negotiated reductions in tariff and non-
tariff barriers.

The exact value of new markets opened through trade agreements is difficult to determine using traditional
economic models. In a new market, there is little quantifiable data to estimate how consumer demand will
react to import opportunities. Market development takes time and centers on consumer and wholesaler
education to create a desire to purchase U.S. products, rather than those of competitors. An estimate of export
opportunities can only be made after a few years of observing international demand and growth rates.
Assuring promised market access is critical to stable free trade. From year to year, the number of trade issues
and their potential impact on U.S. exports depends on international reaction to such issues as biotechnology,
plant and livestock diseases, pests, pesticides and sanitation.



 USDA
    40              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                     ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 8:          Expand and Retain Market Access

                                                                                          Fiscal Year 2005
                        Trends                                    2001           2002            2003           2004      2005
                                                                                                                                1
 Dollar value of trade preserved through USDA                    $1,329         $1.327          $2,713         $3,950    $2,800
 staff interventions and trade agreement monitoring
 ($ Mil) Baseline: 1999 = $2,567
 1
     Result based on projected estimate. See the Data Assessment of Performance Measures section for more information.


The figures themselves reflect the uncertainty of trade disruptions. In FY 2005, the bans on U.S. beef and
bovine products due to the potential threat of BSE have proven to be challenging barriers. Through diligent
monitoring and resolution of trade disputes, USDA has made remarkable and consistent progress in expanding
and retaining sales of U.S. agricultural products that likely would have been lost. The hard work of USDA’s
domestic and overseas field offices is a critical part of this process. The Department’s work with other Federal
and State agencies, and its private-sector partners made this achievement possible. Next steps include
completion of the Doha Round agriculture negotiations, various bilateral and regional FTAs, reopening
markets closed due to BSE and continuing to monitor and enforce compliance on many trade disruptions
affecting U.S. agriculture. (The Doha Round refers to negotiations designed to improve market access for
agricultural products.)

OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC DEVELOPMENT AND TRADE
CAPACITY BUILDING


Exhibit 9:          Resources Dedicated to Support International Economic Development and Trade Capacity
                    Building

                                                                                              FY 2005
                      USDA Resources Dedicated to Objective 1.2                   Actual          Percent of Goal 1
                     Program Obligations ($ Mil)                                  2,988.7             18.28%
                     Staff Years                                                   1,364               5.44%



Introduction
The ultimate goal for supporting developing countries is to help them become economically stable and
capable of supporting their populations with jobs, affordable food and other basic necessities. USDA
participates in this effort with food aid and trade and development programs. USDA helps provide these
services along with other Federal agencies, such as the U.S. Agency for International Development (USAID).
USAID is an independent agency that provides economic, development and humanitarian assistance around
the world in support of U.S. international policy goals. USDA technical assistance and training play a vital
role in helping these countries meet their WTO obligations, strengthen policy and regulatory frameworks, and
avoid or eliminate unjustified technical trade barriers. Assistance in trade capacity building also supports
market infrastructure development. This development includes market information, agricultural grades and
standards, and the refrigeration methods used in transporting perishable agricultural items. The assistance also
helps increase capacity to purchase U.S. exports. In combination with food aid that covers gaps in supplies
and keeps the population healthy, USDA deploys its unique resources and expertise in agricultural-



                                                                                                                           USDA
                                     FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                            41
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



development activities. This process helps advance market-based policies and institutions, sustainable
agricultural systems, and research and education in developing countries. Assistance focuses on improving
agricultural productivity and markets as the engines for economic growth. The Department also helps
developing countries increase trade and integrate the agricultural sector into the global economy through
harmonization of regulatory frameworks. Other priorities include reducing hunger and malnutrition with
sustainable, productivity-enhancing technologies and supporting agricultural reconstruction in post-conflict or
post-disaster areas.

A primary focus for USDA food aid in developing countries is school children and their mothers. The
McGovern-Dole International Food for Education and Child Nutrition Program (FFE) provides for the
donation of U.S. agricultural commodities and associated financial and technical assistance for pre-school and
school-feeding programs in developing countries. The program also authorizes maternal, infant and child-
nutrition programs. Its purpose is to support a healthy future population necessary for a stable society and a
capable workforce. A healthy and literate workforce attracts jobs, supports a sustainable economy and helps
establish a secure food supply through domestic production and imports.

Overview
Like their international counterparts, Americans want a world where all countries are stabilized through
economic development and trade capacity building. The 2002 National Security Strategy of the United States
recognizes that the root of any threat to the U.S. is the lack of economic development. This deficiency often
results in economic and political instability. For most developing countries, a productive and sustainable
agricultural sector bolsters economic well-being. Thus, agricultural development is crucial to U.S. national
security strategy. In developing and transitioning economies, USDA focuses on:
            Trade and investment liberalization to stimulate job and income growth;
            Research and education to raise agricultural productivity, with applications of science and
            technology, including biotechnology, to boost food availability;
            Institution building to support sustainable agriculture, market infrastructure, and the development of
            market-information systems to support production and marketing decisions; and
            Food assistance to support social stability and enhance the health of current and future workers.

A recent example of this is USDA technical assistance to U.S. Central American Free Trade Agreement
(CAFTA-DR) partners in trade capacity building. In 2005, the six countries – Costa Rica, El Salvador,
Guatemala, Honduras, Nicaragua and the Dominican Republic – agreed to accept exports of U.S. meat and
poultry products by using science-based information to make decisions. Costa Rica and Nicaragua received
training in U.S. food safety and meat inspection requirements and passed USDA audits for exporting meat to
the U.S. As a condition of market access, the Department audits the meat inspection programs of U.S. trading
partners annually. These audits are designed to verify that these countries maintain food safety standards and
inspection programs equivalent to those of the U.S. The audit’s passage allows each country to export meat
products to the U.S. The Department also engaged CAFTA-DR countries to improve their regional
institutional capacity for data collection and statistical surveys related to agricultural and production
information, agricultural prices and rural incomes. Access to timely and accurate agricultural statistics will




 USDA
    42              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



help producers, exporters and importers better identify opportunities to expand trade in international markets
opened by CAFTA-DR.

Selected Results in Research, Extension and Statistics
            Marketing Plan to Export, Plant, Monitor and Evaluate Seed Potatoes in China—China
            is the largest producer and user of potatoes in the world, growing approximately 50 million tons
            annually. While almost 3 million tons of seed potatoes are needed per year to achieve this level of
            production, the Chinese have banned the importation of new seed potatoes for more than 17 years.
            Recently, China has had a significant potato disease problem. In 2003, it authorized the importation
            of “certified” seed potato from the U.S. Alaska and Washington are two of the few States that meet
            the strict new phytosanitary conditions required for Chinese approval of seed potato importation
            from the U.S. Approval will require developing a marketing plan for introducing and evaluating new
            “certified” disease-free seed potatoes, or minitubers, in China. Following a preliminary evaluation of
            U.S. seed potatoes planted in northeast China in 2004 and 2005, several potatoes will be submitted
            for a "Provincial Variety Evaluation Program" in those provinces where the U.S. could be
            competitive. The sale of U.S. seed potatoes could occur in 2008 if officials approve the formal
            Provincial Variety Evaluations.
            China in 21st Century Agricultural Markets—China is one of the top 10 markets for U.S.
            agricultural exports and is the world’s largest producer and consumer of a range of commodities.
            USDA continues to investigate how policy and economic developments in China affect global
            agricultural markets. The report, China’s New Farm Subsidies, considers the implications of a shift
            in China's policy in 2004. At that time, China had begun to assist, instead of tax, agriculture. This
            move reflected a new view of agriculture as a sector needing assistance. China introduced direct
            subsidies to farmers, repealed its centuries-old agricultural tax, helped producers with seed and
            machinery purchases, and increased spending on rural infrastructure. While the subsidies are targeted
            at grain producers, they do not provide strong incentives to increase such production.

Challenges for the Future
Unfortunately, significant food needs continue to limit food security and economic development in many
countries. USDA works closely with the World Food Program (WFP) and private voluntary relief
organizations to ensure that the U.S. commitment to alleviating global hunger and malnutrition remains
strong. WFP offers food aid to natural disaster victims, displaced victims and the world’s hungry and poor.
USDA’s trade-capacity building efforts are aimed at helping developing countries participate in negotiations,
implement agreements and connect trade liberalization to a program for reform and growth. Helping these
countries achieve sustainable economic development and capacity to trade helps build future growth markets
for the U.S.

Key Outcome:            Economic Development Enhanced through the Provisions of Foreign Food
                        Assistance
More than 800 million people worldwide suffer from hunger and malnutrition—most of them children. These
children are the basis for a sustainable economic future. In many countries, children represent most of the
population. A healthy and educated young population is necessary to advance economic development, food




                                                                                                          USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 43
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



security and a stable social structure. Activities aimed at market-capacity building for both domestic and
international trade are enhanced by, and in turn support, these basic requirements for a sustainable economic
infrastructure.

The U.S. is the world’s leader in international food aid, providing more than 50 percent of total worldwide
food assistance to combat this challenge. U.S. food-aid programs are a joint effort across several Federal
Departments. USDA works with USAID, non-profit organizations and American universities to provide
targeted food-aid support and related assistance where it is needed the most.

These activities, combined with USDA technical assistance and training, foster a stable society, economic
growth, and market infrastructure development. These potential gains augment recipient countries’ ability to
boost domestic production. In turn, their dependence on food aid is reduced. The activities also allow recipient
countries to build sound economic policies that support sustainable development and participation in global
agricultural trade.
Exhibit 10: Support Foreign Food Assistance

                                                                                               Fiscal Year 2005
                     Annual Performance Goals and Indicators                          Target        Actual       Result
 1.2.1      Number of mothers, infants and schoolchildren receiving daily meals        2.2            2.98      Exceeded
            and take-home rations through McGovern-Dole International Food
            for Education and Child Nutrition Program (Mil)



Analysis of Results
The performance goal was exceeded. FFE promotes school enrollment and attendance, contributing to an
educated workforce and economic growth and development. FFE is unique in that its primary goal of
increasing school attendance can be measured with confidence. In FY 2004, 2 million meals were distributed
to school children and mothers daily on a $50 million budget. In FY 2005, the funding level increased to
$86.8 million. The increased funding, lower commodity prices and greater emphasis on the direct feeding of
children allowed USDA and its partners to increase the meals-per-day distribution.
Exhibit 11: McGovern-Dole International Food for Education and Child Nutrition Program

                                                                                    Fiscal Year Actual
                          Trends                               2001          2002          2003          2004    2005
 Improve food security and nutrition through McGovern-          N/A           N/A           2.5           2.0    2.98
 Dole International Food for Education and Child Nutrition
 Program by providing daily meals and take-home rations
 for mothers, infants and school children (Mil)


An extensive operational and results survey is conducted by every private voluntary organization participating
in the delivery of food aid through FFE. A thorough review and evaluation of the survey by USDA will cover
the progress, results and challenges faced by the participating food distributors. The survey will be used to
develop a strategy to address challenges to effective food distribution and barriers to better results.




 USDA
    44              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




OBJECTIVE 1.3: EXPAND ALTERNATIVE MARKETS FOR AGRICULTURAL PRODUCTS


Exhibit 12: Resources Dedicated to Expand Alternative Markets for Agriculture Products and Activities

                                                                           FY 2005
                                                                                 Percent of
                     USDA Resources Dedicated to Objective 1.3    Actual          Goal 1
                    Program Obligations ($ Mil)                   570.0            3.49%
                    Staff Years                                   3,589           14.30%



Introduction
The Farm Security and Rural Investment Act of 2002 (FSRIA) provided new opportunities for USDA to
foster the development and production of bioenergy (commercial fuel grade ethanol and biodiesel) through the
Bioenergy Program. This program encourages the production of renewable energy and lessens U.S.
dependence on foreign oil. At the same time, it supports market prices for commodities used in bioenergy
production, which assists farmers, ranchers and rural communities. Commodity Credit Corporation (CCC)
Charter Act authority is also used by the Bioenergy Program to make payments for biodiesel production. This
support has been critical in sustaining the developing biodiesel industry. CCC is a Government-owned and
operated entity created to stabilize, support, and protect farm income and prices.

FSRIA authorized the Federal Biobased Products Preferred Procurement Program (FB4P) program for the
preferred procurement of biobased products by Federal agencies. A final rule establishing the operational
guidelines for FB4P was published in the Federal Register in mid-FY 2005. The first of a continuing series of
rules to designate generic groupings of biobased products for preferred procurement became available as a
proposed rule for public comment in late FY 2005. Rulemaking to designate generic groupings of biobased
products for preferred procurement will continue for a number of years as rapidly as the statutory data
requirements to support designation can be developed. A proposed rule to establish a voluntary labeling
program for biobased products is expected to be available for public comment in early FY 2006 with a final
rule in place by late FY 2006.

FB4P is expected to significantly increase the use of biobased products within the Federal Government. This
increased usage, in turn, will encourage production of biobased products for that market.

FSRIA is also designed to increase public awareness about the benefits of using biobased products. FSRIA
authorizes loans, loan guarantees and grants to farmers, ranchers and rural small businesses to purchase
renewable energy systems and make energy efficiency improvements. Farmers across the country are being
introduced to a new energy source and given the opportunity to join this new venture.

Overview
The Bioenergy Program stimulates industrial consumption of agricultural commodities by promoting their use
in bioenergy production. The increased use of these commodities supports demand and prices in the areas
around the facilities. The bioenergy plants can also have a significant financial impact in the communities
where they are located, including creating new, and supporting existing, jobs.




                                                                                                      USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             45
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



USDA’s programs are designed to:
            Develop alternative markets for agricultural products;
            Stimulate new sources of demand that will benefit farmers by increasing economic activity and job
            opportunities in rural America;
            Create a portfolio of more environmentally friendly products; and
            Enhance the energy security of the U.S. by reducing dependence on imported energy.

FB4P increases the demand for processing facilities in rural areas. It also boosts the demand for biomass
material from agricultural, marine and forest sources. Currently, USDA is working to fully implement the
program. Once implemented, the aforementioned benefits will be realized.

Selected Results in Research, Extension and Statistics
Organic Produce Development—With partial funding from USDA, Cornell University developed a
network of plant trial and breeding sites throughout the country. The move was designed to foster organic
product development with public sector, individual and company cooperators. The exchange of genetic
materials has been intensified. Thus, more diverse material is being assessed more widely for superior
performance in organic systems.

Pork Quality and the Role of Market Organization—A number of developments have captured the
attention of the pork industry. One issue centers on health concerns and the corresponding preferences for lean
pork. Another is the growing incidence of undesirable quality attributes, such as pale and soft meat, resulting
from breeding for leanness. A USDA study found that organizational arrangements that influenced pork
quality negatively, such as contracts between packers and producers, can also facilitate industry efforts to
address quality and other concerns. These arrangements include reducing measuring costs, controlling
difficult-to-measure quality attributes, facilitating adaptations to changing quality standards and reducing
transaction costs associated with relationship-specific investments in branding programs.

New Commercial Uses for Poultry Feathers—A patent application for a process to convert cleaned and
chopped feather material into plastic products—on a laboratory scale—has been filed. This process would
make possible new uses for some of the nearly 4 billion pounds of poultry feathers generated annually in the
U.S. alone. The feather-based plastic can be made on traditional processing equipment and molded just like
any other plastic. Feather-derived plastic would be a unique material for packaging or any other application
where high strength and biodegradability are desired. Feather-based plastics would help solve an
environmental problem and increase the commercial and economic value of a natural renewable polymer
resource—feathers.

Improved Understanding of Glucosinolates Potentially Benefiting Plants and People—The
July 2005 edition of The Plant Journal featured a cover story on USDA-supported research funded through
the National Research Initiative (NRI). NRI funds research on key problems of national and regional
importance in biological, environmental, physical and social sciences relevant to agriculture, food and the
environment on a peer-reviewed, competitive basis. The aforementioned University of California-Davis
research related to the production of glucosinolates by such crops as broccoli, cauliflower, cabbage and
Brussels sprouts. For humans, the glucosinolates in these crops appear to help prevent cancer. In plants, the



 USDA
    46              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



glucosinolates help protect them from pathogen attack. The research showed that plants with larger amounts
of glucosinolates were more resistant to insect damage. This research may lead to a better understanding of
how plants defend themselves against insects and other pathogens. It may also lead to the development of new
crop varieties with increased glucosinolate content. The content could improve plant resistance to pathogens
and provide better nutritional value for human diets.

Serving the Public
Through the Bioenergy Program, producers receive payments to offset part of their cost of buying
commodities used to expand eligible bioenergy (commercial fuel grade ethanol and biodiesel) production.
Increased bioenergy production helps strengthen the income of soybean, corn and other producers. It also
lessens U.S. dependence on traditional energy sources. Additionally, bioenergy products support rural
communities through the jobs created and maintained by the production facilities.

FB4P serves the agricultural sector, rural communities and their residents, and the broader U.S. economy.
Farmers and ranchers benefit from increased demand for their products and new crops used as feedstocks in
biobased-product production. Rural communities and their residents benefit from the new investment in
handling and processing facilities used in the production of these commodities. New jobs in rural communities
related to biobased handling and processing create new economic vigor and bring opportunities to the families
living there.

Challenges for the Future
The challenges to future success are:
            The development of an infrastructure to support the efficient and economically viable development
            of biobased products;
            Informing rural America about the benefits of biodiesel fuel use and helping farmers transition to a
            new style of operating;
            The continued need for public policies supporting the development and use of biobased products;
            The need for public education about the environmental, performance and energy-security benefits of
            using biobased products, and more effectively managing the carbon cycle;
            The development and valuation of measures that identify and assess the benefits that come from
            increased use of biobased products, including benefits internal to the seller and user of the products
            and external benefits that affect society and the environment;
            The willingness of manufacturers and vendors of biobased products, working with USDA, to provide
            the material and data necessary for testing and evaluation of biobased content, environmental
            attributes and life-cycle costs that will be required for the Department to designate generic groupings
            of products for preferred procurement within the program; and
            The willingness of manufacturers and vendors of biobased products designated by rulemaking for
            preferred procurement within the program to cooperate with USDA in publicizing their availability.
            This can be done by their voluntarily posting their product and contact information on the program
            web site at www.biobased.oce.usda.gov. This will allow Federal agencies to find biobased products




                                                                                                            USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   47
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            for procurement. Without that cooperation, it will be difficult for the agencies to learn of the
            availability of biobased products.

In response to these challenges, USDA is creating regulations and operating procedures for the Bioenergy
Program and the FB4P. The Department is also developing a model procurement program for Federal
agencies to help them meet their responsibilities within the program’s parameters. This model will educate
and train Federal agencies about procurement and how to use related informational resources. It will also
allow manufacturers and vendors to identify and evaluate biobased products available in the marketplace for
their use. The USDA’s Office of Procurement and Property Management will announce the model
procurement program once USDA agencies have implemented the model. If successful, this model
procurement program will make an important contribution toward creating market-based opportunities to
produce and consume increased amounts of biobased products.
Exhibit 13: Increase the Use of Biobased Products

                                                                                        Fiscal Year 2005
                    Annual Performance Goals and Indicators                    Target        Actual         Result
 1.3.1      Number of groups of biobased products designated for                 4          Deferred       Deferred
            procurement



Analysis of Results
The performance goal was partially met. USDA published the final rule implementing the FB4P guidelines
January 11, 2005.

The statute creating this preferred procurement program specifies that “items” will be designated for preferred
procurement for this program through a process of regulatory rulemaking. “Items” are generic groupings of
biobased products. For example, such a generic grouping could be “biobased hydraulic fluids for mobile use.”
This grouping would include all biobased products in the market intended for that use. Another example could
be “janitorial cleaners,” which would include all biobased products used in janitorial cleaning applications.
“Items,” or generic groupings of biobased products, comprised of individual branded products that fit within
the definition of the generic groupings. Such a grouping can include several dozens of individual branded
products.

USDA has identified more than 100 generic groupings of biobased products for potential designation. The
items in the FY 2005 target that the Department designated for rulemaking were selected based on the
availability of test data and other information. That availability was based upon the level of cooperation from
manufacturers and vendors of products that fell within these items. The manufacturers and vendors provided
test material and other product information to USDA to support its designation rulemaking.

Manufacturer and vendor cooperation is crucial in developing the information required to support designation.
Once items are designated and Federal agencies begin to purchase biobased products that fall within the
designated generic groupings, USDA anticipates that manufacturers and vendors will become increasingly
interested in cooperating with the Department to develop the information necessary for designation of
additional groupings. As more groupings are designated and the benefits of preferred procurement
demonstrated, USDA expects Federal agencies to increase their purchases of biobased products substantially.



 USDA
    48              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



The Department also anticipates even stronger cooperation from manufacturers and vendors as they see this
program’s value.

Since FY 2004 was the first year of the program’s implementation, USDA will use performance information
from both that year and FY 2005 in determining a baseline.
Exhibit 14: Biobased Products Performance

                                                                       Fiscal Year Actual
                    Trends                      2001         2002           2003                2004        2005
 Number of groups of biobased products           N/A      Authorized    Developmental       Developmental     0
 designated for procurement                                in FSRIA         stage               stage


USDA has made substantial progress in establishing the regulatory framework necessary for operating the
preferred procurement program. It has also created the necessary electronic information system to provide a
timely and efficient communication mechanism. Federal agencies can use the system to learn which biobased
products are available. It will also provide them with information on qualifying for preferred procurement and
contacting the manufacturers and vendors of those products. Manufacturers and vendors that fall within
“items,” or generic groupings of biobased products, designated for preferred procurement by regulatory
rulemaking will be invited to post product and contact information on the web-based electronic information
system, which will be the primary source of information on the identity and availability of biobased products
for Federal agencies required to purchase such products. This system is also expected to be used by the
general public to gather information on the availability and identity of biobased products. This will facilitate
broader use of such products.

In FY 2006, manufacturers and vendors will begin to reap the benefits of the program as measured in
increased sales of biobased products to Federal agencies. Voluntary cooperation by manufacturers and
vendors with the Office of Energy Policy and New Uses (OEPNU) in gathering the information needed to
designate generic groupings of biobased products by rulemaking remains a challenge. Another challenge is
providing information on those products to USDA’s electronic information system to determine how quickly
the program grows. OEPNU assists the Secretary of Agriculture in developing USDA’s energy policy and
coordinating its energy programs and strategies.

USDA is undertaking a substantial outreach effort to manufacturers and vendors of biobased products to help
them assess the benefits of the program and develop the needed cooperation. The Department has entered into
a cooperative agreement with Iowa State University to identify biobased products, manufacturers and vendors.
The agreement also seeks their cooperation in developing data and other product information needed for the
designation of groupings by rulemaking. In turn, Iowa State University has developed cooperative
relationships with the Biobased Manufacturers Association, the United Soybean Board, the National Corn
Growers Association, the National Biodiesel Board, the Renewable Fuels Association and USDA’s Forest
Products Laboratory. These relationships are designed to identify biobased products and manufacturers and
vendors of those products. It also enlists their cooperation in obtaining information necessary to designate
biobased products by rulemaking. USDA is increasing its efforts to test selected biobased products within
generic groupings to speed the development of a database needed to support designation by rulemaking of
these products.



                                                                                                            USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   49
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Description of Actions and Schedules
USDA published Guidelines for Designating Biobased Products for Federal Procurement on January 11,
2005. The first regulation to designate items was published in the Federal Register as a proposed rule for
public comment on July 5, 2005. It is expected that the first designation rule will be published as a final rule
by the end of calendar 2006.

OBJECTIVE 1.4: PROVIDE RISK MANAGEMENT AND FINANCIAL TOOLS TO FARMERS AND
RANCHERS


Exhibit 15: Resources Dedicated to Providing Risk Management and Financial Tools to Farmers and
            Ranchers

                                                                              FY 2005
                     USDA Resources Dedicated to Objective 1.4      Actual         Percent of Goal 1
                    Program Obligations ($ Mil)                    10,959.0            67.04%
                    Staff Years                                     13,487             53.74%



Introduction
Agricultural producers face severe economic losses annually due to such unavoidable causes as low prices
and/or reduced yield due to drought, excessive moisture, natural disasters and insects. The agricultural
production sector is characterized by small profit margins and ever-changing cycles of good and bad
production years. USDA provides and supports cost-effective means of managing risk for agricultural
producers. This assistance is designed to improve the economic stability of agriculture by developing a variety
of risk management tools and continuing to assess producers’ needs. These tools range from yield-based
insurance products that protect individual crops against loss of yield and/or price reduction to whole farm
products that protect the producer’s entire farming operation against loss. Providing risk management tools to
farmers and ranchers helps them protect their livelihood in times of disasters or other uncontrollable
conditions. USDA uses the value of risk protection to measure the effectiveness of risk management. The
value of risk protection denotes the amount of insurance in force protecting and stabilizing the agricultural
economy. It also illustrates the acceptance of these products by producers and indicates a broadening of
economic stability across the agricultural spectrum.

Preserving the economic stability of farms and ranches is critical for protecting the Nation’s agricultural
industry. USDA programs support the financial viability of the Nation’s farmers and ranchers. They provide a
financial “safety net” that helps ensure productive and viable farms and ranches. USDA’s loan assistance and
income support and disaster assistance programs work to ensure that food and fiber producers receive the
financial assistance and support necessary to maintain and grow their businesses.

USDA strives to improve its program delivery structure by ensuring fair and equitable services to all of its
customers. This includes all beginning, socially disadvantaged and limited-resource farmers. Departmental
activities aimed at preventing civil rights program complaints will minimize associated risk, ensure equal
access to financial tools and enhance economic opportunities.




 USDA
    50              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                            ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Overview
The USDA Federal Crop Insurance Program provides an actuarially sound risk management program to
reduce agricultural producers’ economic losses due to unavoidable causes. Recently, USDA has seen dramatic
growth in this program. In FY 2005, the Department insured 48.7 million acres more than it did in 1999, and
approximately 16 percent or 39.2 million acres more than it did 5 years ago. Federal crop insurance is
available to producers solely through private insurance companies that market and provide full service on
policies upon which they share the risk with USDA. Principally, the Standard Reinsurance Agreement (SRA)
defines the amount of risk they share. SRA calls for insurance providers to deliver risk-management insurance
products to eligible entities under certain terms and conditions. Providers are responsible for all aspects of
customer service and guarantee payment of producer premiums to the Federal Crop Insurance Corporation
(FCIC). In return, FCIC reinsures the policies and provides premium subsidy to producers and reimbursement
for administrative and operating expenses associated with the companies delivering the insurance products.
FCIC is a wholly-owned Government corporation created in 1936 to provide for the nationwide expansion of
a comprehensive crop insurance program.

In 2005, USDA renegotiated SRA. These changes are estimated to generate average annual Government
savings of $37 million. They also promote policy sales in less profitable areas and reduce program fraud,
waste and abuse. During 2005, the number of participating companies increased, bringing the total to 16. Most
of these companies have requested authorization to increase the amount of premium they underwrite and the
number of States they intend to serve. USDA continues to receive inquiries from additional insurance
companies interested in joining the program. The value of risk protection provided to agriculture producers
through FCIC-sponsored insurance exceeded $44.2 billion in FY 2005.

Producers also have access to a number of USDA farm income support programs that bring much needed
economic stability to the agricultural sector. Assistance is provided through direct payments, which are based
on historical planting and yields. These payments are not tied to the production of specific crops and counter-
cyclical income support payments based on market prices in relation to target prices. Marketing assistance
loans provide producers interim financing at harvest time. These loans help producers meet their cash flow
needs without having to sell their commodities at harvest time when prices are low. With adequate financing,
producers store their production at harvest. These loans facilitate orderly marketing of commodities
throughout the year. In FY 2004, USDA issued approximately 430,000 marketing assistance loans valued at
more than $9 billion.

Additionally, to ensure the effectiveness of its credit programs, it is important to provide timely financial
resources and other assistance to borrowers when a need arises. Therefore, USDA plans to continue to reduce
processing times for loan requests each year. The Department will also continue to closely monitor the
delinquency and loss rates of the direct loan portfolio. Borrower ability to pay installment debt on time is a
strong indicator of financial strength and viability. Reduced losses in the program indicate that borrowers are
experiencing greater success in meeting their financial obligations.

Selected Results in Research, Extension and Statistics
The Message is Being Heard—A priority for USDA is providing science-based information, knowledge
and education to farmers to help facilitate their risk management. A recent evaluation study shows that the




                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  51
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



farmers are using this information regularly. Results of the study Evaluating an Integrated Educational
Program for Producers in Wyoming, South Dakota, North Dakota and Montana indicate that producers who
participated in the workshops evaluated their actual operational risk and risk management and operational
plans after attending a USDA-supported workshop. Producers further indicated that reducing costs, adopting
new technology and crop insurance are their top priorities.

Agricultural Contracting and the Scale of Production—Agricultural contracting occurs when farmers
receive income from contracts. Changes in U.S. farm structure can have potentially wide-ranging impacts on
the distribution of Government benefits and the sector’s responses to supply and demand shocks and policy
initiatives. While several major, long-term and familiar trends have characterized structural change in farming
since the 1930s, the last two decades have witnessed an important evolution in the nature of such change.
Recent changes in farm structure are detailed in the USDA paper, Agricultural Contracting and the Scale of
Productions. The growth of contracting has had important implications for the structure of the farm sector.
The paper presents evidence that contracting is associated positively with the scale of production. In other
words, contract production tends to be at a larger scale than its independent counterpart and that larger-scale
producers are more likely to contract than smaller-scale ones.

Serving the Public
Agricultural producers are exposed to both production and price risks daily. They can benefit from crop
insurance to protect themselves against these economic risks. USDA is a leader in helping producers ease the
effects of these risks on farm income. The Department promotes the use of crop insurance and other risk
management tools. Federal crop insurance offers producers various types of insurance coverage and other
tools to protect against crop and revenue loss.

USDA also offers direct and guaranteed farm ownership and operating loans to family-sized farmers and
ranchers who cannot obtain commercial credit from a bank, farm credit system institution or other lender.
Department loans can be used to purchase land, livestock, equipment, feed, seed and supplies. The loans also
can be used to construct buildings or make farm improvements. These loans particularly are important to
beginning, minority and women farmers whose limited cash flow may preclude them from qualifying for a
commercial loan.

USDA’s commodity programs continue to be a testament to the country’s commitment to maintaining a
balanced food and fiber industry for its consumers. The assistance made available under these programs helps
stabilize American farming and ranching operations. This assistance enables farmers and ranchers to reduce
their risk of financial loss due to inclement weather or unfavorable global market conditions.

Direct and counter cyclical payments reduce financial risks and help producers meet their cash flow needs.
Marketing-assistance loans provide producers interim financing at harvest time to meet cash flow needs
without having to sell their commodities when market prices are at harvest time lows. Enabling producers to
store production at harvest facilitates more effective commodity marketing throughout the year.

USDA is working continuously to ensure the public knows about all of its programs and services. The
efficient processing of civil rights program complaints will decrease lawsuits, reduce civil rights complaints,
decrease delays and lower costs to the Department. These reductions will assist in achieving the goal of
ensuring that USDA provides fair and equitable services and benefits to all of its customers.


 USDA
    52              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Challenges for the Future
USDA’s challenge is to continue expanding and improving coverage, particularly for underserved States,
areas, communities and commodities. To do this, the Department needs to address the information technology
cost increase associated with maintaining and upgrading existing product data needs. This technology also
services new or revised products. USDA is researching how to deliver more products suited for a diverse
agriculture and cover specialty crops with unique agronomic and economic characteristics. This research
includes reviewing and approving private-sector insurance products reinsured by FCIC that are targeted to the
unique needs of underserved areas and various specialty crops. The Department also continues to evaluate
risk-management delivery of products to ensure their effective delivery to agricultural producers. To further
contribute to the producers’ ability to protect their financial stability, USDA will continue to provide
education, outreach and non-insurance risk management assistance initiatives and tools through partnerships.

Today, approximately 79 percent of the acreage planted in major crops is covered at some level of Federal
crop insurance. Coverage also is routinely expanded by providing existing crop insurance programs in new
counties and States as crop production reaches these areas. It also occurs by developing new types of
coverage, such as for livestock, pasture, forage, rangeland, and revenue protection. These programs, along
with diversified production, marketing, and the use of futures and options, allow each producer to customize
his or her risk management strategy. These products can help producers protect themselves from yield and/or
market risks. To meet producer needs, USDA continues to seek out actuarially sound and innovative risk
management solutions for providing coverage suited for a diverse agriculture. For example, USDA is
currently evaluating contracts for the development of new and very innovative risk management solutions for
insuring pasture, rangeland, forage and hay. They include developing a new plan for pasture, rangeland and
dryland hay using a dual index consisting of such tools as a satellite-based vegetative index and a proxy crop,
and a Temperature Constrained Normalized Difference Vegetation Index. This index uses data derived from
satellite-based remote sensing imagery that will describe the seasonal growth dynamics of vegetation for
target areas. One such toll is a Seasonal Growth Constrained Rainfall Index, which uses a weighted warm
season/cool season indexing period and the National Oceanic and Atmospheric Administration rainfall data
system. Another one is the Precipitation Index, which bases itself on a weighted average amount of
precipitation during a particular time period. The FCIC Board will determine which of these approaches meet
the criteria for effective risk management coverage. Then the board will approve, modify or reject each
approach for pilot testing in specific areas.

USDA consistently reviews its farm loan program activities to assess the effectiveness and impact of its
programs. The availability of funds for financial assistance and the local and national economies impacts the
efficient delivery of services. Training, human-capital planning and organizational efficiencies are also
contributing factors. Farm loan program challenges include ensuring a highly trained staff, assisting farmers
during economic distress and natural disasters, and offering credit to eligible buyers unable to obtain it from
other sources.

One Farm Loan Program challenge is a lack of customer focus at the service-delivery point. USDA will
improve technical assistance and education, and provide workshops for farmers, farming-related associations
and civil rights organizations with an interest in farming and agriculture. These targeted, multi-agency efforts




                                                                                                         USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   53
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



will provide greater awareness of USDA program availability and inform its customers of participation
requirements.

Key Outcome:                 Improve Economic Viability of Beginning and Socially Disadvantaged Farmers
                             and Ranchers
While the future of farming in America depends on the continued entry by new operators and owners, the
agricultural census reveals that there are fewer young farmers today than in the past. The census also shows
that the number of new entrants into farming has fallen over time. To help offset this trend and encourage new
entrants to farming, USDA targets a portion of its lending each year to beginning farmers. Beginning farmers
are defined as those who have not operated a farm or ranch for more than 10 years, and who participate
substantially in the operation of a farm or ranch. USDA credit assistance is particularly vital to beginning
farmers as they tend to have smaller operations and lower equity levels. This limits their ability to obtain
commercial credit.

Similarly, USDA also targets its lending to socially disadvantaged farmers. Socially disadvantaged farmers
are members of a group who have been subjected to racial, ethnic or gender prejudice. Socially disadvantaged
farmers are more likely to have smaller farming operations, lower average incomes and a limited asset base.
As a result, they are less likely than other farmers to qualify for credit from commercial sources.

Farm loan programs provide support to family farmers and ranchers who otherwise would be unable to
contribute to the agricultural sector. Assistance is offered through the Direct Loan and Guaranteed Loan
Programs. Through the Direct Loan Program, USDA makes and services farm operating and ownership loans,
and provides customers credit counseling and loan supervision to improve their chances in realizing
successful farming operations. The Guaranteed Loan Program provides agricultural lenders with up to a 95-
percent guarantee of the principal loan amount for farm operating and ownership loans. The lender is
responsible for servicing a borrower's account for the life of the loan. All loans must meet certain qualifying
criteria to be eligible for guarantees. USDA has the right and responsibility to monitor the lender's servicing
activities.
Exhibit 16: Providing Credit Assistance

                                                                                                            Fiscal Year 2005
                      Annual Performance Goals and Indicators                                     Target           Actual         Result
 1.4.1       Increase the percentage of beginning farmers, racial and ethnic                      35.5%            45.6%         Exceeded
                                                                      1
             minority farmers, and women farmers financed by USDA.
 1.4.2       Reduce average processing time for direct loans (# of days)                            40               35          Exceeded

 1.4.3       Reduce average processing time for guaranteed loans (# of days)                       14.5             14.5           Met
 1
     Data reported are proxy, which reflects the percentage of loans to beginning and socially disadvantaged farmers/ranchers.



Analysis of Results
USDA exceeded its performance targets for lending to beginning and socially disadvantaged farmers, and
loan-processing timeliness. In FY 2005, 45.6 percent of direct and guaranteed farm loans were provided to
beginning and socially disadvantage farmers, a 5.6 percent increase from FY 2004. In all, 12,751 farm loans
totaling $1.27 billion were issued to these groups. Loan proceeds are used to acquire, enlarge or improve a




 USDA
      54            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



farm (farm ownership loans) or provide short- to intermediate-term production or chattel financing (farm
operating loans). As the following table indicates, USDA has increased dramatically the amount of credit
assistance provided to beginning and socially disadvantaged farmers and ranchers since FY 2000.

As indicated in the footnote above, the data reported for lending to beginning and socially disadvantaged
farmers is a proxy measure. Beginning in FY 2006, USDA will be measuring the “percentage of beginning
farmers, racial and ethnic minority farmers, and women financed by USDA.” This measure, developed as part
of the Department’s recent strategic planning initiative, is a better indicator of its success in meeting the needs
of these traditionally underserved groups. Currently, USDA is establishing the measurement parameters for
this performance measure. Once that task is completed, baseline data and targets for future performance will
be established.

Improvements in loan-processing timeliness can be attributed to many factors. One is the comprehensive
streamlining of the Guaranteed Loan Program, completed in 2001. This effort essentially reinvented the
program. The work done now is less dependent upon USDA processes and more dependent on the normal
business practices of lenders participating in the program. Additionally, USDA created a Preferred Lender
Program that continues to yield positive results. The program was established to reward experienced
agricultural lenders by streamlining and adding flexibility to loan-application and servicing requirements. It
also expedites loan approval and other USDA decisions and allows lenders to originate and service guaranteed
loans the way they do other loans in their portfolio. Thus, guaranteed loan processing times continued to drop
in FY 2005, averaging 14.5 days, a 27.5 percent reduction from the FY 2000 baseline.

The average time to process a direct loan also continued to decline, decreasing from 46 days in FY 2000 to
35 days in FY 2005. During FY 2005, USDA continued its comprehensive streamlining initiative for Direct
Loan Program regulations, handbooks and information collections. This ongoing streamlining effort will
result in a significantly reduced burden for both applicants and USDA. It will also contribute to the continued
improvement in loan-processing efficiencies.

In FY 2005, USDA implemented Web Equity Manager, a commercially available financial analysis system
widely used throughout the agricultural-lending sector. Known internally as the Farm Business Plan, the web-
based farm planning software is used to develop business plans and manage loan portfolios. The Farm
Business Plan changed the way USDA had operated for more than 50 years. The plan provides improved
borrower information, allowing the Department to measure and monitor the financial status of borrowers,
perform more in-depth portfolio analysis and focus resources on problem areas. Currently, the system is being
used for the Direct Loan Program. Plans include making the system available to lenders participating in the
Guaranteed Loan Program and eventually providing customers with direct system access.




                                                                                                           USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                    55
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 17: Performance Trends: Lending to beginning, racial and ethnic minorities, and women farmers and
            timeliness of loan processing.

                                                                        Fiscal Year Actual
                      Trends                         2001        2002         2003           2004       2005
 Increase the percentage of beginning farmers,       30%         33%          34%            40%       45.6%
 racial and ethnic minority farmers, and women
 farmers financed by USDA.
 Baseline: 2000 = 27%
 Reduce average processing time for direct loans      44          41           43             37         35
 (# of days)
 Baseline: 2000 = 46
 Reduce average processing time for guaranteed        18          15           15             14        14.5
 loans (# of days)
 Baseline: 2000 = 20


Implementing these projects allows USDA to focus more resources on providing the technical assistance,
services, monitoring and oversight essential to supporting high-risk beginning and socially disadvantaged
farmers. USDA helps customers identify problems and develop solutions. This leads to lower loan
delinquencies and reduced losses, and assists USDA in accomplishing its objective of improving the
economic viability of farmers.

Key Outcome:             Increased Value of Risk Protection Provided to Agricultural Producers through
                         FCIC-Sponsored Insurance
FCIC improves economic stability within agriculture by ensuring that new and innovative risk management
alternatives are available to agricultural producers and their lenders. The increased value of risk protection
provided to agricultural producers through FCIC-sponsored insurance illustrates the acceptance of these
products by producers. It also shows the broadening of tools to ensure greater economic stability across the
agricultural spectrum.

FCIC consists of many public and private risk management alternatives designed to improve the economic
stability of agriculture. The long-term agricultural producers’ ability to supply U.S. and global food-related
markets depends on their ability to manage financial and natural risks associated with production. FCIC
promotes the availability of a sound system of crop insurance for American agricultural producers. FCIC-
sponsored insurance provides assistance in managing this risk. Private sector insurance companies sell and
service these policies. FCIC develops and/or approves the premium rates, administers premium and expense
subsidies, approves and supports products, and reinsures a portion of the companies’ risk. Contracts or
partnerships are used for research and development of new and innovative insurance products. They also
provide the means for the research and experience helpful in devising and establishing such a system. Private
entities also may submit unsolicited proposals for insurance products to the FCIC for approval. During 2005:
            USDA completed its rulemaking process to allow approved insurance providers to offer premium
            discounts to farmers corresponding to demonstrated efficiencies in delivering crop insurance known
            as Premium Reduction Plans. In July, USDA issued an interim final rule based on comments
            received on the proposed rule issued earlier this year. Additionally, USDA issued a final rule
            establishing guidelines for submission of crop insurance policies, plans of insurance and premium
            rates to the FCIC Board under section 508(h) of the Act. The rule specifies procedures for submitting



 USDA
    56              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            proposals and requesting reimbursement for research development and maintenance costs for
            products. It also outlines the approval process;
            USDA also finalized the Nursery Crop Insurance Provisions to provide coverage for plants in
            containers equal to or greater than one inch in diameter, provide separate basic units by share for all
            coverage levels and basic units by plant type when additional coverage is purchased, permit the
            insured to select one coverage level for each plant type basic unit when additional coverage is
            purchased, allow increases to the Plant Inventory Value Report up to 30 days before the end of the
            crop year, allow acceptance of an application for insurance for any current crop year up to 30 days
            before the end of the crop year, change the starting and ending dates for the crop year, and make
            other policy changes to improve coverage of nursery plants. The Department also finalized the
            Nursery Peak Inventory Endorsement to augment changes made in the Nursery Crop Provisions and
            allow growers of high-priced plants and species to be fully covered;
            USDA awarded two contracts for the development of new and innovative approaches to mitigate
            declines in yield guarantees following successive years of low yields. Multiple years of low yields in
            some drought-affected areas have an impact on producers’ actual production history (APH). The
            APH is often used to determine insurance coverage levels. New procedures developed under these
            contracts must mitigate this impact while maintaining the actuarial soundness and integrity of the
            crop insurance program;
            Asian soybean rust is a fungal disease that can defoliate plants quickly and reduce pod set, pod fill,
            seed quality and yield. To ensure that farmers know their rights and responsibilities, USDA
            augmented the information insurance providers are required to provide to farmers through their
            agents. The Department has met with commodity groups and crop insurance providers, their
            associations, and agent organizations to discuss the issue. These meetings allow USDA to clarify all
            necessary good farming practices;
            The FCIC Board of Directors voted to approve the conversion of the chile pepper dollar pilot
            program to a permanent APH regulatory program, discontinue the processing cucumber and winter
            squash dollar pilot programs, and continue 12 other pilot programs. The board also approved
            expansion of the Group Risk Income Protection (GRIP) to cotton, wheat, and grain sorghum. GRIP is
            a risk-management tool designed to insure against widespread loss of revenue from the insured crop
            in the country. The board also expanded coverage to additional areas of corn and soybeans,
            incorporated the Harvest Revenue Option into current and future GRIP plans, extended the Adjusted
            Gross Revenue (AGR)-Lite to Virginia, and extended the Livestock Risk Protection Plan for cattle,
            swine, feeder and fed cattle to Montana;
            USDA updated its Written Agreement Handbook to strengthen underwriting requirements and meet
            legislative mandates. A written agreement is one between the insurance provider and the insured that
            allows coverage for areas where the program generally is not offered or alters designated terms of
            additional coverage authorized for the insured crop;

            During FY 2005, USDA announced the awarding of $19.8 million in risk management partnership
            agreements. The Targeted States Program delivered crop insurance education to producers in 15
            historically underserved States. Specialty crop, livestock, nursery, and horticulture producers




                                                                                                            USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   57
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            benefited from the 41 education partnership agreements for commodity partnership programs. Fifty-
            nine competitively awarded partnerships with community-based, educational, and non-profit
            organizations assisted in providing risk management information to women, limited resource, and
            other traditionally underserved farmers and ranchers. USDA also awarded 12 research partnerships
            for the research and development of new non-insurance risk management tools;

            USDA has established procedures to participate in the review of loss determinations for claims that
            are likely to exceed $500,000. This authority, established in the 2005 SRA and 2005 Livestock Price
            Reinsurance Agreement, is a significant new function that promotes program integrity and prevents
            fraud, waste, and abuse; and

            The obligation of a product to follow “Good Farming Practices” has long been part of the Federal
            crop insurance policy. The Federal Crop Insurance Act (7U.S.C. 1501 et seq.) prohibits crop
            insurance from covering losses due to the failure to follow good farming practices. USDA
            established procedures for the insurance providers to make objective and scientifically sound good
            farming practice decisions and for the producer to seek reconsideration of those decisions from
            USDA.

USDA continues to assess producers’ needs and private risk-management tools to ensure that new and
innovative alternatives are available.
Exhibit 18: Expand Use of Risk Management Tools

                                                                                                  Fiscal Year 2005
                    Annual Performance Goals and Indicators                           Target          Actual        Result
 1.4.4      Increase the value of risk protection provided to agriculture             $40.0            $44.2       Exceeded
            producers through FCIC-sponsored insurance ($ Bil)
As of October 3, 2005


Analysis of Results
USDA exceeded its target by $4.2 billion. During FY 2005, the economic risk of American agricultural
producers was reduced by approximately $44.2 billion through Federal crop insurance coverage. The
performance measure illustrates the dollar value of FCIC insurance in force within the agricultural economy.
It also shows the amount of potential collateral provided to qualify for commercial loans. Since FY 1999, the
value has increased by approximately $13.3 billion. While there are a number of factors that influence these
figures, including market-price increases and inflation, they still represent a major growth in the amount of the
agricultural economy insured via the FCIC-sponsored insurance.
Exhibit 19: Providing Risk Management and Financial Tools to Farmers and Ranchers

                                                                                    Fiscal Year Actual
                       Trends                                2001           2002          2003           2004       2005
 Increase the value of risk protection provided to           $36.7          $37.3         $40.6          $46.7      $44.2
 agriculture producers through FCIC-sponsored
 insurance. ($ Bil) Baseline: 1999 = $30.9




 USDA
    58              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



USDA has enhanced the value of risk protection significantly through FCIC-sponsored insurance since FY
2000. The Department continues to work closely with insurance providers that market and provide full service
on crop insurance policies. It also researches and develops new products that address the needs of producers.
USDA has also partnered with State departments of agriculture, universities and farm organizations to deliver
regionalized risk management education programs for producers in the historically underserved States, and for
specialty crop producers. Due to these efforts, the Federal Crop Insurance Program should continue to provide
actuarially sound risk management solutions to strengthen and preserve the economic stability of American
agricultural producers.

STRATEGIC GOAL 2: SUPPORT INCREASED ECONOMIC
OPPORTUNITIES AND IMPROVED QUALITY OF LIFE IN RURAL
AMERICA
Rural America, home to one-fifth of the Nation’s population, is a collage of people and economic activities.
Today, seven out of eight rural counties are dominated by varying mixes of manufacturing, services and other
non-farming activities. Of the 60 million people who live in rural America, only 2 million are engaged
directly in production agriculture. While farm income is an important source of revenue for some rural
families, most rural residents are not dependent on agriculture. Many family farmers rely on local, off-farm
employment to supplement their farm income.

A diversity of other enterprises, including renewable energy and “place”-based opportunities, such as support
services for agriculture, forestry, mining, recreation, and manufacturing, provide many of the jobs and income
in rural America. USDA enhances economic opportunities and quality of life for rural residents by helping to
provide financial and technical assistance for business and industry, water and waste disposal, community
facilities, advanced telecommunications and broadband infrastructure, electric utilities, and housing. The
Department helps to ensure that rural residents have equal opportunity to share in the Nation’s prosperity and
technological advancement.

USDA facilitates the achievement of Presidential initiatives by encouraging, for example, minority
homeownership and the production of renewable energy. The Department will continue to work with other
Federal agencies, State and local governments, and private-sector interests to achieve a coordinated effort for
the realization of Presidential initiatives as well as other activities important to rural America.

OBJECTIVE 2.1: EXPAND ECONOMIC OPPORTUNITIES THROUGH USDA FINANCING OF
BUSINESSES


Exhibit 20: Resources Dedicated to Support Expanding Economic Opportunities Through Financing of
            Businesses

                                                                            FY 2005
                     USDA Resources Dedicated to Objective 2.1    Actual        Percent of Goal 2
                    Program Obligations ($ Mil)                  19,286.3           51.33%
                    Staff Years                                   2,836             35.32%




                                                                                                        USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             59
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Introduction
Financing of businesses led to the creation or saving of 73,617 jobs in FY 2005. As a result, economic
opportunities for rural communities have expanded.

Overview
USDA focuses on expanding economic opportunities in rural areas. With USDA assistance, traditional rural
economies are transforming themselves and participating in new opportunities in mechanization,
hybridization, biotechnology and world markets. Rural areas have an enormous competitive advantage in
abundant land, clean environment and a highly motivated workforce. Thanks to modern technology and
transportation systems, the traditional barriers of communication, time, distance and rural isolation are
crumbling. The Department’s investments in rural communities are multi-faceted and include:

            Guarantees of bank loans to rural businesses;
            Loan guarantees and grants to develop energy savings and alternative energy sources;
            Capitalizing revolving funds that assist rural businesses;
            Grants to develop business infrastructure, such as industrial parks and incubators, and feasibility
            studies;
            Grants for business planning, public transportation and re-training;
            Technical assistance to help communities develop their own strategies for economic development;
            Economic research and technical assistance that enable agricultural cooperatives to enhance their
            management skills and business operations;
            Grants to create new enterprises based on value-added products; and
            Grants to rural cooperative development centers to help rural residents explore new business
            opportunities.

USDA programs help create and save jobs in rural America. USDA administers several programs designed to
support businesses in rural communities. The Business and Industry (B&I) Guaranteed Loan Program can
help a rural business get needed credit by guaranteeing as much as 90 percent of a business loan made by a
commercial lender. Loan proceeds may be used for working capital, machinery and equipment, buildings and
real estate, and certain types of debt refinancing. B&I expands the lending capacity of private lenders in rural
communities. Typically local lenders are small banks with limited lending authority under banking laws. The
guarantee allows these lenders to make larger loans and avoid a “concentration of credit” problem. With the
guarantee, lenders can make, sell and service quality loans that provide lasting community benefits.
Businesses in rural communities tend to buy local goods and services and boost employment. This investment
stimulates the economy. The B&I program represents a true private-public partnership in rural communities.

The Farm Security and Rural Investment Act of 2002 (FSRIA) calls for USDA to make loan guarantees and
grants to agricultural producers and rural small businesses. These guarantees and grants are used to purchase
and install renewable energy systems and energy efficiency improvements in rural areas. FSRIA is designed
to help rural small businesses reduce energy costs and consumption, and help meet the Nation’s critical
energy needs. In Washington State, funds were used to install an Anaerobic Digester to convert manure from



 USDA
    60              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



1,500 cattle on 5 dairy farms into methane gas. The methane produced is used to fire an electrical generator to
provide power for a portion of the dairy’s needs. The excess energy is sold to the local utility, providing
additional income to the participating farmers. Additional benefits include a reduction in greenhouse gases,
surface and subsurface water contamination, and odors, and the production of marketable by-products
including soil amendments and bedding materials.

USDA also provides loans to establish revolving loan programs for public bodies, Indian tribes and not-for-
profit organizations. These revolving loan programs are capitalized by 1 percent loans from USDA. Revolving
loan funds provide financing to help develop small or emerging private business enterprises in rural areas for
land acquisition, working capital, building renovation, new construction, new equipment and equipment
upgrading. This program helps the beginning entrepreneur and the small business by providing low-cost loans,
usually coupled with mentoring. As these loans are repaid, additional local businesses can borrow. Grants
permit local fire departments to purchase improved equipment, communications and training.

Through its value-added grant program, USDA assists agricultural commodity producers in adding value to
their products by allowing them to capture a greater percentage of the consumer’s food dollar. A cooperative
of dairy producers in Iowa and Minnesota did just that. They developed a variety of natural rind blue cheese
that tied for first place in the American Cheese Society’s 2004 national contest. As a result of the quality of
their products, the cooperative’s production plant now uses more than 5,000 pounds of milk that it purchases
from cooperative members daily. Not only has the plant provided employment for 20 members of the
community, it has enabled the cooperative families to preserve a way of life they enjoy. Value-added grants
may be used for planning purposes, such as feasibility studies or business plans, or to establish working
capital accounts to pay salaries and the other eligible expenses of starting a new business operation.

USDA also invests in rural America’s most important resources – its people. USDA has a long-term strategy
of providing technical advice and assistance, developing educational material, collecting statistics, and
conducting applied economic research that enhances rural entrepreneurs’ abilities, strengthens economies and
create job opportunities. By investing in America’s rural human capital, USDA is helping to develop
community leaders that will make our rural towns economically robust in today’s global marketplace.

Selected Results in Research, Extension and Statistics
Linking Community Development and Sustainable Agriculture—With USDA seed money, the
Southern Rural Development Center (SRDC) and the Southern-Region Sustainable Agriculture Research and
Education Program (SARE) developed the Sustainable Communities Grants Competitive Program. SRDC
seeks to support research activities at the Nation’s historically black colleges and universities. SARE provides
grants and information to improve profitability, stewardship and quality of life. The program blends
agriculture, community and economic development. Through their joint grants program, SRDC and SARE
fund projects that link community development with sustainable agriculture in the South. The groups also
work to improve the understanding of the benefits of such linkages. During the past year, this program has
enabled Northern Louisiana farmers, community leaders and agriculture and community development
technical assistance providers to develop local markets for produce. These groups have also been able to
promote value-added activities to grow the local economy and have helped coastal Alabama communities to
address farmland preservation issues. In Appalachia, a community college is teaching farmers what students
and faculty have learned about raising trout, crawfish and tilapia by using water from abandoned coal mines.



                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  61
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



In Kentucky, farm women are improving their policymaking skills so that they may participate more in local
resource management.

Improved Decision-making for Civic and Government Organizations—To help local, often
volunteer, land-use decision makers with partial funding from USDA, Michigan State University developed
the Citizen Planner Program. The seven-week, non-credit course series leads to an optional certificate of
competency. The curriculum was developed in partnership with the Michigan Society of Planning. Since
2001, more than 2,000 citizens and elected officials representing 76 Michigan counties have learned about the
tools available to conserve land while allowing community growth and development through the program.
Nearly two-thirds (64 percent) of those participants serve on local planning and zoning boards. They indicated
that they paid closer attention to legal issues after attending the program.

Rural Entrepreneurship Initiatives—With partial funding from USDA, Cornell University and the
University of Vermont partnered to support start-up food companies. In its fifth year of operation, the
Northeast Center for Food Entrepreneurship (NECFE) continues to provide comprehensive assistance to
business owners in the Northeast. NECFE offers direct counseling and educational programs. To date, the
center has helped entrepreneurs commercialize more than 2,200 food products. Based on a follow-up survey,
the partners estimate that 806 full-time jobs were created by new businesses and 7,836 existing jobs continue
to be supported by established businesses. Ninety-four percent of clients expressed satisfaction with the direct
assistance received. Additionally, 65 percent reported that NECFE’s services contributed to the success of
their businesses.

Enhanced Statistics on Farming Demographics—In February, USDA issued the report Operators by
Race. The publication combined the relevant 1997 and 2002 principal operator counts into one publication.
Operators by Race marked the first documented information on operators who indicated that they were of
more than one race in the agriculture census. USDA also released Women Principal Operators in March.

The Agricultural Atlas, also released by USDA in March, provides graphic representation of data collected for
the Census of Agriculture. A variety of maps illustrate agriculture trends and shifts across the U.S. down to
the county level. The atlas is available at www.nass.usda.gov/research/atlas02. In June, a new interactive
mapping tool became available. Data users now can customize maps using various data items from the 2002
Census of Agriculture. For more information, visit www.nass.usda.gov/census.

Trade and Rural Areas—American farmers produce raw farm products well in excess of domestic
demand. Because processing these excess products could yield additional income and jobs, rural planners
have viewed the food-export market as a potential base for rural development. Despite its logical appeal, it has
been difficult to demonstrate the strength of this potential development effect for rural areas. A USDA study
of the growth in U.S. meat exports in the last two decades suggested reasons for this difficulty. The
researchers show that, while the U.S. has long had an apparent comparative advantage in meat production, the
growth in meat exports resulted from changes that affected the cost of production and the demand for meat
and the impact of new public policy. Most, if not all, of these changes were outside the control of rural
development policymakers.




 USDA
    62              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Challenges for the Future
Rural economies face different challenges than urban and suburban areas. These challenges include:
            Historic dependence on natural resources, mostly commodities, which are subject to cyclical trends;
            Low profit margins on commodity sales;
            Large-scale changes in technology and the resulting efficiency gains in these industries; and
            Their inaccessibility and low-density populations.

Additionally, rural areas typically are caught in a cycle of underdeveloped public services that make it
difficult to attract or retain businesses. Education, health care and entertainment typically are only marginally
acceptable. Every rural area has its unique concerns.

Key Outcome:            Enhance Capital Formation for Rural Communities
Many rural communities are challenged by declining economies due to a combination of factors. These factors
include transitioning away from traditional economic bases, efficient and competitive access to input or
product markets, outmoded labor force skills, and rising international competition. USDA seeks to address
these circumstances by expanding economic opportunities in rural areas through the stimulation of capital
investment. The variety of investment strategies used includes guarantees of bank loans to rural businesses
and capitalizing local revolving loan funds that assist these businesses. The Department also offers guarantees
on bank loans, business planning grants and grants to foster energy savings, develop rural cooperative
business ventures and add value to agriculturally produced commodities. The resulting enhanced capital
formation is linked directly to the USDA goal of expanding economic opportunities.

In many rural communities, farm families seek part-time and seasonal work to supplement on-farm income.
USDA programs support skill development (marketing, finance) and small financial incentives to lenders who
help broaden and stimulate local employment. Job growth and employment in rural communities lag behind
that of urban areas. According to 2001 figures, while rural communities account for about 20 percent of the
Nation’s population, they represent only 18 percent of all jobs in the U.S.

Physical conditions and credit terms in rural areas are inferior to those in metropolitan and urban areas. For
example, rural banks are smaller and bank regulations impose more restrictive lending limits (size of loans
and concentration of industry) than larger urban institutions. The availability of the Internet and other web
services is inconsistent in rural areas. Even telephone access is uneven in rural areas. Access to computer
servers for business use may be unavailable or cost prohibitive. Phone lines often are too slow to
accommodate high-speed data needs of businesses. This is a distinct disadvantage to rural business growth.
The rare, publicly financed rural industrial park is smaller and has fewer amenities than its urban counterpart.
While rural areas tend to grow during national economic expansion, sometimes at faster rates than metro
areas, many have neither the size nor depth of tax bases to finance the direct amenities and conditions that
businesses can demand from metropolitan governments. These amenities include transportation links, sewer
and water, adequate fire protection, attractive downtowns, well-regarded school systems, reliable and
accessible health care, and publicly financed training of workers.

B&I can guarantee loans for satisfactory credit risks. This program allows lenders to offer competitive terms
and loans up to $25 million in eligible areas. Up to $40 million may be guaranteed for certain value-added



                                                                                                            USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 63
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



cooperative enterprises. USDA also provides technical assistance and modest grants (frequently as a catalyst
for attracting local private funds) for communities to launch the infrastructure necessary for businesses.
Funding of small revolving loan funds encourages business growth. It helps new borrowers and emerging
local entrepreneurs without a credit history or adequate collateral for a commercial lender.

In rural Georgia, through B&I loans for business expansions, a home-based baking company grew into a
77,000 square foot warehouse facility generating more than $18 million in annual sales and 350 employees.
These business-expansion loans are not offered by traditional rural lenders.
Exhibit 21: Strengthen Rural Businesses

                                                                                            Fiscal Year 2005
                    Annual Performance Goals and Indicators                        Target        Actual       Result
 2.1.1      Create or save additional jobs through USDA financing of               63,856        73,617      Exceeded
            businesses.



Analysis of Results
The performance goal was exceeded for the number of jobs created or saved. The number of jobs created or
saved is related directly to the funding levels for each program and business conditions in regional and
national economies. There are six different programs, which count jobs created differently. B&I counts the
jobs when the loan is closed. This is also true for some of the grant programs. The major revolving loan fund
uses a formula based on a study that showed the cost of actually acquiring job information on each loan was
determined not to be cost effective. These factors are beyond USDA’s control. Additionally, State offices
substantially improved their ability to gather, record and report job information on all programs.

The 73,617 jobs resulting from USDA’s programs for expanding economic opportunities in FY 2005
exceeded the target level. While this number is less than the 2004 number, it is proportionate to lower FY
2005 funding.

In addition to direct jobs created or saved, the economic benefit to the rural community is estimated to be
$2.50 for every dollar in guaranteed loans closed, according to U.S. Department of Labor statistics. These
investments make a continuing difference in rural communities.

USDA is developing a pilot information system, the Socio-Economic Benefit Assessment System (SEBAS),
to enhance its ability to measure program–investment effectiveness. SEBAS, which uses detailed information
about Department loan or grant investments, will enable USDA to measure the direct and indirect impact of
program assistance on local and regional economic performance, and the quality of life in rural areas.
Exhibit 22: Trends in Creating or Saving Jobs

                                                                                Fiscal Year Actual
                       Trends                              2001         2002           2003           2004     2005
 Create or save additional jobs through USDA              105,222      76,301         88,611         81,010   73,617
 financing of businesses                                  Baseline




 USDA
    64              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



One challenge USDA faces is that general economic conditions strike harder and longer in rural areas.
Poverty areas also require a greater scope and depth of technical support.

The national delinquency rate for USDA business loans represents a myriad of conditions across the country
in dispersed rural communities. National and regional economic trends are the primary influence, followed by
the local business environment and finally the quality of the agency’s loan underwriting. While the
Department cannot control macroeconomic factors or the conditions of each rural community, it has begun
strengthening loan underwriting through continuous training, as well as implementing an accreditation
program. The results have started to appear in the form of decreasing delinquency rates.

OBJECTIVE 2.2: IMPROVE THE QUALITY OF LIFE IN RURAL AMERICA THROUGH USDA
FINANCING OF QUALITY HOUSING, MODERN UTILITIES AND NEEDED COMMUNITY FACILITIES


Exhibit 23: Resources Dedicated to Support Improving the Quality of Life in Rural America Through
            Financing Housing, Utilities and Community Facilities

                                                                             FY 2005
                     USDA Resources Dedicated to Objective 2.2     Actual        Percent of Goal 2
                    Program Obligations ($ Mil)                   18,286.1           48.67%
                    Staff Years                                    5,194             64.68%



Introduction
USDA successfully improved the quality of life in rural America during FY 2005. The Department financed
quality homes for 43,224 homebuyers, new/improved water and waste disposal facilities for 1,325,274
subscribers, new/improved electric facilities for 2.4 million subscribers, broadband telecommunications in 80
counties and improved community facilities for 12.9 million rural residents.

Overview
Many USDA programs make important contributions toward improving the quality of life in rural America.
Of particular significance are programs increasing the quality and availability of housing, modern utilities and
community facilities. USDA’s utilities programs also contribute to the creation of jobs and strengthening of
the rural economy. For example, without adequate electric service, industries will not operate in rural
America. Ensuring that rural America can participate fully in economic recovery requires safe, reliable and
affordable infrastructure.

The Department provides other grants and loans for use in developing a broad range of rural community
facilities. These facilities include hospitals, fire, rescue and public safety equipment, schools, libraries and
public buildings. These facilities enable communities to improve the quality and scope of community services.
These services help rural residents achieve a quality of life more comparable to that found in urban and
suburban areas.

USDA’s rural water and waste programs provided new access to safe drinking water or sanitary wastewater
disposal (or improved service) for 1,325,274 subscribers.




                                                                                                        USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             65
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



The Department’s Electric Program makes loans and loan guarantees to finance the construction of electric
distribution, transmission and generation facilities. This process also funds system improvements and
replacements required to furnish and improve electric service in rural areas, and demand-side management,
energy conservation programs and on-grid and off-grid renewable energy systems. Demand-side management
refers to understanding customers' needs and preferences, and their use of products. Since its beginning, the
Electric Program has invested more than $74 billion in rural America’s infrastructure.

USDA issues loans to corporations, States, territories and subdivisions and agencies. The Department also
issues loans to municipalities, people’s utility districts and cooperative, not-for-profit, limited-dividend or
mutual associations. These organizations provide retail electric-service needs to rural areas and supply the
power needs of distribution borrowers. Additionally, USDA provides financial assistance to rural
communities with extremely high energy costs. This assistance allows the communities to acquire, construct,
extend, upgrade and otherwise improve energy generation, transmission or distribution facilities. Overall, the
Department services nearly 700 cooperatives, utility districts and other institutions, which provide rural
electricity in 46 States and 3 territories.

USDA’s Broadband Telecommunications Program provides loans and loan guarantees for broadband services
in rural communities. These loans facilitate the deployment of new and innovative technologies to make high-
speed data transmission available in low-density, remote areas. Often, the private sector ignores these areas.
Since its 2001 inception, the program has grown quickly. Financing has provided broadband access to more
than 200 rural counties. These investments in critical telecommunications infrastructure are essential to
enabling rural businesses and communities to keep pace with rapid developments in the rest of America and
the world.

USDA’s assistance reaches large numbers of rural Americans with services crucial to achieving a satisfactory
quality of life. The Department provides direct and guaranteed loans to help rural citizens achieve
homeownership. These loans served 43,224 households in 2005. Minority households accounted for more
than 17.1 percent of all those purchasing homes with USDA loans and 18.1 percent of first-time buyers.
USDA also provides programs to develop multi-family housing and offer assistance to make homes
affordable. Special emphasis is placed on improving home affordability for minorities.

USDA’s grants and loans to help rural communities obtain essential facilities reached 12.9 million residents in
2005. Taken together, these investments bring important benefits to a large number of rural communities and
citizens. They increase the availability of essential services and raise rural America’s quality of life.

Selected Results in Research, Extension and Statistics
Assisting Small Disadvantaged Farmers—The University of Arkansas, with partial funding from
USDA, conducted an outreach program for Small Disadvantaged Farmers (SDF). As a result, approximately
100 SDFs increased their incomes by an average of $5,000 during the year.

The Impact of Recreation and Tourism on Rural Economies—Many rural communities use
recreation and tourism to offset the decline in traditional employment opportunities and stimulate local
development. While it is generally agreed that recreation and tourism contribute to population and
employment growth, the low-skill and part-time jobs associated with the industry raise questions about
contributions to local economic and community well-being. The USDA study Recreation, Tourism, and Rural


 USDA
    66              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Well-Being estimated the local economic and community impacts of recreation and tourism development on
rural America. Study findings are consistent with claims that tourism and recreational development contribute
to rural well-being. This development increased local employment, income, and wage levels. It also decreased
poverty, and improved education and health. Despite these gains, higher housing costs are a drawback of
development. Local conditions also vary significantly, depending on the type of recreation area.

Challenges for the Future
Special challenges to this objective continue to be the increased cost of housing and other building costs, with
program budgets that are not increasing. For example, as building costs continue to rise, fewer homes,
community facilities and water and waste systems ultimately can be financed with available funding levels.

In the water and wastewater area, a challenge USDA faces is assisting, with limited program resources, rural
communities most in need of its financial and technical services. These communities usually have the least
resources for such services. Droughts, limited water resources, extreme temperatures and other environmental
factors present unique problems in developing utility systems, and worsen this condition. Since solutions to
difficult conditions are expensive, additional grant funds must be used to develop feasible projects.

USDA’s utilities programs also support creating jobs and strengthening the rural economy. Rural communities
are unattractive to industry if they cannot provide adequate (and competitively priced) electric, telephone,
water and waste services to these industries. A community’s ability to attract and keep these businesses and
the jobs they provide are linked directly to these services. Ensuring that rural America can participate fully in
economic recovery requires safe, reliable and affordable infrastructure.

Key Outcome:             Improve Rural Quality of Life through Homeownership Opportunities Provided
There continues to be an unmet need for decent and affordable housing in rural America. USDA implements a
wide variety of housing programs. Through its Single Family Housing Direct and Guaranteed Loan Programs,
USDA helps rural families who would not be able to achieve the dream of homeownership without its
assistance. In FY 2005, the Department invested $4.24 billion to assist 43,224 rural families obtain homes,
and an additional $66 million to rehabilitate the homes of more than 11,700 very low-income families. The
average income for families receiving direct loans is approximately $22,200 while the average for guaranteed
loans is approximately $40,627. Families obtaining repair loans had an average income of $11,330, while
elderly households receiving repair grants earned only $10,240.

Other programs focus on assisting dwellers in rental housing, farm-worker housing, home rehabilitation and
self-help, and new-home construction.
Exhibit 24: Improving Rural Quality of Life Through Homeownership Opportunities

                                                                                         Fiscal Year 2005
                    Annual Performance Goals and Indicators                     Target        Actual      Result
 2.2.1      Homeownership Opportunities Provided                                                         Exceeded
             Increase financial assistance to rural households to buy a home   38,300       43,224
             Increase the number of minority homeowners                         7,660        7,605




                                                                                                          USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                67
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Analysis of Results
As housing prices have continued to soar, rising more than 10 percent nationwide, demand for affordable
housing has increased. This increase in demand took place at all income levels including low and very low-
income residents. These are typically families who cannot obtain credit from a conventional lender because of
credit issues and lack of a down payment.

USDA’s housing programs are critical for very low- to moderate-income families in attaining affordable
homes and sharing in the Nation’s prosperity. In FY 2005, direct housing programs provided 9,200 low and
very low-income rural Americans with new homes for the first time. A total of 27,600 families who could not
obtain mortgages otherwise bought their first homes through USDA’s loan guarantee programs.

The Department has responded aggressively to the President’s “Ownership Society” initiatives related to
housing. His recent call for 7 million new affordable housing units in the next 10 years has been met with
changes to USDA’s Guaranteed Loan Program to encourage more new construction. A pilot program
providing construction financing in the guarantee program is to be expanded nationwide. Changes to simplify
regulations will lead to a higher portion of new home loans in the direct loan program through the self-help
and construction contract methods.

While the nationwide homeownership rate is at a record level near 70 percent, the rate among minority
households is less. In October 2002, the President set a goal of increasing minority homeownership by 5.5
million families by the end of the decade. USDA responded by committing to increase minority
homeownership, which includes:
            Doubling the number of self-help participants by 2010;
            Increasing participation by minority lenders through outreach;
            Promoting credit counseling and homeownership education; and
            Monitoring lending activities to ensure a 10 percent increase in minority homeownership.

Additionally, each State office was provided benchmarks and goals through 2010. The offices have also
developed their own plans to meet the President’s goal. While minorities make up 13 percent of rural
America, they obtained more than 17.1 percent of USDA loans in FY 2005. USDA helped more than 7,600
minority households achieve their dreams of homeownership in 2005.

One of the major contributors to this success is USDA’s Mutual Self-Help Housing Program. Through this
program, groups of 6 to 12 families mutually build each other’s homes. This program has reduced
significantly the barriers experienced by many minorities in achieving homeownership. It allows customers to
use “sweat equity,” or their own labor, to reduce the overall cost of building the home. Minority families
made up more than 50 percent of all program participants. The default rate on loans made through this
program is 4 percent lower than other loans in the single-family housing portfolio.

While the economy is stable and housing is booming in many parts of the country, these programs exist to
ensure that the essentials—clean water, decent and affordable housing, and utilities—are available to those
who have not experienced this upswing.




 USDA
    68              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 25: Trends in Rural Homeownership

                                                                            Fiscal Year Actual
                       Trends                            2001       2002         2003             2004     2005
 Increase financial assistance to rural households to   44,701     43,036       44,130           48,894   44,224
 buy a home (Baseline: 1999 = 55,941)
                                                         8,402     8,231         8,539           8,500    7,605
 Increase the number of minority homeowners
                                                        Baseline



Key Outcome:            Improve Rural Quality of Life through New or Improved Telecommunications
                        Facilities
USDA finances the deployment of a nationwide, rural broadband network. Since private capital for the
deployment of broadband services in rural areas is insufficient, USDA incentives are that much more
important. Providing rural residents and businesses with barrier-free access to today’s technological benefits
will bolster the economy and improve the quality of life for rural residents.

Building and delivering an advanced telecommunications network is affecting the Nation's economy, strength
and growth significantly. Broadband networks in small, rural towns facilitate economic growth and support
the delivery of increased educational opportunities through state-of-the-art telecommunications networks.
While rural America can be defined by various statistics, the most important one is that 60 million people call
it home. Just as the citizens in U.S. cities and suburbs benefit from access to broadband services, so should
rural residents. In rural America, access to broadband plays a vital role in solving the problems created by
time, distance, location and lack of resources. The promise of broadband is not just "faster access." It means:

            New educational opportunities through distance learning, enabling rural students to take virtual field
            trips around the world;
            Lifesaving medical treatment via telemedicine networks, allowing specialists to guide surgeries
            hundreds of miles away; and
            Economic growth and new markets, where businesses prosper and grow locally, while competing
            nationally and globally via high-speed networks.

The Farm Security and Rural Investment Act of 2002 (FSRIA) established the new loan and loan guarantee
program “Access to Broadband Telecommunications Services in Rural Areas.” This program is designed to
fund the cost of constructing, improving and acquiring facilities and equipment for broadband service in rural
communities of 20,000 people or less. Direct loans are made for the life of the facilities financed. Loans may
be made at 4 percent to rural communities, where broadband service currently does not exist. Loan guarantees
bear an interest rate set by the private lender consistent with the current applicable market rate for a loan of
comparable maturity. The guarantees are made for no more than 80 percent of the principal amount. The
number of counties receiving new service will measure the extent to which the deployment of broadband
service is achieved.




                                                                                                           USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  69
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 26: Support High-Speed Telecommunications Service

                                                                                       Fiscal Year 2005
                    Annual Performance Goals and Indicators                   Target        Actual        Result
 2.2.2      Customers served by new or improved telecommunications             .325          .232         Unmet
            facilities (Mil)



Analysis of Results
The performance goal was not met primarily because the entire lending authority was not utilized. Fewer than
expected eligible and complete applications were received in the Broadband Loan Program. Program staff has
revised procedures and worked with applicants to improve the efficiency of application review and loan
processing, and facilitate participation by borrowers.

The President has announced the goal for all Americans to have access to broadband service by 2007. As
such, during the year, USDA has continued to market the broadband program aggressively by reaching out to
the telecommunications industry and broadband providers. This move is designed to achieve the Department’s
part of the goal of funding facilities that deliver broadband service to rural America.

The broadband loan program is distinctively different from the traditional telecommunications program
portfolio. First, even in today’s technology-driven marketplace, broadband service, while critically important,
still is not deemed a “necessity-of-life” in the same manner as electricity, telephone service and water and
waste disposal. It is a commodity that must be marketed properly so that potential customers are informed of
the many benefits of broadband service. Only then are they likely to spend their hard-earned discretionary
dollars on broadband access. Second, a majority of the applicants are “start-up” companies with little, if any,
history of doing business in this industry. Third, today’s marketplace is a highly competitive one as opposed
to the traditional monopolistic environment. Finally, many applications cover multi-State service territories,
rather than a single cooperative serving a single rural community. Many are applications requesting to serve
50, 75 or in excess of 100 rural communities in multiple States.

These differences, while opening the door to a greater number of potential applicants, pose new challenges for
a lending program. While financial feasibility remains as the key to making good loans, USDA looks to
continue aggressively marketing and facilitating the deployment of broadband in rural America and supports
the goal announced by the President.

Increasing the number of counties with broadband service benefits rural communities. Broadband service
allows for businesses to relocate, raises educational standards through distance learning projects and improves
health care through the use of telemedicine.
Exhibit 27: Trends in the Number of Subscribers Served by High-Speed Telecommunications Service

                                                                            Fiscal Year Actual
                      Trends                             2001        2002        2003            2004      2005
 Customers served by new or improved                      N/A         N/A         .382           .374      .232
 telecommunications facilities (Mil)                                            Baseline




 USDA
    70              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Description of Actions and Schedules
USDA will monitor the telecommunications industry to detect any trends that indicate the need to re-evaluate
how many loan dollars are needed per subscriber receiving new or improved service. The Department will
review borrowers' performance reports which include subscriber growth compared to projections. The review
will determine if the forecasted subscriber performance was achieved with the forecasted budget. USDA also
will track trends in the cost and revenue data in loan applications compared to previous applications. This
evaluation will determine any changes in performance assumptions required are required. Additionally, the
Department will monitor industry events to analyze technology trends and other impacts on borrower
performance. At least twice per year, USDA will review assumptions about the loan value/subscriber
relationship to determine if modifications in assumptions are required.

Potential challenges to this approach include obtaining accurate information from borrowers on a timely basis,
and developing and maintaining staff knowledge of industry trends.

Key Outcome:              Improve Rural Quality of Life through New or Improved Water and Waste
                          Disposal Facilities
Water and waste disposal loans and grants are provided to rural communities for the development,
replacement or upgrading of such facilities. This effort includes poverty stricken rural communities and those
facing distress because of outward migration, natural disasters or economic distress due to Federal actions.
Direct loans are repayable over a maximum term of 40 years. Since the program’s inception in 1937, water
and waste disposal borrowers have received $29 billion in direct loans, loan guarantees and grants.

Failing water and waste disposal infrastructure is a common problem in cities and rural areas. Investments in
repairs and replacements usually do not generate more revenue. Smaller systems with a smaller user base
cannot absorb these added expenses without significant rate increases.

Some of these issues can be mitigated through better asset management, full-cost pricing and technology
advances. Proper care of assets can extend their useful life and improve their productivity. Keeping the public
aware of the benefits of safe drinking water can improve its willingness to pay the cost of unsubsidized
service. Additionally, technology advances can provide lower cost solutions.
Exhibit 28: Improving Water and Waste Disposal

                                                                                     Fiscal Year 2005
                    Annual Performance Goals and Indicators                 Target        Actual       Result
 2.2.3      Customers served by new or improved water and waste disposal    0.650           1.3       Exceeded
            facilities (Mil)



Analysis of Results
The performance goal was exceeded. Results from the FY 2003 Office of Management and Budget (OMB)
Program Assessment Rating Tool (PART) assessment showed the program to be well-designed and managed.
Additionally, it found:
            The program successfully targeted assistance for water and wastewater infrastructure to poor rural
            areas; and




                                                                                                         USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               71
                                   ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            USDA effectively collects program data and uses that information to manage effectively. Over the
            life of the program, fewer people in rural areas are experiencing access problems relating to safe,
            affordable drinking water and wastewater disposal.

In response to recommendations made in the 2003 PART, the program has been proactive in creating better
output and outcome measurements. These changes are designed to quantify program success and identify
solutions to serve rural residents better. In May 2005, the program revised its long-term measures to focus
strategically on reducing rural peoples' exposure to water-related health and safety hazards by FY 2010.
Another long-term goal will focus on maintaining sustainable water systems in rural communities. Annual
analyses will track program data to improve funds leveraged for project development. The analyses will also
improve the loan-to-grant mix so that more loan dollars are used by systems that can afford maximum debt
capacity, and will limit grant funds to the neediest systems.
Exhibit 29: Trends in Water and Waste Disposal Service

                                                                                        Fiscal Year Actual
                         Trends                                 2001             2002          2003          2004    2005
 Customers served by new or improved water and                   1.01            0.79          0.59          0.97*    1.3
 waste disposal facilities (Mil)                               Baseline
 * Previously reported as 0.69 in the FY 2004 Performance and Accountability Report.


Key Outcome:              Improve Rural Quality of Life through New and/or Improved Electric Facilities
In 1936, electricity was being taken for granted in American cities. Despite its availability, if one lived in a
rural area at that time, chances are that person went without electricity or other necessities of modern life, and
the high standard of living they make possible. With more than 70 years of experience, the electric programs
have found that electric utility construction, operation and maintenance are best when high-quality, long-
lasting materials are used.

Electricity came to rural America through some of the most successful Government initiatives in American
history. This happened through USDA working with rural cooperatives, not-for-profit associations, public
bodies and for-profit utilities. Today, the electric programs continue this tradition by helping rural utilities
expand and keep their technology current. This program also helps USDA establish new and vital electrical
services.

The public-private partnership forged between USDA and the electric industry results in billions of dollars in
rural infrastructure development. It also creates thousands of jobs for the American economy. Providing
reliable, affordable electricity is essential to the economic well-being and quality of life for all of the Nation’s
rural residents. The electric programs provide leadership and capital to upgrade, expand, maintain and replace
America’s vast rural electric infrastructure. Under the authority of the Rural Electrification Act of 1936,
USDA makes direct loans and loan guarantees to electric utilities to serve rural customers. This makes the
Federal Government the majority note holder for more than 700 electric systems.




 USDA
    72              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 30: Connecting and Improving Electric Service

                                                                                              Fiscal Year 2005
                    Annual Performance Goals and Indicators                          Target        Actual       Result
 2.2.4      Customers served by new or improved electric facilities (Mil)            1.775         2.360       Exceeded



Analysis of Results
The performance goal exceeded its target by 585,000 subscribers. In FY 2005, USDA’s electric programs
approved 111 loans to rural distribution, generation and transmission providers, worth more than $3.3 billion.
These loans connected 194,181 new consumers and improved electric service to more than 2.36 million
consumers.

For every dollar that USDA invests, $2.70 is leveraged with private investment. This creates local jobs and
higher local tax bases. It also develops a much stronger economy in rural communities.
Exhibit 31: Trends in Connecting and Improving Electric Service

                                                                                Fiscal Year Actual
                   Trends                               2001            2002        2003             2004       2005
 Customers served by new or improved electric           6.948          11.525       3.746            4.195      2.360
 facilities (Mil)                                      Baseline


In addition to loan funds providing safe, reliable and affordable electric service, they also provide additional
jobs in rural areas. While the cooperatives and corporations that obtain financing from the electric programs,
like all businesses, impact the local economy through their employment and payroll, the total economic
activity of these rural businesses stretches beyond these direct effects. Linkages exist between one firm or
industry and the rest of the economy. An industry may buy a portion of its material inputs and business
services from other loan businesses. Likewise, employees spend a portion of their earnings on goods and
services within the local economy. These additional activities, or linkages, generate additional economic
activity in the local area.

Rural America is diverse and the challenges facing such communities are wide-ranging and varied. This
diversity presents opportunities for the creative application of programs and policies, and calls for unique
partnerships. The electric programs are focused on strengthening the partnership between USDA’s borrowers
and grantees, and all rural America participating in and benefiting from Department programs. The electric
programs continuously study the needs of rural communities, assess their lending practices and identify
opportunities to better serve rural America.

The electric programs are committed to improving efficiency and effectiveness by promoting progressive,
entrepreneurial and innovative thinking. Electric programs employees are encouraged to develop and share
new ideas to accomplish their mission in a customer-oriented manner. The programs work with local
communities and borrowers to ensure that loan funds are spent for the purposes intended and in rural areas.
These loan funds enable rural Americans to enjoy the same opportunities as their urban counterparts.




                                                                                                                 USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                     73
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Rural communities still in need of electric programs tend to be those with unique conditions not addressed
easily or cheaply. Distance between customers, aging, substandard existing systems or unique environmental
conditions make those Americans most in need of USDA’s services increasingly expensive to support. At a
minimum, these customers require more technical assistance provided through agency salaries and expenses.
Likewise, reduction in the funding for salaries and expenses will limit the ability of the electric programs to
provide the staff and other resources needed to deliver them and achieve the estimated level of performance.

Key Outcome:              Improve Rural Quality of Life through New or Improved Community Facilities
USDA provides a series of grants and loans to finance the development of facilities essential to a modern
standard of living in rural communities. A wide range of public facilities and equipment can be financed by
these programs, including hospitals, fire trucks, police cars, child-care centers, food banks, schools, medical
clinics, nursing homes, community centers, town halls, jails and street improvements. Financing these
essential community facilities touched 12.9 million rural residents in 2005. Taken together, these investments
benefit a large number of rural communities and citizens. They increase the availability of essential services
and raise the quality of life in rural America. Moreover, USDA’s programs leverage Federal funds with
private capital to invest in rural infrastructure, technology and human-resource development. A good example
is the opening of a new child care/learning center in Ellsworth, Maine. “Let’s put the children first” was the
mantra used during the design phase. This 12,000-square-foot facility boasts 6 classrooms, a meeting room,
parent space, a commercial kitchen, offices, a library, a secure computer area, a parking area and an outdoor
playground. Specific attention was taken to create rooms filled with natural light and promote a safe and
creative environment for 60 preschoolers and 24 infants and toddlers. A $605,000 USDA Community
Facilities Direct Loan, a $380,000 Department Community Facilities Guaranteed Loan with Union Trust
Company, a Head Start grant and community-wide fundraising financed the project.

USDA also began examining the capital-funding needs of critical access hospitals located in rural
communities. A total of 28 hospitals and 13 outpatient facilities have been funded in the current fiscal year for
a total investment of $135 million. Increased numbers of requests for financing of critical access hospitals are
expected in the coming years.

USDA provided funds to construct, renovate or improve 812 essential community facilities in FY 2005. Rural
Americans will have improved services available from 112 health-care facilities, 312 public-safety facilities,
92 educational facilities, 15 energy-related facilities, 157 public buildings and improvements, 7 recreation
facilities and a number of other essential community facilities.
Exhibit 32: Number of New and Improved Community Facilities

                                                                                      Fiscal Year 2005
                    Annual Performance Goals and Indicators                  Target        Actual        Result
 2.2.5      Customers served by new or improved community facilities (Mil)     12           12.9          Met



Analysis of Results
The performance goal was met. Despite favorable interest rates, many rural communities are facing increased
financial stress due to agricultural conditions (including drought, flooding and forest fires), natural disasters,
the slowed economy and other factors. Additionally, many sectors, such as health care, are experiencing



 USDA
    74              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



increased financial pressures. Working with its partners, USDA has been able to help meet many of these vital
needs.
Exhibit 33: Trends in New and Improved Essential Community Facilities

                                                                              Fiscal Year Actual
                       Trends                          2001            2002         2003           2004   2005
 Provide access for residents to new improved           6.8             7.2          7.2            12    12.9
 community facilities (Mil)                           Baseline



STRATEGIC GOAL 3: ENHANCE PROTECTION AND SAFETY OF THE
NATION’S AGRICULTURE AND FOOD SUPPLY
USDA provides a secure agricultural production system and healthy food supply to consumers by protecting it
against pests and diseases, minimizing production losses, maintaining market viability, and containing
environmental damage. USDA also ensures that the commercial supply of meat, poultry and egg products
moving in interstate commerce or exported to other countries is safe, wholesome, labeled and packaged
correctly. Additionally, the Department ensures that products imported from other countries are produced by a
system equivalent to USDA’s.

A key to enhancing public health is ensuring that employees executing USDA’s food safety responsibilities
are scientifically and technically skilled. The Department is addressing the training and education of its
workforce aggressively. To ensure consistent and accurate inspection, USDA has made a strong commitment
to recruiting scientists and retooling its entire training and education program for all employees. These
employees will be able to identify and focus on activities that enhance public health. USDA continues to
implement five core initiatives to improve food safety for American families. The initiatives, established in
2002, include:
            Improving the management and effectiveness of the Department’s regulatory programs;
            Ensuring that policy decisions are scientifically based;
            Improving the coordination of food safety activities with other public health agencies;
            Enhancing public education; and
            Protecting USDA-regulated products from intentional contamination.

To reduce incidences of foodborne illness, USDA works to educate consumers on the importance of following
food-safety guidelines.

For the Nation to have affordable and safe food, the food system must be protected at each step from
production to consumption. The production and distribution system for food in the U.S. is diverse, extensive
and easily accessible. This open system is vulnerable to introduction of pathogens and toxins through natural
processes, global commerce and by intentional means. Crop and livestock production systems must be
protected from the ravages of diseases whether domestic or foreign. The food supply must be protected during
production, processing and preparation from contamination by pathogens and toxins that cause disease in
humans.




                                                                                                          USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                75
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




OBJECTIVE 3.1: REDUCE THE INCIDENCE OF FOODBORNE ILLNESSES RELATED TO MEAT,
POULTRY AND EGG PRODUCTS


Exhibit 34: Resources Dedicated to Enhance Protection of Meat, Poultry, and Egg Products Inspection

                                                                           FY 2005
                     USDA Resources Dedicated to Objective 3.1   Actual        Percent of Goal 3
                    Program Obligations ($ Mil)                   377.7            14.87%
                    Staff Years                                  11,406            56.89%


Introduction
Protecting the Nation’s food supply from potential hazards, whether chemical, microbial, or physical, is a
formidable task. Accomplishing it will require sound science to make the appropriate decisions and policy
development. In light of the public’s heightened apprehension that terrorists could target the Nation’s food
supply and with the potential for new and emerging microbial hazards, USDA’s food-safety systems must be
assessed and updated continually. These regular inspections are especially true for meat, poultry and egg
products. They will help maintain consumer confidence and protect the food supply from exposure to
foodborne diseases. These systems include activities to track the incidence of pathogens in these products.
They are also designed to raise public awareness about food safety and defense, and safe food handling.

Overview
Significant food safety advances have been made in the past year. How USDA is serving the public in this
area can be seen in the selected results in research, extension services, and statistics.
Selected Results in Research, Extension and Statistics
Preventing Contamination by E. coli O157 and Salmonella—Preventing contamination of ground
beef with E. coli depends partly on the ability to detect it on the farm. USDA funding support has enabled
researchers at the University of Nebraska to develop a method of detecting E. coli and Salmonella in feedlot
cattle with minimal handling of animals. The device, which is being patented, has revolutionized disease-
control research at the feedlot level.

Societal Costs of Foodborne Illness—USDA has become well known for pioneering estimates of the
social costs associated with foodborne illnesses caused by pathogens. In 2005, Department researchers
updated the cost of foodborne illness E coli by using the U.S. Centers for Disease Control’s estimate of annual
cases and newly available data. USDA estimated the annual cost of illness due to E. coli to be $406 million in
2003, including $370 million for premature deaths, $31 million for medical care and $5 million in lost
productivity.

New Method to Detect Toxins in Food—A new technique to detect heat-resistant toxins in a single food
sample should help researchers and inspectors detect those that cause gastroenteritis, an inflammation of the
stomach and intestines. Generally, while conventional heating and processing kill foodborne bacteria, it does
not destroy their toxins. USDA researchers developed a new biosensor test that uses surface plasmon
resonance (SPR) to detect toxins. SPR is an optical method for measuring very thin layers of material
adsorbed on a metal.



 USDA
    76              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Online Database of Predictive Microbiology Information—USDA scientists in Pennsylvania have
teamed up with the United Kingdom's Institute of Food Research to form the world's largest online database
of predictive microbiology information. Predictive microbiology estimates the behavior of microorganisms in
response to environmental conditions, including food production and processing operations from the farm to
the table. The database, called ComBase, is designed to help make risk assessments and model development
easier. The database can be found at wyndmoor.arserrc.gov/combase. The new database will allow producers
to respond more quickly to potential food contamination problems caused by bacterial pathogens.

New Technology to Ensure Safer Shellfish—USDA scientists in Delaware are working with university
scientists to provide consumers with safer shellfish. Oysters, clams and mussels are considered aquaculture
species because of the amount of management that goes into maintaining productive molluscan shellfish beds.
These shellfish are a concern because bacterial and viral pathogens can become concentrated within edible
shellfish tissues. Some shellfish consumers prefer to eat shellfish raw or only lightly cooked. Thus, the
shellfish industry is interested in methods that can inactivate pathogens in their products without cooking.
USDA scientists are studying a technique to sanitize raw shellfish and other virus-contaminated foods by
using high-pressure processing (HPP). HPP subjects foods to extremely high pressure. The advantage of this
technology is that neither heat nor chemicals are involved. Thus, shellfish and other foods can retain their raw,
uncooked flavor and character. HPP is already being used commercially to pasteurize fruit juices in Japan and
treat sliced deli meats in Spain.

Key Outcome:          Basing Policies on Science
USDA’s accomplishments concerning food-safety initiatives, including basing policies on science, can be
found in the U.S. Centers for Disease Control and Prevention’s (CDC) 2005 report on the incidence of
infections from foodborne illness. The report noted significant declines from the 1996-1998 baseline in
illnesses caused by the pathogens E. coli O157:H7 (42 percent), Listeria monocytogenes (40 percent),
Campylobacter (31 percent) Yersinia (45 percent), and Salmonella (8 percent). These declines help bring the
U.S. closer to achieving “Healthy People 2010” goals. “Healthy People 2010” is a long-range plan from the
U.S. Department of Health and Human Services. It illustrates a wide range of public health opportunities that
exist in the first decade of the 21st century. A broad coalition of experts from many sectors created the plan.
The plan introduces a series of objectives designed to bring better health to all people in the U.S. “Healthy
People 2010” features 467 objectives in 28 focus areas. It is designed to guide health planners, medical
practitioners, educators, elected officials and all who work to improve health. Additionally, CDC attributes the
decreases to control measures implemented by Government agencies and the food industry, and enhanced
food safety education efforts. Specifically, CDC attributes the reduction in E. coli O157:H7-related illnesses
to USDA policies implemented in 2002 and 2003.

Listeria monocytogenes
Data gathered during an outbreak of Listeria-related illnesses during the summer/fall of 2002, other food
safety investigations and in-depth verification reviews led USDA to conclude that some establishments were
not addressing the potential for bacterial contamination adequately in their HACCP plans, Sanitation Standard
Operating Procedures (SSOP) or other control measures. SSOPs call for all Federally inspected meat and
poultry plants to have written practices to demonstrate that they are meeting all basic sanitation requirements.
In response, USDA implemented a directive that outlined steps Department inspectors must follow to ensure



                                                                                                         USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   77
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



that establishments producing ready-to-eat (RTE) meat and poultry products were preventing the Listeria
contamination. The directive was designed to reduce the risk of listeriosis from consumption in high- and
medium-risk RTE products. It provided for a new form of intensified verification testing. In this testing,
inspection program personnel would swab environmental and product contact surfaces within inspected
establishments. This new type of testing was used extensively to verify the effectiveness of preventive and
corrective actions taken by establishments after Listeria contamination had been found.

USDA also released a draft scientific risk assessment on Listeria in RTE meat and poultry products. A public
meeting was held to discuss the risk assessment. The risk assessment was developed in conjunction with a
previously released U.S. Food and Drug Administration/USDA risk ranking. The risk assessment incorporated
both public comments and input from a peer review. It provided important data enabling USDA to design a
final Listeria rule.

Later, the Department issued an interim final rule requiring Federal establishments producing certain RTE
meat and poultry products to take steps to reduce the incidence of Listeria monocytogenes. The rule required
establishments to choose one of three approaches based on the stringency of the control program for Listeria
that they implement. The approach taken is one factor in determining the frequency of USDA-conducted
verification activities in each establishment. The highest frequency was concentrated in establishments that
rely solely on sanitation practices compared with those that implement more aggressive and effective
strategies. These include incorporating an inhibiting agent in product formulation or inserting an additional
processing step to kill pathogens that may contaminate the product after cooling.

After the rule took effect, the Listeria directive was updated to reflect its policies. USDA accepted comments
about the rule for 18 months after publication. This time period allowed the Department to review and
evaluate the effectiveness of these approaches.

The Listeria rule was built on the results of the scientific risk assessment. The assessment provided guidance
about the practices the industry should follow to protect RTE meat and poultry products from this pathogen
most effectively. It showed that testing the processing environment was important in helping find the
organism in the niches where it may reside. This testing allows processors to target and eliminate it from the
plant environment before it could contaminate product. Most importantly, the risk assessment showed that an
establishment could choose the most effective strategy to control Listeria depending on its product(s) and the
environment in which it operates.

The Listeria rule’s impact has already been significant. Establishments have made changes to prevent
products from harboring this organism. USDA surveyed its inspection personnel in 1,400 establishments
producing RTE meat and poultry products. It found that more than 87 percent had changed their operations in
one way or another to control Listeria more effectively. More than 57 percent started testing for Listeria in the
plant environment, more than 27 percent had begun using an antimicrobial agent to inhibit the growth of this
organism and 17 percent are using post-lethality treatments. This rule challenged industry to do more to
prevent contamination.

Escherichia coli O157:H7
USDA measures to prevent ground beef contaminated with E. coli O157:H7 from entering commerce have
also yielded significant decreases in this pathogen. In 1994, USDA declared E. coli O157:H7 an adulterant in


 USDA
    78              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



raw ground beef. During the last decade, the Department has undertaken a number of initiatives to reduce the
pathogen’s prevalence in raw ground beef. Beginning in October 2002, USDA required that each plant
producing raw beef products reassess its HACCP plan to prevent adulterated products from entering
commerce. Scientifically trained USDA personnel then audited beef establishments’ HACCP plans for the
first time.

Additionally, USDA has taken steps to begin a science-based baseline study for trimmings used to make raw
ground beef. The study was reviewed by scientists serving on the National Advisory Committee on
Microbiological Criteria for Foods (NACMCF). NACMCF provides impartial, scientific advice to Federal
food-safety agencies in developing national food-safety systems, following products from the farm to final
consumption. The committee issued its recommendations in a report titled “NACMCF Response to
USDA/FSIS Request for Guidance on Baseline Study Design and Evaluations for Raw Ground Beef
Components.” The initial phase of the beef trimming baseline study began August 2005.

USDA issued a directive to provide new instructions to inspection-program personnel for collecting samples
for E. coli O157:H7 testing. The directive describes follow-up actions USDA inspection program personnel
will take after an initial Department sample of raw ground beef product or components, or raw beef patty
components tests positive for E. coli O157:H7. It also provides new instructions for verifying the control of E.
coli O157:H7 “positive” and “presumed positive” raw beef products, and moved to another official
establishment, landfill operation or renderer for proper disposal. A renderer is an operator who may subject
edible or inedible tissue to a process in which the resulting products are distinguished as edible-rendered (e.g.,
beef stock or flavoring) or inedible material. The resulting inedible products are used as protein sources for
animal feed or other industrial purposes.

Salmonella
USDA issued new procedures for utilizing Salmonella performance standards as a verification tool for food
safety. Now, instead of waiting for two consecutive failures of tests to trigger an in-depth review of plant
SSOP and HACCP plans, reviews are initiated after any series is declared substandard. Improvements to the
in-depth review process have also been implemented. These improvements include the addition of
enforcement, investigations and analysis officers, and other HACCP-trained inspection program personnel.
This process and other science-based initiatives have been vital in reducing Salmonella’s presence in raw
meat and poultry regulatory samples since the 1996 – 1998 baseline. Out of the number of regulatory samples
collected and analyzed by USDA in 2003, 3.78 percent of all products tested positive for Salmonella. That
compares to 4.29 percent in 2002 and 10.65 percent in 1998. For more information, visit
www.fsis.usda.gov/PDF/Salmonella_Progress_Report_1998-2003.pdf.

Although USDA’s rate of positive regulatory samples of all three pathogens discussed above may not
represent the prevalence of these pathogens nationwide, it does show a statistically significant downward
trend for all foods.
Exhibit 35: Pathogen Reduction (Food Inspection)

                                                                                     Fiscal Year 2005
                    Annual Performance Goals and Indicators                 Target        Actual        Result
 3.1.1      Prevalence of Salmonella on broiler chickens                    11.7%         17.0%         Unmet




                                                                                                          USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               79
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                                            Fiscal Year 2005
                    Annual Performance Goals and Indicators                       Target         Actual        Result
 3.1.2      Prevalence of Listeria monocytogenes on ready-to-eat meat and         0.80%         0.690%          Met
            poultry products
 3.1.3      Prevalence of E. coli O157:H7 on ground beef                           0.37%            0.17%       Met



Analysis of Results
With respect to the prevalence of Salmonella on broiler chickens, the percentage of positive samples increased
for FY 2005. At the same time, most establishments continue to pass the performance standard established in
1996. This standard provides for a maximum of 12 positives in a compliance set of 51 samples. The data,
which can be found at http://www.fsis.usda.gov/Frame/FrameRedirect.asp?main=/OPHS/haccp/
salm6year.htm, show that 87 percent of 127 sets completed during 2005 passed the standard. This compliance
rate is only slightly lower than the rates in the five previous years. The Department expressed its concern that
the percentage of positive Salmonella tests (all sizes of establishments combined) increased slightly in all
three poultry categories for 2005. USDA is examining Salmonella data from 1998 to the present to clearly
identify those plants displaying negative performance trends. USDA is now conducting food-safety
assessments in establishments having the most difficulty controlling Salmonella.

With regard to Listeria, the Department had three different RTE sampling projects during FY 2005. Two of
the projects targeted establishments or products where the risk of Listeria contamination is considered to be
higher. The results here are from a project where samples are to be collected randomly from all RTE products.

Results from 2004 and 2005 have shown substantial declines in the percentage of E. coli O157:H7-positive
raw ground beef samples. In 2002, 0.77 percent of verification samples were positive. In 2003, the percentage
dropped to 0.37 percent. For 2005, the level was 0.17 percent. A more detailed year-to-year comparison
identified a 50 percent reduction in the rate of positive ground beef samples from FY 2002 to FY 2003 when
controlling for seasonality. A detailed analysis showed that this decrease was statistically significant, that is, it
is unlikely to have occurred by chance. That analysis was published in a peer reviewed scientific journal. [See
Journal of Food Protection. Naugle, A.L., Holt, K.G., Levine, P., and Eckel, R. 2005. Food Safety and
Inspection Service Regulatory Testing Program for Escherichia coli O157:H7 in Raw Ground Beef. JFP 68(3)
2005: 462-268]. USDA has significantly increased its testing for 2005.
Exhibit 36: Trends in Pathogen Reduction (Food Inspection)

                                                                               Fiscal Year Actual
                    Trends                                  2001      2002           2003            2004       2005
 Prevalence of Salmonella on broiler chickens              11.9%     11.5%          11.7%           13.6%      17.0%
                                                                    Baseline
 Prevalence of Listeria monocytogenes in ready-            1.26%     1.03%           0.9%           0.89%      0.690%
 to-eat meat and poultry products                                   Baseline
 Prevalence of E. coli O157:H7 on ground beef              0.59%     0.77%          0.37%           0.19%      0.17%
                                                                    Baseline


To illustrate the significance of these trends, the accomplishments of USDA’s food safety initiatives are
presented in CDC’s annual 2005 report on the incidence of infections from foodborne illness. The report
noted significant declines from a 1996-1998 baseline in E. coli O157:H7-related illnesses (42 percent). CDC



 USDA
    80              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



attributes the decline to policies USDA implemented in 2002 and 2003. In late 2003, the Department released
data that showed a 25 percent drop in the percentage of positive Listeria regulatory samples from the previous
year, and a 70 percent decline compared with years prior to the implementation of HACCP. Additionally, for
E. coli O157:H7, USDA has published a peer-reviewed analysis showing that the decrease in the percentage
of positive regulatory samples from 2002 to 2003 was statistically significant. This finding is consistent with
CDC reports of decreasing illness from E. coli O157:H7.

USDA now collects industry data on RTE products as part of the October 2003 Listeria rulemaking. The
Department used these data to revise its testing program for Listeria in RTE products. In January 2005, USDA
implemented a new risk-based sampling program to verify control of Listeria in higher-risk establishments.
This risk-based program uses production volume, control alternatives and previous testing results to generate
schedules for verification testing.

Description of Actions and Schedules
While the percentage of establishments passing the performance standard has remained very high, USDA
recognizes that the percentage of Salmonella-positive broiler samples has been increasing since 2000.

A major challenge concerns how to reduce Salmonella in young chickens, given that most establishments are
meeting the existing performance standard.

The 2003 data posted on USDA’s web site shows that the percentage of positive Salmonella tests (all sizes of
establishments combined) increased slightly in all three poultry categories.

The Department continues to analyze Salmonella data from 1998 to the present to identify establishments
displaying negative performance trends. In August 2005, the Department held a scientific meeting to address
issues related to controlling the pathogen in the pre-harvest environment. A follow-up scientific meeting will
address control measures for poultry processing establishments.

USDA plans to adjust its Salmonella-testing program so that additional compliance sets are scheduled for
establishments demonstrating the most control problems. This directive, which took effect May 21, 2003,
grants inspection-program personnel access to a wide range of records concerning HAACP regulations. It also
gives personnel the authority to review certain types of records regularly. Whenever an establishment fails an
initial compliance set, Directive 5000 calls for the front-line supervisor and Senior Veterinary Medical
Officer/Inspector-in-Charge (PHV/IIC) to conduct and assess the establishment’s HACCP and SSOP
procedures and, where applicable, analyze data from the establishment’s generic E. coli testing. That testing
will focus on the establishment’s corrective and further-planned actions.

The front-line supervisor and PHV/IIC will also develop, document and implement a comprehensive plan to
verify any corrective actions the establishment performs.

Key Outcome:            Raising Public Health Awareness
USDA consumer education programs are based on “integrated marketing.” This concept has three
components:
            Mass media, or reaching out to the broad public;




                                                                                                       USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              81
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            Cluster targeting, which uses demographic, geographic and socio-demographic information to tailor
            communications to segmented audiences; and
            One-on-one interactions, through the USDA’s Food Safety Mobile, the USDA Meat and Poultry
            Hotline and the Department’s virtual representative, "Ask Karen," a web-based automated-response
            system that answers food-safety questions 24 hours a day, 7 days a week. It complements the hotline
            and is another effective communication tool that allows USDA to expand its outreach programs,
            promote food safety and defense, and protect the public health. The Food Safety Mobile is a 35-foot,
            recreational-style vehicle covered with a bold, eye-catching design and prominent food-safety
            messages. It travels throughout the continental U.S., educating consumers about the risks associated
            with mishandling food and the steps they can take to reduce their risk of foodborne illness.

Each component of the integrated marketing program is developed based on risk research. It is delivered using
social-marketing concepts and is assessed through evaluative research. Ongoing nationwide surveys and
consumer focus-group studies are used to evaluate and ensure the initiative’s continuing effectiveness.
Integrated marketing also tracks changes in consumer behavior.

A 2004 pilot study of the thermometer-education campaign “Is It Done Yet?” demonstrated success in getting
more consumers to use food thermometers. Based on feedback from focus groups and surveys, USDA revised
the educational materials and launched “Is It Done Yet?” nationwide in July 2005.

USDA remains committed to communicating with all food handlers —consumers in the home, foodservice
employees, the retail industry and those who work in processing plants. Food-safety publications for both
industry and consumers have been translated into several languages including Spanish, Korean, Vietnamese,
and Mandarin Chinese. USDA also uses national television, cable networks, educational television, radio,
magazines, newspapers and web sites to enhance public education efforts. The aforementioned hotline has two
Spanish-speaking food-safety specialists. This feature has enhanced outreach to the Spanish-speaking
community.

The Department continues to provide technical assistance and compliance guidance concerning major rules,
policies and directives to small and very small establishments. It offered outreach and training in FY 2005 via
webcasting to reach those unable to travel to one of the workshop locations. USDA held four workshops and
four webcasts on food defense from May through July for owners and operators of meat, poultry and egg-
processing, import and slaughter establishments. Approximately 650 attendees participated in these
workshops. The workshops provide Federal- and State-inspected plants with guidance and tools to use in
strengthening the security of their operations and developing a food-defense plan.

The Department has also expanded its distribution of materials aimed at assisting small establishments. Its
HACCP documents and other food-safety materials, such as closed-captioned videos and computer disks, are
offered to all at no charge. Most materials are offered in both English and Spanish. The program has filled
approximately 9,500 requests for resource materials. Additionally, USDA has mailed more than 50,000 food-
security guidance documents to meat, poultry and egg establishments, State-inspection programs and HACCP
contacts and coordinators.

Additionally, USDA continues to partner with universities to provide small and very small plants with a more
in-depth understanding of HACCP systems and emerging food-safety concerns. Through the partnership, the



 USDA
    82              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



universities develop new food-safety initiatives. They also offer low-cost training to small and very small
plant owners/operators to help them improve their food-safety systems and produce safer products. In FY
2005, USDA established cooperative agreements with 15 universities that have scheduled approximately 60
classes.
Exhibit 37: Public Health Outreach & Education

                                                                                       Fiscal Year 2005
                    Annual Performance Goals and Indicators                 Target          Actual       Result
 3.1.4      Viewings of food safety messages (Mil)                            94             99.6       Exceeded



Analysis of Results
USDA defines “viewing” as its best estimate of the number of people receiving its food-safety messages.
These messages are delivered via print, radio, television, conventions, presentations, newsletters, the Internet,
USDA Meat and Poultry Hotline calls, Department publications, the USDA Food Safety Mobile, State
partnerships, electronic mailboxes and “Ask Karen.”

USDA reached more than 99.6 million consumers through such food-safety education campaigns as “Is It
Done Yet?”, press releases, videos and newspaper and magazine articles. The Department has also printed
food-safety message cards targeted to various underserved populations, including Native Americans, Asian
and African Americans, and Hispanics.

Additionally, USDA launched a newly designed web site that offers features and tools to help visitors easily
find the food-safety information and services they need. The site, located at www.fsis.usda.gov/Food_Safety_
Education/Ask_Karen/index.asp#Question, is arranged by subject so users can navigate by topic rather than
through USDA's organizational structure.

This citizen-driven design helps all stakeholders quickly find the food safety information most relevant to
them. The site now averages more than 13 million hits, almost 2 million page views and more than 510,000
visitors monthly.

Electronic outreach through “Ask Karen” answers questions about the safe storage, preparation and handling
of meat, poultry and egg products. Though this is not a live chat, the 9,000-question database behind “Ask
Karen” allows visitors to correspond naturally by typing in questions and receiving an immediate answer.
“Ask Karen” can provide visitors with a list of related questions in their area of interest. Nearly 19,000 users
have used “Ask Karen” since its April 2004 launch, receiving timely answers to almost 60,000 food-safety
questions.
Exhibit 38: Number of Viewings for Food Safety Messages

                                                                         Fiscal Year Actual
                         Trends                         2001      2002          2003          2004        2005
 3.1.4      Viewings of food safety messages (Mil)       N/A       90            92            123        99.6
                                                                 Baseline




                                                                                                          USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              83
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




OBJECTIVE 3.2: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL PEST AND DISEASE
OUTBREAKS


Exhibit 39: Resources Dedicated to Reducing Pest and Disease Outbreaks

                                                                               FY 2005
                     USDA Resources Dedicated to Objective 3.2       Actual        Percent of Goal 3
                    Program Obligations ($ Mil)                      2,162.8           85.13%
                    Staff Years                                       8,643            43.11%



Introduction
To provide a secure agricultural production system and healthy food supply to consumers, USDA protects the
country from pests and diseases, minimizes production losses, maintains market viability and contains
environmental damage. This is done by:
            Conducting offshore threat assessment and risk reduction activities to identify and eliminate pests,
            diseases and weeds;
            Regulating and monitoring the importation of animals, plants and commodities to reduce the risk of
            introduction of invasive species. Other regulatory activities ensure safe research, release and
            movement of biotechnology and the development of effective veterinary biologics;
            Managing issues related to the health of U.S. animal and plant resources and conflicts with wildlife.
            It prevents the neglect and inhumane treatment of animals used in commerce, protects their health
            and reduces the chances of their contracting and spreading disease. Additionally, the Department’s
            work helps to control damage done to agricultural and natural resources by wildlife;
            Planning emergency response and conducting surveillance, detection, containment and eradication
            activities. By quick detection, scientists can fight pests and diseases while outbreaks remain localized
            and less costly to control. USDA educates and trains public and private sector organizations to report
            pests and diseases when they are first observed. It coordinates larger, complex eradication and
            control efforts. USDA stops movement of host materials by surveying infestation boundaries and
            establishing quarantines; and
            Developing and applying scientific methods for agricultural producers and consumers. USDA is
            working to increase number of animal diseases for which a pure, safe, potent, and effective
            veterinary biologic is licensed and also to increase the number of states that can provide Federal
            veterinary diagnostic services.

Taken together, these components comprise the Nation’s agricultural “safeguarding system.”

Overview
Because of USDA’s effort, no foreign animal diseases introduced into the U.S. spread beyond their original
area of introduction. This work prevented severe economic and environmental damage, as well as threats to
animal health. This met the target established in the FY 2005 Annual Performance Plan/Performance Budget.




 USDA
    84              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



No new plant pests or diseases spread beyond their original area of colonization to cause severe damage
before they were detected.

Diseases and pests have profound effects on the performance and well-being of plants and animals. They
cause poor growth, decreased yield, higher production costs and unacceptable quality. Billions of dollars are
lost through trade embargoes, quarantines, and the destruction of national livestock herds or vast crops when
emerging or reemerging diseases or pests strike. A sound surveillance system is integral to preventing
outbreaks of foreign animal diseases and controlling and eradicating domestic diseases of concern. Thus,
USDA is continually exploring ways to enhance its comprehensive disease surveillance systems. These
systems detect threats and manage them before they spread. During the past year, the Department has worked
to enhance and strengthen its surveillance systems by, among other things, establishing the foundation of a
national animal tracking system and expanding its low pathogenic avian influenza program.

For emerging diseases to be detected and controlled, the make-up and environment of pathogens must be
understood and their weaknesses exploited. Rapid diagnostic tests, novel genetic vaccines, immune
modulatory strategies, disease resistance genes, and increased biosecurity measures will be needed to prevent
or control outbreaks and the spread of plant and animal diseases in the future.

Increased concern about the intentional introduction of disease agents and pests has resulted in the
development of a network of diagnostic laboratories. These laboratories have enhanced the Nation’s collective
capacity for surveillance and identification of specific pathogens greatly. The network uses standardized
diagnostic tests and common software platforms to process diagnostic requests and share information among
diagnostic laboratories. Through the network, producers gain an understanding of threats from diseases and
pests, and learn effective and efficient ways to control economically significant pests, pathogens and diseases.

Selected Results in Research, Extension and Statistics
New Tests for Devastating Cattle Disease—With partial support from USDA, researchers at the
University of Minnesota are working with Department scientists. The groups are using genetic information to
develop a highly specific, sensitive and rapid test for detecting Johne's disease. This chronic wasting disease is
found in cattle, sheep, goats and deer. These new tests, which enable detection of the bacterium in fecal matter
or milk, can be completed in 72 hours or less. This research, published in the August 30, 2005 issue of the
Proceedings of the National Academy of Sciences, gives scientists a better understanding of the disease,
allowing them to create vaccines to prevent infection. Johne's disease costs the U.S. dairy industry millions of
dollars each year due to reduced milk production.

Bacteria Genome—Researchers at Oregon State University and The Institute for Genomic Research
(TIGR) have determined the genetic make-up of a bacterium known to fight harmful plant pathogens. This
information will help scientists determine how to fight plant diseases caused by other pathogens without using
products that might harm the environment. The project to study Pseudomonas fluorescens Pf-5, a biological
control agent, was supported by competitive funding from USDA’s Microbial Genome Sequencing Program.
This agent protects plants from pathogens and frost. TIGR and a USDA scientist led the team that altered Pf-
5. They found that it contained many genes for chemicals harmful to pathogens. About one-third of these
chemicals were previously unknown.




                                                                                                          USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  85
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Biosecurity—USDA is partnering with State agencies and universities to achieve a high level of agricultural
biosecurity. The groups are focusing on the early detection, response and containment of outbreaks of
invasive pests and pathogens. The establishment of this network of institutions provides the means necessary
for ensuring that all participants are alerted of possible outbreaks and/or introductions, and technologically
equipped to detect and identify pests and pathogens rapidly.

Program of Research on the Economics of Invasive Species Management (PREISM)—
PREISM is designed to inform Federal and State decision makers regarding allocation of scarce resources to
exclusion and control strategies for different types of pests. Recipients of PREISM FY 2003 and FY 2004
funding participated in several workshops to share their research findings with USDA staff and other Federal
agencies that manage invasive species. PREISM research resulted in the critical analysis of the economic and
policy implications of soybean rust. The research also led to the almost immediate release of information
about these matters soon after soybean rust detection in the United States.

New Test to Detect Sudden Oak Death—Sudden oak death, which has caused the death of tens of
thousands of oak trees in this country, also afflicts many other trees, shrubs and plants. The pathogen
Phytophthora ramorum (P. ramorum) causes sudden oak death. The discovery has forced officials to destroy
at least 500,000 ready-to-sell plants in nurseries in 20 states. In response, USDA scientists in California and
Maryland have developed a genetic test that relies on a sophisticated yet increasingly common technology
known as polymerase chain reaction (PCR). PCR determines whether a piece of a leaf, for example, contains
the genetic material from this pathogen. Importantly, many technicians in plant-health labs across the country
already have the skills and equipment to run the test. The scientists have turned their test over to California
agriculture officials and USDA for possible use with other molecular diagnostic methods. This fast, accurate
test makes it possible to distinguish P. ramorum from other suspicious microbes.

Sequencing the Genome of a Key Wheat Pathogen—USDA scientists and a cooperator from The
Netherlands are leading a project to sequence the genome of a key wheat pathogen called Mycosphaerella
graminicol (M. graminicola). The U.S. Department of Energy's Joint Genome Institute chose
M. graminicola—one of the top five wheat disease pathogens—to alter its genetic make-up. M. graminicola
causes major wheat damage worldwide, costing American wheat farmers $275 million annually in yield
losses. It also costs European farmers more than $800 million a year in fungicide sprays. Determining the
pathogen’s genetic make-up can help researchers understand how the fungus infects crops. This information
should help control the fungus and related species.

New Tools Being Developed to Defend Rice Plants against Pathogen—USDA scientists are
providing rice plants with the genetic tools needed to recognize and identify incoming attacks from the
damaging pathogen known as rice blast. The fungus Magnaporthe grisea (M. grisea) causes rice yield losses
of up 30 percent annually worldwide. Two-thirds of the global population relies on rice. While many farmers
around the world are growing record amounts of the staple grain, they cannot compete with the blast fungus'
adaptability to different situations. The blast pathogen is so adaptable that it can defeat a rice cultivar,
specially bred to resist it, after just one growing season. The scientists are developing rice plants with the
resistance gene and researching how to apply the M. grisea gene optimally to already-resistant rice plants to
achieve even greater blast defenses.




 USDA
    86              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



New Live Vaccines Developed for Farm-raised Catfish—USDA scientists in Alabama and Maryland
have developed two new immersion-applied, modified live vaccines for farm-raised catfish and other species.
While fish are susceptible to diseases and need vaccines, it is difficult to inject them. So, scientists try to
develop vaccines that can be immersed in water. The two new vaccines provide protection against
Flavobacterium columnare, the second-leading cause of catfish deaths and a hazard to many other fish
species. While one field-tested vaccine cannot cause disease, it can persist long enough to stimulate immunity
in the fish. The other prevents a pathogen from colonizing while allowing it to persist for immunity to
develop. These vaccines could save producers millions of dollars while lowering the cost of fish to consumers.

Key Outcome:          Provide a Secure Agricultural Production System and Healthy Food Supply
Of the many threats to the security of our agricultural production system and food supply, pests and diseases
are particularly dangerous because they are unexpected and can have quick, disastrous consequences. In the
last few decades, increased travel and trade have contributed toward the spread of invasive species around the
world. At the same time, the U.S. has come to rely heavily on agricultural export dollars, which depend on
having an effective safeguard system. Congress has sought to protect the U.S. agriculture production system
by appropriating funds for more than 30 programs to reduce the number and severity of agricultural pest and
disease outbreaks. Two of the programs funded are Animal Health Monitoring and Surveillance (AHMS) and
Animal Welfare. AHMS is designed to enhance the quality, safety, and competitiveness of U.S. food animal
products. Animal Welfare is designed to ensure the humane care and treatment of all warm-blooded animals
covered by AWA and used for research or exhibition, sold wholesale as pets, or transported for commerce.
These two programs are highlighted in the FY 2005 Performance and Accountability Report. Next year, the
Emerging Plant Pest (EPP) program will replace the Animal Welfare Program in this report. EPP refers to a
pathogens introduced in the U.S. after 1990, but not yet eradicated.
Animal Pests and Diseases
A key benefit of AHMS is rapidly detecting emerging foreign animal diseases. These may be introduced
accidentally or intentionally. Information about the health status, productivity and health-related attributes of
the U.S. animal population, products and biologics is critical to understanding the spread of animal pests and
disease, establishing necessary quarantines, and planning effective eradication and control measures. Public
concerns about diseases that affect both animals and people reinforce the need for accurate, timely and
thorough information.

The Department has enhanced the National Surveillance System that was previously directed at specific
diseases and commodities. Under the new approach, USDA has broadened its network by developing
partnerships with State Governments, Tribes, veterinary colleges, animal and livestock industries, public
health agencies, and other governmental and private groups. As part of this effort, USDA established a
National Surveillance Unit (NSU) to coordinate and integrate surveillance activities to maximize the
efficiency of U.S. animal health surveillance programs. During FY 2005, NSU developed and implemented a
new surveillance plan in the National Animal Health Laboratory Network (NAHLN) for classical swine
fever—an economically significant disease that could devastate the Nation’s swine herd if an outbreak
occurred. NAHLN coordinates the veterinary diagnostic capacity of State animal health laboratories and their
facilities, equipment and professional expertise. The Department also focused on strengthening its association
with accredited veterinarians—important animal health surveillance partners—by developing an updated




                                                                                                          USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   87
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



reference guide for them and streamlining its communications infrastructure to ensure they could be mobilized
quickly in an emergency. USDA also collaborated with other Governmental agencies to address issues that
involved linkages between farm-raised, wildlife, zoo and companion animals. This program is designed to
quickly mitigate and manage the potentially devastating impacts animal diseases may have on the Nation’s
food supply and economy. It also implements recommendations made by the National Association of State
Departments of Agriculture in the Animal Health Safeguarding Review.

Animal care in USDA adds a critical piece to the surveillance of diseases that can be spread from animals to
humans. USDA inspectors in zoos, research facilities, and pet wholesale businesses have collaborated in
surveillance efforts for LCVM in rodents, monkey pox and tuberculosis in elephants. These efforts will be
vital in avian influenza surveillance because birds and big cats are susceptible to the disease and may play a
role in transmission. This will be especially important in facilities where the public comes into contact with
birds and exotic species exhibited at places such as zoos and sanctuaries.

To protect both animal and human populations, USDA has several avian influenza programs in place. The
USDA Animal and Plant Health Inspection Service (APHIS) works with states to monitor and respond to
outbreaks of low pathogenicity (LPAI) and high pathogenicity (HPAI) avian influenza. APHIS also conducts
outreach through “Biosecurity for the Birds,” which targets poultry producers and provides the latest
information on AI. In addition to these programs, APHIS maintains an avian influenza vaccine it uses to
create a buffer around outbreak areas.

USDA, with industry cooperation, randomly tests commercial flocks for avian influenza, and tests some wild
migratory flocks, as well. The USDA Agricultural Research Service diagnostic test was used in the
eradication of avian influenza in Texas in 2004. The test has now been distributed to the National Animal
Health Laboratory Network, which includes university and state veterinary diagnostic labs throughout the
United States, to better enable laboratories to monitor for and respond to avian influenza outbreaks.

A USDA Food Safety and Inspection Service (FSIS) goal is to educate the public about food and avian
influenza. For example, LPAI is not transmissible by eating poultry, and the chance of poultry infected with
transmissible HPAI entering the food chain is very low. Proper handling and cooking protects against HPAI
as well as other contaminants; food safety tips are disseminated in various venues by FSIS.
Exhibit 40: Strengthen the Effectiveness of Pest and Disease Surveillance and Detection Systems

                                                                                          Fiscal Year 2005
                    Annual Performance Goals and Indicators                      Target        Actual        Result
 3.2.1      Number of significant introductions of foreign animal diseases and     0              0           Met
            pests that spread beyond the original area of introduction and
            cause severe economic or environmental damage, or damage to
            the health of animals or humans.



Analysis of Results
The target was met. USDA selected a target of zero because all program leaders, partners and cooperators, and
Congress do not want a single instance of an animal disease to spread and cause severe damage. During FY
2005, the U.S. had several introductions of foreign disease agents that were reported to the World
Organization for Animal Health.



 USDA
    88              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Despite these introductions, there were no outbreaks of significant foreign animal diseases or pests that spread
beyond the original area of introduction and caused severe economic or environmental damage or damage to
the health of animals.
Exhibit 41: Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and Detection
            Systems

                                                                         Fiscal Year Actual
                         Trends                      2001         2002         2003           2004      2005
 Number of significant introductions of foreign        0            0            0              1         0
 animal diseases and pests that spread beyond the                             Baseline
 original area of introduction and cause severe
 economic or environmental damage, or damage to
 the health of animals or humans.


Since the first U.S. case of BSE was announced in December 2003, only one other case has been confirmed in
the country—in June 2005. In the 2003 case, an investigation revealed that the affected animal was of
Canadian origin. The BSE exposure was assumed to have occurred in Canada. In the second case, while an
investigation determined that the animal was of U.S. origin, it was born prior to a 1997 feed ban instituted by
the U.S. Food and Drug Administration (FDA). FDA’s ban helps minimize the risk that a cow might consume
feed contaminated with the agent thought to cause BSE. FDA has concluded that the animal in the second case
was most likely infected prior to the 1997 BSE/ruminant feed rule. The animal did not enter the food supply.

Throughout the past year, domestic demand for U.S. beef has remained strong due to the effective risk-
mitigation measures currently in place. USDA has a series of interlocking safeguards to protect U.S.
consumers and animal health. These safeguards also prevent the introduction or dissemination of the BSE
agent. The system of human health protections includes the USDA ban on specified risk materials (SRMs)
from the food supply. SRMs are most likely to contain the BSE agent if it is present in an animal. Additional
measures include a longstanding ban on importing cattle and beef products from high-risk countries, a
ruminant-to-ruminant feed ban, U.S. slaughter practices and aggressive surveillance. Data obtained from the
enhanced BSE surveillance effort will help USDA determine whether any further changes to these risk
management practices are necessary.

USDA published a draft strategic plan and draft program standards for Natural Animal Identification System
(NAIS) in FY 2005 that explain its phased-in approach and provide direction to stakeholders who wish to
participate. Premises identification is the first key component of the system. During 2005, all States used a
premises-registration system and more than 100,000 premises were registered. USDA is working with
industry cooperators to implement the animal identification component of the system while the animal
movement tracking database is being privatized.

Animal Welfare
The Animal Welfare Program is designed to protect animals used for research in biomedical laboratories and
those bred by the wholesale pet trade. The program also covers those used for education and entertainment in
zoos, circuses and various exhibits, and those being transported in commerce. It protects them from disease
outbreaks, neglect and inhumane treatment. USDA inspects facilities and records, investigates complaints and




                                                                                                        USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 89
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



re-inspects facilities with documented problems. The program places primary emphasis on voluntary
compliance.

The Animal Welfare Program has conducted several canine-care workshops and big cat symposiums to
educate the general public and licensees on issues dealing with the health and well-being of animals. USDA
also hosted listening sessions for animal welfare organizations, industry, Federal and Congressional workers,
and others.

In 2005, USDA’s Animal Care Program conducted an “amnesty campaign” under which unlicensed dog
breeders conducting sales covered by AWA could apply for a license without a penalty, unless they had been
notified previously of the need for a license.

The Animal Care Program also created a stakeholders’ letter. The letter, distributed periodically, keeps AWA
licensees and others informed about AWA-related issues. In other outreach activities, USDA’s Animal Care
Program sponsored a national State-Federal workshop to clarify lines of responsibility/jurisdiction and make
partnerships better. This workshop was designed to ensure the welfare of wild/exotic (i.e., tigers, elephants,
etc.) animals. A meeting planned for 2006 will address domestic animals.

The Animal Welfare Program continued to focus on adapting new technology to improve the effectiveness
and efficiency of its field inspectors, especially regarding enforcement of the Horse Protection Act (HPA).
HPA prohibits horses subjected to a process called soring from participating in exhibitions, sales, shows or
auctions. It also prohibits drivers from hauling sored horses across State lines to compete in shows. In soring,
chemicals are applied to the legs of show horses to make them feel sore so that they lift them high during
performances. The Animal Welfare Program involves the use of two different instruments. The first is a
handheld gas chromatograph capable of identifying chemical vapors within 10 seconds. Applications for this
technology include identifying illegal soring chemicals, bacteria from wounds or animal solid waste, and
harmful chemical vapors in animal housing facilities. The other is a handheld infrared camera capable of
detecting surface temperatures on living or inanimate objects. The device evaluates the adequacy of
temperature, shade and ventilation management in zoos, kennels and research facilities. It can also determine
the heat patterns in horse limbs that have been subjected to chemical and physical soring methods.
Exhibit 42: Ensure the Humane Care and Handling of Animals Used in Commerce

                                                                                           Fiscal Year 2005
                    Annual Performance Goals and Indicators                      Target        Actual         Result
 3.2.2      Percentage of facilities in complete compliance at the most recent    70%           69%           Unmet
            inspection
 3.2.3      Number of animals affected by noncompliances documented on           360,000        Not           Unmet
            inspection reports                                                                Available



Analysis of Results
Through regulatory inspections and educational efforts, the Animal Welfare Program raised the level of
facility compliance from a baseline of 58 percent in 2001 to a level of 70 percent in 2004. The level dropped
slightly from 70 percent in 2004 to 69 percent in 2005 due to approximately 1,000 additional dog dealers
being licensed during the year.




 USDA
    90              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Data for the number of animals affected by noncompliances documented on inspection reports in 2005 were
inaccurate. Thus, there is no means to compare program performance in FY 2005 with previous years. The
Licensing and Registration Information System (LARIS) database provides these data. LARIS is obsolete and
will be replaced during the coming year.
Exhibit 43: Trends in Ensuring the Humane Care and Handling of Animals Used in Commerce

                                                                                       Fiscal Year Actual
                        Trends                               2001               2002            2003          2004        2005
 Percentage of facilities in complete compliance at          58%                68%             70%           70%         69%
 the most recent inspection                                 Baseline
 Number of animals affected by noncompliances               588,961        371,856          344,866          383,563      Not
 documented on inspection reports                           Baseline                                                    Available


While the number of animals affected by noncompliances probably did not decrease during FY 2005, the
Animal Welfare Program has reduced the total number of animals affected by noncompliances by more than
200,000 since the baseline was established in FY 2001. The benefits of this achievement for the Nation are:
            Assurance that the animals are being treated properly; and
            Detection and treatment of diseases that might move from captive animals to wildlife and humans.

Description of Actions and Schedules
As mentioned above, USDA intends to replace LARIS during the next year. The new database will provide
the program with more reliable performance measures and additional flexibility in the measures evaluated.
The system will track the amount of animal suffering prevented due to Animal Care interventions for the three
activities under AWA research, exhibition, and commerce.

Key Outcome:              Improve Animal and Plant Diagnostic Laboratory Capabilities
The National Animal Diagnostic Network and Plant Diagnostic Network Centers ensure the performance of
timely diagnostics. They also enhance the process of producing and maintaining a timely, comprehensive
catalogue of pest and disease outbreak occurrences in a nationally accessible database. Identifying new or
uncommon pests and diseases accurately will allow USDA, in conjunction with the States, to expedite initial
control responses, verify the physical boundaries of an outbreak and initiate regional or national containment
strategies. The ultimate performance measure for these networks is their disease detection preparation. The
networks will continue to study new diseases regularly to protect the Nation effectively from accidental or
deliberate introduction of diseases.
Exhibit 44: Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved

                                                                                                       Fiscal Year 2005
                    Annual Performance Goals and Indicators                              Target             Actual       Result
 3.2.4      Expand the ability to detect plant diseases to protect the Nation              3                   5        Exceeded
            from disease outbreaks (Number of plant diseases)
 3.2.5      Expand the ability to detect animal diseases to protect the Nation              6                7         Exceeded
            from disease outbreaks (Number of animal diseases)




                                                                                                                          USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                              91
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Analysis of Results
The performance goal was met. Limited trend data are available since the effort began in FY 2003 (plant) and
FY 2004 (animal).

Plant disease detection criteria have been developed for soybean rust, sudden oak death (SOD), Ralstonia
stem rot, plum pox virus and pink hibiscus mealy bug. Soybean rust is a fungal disease that attacks the foliage
of a soybean plant, causing its leaves to drop prematurely. SOD is a plant disease that attacks many types of
plants and trees common to the Pacific Northwest. Plum pox virus browns the flesh and deforms stone fruit,
making it unmarketable. Pink Hybiscus Mealybug is a serious insect threat to agricultural, ornamental and
horticultural plants in tropical and sub-tropical areas.

Animal disease-detection criteria have been developed for the following seven high consequence diseases.
Foot-and-Mouth Disease is a severe, highly contagious viral disease of cattle and swine. Exotic Newcastle
Disease is a contagious and fatal viral disease affecting all birds. Classical Swine Fever, or hog cholera, is a
highly contagious viral disease of swine. High Pathogen Avian Influenza is a virus that can cause varying
amounts of clinical illness in poultry. Bovine Spongiform Encephalopathy, or mad cow disease, is a chronic
degenerative disease that affects the central nervous system of cattle. Scrapie is a fatal, degenerative disease
affecting the central nervous system of sheep and goats. Chronic Wasting Disease attacks the central nervous
system of deer and elk.

USDA agencies partner with State agencies and universities to achieve a high level of agricultural biosecurity.
This process is done through the early detection, response and containment of outbreaks of invasive pests and
diseases. The diagnostic laboratories, adequately staffed and stocked with cutting-edge technology, are
essential to accomplishing this mission.
Exhibit 45: Trends Improving the Capabilities of Diagnostic Laboratories

                                                                         Fiscal Year Actual
                        Trends                          2001      2002         2003            2004      2005
                                                         N/A       N/A           2               3         5
 Specific Plant diseases labs are prepared to detect.
                                                                              Baseline
 Specific animal diseases labs are prepared to          N/A        N/A          N/A              6        7
 detect.                                                                                      Baseline
 N/A = Not Available

Future challenges to improving laboratory capabilities include making non-Federal funding available. This
funding could be used to expand laboratory links in each State, increase the number of screened diseases and
their detection criteria, and ensure that more strategically located laboratories are prepared to deal with
geographically relevant disease threats.

Key Outcome:             Reduce the Number and Severity of Agricultural Pest and Disease Outbreaks
Genome sequencing involves studying the genetic factors that allow a cell to exist. USDA has sequenced the
genomes of a wide variety of pathogens to understand their diversity better. This sequencing allows scientists
to recognize new cells. It also allows them to determine why a pathogen causes disease. Due to the ever-
decreasing cost of obtaining sequence data, the number of organisms or variants of the microorganisms has
increased each year.



 USDA
    92              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



To understand what genes allow an organism to resist infection, USDA has identified genetic combinations
that would give economically important agriculture species a greater ability to survive infection. Sequencing
of the complete genome of important agricultural species like chickens and cows is vital to this effort and
facilitates the identification of diseases during the last several years.

USDA has provided a number of diagnostic tests that help producers find and control diseases more rapidly.
In some cases, these tests eventually are transferred to universities, State laboratories, private industry or other
countries for use.

USDA is at the very early stages of finding genomic markers linked to phenotypes of disease resistance. Much
more needs to be done. Once more of these markers become available, companies will be able to breed
animals without the danger of them contracting diseases. USDA is studying this process for the economically
important livestock commodities. The future challenges are to continue and enhance this effort. To do this, the
Department must support host genome sequencing and establish models of disease to validate the markers of
resistance.
Exhibit 46: Provide Scientific Information to Protect Animals from pests, Infectious Diseases, and Other
            Disease-Causing Entities that Impact Animal and Human Health.

                                                                                             Fiscal Year 2005
                    Annual Performance Goals and Indicators                         Target        Actual           Result
 3.2.6      Provide scientific information to protect animals from pests,                                           Met
            infectious diseases, and other disease-causing entities that impact
            animal and human health.
             Number of organisms or variants of the microorganisms                   70               70
                sequenced each year.
             Number of resistance markers for a variety of diseases                  10               10
                identified.
             Number of tests that are transferred to universities, State             3                3
                laboratories, private industry, or other countries for use.

Analysis of Results
USDA met the goal. While USDA has sequenced parts of many microorganisms and made new discoveries,
many of these sequences only cover part of the genome. There are many more organisms and varieties to be
studied. Despite this shortcoming, the sequence data are very useful. They have allowed scientists to discover
the origin of microorganisms quickly and provided valuable insight into their diversity. Future challenges are
to continue sequencing efforts and build relational databases so that the sequence data can be stored, mined
and interpreted easily.
Exhibit 47: Trends in Providing Scientific Information to Protect Animals from Pests, Infectious Diseases, and
            Other Disease-Causing Entities that Impact Animal and Human Health

                                                                                  Fiscal Year Actual
                      Trends                                2000         2001      2002       2003          2004      2005
 Number of organisms or variants of the                      20           30        40         50            55        70
 microorganisms sequenced each year.                       Baseline
 Number of resistance markers for a variety of               N/A         N/A         3          5            8         10
 diseases identified.                                                             Baseline




                                                                                                                     USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                         93
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                           Fiscal Year Actual
                         Trends                          2000    2001       2002       2003     2004     2005
 Number of tests that are transferred to universities,    N/A      1          2          4        3        3
 State laboratories, private industry or other                  Baseline
 countries for use.
 N/A = Not Available


While USDA has succeeded in transferring technologies, concepts and some fully viable tests to the end user
during the past several years, many diagnostic innovations still are being lost before they are commercialized.
Those tests that have been marketed immediately are used and have enhanced the capability of the producer,
State Government and diagnostic labs in determining the cause and location of diseases.

Challenges for the Future
USDA faces many challenges in reducing the number and severity of pest and disease outbreaks. Some of
these are external factors that, should they occur, could prevent program goal achievement.

As in all farming, unexpected events in the natural environment can impact pest and disease programs. A pest
may move from wild to domestic populations. Migratory birds may carry diseases across boundaries. Climatic
factors may create unusually good conditions for the growth and spread of a pest or disease. Unusually wet
weather can prevent program survey actions. If a pest or disease with unknown biological information or
survey methodology enters the country, it might go undetected before spreading and causing significant
damage.

The outbreak and spread of a significant emerging, foreign animal or plant, pest or disease in the U.S. can
drain available resources quickly. The occurrence of multiple instances of these problems or one instance in
multiple locations would limit USDA’s prevention methods severely. When large or multiple outbreaks occur,
personnel must be shifted temporarily from non-emergency programs. This could leave the donor program
unable to achieve its outcomes if the emergency runs longer than expected. In the emergency programs,
activities such as developing guidelines and training cooperators may suffer, thereby affecting the ability to
shorten response times in the future. An outbreak of epidemic proportions can overwhelm the program’s
ability to conduct timely testing. Personnel involved in support activities, such as regulatory enforcement,
veterinary diagnostics and biologics, may find their workload outpacing their ability to provide effective
services. When work priorities are reviewed, some of the burden may be shifted to cooperators.

Animal cloning and genetic engineering activities are expected to pose a growing challenge. The development
of transgenic animal species will present new problems in regulation, both in terms of maintaining the health
and safety of agriculture and developing policy regarding their welfare. A transgenic animal refers to one
whose genetic make-up has been altered with the genes of another species. In response to a petition, USDA’s
program responsible for enforcing Animal Welfare Act (AWA) considered whether cloning and genetic
engineering of animals should be regulated under the act. The Department determined that AWA covers
genetic engineering as a research activity in certain circumstances. Cloning activities will be evaluated on a
case-by-case basis for coverage under the act.
USDA must communicate and coordinate with its employees and partners so that they clearly understand their
roles and responsibilities, and ensure they have the necessary resources to respond quickly and effectively.
The Department relies on State and local Government agencies, professional societies and industries to


 USDA
    94              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



implement, administer and pursue the program standards required to complete them successfully. The
cooperation and participation of all these groups is essential to achieving goals. Nowhere was this more
evident in 2005 than when USDA was called upon to work within a framework of many partnerships to assist
with rescuing and caring for pets impacted by Hurricane Katrina. In the absence of clear authority of any
Federal Government agency over private pets, such as dogs and cats, the USDA program that enforces AWA
was asked to fill that role. The responsibilities of USDA’s Animal Care Program are expected to continue to
grow in this area. The program provides leadership for determining standards for the humane care and
treatment of animals.

The Animal Care Program is experiencing an increase of about 100 AWA licensees per month. Almost all of
these new licensees are commercial dog breeders. Providing services to this growing number of new licensees
will continue to be a challenge for USDA.
Planning responses to emergencies before they occur and developing the infrastructure to respond to them is
an activity of growing importance in the post-9/11 and post-Katrina world. Preparing for a world pandemic
requires coordinating large numbers of experts from widely diverse scientific disciplines and professional
settings. Coordination increases the ability of USDA to respond as needed. Cooperative agreements with
international organizations and countries allow information to be shared across wider boundaries. Mobilizing
specialized personnel requires advance work establishing information on resource types and locations.

STRATEGIC GOAL 4: IMPROVE THE NATION’S NUTRITION AND
HEALTH
USDA made strides in promoting access to a nutritious diet and healthy eating behaviors for everyone in the
U.S. in 2005. Through its leadership of Federal nutrition-assistance programs, the Department made a
healthier diet available for millions of children and low-income working families. Meanwhile, USDA’s
Center for Nutrition Policy and Promotion used the latest science information to update Federal nutrition
guidance and interactive tools. This information was designed to help consumers establish and maintain
healthy diets and lifestyles that are consistent with the President’s HealthierUS Initiative. HealthierUS is a
health and fitness initiative that promotes increased physical activity, the consumption of nutritious foods,
regular preventive health screenings and the avoidance of risky behaviors, especially involving alcohol,
tobacco and illegal drugs. Key accomplishments included:
            Promoting access to the Food Stamp Program (FSP). Food stamps help low-income
            families and individuals purchase nutritious low-cost meals. FSP is the Nation’s largest nutrition
            assistance program serving more than 25 million people monthly in FY 2005. The program enables
            participants to improve their diets by increasing their food-purchasing power via benefits redeemable
            at retail grocery stores across the U.S. USDA promoted FSP through a national media campaign
            designed to reinforce the availability and importance of food stamps as nutrition assistance and work
            support. The campaign distributed radio spots in 35 media markets, 10 of which aired ads in both
            Spanish and English, and more than 2.2 million flyers and posters written in these languages across
            America;
            Continuing to ensure that Food Stamp benefits are accurately issued. The national
            payment error rate for FY 2004 is 5.88 percent, an all-time low error rate for FSP and a 34 percent




                                                                                                          USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 95
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            improvement from just 5 years ago. This improvement is a result of strong partnerships with States
            administering the program and the implementation of program simplifications and policy options
            provided in the Farm Security Rural Investment Act of 2002 (FSRIA). The FY 2005 Food Stamp
            Payment Accuracy Rate will become available in June 2006 and will be reported in the “FY 2006
            Performance and Accountability Report”;
            Implementing new provisions in the Child Nutrition Programs. With the passage of the
            Child Nutrition Act of 2004, USDA began implementing new provisions of the law. Child Nutrition
            Programs are designed to provide nutritious meals to students at participating schools, with low-
            income students receiving free or reduced-price meals. USDA took steps to ensure access to Federal
            nutrition-assistance programs for the children who need them, while maintaining and improving
            program integrity; and
            Launching MyPyramid so that consumers are motivated to make healthier food and physical
            activity choices consistent with the 2005 Dietary Guidelines for Americans and other standards,
            resulting in improved well-being and Healthy Eating Index scores. These guidelines give science-
            based advice on food and physical activity choices for health. MyPyramid, which can be accessed at
            www.mypyramid.gov, translates the guidelines’ principles. It features the concepts of
            personalization, variety, gradual improvement, physical activity, moderation and proportionality. By
            accessing MyPyramid, consumers can use several of its features to individualize their diet and
            physical activity patterns.

In FY 2005, USDA made strides in improving the quality of Americans’ diet through a nutritionally enhanced
food supply and better knowledge and education to promote healthier food choices. Four of the top 10 causes
of death in the U.S. (cardiovascular disease, cancer, stroke and diabetes) are associated with the quality of
diets—diets too high in calories, total fat, saturated fat and cholesterol, or too low in fruits and vegetables,
whole grains, and fiber. The Nation is experiencing an obesity epidemic resulting from multifaceted causes
including a “more is better” mindset for food consumption, a sedentary lifestyle and the easy availability and
choices of fat- and sugar-laden, high-calorie foods. Consumers are looking for foods that taste good, offer
nutrition and other health benefits, and are convenient to prepare and consume. Science-based dietary
guidance and promotion can help consumers integrate these choices into a diet that promotes their long-term
health. In FY 2005, USDA pursued national policies and programs to ensure that everyone has access to a
healthy diet regardless of income, and that the information is available to support and encourage good
nutrition choices.

USDA’s success in promoting public health through good nutrition and effective nutrition-assistance
education programs relies on research. The research provides critical knowledge of what one needs to eat for
proper growth and development, continued health, and productivity. Research also shows how that knowledge
can be conveyed to the public in a manner that leads to true dietary changes. Further, USDA has research
supporting the development of new healthy and tasty food products. This process provides another avenue for
helping consumers eat well. In FY 2005, USDA conducted and supported research that resulted in a new
understanding of how nutrients, such as isoflavins, promote health and influence what people eat. The
Department also worked on developing healthy new products made from common commodities, such as rice
and cheese by-products.




 USDA
    96              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




OBJECTIVE 4.1: IMPROVE ACCESS TO NUTRITIOUS FOOD


Exhibit 48: Resources Dedicated to Improving Access to Nutritious Food

                                                                            FY 2005
                     USDA Resources Dedicated to Objective 4.1    Actual        Percent of Goal 4
                    Program Obligations ($ Mil)                  49,384.7           98.37%
                    Staff Years                                    845              28.39%



Introduction
The Federal Government is committed to ensuring that no child or family goes hungry. USDA’s nutrition-
assistance programs represent the Federal Government’s core effort to reduce hunger and improve nutrition.
These programs aided one in five people nationally during FY 2005. They promote better health for all people
in the U.S., support the transition to self-sufficiency for low-income working families and support children’s
readiness to learn in school. A well-nourished population is healthier and more productive.

Overview
By working in partnership with States, USDA continues to implement effective nutrition-assistance programs
and deliver program benefits to eligible participants. The programs promote access to a nutritious and
adequate diet for those with little income and few resources. For a variety of reasons, many eligible
individuals and families do not participate in these programs. In FY 2005, USDA focused on increasing the
participation rate among people eligible for food stamps. The Department also focused on expanding access to
the School Breakfast Program (SBP), which is not as widely available as the National School Lunch Program
(NSLP). SBP provides cash assistance to States to operate breakfast programs in schools and residential child-
care institutions. NSLP provides nutritionally balanced, low-cost or free lunches to children each school day.

In 2005, USDA continued to work with States to implement FSRIA’s FSP provisions. These provide States
with options to simplify the program’s administration. The Department also continued monitoring and
tracking outreach efforts to targeted populations. USDA embarked on the second year of its media campaign
to inform low-income people of their potential eligibility. The Department also provided technical assistance,
outreach and participation grants and guidance to faith- and community-based organizations to encourage FSP
participation.

Despite SBP’s availability, many children that could benefit from breakfast at school currently do not use the
program. On an average school day in FY 2005, more than 50 million children had access to school lunch and
nearly 29 million children chose to eat a program lunch. Additionally, about 9.3 million children received a
school breakfast. USDA identified opportunities to promote SBP. The Department raised awareness of SBP’s
availability with State and civic leaders, and supported and celebrated National School Breakfast Week. This
program involves schools across America emphasizing the importance of a good breakfast through events,
posters and student activities.

The Department also continued to serve those eligible for the Special Supplemental Nutrition Program for
Women, Infants and Children (WIC) who wish to participate within authorized funding levels. WIC helps




                                                                                                      USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                           97
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



safeguard the health of low-income women, infants and children up to age 5. The program provides nutritious
foods to supplement diets, information on healthy eating and health-care referrals. About 8 million pregnant
women, new mothers and their young children benefited in an average month in FY 2005. The Department
worked with the Office of Management and Budget, Congress and State partners to ensure that WIC funding
levels were available and distributed effectively to serve all eligible persons who wished to participate.

Finally, USDA reached out to a wide range of faith-based and community organizations to deliver program
benefits and services, and encourage access to the programs.

Selected Results in Research, Extension and Statistics
Understanding Economic and Behavioral Influences on Fruit and Vegetable Choices—The
newly released USDA MyPyramid and the 2005 Dietary Guidelines encourage Americans to increase their
consumption of fruits and vegetables. USDA food supply data indicate that Americans consume 1.4 servings
of fruit daily. This figure is less than half the 4 servings or 2 cups recommended in the 2005 Dietary
Guidelines for Americans eating 2,000 calories per day. Marketers and nutritionists alike have pondered the
reasons for Americans’ fruit and vegetable shortfalls. USDA examined how economic, social and behavioral
factors influence consumers’ fruit and vegetable choices. Researchers found ways for consumers to meet the
Food Guide Pyramid recommendations for fruit and vegetable consumption for less than $1 per day. Despite
this finding, other research indicated that low-income consumers:
            Spent less on fruits and vegetables than others; and
            Were less likely to respond to a small change in income by purchasing more fruits and vegetables
            than their higher-income counterparts.

New Super-Carb Product Created—A USDA scientist has created a new all-natural, super-carb product
called Calorie-Trim. Derived from whole oats and barley, Calorie-Trim contains 20 to 50 percent beta-glucan,
a soluble fiber found in these grains. When eaten, the biologically active fiber helps the body regulate blood
glucose and lower bad cholesterol. This process helps lessen the risk of heart disease. Calorie-Trim can mimic
some fat and carbohydrates' properties in food without overburdening the body with calories that contribute to
diabetes and obesity. Additionally, Calorie-Trim, with less than 4 calories per gram, boasts 5 to 10 times more
soluble fiber than regular milled oats, flour and oatmeal.

New Alternative to Peanut Butter—USDA scientists have developed a tasty sunflower-seed butter that
can be used for spreading on breads or crackers. Marketed as SunButter, the spread comes in an array of
flavors and textures. Scientists have also created a low-carb version. Twelve States now include SunButter in
their school lunch programs. Some airlines provide snacks made with SunButter as an alternative to peanuts.
The product gives the roughly 3 million Americans who suffer from peanut allergies a satisfying option.

Potassium for Better Melons—USDA scientists studying ways to make melons more nutritious have
found that spraying potassium on them as they grow boosts their beta carotene and vitamin C levels. Beta
carotene is one of the most powerful dietary antioxidants. Vitamin C is a protein that gives structure to bones,
cartilage, muscle, and blood vessels. The potassium application increased the fruits’ sugar content, which, in
turn, raised levels of vitamin C and produced a better-tasting and sweeter melon. The potassium formulation is
relatively simple, inexpensive, safe and readily available. It can also be combined with sprays for insects or
disease.


 USDA
    98              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



New Techniques for Pre-cut Fruit and Vegetables—USDA has developed three techniques for
prolonging the shelf life of pre-cut fruits and vegetables. This process should help expand the fresh-cut
produce supply—one of the fastest growing food categories in U.S. supermarkets. When plant cells detect a
nearby injury, as occurs with slicing, they send electrical, chemical and hormonal signals to initiate defense
responses to protect the plant. Such wound signaling changes plant tissue texture and chemical properties.
One way to bypass the plant's alert system, scientists have found, is to slice the fruit while it is held under
water. This method prevents plant tissues from detecting pressure changes that would accompany the slicing.
The water forms a barrier that prevents fluids from escaping from the fruit or vegetable tissues being cut. Heat
and ultraviolet light treatments also can be used to fool a plant's defense system and keep just-sliced fruit
crisper and more flavorful longer.

Challenges for the Future
Studies and analyses show that there continue to be large numbers of eligible people who do not participate in
Federal nutrition-assistance programs. While recent changes in FSP have made more low-income people
eligible, many may be unaware of the opportunity to receive these benefits. USDA looks to improve access to
and promote awareness of these programs among those who may benefit from their services with continued
outreach and information strategies.

USDA’s ability to achieve this objective could be significantly enhanced if additional legislative authority for
policies and program initiatives were enacted. This would enhance initiatives that promote effective access to
nutrition assistance and funding to support program participation for all eligible people who seek service. The
quality of program delivery by third parties—hundreds of thousands of State and local Government workers
and their cooperators—is critical to USDA’s efforts to reduce hunger and improve nutrition. Economic
changes can affect both the number of people eligible and the ability of cooperators to provide services.

Key Outcome:              Reduce Hunger and Improve Nutrition
As noted above, the resources and services USDA delivers through its nutrition-assistance programs represent
the Federal component of efforts to improve the nutrition of children and low-income people. The Department
is committed to providing access to nutritious food through the major nutrition assistance programs for
eligibles who wish to participate. While data are not yet available to assess the success of these FY 2005
efforts in increasing the rate of participation among eligible people, the period did see increased participation
in all three targeted programs.
Exhibit 49: Improve Access to Nutritious Food

                                                                                           Fiscal Year 2005
                    Annual Performance Goals and Indicators                       Target        Actual         Result
 Improve Access to Nutritious Food (Mil):                                                                     Deferred
 4.1.1      Rates of eligible populations participating in the Food Stamp
                                                                                  59.1%          N/A
            Program
 4.1.2      Rates of eligible populations participating in the School Breakfast
                                                                                  18.0%          N/A
            Program
 4.1.3      Rates of eligible populations participating in the Special
                                                                                   N/A           N/A
            Supplemental Nutrition Program for Women, Infants and Children




                                                                                                                 USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                     99
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Analysis of Results
The measure has been deferred because data on the number of eligible persons are currently unavailable. Data
for the SBP measure should be available for reporting in the FY 2006 Performance and Accountability Report
(PAR). FY 2005 data for the FSP and WIC measures should be available for the FY 2007 PAR. An analysis of
the most recent information available follows.

Food Stamp Program—The most recent available information indicates that in FY 2003, Food Stamp
Program participation increased for the second year in a row after a 7-year decline. The new data indicates
that the Food Stamp Program served approximately 56 percent of all who were eligible to participate in FY
2003, an increase from 54 percent in FY 2004. Ensuring that all who are eligible to participate is a top
priority for USDA. The increase in participation is attributed in part, to the use of State policy options that
promote outreach and improve access to the program. Participation in the Food Stamp Program is also
responsive to changes in unemployment; when the number of unemployed increase, program participation
also rises.
            Additional waivers to increase FSP access to programs for elderly and other targeted groups. USDA
            works with a number of States on combined application (CAP) demonstration projects. CAPs allow
            elderly and disabled populations receiving Supplemental Security Income to apply for food stamps
            through a simplified process. Four additional States were approved to operate CAPs in FY 2005 for a
            total of 10 projects operating nationwide;
            The awarding of 6 grants totaling $5 million to increase food-stamp awareness of low-income
            households and simplify the application process;
            The awarding, for the second year in a row, of $1 million in grants to faith- and community-based
            organizations and public agencies to educate people about the benefits of food stamps so that they
            can make informed decisions about applying and participating;
            Free outreach and educational materials, including posters, brochures and flyers in English and
            Spanish, a national media effort to raise awareness of FSP availability, an expanded web site with
            new outreach resources, and radio public service announcements. Materials in 35 languages are
            available for download. Additionally, USDA continued a toll-free information line—available in
            English and Spanish—to help the public learn more about the FSP such as how and where to apply;
            Working with the U.S. Department of Justice to develop and distribute brochures in multiple
            languages to inform Federal program administrators of their obligations to accommodate people with
            limited English proficiency and other beneficiaries of their rights;
            Coordinating an FSP National Outreach Coalition to partner with and strengthen educational and
            outreach efforts nationally by sharing efforts and joining forces and resources; and
            Partnering with stores and retailer associations to promote food stamp outreach and nutrition
            education-related activities. This work included the use of an in-store FSP “pre-screening” tool to
            help people learn if they are eligible for the program, encouraging store use of FSP public service
            announcements and distributing outreach materials and MyPyramid nutrition information.

SBP—FY 2005 SBP participation rate data will be available in December 2005, and will be reported in the
FY 2006 USDA Performance and Accountability Report. SBP makes healthy, nutritious meals available to



 USDA
    100             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



nearly 41 million students, however, an average of 9 million children actually eat a program breakfast. More than
76,000 schools operated the program in FY 2005, which is an increase of approximately 1,000 schools from the
previously year. USDA continued to support and encourage SBP participation in FY 2005 by:
            Continuing SBP promotion through such activities as School Breakfast Week, which involves schools
            across America in highlighting the program through events, posters and student activities that
            emphasize the importance of a good breakfast—either at home or served through the program—in
            being ready for school; and
            Implementing provisions in child nutrition reauthorization included in the Child Nutrition and WIC
            Reauthorization Act of 2004. The provisions expand program access by: 1) requiring States to enroll
            children who receive food stamps in the free school meals program without an additional application;
            2) combining applications for subsidized meals so that each household can submit just one for all its
            children; and 3) making each certification valid for the school year, eliminating the need to re-apply
            if circumstances change.

WIC—FY 2005 WIC participation rate data will be reported in the FY 2007 PAR. In FY 2005, USDA
continued efforts to ensure that funding was available to support participation for all those eligible who wish
to participate.
Exhibit 50: Trends in Improving Access to Nutritious Food

                                                                                 Fiscal Year Actual
                            Trends                                2001     2002        2003       2004    2005
 Food Stamp Program % of eligible people participating           53.2%    53.8%       55.6%       N/A     N/A
 School Breakfast Program % of eligible school children
                                                                 14.5%     15%        15.5%      16.3%     N/A
 participating
 WIC Program % of eligible people participating (measure under
                                                                  N/A      N/A         N/A        N/A      N/A
 development)


FSP—The most recent available information indicates that, in FY 2003, the FSP participation rate increased
for the first time after a seven-year decline. The new data indicate that FSP served approximately 56 percent
of all who were eligible to participate in FY 2003. Ensuring that all who are eligible participate is a top
priority for USDA. One reason for the increase in participation since FY 2000 is changes in the law. Another
is that policy reforms in recent years have increased the number of eligible low-income individuals and
families. Additionally, USDA has increased efforts to improve program access.
SBP: Trend data indicate that the proportion of children enrolled in school who participate in SBP has risen
slowly but steadily in recent years. This use reflects USDA’s continuing efforts to encourage schools to
operate the program and children in those schools to participate. In FY 2005, approximately 9.3 million
children received breakfast through the program each school day.

WIC: A methodology to estimate the number of people eligible to participate in WIC is currently being
developed. Data for FY 2005 are expected to be available in 2007 and will be reported in the FY 2007 PAR.




                                                                                                          USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                101
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




OBJECTIVE 4.2: PROMOTE HEALTHIER EATING HABITS AND LIFESTYLES


Exhibit 51: Resources Dedicated to Promote Healthier Eating Habits and Lifestyles

                                                                             FY 2005
                     USDA Resources Dedicated to Objective 4.2      Actual        Percent of Goal 4
                    Program Obligations ($ Mil)                     542.1              1.08%
                    Staff Years                                      919              30.86%



Introduction
Eating healthfully is vital to reducing the risk of death or disability due to heart disease, certain cancers,
diabetes, stroke, osteoporosis and other chronic illnesses. Despite this known fact, a large gap remains
between recommended dietary patterns and what people in the U.S. actually eat. USDA’s nutrition-assistance
programs focus on improving eating behaviors through promotion and services.

For the benefit of the total U.S. population, USDA uses Federal nutrition policy and nutrition education to
provide scientifically-based information about healthful diets and lifestyles. For example, the Department
promotes the aforementioned Dietary Guidelines for Americans and MyPyramid to help Americans make
wise choices related to food and physical activity.

Overview
USDA used its nutrition-assistance programs and broader nutrition-education efforts to promote healthier
eating and physical activity across the U.S. It worked to improve nutrition-education efforts within each of the
major nutrition assistance programs. Highlights in FY 2005 included a series of projects to identify new
strategies to address unhealthy weight gain through WIC, new Team Nutrition educational materials targeted
to fruit and vegetable consumption and healthier school environments, and a major review and reengineering
effort of food stamp nutrition education, still underway, to ensure that the Department focuses on changing
behaviors using the best strategies available.

USDA also released MyPyramid and the accompanying interactive tools that U.S. consumers can use to
assess their diet and physical activity, which is located at www.MyPyramid.gov. USDA agencies promote
healthy food choices, dietary habits, and eating behavior through research to improve understanding of
optimal nutrient requirements at all stages of the life cycle, the relationship between diet, physical exercise
and health and the factors influencing individual food choices. The Department conducts and supports
multidisciplinary nutrition research and education that considers interrelated factors affecting nutritional
status, such as genetics, physiology, sociocultural factors, psychology, economics, agricultural and food
systems, and public policy.

Excessive weight gain and obesity will soon rival cigarette smoking as a leading cause of premature death and
disability in the U.S. Improved diets can help with weight management and reduce the risk of certain types of
cancers and type II diabetes—the disease’s most common form. Thus, USDA’s efforts focus on updating
nutrition policy, providing information and promoting behavioral changes that can reduce excessive weight
gain, obesity and other diet-related health conditions. These actions hold the potential to improve the lives of



 USDA
    102             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                            ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



millions of Americans and reduce the health care and social costs of these conditions. These social costs
include lost years of work productivity related to morbidity and mortality from diet-related health conditions.

Researchers have identified poor diet and physical inactivity as the second most-common preventable cause of
death in the U.S. The total cost attributed to excessive weight gain and obesity is estimated to be nearly $120
billion annually. Even small improvements in the average diet could yield large health and economic benefits
to individuals and society as a whole.

To this end, USDA will continue promoting healthier eating and lifestyle behaviors as a vital public-health
issue. The Dietary Guidelines for Americans is the cornerstone of Federal nutrition guidance. Using the 2005
Guidelines and MyPyramid, the educational tool of the guidelines, USDA will continue its leadership role of
providing advice on patterns people can follow to improve overall health through proper nutrition.

In the same vein, according to Department and U.S. Census Bureau statistics, the nutrition assistance
programs managed by USDA touch the lives of one in five Americans – an enormous opportunity to promote
healthier behaviors. In 2005, the Department maintained its focus on getting benefits to children and low-
income people to encourage healthy eating and increased physical activity.

Selected Results in Research, Extension and Statistics
Selected Results in Research, Extension and Statistics Promoting Healthy Diets—The
Expanded Food and Nutrition Education Program (EFNEP) is improving the diets of disadvantaged
Americans. EFNEP is also helping prevent high blood pressure, heart disease, diabetes and obesity. This
program is designed to assist limited-resource audiences acquire the knowledge, skills, attitudes and behavior
modifications necessary for nutritionally sound diets. In FY 2004, EFNEP reached 378,206 youth and 157,809
adults. An additional 578,366 family members were reached indirectly through adult participants. While low-
income people often do not consume enough key nutrients—including protein, iron, calcium and vitamins A,
C and B6—data confirmed that, depending on the particular nutrients, EFNEP participants nationwide
increased their intake of these nutrients by 5 to 50 percent. Thus, participants improved their diets. Science
and Education Impact Statements from October 2004 report that, of the nearly 74,000 surveyed, 87 percent of
past EFNEP participants now make healthier food choices, prepare foods without added salt, read nutrition
labels or ensure their children eat breakfast.

Obesity Policy and the Law of Unintended Consequences—Effective action to combat obesity and
excess weight could come in many forms since many variables influence diet and lifestyle choices. The wide
range of factors contributing to food choices is compounded by the incredible variety of foods and
consumption opportunities available today—choices among thousands of food products, about whether to eat
at home or in a variety of restaurants, and about lifestyles. Thus, public policy targeting specific foods or
lifestyle choices could have surprising unintended consequences. USDA examined some of the potential
intended and unintended consequences of three widely discussed obesity policies—nutrition labels in
restaurants, taxes on snack foods, and restrictions on food advertising to children—focusing on the likely
effect of each program on producer and consumer incentives and health outcomes. In every case, the
unintended effects could dampen the policy’s success in reducing excess weight and obesity.

Link between High-Carbohydrate Diet and Cataracts Studied—USDA-funded research has
revealed new details about the association between a high-carbohydrate diet and cataract risk. Cataracts are a



                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 103
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



major cause of blindness worldwide and afflict an estimated 20 million Americans. Women who ate an
average of 200 to 268 grams of carbohydrates daily were more than twice as likely to develop cortical
cataracts as women who consumed between 101 and 185 grams per day. The recommended daily allowance
of carbohydrates for adults and children is 130 grams. The connection between high-carb intake and increased
cataract risk remains unknown; one possibility is that increased exposure to glucose, a breakdown product of
carbs, might damage the eyes’ lenses.

Zinc and Prostrate Cancer Links—USDA scientists in California have discovered new information
about how zinc might help fight prostate cancer, the second-most common cause of cancer-related deaths
among American men. Laboratory investigations using cancerous and cancer-free human prostate cells
indicated that the afflicted cells accumulated less zinc than healthy ones. In a related finding, the cancerous
cells had lower levels of ZIP1, a protein that moves zinc through the membrane that encloses a cell. Although
another zinc-ferrying-protein, ZIP3, existed in the cancer cells, its location prevented it from being most
effective.

Cereal Fiber and Heart Disease—A USDA study found that women with a history of heart disease and
who reported eating six or more servings of whole grains per week had slower progression of atherosclerosis.
Atherosclerosis causes plaque to clog the passageways through which blood flows. Researchers found that
stenosis—the narrowing of the diameter of arterial passageways—occurred less in women who ate more
cereal fiber from whole-grain foods than those reporting lower intakes. The data suggest that following
current dietary recommendations can slow the rate of heart disease progression. While the 2005 Dietary
Guidelines for Americans urges people to consume at least three servings of whole-grain foods per day,
experts say that most Americans consume less than a single serving daily.

Challenges for the Future
USDA’s effort to reduce excess weight gain and obesity and improve diet is expanding its reach. Immense
resources are available in both the private and public sectors that can enhance the effects of the Department’s
work on this issue. USDA works to create science-based resources that can be used within nutrition-assistance
programs. These resources primarily target low-income persons and foster the much larger public and private-
sector effort to achieve America’s ambitious nutrition goals.

While USDA’s goal of reducing obesity levels begins with understanding what constitutes a healthy diet and
the appropriate amount of exercise, ultimately success requires individuals to change their diets by modifying
their eating behavior. Crafting more effective messages and nutrition education programs to help people make
better food choices requires understanding their current habits and the relationships between these decisions
and their attitudes, knowledge and awareness of diet/health links. This requires data that link behavior and
consumption decisions of individuals of various backgrounds, regions, ages and genders. While national data
exist, current survey sample sizes do not yield reliable information for population subgroups.

While updated Federal nutrition guidance is an important step in helping Americans develop and maintain
healthier diets and lifestyles, using this guidance to motivate Americans to change remains a major challenge
because of the limited resources available for nutrition promotion. USDA will continue to explore ways to
devote significant long-term resources to develop consumer-friendly and cost-effective nutrition education
materials. The Department will also use partnerships to maximize the reach and impact of these materials.



 USDA
    104             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Promotional materials will be available within Federal nutrition-assistance programs, and to the general
public.

Attaining performance outcomes in this area depends partly on the emphasis that the U.S. places on healthier
eating, including products and practices in the food marketplace. Additionally, physical activity and other
lifestyle issues have a significant affect on body weight and health.

Key Outcome:              Promote More Healthful Eating and Physical Activity across the Nation
USDA promotes healthy eating through its comprehensive nutrition research and education programs. Both of
these programs are targeted to nutrition-assistance program participants and the general public. For each target
audience, the challenge is to find effective ways to translate research into working knowledge to improve
what people eat and find effective strategies to reach target populations with promotional information and
messages. USDA assesses its performance in promoting healthful eating and physical activity among low-
income populations served by Federal nutrition-assistance programs. This is done by monitoring the Healthy
Eating Index score (HEI). HEI is a summary measure of diet quality developed by USDA’s Center for
Nutrition Policy and Promotion. The Department sets targets for improvement in the HEI both for the U.S.
population as a whole and among people with incomes at or below 130 percent of poverty.
Exhibit 52: Promoting Healthier Eating Habits and Lifestyles


                                                                                       Fiscal Year 2005
                    Annual Performance Goals and Indicators                   Target        Actual         Result
 4.2.1      Improve the Healthy Eating Index (HEI) scores for                                             Deferred
               People with incomes under 130% of Poverty                       65           N/A
               The U.S. Population                                            65.0          N/A



Analysis of Results
The measure has been deferred because data are not yet available. FY 2005 data will be available in 2006 and
reported in the FY 2006 PAR. USDA continued its efforts to promote improvement in dietary practices for
low-income people. To meet the needs of the general population, the Department also continued its leadership
role in developing nutrition guidance and educational tools designed to motivate Americans to eat healthier.
USDA also:
            Continued to provide technical assistance and training in support of State agencies or partners at
            conferences and meetings like the Head Start Conference and State Nutrition Action Plans;
            Prepared to distribute the Food Stamp Nutrition Education (FSNE) Guiding Principles as approved
            by the Under Secretary (formerly the FSNE Framework). FNSE provides information on who
            provides the nutrition education, the strategies used in providing that education and how to contact
            local offices;
            Distributed more than 5.2 million Eat Smart, Play Hard nutrition education materials requested by
            program partners. This program offers practical suggestions designed to help motivate children and
            their caregivers to eat healthy and be active;




                                                                                                            USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 105
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            Continued work on healthy school nutrition-environment activities, especially promoting the Healthy
            School Challenge at regional and State meetings. This program is designed to help encourage schools
            and parents to continue promoting healthy lifestyles for children; and
            In partnership with the U.S. Department of Health and Human Services, released the 2005 Dietary
            Guidelines for Americans and disseminated Finding Your Way to a Healthier You. The guidelines
            provided 41 key recommendations (23 for the overall population and 18 additional ones for specific
            population groups). This nutrition information is useful for the development of educational materials
            and tools and for the design and implementation of nutrition-related programs (including Federal
            food, nutrition education, and information programs). The Dietary Guidelines and the consumer
            brochure are available at www.healthierus.gov/dietaryguidelines/index.html.
Exhibit 53: Trends to Promote Healthier Eating Habits and Lifestyles

                                                                                 Fiscal Year Actual
                             Trends                             2001      2002         2003       2004    2005
 Healthy Eating Index (HEI) for People with Incomes under        N/A       N/A          N/A        N/A     N/A
 130% of Poverty
 Healthy Eating Index for the U.S. Population                    N/A       N/A         N/A        N/A      N/A


While data on trends in diet quality from 2001 to 2005 currently is unavailable, evidence from other sources
indicates that problems related to diet quality persist, both among low-income people and the general
population. USDA’s ongoing efforts during this period to promote behavior change, both through the nutrition
assistance programs and its Nation-wide nutrition policy and promotional efforts have been focused on
motivating changes to reduce and prevent excessive weight gain and obesity.

KEY OUTCOME: Increase Nutrition Information Available to the Public
In 2005, USDA labs released four dietary databases and search tools to the public. Users can access the
databases and tools at www.ars.usda.gov. One of the major releases was the National Nutrient Database for
Standard Reference, Release 18. The release featured the most essential nutrients in foods commonly eaten in
the U.S. As the American diet changes, updates to this database are essential to know if the public can get
adequate amounts of essential nutrients. The database is available for use on personal digital assistants,
personal computers and web-based applications. Availability in a variety of formats has increased access to
and utilization of this valuable national resource by the scientific community, private industry and the general
public.

USDA also released the latest “What We Eat in America” survey. This survey is the dietary component of the
National Health and Nutrition Examination Survey conducted by the U.S. Department of Health and Human
Services. The results are for the years 2001-2002 for 9,701 participants of the only nationally representative
study of its kind. Additionally, the 13,000 foods covered by this survey can be accessed at
www.ars.usda.gov/Services/docs.htm?docid=7783. The Department also released a set of products from the
Community Nutrition Research Group. These products support the revised Food Guide Pyramid, including an
updated pyramid servings database, search tool and Intake Tables. The USDA Center for Nutrition Policy and
Promotion is using the tools in MyPyramidTracker.gov and for revising the Healthy Eating Index.




 USDA
    106             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 54: Increasing Nutrition Information Available to the Public

                                                                                             Fiscal Year 2005
                    Annual Performance Goals and Indicators                       Target          Actual        Result
 4.2.2      Determine food consumption patterns of Americans, including                                          Met
            those of different ages, ethnicity, regions, and income levels.
            Provide sound scientific analyses of U.S. food consumption
            information to enhance the effectiveness and management of the
            Nation's domestic food and nutrition assistance programs.
               Number of reports from the USDA food and nutrient database.           4             4


Analysis of Results
In 2005, USDA scientists compared four popular diet plans in a controlled study for one year. It found that
intake of protein, carbohydrate or fat was less important than total calories. Adherence to any diet was the best
predictor of weight loss and adherence to the more restrictive diets was lower than to those that offered more
balanced menu choices. Weight loss was correlated with improvements in such risk factors for heart disease
as blood cholesterol.

As part of long-term research on nutrient needs, USDA scientists determined that high protein intake did not
have an effect on calcium metabolism or bone health adversely. Substituting some plant protein for animal
protein in the diets of female volunteers had no impact on these health outcomes. This research definitively
refutes the long-held belief that eating large portions of meat would lead to acidification in the body. This
acidification, the process of conversion into an acid, would increase turnover of calcium from the skeleton.

USDA scientists have increased public access to data and easy-to-use tools. Such information can help users
apply state-of-the-art nutrition knowledge to dietary improvement. This assists consumers in improving their
dietary choices to stem the increase in obesity and improve the health of people across the Nation.

Exhibit 55: Trends in Determining Food Consumption Patterns.

                                                                              Fiscal Year Actual
                     Trends                             2000        2001        2002         2003       2004      2005
 Number of reports from the USDA food and                 6           4           5            6          7         4
 nutrient database.
 N/A = Not Available



OBJECTIVE 4.3: IMPROVE FOOD PROGRAM MANAGEMENT AND CUSTOMER SERVICE


Exhibit 56: Resources Dedicated to Improve Food Program Management and Customer Service

                     USDA Resources Dedicated to Objective 4.3       FY 2005 Actual       Percent of Goal 1
                    Program Obligations ($ Mil)                          278.2                 0.55%
                    Staff Years                                          1,213                40.75%




                                                                                                                 USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                      107
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Introduction
USDA is committed to ensuring that nutrition-assistance programs serve those in need at the lowest possible
costs and with a high level of customer service. Managing Federal funds for nutrition assistance effectively,
including prevention of program error and fraud, is a key component of the President’s Management Agenda.
USDA focused on maintaining strong performance in the food stamp payment-accuracy rate as its key
performance goal in this area.

Overview
USDA continued to improve management by reducing program errors and continuing its use of electronic
technology to enhance customer service. After achieving the critical goal in FY 2004 of completing the
nationwide implementation of electronic benefit transfer (EBT) for the delivery of food-stamp benefits, the
Department continues to work with its State agency partners to ensure timely re-procurement of EBT systems
awarded on the basis of free and open competition. EBT is an electronic system that allows a recipient to
authorize transfer of his or her government benefits from a Federal account to a retailer account to pay for
products received. The National Food Stamp payment error rate, which fell to a record low of 6.64 percent in
FY 2003, improved further in FY 2004 to 5.88 percent.

These efforts are part of USDA’s long-term core commitment to prevent waste, inefficiency and abuse that
diverts taxpayer resources from the core purposes and goals of these programs. The sheer size of these
programs demands that the utmost attention be given to applying efficient management practices and, to the
extent possible, preventing errors in distributing benefits. Customer service deficiencies undermine the
effectiveness of the programs in reaching clients with the benefits they need. Maintaining public trust in
Federal nutrition-assistance programs is vital to their success and continued support.

Challenges for the Future
The nutrition-assistance structure is intended to serve people in special circumstances and settings. USDA
must shape its management approach because of the need to make services convenient and accessible to
participants. Additionally, State and local Governments must deliver the programs. Thus, the Department
must address erroneous and improper payment problems by providing monitoring and technical assistance.
This approach requires adequate numbers of trained staff supported by a modernized information technology
infrastructure to ensure full compliance with national program standards. The staff must also prevent or
minimize error, waste and abuse.

To meet the challenge of continued improvements in FSP payment accuracy, USDA continues to dedicate
resources to this area. Despite these efforts, two significant challenges will impact future success.
Congressional action has changed the quality-control process, lowering the risk of penalties for poor State
agency performance. It remains to be seen how States will react to these changes. Additionally, State budgets
have been and will continue to be extremely tight. This factor could hurt State performance in the payment-
accuracy arena. USDA will continue to provide technical assistance and support to maintain payment
accuracy in the context of this changing program environment.




 USDA
    108             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Key Outcome:              Maintain a High Level of Integrity in the Nutrition Assistance Programs
While 2005 data are unavailable, Food Stamp payment accuracy reached a record high in 2004. This record
demonstrates strong efforts in this area, resulting in significant error reductions during the past several years.
Even small changes in the food stamp error rate can save millions of dollars.
Exhibit 57: Increase Efficiency in Food Management

                                                                                         Fiscal Year 2005
                    Annual Performance Goals and Indicators                   Target         Actual          Result
 4.3.1      Increase Food Stamp Payment Accuracy Rate                         93.5%           N/A           Deferred

Analysis of Results
The FY 2005 food stamp payment accuracy rate will become available in June 2006 and will be reported in
the FY 2006 PAR.

The FY 2004 food stamp payment accuracy rate posted a record high of 94.12 percent. Of the total FY 2004
payment error rate of 5.88 percent, 4.48 percentage points are attributed to the over-issuance of benefits. The
other 1.4 percentage points are attributed to the under-issuance of benefits. Twenty-eight State agencies,
including Illinois, New York, and Texas, achieved a payment error rate of less than 6 percent. California, with
a payment error rate of 6.32 percent, continued to improve from its FY 2002 error rate of 14.84 percent. Eight
State agencies experienced a high enough error rate to be subject to sanction if they do not improve in FY
2005.

USDA efforts such as the Partner Web (an intranet for State food stamp agencies) and the National Payment
Accuracy Workgroup (consisting of representatives from USDA headquarters and regional offices)
contributed significantly to this success. Members made timely and useful payment accuracy-related
information and tools available across the U.S. Additionally, the Department continued to use an early
detection system to target States that may be experiencing a higher incidence of errors, based on preliminary
quality-control data.
Exhibit 58: Trends in Increased Efficiency in Food Management

                                                                           Fiscal Year Actual
                   Trends                                2001       2002          2003           2004         2005
 Food Stamp Payment Accuracy Rate                       91.3%      91.7%         93.4%          94.1%          N/A


USDA’s close working relationship with its State partners during the last several years and program changes
to simplify rules and reduce the potential for error have caused consistent increases in the food stamp payment
accuracy rate. The most important factor in maintaining improved performance in this area is the need for
State partners to continue and renew their commitment to utilize findings from the quality control system. To
support State improvement, USDA will continue efforts with the National Payment Accuracy Workgroup to
share best practice methods and strategies. USDA will also continue to resolve Quality Control liabilities
through settlements. These settlements require States to invest in specific program improvements.




                                                                                                              USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                    109
                                   ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




STRATEGIC GOAL 5: PROTECT AND ENHANCE THE NATION’S
NATURAL RESOURCE BASE AND ENVIRONMENT
High-quality soils and abundant supplies of clean water are the essential building blocks for production
agriculture and forestry, rural economies, and all life. America’s soils, water supplies and range and forest
ecosystems produce the raw materials for food, clothing, shelter, and energy. They also provide the settings
for recreation and other activities valued by Americans.

USDA is the steward of 192.5 million acres of National Forests and Grasslands. It also helps farmers and
ranchers make sound conservation decisions on the 1.5 billion acres of private lands in the U.S. The
Department’s activities are designed to help ensure that the Nation’s natural resources meet the long-term
needs of a dynamic society with an increasing population.

All of USDA’s conservation activities on public and private lands are cooperative efforts with State and local
Governments, conservation districts, tribal governments and local interests. In the future, USDA will increase
its emphasis on cooperative conservation. This will ensure that natural resource use and management
decisions are made by the people most affected by the decisions and most knowledgeable about local
conditions.

OBJECTIVE 5.1: IMPLEMENT THE PRESIDENT’S HEALTHY FORESTS INITIATIVE AND OTHER
ACTIONS TO IMPROVE MANAGEMENT OF PUBLIC LANDS


Exhibit 59: Resources Dedicated to Protect the Nation’s Resource Base and Environment

                                                                           FY 2004
                     USDA Resources Dedicated to Objective 5.1    Actual       Percent of Goal 5
                    Program Obligations ($ Mil)                   796.0            17.04%

                    Staff Years                                   36,402             68.37%



Introduction
USDA and the U.S. Department of the Interior (DOI) are implementing tools provided by the Healthy Forests
Initiative (HFI). They are also using authorities provided by the Healthy Forests Restoration Act of 2003
(HFRA) to expedite planning for projects to reduce fire hazards. HFI provides land managers with the ability
to reduce the accumulation of hazardous fuels and restore wildfire-damaged areas effectively. HFRA is
designed to reduce the threat of destructive wildfires while upholding environmental standards. The USDA-
DOI projects largely consist of removing excess vegetation and controlled burning (collectively, hazardous
fuel treatment) to reduce the risk from catastrophic wildfires. In 2005, these wildfires burned more than
7 million acres. The integration of the fire hazard reduction program with other restoration programs and the
overall increase in hazardous fuel treatment is the direct result of HFRA authorities and USDA leadership.
The Department will continue to treat hazardous fuel and be adequately prepared to suppress wildland fires as
the primary method of protecting the Nation’s natural resources.




 USDA
    110             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Overview
USDA is implementing HFI and HFRA through collaboration among Federal, State and local Governments,
and non-Governmental organizations. The Department is using HFRA authorities to work with communities
to develop Community Wildfire Protection Plans (CWPP). CWPP reduce wildland fire hazards in areas
surrounding communities. USDA’s partners are also engaged in this process. Additionally, the Department is
working to integrate vegetation management programs better to achieve restoration goals. This effort will
increase efficiency throughout the Department. USDA is also an active participant in the President’s
Conference on Cooperative Conservation. This conference directs Federal agencies that oversee
environmental and natural resource policies to promote cooperative conservation in full partnership with
States, local Governments, tribes and individuals. This event will have lasting impact on USDA’s role in
Federal land management and fire-risk reduction. The Department is also cooperating with DOI, State and
local Governments, and non-Governmental partners to update the 10-year Comprehensive Strategy
Implementation Plan. This plan identifies a collaborative approach for reducing wildland fire risks to
communities and the environment.

Other 2005 accomplishments include:
            Implementing more than 70 percent of hazardous fuel treatments in areas located near communities;
            Fuels reduction efforts remaining comparable from the previous year due to more work being done in
            high-priority locations around communities and areas with high resource values;
            The continued development of LandFire, an interagency landscape-scale fire, ecosystem and
            vegetation-mapping project. The information provided in LandFire will help land managers make
            informed decisions for reducing wildland fire risks across landscapes;
            Increased use of naturally ignited fires to achieve management objectives to more than 250,000 acres
            in 2005; and
            Initiated 9 pilot projects to develop a new performance measure. The measure will evaluate the
            effectiveness of strategically placed hazardous fuel reduction and other integrated vegetation
            treatments to change the undesired outcome of problem wildfires. The new performance measure
            will be finalized in 2006 for full implementation in 2007.

Hazardous fuel reduction treatments help protect life and property by reducing the intensity of wildland fires.
While the FY 2004 fire season was considered light with just a little more than 550,000 National Forest
Systems acres burned, wildfires consumed more than 6.7 million acres nationally. These totals include
508,751 acres in the Southern Nevada Complex and 49,515 acres, 109 residences and 106 other buildings in
the School Fire in Washington State. This ongoing trend of catastrophic wildfire seasons indicates that the
USDA, along with all other land-management agencies, must increase efforts to reduce fire hazards using
hazardous fuels funds. Reduction of excess vegetation decreases fire hazards while also improving firefighter
and public safety. In 2005, USDA treated 2.6 million acres to remove excess vegetation. Approximately
1.66 million of these acres were treated specifically to reduce hazardous fuels. An additional 700,000 acres
were treated using other restoration and rehabilitation programs (i.e., wildlife habitat, watershed, timber and
pest management that also reduced fire hazards). USDA also used naturally ignited fires to achieve
management objectives on more than 250,000 acres. To improve upon this level of accomplishment in 2006




                                                                                                        USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               111
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



and reduce the risk of future catastrophic wildland fires, USDA must use available resources to work
collaboratively with all Federal, State and local entities.

Selected Results in Research, Extension and Statistics
Fire Research Findings Used to Update National Monument Fire Plan—The research in question
comes from the findings of a USDA-supported Oregon State University project related to woodland
expansion, fire history and plant community response following fire. The National Park Service, the Bureau of
Land Management and the U.S. Fish and Wildlife Service have implemented the findings in their southeast
Oregon, northeast California, and northwest Nevada locations. For example, the Lava Beds National
Monument has incorporated the findings to develop fire prescriptions for different plant communities.
USDA’s Paisley district implemented an aggressive fuels reduction program based on the fire history
findings. Although the Winter Fire threatened the area, treated areas were easy to defend and burned at low
intensity.

Prescribing Fire Information to Promote Productive Land—Oklahoma landowners get prescribed
fire information to restore their land to productive and biologically diverse states through an Oklahoma State
University educational program. With partial funding from USDA, in the past 5 years, more than 200 field
days have been presented based on this program, and attended by more than 10,000 participants. During this
time, the number of acres burned in Oklahoma's forested habitat has increased by more than 100 percent to
approximately 800,000 acres. This increase has resulted in habitat improvement for the endangered red-
cockaded woodpecker and black-capped vireo. The improvement also benefits the wild turkey and white-
tailed deer.

Integrating USDA Surveys to Evaluate Conservation Programs—A USDA project integrated two
major surveys based on different sampling frames. This integration has enhanced the Department’s capacity to
analyze the implications of its conservation programs. It has also improved the cost-effectiveness of USDA’s
surveys and reduced respondent burden.

Grass Islands Combat Invasive Weeds—USDA research indicates that planting grass in a series of
small "seed source islands" across western rangelands might be the most environmentally friendly way to
reclaim lands overrun by invasive weeds. To create the islands, scientists planted a small plot of the desired
species—such as purple coneflower or cudweed sagewort—in the middle of a weedy area. These plots are
fenced off for several years to allow new plants to grow. In the meantime, the weeds around the island either
are eaten by livestock or removed by other means. Once the fence is removed, the desirable plant moves
naturally into the area where weeds once grew. So far, the introduced plants have spread as far as 100 feet
from the islands. Seed source islands keep costs down because only small areas have to be planted and they
require fewer chemicals than other re-vegetation methods.

Challenges for the Future
Future challenges include ensuring public and firefighter safety while protecting lands still threatened by fire
in forests dense with vegetation and fuel. Additional challenges are the continued drought conditions in many
western states and the expansion of communities into previously uninhabited wildlands. This expansion
makes up what is known as the wildland-urban interface (WUI). The historical trend is for increasing impact




 USDA
    112             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



from wildland fire. As drought continues and communities expand into forested areas, the potential increases
for even more deadly and damaging fires. Another challenge is the cost of containing wildfires.

Existing hazardous fuel treatment performance is currently based on outputs of acres treated and the number
of acres treated as a result of local collaboration. The Office of Management and Budget (OMB) Performance
Assessment Rating Tool (PART) determined in 2002 that the Wildland Fire Management Program did not
demonstrate effective results. The PART, designed by OMB to assess and improve program performance,
found that the program lacked baselines and targets for recently created performance measures developed as a
result of the “10-year Comprehensive Strategy for the National Fire Plan.” Research has shown that
treatments to remove excess vegetation for fire and restoration purposes can impact the size and behavior of
wildland fires dramatically. The current performance measures for hazardous fuel treatment do not capture the
results of treatments on the landscape. They track acres treated as an output measure. USDA and DOI are
developing a new performance measure that demonstrates the impact of treatments beyond the direct area
treated. This new performance measure is part of a pilot process to identify spatially explicit treatments for
hazardous fuel reduction and the restoration of fire-adapted ecosystems at the landscape scale. For more
information on the PART, visit www.whitehouse.gov/omb/budget/fy2004/pma/usdawildlandfire.pdf.
Performance measures are being reviewed and improved by USDA and DOI in consultation with partners as
part of the update of the 10-Year Comprehensive Strategy Implementation Plan. This plan was launched in
2005 in response to the Wildland Fire Leadership Council. For more information, visit
www.fireplan.gov/leadership/about.html.

Recent research has identified 73 million acres administered by USDA and 59 million acres of privately-
owned forest land at high risk of ecologically destructive wildland fire. Commercial utilization of excess
vegetation has been identified as one way to lower the cost of Government forest fuel-reduction treatments. A
barrier to expanding forest biomass utilization is the limited market for this material because of reduced forest
products’ processing capacity in much of the Western U.S. Much of this material is small diameter and non-
traditional species. This factor presents a further barrier to utilization where forest products processing
capacity remains. Title II of HFRA authorizes measures to further commercial use of biomass. A significant
challenge for USDA and DOI is to expand the acreage of hazardous fuel and restoration treatments with
available funding by increasing the commercial utilization of hazardous fuel. USDA and DOI hope to promote
the increased use of biomass as a domestic source of energy. They are developing a strategy to encourage
biomass utilization.

Key Outcome:          Reduce the Risk from Catastrophic Wildland Fire
Implementing HFI and other actions to improve management of public lands involves the integration of
several key USDA programs that manage vegetation. The hazardous fuel reduction program is a key piece of
the effort to implement HFI and HFRA. Strategically placed treatments by USDA and partners will continue
to increase the Department’s ability to protect communities by reducing fire size and altering fire behavior.




                                                                                                         USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  113
                                       ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 60: Hazardous Fuel Reduction

                                                                                                             Fiscal Year 2005
                    Annual Performance Goals and Indicators                                     Target           Actual*                Result
 5.1.1       Number of acres of hazardous fuel treated that are in the                        1,281,000         1,187,854                Met
             wildland-urban interface and the percentage identified as high
             priority through collaboration consistent with the 10-year
             Comprehensive Strategy Implementation Plan
 5.1.2       Number of acres of hazardous fuel treated that are in Condition                   292,000             371,980            Exceeded
             Classes 2 or 3 in Fire Regimes 1, 2, or 3 outside the wildland-
                             1
             urban interface
 5.1.3       Number of acres of: hazardous fuel treated with direct funds                      927,000            1,085,408           Exceeded
             outside the wildland urban interface in Condition Class 1 in Fire
             Regimes 1, 2, and 3 and in all Condition Classes in Fire
             Regimes 4 and 5; and hazardous fuel reduction for all Fire
             Regimes as a secondary benefit of other vegetation
             management that improve Condition Class.
 1
     Fire regime condition class is an indicator for the degree of departure of forest areas from historical vegetation and disturbance patterns.
 *
     Estimated.


Analysis of Results
USDA met its 2005 performance goals for protecting the health of the Nation’s forests and other public lands
through aggressive pro-active efforts. These increased efforts have significant value to all Americans. They
protect human life and whole communities that reside in areas adjacent to national forests and other public
lands. The 2.6 million acres treated in FY 2005 met the Department’s FY 2005 goal. Improved management
tools and favorable weather conditions allowed teams to treat significantly more at-risk acreage. This
Condition Class in areas with frequent fire occurrence (Fire Regimes 1, 2, and 3). USDA is increasing
emphasis on the contribution of all vegetation management programs toward the restoration of fire adapted
ecosystems and reducing the threat of catastrophic fire. Activities to restore forest health, wildlife habitat,
watershed condition, and timber productivity in fire-adapted ecosystems contributed over 730,000 acres
toward these goals in FY 2005.

In FY 2006, USDA plans to reduce fire hazard on 1.8 million acres using direct funding and on an additional
800,000 acres as a secondary benefit from other management activities. The USDA Strategic Plan proposes
that the Department treat 11 million cumulative acres by FY 2007. The successes of FY 2005 moved USDA
well on its way toward meeting this goal.
Exhibit 61: Trends in Treatment of Hazardous Fuel

                                                                                                  Fiscal Year Actual
                           Trends                                         2001           2002             2003            2004            2005
 Number of acres of hazardous fuel treated that are in                   611,551        764,364        1,114,106       1,311,000       1,187,854
 the wildland-urban interface and the percentage that
 are identified as high priority through collaboration
 consistent with the 10-year Comprehensive Strategy
 Implementation Plan
 Number of acres of hazardous fuel treated that are in                     N/A             N/A          293,127         441,000         371,980
 Condition Classes 2 or 3 in Fire Regimes 1,2, or 3
 outside the wildland-urban interface




 USDA
     114            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                              Fiscal Year Actual
                           Trends                           2001       2002         2003           2004     2005
 Number of acres of: hazardous fuel treated with direct     N/A         N/A         N/A        848,000    1,085,408
 funds outside the wildland urban interface in Condition
 Class 1 in Fire Regimes 1, 2, and 3 and in all Condition
 Classes in Fire Regimes 4 and 5; and hazardous fuel
 reduction for all Fire Regimes as a secondary benefit of
 other vegetation management that improve Condition
 Class.


USDA tracked hazardous fuel treatment with a single performance measure for all treatment activities prior to
FY 2001 and initiation of the National Fire Plan. In FY 2003, an additional performance measure based on
fire regime condition class was established to track treatment on forests more susceptible to catastrophic
wildland fire because of excess vegetation resulting from fire exclusion. Performance in FY 2004 and FY
2005 included the contribution of improved Condition Class resulting from resource restoration activities and
direct hazardous fuel reduction treatments.

OBJECTIVE 5.2: IMPROVE MANAGEMENT OF PRIVATE LANDS


Exhibit 62: Resources Dedicated to Improving Management of Private Lands

                     USDA Resources Dedicated to Objective 5.2     FY 2005 Actual   Percent of Goal 5
                    Program Obligations ($ Mil)                        3,874.4          82.96%
                    Staff Years                                        16,844           31.63%



Introduction
Non-Federal land makes up almost 70 percent of the total area of the U.S. The vast majority of that land is
privately-owned cropland, rangeland, pastureland and forestland. Millions of individuals decide how to use
and manage these lands. Their decisions form the foundation of a substantial and vibrant agricultural economy
that provides food and fiber for the Nation. Thus, the productive and sustainable use of natural resources or
private lands is a vital goal for the Nation. Achieving the dual goals of a productive and profitable agricultural
sector and a high-quality environment requires good management based on sound science and practical
technology. Sound environmental stewardship of private agricultural lands benefits wildlife and provides food
and fiber to Americans and the rest of the world. Conserving the Nation’s cropland, forests and grazing land
helps provide clean water and air, sustains productive capacity and protects soil productivity, and benefits
human and wildlife populations.

In 2005, USDA helped producers develop conservation plans for approximately 33 million acres. Its work
provided producers with a management tool to know the capability of their soils, condition of their rangeland
and woodlands, and requirements for irrigation. These plans provide the land user with the knowledge on how
best to use the land to continue supporting healthy plant, animal and human communities. USDA also
provided producers conservation cost-share benefits and incentive payments to help offset the cost of
installing conservation covers, riparian and grassland buffers, and maintaining sound conservation practices
while improving the productivity of agricultural lands. USDA’s most recent inventory of resource conditions
on non-Federal lands indicated that progress in controlling erosion is being maintained and that the loss of



                                                                                                            USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 115
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



wetlands has been halted. It also showed that net wetland gains have been achieved on agricultural land.
USDA’s technical and financial assistance to agricultural producers has been crucial in helping them address
both of these resource concerns.

Overview
USDA helps farmers and ranchers improve their management of the soil, water and related resources on non-
Federal lands. In 2005, the Department worked with natural resource managers to maintain and improve land
productivity and environmental quality by providing:
            Technical assistance tailored to the needs of individual farmers and ranchers;
            Financial assistance in the form of cost shares and incentive payments to apply key practices on
            working land;
            Easements and rental payments to protect sensitive land; and
            Financial and technical assistance enabling producers to restore lands damaged by natural disasters.

USDA also provides technical and financial assistance to State agencies. This assistance is designed to help
non-industrial private forest landowners better manage, protect and utilize their forest resources. Additionally,
the Department provides research, technology development, resources inventory and assessment programs.
These activities provide the information and effective tools resource managers need to be good stewards of the
Nation’s land and water.

In 2005, USDA provided technical assistance to hundreds of thousands of producers in planning and applying
conservation to better manage their soil and water resources. The Department’s assistance helped managers of
private lands maintain soil quality, protect water and air quality, and enhance wildlife habitats.

Selected Results in Research, Extension and Statistics
Assessing the Impact of Open Space and Potential Local Disamenities on Residential
Property Values—Researchers, with partial funding from USDA, are investigating the impact of open
space on residential property values in Berks County, Pennsylvania. The project demonstrated the
effectiveness of using the Geographic Information System (GIS). Researchers use GIS to investigate how
space impacts land use. These interactions affect house prices and the pattern of development that occurs over
time. Key findings provided Berks County officials with science-based knowledge to support their land use
decisions.

Cleaning The Water Supply—The prevention of agricultural pollution and mitigating existing pollutant
contamination are critical to the improved management of private land. A USDA grant allowed a project in
Florida to develop a scientific method of detecting the pathogen E. faecalis. This process will result in a new
instrument that detects pathogens and their sources rapidly and at low cost. Over the longer term, identifying
the sources of pathogens among agriculture, wildlife and human origin will enable strategically targeted
remediation and prevention methods, resulting in cleaner water supplies.

Understanding Use of Irrigation—USDA released the 2003 Farm and Ranch Irrigation Survey in
November 2004. The survey supplements the basic irrigation data collected during the full Census of
Agriculture. It provides one of the most complete, detailed profiles of irrigation in the U.S. The survey



 USDA
    116             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



features State-level data for irrigation practices and water usage. Results are available at
www.nass.usda.gov/census/.

Furrow Dikes Improve Water Infiltration for Crops—New preliminary data from USDA studies
indicate that furrow dikes—small basins formed in loosened soil between crop rows—may lead to the greater
absorption of water and reduced runoff during rain. This process will make more water available for crop use.
USDA found that, even in a wet growing season, the use of furrow dikes resulted in better water infiltration
and maintenance of soil moisture. Furrow diking is commonly used by farmers in the arid regions of the
western and northwestern U.S. on crops such as cotton, sorghum and potatoes. USDA scientists are adapting
furrow diking to accommodate the sloping crop sites often found in the southeastern states, where peanuts,
cotton and corn are grown. Slopes in topography lead to quick water runoff and ponding at lower elevations.
Furrow dikes capturing more rainfall could improve yield stability in non-irrigated cropping systems.

Pond Water Used to Grow Forage Crop—USDA has developed a unique way to reduce space-stealing
evaporation ponds in California—and nurture a new crop in the process. On the west side of California's San
Joaquin Valley, for every nine acres of land in production, one is needed for an evaporation pond. Farmers
who tend the region's heavily irrigated lands use these ponds to catch excess water runoff from saturated
fields. Despite the excess runoff, the ponds have been found to contain concentrated salts and trace elements,
including selenium, boron and arsenic. These elements can be toxic to wildlife and migratory birds seeking
water in California's desert. Now, in the sixth year of the project, USDA scientists are using water pumped
from evaporation ponds to nourish a tough and hardy forage crop—a salt-loving Bermuda grass—which
supports a herd of beef cattle. This technique of drying the pond's waters benefits growers and wildlife, and
helps make less-arable land profitable again.

Drift Software Aids Pesticide Spray Control—USDA and its university collaborators have released the
first user-friendly computer software for estimating droplet drift distances for pesticide spray applications.
This draft simulator, or DRIFTSIM, can help farmers and educators minimize pesticide drift by helping them
choose equipment, settings and techniques. To calculate the likelihood of pesticide drift, the program allows
pesticide spray operators and manufacturers to specify wind speed, droplet size and speed, nozzle height,
operating pressure, air temperature, and relative humidity. It also helps manufacturers design pesticide
formulations and pesticide spraying equipment to minimize drift potential of their products.

Wind Erosion Model Released—USDA is overseeing the implementation of the Wind Erosion Prediction
System (WEPS). WEPS can simulate weather, soil and crop conditions, and wind erosion daily, and project
the emission of the tiny dust particles. For the past 40 years, growers have made erosion-related decisions
based on a simple equation that did not take into account new advances in erosion science and computer
technology. Today, USDA personnel and farmers can use WEPS to formulate specific wind erosion control
practices. WEPS is designed for establishing a soil-stabilizing crop cover, setting up windbreaks and barriers,
and reducing the soil's erodibility by improving soil stability.

Serving the Public
Farmers, ranchers and private forest and other landowners manage two-thirds of the Nation’s land. They are
the primary stewards of U.S. soil, air and water. USDA assists them in adopting environmentally sound
management practices and provides information on soil quality, water management and quality, plant



                                                                                                       USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               117
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



materials, resource management and wildlife habitat. Additionally, USDA provides financial assistance to
agricultural producers to promote good stewardship of agricultural and environmentally sensitive lands.
USDA assists landowners and land managers in using this information and funding to implement sustainable
production techniques. Those who receive technical assistance and cost-share or incentive payments are more
likely to plan, apply and maintain conservation systems that support agricultural production and
environmental quality as compatible goals. In 2005, the Department assisted people in developing
conservation plans for approximately 33 million acres of cropland and grazing lands, and creating or restoring
260,000 acres of agricultural wetlands. USDA also administered long-term conservation contracts on over
34 million acres, representing environmentally sensitive cropland in all 50 States and Puerto Rico. By
establishing long-term conservation covers on cropland, USDA’s programs assure that Americans receive an
environmental annuity at a reasonable cost. These programs target land for enrollment precisely where the
conservation benefits are expected to have the greatest positive effect.

USDA’s technical experts help people in communities work together to protect their shared environment. The
assistance provided to State and local Governmental entities, tribes and private-sector organizations helps
them protect the environment and improve the standard of living and quality of life for the people they
represent. The monies provided to these communities preserve and protect the environment, which benefits
society as a whole.

USDA conducts research and develops and transfers technology, including conservation standards,
specifications and guidelines for conservation practices. The Department also collects and disseminates data
on water and soil conditions and related resources. The information and technical tools USDA develops and
the financial assistance it provides to resource managers help sustain natural resources. Department
information reaches a wide and diverse audience, with increasing emphasis on electronic communications
technology and web-enabled program application processes.

Challenges for the Future
Greater population densities exert greater pressures on the environment. As the landscape becomes a more and
more dense mosaic of developed areas scattered within agricultural and forested land, the need for
conservation increases while the options available to producers may be constrained. Additionally, if market
prices are favorable, agricultural producers may be enticed into leaving targeted, environmentally-sensitive
cropland in crop production rather than establishing long-term conservation covers or buffers. Natural
disasters and prolonged drought conditions may also reduce the effectiveness of USDA’s conservation
programs. USDA will continue to work with producers and conservation partners to implement conservation
practices successfully and preserve the Nation’s resources and environment.

Key Outcome:             Maintain the Productive Capacity of the Resource Base and Quality of the
                         Environment
Privately owned cropland, grazing lands and forestland represent a substantial and vibrant agricultural
economy that provides food and fiber for the Nation. In FY 2005, USDA’s conservation programs helped
producers maintain the productive capacity of approximately 33 million acres by developing and
implementing conservation plans on cropland and grazing land. This work helps support healthy and
productive plant, animal and human communities. Additionally, the conservation measures applied with
USDA assistance in the past continue to protect the landscape.


 USDA
    118             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



The basis for sound management of agricultural land is a conservation plan that helps each producer manage a
specific production unit. Each producer needs to know the capabilities of the soil of the farm’s fields and the
condition of rangeland and woodland that is part of the operation. In areas where irrigation is practiced,
producers also need forecasts of water supply to plan the year’s crops. In FY 2005, USDA continued to
increase emphasis on helping producers develop technically sound plans to provide a framework for their
activities. Implementing a conservation plan is the first step toward good land stewardship. Plans one year
beget better plans the next. Successfully implemented plans represent progress toward protecting soil, water
and related resources.

USDA’s conservation operations provide the basic resource inventory data, technical tools and
comprehensive-planning approach producers need to manage their soil and water resources well. The
Conservation Technical Assistance Program is the primary instrument through which USDA assists
agricultural producers and other land managers to plan environmentally and economically sustainable
operations. USDA provides technical and financial assistance to apply conservation practices through the
Environmental Quality Incentives Program and other programs authorized by the Farm Security Rural
Investment Act of 2002 (FSRIA). In FY 2005, USDA worked hard to ensure that this increasing level of
public investment in conservation was directed to solving high-priority resource concerns.
Exhibit 63: Maintain the Productive Capacity of the Natural Resource Base and the Quality of the
            Environment

                                                                                           Fiscal Year 2005
                    Annual Performance Goals and Indicators                       Target        Actual        Result
 5.2.1      Conservation plans written for cropland and grazing lands               30            33           Met
            (Mil acres)
 5.2.2      Cropland and grazing lands with conservation applied to protect the    8.5            9            Met
            resource base and environment (Mil acres)
 5.2.3      Reduction in the acreage of cropland soils damaged by erosion           3             3            Met
            (Mil acres).
 5.2.4      Number of comprehensive nutrient management plans applied             1,500         1,600          Met
 5.2.5      Increase Conservation Reserve Program (CRP) acres of riparian          1.75         1.75           Met
            and grass buffers (Mil acres)



Analysis of Results
USDA met its FY 2005 goals for helping producers plan for conservation efforts on U.S. private lands.
Conservation plans are essential to good management of soil and water resources. A conservation plan
describes the schedule of operations and activities needed to solve natural resource problems and take
advantage of opportunities. Conservation planning helps individual managers consider their operations within
the larger landscape to which a farm or ranch belongs. It also helps land managers consider the effects of their
actions on that wider environment. Managers can avoid actions that would damage natural resources offsite
while meeting their economic targets for the operation.

The targets for application of conservation methods and programs were also met. The availability of technical
expertise to help producers apply conservation methods is a major determinant of the rate at which producers
can act. In FY 2005, USDA continued to encourage technical-assistance providers in the private sector to




                                                                                                               USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                    119
                                    ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



come forward to help the Department implement its conservation programs. The long-term goal is to have a
land-management system that maintains a highly productive resource base for future generations.

Annual targets for the assistance USDA will provide for planning and application are based on data about
resource conditions and trends. This information was developed in resource inventories and covers priorities
identified in local, State and national plans. Conservation needs and available program resources are evaluated
to establish feasible annual targets.
Exhibit 64: Trends in Planning and Application of Improved Management of Cropland and Grazing Lands

                                                                                          Fiscal Year Actual
                          Trends                                 2001            2002           2003            2004            2005
 Conservation plans written for cropland and                      N/A             N/A            31.4           37.9             33
                          1
 grazing lands (Mil acres)                                                                     Baseline
 Grazing lands with conservation applied to protect               N/A             9.0             9.9            9.7              9
                                                2
 the resource base and environment (Mil acres)                                 Baseline
 Reduction in the acreage of cropland soils                       N/A             3.4             3.3            3.3              3
                                2
 damaged by erosion (Mil acres)                                                Baseline
 Comprehensive Nutrient Management Plans                          N/A           2,292           2,132           2,376           1,600
                  2
 applied (number)                                                              Baseline
 Increase CRP acres of riparian and grass buffers                 .95            1.24            1.45            1.65            1.75
 (Mil acres)                                                                                                   Baseline
 1
   Includes all planning reported as assistance provided through the CTA. Data for FY 2001-2002 are not comparable to later years. In FY
 2003, policy on planning was revised and reporting instructions were clarified.
 2
     Data include only land where conservation was applied with assistance from CTA.


USDA’s strategic plan for FY 2002-2007 set a strategic goal of helping producers apply needed conservation
treatment on 130 million acres during that period. For the FY 2002-2005 period, USDA had provided
assistance to improve management on almost 110 million acres.

As a voluntary program, the characteristics of land enrolled in the Conservation Reserve Program (CRP)
depend on which lands are offered for contracts. CRP provides technical and financial assistance to eligible
farmers and ranchers to address soil, water and related natural resource concerns on their lands in an
environmentally beneficial and cost-effective manner. Increasing the number of acres of riparian buffers and
grass filters is essential to providing cleaner water. The system intercepts sediment and nutrients before they
reach surface waters. USDA established a target of 1.75 million acres for FY 2005. This figure is an increase
of 110,000 acres from the prior fiscal year. USDA exceeded this target.

Challenges for the Future
A major challenge is to develop a practical and reliable tool to document the effects of conservation practices
on water and air quality. Better knowledge will enable USDA to focus programs on the most serious
problems. In 2005, The Department analyzed the initial results from the interagency effort—the Conservation
Effects Assessment Project (CEAP)—to identify areas in greatest potential need of conservation treatment. A
preliminary report will be released in early 2006. It will be followed in subsequent years by more refined
estimates of effects of conservation practices and systems. The information will cover reducing the movement
of sediment, nitrogen and phosphorus from agricultural operations.




 USDA
     120            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Key Outcome:             Ensure Diverse Wildlife Habitats
Wetlands are among the most biologically diverse areas on earth. They provide habitat for a rich mixture of
plants and animals, including many rare and endangered species. Wetlands also protect shorelines, filter
impurities from water, help control floodwaters, regulate water flow and decrease soil erosion. Since the early
1980s, USDA has focused increasing attention on protecting wetlands. The strategy for protecting wetlands
and wetland wildlife habitat relies heavily on encouraging private landowners to protect wetlands under long-
term or permanent easements offered through USDA’s Wetlands Reserve Program. This is a voluntary
conservation program that offers landowners the means and opportunity to protect, restore and enhance
wetlands on their property with the financial assistance of USDA. The Department also provides cost-share
benefits and incentive payments to producers enrolled in USDA’s Conservation Reserve Program, the aim of
which is to reduce agricultural runoff using riparian grassland buffers and to restore wetland acres. From the
inception of these programs through the end of 2004, USDA enrolled 34.9 million acres in CRP. This figure
includes 1.6 million acres of riparian buffers and grass filters and 1.9 million acres of wetlands and wetland
buffers. These numbers represent increased prime wildlife habitat and water storage capacity, as well as a net
increase in wetland acres on agricultural land. The Department also requires agricultural producers to protect
wetlands in order to participate in other USDA programs.
Exhibit 65: Ensure Diverse Wildlife Habitats

                                                                                               Fiscal Year 2005
                     Annual Performance Goals and Indicators                          Target        Actual        Result
 5.2.6      Agricultural wetlands created, restored or enhanced (thousand acres)      256.2          260           Met
 5.2.7      Increase CRP restored wetlands acres (Mil acres)                           1.99           1.96          Met



Analysis of Results
The target for the measure was met. The measure includes all land on which wetlands restoration or
improvement practices were applied in FY 2005 with technical or financial assistance.

In 1990, the U.S. set a goal of preventing any net loss of wetlands. USDA’s 2003 National Resources
Inventory found that the U.S. had reached and surpassed this goal, achieving net wetland gains on agricultural
land between 1997 and 2003. This progress resulted from USDA’s efforts to help people restore wetlands and
discourage conversion to agricultural and other uses.
Exhibit 66: Trends in Wetland Protection

                                                                               Fiscal Year Actual
                       Trends                           2001         2002          2003             2004           2005
 Agricultural wetlands created, restored or              N/A         321.2         288.9            239.7           260
 enhanced (Thousand acres)                                          Baseline
 Increase CRP restored wetlands acres (Mil              1.65          1.74          1.79            1.89            1.96
 acres)                                                                                                           Baseline


USDA anticipates that this upward trend in wetlands protection will continue. The President has set a new
goal of increasing the acreage of wetlands. During the next 5 years, the new goal includes:
            Restoring and creating at least 1 million acres of wetlands;


                                                                                                                    USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                        121
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



            Improving the quality of at least 1 million acres of wetlands; and
            Protecting at least 1 million acres of wetlands.

The benefits of these outcomes will be enhanced by further efforts to improve associated uplands and river
habitat. For example, ducks will have the wetland they need for food, as well as dry land habitat nearby for
nesting. USDA will work in cooperation with U.S. Departments of the Interior and Transportation, the U.S.
Environmental Protection Agency, the Army Corps of Engineers and the National Oceanic and Atmospheric
Administration to achieve the President’s goals.

One challenge in wetlands protection is developing better tools for tracking wetlands status and values.
Another is improving coordination among Federal agencies with a role in wetlands protection.

Additionally, better coordination is needed on remote sensing and ground-level data collection on wetlands
gain, loss and quality. USDA will continue to work with other Federal agencies and conservation partners to
ensure wetlands protection.

CRP wetlands and wetland buffers increase prime wildlife habitat and water storage capacity, contributing to
a net increase in wetland acres on agriculture land. USDA established a target of 1.99 million acres for FY
2005. This target is an increase of 100,000 acres from the prior year. While the Department has reached 77
percent of this target, it does not expect to meet it by the end of the fiscal year.

Efforts to increase wetlands acres and provide adequate enrollment opportunities include several initiatives.
One involves allowing the enrollment of larger wetland complexes and playa lakes beyond the 100-year
floodplain. Playa lakes are areas that hold water for only a short period of time. Despite these efforts, there is
an inherent uncertainty in knowing how soon these initiatives will start generating demand for enrollment in
wetlands initiatives. One wetlands initiative, Bottomland Hardwoods, has had lower than anticipated
enrollment to date. Another potential performance shortfall is the availability of technical assistance
resources. USDA intends to use private-sector vendors, not-for-profit organizations and public-sector agencies
as additional resources for providing technical assistance.




 USDA
    122             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                   ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




FISCAL YEAR 2005 PROGRAM OBLIGATIONS INCURRED
The following table depicts the component agencies and staff offices of the U.S. Department of Agriculture with total program level dollars for each account allocated to each
objective. The program level dollars are displayed in millions and have been rounded to the nearest tenth. These are current year obligations from unexpired funds. They do not
include prior year upward or downward obligation adjustments. An account’s funding was allocated to more than one objective when the amount for each objective was significant
and could be identified. The table provides a general indication of the funding dedicated to each objective. Staff office and departmental management accounts generally support
all USDA objectives and, in most cases, have been reallocated equally among all strategic objectives.
Exhibit 67: USDA Program Obligations

                                                                            USDA FY 2005 Program Obligations
                                                                                                  ($ in Millions)
                                               Program                                                               Objectives
 Agency                     Account           Obligations   1.1      1.2        1.3       1.4       2.1        2.2        3.1     3.2    4.1    4.2     4.3      5.1      5.2
 OSEC           Office of the Secretary          14.0       0.7      0.7        0.7       0.7       1.4        1.4        1.4     1.4    0.9    0.9     0.9      1.4      1.4
 OCFO           OCFO                             10.0       0.5      0.5        0.5       0.5       1.0        1.0        1.0     1.0    0.7    0.7     0.7      1.0      1.0
                Working Capital Fund             242.0      12.1     12.1      12.1      12.1      24.2       24.2       24.2     24.2   16.1   16.1   16.1     24.2      24.2
 OCIO           OCIO                             57.0       2.9      2.9        2.9       2.9       5.7        5.7        5.7     5.7    3.8    3.8     3.8      5.7      5.7
                Common Computing                 155.0      7.8      7.8        7.8       7.8      15.5       15.5       15.5     15.5   10.3   10.3   10.3     15.5      15.5
                Environment
 DA             Agriculture Buildings and        233.0      11.7     11.7      11.7      11.7      23.3       23.3       23.3     23.3   15.5   15.5   15.5     23.3      23.3
                Facilities Rental Payments
                Departmental Administration      37.0       1.9      1.9        1.9       1.9       3.7        3.7        3.7     3.7    2.5    2.5     2.5      3.7      3.7
                Hazardous Materials               5.0       0.3      0.3        0.3       0.3       0.5        0.5        0.5     0.5    0.3    0.3     0.3      0.5      0.5
                Management
 OCR            Office of Civil Rights           23.0       1.2      1.2        1.2       1.2       2.3        2.3        2.3     2.3    1.5    1.5     1.5      2.3      2.3
 OC             OC                               17.0       0.9      0.9        0.9       0.9       1.7        1.7        1.7     1.7    1.1    1.1     1.1      1.7      1.7
 OIG            OIG                              81.0       4.1      4.1        4.1       4.1       8.1        8.1        8.1     8.1    5.4    5.4     5.4      8.1      8.1
                IG Assets Forfeiture Funds        1.0       0.1      0.1        0.1       0.1       0.1        0.1        0.1     0.1    0.1    0.1     0.1      0.1      0.1
 OGC            OGC                              38.0       1.9      1.9        1.9       1.9       3.8        3.8        3.8     3.8    2.5    2.5     2.5      3.8      3.8
 OCE            OCE                              12.0       0.6      0.6        0.6       0.6       1.2        1.2        1.2     1.2    0.8    0.8     0.8      1.2      1.2
 NAD            NAD                              14.0       0.7      0.7        0.7       0.7       1.4        1.4        1.4     1.4    0.9    0.9     0.9      1.4      1.4
 OBPA           OBPA                              8.0       0.4      0.4        0.4       0.4       0.8        0.8        0.8     0.8    0.5    0.5     0.5      0.8      0.8




                                                                                                                                                                        USDA
                                                                                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                          123
                                                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                               USDA FY 2005 Program Obligations
                                                                                                     ($ in Millions)
                                                 Program                                                                Objectives
 Agency                  Account                Obligations    1.1      1.2        1.3       1.4       2.1        2.2        3.1       3.2     4.1    4.2    4.3    5.1     5.2
 HSS            Homeland Security Staff             1.0        0.1      0.1        0.1       0.1       0.1        0.1        0.1       0.1     0.1    0.1    0.1    0.1     0.1
 ERS            Economic Research                  76.0       21.6      2.0        3.0      10.0       4.3        4.3        1.5       2.4     2.8    7.7    5.3     -     11.1
 NASS           NASS                               151.0      106.0      -          -        7.9      29.7         -          -        3.2      -      -      -      -      4.2
 ARS            ARS Salaries and Expenses         1,179.0       -        -       110.8        -         -          -        110.8    667.3      -    106.1    -    92.0    92.0
                Buildings and Facilities           113.0        -        -        10.6        -         -          -        10.6      64.0      -    10.2     -     8.8     8.8
                ARS-No Year Funds                   3.0         -        -         0.3        -         -          -         0.3       1.7      -     0.3     -     0.2     0.2
                Miscellaneous Contributed          17.0         -        -         1.6        -         -          -         1.6       9.6      -     1.5     -     1.3     1.3
                Funds
 CSREES         Extension Activities               467.0      32.7      18.7      42.0      23.4      23.4       23.4       23.4      56.0      -    79.4     -    72.4    72.4
                Research and Education             677.0      60.9      60.9      88.0      20.3      20.3       20.3       47.4      94.8      -    54.2     -    104.9   104.9
                Activities
                Integrated Activities               1.0        0.0      0.0        0.0       0.0       0.0        0.0        0.1       0.5      -     0.1     -     0.1     0.1
                Native Americans Institutions        -          -        -          -         -         -          -          -         -       -      -      -      -       -
                Endowment Fund
                Community Food Projects             5.0        0.4      0.2        0.5       0.3       0.3        0.3        0.3       0.6     0.4    0.5     -     0.8     0.8
                Section 2501                        6.0         -        -          -         -         -          -          -         -       -      -     6.0     -       -
                Biodiesel Fuel Education           16.0         -        -        16.0        -         -          -          -         -       -      -      -      -       -
                Program
 APHIS          Salaries and Expenses             1,292.0     155.0      -          -         -         -          -          -      1,137.0    -      -      -      -       -
                Buildings and Facilities            4.0         -        -          -         -         -          -          -        4.0      -      -      -      -       -
                Trust Funds                        27.0         -        -          -         -         -          -          -       27.0      -      -      -      -       -
 FSIS           FSIS-Salaries & Expenses          (14.0)        -        -          -         -         -          -        (14.0)      -       -      -      -      -       -
                FSIS-No Year Funds                 102.0        -        -          -         -         -          -        102.0       -       -      -      -      -       -
                Trust Funds                        (1.0)        -        -          -         -         -          -        (1.0)       -       -      -      -      -       -
 GIPSA          Salaries and Expenses              36.0       36.0       -          -         -         -          -          -         -       -      -      -      -       -
                Inspection and Weighing             6.0        6.0       -          -         -         -          -          -         -       -      -      -      -       -
                Services
 AMS            Marketing Services                 78.0       78.0       -          -         -         -          -          -         -       -      -      -      -       -
                Payments to States and              4.0        4.0       -          -         -         -          -          -         -       -      -      -      -       -
                Possessions




 USDA
    124             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                               USDA FY 2005 Program Obligations
                                                                                                     ($ in Millions)
                                                 Program                                                                Objectives
  Agency                   Account              Obligations    1.1      1.2        1.3       1.4       2.1        2.2        3.1     3.2   4.1   4.2   4.3   5.1    5.2
  AMS           Payments to States and              6.0        6.0       -          -         -         -          -          -       -     -     -     -     -      -
 (cont.)        Possessions - Florida
                Perishable Ag. Commodities         10.0       10.0       -          -         -         -          -          -       -     -     -     -     -      -
                Act Fund
                Funds for Strengthening            871.0      871.0      -          -         -         -          -          -       -     -     -     -     -      -
                Markets/Income/Supply
                Wool Research Development           4.0        4.0       -          -         -         -          -          -       -     -     -     -     -      -
                and Promotion Trust Fund
                Expenses & Refunds,                189.0      189.0      -          -         -         -          -          -       -     -     -     -     -      -
                Inspection & Grading of Farm
                Products
 RMA            Administrative and Operating       70.0         -        -          -       70.0        -          -          -       -     -     -     -     -      -
                Expenses
                Federal Crop Insurance            4,180.0       -        -          -      4,180.0      -          -          -       -     -     -     -     -      -
                Corporation Fund
 FSA            Salaries and Expenses             1,299.0       -      201.3        -      1,097.7      -          -          -       -     -     -     -     -      -
                Salaries and Expenses              106.0        -       19.1        -       86.9        -          -          -       -     -     -     -     -      -
                /Transfer to CCC
                State Mediation Grants              4.0         -        -          -        4.0        -          -          -       -     -     -     -     -      -
                Agricultural Credit Insurance      17.0         -        -          -       17.0        -          -          -       -     -     -     -     -      -
                Fund (Prog.)
                Emergency Conservation             85.0         -        -          -       85.0        -          -          -       -     -     -     -     -      -
                Program/Transfer to CCC
                Agricultural Credit Insurance       9.0         -        -          -        9.0        -          -          -       -     -     -     -     -      -
                Fund
                Agricultural Credit Insurance     1,629.0       -        -          -      1,629.0      -          -          -       -     -     -     -     -      -
                Fund-Direct (Fin.)
                Agricultural Credit Insurance      501.0        -        -          -      501.0        -          -          -       -     -     -     -     -      -
                Fund-Guar. (Fin.)
                CCC Export Loans Program           176.0        -        -          -      176.0        -          -          -       -     -     -     -     -      -
                Account
                CCC Export Loans Program            4.0         -        -          -        4.0        -          -          -       -     -     -     -     -      -
                Account (Admin.)
                Commodity Credit Corporation      2,073.0       -        -       248.8     1,824.2      -          -          -       -     -     -     -     -      -




                                                                                                                                                                   USDA
                                                                                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                 125
                                                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                          USDA FY 2005 Program Obligations
                                                                                                ($ in Millions)
                                               Program                                                             Objectives
  Agency                    Account           Obligations   1.1     1.2       1.3      1.4        2.1        2.2        3.1     3.2   4.1   4.2   4.3   5.1     5.2
 FSA            CCC Export Guarantee             800.0       -       -         -      800.0        -          -          -       -     -     -     -     -       -
 (cont.)        Financing Account
                CCC Export Guaranteed Loans       6.0        -       -         -        6.0        -          -          -       -     -     -     -     -       -
                Liquidating Account
                CCC Tobacco Trust Fund          (341.0)      -       -         -      (341.0)      -          -          -       -     -     -     -     -       -
                CCC Farm Storage Facility        87.0        -       -         -       87.0        -          -          -       -     -     -     -     -       -
                Loans Financing Account
                CCC Farm Storage Facility        14.0        -       -         -       14.0        -          -          -       -     -     -     -     -       -
                Loans Program Account
 NRCS           Conservation Operations          866.0       -       -         -         -         -        86.6         -       -     -     -     -     -    779.4
                Conservation Operations          26.0        -       -         -         -         -         2.6         -       -     -     -     -     -     23.4
                Watershed Rehabilitation         29.0        -       -         -         -         -        29.0         -       -     -     -     -     -       -
                Programs
                Biomass Research and              1.0        -       -        1.0        -         -          -          -       -     -     -     -     -       -
                Development Program
                Farm Security and Rural         1,805.0      -       -         -         -         -          -          -       -     -     -     -     -    1,805.0
                Investment Programs
                Resource Conservation and        52.0        -       -         -         -         -        26.0         -       -     -     -     -     -     26.0
                Development
                Watershed Surveys and             7.0        -       -         -         -         -         2.8         -       -     -     -     -     -      4.2
                Planning
                Watershed and Flood              478.0       -       -         -         -         -        95.6         -       -     -     -     -     -    382.4
                Prevention Operations
                Waterbank Program                -1.0        -       -         -         -         -          -          -       -     -     -     -     -     (1.0)
                Forestry Incentives Program      -3.0        -       -         -         -         -          -          -       -     -     -     -     -     (3.0)
 RD             Rural Community                 3,485.0      -       -         -         -      1,045.5    2,439.5       -       -     -     -     -     -       -
                Advancement Program
                Salaries and Expenses            653.0       -       -         -         -       195.9     457.1         -       -     -     -     -     -       -
 RHS            Rental Assistance Program       1,053.0      -       -         -         -         -       1,053.0       -       -     -     -     -     -       -
                Rural Housing Assistance         82.0        -       -         -         -         -        82.0         -       -     -     -     -     -       -
                Grants




 USDA
    126             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                    ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                            USDA FY 2005 Program Obligations
                                                                                                  ($ in Millions)
                                                 Program                                                             Objectives
  Agency                    Account             Obligations   1.1     1.2       1.3       1.4       2.1        2.2        3.1     3.2   4.1   4.2   4.3   5.1    5.2
 RHS            Mutual and Self-Help Housing       94.0        -       -         -         -         -        94.0         -       -     -     -     -     -      -
 (cont’d)       Grants
                Rural Housing Insurance Fund       780.0       -       -         -         -         -       780.0         -       -     -     -     -     -      -
                (Prog.)
                Rural Housing Insurance Fund       177.0       -       -         -         -         -       177.0         -       -     -     -     -     -      -
                (Liq.)
                Rural Housing Insurance Fund      3,314.0      -       -         -         -         -       3,314.0       -       -     -     -     -     -      -
                Direct (Fin.)
                Rural Housing Insurance Fund-      108.0       -       -         -         -         -       108.0         -       -     -     -     -     -      -
                Guar. (Fin.)
                Rural Community Facility          1,769.0      -       -         -         -         -       1,769.0       -       -     -     -     -     -      -
                Loans-Direct (Fin.)
                Farm Labor Housing                 149.0       -       -         -         -         -       149.0         -       -     -     -     -     -      -
                Rural Community Facility           10.0        -       -         -         -         -        10.0         -       -     -     -     -     -      -
                Loans-Guar. (Fin.)
                MFH Preservation Demo               6.0        -       -         -         -         -         6.0         -       -     -     -     -     -      -
                Revolving Fund
 RBCS           Rural Cooperative                  24.0        -       -         -         -       24.0         -          -       -     -     -     -     -      -
                Development Grants
                Renewable Energy Programs          23.0        -       -         -         -       23.0         -          -       -     -     -     -     -      -
                Rural Development Loan Fund        20.0        -       -         -         -       20.0         -          -       -     -     -     -     -      -
                (Prog.)
                Rural Economic Development         21.0        -       -         -         -       21.0         -          -       -     -     -     -     -      -
                Grants
                Rural Economic Development          5.0        -       -         -         -        5.0         -          -       -     -     -     -     -      -
                Loans (Prog.)
                Rural Economic Development         46.0        -       -         -         -       46.0         -          -       -     -     -     -     -      -
                Loans (Fin.)
                Rural Development Loan Fund        165.0       -       -         -         -       165.0        -          -       -     -     -     -     -      -
                -Direct (Fin.)
                Rural Business and Industry        17.0        -       -         -         -       17.0         -          -       -     -     -     -     -      -
                Direct Loans (Fin.)
                Rural Business and Industry        101.0       -       -         -         -       101.0        -          -       -     -     -     -     -      -
                Direct Loans-Guar. (Fin.)
                Rural Empowerment                  39.0        -       -         -         -       39.0         -          -       -     -     -     -     -      -
                Zones/Enterprise Communities




                                                                                                                                                                USDA
                                                                                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                 127
                                                                           ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                                    USDA FY 2005 Program Obligations
                                                                                                          ($ in Millions)
                                                      Program                                                                Objectives
 Agency                  Account                     Obligations    1.1      1.2        1.3       1.4       2.1        2.2        3.1     3.2   4.1   4.2   4.3   5.1   5.2
 RUS            RETRF (Prog. Acct.)                     281.0        -        -          -         -       196.7      84.3         -       -     -     -     -     -     -
                Rural Telephone Bank                     5.0         -        -          -         -        3.5        1.5         -       -     -     -     -     -     -
                Program Account
                Distance Learning and Medical           24.0         -        -          -         -        16.8       7.2         -       -     -     -     -     -     -
                Link Programs
                High Energy Cost Grants                 35.0         -        -          -         -        24.5      10.5         -       -     -     -     -     -     -
                Distance Learning                       871.0        -        -          -         -       609.7     261.3         -       -     -     -     -     -     -
                Telemedicine Direct Loan (Fin.
                Acct.)
                Rural Development Insurance             25.0         -        -          -         -        17.5       7.5         -       -     -     -     -     -     -
                Fund (Liq. Acct.)
                Rural Telephone Bank (Fin.             1,437.0       -        -          -         -      1,005.9    431.1         -       -     -     -     -     -     -
                Acct.)
                RETRF (Fin. Acct. - Direct)           16,935.0       -        -          -         -      11,854.5   5,080.5       -       -     -     -     -     -     -
                Rural Water & Waste Disposal           4,030.0       -        -          -         -      2,821.0    1,209.0       -       -     -     -     -     -     -
                Loans (Direct Fin. Acct.)
                RETRF (Liq. Acct.)                     1,070.0       -        -          -         -       749.0     321.0         -       -     -     -     -     -     -
                Rural Telephone Bank (Liq.              146.0        -        -          -         -       102.2      43.8         -       -     -     -     -     -     -
                Acct.)
                Appalachian Reg. Commission             13.0         -        -          -         -        9.1        3.9         -       -     -     -     -     -     -
                Transfer
                National Sheep Industry                  1.0         -        -          -         -        0.7        0.3         -       -     -     -     -     -     -
                Improvement Center -
                Revolving and Program
                Account
 FAS            Trade Adjustment Assistance             27.0       27.0       -          -         -         -          -          -       -     -     -     -     -     -
                for Farmers
                Salaries and Expenses                   216.0      175.0     41.0        -         -         -          -          -       -     -     -     -     -     -
                McGovern-Dole International             87.0         -       87.0        -         -         -          -          -       -     -     -     -     -     -
                Food for Education
                Title I Ocean freight Differential       4.0         -       4.0         -         -         -          -          -       -     -     -     -     -     -
                Grants
                Miscellaneous Contributed                1.0         -       1.0         -         -         -          -          -       -     -     -     -     -     -
                Funds




 USDA
    128             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                                 USDA FY 2005 Program Obligations
                                                                                                       ($ in Millions)
                                                   Program                                                                Objectives
  Agency                   Account                Obligations   1.1      1.2         1.3       1.4       2.1        2.2        3.1     3.2     4.1       4.2     4.3     5.1      5.2
 FAS            P.L.480 (Liq. Acct.)                 23.0        -      23.0          -         -         -          -          -       -       -         -       -       -        -
 (cont’d)
                P.L.480 (Prog.)                      105.0       -     105.0          -         -         -          -          -       -       -         -       -       -         -
                P.L 480 Title II                    1,710.0      -     1,710.0        -         -         -          -          -       -       -         -       -       -         -
                P.L.480-Direct (Fin. Acct.)          179.0       -     179.0          -         -         -          -          -       -       -         -       -       -         -
                Debt Reduction (EAI) Fin. Acct.      489.0       -     489.0          -         -         -          -          -       -       -         -       -       -         -
 FNS            Food Donations Programs                -         -        -           -         -         -          -          -       -       -         -       -       -         -
                Food Stamp Program                 32,096.0      -        -           -         -         -          -          -       -    31,877.8   182.9   35.3      -         -
                Commodity Assistance                 200.0       -        -           -         -         -          -          -       -     200.0       -       -       -         -
                Program
                Food Program Administration          142.0       -        -           -         -         -          -          -       -       -        2.8    139.2     -         -
                Special Supplemental Nutrition      5,200.0      -        -           -         -         -          -          -       -    5,171.0    14.8    14.2      -         -
                Program (WIC)
                Child Nutrition Programs           12,103.0      -        -           -         -         -          -          -       -    12,069.5   18.5    15.0      -         -
 FS             Land Acquisition Title VIII           3.0        -        -           -         -         -          -          -       -       -         -       -      3.0        -
                Capital Improvement and              (3.0)       -        -           -         -         -          -          -       -       -         -       -     (3.0)       -
                Maintenance
                Forest and Rangeland                 (8.0)       -        -           -         -         -          -          -       -       -         -       -     (8.0)       -
                Research
                State and Private Forestry             -         -        -           -         -         -          -          -       -       -         -       -       -         -
                National Forest System              (53.0)       -        -           -         -         -          -          -       -       -         -       -     (53.0)      -
                Wildland Fire Management            (40.0)       -        -           -         -         -          -          -       -       -         -       -     (38.4)    (1.6)
                Payments to States                   310.0       -        -           -         -         -          -          -       -       -         -       -       -      310.0
                Payments to States, Northern         (1.0)       -        -           -         -         -          -          -       -       -         -       -     (1.0)       -
                Spotted Owl Guarantee
                Management of National                6.0        -        -           -         -         -          -          -       -       -         -       -      6.0        -
                Forest Lands for Subsistence
                Uses
                Working Capital Fund                 188.0       -        -           -         -         -          -          -       -       -         -       -     188.0       -
                Land Acquisition                     90.0        -        -           -         -         -          -          -       -       -         -       -     90.0        -




                                                                                                                                                                                 USDA
                                                                                                        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             129
                                                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                                  USDA FY 2005 Program Obligations
                                                                                                        ($ in Millions)
                                                 Program                                                                       Objectives
  Agency                   Account              Obligations     1.1       1.2         1.3       1.4       2.1            2.2        3.1           3.2     4.1        4.2     4.3     5.1             5.2
 FS             Federal Payment, Payments to       89.0          -         -           -         -         -              -          -             -       -          -       -       -             89.0
 (cont’d)       States, National Forests Fund
                Timber Roads, Purchaser             1.0          -         -             -       -         -              -          -             -       -          -       -      1.0             -
                Elections
                Roads and Trails for States,       14.0          -         -             -       -         -              -          -             -       -          -       -     14.0             -
                National Forest Fund
                Timber Salvage Sales                 -           -         -             -       -         -              -          -             -       -          -       -       -              -
                Expenses, Brush Disposal           12.0          -         -             -       -         -              -          -             -       -          -       -     12.0             -
                Range Betterment Fund               2.0          -         -             -       -         -              -          -             -       -          -       -      2.0             -
                Acq. Of Lands for NF, Special       1.0          -         -             -       -         -              -          -             -       -          -       -      1.0             -
                Acts
                Payment to Minnesota from the       2.0          -         -             -       -         -              -          -             -       -          -       -       -             2.0
                National Forests Fund
                Restoration of Forest Lands         1.0          -         -             -       -         -              -          -             -       -          -       -      1.0             -
                Acq. of Lands to Complete           2.0          -         -             -       -         -              -          -             -       -          -       -      2.0             -
                Land Exchanges
                Operation and Maintenance           8.0          -         -             -       -         -              -          -             -       -          -       -      8.0             -
                Quarters
                Timber Sale Pipeline                2.0          -         -             -       -         -              -          -             -       -          -       -      2.0             -
                Restoration Fund
                Recreation Fee Demonstration       46.0          -         -             -       -         -              -          -             -       -          -       -     46.0             -
                Program
                Land Between the Lakes              3.0          -         -             -       -         -              -          -             -       -          -       -      3.0             -
                Management Fund
                Legacy Fund                        61.0          -         -             -       -         -              -          -             -       -          -       -       -             61.0
                Payments to Counties,               7.0          -         -             -       -         -              -          -             -       -          -       -       -             7.0
                National Grasslands
                Cooperative Work Trust Fund        114.0         -         -             -       -         -              -          -             -       -          -       -     114.0            -
                Reforestation Trust Fund            31.0         -         -             -       -         -              -          -             -       -          -       -      31.0            -
 Total                                           111,336.0    1,830.0   2,988.7     570.0    10,959.0   19,286.3    18,286.1       377.7     2,162.8    49,384.7    542.1   278.2   796.0      3,874.4
 Total by
                                                                                16,348                          37,572                    2,541                    50,205                   4,670
 Goals




 USDA
    130             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                    ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




FISCAL YEAR 2005 STAFF YEARS
The following table depicts the component agencies and staff offices of the U.S. Department of Agriculture with estimated staff years obligated to each objective. Staff years have
been rounded to the nearest tenth and have been allocated to more than one objective when the amount of each objective was significant and could be identified. Staff offices and
departmental management generally support all USDA objectives and, in most cases, have been reallocated equally among all objectives.

                                                                                        USDA FY 2005 Staff Years
                                 Staff                                                                          USDA Objectives
                      Agency    Years         1.1       1.2        1.3        1.4           2.1       2.2          3.1        3.2       4.1       4.2       4.3        5.1        5.2
               OSEC                  87          4.4      4.4         4.4        4.4          8.7       8.7          8.7          8.7     5.8       5.8       5.8         8.7        8.7
               OCFO               1524         76.2      76.2       76.2       76.2         152.4     152.4        152.4      152.4     101.6     101.6     101.6      152.4      152.4
               OCIO               1113         55.7      55.7       55.7       55.7         111.3     111.3        111.3      111.3      74.2      74.2      74.2      111.3      111.3
               DA                  599         30.0      30.0       30.0       30.0          59.9      59.9         59.9       59.9      39.9      39.9      39.9       59.9       59.9
               OC                  109           5.5      5.5         5.5        5.5         10.9      10.9         10.9       10.9       7.3       7.3       7.3       10.9       10.9
               OIG                 594         29.7      29.7       29.7       29.7          59.4      59.4         59.4       59.4      39.6      39.6      39.6       59.4       59.4
               OBPA                  67          3.4      3.4         3.4        3.4          6.7       6.7          6.7          6.7     4.5       4.5       4.5         6.7        6.7
               OGC                 322         16.1      16.1       16.1       16.1          32.2      32.2         32.2       32.2      21.5      21.5      21.5       32.2       32.2
               OCE                   71          3.6      3.6         3.6        3.6          7.1       7.1          7.1          7.1     4.7       4.7       4.7         7.1        7.1
               HSS                       7       0.4      0.4         0.4        0.4          0.7       0.7          0.7          0.7     0.5       0.5       0.5         0.7        0.7
               OCR                 191           9.6      9.6         9.6        9.6         19.1      19.1         19.1       19.1      12.7      12.7      12.7       19.1       19.1
               NAD                 106           5.3      5.3         5.3        5.3         10.6      10.6         10.6       10.6       7.1       7.1       7.1       10.6       10.6
               ERS                 439        124.8      11.8       17.2       58.0          24.8      24.8          8.9       13.6      16.0      44.4      30.8            -     63.9
               NASS               1366        946.6       9.6            -     98.4         232.2           -        0.8       24.6           -         -         -          -     50.5
               ARS                8919              -         -   3,302.0           -             -         -      859.0     2,158.0          -   304.0           -   1,069.0    1,069.0
               CSREES              451           9.0      3.0       30.0       15.0         100.0      24.0         41.0       18.0      85.0      10.0      41.0         5.0      70.0
               APHIS              6761        811.3           -          -          -             -         -            -   5,949.7          -         -         -          -          -
               FSIS               9761              -         -          -          -             -         -    9,761.0            -         -         -         -          -          -
               GIPSA               690        690.0           -          -          -             -         -            -          -         -         -         -          -          -
               AMS                3029       3,029.0          -          -          -             -         -            -          -         -         -         -          -          -
               RMA                 512              -         -          -    256.0               -         -      256.0            -         -         -         -          -          -
               FSA                5566              -   640.6            -   4,564.0              -         -            -          -         -         -         -          -    361.2




                                                                                                                                                                                            USDA
                                                                                                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                131
                                                                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                                                                     USDA FY 2005 Staff Years
                                          Staff                                                                                  USDA Objectives
                       Agency             Years        1.1         1.2        1.3          1.4           2.1           2.2          3.1            3.2       4.1       4.2         4.3         5.1            5.2
               FSA Non-Federal             10220             -    270.9             -    8,256.0               -             -            -              -         -           -         -            -    1,693.0
               NRCS                        12346             -           -          -            -             -             -            -              -         -           -         -            -   12,346.0
               RD                           6666             -           -          -            -     1,999.8     4,666.2                -              -         -           -         -            -             -
               FAS                           994       805.1      188.9             -            -             -             -            -              -         -           -         -            -             -
               FNS/CNPP                     1488             -           -          -            -             -             -            -              -   425.0      241.0      822.0              -             -
               FS                          35560             -           -          -            -             -             -            -              -         -           -         -   34,848.8          711.2
               Total                    109,558        6,655      1,364       3,589       13,487         2,836         5,194       11,406          8,643      845        919       1,213      36,402          16,844
               Total by Goals*                                           25,095                                8,030                      20,049                       2,977                         53,246

               *Goal and objective totals have been rounded to the nearest whole number. Totals may not add due to rounding.




 USDA
    132             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                   ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




DATA ASSESSMENT OF PERFORMANCE MEASURES
STRATEGIC GOAL 1: ENHANCE ECONOMIC OPPORTUNITIES FOR AGRICULTURAL PRODUCERS

Objective 1.1:              Expand International Marketing Opportunities
Key Outcome:               Improve International Marketing Opportunities
1.1.1       Dollar value of trade preserved through FAS staff interventions and trade agreement
            monitoring ($Mil)
            Completeness of Data—Data for the World Trade Organization and tariff rates are projected
            estimates based on results posted to the performance tracking system within the Foreign Agricultural
            Service. Data for successfully retaining and assuring U.S. trade access to export markets are
            projected estimates based on results posted during the first three quarters of FY 2004. Fourth quarter
            estimates were derived using the average quarterly reporting and discounting the results to reflect any
            large, one-time annual events not expected to be repeated in the final quarter. If any trade access
            disputes are resolved successfully by the end of the fiscal year, USDA will update this data
            accordingly.
            The primary sources of trade data are U.S. Customs, which was absorbed into the U.S. Department
            of Homeland Security, information compiled by the U.S. Census Bureau, the USDA publication
            “Foreign Agricultural Trade of the United States,” and other databases. For some products, trade data
            are not recorded. Estimating the potential value of a sanitary and phytosanitary accomplishment may
            be a challenge, especially where new exports to a previously closed market are concerned. In arriving
            at these estimates, USDA considers such factors as similar exports by other countries, the importing
            countries’ respective purchasing power and sales into comparable markets. In addition to trade data,
            other sources include market reports compiled by USDA and industry estimates.
            Reliability of Data—Data are highly reliable and used by agency and Department officials to
            highlight successes in the trade-policy arena.
            Quality of Data—USDA uses an automated performance tracking system to collect and analyze
            actual performance data. The data are collected from the Department’s network of overseas offices
            and headquarters staff conducting trade compliance and enforcement activities, and providing trade
            negotiation support to the U.S. Trade Representative (USTR). An established procedure is
            maintained to review each reported success for verification and the prevention of double counting.
            There often is a lag time between reporting successful resolution of trade issues and reporting the
            estimated value to U.S. agriculture. This also can happen with independent verification through the
            U.S. Government’s official trade statistics. There is no known remedy immediately available to
            address this problem.
Exhibit 68: Performance Threshold for 1.1.1

                                                 Threshold Documentation Table
                        Performance Goal                                                 Performance Thresholds
                                                                  Owner    Target
                                                                                     Exceeded      Met      Unmet
 1.1.1      Dollar value of trade preserved through FAS staff     FAS       2,000     > 2,500    2,500 to   <1,500
            interventions and trade agreement monitoring ($Mil)                                   1,500




                                                                                                            USDA
                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               133
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                            Threshold Documentation Table
                       Performance Goal                                                   Performance Thresholds
                                                               Owner       Target
                                                                                       Exceeded     Met      Unmet

 Rationale for Met Range:
 Annual targets for this measure, based on five years of program history, have demonstrated that the performance levels
 are controlled by international parties. USDA annual targets reflect U.S. expectations for successfully addressing
 international compliance with trade agreements and resolving actual U.S. trade access issues that arise so that domestic
 exports can continue. Additionally, the level of international cooperation and agreement with U.S. proposed trade
 negotiations depends on international parties. A met or exceeded target reflects USDA successes in addressing barriers
 to U.S. trade. An unmet target can mean that USDA monitoring activities prevented noncompliance.



OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC DEVELOPMENT AND TRADE
CAPACITY BUILDING

Key Outcome:             Support Foreign Food Assistance
1.2.1       Number of mothers, infants and school children receiving daily meals and take-home
            rations through McGovern-Dole International Food for Education and Child Nutrition
            Program
The data for the McGovern-Dole International Food for Education and Child Nutrition Program are monitored
and evaluated through the application of a biannual survey designed by the USDA’s NASS. The survey
methodology and reporting details are listed in the Government Publication, “The Global Food for Education
Pilot Program: A Review of Project Implementation and Impact,” Appendix 1, pages 289-305, February 2003.
            Completeness of Data—All cooperating sponsors who participate as program delivery partners
            are required to follow an exact established survey methodology developed by the USDA. The survey
            covers data on food rations distributed and school enrollment and promotions to the next grade level.
            While the biannual survey results supplied cover the first and third quarters of the fiscal year, there is
            a 30-day lag time between the survey’s completion, coordination and delivery to USDA. Projected
            estimates between these times are provided through ongoing correspondence with the program
            organizations. All estimates and results are based on the previous year’s signed agreements since the
            signatures occur during the fourth quarter of the previous fiscal year.
            Annual performance targets take into account a one-year lag time for the food aid to arrive in the
            country. During the first quarter of FY 2004, the FY 2003 agreements for food were delivered to the
            countries. During the second quarter, approximately half of the agreements provided counties food
            for direct feeding. During the third quarter, all of the agreements provided food rations. For most of
            the fourth quarter, few food rations were distributed as schools are on summer break.
            Reliability of Data—Data are reliable, of good quality and used by Department officials to
            highlight successes in the trade policy arena.
            Quality of Data—Data collected following the USDA-developed and required survey tool depend
            on the program participant’s ability to interview food recipients. Access to recipients during the
            survey period may depend upon social conditions, civil unrest and weather and transportation
            conditions.




 USDA
    134             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 69: Performance Threshold for 1.2.1

                                              Threshold Documentation Table
                    Performance Goal                                                           Performance Thresholds
                                                             Owner          Target
                                                                                          Exceeded         Met          Unmet
 1.2.1      Number of mothers, infants and school              FAS            2.2          > 1.50         1.50 to       < 1.10
            children receiving daily meals and take-                                                       1.10
            home rations through McGovern-Dole
            International Food for Education and Child
            Nutrition Program

 Rationale for Met Range:
 An initial annual threshold is set at 90 percent of the original pilot program target. A new threshold will be evaluated after
 three years of actual data are collected.



OBJECTIVE 1.3 EXPAND ALTERNATIVE MARKETS FOR AGRICULTURAL PRODUCTS

Key Outcome:              Increase the Purchases of Biobased Products by Federal Agencies, Resulting in
                          Increased Demand for Farm Commodities and Increased Investment in
                          Processing and Manufacturing Activity Based in Rural America
1.3.1       Number of groupings of biobased products designed for procurement
Data to support designation of biobased products for procurement by rulemaking are obtained from a number
of sources. First, manufacturers and vendors of such products are identified and contacted. USDA asks for
their cooperation in providing data and other product information necessary for the designation of an item by
rulemaking. Second, product samples are requested from manufacturers and vendors for biobased content
testing. Third, product-manufacturing information also is requested from manufacturers and vendors to
support an analysis of several environmental factors associated with the use of the product and its life-cycle
cost. Finally, the Department asks manufacturers and vendors for the results of industry-accepted performance
tests against which their products have been tested.
            Completeness of Data—These data are used to develop the required information on generic
            groupings of biobased products for use in designation rulemaking. They are developed in cooperation
            with manufacturers and vendors of biobased products that fall under the umbrella of a designation.
            Data used meet the statutory requirements for designation rulemaking.
            Reliability of Data—Data are gathered from cooperating manufacturers and vendors. Then, these
            data are used in analyses to determine the biobased content of a range of products within a generic
            grouping and the environmental attributes and life-cycle costs of these products. The data are used in
            tests that determine American Society for Testing and Materials (ASTM) compliance. This
            compliance is named for ASTM International, a major standards-setting organization that develops
            consensus standards using participants from industry, academia and Government. Its standards are
            used widely around the world. The results from analyses of a range of products then are used to
            characterize the generic groupings considered consistent with statutory requirements.
            Quality of Data—The quality of the data used in analyses is high. Samples of products to be tested
            for biobased content are handled consistently with ASTM-specified processes. Information is
            gathered for analysis of environmental attributes and life-cycle costs, which is required to support an



                                                                                                                         USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                              135
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




            ASTM-compliant analytic framework. Information is gathered from manufacturers and vendors for
            analysis of the environmental and health effects of using the products and the life-cycle costs
            associated with their use (life-cycle costs are measured over the life of the products, including
            disposal costs, and stated in current dollars), as opposed to simply the purchase price of the product.
Exhibit 70: Performance Threshold for 1.3.1

                                             Threshold Documentation Table
                                                                                       Performance Thresholds
                    Performance Goal                    Owner         Target      Exceeded      Met         Unmet
 1.3.1      Number of groupings of biobased             OEPNU           4            >3         1-3           <1
            products designated for procurement

 Rationale for Met Range:
 Ranges will be re-evaluated each year for reasonableness and identification of a historical trend. The current ranges
 reflect the cooperation level of manufacturers and vendors in working with OEPNU to develop data required for
 designation of generic groupings by rulemaking.



OBJECTIVE 1.4: PROVIDE RISK MANAGEMENT AND FINANCIAL TOOLS TO FARMERS AND
RANCHERS

Key Outcome:              Improve Economic Viability of Farmers and Ranchers
1.4.1:      Increase the percentage of beginning, racial and ethnic minority farmers and women
            farmers financed by USDA
1.4.2:      Reduce average processing time for direct loans
1.4.3:      Reduce average processing time for direct loans
The Farm Loan Program (FLP) makes direct and guaranteed farm ownership and operating loans to family-
size farmers and ranchers unable to obtain commercial credit. The data reside primarily in the Program Loan
Accounting System (PLAS), Guaranteed Loan System (GLS) and FLP Databases. Web-based reports are the
primary means of measuring Farm Loan Program performance. USDA reviews these reports quarterly to
monitor progress toward achieving performance goals.
            Completeness of Data—Data reported are year-to-date actual as of September 30.
            Reliability of Data—Farm Loan Program data are considered reliable. To help ensure data
            reliability, internal controls are built into the systems. System enhancements and reviews also have
            contributed to the overall reliability. Additionally, USDA reviews system reports to monitor program
            performance. Comprehensive internal control reviews are conducted in State offices annually to
            ensure sound loan-making decisions and that program implementation complies with statutes and
            regulations. Finally, since most Farm Loan Program data originate from USDA’s accounting system,
            it is subject to an OIG audit.
            Quality of Data—The data used in this report are collected for multiple purposes. They are
            gathered throughout the normal lending process without significant additional burden or analytical
            resources needed.




 USDA
    136             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 71: Performance Threshold for 1.4.1, 1.4.2 and 1.4.3

                                             Threshold Documentation Table
                                                                                 Performance Thresholds
                    Performance Goal                 Owner        Target     Exceeded        Met        Unmet
 1.4.1      Increase the percent of loans to        FFAS/FSA       35%        >35.5%        34.5 to     <34.5%
            beginning and socially disadvantaged                                            35.5%
            farmer/ranchers

 Rationale for Met Range:
 Management determination based on previous year results.
 1.4.2      Reduce average processing time for      FFAS/FSA       40         >40.5         35.5 to     <35.5
            direct loans                                                                     40.5

 Rationale for Met Range:
 Management determination based on previous year results.
 1.4.3 Reduce average processing time for       FFAS/FSA           14.5       >15.0       14.0 to15.0   <14.0
       direct loans

 Rationale for Met Range:
 Management determination based on previous year results.



Key Outcome:              Reduce the Economic Risk of American Agricultural Producers
1.4.4       Increase the value of risk protection provided to agricultural producers through
            FCIC-sponsored insurance
The value of risk protection denotes the amount of insurance in effect protecting and stabilizing the
agricultural economy. USDA’s value projection target is based on projections developed in November 2003,
forecasted participation and conditions current at that time. The baseline model uses the latest information
from the crop insurance program and combines it with USDA baseline projections for major crops. These
crops include corn, wheat, soybeans, sorghum, barley, rice and cotton. In making the projections, the model
holds various factors constant, such as premium rates and average coverage level. The model assumes that all
non-major crops behave consistently with other USDA projections for major crops. The baseline model is a
tool for developing budget projections contained in Presidential budget requests. The budget and performance
projections for the crop insurance program mainly depend on the baseline projections from numerous USDA
agencies.
            Completeness of Data—The data used in conjunction with performance information is based on
            actual data reported through the end of the third quarter. To provide the annual data, USDA projects
            the results for the fourth quarter of the fiscal year based on prior year performance. Analysis has
            shown that normally 99 percent of the final actual data will be reported to USDA during the first
            quarter of the next fiscal year. The Department receives the actual data from insurance companies. It
            then maintains data through two integrated processing systems that validate the information
            transmitted by insurance companies. The data then are sent through the system to generate all
            accounting functions. These processing systems provide a mechanism to ensure that data received are
            accurate, errors are corrected quickly and timely monthly accounting reports are provided.
            Reliability of Data—USDA deems this information to be reliable. The insurance companies
            receive data from the producers and transmit them to USDA. Once received, the Department takes



                                                                                                          USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              137
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




            extensive steps to verify the data’s accuracy and validity. The Standard Reinsurance Agreement
            (SRA) also provides reinsured companies with disincentives for not following prescribed guidelines
            and procedures. While the data are deemed reliable, a recent audit by OIG found that the RMA
            information technology environment might be vulnerable to errors, misuse, abuse, unauthorized
            access, disruption of service and willful destruction. RMA generally agreed with these findings and
            has made substantial progress in implementing the agreed to recommendations.
            Quality of Data—Data are projected based on historical performance and the target information
            uses data dependent upon the baseline projections from numerous USDA agencies. To the extent that
            any of the USDA projections are inaccurate, the projection of value also will be inaccurate.
Exhibit 72: Performance Threshold for 1.4.4

                                                Threshold Documentation Table
                                                                                          Performance Thresholds
                    Performance Goal                     Owner         Target      Exceeded           Met           Unmet
 1.4.4      Increase the value of risk protection      FFAS/RMA         40.0         >42.0        38.0 to 42.0      <38.0
            provided to agricultural producers
            through FCIC-sponsored insurance
            ($ Bil)

 Rationale for Met Range:
 Annual targets for this measure, based on five years of program history, have consistently seen a variability of plus or
 minus two for each fiscal year.



STRATEGIC GOAL 2: SUPPORT INCREASED ECONOMIC OPPORTUNITIES AND IMPROVED
QUALITY OF LIFE IN RURAL AMERICA

Objective 2.1:             Expand economic opportunities through USDA financing of
businesses
Key Outcome:              Improve Rural Quality of Life through Home Ownership Opportunities Provided
Business program data are collected in various systems and ways. The finance office records and reports total
loan and grant obligations as of the date the obligation is executed. These data are collected as part of the
obligation process. Additionally, RD uses one of its own systems, Guaranteed Loan System (GLS), to collect
additional information to satisfy reporting requirements, and for management and evaluation purposes. This
information includes the number of jobs created or saved. Data on delinquency status mostly are reported by
lenders directly to GLS. In other cases, USDA staff reports delinquency information.
            Completeness of Data—Business program data are considered final and complete as of
            September 30 each year. Other than year-end closing adjustments, once a year is reported, it is not
            revisited.
            Reliability of Data—While borrower financial performance is reported by hundreds of lenders
            semi-annually to RBCS, all lenders are not submitting required borrower financial performance.
            Additionally, there is inconsistency in the time periods represented by lender reports. In lieu of a
            reliable, consistent and complete data set from lenders, the Finance Office’s financial data have been
            found acceptable to OIG, as are State office-verified data on the financial performance of loans. Data



 USDA
    138             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




            for jobs created or saved are obtained by State office staff from borrowers and lenders. They are
            entered into GLS at the same time that obligations are recorded. These data are reliable when they
            have been updated and verified by State staff. USDA reports the computed jobs saved or created
            based on underlying market and financial feasibility projections that support loan applications. The
            jobs are counted only in one fiscal year, the year the loan is obligated. The delinquency rate, which
            excludes loans in bankruptcy, is based on reports supplied by lenders on the performance of each
            loan.

            Quality of Data—While the percentage of States verifying third-party financial and jobs data have
            improved each year, further improvements are needed. They are designing and completing a model
            to compute and measure the impacts of business programs in rural communities better. These
            impacts include a fuller description of the economic impact and such “quality-of-life” issues as
            health and education.
Exhibit 73: Performance Threshold for 2.1.1

                                              Threshold Documentation Table
                                                                                      Performance Thresholds
                    Performance Goal                Owner         Target      Exceeded           Met            Unmet
 2.1.1     Create or save additional jobs through   RD/RBS        63,856       >67,049         60,663 to        <60,663
           USDA financing of businesses             (RCAP)                                      67,049

 Rationale for Met Range:
 USDA has initiated a comprehensive study to verify the methodologies available to accurately track the outcomes of these
 programs. Until that study is complete and implemented, the Department will continue to track jobs. The job data is
 gathered when projects are obligated in GLS and the jobs projected are computed based on a formula driven by
 appropriations, each FY the formula is adjusted based on the historic numbers. A met range of 5 percent is used.



OBJECTIVE 2.2: IMPROVE THE QUALITY OF LIFE THROUGH USDA FINANCING OF QUALITY
HOUSING, MODERN UTILITIES AND NEEDED COMMUNITY FACILITIES.

Key Outcome:
2.2.1       Homeownership
            Completeness of Data—Homeownership data are actual, final and complete. The initial entry
            point for homeownership data is the web-based UniFi system. This centralized server application
            ensures viable data collection. It tracks performance and forecasts needs. Information entered into
            UniFi also uploads nightly into the MortageServ (a.k.a., Fasteller) system that is used to obligate
            funds, establish closed loans, administer escrow accounts, manage defaulted loans and perform other
            administrative functions. Brio, a query and reporting tool, serves as the interface between the data
            warehouse and RD staff.
            Reliability of Data—Homeownership data originate in systems used to obligate funding and are
            reliable. Data for initial placement of households into their own homes are reliable since they are
            linked directly to homeownership loans maintained in USDA’s financial accounting systems. No
            adjustments are made for later defaults and the resulting loss of homeownership.




                                                                                                                  USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                      139
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




            Quality of Data—Homeownership data are based on loan obligations collected in the Dedicated
            Loan Origination and Servicing system and stored in USDA’s Data Warehouse. As such, the data on
            the number of households are auditable. Data represent the population served based on available U.S.
            census information.
Exhibit 74: Performance Threshold for 2.2.1

                                                Threshold Documentation Table
                                                                                      Performance Thresholds
                Performance Goal                    Owner      Target      Exceeded              Met              Unmet
 2.2.1      Home ownership opportunities
            provided
               Increase financial assistance      RD/RHS      38,300       >42,130       34,470 to 42,130       <34,470
                to rural households to buy a        (SFH)
                home
               Increase the number of             RD/RHS       7,660        >8,426        6,894 to 8,426         <6,894
                minority homeowners                 (SFH)

 Rationale for Met Range:
 The range of 10 percent is based on the historical variance form the target during the past several years in the number of
 houses sold in the Guaranteed and Direct Single Family Housing loan programs.



2.2.2       Telecommunications
            Completeness of Data—Data are actual, final and complete. The county data are collected from
            each approved loan application. Applicants are required to detail their proposed service territories.
            This includes the number of subscribers to be served in the location by county. Loan funds are
            advanced only for approved purposes. Measuring the extent to which broadband service is deployed
            in rural America on a county-by-county basis will enable USDA to assess improved economic
            conditions because of the availability of high-speed telecommunications network access for residents
            and business.
            The data on the number of counties to be served for each loan are derived from applicants’ loan
            applications. Data must be complete before loans can be approved.
            Reliability of Data—While applicants are required to perform market surveys of their proposed
            service areas, the actual counties served may vary from the plan if all funds are not used or the
            borrower later requests a change of purpose from the original loan application. Overall, the data on
            counties served are reliable.
            Quality of Data—All applications undergo an extensive review to determine eligibility.
            Additionally, all approved applications must show feasibility from a financial and technical
            standpoint. Applicants also are required to perform market surveys of their proposed service areas.
            Therefore, the data are reliable. As previously noted, the data on the number of counties to be served
            for each loan approved come from the applicant’s loan application. The data depend on the borrower
            drawing down loan funds and constructing the system as portrayed in the applicant’s loan design.
            Loan funds only may be used for the approved purposes for which the loan was made. Variance may
            result if a borrower does not draw down all loan funds or request approval for a change of purpose




 USDA
    140             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




            from the original loan. This could result in a different number of counties served from the number
            specified in the plan.
Exhibit 75: Performance Threshold for 2.2.2

                                              Threshold Documentation Table
                                                                                            Performance Thresholds
                    Performance Goal                    Owner           Target        Exceeded            Met          Unmet
 2.2.2      Customers served by new or improved        (RD/RUS)          325            >348           303 to 348       <303
            telecommunications facilities
            (Thousands)

 Rationale for Met Range:
 Target based on utilization of approximately $600 million in broadband funding and $687 million in infrastructure funding.
 The number of subscribers is based on historical costs. Thus, fluctuations occur when plan investment per subscriber is
 significantly different from historical costs. They also occur when plant investment per subscriber is significantly different
 from historical costs from year to year. The met range of 50,000 allows for a modest 7 percent deviation below the
 estimated target.



2.2.3       Water and the Environment
            Completeness of Data—The Water and Environmental Programs (WEP) collects data initially
            through the Community Programs Application Processing (CPAP) system. CPAP is a non-financial
            system in which the agency field staff input data about applicants, borrowers, funding and services
            provided. The data obligations flow through the Rural Utilities Loan Servicing System (RULSS) to
            the PLAS and through a data server to a data warehouse.
            Reliability of Data—USDA’s data warehouse stores historical information on Department
            programs and such non-agency data as census information. Program data are downloaded to the
            warehouse every evening from several accounting databases. Data generally are current through the
            previous day. The warehouse provides data about obligations and can be used to measure the number
            of loans, loan amounts, number of borrowers and funds advanced. The warehouse is an easy,
            accessible online method of extracting information and data for reports and analyses.
            Quality of Data—Based on information in CPAP, the number of subscribers receiving new or
            improved water or wastewater service can be extrapolated from the data warehouse. The WEP
            National Office and USDA field offices use data from CPAP, the data warehouse and Department
            accounting systems to review or evaluate the financial, operational and managerial programs of the
            utilities serving rural customers.




                                                                                                                         USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                             141
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 76: Performance Threshold for 2.2.3


                                              Threshold Documentation Table
                                                                                         Performance Thresholds
                    Performance Goal                  Owner           Target       Exceeded            Met         Unmet
 2.2.3      Customers served by new or improved       RD/RUS         .650 Mil        >.680           .680 to       <.610
            water and waste disposal service (Mil)                                                    .610

 Rationale for Met Range:
 Annual targets for this measure are based on historical activity and are adjusted according to the program level received
 each fiscal year.



2.2.4       Electricity
            Completeness of Data—Electric Program data are collected from various Rural Utility Service
            (RVS) documents including RUS Forms 740c and 130, Borrower’s Statistical Profile, Information
            Publication 201-1 and the borrower’s loan application. The data are complete and accurate, and
            collected at the time of loan approval and reported annually.
            Reliability of Data—Applicants are required to report essential data to the Electric Program. These
            data are used to administer Department loan funds and to ensure the security of the loans. USDA is
            developing a new loan tracking and data collection system, Rural Utilities Loan Servicing System
            (RULSS). The Department will be able to capture and access this information in RULSS in FY 2006.
            Quality of Data—All applications undergo an extensive review to determine whether the borrower
            meets all eligibility requirements for the various loans, guarantees and grants offered by the Electric
            Program. All approved applications must show feasibility from a financial standpoint and ensure loan
            security. Loan funds may be used only for the approved purposes for which the loan was made.
Exhibit 77: Performance Threshold for 2.2.4

                                              Threshold Documentation Table
                                                                                         Performance Thresholds
                    Performance Goal                  Owner          Target        Exceeded           Met         Unmet
 2.2.4      Customers served by new or improved       RD/RUS         1.775          >1.864          1.686 to      <1.686
            electric service (Mil)                                                                   1.864

 Rationale for Met Range:
 Annual targets for this measure are based on historical activity and are adjusted according to the program level received
 each fiscal year.



2.2.5       Community Facilities
            Completeness of Data—Community Facilities Program data are complete and final. They are
            collected by means of two streams of input. The finance office records and reports total loan and
            grant obligations as of the date of obligations. These data are collected as part of the obligation
            process. Additionally, USDA collects information for management and evaluation purposes. Data on




 USDA
    142             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




            delinquency status are reported by the finance office for community facilities direct loans, and by
            lenders for the community Facilities guaranteed loans.
            Reliability of Data—Community Facilities data are entered into GLS by field staff as the program
            funds are obligated. Data are final, complete and reliable. They also represent the population served
            based on available U.S. census information. Population data served by community facilities are
            estimates. USDA screens data annually for irregularities. Given the variety of areas served by
            different types of community facilities (e.g., libraries, fire stations, health clinics), estimation is not a
            precise science. Population estimates served by community facilities are based on engineering
            studies used for the design of new or expanded public utilities systems. The Department is
            developing mapping technologies to improve the determination of service areas for community
            facilities.
            Quality of Data—As new programs are authorized, CPAP is used to create data systems that field
            staff can use to work directly and interactively with applicants. Planned system requirements can be
            developed quickly. CPAP contains a number of edit checks to enhance reliability. The data are stored
            on a server and moved nightly to the data warehouse for permanent storage and reporting. This
            manner of developing system plans greatly enhances data reliability since they are integral to
            program planning.
Exhibit 78: Performance Threshold for 2.2.5

                                             Threshold Documentation Table
                                                                                         Performance Thresholds
                    Performance Goal                   Owner          Target        Exceeded          Met         Unmet
 2.2.5      Customers served by new or improved       RD./RHS           12            >14           10 to 14       <10
            community facilities (Mil)                (RCAP)

 Rationale for Met Range:
 Because the number of residents served by each grant may vary widely, it is difficult, if not impossible, to estimate with
 any precision a range of residents served. One grant for a fire engine could serve 22,000 people whereas the same grant
 amount for a hospital could server 22,000. Therefore, USDA would consider its 2004 goal unmet if CF serves fewer than
 10 million people.



STRATEGIC GOAL 3: ENHANCE PROTECTION AND SAFETY OF THE NATION’S AGRICULTURE AND
FOOD SUPPLY

Objective 3.1:  Reduce the Incidence of Foodborne Illnesses Related to Meat,
Poultry and Egg Products
Key Outcomes: Basing Policies on Science
For the two Key Outcomes, USDA uses secure and accurate food safety data systems. The data are derived
from sampling plans and analysis of product samples taken from meat and poultry plants by Department
employees. The samples are analyzed by International Standards Organization (ISO) accredited laboratories to
ensure accurate results. ISO is a network of the national standards institutes of 146 countries. These countries
work with foreign organizations, Governments industry business and consumer representatives. Once the
laboratories have the results, they enter them into the Laboratory Sample Flow System. The system then



                                                                                                                    USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                          143
                                   ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




forwards the results to the Microbiological and Residue Computer Information System. The results then are
sent to the Pathogen Reduction Enforcement System (PREP). PREP uses the results to schedule future
sampling at USDA-inspected plants. The data are considered to be extremely reliable. Policy, program
decisions and resource allocation are based on this data.

Improve Detection of Foodborne Hazards
Data for developing systems for detecting foodborne hazards represent actual accomplishments to date and are
highly reliable. Each research unit submits annual progress reports via USDA’s state-of-the-art electronic
information and database system. Line and program managers review the information and report their findings
to Congress, customers, stakeholders, partners and the general public. Progress reports are available at
http://www.ars.usda.gov. Once there, click on the word “Research” located in the upper left-hand corner of
the screen. The reports also are available at the Food Safety Research Information Office (FSRIO). This office
is the source for all Federal food safety research information, including the role and duties of the Joint
Institute for Food Safety Research. This group was created to coordinate Federal food safety research to
ensure that valuable resources are directed to the most needed and most promising projects. Data from the
USDA Food Safety Research Program must meet FSRIA’s quality standards. Customers and stakeholders
provide the Department with continual feedback on the data’s quality, relevance, value and usefulness.

            Completeness, Reliability and Quality of Data
             Pathogen Measures—All samples are logged in upon receipt, analyzed and then entered into
                    the Laboratory Sample Flow System. A sample’s milestones are posted on an intranet site
                    accessible by the sample collector and other agency personnel to monitor the sample’s progress.
                    Reports are generated periodically to review sample status, cumulative results and other
                    sampling data summaries. Any potential errors are brought immediately to the attention of the
                    System Administrator for investigation and correction.
             Viewing Measure—Audience viewings reflect a combination of documented Hotline calls,
                    electronic mailboxes, web viewings, newsletter subscriptions, publication distributions, and the
                    Agency Rep, “AskKaren” web-based initiative. Included is a percentage (20 percent) of various
                    media (TV, radio, print) outlet audience tracking data as compiled by independent media
                    outreach tracking services.

            Quality of Data
             Pathogen measures—The laboratories are accredited through ISO 17025, which requires
                    extensive quality procedures, documentation and review.
             Viewing measure—Viewing data of food safety messages is based on a combination of actual
                    documented records, reports and/or print-outs (daily, weekly and monthly) along with a
                    percentage (20 percent) of the total various media circulation, listener and viewing audience
                    figures provided through tracking services.

            Reliability of Data
             Pathogen measures—The data are reviewed thoroughly prior to posting annual summaries on
                    the FSIS web site http://www.fsis.usda.gov, publications and published reports.
             Viewing measures—USDA defines viewings as a best estimate of the number of people
                    exposed to food safety messages through all the means used to deliver these messages: print,
                    radio or television media, conventions, presentations, newsletters, USDA web site visits, Meat




 USDA
    144             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                    and Poultry Hotline calls, food safety publications, the USDA Mobile and State partnerships.
                    Data are reviewed weekly and/or monthly prior to inclusion in other reports.
Exhibit 79: Performance Thresholds for 3.1.1, 3.1.2, 3.1.3 and 3.1.4

                                              Threshold Documentation Table
                                                                                          Performance Thresholds
               Performance Goal/Measure                  Owner         Target         Exceeded       Met      Unmet
 3.1.1:     Prevalence of Salmonella on broiler           FSIS         11.7%            <10.0      10 to 12    >12
            chickens

 Rationale for Met Range:
 For Salmonella in young chickens where existing prevalence is more than 10 percent, a regulatory prevalence of 10 to 12
 percent reflects a performance consistent with the target.
 3.1.2: Prevalence of Listeria monocytogenes on             FSIS      0.8%              <.7          .7 to .9     >.9
          ready-to-eat meat and poultry products

 Rationale for Met Range:
 For Listeria monocytogenes on ready-to-eat meat and poultry products where regulatory prevalence is already below 1
 percent, a regulatory prevalence of .7 to .9 percent reflects a performance consistent with the recommended target.
 3.1.3: Prevalence of E. coli 0157:H7 on ground             FSIS         0.37%            <.18%        .18 to .9     > .9
          beef

 Rationale for Met Range:
 For E. coli 0157:H7 on ground beef products where regulatory prevalence is already below 1 percent, a regulatory
 prevalence of .18 to .9 percent reflects a performance consistent with the recommended target.
 3.1.4: Millions of viewings of food safety               FSIS            94M         >100M          90M to       <90M
          messages (Mil)                                                                              100M

 Rationale for Met Range:
 Achieving 90-100 Million viewings is recognized as a sound marketing strategy to raise awareness of safe food handling
 behaviors.



OBJECTIVE 3.2: REDUCE THE NUMBER AND SEVERITY OF AGRICULTURAL PEST AND DISEASE
OUTBREAKS

Key Outcome:                Provide a Secure Agricultural Production System and Healthy Food Supply
3.2.1       Number of significant introductions of foreign animal diseases and pests that spread
            beyond the original area of introduction and cause severe economic or
            environmental damage, or damage to the health of animals or humans
The process of determining this performance result involves several steps: (1) routine monitoring and
surveillance of world animal health problems; (2) investigating specific reports to identify if a new
introduction of a significant foreign animal disease has occurred and testing to determine the extent of
infection; and (3) evaluation to determine the severity of the damage and summarize the results count.

(1) Routine Monitoring: Notice of the need to investigate a possible foreign animal disease may come from a
wide variety of sources spread throughout the country. The National Animal Health Monitoring System
conducts planned surveys of diseases likely to have major impact on production and marketing. The National
Animal Health Strategic Plan Objective 2 “Develop standards, quality control, and performance metrics for
surveillance systems” states that key health indicator data will be collected annually starting in October 2005.



                                                                                                                    USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                        145
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Specific causes of loss by age group within each commodity will be gathered. In addition to conducting
domestic surveys, USDA also maintains the presence of animal health professionals overseas to collect
surveillance information on foreign animal diseases to prevent these diseases from entering the United States.

(2) Foreign Animal Disease Investigations and Testing: USDA set a target of 550 foreign animal disease
investigations for FY 2004. When an infection is reported and confirmed, area-wide testing is conducted
around the foci of infection using a comprehensive system of statistically significant diagnostic samples. The
samples are tested in state-of-the-art laboratories. Testing data are recorded in the Emergency Management
Response System (EMRS), National Animal Health Monitoring System (NAHMS) and the National Animal
Health Reporting System (NAHRS.) All susceptible animals within an appropriate distance of the foci of
infection are tested. The appropriate area for testing is determined using data regarding disease agents and
how those agents are spread (through the air by biological or mechanical). The anticipated spread rate is based
on weather conditions and movements or contacts on and off of the infected premises, as well as the
anticipated expectations of trading partners regarding testing and surveillance. Animals that are positive or
have known exposure within at least two disease agent incubation periods are destroyed or retested until the
quarantine is removed. If there are limited numbers of animals around the foci of infection the testing area
may be expanded to ensure that no animals are infected, and trace out investigations and testing on all animals
from the foci herd may be performed.

Statistical sampling focuses on animals at slaughter and, concentration points if movement is being allowed,
or in high risk areas. Door-to-door censuses are completed or requests are made that the public report any sick
animals meeting a particular case description. Sampling data should be entered into the National Veterinary
Services Laboratories (NVSL) databases, EMRS and National Animal Health Laboratory Network (NAHLN)
databases. NVSL validates all samples found positive by other network laboratories.

(3) Reporting and Summarizing Results: As data about introduction arrive, veterinarians on USDA’s
Emergency Programs Staff analyze them and apply criteria to determine if the introductions are significant
and have spread. All introductions of agents listed by World Organization for Animal Health (Office
International des Epizooties (OIE)) and considered to be foreign to the U.S. are reported are reported to that
body.
            Completeness of Data—The end-of-year data are complete, actual and final when the scheduled
            testing is finished, the samples are analyzed and the quarantined animals are tested and released. A
            cutoff time for the data, which are used for the final summary count, has been set at approximately
            one month before the required reporting date. If no data indicating an outbreak has spread have been
            received in the month preceding the decision, the decision based on that time period will be made. If
            additional data are submitted indicating an outbreak has spread, they will be considered for the next
            time period.
            Reliability of Data—The summary data are considered reliable when USDA’s Deputy
            Administrator of Veterinary Services’ has reviewed and approved them.
            Quality of Data—The issues related to collection and reporting of performance information are
            described above.




 USDA
    146             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 80. Performance Threshold for 3.2.1

                                            Threshold Documentation Table
                                                                                        Performance Thresholds
              Performance Goal/Measure                  Owner         Target        Exceeded      Met       Unmet
 3.2.1      Number of significant introductions of      APHIS           0          Not possible     0        1 or
            foreign animal diseases and pests that                                                          above
            spread beyond the original area of
            introduction and cause severe economic
            or environmental damage, or damage to
            the health of animals or humans.

 Rationale for Met Range:
 These foreign animal diseases are very serious. Veterinary Services seeks to prevent the spread of every single one.



3.2.2       Percentage of facilities in complete compliance at the most recent inspection and
3.2.3       Number of animals affected by noncompliances documented on inspection reports.
The data source for these measures is the Licensing and Registration Information System (LARIS), which
contains facility inspection results data on licensed and registered facilities.

Animal Care field inspectors enter reports into LARIS using laptop computers. Copies of inspection reports
are provided to facility personnel and reviewed by supervisory animal-care specialists. There is ample
opportunity for correcting any errors. In FY 1999, reports were found to be present in LARIS for 99 percent
of active facilities. The validity of the measures was established in 1996 using a team of front-line inspectors
and input from stakeholder organizations. Totals are computed by an automated program.

While the percentage of compliant facilities is an excellent, comprehensive, overall measure, it is not a perfect
indicator of the welfare of animals. Minor problems that do not affect the welfare of animals directly count
against the facilities. To compensate, a measure for animals affected by noncompliances was added. The
number of inspections performed also is tracked and made available to managers.
            Completeness of Data—It takes animal welfare facility inspectors about a month to finalize their
            facility inspection data. If they fail to enter the data for a given facility, the computer program that
            counts the number of facilities in compliance will select the previous inspection report to see if the
            facility was in compliance on its previous inspection. If results data are required to be reported before
            the inspectors can enter their findings, the data on the percentage of compliant facilities, while still
            considered complete, will be based on a slightly earlier time period. This should not affect the results
            significantly. On the other hand, the computer program that counts the number of animals affected by
            violations will understate the results, and they will need to be adjusted to represent a full year of
            findings.
            Reliability of Data—While there will be some variation between inspectors in how strict they are,
            when all their tendencies are pooled, the differences offset each other. The inspectors must continue
            to use their best professional judgment in the same way each year for comparable results.
            Quality of Data—These data are of highest quality. They are taken very seriously by the inspectors
            and facility owners or managers, and documented with signatures. If there are mistakes or
            disagreements, an avenue for appeal to the inspector’s supervisor exists.



                                                                                                                  USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                           147
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Exhibit 81: Performance Thresholds for 3.2.2 and 3.2.3

                                               Threshold Documentation Table
                                                                                       Performance Thresholds
               Performance Goal/Measure                   Owner       Target       Exceeded      Met       Unmet
 3.2.2      Percent of facilities in complete             APHIS      340,000       >343,400   336,600 to <336,600
            compliance at the most recent inspection                                           343, 400

 3.2.3      Number of animals affected by                 APHIS        70%            >72%         72 to 68      < 68%
            noncompliances documented on
            inspection reports
            Baseline: 2001 = 588,961

 Rationale for Met Range:
 With so many animals affected by noncompliance, it is reasonable that the results could vary by 1 percent more than or
 less than the target and still be considered to have met it. Anything beyond 1 percent would mean the target has been
 exceeded or not met. Note that the goal is to lower this result.
 A similar basis was used for the percent of facilities in compliance. There are more than 15,000 at any given time. A
 variation of 1 percent seems insignificant.



Key Outcome:              Improve Animal and Plant Diagnostic Laboratory Capabilities
3.2.4       Expand the ability to detect plant diseases to protect the Nation from disease
            outbreaks
3.2.5       Expand the ability to detect animal diseases to protect the Nation from disease
            outbreaks
            Completeness of Data—This measure is direct and verifiable and representative of the ultimate
            purpose of the Diagnostic Networks, i.e., to detect and identify disease threats.
            Reliability of Data—USDA action, other internal and external customers and stakeholders, and
            regulatory agencies routinely accept the data.
            Quality of Data—Most of the data released is published in scientific journals where they undergo
            peer review before publication. All data released to the public are governed by the USDA Data
            Quality Guidelines.
Exhibit 82: Performance Thresholds for 3.2.4 and 3.2.5

                                               Threshold Documentation Table
                                                                                         Performance Thresholds
               Performance Goal/Measure                   Owner       Target        Exceeded        Met         Unmet
 3.2.4      Expand the ability to detect plant diseases
            to protect the Nation from disease
            outbreaks
               Specific plant diseases labs are          CSREES         3             >4           2 to 4        <2
                prepared to detect
 3.2.5      Expand the ability to detect animal
            diseases to protect the Nation from
            disease outbreaks
               Specific animal diseases labs are         CSREES         6             >7           5 to 7        <5
                prepared to detect




 USDA
    148             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                   ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                                 Threshold Documentation Table
                                                                                            Performance Thresholds
               Performance Goal/Measure                     Owner         Target        Exceeded     Met       Unmet

 Rationale for Met Range:
 The proposed range is reasonable, given the possibility of unanticipated barriers to research.


Key Outcome:               Reduce the Number and Severity of Agricultural Pest and Disease Outbreaks
3.2.6       Provide scientific information to protect animals from pests, infectious diseases and
            other disease-causing entities that impact animal and human health
            Completeness of Data—Research is a continuum of discovery so it is constantly being updated.
            ARS does everything it can to ensure the completeness of its data at the time it is released.
            Reliability of Data—ARS data is routinely accepted by the USDA action and regulatory agencies.
            Quality of Data—Most of the data released by ARS is published in scientific journals where it
            undergoes peer review before publication. ARS data released to the public is governed by the USDA
            Data Quality Guidelines.
Exhibit 83: Performance Thresholds for 3.2.6

                                                 Threshold Documentation Table
                                                                                            Performance Thresholds
               Performance Goal/Measure                     Owner         Target         Exceeded      Met      Unmet
 3.2.6      Provide scientific information to protect
            animals from pests, infectious diseases
            and other disease-causing entities that
            impact animal and human health.
               Number of organisms or variants of          ARS            7055              >57          53 to 57       <53
                the microorganisms sequenced each
                year.
               Number of resistance markers for a          ARS            108               >9            7 to 9         <7
                variety of diseases identified.
               Number of tests that are transferred to     ARS              3               >4            2 to 4         <2
                universities, State laboratories, private
                industry or other countries for use.
 Rationale for Met Range:
 With the possibility of unanticipated research barriers mitigating against achieving the target, it qualifies as a reasonable
 proposed range.




                                                                                                                        USDA
                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                           149
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




STRATEGIC GOAL 4: IMPROVING THE NATION’S NUTRITION AND HEALTH

Objective 4.1:           Improve Access to Nutritious Food
Key Outcome:             Improve Nutrition through Increased Access and Utilization of These Vital
                         Programs by Those Eligible to Participate
4.1.1       Rates of eligible populations participating in the Food Stamp Program
This rate is calculated by comparing estimates of eligible individuals with the number of actual participants.
The resulting participation rates estimate the percentage of individuals eligible for FSP who choose to
participate.

Participation data are drawn from USDA administrative records. State agency reports are certified accurate
and submitted to regional offices. There, they are reviewed for completeness and consistency. If the data are
acceptable, the regional analyst posts them to the National Data Bank (NDB) Preload System. NDB is a
holding area for data review prior to release. Otherwise, regional office personnel reject the report and the
State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are
reasonable and consistent with previous reports, they will be downloaded to NDB for public release.
Otherwise, USDA works with regional offices and States to resolve problems and inconsistencies. This
process of review and revision ensures that the data are as accurate and reliable as possible.

The estimate of individuals eligible for the program is developed using a computer model of eligibility
requirements applied to data from the U.S. Census Bureau’s annual Current Population Survey. This survey
covers demographic characteristics of the U.S. population. It uses nationally representative sampling
techniques. This data are supplemented with that on food stamp participant characteristics derived from the
food stamp quality control (QC) process. Food stamp participant data are based upon statistically valid
methodology (For more information on QC, see the assessment section for Objective 4.3.1).
            Completeness of Data—Because of the time required to collect and analyze the current
            population survey and the QC data, reporting on this measure is deferred to the following year’s
            report. Once available, data for both participants and eligible people are complete. Participation data
            are collected and validated monthly before being declared annual data. The current population survey
            and QC data represent statistically valid national samples.
            Reliability of the Data—The data are highly reliable. Participation data reporting is used to
            support program financial operations. All of the data are used in published analyses, studies and
            reports. They also are used to support dialogue with and information requests from the Government
            Accountability Office (GAO), the Office of Inspector General (OIG) and the Office of Management
            and Budget.
            Quality of the Data—As described above, the data used to develop this measure are used widely
            for multiple purposes, both within and outside USDA. The measure itself is reported in stand-alone
            publications as an important, high-quality indicator of program performance.

4.1.2       Rates of eligible populations participating in the School Breakfast Program
This measure is calculated by comparing the average daily participation of children in SBP with estimates of
total enrollment in U.S. public and private schools. The estimates originate from data collected and compiled



 USDA
    150             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




by the U.S. Department of Education’s National Center for Educational Statistics (NCES). NCES collects and
analyzes data related to education in the U.S. and other nations.

Data on public school enrollment are drawn from the NCES Common Core of Data. This is a comprehensive,
annual, survey-based national statistical database of information concerning all public elementary and
secondary schools (approximately 100,000) and school districts (approximately 18,000). Data on private
school enrollment is drawn from the private school universe survey. This survey represents a biennial data
collection on the number of private schools, teachers and students in the U.S.
            Completeness of Data—Because of the time required to collect and report the NCES survey data,
            reporting on this measure is deferred to a subsequent year’s report. Once available, data for both
            participants and eligible people are complete. Participation data are collected and validated monthly
            before being declared annual data. The NCES survey data represent statistically valid national
            samples of public and private school enrollment.
            Reliability of the Data—The data are highly reliable. Participation data reporting are used to
            support program financial operations. NCES surveys are recognized nationally as definitive sources
            of information on U.S. schools.
            Quality of the Data—As described above, the data used to develop this measure are used widely
            for multiple purposes, both within and outside USDA.
4.1.3       Rates of eligible populations participating in the Special Supplemental Nutrition
            Program for Women, Infants and Children
Currently, the measure—specifically, a methodology to estimate the number of people eligible for WIC—is
under development. Reporting on this measure will be deferred until data are available.
Exhibit 84: Performance Threshold for 4.1.1, 4.1.2 and 4.1.3

                                               Threshold Documentation Table
                                                                                           Performance Thresholds
                    Performance Goal                      Owner          Target         Exceeded      Met      Unmet
 4.1.1      Rates of eligible populations participating    FNS           59.1%            ≥59.4      58.6 to    ≤58.5
            in the Food Stamp Program                                                                 59.3
  4.1.2     Rates of eligible populations participating    FNS            18.0            ≥18.1          17.9 to      ≤17.8
            in the School Breakfast Program                                                                18
 4.1.3      Rates of eligible populations participating    FNS          Measure          Measure          N/A          N/A
            in the Special Supplemental Nutrition                        under            under
            Program for Women, Infants and Children                   development      development

 Rationale for Met Range:
 The participation rate threshold range of ±.5 percent from the target reflects a level of performance consistent with the
 target.




                                                                                                                       USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                          151
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Objective 4.2:            Promote Healthier Eating Habits and Lifestyles
Key Outcome:              Promote More Healthful Eating and Physical Activity across the Nation
4.2.1:      Improve the Healthy Eating Index (HEI) scores for the U.S. population
USDA’s Healthy Eating Index (HEI) is an analysis of data from the U.S. Department of Health and Human
Service’s National Health and Nutrition Examination Survey (NHANES). HEI determines the extent to which
the diets of survey respondents are consistent with the recommendations of the Dietary Guidelines for
Americans and the food guidance system. NHANES is a nationally representative survey that provides
information on people’s consumption of foods and nutrients, health-related data and Americans’ demographic
and socioeconomic characteristics.
            Completeness of Data—Because of the time required to collect, analyze and publish NHANES
            data, reporting on this measure is deferred to a subsequent year’s report. Once available, the HEI data
            are complete, reflecting a nationally representative sample of the population.
            Reliability of the Data—The data are highly reliable. NHANES uses a well-documented,
            consistent survey protocol. It is used as a basis for a wide range of peer-reviewed research reports.
            The HEI methodology is used consistently by USDA in analyses of data quality nationwide and
            interactive tools designed to assess the diet quality of individuals.
            Quality of the Data—As described above, the data used to develop this measure are used widely
            for multiple purposes, both within and outside USDA. The HEI measure itself is published in
            publicly available reports and used as a national indicator of diet quality.
Exhibit 85: Performance Threshold for 4.2.1

                                             Threshold Documentation Table
                                                                                            Performance Thresholds
                      Performance Goal                       Owner          Target       Exceeded     Met      Unmet
 4.2.1      Improve the Healthy Eating Index (HEI) scores                       
            for the U.S. Population:
               HEI for People with Incomes under 130%         FNS            66           >67.3        64.7 to      <64.7
                of Poverty                                                                               67.3
               HEI for the U.S. Population                   CNPP            65           >65.5        65.5 to      <63.7
                                                                                                         63.7

 Rationale for Met Range:
 HEI for People with Incomes under 130 percent of Poverty threshold is based on the 95 percent confidence interval
 centered on the HEI measure (mean). Though no FY 2004 target was set, the Exceed and Unmet thresholds would be
 derived from the confidence interval of ± 1.33 points above or below the annual target. Performance that falls within the
 range between the thresholds is considered to have met the target.
 HEI for the U.S. Population threshold is based on the 95 percent confidence interval centered on HEI measure (mean).
 The Exceed and Unmet thresholds are derived from the confidence interval of ± .95 points above or below the FY 2004
 target. Performance that falls within the range between the thresholds is considered to have met the target.




 USDA
    152             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




Key Outcome:                Increase Nutrition Information Available to the Public
4.2.2       Determine food consumption patterns of Americans, including those of different
            ages, ethnicity, regions, and income levels. Provide sound scientific analyses of U.S.
            food consumption information to enhance the effectiveness and management of the
            Nation's domestic food and nutrition assistance programs
Each research project submits an annual project report. The report, which is reviewed by the appropriate area
office and national program leaders, provides such performance information as achieving project milestones.
            Completeness of Data—Research is a continuum of discovery so it is being updated constantly.
            USDA does everything it can to ensure the completeness of its data at the time it is released.
            Reliability of Data—USDA action, other internal and external customers and stakeholders, and
            regulatory agencies routinely accept the data.
            Quality of Data—Most of the data released is published in scientific journals where they undergo
            peer review before publication. All data released to the public are governed by the USDA Data
            Quality Guidelines.
Exhibit 86: Performance Threshold for 4.2.2

                                               Threshold Documentation Table
                                                                                      Performance Thresholds
                    Performance Goal/Measure                 Owner        Target   Exceeded     Met      Unmet
 4.2.2      Determine food consumption patterns of                           
            Americans, including those of different ages,
            ethnicity, regions, and income levels. Provide
            sound scientific analyses of U.S. food
            consumption information to enhance the
            effectiveness and management of the Nation's
            domestic food and nutrition assistance
            programs.
               Number of reports from the USDA Food         ARS            4         >5       4 to 5       ≤3
                and Nutrient Database.
 Rationale for Met Range:
 Data sets determined as the most valuable information from the survey.



Objective 4.3:              Improve Food Program Management and Customer Service
4.3.1:      Increase Food Stamp payment accuracy
Food stamp payment accuracy data drawn from the Quality Control (QC) system are used annually to support
performance incentives to promote payment accuracy. They are based upon statistically valid methodology.
The QC process uses a systematic random sampling of Food Stamp Program (FSP) participants. The results of
these activities are used to determine individual States’ combined payment error rate. This rate is composed of
over-issuances and under-issuances of FSP benefits. A regression formula is applied to the results of the
reviews to calculate official error rates.

State agencies select cases monthly that are reviewed to determine the accuracy of the eligibility and benefit-
level determination. They include a client interview and verification of all elements of eligibility, and the basis
of issuance of food stamp benefits. Federal reviewers validate a sample of the State’s reviews by conducting a



                                                                                                          USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              153
                                  ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




second review. State agencies can verify and validate data through an informal review process. This process
and current protections designed to ensure the data’s accuracy are based on an agreement between the States
and Federal reviewers. The process has proven to be a sound method of calculating reliable data.
            Completeness of Data—The most current data available for this measure are for FY 2003.
            Analysis of FY 2004 performance will be deferred until next year’s report. Once available, the data
            are complete and reliable.
            Reliability of Data—QC data are valid and accepted by State FSP agencies as a basis for
            performance-incentive payments and penalties. GAO and OIG also use it regularly.
            Quality of the Data—The data used to develop this measure, which are considered the most valid
            food nutrition intake information available, are used widely for multiple purposes, both within and
            outside USDA. The measure itself is frequently cited as an important, high-quality indicator of
            program performance.
Exhibit 87: Performance Threshold for 4.3.1

                                               Threshold Documentation Table
                                                                                        Performance Thresholds
                    Performance Goal/Measure                Owner        Target      Exceeded     Met      Unmet
 4.3.1      Food Stamp Payment Accuracy (%)                  FNS          93.5         >93.8     93.2 to    <93.2
                                                                                                  93.8

 Rationale for Met Range:
 The 95 percent confidence interval around the estimate of payment accuracy is ±.33 percent.



STRATEGIC GOAL 5: PROTECT AND ENHANCE THE NATIONS’ NATURAL RESOURCE BASE AND
ENVIRONMENT

Objective 5.1:  Implement the President’s Healthy Forests Initiative and Other
Actions to Improve Management of Public Lands
Key Outcome:                Reduce the Risk from Catastrophic Wildland Fire
5.1.1       Number of acres of hazardous fuel treated that are in the wildland urban interface
            and percentage identified as high priority through collaboration consistent with the
            10-year Comprehensive Strategy Implementation Plan
5.1.2       Number of acres of hazardous fuel treated that are in Condition Classes 2 or 3 in Fire
            Regimes 1,2, or 3 outside the wildland-urban interface, and percentage identified as
            high priority through collaboration consistent with the 10-year plan
5.1.3       Number of acres of: hazardous fuel treated with direct funds outside the wildland
            urban interface in Condition Class 1 in Fire Regimes 1, 2, and 3 and in all Condition
            Classes in Fire Regimes 4 and 5; and hazardous fuel reduction for all Fire Regimes
            as a secondary benefit of other vegetation management that improve Condition Class
The data for hazardous fuels treatments are reliable, of good quality and certified by the respective line
officer. USDA wildfire and other program managers collected, compiled and analyzed the data.
            Completeness of Data—Data are based on actual data.



 USDA
    154             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




            Reliability of Data—All data for hazardous fuels were reported through the National Fire Plan
            Operations and Reporting System. This system was co-developed by USDA and U.S. Department of
            Interior land-management agencies. Validation and oversight are accomplished through monthly
            conference calls between USDA and regional foresters.
            Quality of Data—Data quality has been assessed at greater than 90 percent for project data in all
            regions. The quality of these data is monitored continuously and being improved with focused
            training and policy direction on reporting requirements.
Exhibit 88: Performance Threshold for 5.1.1 and 5.1.2

                                              Threshold Documentation Table
                                                                                              Performance Thresholds
             Performance Goal/Measure                   Owner              Target        Exceeded         Met        Unmet
 5.1.1      Number of acres of hazardous fuel           NRE/FS             1,250          >1,300        1,225 to     <1,250
            treated that are in the wildland urban                                                       1,275
            interface and percentage identified as
            high priority through collaboration
            consistent with the 10-year
            Comprehensive Strategy
            Implementation Plan (thousand acres)

 Rationale for Met Range
 Annual targets for this measure, based on history, have seen a consistent variability of 100,000 acres.
 5.1.2   Number of acres of hazardous fuel             NRE/FS             259               >285         233          <233
         treated that are in Condition Classes 2                                                          to
         or 3 in Fire Regimes 1,2, or 3 outside                                                          285
         the wildland-urban interface, and
         percentage identified as high priority
         through collaboration consistent with
         the 10-year plan (Thousand Acres)
 5.1.3   Number of acres of: hazardous fuel            NRE/FS             927              >1,020        834          <834
         treated with direct funds outside the                                                            to
         wildland urban interface in Condition                                                          1,020
         Class 1 in Fire Regimes 1, 2, and 3 and
         in all Condition Classes in Fire
         Regimes 4 and 5; and hazardous fuel
         reduction for all Fire Regimes as a
         secondary benefit of other vegetation
         management that improve Condition
         Class. (Thousand Acres)

 Rationale for Met Range
 This is a new performance measure for FY 2004. There is no historical information related to the target to establish
 thresholds. Based on the historical variability within the entire hazardous fuel program, plus or minus 10 percent of target
 is reasonable.



OBJECTIVE 5.2: IMPROVE MANAGEMENT OF PRIVATE LANDS

Key Outcome:              Maintain the Productive Capacity of the Resource Base and Quality of the
                          Environment
5.2.1       Conservation plans written for cropland and grazing lands (Mil acres)




                                                                                                                      USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                           155
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



5.2.2       Cropland and grazing lands with conservation applied to protect the resource base
            and environment (Mil acres)
5.2.3       Reduction in the acreage of cropland soils damaged by erosion (Mil acres)
5.2.4       Number of comprehensive nutrient management plans applied (Mil acres)
5.2.5       Increase Conservation Reserve Program (CRP acres of riparian and grass buffers)
            (Mil acres)
The chief sources of data for these performance measures are the Customer Service Toolkit, USDA’s primary
conservation planning tool, and the Performance Results System (PRS).
            Completeness of Data—Numerous data quality mechanisms are in place within PRS to ensure
            the completeness of the performance information. This web-based application includes such
            integrated quality controls as data type, required fields defined pull-down menus and choice lists.
            Additionally, the system recognizes records that do not include data identified as critical and requires
            the user to complete the required data fields before the record can be uploaded to the national
            database.
            Reliability of Data—For FY 2004, more than 80 percent of the data reported for this performance
            measure was uploaded from the Customer Service Toolkit. All natural resource information in
            Toolkit is drawn from USDA databases. All data on conservation practices are developed in
            consultation with the client. This process ensures that the data accurately reflect the client’s
            operation, goals and status of the conservation plan. Data are date-stamped, geo-referenced and
            linked to an employee ID, enabling detailed quality-assurance reviews. Periodic reviews are
            conducted to assess the accuracy of reported data. Data entered directly through PRS rather than
            Toolkit also are linked to a specific land unit, enabling on-site reviews to determine the accuracy of
            data. Because this is the first year of implementation of the new system, not all quality checks that
            will be part of the fully implemented system were in place for FY 2004.
            Quality of Data—Overall quality of the performance data is good. The data are based on
            conservation plans, systems and practices planned and applied to land. The information is entered by
            field staff located onsite where the conservation is occurring. The staffs entering the data are trained
            and skilled in conservation planning and application suited to the local resource conditions.

            Within PRS, the conservation program responsible for each conservation practice is reported.
            Because these performance measures refer to conservation plans that include multiple measures, the
            linkage to specific programs is more complex. For FY 2004, methods were under development to
            estimate the contribution of each conservation program to planning and application. Overall quality
            of data is good.
Exhibit 89: Performance Threshold for 5.2.1, 5.2.2, 5.2.3, 5.2.4 and 5.2.5

                                              Threshold Documentation Table
                                                                                       Performance Thresholds
                     Performance Goal                     Owner        Target     Exceeded        Met       Unmet
 5.2.1      Conservation plans written for cropland and   NRCS          31.7        >33        30.1 to 33    < 30
            grazing lands (Mil acres)




 USDA
    156             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                 ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



                                             Threshold Documentation Table
                                                                                             Performance Thresholds
                    Performance Goal                        Owner          Target       Exceeded          Met        Unmet

 Rationale for Met Range:
 Variation of plus or minus 5 percent is considered reasonable at the national level. The range of variation is much greater
 at the state and local levels.
 5.2.2    Cropland and grazing lands with                  NRCS              8.5            >8.9        8.1 to 8.9      <8
          conservation applied to protect the
          resource base and environment (Mil acres)

 Rationale for Met Range:
 Variation of plus or minus 5 percent is considered reasonable at the national level. The range of variation is much greater
 at the state and local levels.
 5.2.3    Reduction in the acreage of cropland soils       NRCS               3            > 3.15         2.85 to     < 2.85
          damaged by erosion (Mil acres)                                                                   3.15

 Rationale for Met Range:
 Management determination based on previous year results.
 5.2.4      Number of comprehensive nutrient                NRCS            1,500         > 1,650       1,350 to     < 1,350
            management plans applied (Mil acres)                                                         1,650

 Rationale for Met Range:
 Management determination based on previous year results.
 5.2.5 Increase Conservation Reserve Program        FFAS/FSA                 1.75          >1.80        1.70 to       <1.70
       (CRP acres of riparian and grass buffers)                                                         1.80
       (Mil acres)

 Rationale for Met Range:
 Management determination based on previous year results.


Key Outcome:             Ensure Diverse Wildlife Habitats
5.2.6       Agricultural wetlands created or restored through the Wetlands Reserve Program
            (Mil acres)
Data for acreage enrolled in WRP are reported through a national database.
            Completeness of Data—Data are complete for all transactions related to WRP.
            Reliability of Data—Data are reported by USDA field and State office personnel. The national
            program manager reviews the data for accuracy.
            Quality of Data—Data are considered of good quality for making management decisions.
Exhibit 90: Performance Threshold for 5.2.6

                                             Threshold Documentation Table
                                                                                           Performance Thresholds
             Performance Goal/Measure                   Owner            Target       Exceeded          Met         Unmet
 5.2.6      Agricultural wetlands created or            NRCS              1.7           *N/A         1.6 to 1.7      <1.6
            restored through the WRP (Mil acres)




                                                                                                                     USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                           157
                                ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




 Rationale for Met Range:
 *Target cannot be exceeded because Congress sets it.



5.2.7       Increase CRP restored wetlands acres (Mil acres)
The data source for this measure is Farm Service Agency (FSA) national CRP contract and offer data files.
            Completeness of Data—Data is based on estimated results through September 30, 2005. The
            measure reports national acres under contract with the following types of conservation buffers: filter
            strips, riparian buffers, and wildlife habitat buffers on marginal pasture land.
            Reliability of Data—FSA maintains the national CRP contract and offer data files at its Kansas
            City Computer Center. Active contract data are uploaded from county office files each week. FSA
            monitor’s the data on a monthly basis to evaluate progress.
            Quality of Data—FSA considers the overall quality of the performance data to be good. The data is
            used for making management decisions.

                                            Threshold Documentation Table
                                                                                    Performance Thresholds
             Performance Goal/Measure               Owner          Target      Exceeded       Met        Unmet
 5.2.7      Increase CRP restored wetlands acres   FFAS/FSA         1.99         >2.04       1.94 to     <1.94
            (Mil acres)                                                                       2.04

 Rationale for Met Range:
 Management determination based on previous year results.




 USDA
    158             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




PROGRAM ASSESSMENT RATING TOOL (PART) EVALUATIONS
The Program Assessment Rating Tool (PART) was developed to assess and improve program performance so
that the Federal government can achieve better results. The PART reviews of USDA programs help identify a
program’s strengths and weaknesses to inform funding and management decisions aimed at making the
program more effective. The PART therefore looks at all factors that affect and reflect program performance
including program purpose and design; performance measurement, evaluations, and strategic planning;
program management; and program results. Because the PART includes a consistent series of analytical
questions, it allows programs to show improvements over time, and allows comparisons between similar
programs.

USDA has assessed 56 programs for fiscal years 2004 through 2006. In February 2004, when the Fiscal year
2005 Budget was published, OMB listed 31 USDA programs that were PARTed. These were listed in the
2004 Performance and Accountability Report. The PART summaries below are cumulative, including the
initial 31 PARTed programs and programs PARTed in fiscal year 2005. This includes programs that were
reassessed because the programs’ ratings were likely to change. The programs are summarized below by goal
and Objective, in alphabetical order. Further detail on each of the programs can be found at
http://www.whitehouse.gov/omb/budget/fy2006/part.html.

Strategic Goal 1
         Strategic Goal 1                   Enhance Economic Opportunities for Agriculture Producers
       Program Name                        Enhance Economic Opportunities for Agriculture Producers
 Ratings                        •   FY 2006 : Moderately Effective
 Lead Agency                    •   Agricultural Research Service
 Major Findings/                •   Ensure that funding is targeted to highest priority initiatives and projects, complete
 Recommendations                    the development of the annual measures, and work with the Department of Energy
                                    to develop similar measures related to the overall goal of lowering the cost of
                                    producing biofuels.
 Actions Taken/Planned          •   Submitted agency estimates to OBPA, resubmitted the document on revised annual
                                    measures based on OMB’s responses on the Goal 3 PART Analysis and the
                                    discussions, and continue to meet with DOE to resolve remaining issues.



Objective 1.1
     Strategic Objective 1.1                          Expand International Market Opportunities
        Program Name                                       CCC Export Credit Guarantees
  Ratings                       •   FY 2006 : Moderately Effective
  Lead Agency                   •   Foreign Agricultural Service
  Major Findings/               •   Programs are generally well managed and have demonstrated efficiencies and cost
  Recommendations                   effectiveness in program administration. However, there are weaknesses in strategic
                                    planning and no independent evaluations of the programs are conducted on a
                                    regular basis.
  Actions Taken/Planned         •   FAS has taken measures to improve claims recoveries under the programs. Efforts
                                    continue to develop meaningful targets for efficiency measures and to establish an
                                    independent evaluation process.




                                                                                                                     USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                            159
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 1.1                          Expand International Market Opportunities
       Program Name                             Commodity Grading and Certification Programs
 Ratings                       •   FY 2006 : Adequate
 Lead Agency                   •   Agricultural Marketing Service
 Major Findings/               •   Adjust the fee structure to recover the costs associated with reviewing, modifying
 Recommendations                   and developing standards beginning in FY 2006. This change is the result of the
                                   recognition that the grade standards are integral to the agency's fee-for-service
                                   grading program. Develop improved annual and long-term performance measures.
                                   Develop improved baselines and targets that demonstrate progress towards
                                   achieving the programs stated performance goals.
 Actions Taken/Planned         •   Completed. Fees proposed.


          Strategic Goal1                   Enhance Economic Opportunities for Agriculture Producers
       Program Name                       Enhance Economic Opportunities for Agriculture Producers
 Ratings                       •   FY 2006 : Moderately Effective
 Lead Agency                   •   Cooperative State Research, Education, and Extension Service
 Major Findings/               •   None
 Recommendations
 Actions Taken/Planned         •   NA


     Strategic Objective 1.1                          Expand International Market Opportunities
       Program Name                                 Perishable Agricultural Commodities Act
 Ratings                       •   FY 2006 : Moderately Effective
 Lead Agency                   •   Agricultural Marketing Service
 Major Findings/               •   Identify and correct strategic planning deficiencies. Conduct an independent audit of
 Recommendations                   program operations in 2004. Obtain a more independent review of the program that
                                   focuses on both annual and long-term performance goals and how progress in
                                   working towards these goals is measured. Reevaluate the cost of services provided
                                   by the program (in advance of the appropriated dollars being depleted) and
                                   determine how best to adjust future fees. Develop an outcome based long-term
                                   performance measure.
 Actions Taken/Planned         •   PACA performance measurement has been reviewed and incorporated into program
                                   strategic planning and operations. Program conducts regular periodic assessments.
                                   Fee increase expected in FY 2008 or later. Program identified and began
                                   implementing efficiency improvements to reduce program costs. The program will
                                   develop an additional outcome-based method of measuring its performance once
                                   efficiency improvements have been implemented.


     Strategic Objective 1.1                          Expand International Market Opportunities
       Program Name                           Pesticide Data Program/Microbiological Data Program
 Ratings                       •   FY 2005 : Adequate
 Lead Agency                   •   Agricultural Marketing Service
 Major Findings/               •   Study the feasibility of charging a fee to industry beneficiaries to cover partial/full
 Recommendations                   cost of the pesticide data program. Develop improved annual and long-term
                                   performance measures. Conduct an independent audit of program operations in
                                   2004. Development of additional, outcome-based performance measures.
 Actions Taken/Planned         •   Completed.




 USDA
    160             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Objective 1.2
     Strategic Objective 1.2        Support International Economic Development and Trade Capacity Building
       Program Name                                      USDA Foreign Food Aid Programs
 Ratings                        •   FY 2006 : Moderately Effective
 Lead Agency                    •   Foreign Agricultural Service
 Major Findings/                •   The programs have strategic planning deficiencies, including the need for a
 Recommendations                    performance measure that links to government-wide long-term food aid performance
                                    goals.
 Actions Taken/Planned          •   FAS has worked with ERS and AID to develop a new food security annual
                                    performance measure and baselines. FAS has contracted for a review of food aid
                                    information and reporting systems that will identify areas for needed improvements in
                                    IT systems.



Objective 1.3
     Strategic Objective 1.3                    Expand Alternative Markets for Agricultural Products
       Program Name                                                     Bioenergy
 Ratings                        •   FY 2005 : Adequate
 Lead Agency                    •   USDA Farm Service Agency
 Major Findings/                •   Ensure a sufficient level of support to growing biodiesel industry.
 Recommendations
 Actions Taken/Planned          •   FSA cannot address this recommendation due to the following: 1. Ethanol and
                                    biodiesel industries are experiencing record growth, while at the same time Program
                                    funding was cut to $100 million for Fiscal Year 2005. Combined, these factors are
                                    resulting in program payments being significantly reduced, approximately 60 percent
                                    for the first quarter, to hold them to available funding. 2. Program Agreements for the
                                    life of the program were executed with participants before this recommendation was
                                    made. The Agreement provisions limit our ability to address this recommendation.



Objective 1.4
     Strategic Objective 1.4         Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                 Agriculture Credit Insurance Fund - Direct
 Ratings                        •   FY 2006 : Adequate
 Lead Agency                    •   USDA Farm Service Agency
 Major Findings/                •   Implement FSA's new Farm Business Plan in the fall of 2004 which will improve the
 Recommendations                    agency's ability to collect detailed performance information.
 Actions Taken/Planned          •   FSA implemented the web based Farm Business Plan (FBP) management
                                    information system in FY 2004. FBP will enable FSA to better manage its loan
                                    portfolio, collect more detailed performance information, and provides the Agency
                                    with enhanced analytical tools to perform more in-depth portfolio analysis.


     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                            Agriculture Credit Insurance Fund 0151—Guaranteed
 Ratings                        •   FY 2005 : Moderately Effective
 Lead Agency                    •   USDA Farm Service Agency
 Major Findings/                •   Conduct a performance-focused review that will include, but is not limited to: analysis
 Recommendations                    of program participants; length of time borrowers remain in program; number of
                                    borrowers who "graduate" and return to the program; effectiveness of targeted
                                    assistance; and the potential to reduce subsidy rates.




                                                                                                                    USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                           161
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                           Agriculture Credit Insurance Fund 0151—Guaranteed
 Actions Taken/Planned         •   FSA has set a target date of 3/31/06 to publish a Request for Proposals in the
                                   Federal Register for an independent review of the guaranteed loan programs.


     Strategic Objective 1.4       Provide Risk Management and Financial Tools to Farmers and Ranchers
          Program Name                                     CCC Marketing Loan Payments
 Ratings                       •   FY 2005 : Effective
 Lead Agency                   •   USDA Farm Service Agency
 Major Findings/               •   Discrepancies between county offices in the delivery of services to producers should
 Recommendations                   be addressed.
 Actions Taken/Planned         •   Program policy handbooks and notices clarify CCC Marketing Assistance Loan
                                   Repayment Policies. FSA addresses problematic issues in delivery of services on an
                                   on-going basis and as problems arise. This is an ongoing process.


     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                          Counter Cyclical Payments
 Ratings                       •   FY 2006 : Adequate
 Lead Agency                   •   USDA Farm Service Agency
 Major Findings/               •   Develop an independent evaluation process to be conducted once every three
 Recommendations                   years.
 Actions Taken/Planned         •   The current legislation ends in FY 2007. The Office of Inspector General is currently
                                   conducting a review of the Direct and Counter-cyclical Program. This review is
                                   scheduled to be completed by October 2005.


     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                              Crop Insurance
 Ratings                       •   FY 2004 : Results Not Demonstrated (Adequate)
 Lead Agency                   •   USDA Risk Management Agency
 Major Findings/               •   Identify improvements in the program that will get it closer to becoming a complete
 Recommendations                   risk management tool for the agriculture sector, such as developing a successful
                                   livestock crop insurance plan.
 Actions Taken/Planned         •   Agency reviewing existing product portfolio and continuing existing pilot projects.
                                   Sales of the Livestock Risk Protection (LRP) pilot for Fed and Feeder Cattle and
                                   Livestock Gross Margin (LGM) pilots were suspended in 2004 due to potential
                                   program vulnerabilities. Sales resumed 9/30/04 after program modifications were
                                   made.


     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                           Dairy MILC Program
 Ratings                       •   FY 2006 : Results Not Demonstrated
 Lead Agency                   •   USDA Farm Service Agency
 Major Findings/               •   Conduct an audit evaluation that includes sampling the field application of dairy
 Recommendations                   operation with samples from all states and counties to be completed in 2005.




 USDA
    162             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                                Dairy MILC Program
 Actions Taken/Planned          •   The Office of the Inspector General completed an audit of MILC on August 13, 2004,
                                    and documented inconsistency in field determinations of "dairy operations." FSA
                                    developed proposed language, which would permit the Agency to establish a clear,
                                    consistent, nationwide definition of a "dairy operation." The language is currently
                                    undergoing internal review. In addition, proposed legislation to add a payment
                                    limitation of $65,000, was included in budget (Budget Year 2006) submitted to
                                    Congress on February 7, 2005. The proposed limitation should eliminate some of the
                                    problems caused by the inconsistencies; i.e., the problem of large payments to
                                    Western producers who collect MILC payments from more than one operation.


     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                         Dairy Price Support Program
 Ratings                        •   FY 2006 : Results Not Demonstrated
 Lead Agency                    •   USDA Farm Service Agency
 Major Findings/                •   Identify program improvements and alternatives that could more directly address
 Recommendations                    current problems facing dairy producers.
 Actions Taken/Planned          •   ERS is currently evaluating the impact of dairy programs on dairy farmers around the
                                    world. FSA plans to meet with ERS concerning findings and any implications for the
                                    Agency's programs. Target is 12/30/2005.


     Strategic Objective 1.4    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                               Direct Crop Payments
 Ratings                        •   FY 2004 : Adequate
 Lead Agency                    •   USDA Farm Service Agency
 Major Findings/                •   The limitations of the direct payment program will have to be dealt with legislatively.
 Recommendations                    The Administration will reduce trade barriers through trade negotiations, to create
                                    new markets for U.S. agricultural exports, so that farmers will be less reliant on
                                    government income support.
 Actions Taken/Planned          •   The Secretary of Agriculture is conducting listening sessions to obtain input on the
                                    provisions of the next Farm Bill. The input from the listening sessions will be
                                    analyzed by the Agency, to identify any changes that can be proposed to address
                                    the limitations of this program.



Strategic Goal 2
Objective 2.1
     Strategic Objective 2.1    Provide Risk Management and Financial Tools to Farmers and Ranchers
       Program Name                                 Business and Industry Guaranteed Loans
 Ratings                        •   FY 2005 : Adequate
 Lead Agency                    •   Rural Business Cooperative Service
 Major Findings/                •   Tie program performance to budget requests.
 Recommendations
 Actions Taken/Planned          •   Budget request have been linked to existing performance measures, and the agency
                                    contracted for the development of a new model for developing more comprehensive
                                    measures.




                                                                                                                     USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                            163
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 2.1    Expand Economic Opportunities through USDA Financing of Businesses
       Program Name                                           Intermediary Relending Program
 Ratings                       •   FY 2006 : Adequate
 Lead Agency                   •   Rural Business Cooperative Service
 Major Findings/               •   Establish more ambitious targets and finalize new methodology for measuring job
 Recommendations                   creation.
 Actions Taken/Planned         •   Targets have been revised and the new methodology for measuring job creation has
                                   been implemented.


     Strategic Objective 2.1    Expand Economic Opportunities through USDA Financing of Businesses
       Program Name                                      Rural Business Enterprise Grants
 Ratings                       •   FY 2006 : Results Not Demonstrated
 Lead Agency                   •   Rural Business Cooperative Service
 Major Findings/               •   Establish new performance measures.
 Recommendations
 Actions Taken/Planned         •   The agency has contacted for the development of a new model for developing more
                                   comprehensive measures.


     Strategic Objective 2.1    Expand Economic Opportunities through USDA Financing of Businesses
       Program Name                                       Value Added Producer Grants
 Ratings                       •   FY 2006 : Results Not Demonstrated
 Lead Agency                   •   Rural Business Cooperative Service
 Major Findings/               •   Establish new performance measures.
 Recommendations
 Actions Taken/Planned         •   The agency revised the agreements it uses to make grants to provide for the
                                   collection of performance measure data.



Objective 2.2
     Strategic Objective 2.2                      Improve the Quality of Life in Rural America
       Program Name                                          Community Facilities
 Ratings                       •   FY 2005 : Results Not Demonstrated
 Lead Agency                   •   Rural Housing Service
 Major Findings/               •   Conduct a program evaluation to assess the needs served by the program.
 Recommendations
 Actions Taken/Planned         •   Because the program serves a diversity of needs, the agency plans to focus on the
                                   two highest program priorities – health care and public safety – and develop goals
                                   and performance measures specific to these priorities.



   Strategic Objective 2.2                        Improve the Quality of Life in Rural America
       Program Name                                          Distance Learning and Medical Link
 Ratings                       •   FY 2006 : Adequate
 Lead Agency                   •   Rural Utilities Service
 Major Findings/               •   Improve performance measures through independent reviews and additional data
 Recommendations                   collection and periodic review of measurement models.
 Actions Taken/Planned         •   Milestones for implementing recommendations were established




 USDA
    164             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




   Strategic Objective 2.2                         Improve the Quality of Life in Rural America
       Program Name                           Multifamily Housing Direct Loans and Rental Assistance
 Ratings                        •   FY 2004 : Results Not Demonstrated (Has been upgraded)
 Lead Agency                    •   Rural Housing Service
 Major Findings/                •   Adequate long-term and annual goals and performance measures need to be
 Recommendations                    developed.
 Actions Taken/Planned          •   New and improved goals and measures have been developed in concurrence with
                                    the Office of Management and Budget.


     Strategic Objective 2.2                      Improve The Quality of Life in Rural America
       Program Name                                       Mutual Self-Help Housing Grants
 Ratings                        •   FY 2006 : Moderately Effective
 Lead Agency                    •   Rural Housing Service
 Major Findings/                •   Establish more ambitious targets.
 Recommendations
 Actions Taken/Planned          •   The agency revised its annual performance goals and measures to reflect more
                                    ambitious targets.


     Strategic Objective 2.2                       Improve the Quality of Life in Rural America
       Program Name                                Rural Electric Utility Loans and Guarantees
 Ratings                        •   FY 2004 : Adequate
 Lead Agency                    •   Rural Utilities Service
 Major Findings/                •   Target programs to areas with high poverty and require borrowers to recertify that
 Recommendations                    they serve rural areas,
 Actions Taken/Planned          •   Milestones for implementing the recommendations were established.


     Strategic Objective 2.2                       Improve the Quality of Life in Rural America
       Program Name                               Rural Water and Wastewater Grants and Loans
 Ratings                        •   FY 2004 :Results Not Demonstrated (Effective)
 Lead Agency                    •   Rural Utilities Service
 Major Findings/                •   Create long-term goals that measure outcome.
 Recommendations
 Actions Taken/Planned          •   The agency progressed toward establishing new and improved goals and measures,
                                    but did not fully complete this task.



   Strategic Objective 2.2                         Improve the Quality of Life in Rural America
       Program Name                                   Sec. 502 Single Family Housing (Direct)
 Ratings                        •   FY 2006 : Moderately Effective
 Lead Agency                    •   Rural Housing Service
 Major Findings/                •   Establish more ambitious performance targets.
 Recommendations
 Actions Taken/Planned          •   The agency revised its annual performance goals and measures to reflect more
                                    ambitious targets.




                                                                                                                  USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                         165
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 2.2                      Improve the Quality of Life in Rural America
       Program Name                              Sec. 502 Single Family Housing (Guaranteed)
 Ratings                       •   FY 2006 : Moderately Effective
 Lead Agency                   •   Rural Housing Service
 Major Findings/               •   Establish more ambitious performance targets.
 Recommendations
 Actions Taken/Planned         •   The agency revised its annual performance goals and measures to reflect more
                                   ambitious targets.


     Strategic Objective 2.2                      Improve the Quality of Life in Rural America
       Program Name                                              Telecommunications
 Ratings                       •   FY 2005 : Adequate
 Lead Agency                   •   Rural Utilities Service
 Major Findings/               •   Determine whether “first come, first served” processing of applications is adequate to
 Recommendations                   support highest priority needs and conduct periodic reviews on how well program is
                                   accomplishing long-term needs.
 Actions Taken/Planned         •   Milestones for implementing recommendations were established.



Strategic Goal 3
          Strategic Goal 3      Protection and Safety of Agriculture Food Supply/Food Safety Research
       Program Name                       Enhance Economic Opportunities for Agriculture Producers
 Ratings                       •   FY 2005 : Moderately Effective
 Lead Agency                   •   Agricultural Research Service
 Major Findings/               •   None
 Recommendations
 Actions Taken/Planned         •   NA



Objective 3.1
     Strategic Objective 3.1            Reduce the Incidence of Foodborne Illnesses Related to Meat,
                                                         Poultry and Egg Products
       Program Name                                          Food Safety Inspection Service
 Ratings                       •   FY 2004 : Adequate
 Lead Agency                   •   Food Safety Inspection Service
 Major Findings/               •   FSIS will evaluate the impact of implementing a risk-based inspection system
 Recommendations                   beyond the current pilot program.
 Actions Taken/Planned         •   FSIS submitted to OMB a qualitative analysis of the economic implications of
                                   implementing the poultry slaughter component of a risk-based food safety and food
                                   security verification system. The Agency submits a progress report to OMB on a
                                   quarterly basis on steps being taken to move toward a more risk-based inspection
                                   system.




 USDA
    166             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



Objective 3.2
     Strategic Objective 3.2         Reduce the Number/Severity of Agricultural Pest and Disease Outbreaks
       Program Name                                              Animal Welfare
 Ratings                        •   FY 2004: Results Not Demonstrated. FY 2005: Adequate
 Lead Agency                    •   APHIS
 Major Findings/                •   Include at least one additional annual measure, to more closely link annual
 Recommendations                    performance and long-term performance.
 Actions Taken/Planned          •   Complete.


     Strategic Objective 3.2         Reduce the Number/Severity of Agricultural Pest and Disease Outbreaks
       Program Name                                      Monitoring and Surveillance Programs
 Ratings                        •   FY 2005: Effective
 Lead Agency                    •   APHIS
 Major Findings/                •   Add an additional efficiency measure, such as the average cost of an investigation.
 Recommendations
 Actions Taken/Planned          •   Complete.


     Strategic Objective 3.2         Reduce the Number/Severity of Agricultural Pest and Disease Outbreaks
       Program Name                                      Pest and Disease Exclusion Programs
 Ratings                        •   FY 2006: Effective
 Lead Agency                    •   APHIS
 Major Findings/                •   Continue to establish baselines for performance measures for pest and disease
 Recommendations                    exclusions.
 Actions Taken/Planned          •   APHIS is continuing to do so.



Strategic Goal 4
        Strategic Goal 4.0                            Improve the Nation’s Nutrition and Health
          Program Name                            Commodity Supplemental Food Program (CSFP)
 Ratings                        •   FY 2006: Results Not Demonstrated
 Lead Agency                    •   Food and Nutrition Service
 Major Findings/                •   CSFP lacks performance measures, the food package could better address the
 Recommendations                    nutritional needs of elderly persons, and oversight practices are insufficient to
                                    manage and improve program performance.
 Actions Taken/Planned          •   Measures are under development, the food package has been revised, process of
                                    developing a new CSFP-specific Management Evaluation Module which contains
                                    guidance for conducting management evaluations.


        Strategic Goal 4.0                            Improve the Nation’s Nutrition and Health
       Program Name                                         Food Stamp Program (FSP)
 Ratings                        •   FY 2005: Moderately Effective
 Lead Agency                    •   Food and Nutrition Service
 Major Findings/                •   Overall the program is well run, with recommendations to develop a plan for the use
 Recommendations                    of Federal and state program funds to improve nutrition among program participants,
                                    and demonstrate the impact of program participation on hunger and dietary status.




                                                                                                                   USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                            167
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



          Strategic Goal 4.0                         Improve the Nation’s Nutrition and Health
       Program Name                                          Food Stamp Program (FSP)
 Actions Taken/Planned         •   The nutrition education plan was completed and studies are underway to provide
                                   more current data demonstrating that program participation reduces the proportion of
                                   persons who are hungry and improves dietary status.


          Strategic Goal 4.0                         Improve the Nation’s Nutrition and Health
       Program Name                                  National School Lunch Program (NSLP)
 Ratings                       •   FY 2005: Results Not Demonstrated
 Lead Agency                   •   Food and Nutrition Service
 Major Findings/               •   NSLP needs to develop performance measures, needs performance-based
 Recommendations                   reimbursement providing incentives for meals meeting the dietary guidelines, and
                                   needs improved accuracy of income information in household applications.
 Actions Taken/Planned         •   NSLP launched the HealthierUS Schools Challenge showcasing schools that
                                   promote healthy behaviors, all enacted provisions to improve certification accuracy
                                   while preserving program access for eligible people are being implemented
                                   (mandatory direct certification, household applications, annual applications, focused
                                   verification and verification follow-up), and projects have been initiated to estimate
                                   erroneous payments and assess the nutrient content of meals.


          Strategic Goal 4.0                         Improve the Nation’s Nutrition and Health
       Program Name                                     School Breakfast Program (SBP)
 Ratings                       •   FY 2006: Moderately Effective
 Lead Agency                   •   Food and Nutrition Service
 Major Findings/               •   SBP is well targeted to low-income children, participation is positively associated
 Recommendations                   with improved nutrient intakes and the program has made progress improving the
                                   nutritional content of meals. SBP needs to continue work on improving the nutritional
                                   content of meals, and implement an improved certification process for determining
                                   free meal eligibility.
 Actions Taken/Planned         •   SBP continues work to improve nutritional content of meals and rules are under
                                   development to improve certification (eliminating cost accounting for severe need
                                   schools, district-wide Provision 2 and 3 option). Also SBP is working with
                                   cooperators on innovative delivery for low-income children and working on allocation
                                   to States of $4 million for review of error-prone School Food Authorities and related
                                   training.



Strategic Goal 5
Objective 5.1
     Strategic Objective 5.1    Implement the President’s Healthy Forest Initiative and Other Actions to Improve
                                                         Management of Public Lands
       Program Name                                  Capital Improvement and Maintenance
 Ratings                       •   FY 2004 : Adequate
 Lead Agency                   •   Forest Service
 Major Findings/               •   Continue to improve the maintenance prioritization process and increase incentives
 Recommendations                   aimed at decommissioning obsolete and underutilized infrastructure.
 Actions Taken/Planned         •   In April 2005, the agency submitted a legislative proposal to Congress for adoption
                                   of permanent conveyance authority and use of receipts for capital improvement and
                                   maintenance backlog needs. It also included authority to establish a working capital
                                   fund (WCF) for facility maintenance. The agency believes that, through assessment
                                   to other programs, agency managers will have added incentive to optimize space
                                   and eliminate poorly utilized facilities. Congress partially adopted the proposal by




 USDA
    168             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 5.1     Implement the President’s Healthy Forest Initiative and Other Actions to Improve
                                                          Management of Public Lands
          Program Name                                  Capital Improvement and Maintenance
                                    authorizing conveyance authority for projects initiated by FY 2008 (not permanent)
                                    and by authorizing a facility maintenance collection account in FY 2006 (in lieu of
                                    WCF).


     Strategic Objective 5.1     Implement the President’s Healthy Forest Initiative and Other Actions to Improve
                                                          Management of Public Lands
       Program Name                                                  Forest Legacy
 Ratings                        •   FY 2005 : Moderately Effective
 Lead Agency                    •   Forest Service
 Major Findings/                •   To continue improvements to performance, the program will target the maintenance
 Recommendations                    of working forests and use of appraisals, signed options, and monitoring protocols in
                                    making project selections.
 Actions Taken/Planned          •   The Forest Service is developing a field handbook to assist new FLP managers in
                                    initiating and maintaining FLP in their States. This document is intended to provide
                                    clear reference and guidance on aspects of program management. The handbook
                                    will include practical guidance on monitoring protocols and baseline documentation
                                    development as well as information on appraisals and standard option contracts and
                                    their execution.


     Strategic Objective 5.1     Implement the President’s Healthy Forest Initiative and Other Actions to Improve
                                                          Management of Public Lands
       Program Name                                              Invasive Species
 Ratings                        •   FY 2004 : Results Not Demonstrated
 Lead Agency                    •   Forest Service
 Major Findings/                •   Refine outcome-based performance measures for selected species; develop
 Recommendations                    appropriate efficiency measures; and articulate the scientific or policy basis to
                                    demonstrate how those selected species measured represent a valid method to
                                    measure the total invasive species population and their impacts.
 Actions Taken/Planned          •   Data is being collected on the number of acres prioritized for treatment using various
                                    scientific assessments, protocols, and criteria to address a potential or existing
                                    invasive species infestation. Monitoring of the priority acres treated will provide an
                                    assessment of the number (and percentage) of the priority treated acres that were
                                    successfully protected (according to the project plan - where the target species was
                                    actually prevented, controlled, or eradicated).


     Strategic Objective 5.1     Implement the President’s Healthy Forest Initiative and Other Actions to Improve
                                                          Management of Public Lands
       Program Name                                              Land Acquisition
 Ratings                        •   FY 2005 : Results Not Demonstrated
 Lead Agency                    •   Forest Service
 Major Findings/                •   Establish processes that provide analyses of integrated spatial data sets on land
 Recommendations                    management units, eco-regions, conservation lands, land cover, and species to
                                    identify gaps or needs that in turn highlight priority areas in need of habitat,
                                    ecosystem and biodiversity protection. These analyses will provide information on
                                    public benefits provided by acquisitions of private lands for Federal ownership and
                                    identify what lands the Federal agency could optimally target for land acquisition.
 Actions Taken/Planned          •   The agency has jointly published its DOI/FS National Land Acquisition Plan that
                                    provides a planning framework for land acquisition decisions in considering the
                                    priority and future needs of the program.




                                                                                                                   USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                            169
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




     Strategic Objective 5.1    Implement the President’s Healthy Forest Initiative and Other Actions to Improve
                                                         Management of Public Lands
       Program Name                                        Wildland Fire Management
 Ratings                       •   FY 2004 : Results Not Demonstrated
 Lead Agency                   •   Forest Service
 Major Findings/               •   Develop a new fire preparedness model that focuses on efficient allocation of
 Recommendations                   available resources.
 Actions Taken/Planned         •   The Initial Response preparedness model was deployed. Refinements are
                                   continuing with major refinements scheduled for completion Fall 2005. All Fire
                                   Planning Units are scheduled to complete a Phase I analysis by late winter 2006.
                                   Another phase of the Fire Program Analysis is being explored that goes beyond
                                   initial preparedness. This will analyze extended response, large fire, prevention,
                                   rehabilitation and fuels. The scope document is complete; charter development and
                                   architecture design are ongoing. It will be developed in two stages concurrently.
                                   Stage 1 will analyze and develop extended response, large fire, and prevention; it is
                                   scheduled for release June 2007. Stage 2 will analyze and develop rehabilitation and
                                   fuels requirements; it is scheduled for release June 2008.



Objective 5.2

     Strategic Objective 5.2                           Improve Management of Private Lands
       Program Name                                    Conservation Technical Assistance
 Ratings                       •   FY 2005 : Results Not Demonstrated
 Lead Agency                   •   NRCS
 Major Findings/               •   Develop long-term performance measures that are outcome-based. Improve annual
 Recommendations                   measures to better reflect CTA activities.
 Actions Taken/Planned         •   Performance measures established and annual measures improved.



     Strategic Objective 5.2                           Improve Management of Private Lands
       Program Name                                Farm and Ranch Lands Protection Program
 Ratings                       •   FY 2004 : Results Not Demonstrated (Adequate)
 Lead Agency                   •   NRCS
 Major Findings/               •   Design and implement an evaluation system that will provide outcome performance
 Recommendations                   indicators.
 Actions Taken/Planned         •   Annual and long term performance measures developed.


     Strategic Objective 5.2                           Improve Management of Private Lands
       Program Name                                      Emergency Watershed Protection
 Ratings                       •   FY 2006 : Results Not Demonstrated
 Lead Agency                   •   NRCS
 Major Findings/               •   Develop long-term, outcome-based performance measures that asses the program’s
 Recommendations                   disaster recovery activities. Refine program’s efficiency measures and conduct an in-
                                   depth program evaluation.
 Actions Taken/Planned         •   Final rule for EWP issued on 4/5/05 which will improve effectiveness of agency
                                   response to natural disasters.




 USDA
    170             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 5.2                            Improve Management of Private Lands
       Program Name                                 Environmental Quality Incentives Program
 Ratings                        •   FY 2006 : Moderately Effective
 Lead Agency                    •   NRCS
 Major Findings/                •   Develop baselines and performance targets for the new long-term performance
 Recommendations                    measures and improve/refine efficiency measures.
 Actions Taken/Planned          •   Activities were redefined in reporting system in order to improve the accuracy of cost
                                    information.


     Strategic Objective 5.2                            Improve Management of Private Lands
       Program Name                                        National Resources Inventory
 Ratings                        •   FY 2005 : Results Not Demonstrated
 Lead Agency                    •   NRCS
 Major Findings/                •   Develop long-term performance measures and set ambitious targets for the
 Recommendations                    measures. Develop efficiency measures.
 Actions Taken/Planned          •   Long-term performance and efficiency measures developed based on NRI Logic
                                    Model.


     Strategic Objective 5.2                            Improve Management of Private Lands
       Program Name                                   Resource Conservation and Development
 Ratings                        •   FY 2006 : Results Not Demonstrated
 Lead Agency                    •   NRCS
 Major Findings/                •   Develop and implement improved outcome-based long term performance measures.
 Recommendations                    Implement the recommendations developed by the NRCS oversight and evaluation
                                    review of the RC&D program.
 Actions Taken/Planned          •   National RC&D Program Evaluation required by the 2002 Farm Bill has been
                                    completed and is pending OMB approval.


     Strategic Objective 5.2                            Improve Management of Private Lands
       Program Name                                           Plant Materials Center
 Ratings                        •   FY 2005 : Results Not Demonstrated (Moderately Effective)
 Lead Agency                    •   NRCS
 Major Findings/                •   Develop long-term performance measures and set ambitious targets for the
 Recommendations                    measures. Develop efficiency measures
 Actions Taken/Planned          •   Long-term performance and efficiency measures completed. Re-PART completed on
                                    4/15/05.


     Strategic Objective 5.2                            Improve Management of Private Lands
       Program Name                                                   Soil Surveys
 Ratings                        •   FY 2005 : Moderately Effective
 Lead Agency                    •   NRCS
 Major Findings/                •   Develop program efficiency measures and improve long-term performance reporting.
 Recommendations
 Actions Taken/Planned          •   Efficiency measures developed and targets updated.




                                                                                                                   USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                          171
                               ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



     Strategic Objective 5.2                           Improve Management of Private Lands
       Program Name                                                 Snow Surveys
 Ratings                       •   FY 2005 : Moderately Effective
 Lead Agency                   •   NRCS
 Major Findings/               •   Develop program efficiency measures and improve long-term performance reporting.
 Recommendations
 Actions Taken/Planned         •   Program efficiency measure completed and targets updated.



     Strategic Objective 5.2                           Improve Management of Private Lands
       Program Name                                             Watershed Programs
 Ratings                       •   FY 2006 : Adequate
 Lead Agency                   •   NRCS
 Major Findings/               •   Continue to refine the new annual performance measures and establish baselines
 Recommendations                   for the new efficiency measures.
 Actions Taken/Planned         •   Refinement of annual performance measures completed. Use of Direct Charge for
                                   time worked results in more accurate information for reporting program efficiencies.


     Strategic Objective 5.2                           Improve Management of Private Lands
       Program Name                                    Wildlife Habitat Incentives Program
 Ratings                       •   FY 2004 : Results Not Demonstrated
 Lead Agency                   •   NRCS
 Major Findings/               •   Develop efficiency measures and outcome-based performance measures and
 Recommendations                   targets. Also, develop baselines for annual and long term measures.
 Actions Taken/Planned         •   Baseline completed and measures have been identified.



Strategic Goals 1, 2, 3 and 5
 Strategic Goals 1, 2, 3       1. Enhance Economic Opportunities for Agriculture Producers
 and 5                         2. Support Increased Economic Opportunities and Improved Quality of Life in
                                  Rural America
                               3. Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
                               5. Protect and Enhance the Nation’s Natural Resource Base and Environment
       Program Name                           National Agricultural Statistics Service – All Activities
 Ratings                       •   FY 2006 : Moderately Effective
 Lead Agency                   •   National Agricultural Statistics Service (NASS)
 Major Findings/               •   None
 Recommendations
 Actions Taken/Planned         •   NA.




 USDA
    172             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                     ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM




PROGRAM EVALUATIONS
 Perform.
  Measure                       Title             Findings and Recommendations/Actions                      Availability
 1.1.1              GAO Report, March            Findings: GAO recommended that the                Report is available at
                    2000, GAO/NSIAD-00-76        Office of the U.S. Trade Representative           http://www.gao.gov/new.items
                    - International Trade:       (USTR) and the U.S. Departments of                /ns00076.pdf
                    Strategy Needed to           Commerce and Agriculture jointly develop a
                    Better Monitor and           strategy to manage the U.S. Government’s
                    Enforce Trade                growing trade agreement monitoring and
                    Agreements.                  enforcement workload better.
                                                 Actions: GAO and FAS Deputy
                                                 Administrator for International Trade Policy
                                                 activities are working to implement the GAO
                                                 report recommendations.
                    GAO Report, October 6,       Findings: GAO recommended that the four           Report is available at
                    2004, GAO/05-53 - U.S.       key agencies (USTR, State, Commerce and           www.gao.gov/cgi-
                    China Trade:                 Agriculture) undertake a range of actions,        bin/getrpt?GAO-05-53
                    Opportunities to Improve     including steps to improve timeliness and
                    U.S. Government Efforts      participation in WTO's annual review of
                    to Ensure China's            China's compliance, developing unit-level
                    Compliance with WTO          plans and measures that reflect agency plans
                    Commitments                  and measures, and training staff effectively.
                                                 Actions: USDA forwarded its formal
                                                 Statement of Action to GAO and Congress on
                                                 November 29, 2004. USDA continues to work
                                                 on implementing the recommendations.
                    GAO Report, January 25,      Findings: Related to GAO-05-53, this              Report is available at
                    2005, GAO-05-209R -          report is GAO's response to Congress'             www.gao.gov/docdblite/summ
                    U.S. China Trade -           request for detailed information about the        ary.php?rptno=GAO-05-
                    Summary of 2003 WTO          Transitional Review Mechanism process in          290R&accno=A16256
                    Transitional Review          2003. The response is designed to allow
                    Mechanism for China          Congress to gauge the level of activity and
                                                 efficacy of the U.S. and other WTO members'
                                                 efforts better to utilize it.
                                                 Actions: No action required.
                    GAO Report, February 4,      Findings: This report contains GAO's              Report is available at
                    2005, GAO-05-295T -          testimony before the U.S.-China Economic          www.gao.gov/docdblite/summ
                    U.S. China Trade -           and Security Review Commission. GAO               ary.php?rptno=GAO-05-
                    Observations on              discussed the key findings, conclusions and       295T&accno=A16859
                    Ensuring China's             recommendations from its recently issued
                    Compliance with WTO          work on China-WTO issues. It also updated
                    Commitments                  the commission on a number of ongoing GAO
                                                 reviews on China trade and economic issues.
                                                 Actions: No action required.
                    GAO Report, March 25,        Findings: GAO recommends that the U.S.            Report is available at
                    2005, GAO-05-272 -           Department of State, in collaboration with        www.gao.gov/cgi-
                    International Trade - U.S.   USDA and other relevant agencies to (1)           bin/getrpt?GAO-05-272
                    Agencies Need Greater        develop an action plan under the Partnership
                    Focus to Support             for Prosperity Initiative laying out specific
                    Mexico's Successful          collaborative efforts on rural development that
                    Transition to Liberalized    would support NAFTA’s implementation, and
                    Agricultural Trade under     (2) use the initiative to expand collaborative
                    NAFTA                        efforts with the Mexican Government to
                                                 facilitate credit availability in rural Mexico.
                                                 Actions: The U.S. Department of State has
                                                 the lead on resolution and, as such, was the
                                                 only agency required to submit a Statement
                                                 of Action.




                                                                                                                            USDA
                                     FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                           173
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title             Findings and Recommendations/Actions                     Availability
 1.1.1              GAO Report, March 18,      Findings: The report is informational in          Report is available at
 (cont’d)           2005, GAO-05-166 -         nature. GAO was asked to analyze the              www.gao.gov/cgi-
                    Free Trade Area of the     progress made in Free Trade Area of the           bin/getrpt?GAO-05-166
                    Americas - Missed          Americas (FTAA) negotiations since GAO's
                    Deadline Prompts Efforts   last report (April 2003), the factors that have
                    to Restart Stalled         been influencing its progress and future FTAA
                    Hemispheric Trade          prospects. GAO found that three key factors
                    Negotiations               have been impeding progress in the FTAA
                                               negotiations: (1) the U.S. and Brazil have
                                               made little progress in resolving their basic
                                               differences on key negotiation issues; (2)
                                               member Governments have shifted energy
                                               and engagement from the FTAA to bilateral
                                               and multilateral trade agreements; and (3)
                                               mechanisms intended to facilitate a U.S.-
                                               Brazil compromise have failed.
                                               Actions: No action required
                    GAO Report, May 31,        Findings: This informational report was a         Report is available at
                    2005, GAO-05-538 -         multi-agency review involving USDA and            www.gao.gov/cgi-
                    World Trade                other agencies. FAS was the only agency           bin/getrpt?GAO-05-538
                    Organization - Global      contacted or visited for this review.
                    Trade Talks back on        Actions: No action required.
                    Track, But Considerable
                    Work Needed to Fulfill
                    Ambitious Objectives
                    GAO Report, June 20,       Findings: GAO's report does include               Report is available at
                    2005, GAO-05-537 -         recommendations for the Secretary of              www.gao.gov/cgi-
                    International Trade -      Agriculture. Specifically, GAO recommends         bin/getrpt?GAO-05-537
                    Further Improvements       that USDA, USTR, Commerce and State: (1)
                    Needed to Handle           develop a strategy for improving trade
                    Growing Workload for       compliance training; and (2) develop a
                    Monitoring and Enforcing   resource strategy for monitoring and
                    Trade Agreements           enforcing trade agreements.
                                               Actions: USDA's formal Statement of
                                               Action is pending signature by the Secretary.
                    OIG-01001-02-Hy:           Findings: AMS needs to improve                    Report is available at:
                    Agricultural Marketing     management controls for administering the         http://www.oig.usda.gov
                    Service’s National         National Organic Program (NOP). OIG made
                    Organic Program            10 separate recommendations for
                                               strengthening policy/procedures to improve
                                               management control.
                                               Actions: AMS has agreed to strengthen
                                               controls over the NOP and, accordingly, is
                                               developing/clarifying policies and procedures
                                               to address OIG’s concerns.
                    OIG-01099-31-Hy:           Findings: AMS has opportunities to                Report is available at:
                    Purchase Specification     improve management controls to ensure that        http://www.oig.usda.gov
                    Requirements for Ground    ground beef is purchased from qualified
                    Beef                       suppliers and meets quality standards.
                                               Actions: AMS already had implemented
                                               many of the proposed corrective actions and
                                               is resolving the other outstanding issues with
                                               OIG.




 USDA
    174             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                     ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                    Title              Findings and Recommendations/Actions                      Availability
 1.1.1              OIG-01099-4-Te:            Findings: AMS has opportunities to                 Report is available at:
 (cont’d)           Livestock Mandatory        improve the application controls with respect      http://www.oig.usda.gov
                    Price Reporting System –   to the Livestock Mandatory Price Reporting
                    Application Controls       System (LMPRS). Twelve specific/technical
                                               recommendations were made to improve
                                               control in this area.
                                               Actions: AMS reached management
                                               decision on all 12 recommendations and has
                                               implemented the necessary corrective
                                               actions.
 1.2.1              GAO Report, February       Findings: GAO recommends that the                  Report is available at
                    11, 2005, GAO-05-150       Administrator of the U.S. Agency for               www.gao.gov/cgi-
                                               International Development (USAID) and              bin/getrpt?GAO-05-150
                                               USTR act as co-chairs of the trade capacity
                                               building working group. In consultation with
                                               other agencies that fund and implement trade
                                               capacity building assistance, the two should
                                               develop a strategy to monitor and measure
                                               results systematically and evaluate the
                                               assistance’s effectiveness. GAO also
                                               recommends that USAID set milestones for
                                               completing its efforts to develop indicators for
                                               results measurement and periodic
                                               evaluations. There were no recommendations
                                               for USDA.
                                               Actions: No USDA action required.
 1.3.1              GAO-040437, Improved       Findings:                                          Report is available on
                    USDA Management            Execute a management plan for completing           www.gao.gov/cgi-
                    Would Help Agencies        the work.                                          bin/getrpt?GAO-04-437.
                    Comply with Farm Bill      Identify and allocate the staff and financial
                    Purchasing                 resources needed.
                    Requirements
                                               State the priority for the work’s completion
                                               clearly.
                                               Actions: USDA has executed a
                                               management plan for completing the
                                               implementation of the Federal Biobased
                                               Products Preferred Procurement Program
                                               and for the management of the program,
                                               once fully operational. This management plan
                                               has been provided to GAO. USDA has
                                               identified and allocated staff and financial
                                               resources needed to fully implement and
                                               operate the program. The model procurement
                                               program, for which USDA’s Office of
                                               Administration has responsibility, is not
                                               included in the OCE analysis and staff and
                                               financial resources determinations. USDA has
                                               placed a high priority on full implementation of
                                               the Preferred Procurement Program and on
                                               coordination between OCE and OA in
                                               facilitating successful development and
                                               operation of OA’s Model Procurement
                                               Program.




                                                                                                                         USDA
                                     FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                          175
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title             Findings and Recommendations/Actions                     Availability
 1.4.1              OIG-05401-13-FM,           Findings: RMA needs to improve                   Report is available at
                    Financial Statements for   information technology security controls,        http://www.usda.gov/oig/rptsa
                    Fiscal Years 2003 and      application program and database change          uditsrma.htm
                    2004                       controls, the preparation of the Statement of
                                               Budgetary Resources and Statement of
                                               Financing, and loss reserve estimates.
                                               Actions: RMA has implemented actions
                                               necessary to address the above items.
 1.4.1              OIG-05099-109-KC,          Findings: RMA needs to develop a                 Report is available at
 (cont’d).          Renegotiation of the       detained strategy for implementing key           http://www.usda.gov/oig/rptsa
                    Standard Reinsurance       provisions contained in the 2005 SRA.            uditsrma.htm
                    Agreement                  Actions: RMA has implemented actions
                                               necessary to address this finding.
                    OIG-05601-7-At, Survey     Findings: RMA should improve its quality         Report is available at
                    of Cotton Crop Insurance   control of the ratemaking process.               http://www.usda.gov/oig/rptsa
                    Premium Rates              Actions: RMA generally agreed with this          uditsrma.htm
                                               finding, and has initiated actions to address
                                               this matter.
                    OIG-05601-12-Te,           Findings: RMA needs to strengthen its            Report is available at
                    Survey of Pilot Programs   monitoring of pilot programs.                    http://www.usda.gov/oig/rptsa
                                               Recommendations/Actions: RMA has                 uditsrma.htm
                                               completed the actions recommended by OIG
                                               to address this matter.
                    GAO-04-517, DATA           Findings: For the five agencies reviewed,        Report is available at
                    MINING: Agencies Have      efforts are needed to ensure adequate            http://www.gao.gov
                    Taken Key Steps to         privacy and security protections are in place.
                    Protect Privacy in         Actions: While the agencies generally
                    Selected Efforts, but      agreed with the majority of GAO’s
                    Significant Compliance     recommendations, they disagreed with
                    Issues Remain              others. RMA continues taking action to
                                               address the recommendations.
 1.4.2              Farm Service Agency        Findings: An independent evaluation of the       Report is available on
                    Direct Farm Loan           Direct Farm Loan program was completed in        http://www.fsa.usda.gov/DAF
                    Effectiveness Study        FY 2005 by the University of Arkansas. The       L/whatsnew.htm
                                               study found that current lending patterns, in
                                               terms of servicing targeted borrowers, are
                                               consistent with the program’s goals. In
                                               addition, consistent with the program’s
                                               intended design, the majority of borrowers
                                               uses the program on a temporary basis and
                                               does not become permanent clients.
                                               Actions: Action plan is currently under
                                               development.
 2.1.1              Business Programs          Findings: National Office evaluations of the     Summary of findings to be
                    Assessment Reviews         performance of individual State offices.         available on RD Intranet web
                                                                                                      nd
                    (BPAR)                     Actions: Findings and recommendations            site 2 quarter of FY 2005.
                                               vary widely by State.
 2.2.3 and          Telecommunications and     Findings: Subscriber growth is tracked           Performance data available in
 2.2.4              Electric Data validation   quarterly on an aggregate basis for              a variety of reporting
                    process                    performance measurement reporting.               documents and from the RUS
                                               Actions: Individual project data are             BPI coordinator.
                                               examined periodically by the program line        Project data are available
                                               offices, and are verified by General Field       from the individual program
                                               Representatives when loans are in process.       line offices. Contact Electric
                                                                                                Program at 202-720-9545
                                                                                                Contact Telecommunications
                                                                                                Program at 202-720-9554




 USDA
    176             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title              Findings and Recommendations/Actions                     Availability
 3.1.2              Evaluation of the           Findings: FSIS evaluated the                      Information may be requested
                    Implementation of           implementation of its Directive 10,240.4,         from the USDA Food Safety
                    Directive 10,240.4          which focused on verification of RTE              Inspection Service—Office of
                    Regarding Listeria          establishments’ compliance with the Listeria      Program Evaluation,
                    Monocytogenes               Monocytogenes Interim Final Rule (68 FR           Enforcement and Review.
                                                34207). The evaluation report presented
                                                findings and recommendations that                 Program Evaluation and
                                                addressed whether inspection program              Improvement Staff
                                                personal had implemented the directive            USDA-FSIS
                                                properly, and whether they received sufficient    202-720-6735
                                                training to execute their verification
                                                responsibilities.
                                                Actions: Completed December 20, 2004.
                    GAO-05-51: USDA and         Findings: Even in the context of their            Report available at
                    FDA Need to Better          limited recall authority, USDA and FDA can        www.gao.gov/new.items/d055
                    Ensure Prompt and           do a better job in executing their food-recall    1.pdf
                    Complete Recalls of         programs. The final report was released to
                    Potentially Unsafe Food     the public, November 5, 2004.                     Program Evaluation and
                                                Actions: FSIS generally agreed with these         Improvement Staff
                                                findings and continues to take action to          USDA-FSIS
                                                address them.                                     202-720-6735
                    OIG 24601-5 At:             Findings: HACCP systems at very small             Report available at
                    Hazard Analysis and         plants need improvement to ensure the             www.usda.gov/webdocs/24t0
                    Critical Control Point      wholesomeness of the meat and poultry             1-05-AT.pdf
                    Implementation at Very      produced for consumers. The final report was
                    Small Plants                issued, June 24, 2005.                            Program Evaluation and
                                                Actions: FSIS generally agreed with these         Improvement Staff
                                                findings and continues to take action to          USDA-FSIS
                                                address them.                                     202-720-6735
 3.1.3              FSIS Reviews of Foreign     Findings: To export product to the U.S.,          Information may be requested
                    Meat and Poultry            foreign establishments must demonstrate           from the USDA Food Safety
                    Establishments (2004)       equivalent inspection programs, including         Inspection Service—Office of
                                                acceptable pathogen testing programs. FSIS        Program Evaluation,
                                                reviews these programs to ensure                  Enforcement and Review.
                                                equivalency standards are met.                    Program Evaluation and
                                                Actions: Reviews conducted at least once          Improvement Staff
                                                per year per exporting country, depending on      USDA-FSIS
                                                compliance history. Countries and/or              202-720-6735
                                                establishments may be listed or de-listed as
                                                approved exporters depending on these and
                                                other evaluations.
                    Evaluation of the           Findings: Program Evaluation and                  Information may be requested
                    Implementation of           Improvement Staff (PEIS will conduct an           from the USDA Food Safety
                    Directive 10,010.1 (2004)   evaluation of the implementation of FSIS          Inspection Service—Office of
                                                Directive 10,010.1, concerning sampling for       Program Evaluation,
                                                E. coli 0157:H7, approximately 6 months after     Enforcement and Review.
                                                its effective date. Although Office of Field
                                                Operations (OFO) implementation will be           Program Evaluation and
                                                examined directly, the evaluation’s goal will     Improvement Staff
                                                be to determine if changes to inspection          USDA-FSIS
                                                policy or the Directive itself are necessary to   202-720-6735
                                                protect public health better.
                                                Actions: Completed December 20, 2004.




                                                                                                                         USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                        177
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title              Findings and Recommendations/Actions                           Availability
 3.1.3              Evaluation of Alternative   Findings: FSIS is evaluating the                       Information may be requested
 (cont’d).          Site Sampling of            implementation of FSIS Notice 33-04, under             from the USDA Food Safety
                    Condemned Cattle            which FSIS ensures that condemned cattle               Inspection Service—Office of
                                                moved from Federal establishments to off-site          Program Evaluation,
                                                locations for BSE testing by APHIS are tested          Enforcement and Review,
                                                and not diverted into the food supply. OPEER
                                                is conducted the evaluation specifically in            Program Evaluation and
                                                response to an OIG audit.                              Improvement Staff
                                                Actions: Completed August 2005.                        USDA-FSIS
                                                                                                       202-720-6735
 3.1.4              FSIS Communications         Findings: FSIS held a series of food-security          Information may be requested
                    and Outreach to Small       workshops from May through July 2005. The              from the USDA Food Safety
                    Businesses                  workshops addressed various food-security              Inspection Service—Office of
                                                issues relevant to small business owners and           Program Evaluation,
                                                operators. Following these workshops,                  Enforcement and Review.
                                                questionnaires were distributed to determine
                                                which modes of communication and FSIS                  Program Evaluation and
                                                activities workshop attendees found most useful.       Improvement Staff
                                                FSIS evaluated responses to these                      USDA-FSIS
                                                questionnaires to determine the most effective         202-720-6735
                                                communication strategies.
                                                Actions: Completed August 2005.
                    GAO 05-213:                 Findings: Federal agencies are spending                The report is available at
                    OVERSIGHT OF FOOD           some resources on overlapping food-safety              www.gao.gov/new.items/d052
                    SAFETY ACTIVITIES:          activities designed to ensure the safety and quality   13.pdf
                    Federal Agencies Should     of domestic and imported food. The final report
                    Pursue Opportunities to     was issued to the public, May 17, 2005.                Program Evaluation and
                    Reduce Overlap and          Actions: FSIS generally agreed with these              Improvement Staff
                    Better Leverage             findings and continues to take action to address       USDA-FSIS
                    Resources                   them.                                                  202-720-6735
 3.2.1              “Animal Health              Findings: The National Association of                  NASDA’s final report was
                    Safeguarding Report”        State Departments of Agriculture (NASDA)               delivered to USDA officials in
                                                conducted a review of the USDA’s Animal                November 2001 and is available
                                                Health Safeguarding system, assessing the              at
                                                performance and efficacy of the infrastructure,        www.aphis.usda.gov/vs/pdf_fi
                                                activities, procedures, policies, partnerships         les/safeguarding.pdf
                                                and authorities that comprise the existing             Progress achieved in
                                                safeguarding system.                                   implementing the Review is
                                                Actions: The review found performance                  reported by these Issue Groups
                                                adequate in handling most assigned roles,
                                                and even heroic in some historical efforts to
                                                eradicate diseases that have infected U.S.
                                                livestock—but resources were fast becoming
                                                overwhelmed. The review called for:
                                                Improving areas that include, but are not
                                                limited to, staffing, equipment, surveillance,
                                                detection, applied research, communications
                                                and border security.
                                                Improving interagency and interdepartmental
                                                cooperation, and the resources to facilitate it.
                                                APHIS formed seven issue groups to develop
                                                action plans to address the issues raised in
                                                the NASDA review.




 USDA
    178             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title             Findings and Recommendations/Actions                      Availability
                    “Exotic Newcastle          Findings: An evaluation of APHIS’                  A copy of the report may be
                    Disease (END) After        response to Exotic Newcastle Disease led           obtained from Dr. John
                    Action Review” (2004)      to general recommendations about USDA’s            Clifford, Deputy
                                               animal health emergency response systems.          Administrator, USDA APHIS
                                               It was finalized on May 21, 2004.                  Veterinary Services, 202-720-
                                               Actions: Four major areas were covered in          5193
                                               the report:
                                               Preparedness;
                                               The Incident Command System;
                                               Human resources; and
                                               External engagement (Action: Pending)
                    “Report of the             Findings: At the request of the Secretary of       The report is available at:
                    Secretary’s Advisory       Agriculture, an international expert Bovine        http://www.animalagriculture.
                    committee on Foreign       Spongiform Encephalopathy (BSE) panel              org/BSE/Report_Sec_BSE_2
                    Animal and Poultry         was convened to review actions taken by the        _13_04.htm
                    Diseases: Measures         United States in response to a single finding      For information about actions
                    Relating to Bovine         of BSE. The panel, which was organized as a        taken see:
                    Spongiform                 subcommittee of the Secretary’s Foreign            http://www.aphis.usda.gov/lpa
                    Encephalopathy in the      Animal and Poultry Disease Advisory                /issues/bse_testing/index.htm
                    United States “Animal      Committee, provided its report on February 4,      lhttp://www.aphis.usda.gov/vs
                    Health Safeguarding        2004.                                              /pdf_files/safeguarding.pdf
                    Report”                    Actions: Among the actions taken after this
                                               report was received were:
                                               Increased sampling for BSE
                                               Animal Identification System – Listening
                                               Session; and
                                               web site development.
 4.1.1              Food Stamp Participation   Findings: This report presents the latest in       Available on the FNS web
                    Rates 2003                 a series on participation rates based on           site at http://www.fns.usda.
                                               Current Population Survey and national             gov/oane/MENU/Published/F
                                               participation rates for fiscal year 2003. The      SP/participation.htm
                                               findings of this report indicate that 56 percent
                                               of the individuals eligible for food stamp
                                               benefits choose to participate. Thus, it
                                               appears that the Food Stamp Program (FSP)
                                               is reaching the neediest eligible individuals.
                                               Nationally, the participation rate among
                                               individuals rose almost 2 percent between
                                               2002 and 2003.
                                               Actions: The report contained no
                                               recommendations for further action by USDA.
                    State Food Stamp           Findings: In general, the pattern of               Available on the FNS website
                    Participation Rates For    participation rates based on these estimates       at http://www.fns.usda.gov/
                    The working Poor in        show that overall participation among the          oane/MENU/Published/FSP/p
                    2002                       working poor vary widely across States.            articipation.htm
                                               Some are higher than 60 percent while others
                                               are lower than 40 percent. In most States,
                                               participation among the working poor is
                                               significantly less among all eligible.
                                               Actions: The report contained no
                                               recommendations for further action by USDA.




                                                                                                                         USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                        179
                                       ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                      Title              Findings and Recommendations/Actions                    Availability
                    Food Stamp Benefits and      Findings: The analysis confirms that food        Available on the FNS web
                    Participation Rates within   stamp participation rates generally increase     site at
                    Demographic Groups           as benefit levels rise. Among several eligible   http://www.fns.usda.gov/oane
                                                 non-participant groups and individuals in        /MENU/Published/FSP/partici
                                                 households with earnings are likely to qualify   pation.htm
                                                 for substantial monthly benefit.
                                                 Actions: The report contained no
                                                 recommendation for further action by USDA.
                    Reaching Those In Need:      Findings: The report shows that FSP              Available on the FNS web
                    State Food Stamp             participation rates continue to vary among       site at
                    Participation Rates in       States. Additionally, some States consistently   http://www.fns.usda.gov/oane
                    2002                         have high participation rates relative to        /MENU/Published/FSP/partici
                                                 others.                                          pation.htm
                                                 Actions: The report contained no
                                                 recommendation for further action by USDA.
                                                 Findings: This report shows how rates for        Available on the FNS web
                                                 the working poor vary across States and how      site at
                    State Food Stamp                                                              http://www.fns.usda.gov/oane
                                                 the rates differ between the working poor and
                    Participation Rates for                                                       /MENU/Published/FSP/partici
                                                 all eligible people.
                    the Working Poor in 2001                                                      pation.htm
                                                 Actions: This report did not contain
                                                 recommendations for further action by USDA.
                    Assessing                    Findings: This study examines the                Available on the FNS web
                    Implementation of the        implementation of Legal Immigrant Food           site at
                    2002 Farm Bill’s Legal       Stamp provisions given the different State       http://www.fns.usda.gov/oane
                    Immigrant Food Stamp         and local approaches to restore eligibility of   /MENU/Published/FSP/partici
                    Restorations                 immigrant households into the program.           pation.htm
                                                 Approximately 150,000 legal immigrants were
                                                 added to food stamp case loads across 8
                                                 States. The majority of those added were
                                                 former State-funded food assistance
                                                 participants.
                                                 Actions: This report did not contain
                                                 recommendations for further action by USDA.
 4.1.2              Evaluation of the School     Findings: The study indicates that, on           Available on the FNS web
                    Breakfast Program (SBP)      average, the current SBP improves academic       site at
                    Pilot                        or behavior outcomes. It also provides a         http://www.fns.usda.gov/oane
                                                 program offering free school breakfast to all    /MENU/Published/CNP/cnp.
                                                 elementary school students.                      htm
                                                 Actions: This report did not contain
                                                 recommendations for further action by USDA.
 4.2.2              Obesity, Poverty and         Findings: The report presents the                Available on the FNS web
                    Participation in Nutrition   conclusions of an expert panel to determine if   site at
                    assistance Programs          there is scientific evidence of a relationship   http://www.fns.usda.gov/oane
                                                 between program participants and excess          /MENU/Published/NutritionEd
                                                 weight. The panel concluded that it is           ucation/NutEd.htm
                                                 necessary to separate the effects of poverty
                                                 to determine, as measured by household,
                                                 income associated with obesity.
                                                 Actions: This report did not contain
                                                 recommendations for further action by USDA.




 USDA
    180             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title              Findings and Recommendations/Actions                         Availability
 4.2.2              Fit Special Supplemental    Findings: This project focused on how WIC            Available on the FNS web
                    Nutritional Program for     could better address the problem of childhood        site at
                    Women, Infants and          obesity. Many parents of overweight                  http://www.fns.usda.gov/oane
                    Children                    preschool children did not see their children        /MENU/Published/WIC/WIC.
                    (WIC): Programs to          as overweight, nor were they particularly            htm
                    Prevent Childhood           concerned about their child’s weight. Parents
                    Overweight in Your          were eager to receive information on ways to
                    Community.                  promote healthy eating patterns in their
                                                families.
                                                Actions: Potential strategies include
                                                development of participant-centered
                                                assessment and education procedures, and
                                                expanding training for WIC staff.
 4.2.2              Team Nutrition              Findings: This report documents the                  Available on the FNS web
                    Demonstration Project       process (steps, time and resources) for fully        site at
                                                implementing Team Nutrition (TN) using the           http://www.fns.usda.gov/oane
                                                classroom and cafeteria as delivery channels.        /MENU/Published/Nutrition
                                                The results indicate that it is possible to          Education/Files/TNDP99-
                                                implement TN throughout schools and involve          03.htm
                                                parents, community and the media.
                                                Actions: This report did not contain
                                                recommendations for further action by USDA.
 4.2.2              Evaluation of the USDA      Findings: This report describes the results          Available on the ERS web
                    Elderly Nutrition           of a project to improve service to older people      site at http://www.ers.usda.
                    Demonstrations Volume       through the FSP. The projects succeeded in           gov/Publications/CCR9-2/
                    II                          reaching some portion of their target
                                                population. Additionally, most projects
                                                showed that their effort generated new
                                                applications for food stamp assistance.
                                                Actions: This report did not contain
                                                recommendations for further action by USDA.
 4.2.2              WIC Food Packages:          Findings: USDA contracted with the                   Available on the FNS web
                    Time for a Change           Institute of Medicine to evaluate WIC food           site at http://www.fns.usda.
                                                packages and recommend cost-neutral                  gov/oane/MENU/Published/W
                                                changes to improve the package to meet the           IC/WIC.htm
                                                nutrition needs of WIC participants better.
                                                Actions: The report recommended a range
                                                of WIC food package changes, now being
                                                considered by USDA.
 4.3.1              Impact of Food Stamp        Findings: This analysis revisits a previous          Available on the FNS web
                    Payment Errors on           study that addressed the impact of payment           site at
                    Households Purchasing       errors on participating households. While the        http://www.fns.usda.gov/oane
                    Power                       number of ineligible households was small,           /MENU/Published/FSP/Progr
                                                overpayments to these households had a               amIntegrity.htm
                                                large impact on their purchasing power.
                                                Actions: This report does not contain
                                                recommendations for further action by USDA.
                    Preliminary Report on the   Findings: The study explores the feasibility         Available on the FNS web
                    Feasibility of Computer     of using computer technology in reducing             site at
                    Matching in the National    NSLP over-certification. The preliminary             http://www.fns.usda.gov/oane
                    School Lunch Program        findings indicate that computer matching for         /MENU/Published/CNP/cnp.
                    (NSLP)                      direct certification and verification is feasible.   htm
                                                Actions: The study remains in progress.
                                                This report does not contain
                                                recommendations for further action by USDA.




                                                                                                                             USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                            181
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title              Findings and Recommendations/Actions                      Availability
                    American Samoa:             Findings: American Samoa faced special            Available on the GAO web
                    Accounting for Key          challenges in using Federal grants and did        site at
                    Federal Grants Needs        not provide adequate accountability for grant     http://www.gao.gov/new.items
                    Improvement                 funding. Problems identified included WIC         /d0541.pdf
                                                vendor fraud. FNS was aware of the problem
                                                and had actions in place to address it.
                                                Actions: This report does not contain
                                                recommendations for further action by USDA.
                    FSP States Have             Findings: The FSP error rate has dropped          Available on the GAO web
                    Reduced Payment             nearly one-third over the past five years.        site at
                    Errors. Further             Caseworkers cause about two-thirds and            http://www.gao.gov/htext/d05
                    Challenges Remain           participants cause about one-third of errors.     245.html
                                                Actions: This report does not contain
                                                recommendations for further action by USDA.
                    Means Tested Programs:      Findings: The report reviews factors that         Available on the GAO web
                    Information On Program      influence program participation and the           site at
                    Access Can be an            balance between program integrity and             http://www.gao.gov/htext/d05
                    Important Management        access in 12 key Federal means-tested             221.html
                    Tool                        programs.
                                                Actions: The report recommends that FNS
                                                ensure that its methodology and estimates of
                                                WIC participation rates will be comparable
                                                over time.
                                                Findings: Evaluated the effectiveness of a        Available on the FNS web
                                                USDA pilot project to use a single prime          site at
                    An Evaluation of the        vendor responsible for accepting food orders      http://www.fns.usda.gov/oane
                    Prime Vendor Pilot of the   directly from 23 Indian Tribal Organizations      /MENU/Published/CNP/FILE
                    Food Distribution           with the traditional Food Distribution Program    S/FDPIRPrimeVendor.pdf
                    Program on Indian           on Indian Reservations Commodity
                    Reservations                Distribution System.
                                                Actions: This report does not contain
                                                recommendations for further action by USDA.
 5.1.1,             GAO-04-705                  Findings: Develop and issue guidance, with        Available on the GAO web site:
 5.1.2 and          Environmental Effects of    CEO and taking into account any lessons           http://www.gao.gov/new.items/d
 5.1.3              Wildland Fire               learned from the CEQ demonstration                04705.pdf
                                                program, to clarify the assessment and
                                                documentation of the risks of environmental
                                                effects associated both with conducting and
                                                not conduction fuel reduction activities.
                                                Actions: USDA reviewed the lessons
                                                learned from the CEQ demonstration program
                                                and determined that existing direction is
                                                generally adequate for implementing these
                                                lessons. Risks associated with not taking
                                                action to reduce fuels (the no action to reduce
                                                fuels (the no action alternative) are assessed
                                                with
 5.1.1              GAO Report, January         Recommendation: Provide the Congress              www.gao.gov
                    2005/GAO-05-147             with a joint (FS and DOI) tactical plan
                    Wildland Fire               outlining the critical steps the agencies will
                    Management: Important       take, together with related timeframes, to
                    Progress Has Been           complete a cohesive strategy that identifies
                    Made, But Challenges        long-term options and needed funding for
                    Remain to Completing a      reducing and maintaining fuels at acceptable
                    Cohesive Strategy           levels and responding to the nation’s wildland
                                                fire problems.




 USDA
    182             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                      ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                     Title             Findings and Recommendations/Actions                     Availability
 5.1.1                                         Actions: The Forest Service is continuing
 (cont’d)                                      to develop LANDFIRE and Fire Program
                                               Analysis (FPA)—both of which must be
                                               operational to accurately and effectively
                                               develop the type of plan GAO suggests.
                    OIG-10601-6-Te:            Findings: A management accounting                Report is available on OIG
                    Controls over Funds        system is needed in NRCS to effectively track    website: www.oig.usda.gov
                    Congressionally            expenses associated with Congressionally         www.usda.gov/oig/webdocs/106
                    Earmarked for              earmarked funding.                               01-6-Te.pdf
                    Conservation Projects      Actions: NRCS implemented a process
                                               through the Foundation Financial Information
                                               System to record and identify all obligations
                                               and expenses for Congressionally earmarked
                                               funds.
                    OIG-106019-68-KCTe:        Findings: Improvements in prescribed             Report is available on OIG
                    Compliance with Highly     controls are needed to strengthen the            website: www.oig.usda.gov
                    Erodible Land Provisions   agency’s ability to provide accurate and         www.usda.gove/oig/webdocs/10
                    Controls over Funds        reliable assessments of producer compliance      0601-6-Te.pdf99-8KC.pdf
                    Congressionally            with the HELC provision A management             Available on the GAO web site:
                    Earmarked for              accounting system is needed in NRCS to           http://www.gao.gov/new.items/d
                    Conservation               effectively track expenses associated with       04705.pdf
                    ProjectsGAO-04-705         Congressionally earmarked funding.
                    Environmental Effects of
                    Wildland Fire
                                               Actions: Web-based tracking system
                                               implemented. Policy revised and clarified
                                               NRCS implemented a process through the
                                               Foundation Financial Information System to
                                               record and identify all obligations and
                                               expenses for Congressionally earmarked
                                               funds.
                                               Findings: Develop and issue guidance, with
                                               CEO and taking into account any lessons
                                               learned from the CEQ demonstration
                                               program, to clarify the assessment and
                                               documentation of the risks of environmental
                                               effects associated both with conducting and
                                               not conduction fuel reduction activities.
                                               Actions: USDA reviewed the lessons
                                               learned from the CEQ demonstration program
                                               and determined that existing direction is
                                               generally adequate for implementing these
                                               lessons. Risks associated with not taking
                                               action to reduce fuels (the no action
                                               alternative) are assessed with The study
                                               examined outcomes of the verification
                                               process. It also made an independent
                                               assessment of income eligibility with specific
                                               verification outcomes. To do this, the study
                                               used data from in-person interviews with
                                               families.




                                                                                                                        USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                      183
                                    ANNUAL PERFORMANCE REPORT
11/9/2005 5:07 PM



  Perform.
  Measure                    Title              Findings and Recommendations/Actions                     Availability
 5.1.1 and          GAO-053-52418:             Findings: NRCS and FSA should improve           Report is available on GAO
 5.1.2              Environmental Indicators   processes for reviewing compliance and          website: www.gao.gov
 (cont’d).                                     enforcing requirements GAO found that           www.gao.gov/new.items/d0341
                                               federal and nonfederal organizations develop    8d0552.pdf
                                               environmental indicator sets for several
                                               purposes.
                                               Actions: GAO recommends the Chair of the
                                               Council on Environmental Quality develop
                                               institutional arrangements needed to ensure a
                                               concerted, systematic, and stable approach
                                               to the development, coordination, and
                                               integration of environmental indicator sets.
                                               web-based tracking system implemented.
                                               Policy revised and clarified.
                    Conservation Technical     Findings: Evaluation started FY 2005, to        Report currently unavailable.
                    Assistance Program         be completed early FY2006. Evaluating the
                    Evaluation                 efficiency and effectiveness of the program,
                                               including an assessment of program
                                               performance relative to unit costs and
                                               benefits, review the progress in addressing
                                               recommended actions resulting from PART,
                                               and analyze the linkages between inputs,
                                               activities, outputs, outcomes, and impacts in
                                               achieving the program’s intended purposes.
                                               Actions: N/A; program evaluation ongoing.




 USDA
    184             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
III.            Systems, Controls and Legal Compliance

INSPECTOR GENERAL ACT AMENDMENTS OF 1988
MANAGEMENT’S REPORT ON AUDIT FOLLOW-UP
BACKGROUND
During the fiscal year, Office of the Inspector General (OIG) audits USDA’s programs, systems and
operations. OIG then recommends improvements to management based on its findings. USDA management
may or may not agree with the audit’s findings and/or recommendations. An agreement is reached during the
management decision process. If management agrees with a recommendation, a written plan for corrective
action with a target completion date is developed. The then plan is submitted to OIG for its concurrence. If
both OIG and management agree that the proposed corrective action will correct the deficiency, management
decision is achieved for that recommendation. Once management decision is reached for each
recommendation in the audit, that audit is considered resolved.

Audit follow-up ensures that prompt and responsive action is taken. USDA’s Office of the Chief Financial
Officer (OCFO) oversees audit follow-up for the Department. An audit remains open until all corrective
actions for each recommendation are completed. As agencies complete planned corrective actions and submit
closure documentation, OCFO reviews them for sufficiency and determines if final action is completed.

FY 2005 Results
USDA agencies closed 102 audits in FY 2005. The Department’s current inventory of audits that have
reached management decision and require final action to close includes 60 new audits in FY 2005 and 104
existing audits for a total of 164. Three of these audits are in appeal status. As shown in Exhibit 91, this is a 20
percent decrease from the 206 audits that were open at the end of FY 2004. During the past 5 years, USDA’s
total audit inventory decreased 33 percent.
Exhibit 91: Decrease in Total Open Audit Inventory




Note: The FY 2004 ending balance was revised from 185 to include 20 audits that reached management decision in September 2004. One
additional audit was issued in FY 2004, but was not transmitted to OCFO until FY 2005. These adjustments are also reflected in the beginning
balances for audits with disallowed costs and funds to be put to better use shown in Exhibit 93 and Exhibit 95.




                                                                                                                                   USDA
                                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                     185
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM




Audit Follow-Up Process
The Inspector General Act Amendments of 1988 require an annual report to Congress providing status of
resolved audits that remain open. Reports on resolved audits must include the elements listed in the first three
bullets below. Resolved audits that remain open one year or more past the management decision date require
an additional reporting element, as described in the last bullet below:
            Beginning and ending balances for the number of audit reports and dollar value of disallowed costs
            and funds to be put to better use (see definitions below);
            The number of new management decisions reached;
            The disposition of audits with final action (see definition below); and
            For each audit report that remains open more than one year past the management decision date, the
            date issued, dollar value and an explanation of why final action has not been taken. For audits in
            formal administrative appeal or awaiting a legislative solution, reporting may be limited to the
            number of affected audits.
Exhibit 92: Audit Follow-Up Definitions

             Term                                                          Definition
 Disallowed Cost                  An incurred cost questioned by OIG that management has agreed should not be
                                  chargeable to the Government.
 Final Action                     The completion of all actions that management has concluded is necessary in its
                                  management decision with respect to the findings and recommendations included in an
                                  audit report. In the event that management concludes no action is necessary, final action
                                  occurs when a management decision is accomplished.7
 Funds To Be Put to               An OIG recommendation that funds could be used more efficiently if management took
 Better Use (FTBU)                actions to implement and complete the recommendation, including:
                                  • Reductions in outlays;
                                  • De-obligation of funds from programs or operations;
                                  • Withdrawal of interest subsidy costs on loans or loan guarantees, insurance or
                                      bonds;
                                  • Costs not incurred by implementing recommended improvements related to the
                                      operations of the establishment, a contractor or grantee;
                                  • Avoidance of unnecessary expenditures noted in pre-award reviews of contract or
                                      grant agreements; or
                                  • Any other savings which are identified specifically.
 Management Decision              Management’s evaluation of the audit findings and recommendations, and the issuance
                                  of a final decision on corrective action agreed to by management and OIG concerning
                                  its response to the findings and recommendations.


OCFO works with component agencies and OIG to identify and resolve issues that affect the timely
completion of corrective actions. USDA agencies are required to prepare combined, time-phased
implementation plans and interim progress reports for all audits that remain open more than one year beyond
the management decision date. Time-phased implementation plans are updated and submitted at the end of
each quarter. They are updated to include newly reported audits that meet the one year past management
decision criterion. These plans contain corrective action milestones for each recommendation and
corresponding estimated completion dates.

Quarterly interim progress reports are provided to OCFO on the status of corrective action milestones listed in
the time-phased implementation plan. These reports show incremental progress toward completion of planned



 USDA
    186             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



actions, changes in planned actions, actual or revised completion dates, and explanations for any revised
dates.

The Office of Management and Budget revised Circular A-123, “Management’s Responsibility for Internal
Control,” December 21, 2004. The revision is designed to further strengthen internal control in the Federal
Government. As USDA implements the revised circular, greater emphasis is placed on documenting,
monitoring, correcting and reporting on internal controls. These controls include audit follow-up. Special
attention is given to correcting those audit recommendations that relate directly to potential material
weaknesses identified in a component agency’s program or operations. Agencies now are required to
crosswalk all audit recommendations OIG identifies as material to the corresponding potential material
weakness. Agencies must document completion of final action on those recommendations before the material
weakness can be considered corrected.

Beginning and Ending Inventory for Audits with Disallowed Costs (DC) and Funds to
Be Put to Better Use (FTBU)1
Of the 102 audits that achieved final action during the fiscal year, 34 contained disallowed costs (DC). The
number of DC audits remaining in the inventory at the end of the fiscal year is 66 with a monetary value of
$68,040,269.

For audits with disallowed costs that achieved final action in FY 2005, OIG and management agreed to collect
$24,459,052. Adjustments were made totaling $12,908,545 (53 percent of the total) because of: 1) changes in
management decision; 2) legal decisions; 3) write-offs; 4) USDA agencies’ ability to provide sufficient
documentation to substantiate disallowed costs; 5) agency discovery; and 6) appeals. Management recovered
the remaining $11,550,507.
Exhibit 93: Inventory of Audits with Disallowed Costs

                              Audits with Disallowed Costs                    # of Audits        Amount ($)
               Beginning of the Period                                             84            85,705,402
                  Plus: New Management Decisions                                   16             6,793,919
                  Total Audits Pending Collection of Disallowed Costs             100            92,499,321
                  Adjustments                                                                   (12,908,545)
                  Revised Subtotal                                                               79,590,776
                                                                                                             2
                  Less: Final Actions (Recoveries)                                34            (11,550,507)
               Audits with DC Requiring Final Action at the End of the            66             68,040,269
               Period




1
  Exhibit 93 and Exhibit 95 include only those open audits with disallowed costs and funds to be put to better use,
respectively. Additionally, some audits contain both DC and FTBU amounts. For these reasons, the number of audits shown
as the ending balances in Exhibit 93 and Exhibit 95 will not equal the total resolved audit inventory balance in Exhibit 91.
2
  This amount does not include $829,153 interest collected.



                                                                                                                    USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                         187
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



Exhibit 94: Distribution of Adjustments to Disallowed Costs

                                     Category                                          Amount ($)
               Changes in Management Decision                                              368,019
               Legal Decisions                                                           1,842,566
               Write-Offs                                                                2,309,382
               Agency Documentation                                                      7,012,909
               Agency Discovery                                                          1,130,510
               Appeals                                                                     245,159
               Total                                                                    12,908,545


Final action occurred on 15 audits that involved FTBU amounts. USDA projects more efficient use for
99 percent of the amount identified based on the corrective actions implemented. The number of FTBU audits
remaining in the inventory to date is 29 with a monetary value of $953,560,533.
Exhibit 95: Inventory of Audits with Funds to be Put to Better Use



                     Audits with Funds to be Put to Better Use               # of Audits        Amount ($)
          Beginning of the Period                                                 39          1,308,483,017
               Plus: New Management Decisions                                      5             $9,067,436
               Total Audits Pending                                               44          1,317,550,453
               Less: Final Actions                                                15            363,989,920
          Audits with FTBU Requiring Final Action at the End of the Period        29            953,560,533
          Disposition of Funds to Be Put to Better Use:
          FTBU Implemented                                                                     359,075,460
          FTBU Not Implemented                                                                   4,914,460
          Total FTBU Amounts for Final Action Audits                                           363,989,920


Audits Open One or More Years Past the Management Decision Date
The number of audits open one or more years without final action continues to decline. These audits decreased
25 percent in FY 2005 from 134 to 101 and 32 percent during the past 5 years.
Exhibit 96: Decrease In Audits Open One or More Years Past Management Decision Date




 USDA
    188             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                          SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



Five audits are proceeding as scheduled, 65 are behind schedule and agencies have completed corrective
actions on 31 audits that are pending collection of associated disallowed costs. While an additional three
audits are scheduled for completion by September 30, 2005, final action documentation will not be evaluated
this reporting period.
Exhibit 97: Distribution of Audits Open One or More Years Past the Management Decision Date, Disallowed
            Costs and FTBU

                          Audits On Schedule              Audits Behind Schedule          Audits Under Collection
  Agency            No.      DC($)     FTBU ($)     No.        DC ($)      FTBU ($)     No.        DC ($)       FTBU ($)
 Totals              5        0       672,105,344   65       10,922,697   261,439,296   31       46,281,403    18,256,767


Audits without final action one or more years past the management decision date and behind schedule are
listed individually in the table that follows. They are categorized by the reason final action has not occurred.
More detailed information on audits on schedule and audits under collection is available from OCFO. The
categories are pending the following actions:
            Issuance of policy/guidance;
            Conclusion of investigation, negotiation or administrative appeal;
            Receipt and/or processing of final action documentation;
            Systems development, implementation, reconciliation or enhancement;
            Results of internal monitoring or program review;
            Results of agency request for change in management decision;
            Office of General Counsel or OIG advice;
            Conclusion of external action; and
            Administrative action.

MANAGEMENT’S REPORT ON AUDIT FOLLOW-UP
Exhibit 98: Audits Open One Year or More Past the Management Decision Date and Behind Schedule

                                                                                                 Monetary Amount
                             Estimated                                                          DC
                  Date      Completion                                                         (U.S.          FTBU
    Audits       Issued         Date                     Audit Title                          dollars)    (U.S. dollars)
 (24) Pending issuance of policy/guidance
 03006-1-AT      09/19/95      10/01/05   FSA Management of the Dade County,                  684,642             -
                                          Florida, ASCS Office
 05099-1-TE      09/30/97      12/30/05   RMA Reinsured Companies Actual                         -                -
                                          Production History Self-Reviews
 05099-8-KC      03/31/00      12/30/05   RMA Standard Reinsurance Agreement                     -                -
                                          Reporting Requirements
 05600-1-TE      09/28/89      12/30/05   RMA Crop Year 1988 Insurance                           -                -
                                          Contracts with Claims
 04601-1-KC      12/16/96      10/31/05   RHS Rural Rental Housing Program,                   65,910          33,147,535
                                          Additional Servicing of Section 8/515
                                          Projects




                                                                                                                      USDA
                                     FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                     189
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                            Monetary Amount
                                 Estimated                                                 DC
                      Date      Completion                                                (U.S.          FTBU
    Audits           Issued        Date                    Audit Title                   dollars)    (U.S. dollars)
 04601-2-AT          03/25/99     12/31/05  RHS Guaranteed Rural Housing Loan             5,928       139,146,407
                                            Program
 04801-4-CH     02/12/99      11/30/05      RHS Evaluation of Rural Rental Housing           -              -
                                            Tenant Income Verification Process
 08001-2-HQ     03/29/02      12/30/05      FS Aviation Security Over Aircraft               -              -
                                            Facilities
 08601-18-SF    03/01/97      03/31/06      FS Research Cooperative and Cost             121,195         40,328
                                            Reimbursable Agreements
 08601-30-SF    03/31/03      03/31/06      FS Review of FS Security Over                    -              -
                                            Explosives/Munitions/Magazines
                                            Located Within National Forest System
 10099-1-TE     02/01/02      09/30/06      NRCS Security Over IT Resources                  -              -
 10099-10-KC    09/30/03      03/31/06      NRCS Homeland Security Protection of             -              -
                                            Federal Assets
 24099-4-HY     02/25/03        TBD         FSIS Imported Meat and Poultry                   -              -
                                            Inspection Process, Phase II
 24601-1-CH     06/21/00        TBD         FSIS Laboratory Testing of Meat and              -              -
                                            Poultry Products
 27002-14-CH    01/14/02      12/31/05      FNS State Agencies Oversight of the              -              -
                                            Child and Adult Care Food Program
 27601-3-CH     03/22/96      03/31/07      FNS Food Stamp Program—Disqualified              -              -
                                            Recipient System
 27601-27-CH    04/30/02      03/31/06      FNS Food Service Management                      -              -
                                            Companies
 34099-2-AT     09/14/01      06/30/06      RBS Business and Industry Loan               4,052,351          -
                                            Program, Omnivest Resources, Inc.
 34601-1-HY     07/22/98      06/30/06      RBS Business and Industry Loan                   -              -
                                            Program—Morgantown, West Virginia
 34601-3-CH     03/11/03      12/31/05      RBS Processing of Loan Guarantees to             -              -
                                            Members of the Western Sugar
                                            Cooperative
 34601-7-SF     12/04/02      06/30/06      RBS B&I Liquidation of Loans to the              -         14,000,000
                                            Pacific Northwest Sugar Company in
                                            Washington State
 50401-28-FM    02/01/99      12/31/05      RHS FY 1998 Rural Development                    -              -
                                            Financial Statements
 50601-3-CH     07/23/01        TBD         APHIS Assessment of APHIS & FSIS                 -              -
                                            Inspection Activities to Prevent the Entry
                                            of Foot and Mouth Disease
 89099-1-HQ     10/21/02       6/30/06      OPPM Audit of Compliance with the                -              -
                                            National Energy Conservation Policy Act
                                            of 1978, Energy Act of 1992 and
                                            Executive Order Number 13123
 (3) Pending conclusion of investigation, negotiation or administrative appeal
 04801-3-KC     03/31/99      12/30/05      RHS Bosley Management, Inc. –                146,690         85,516
                                            Sheridan, Wyoming
 04801-6-HY     03/17/99      12/30/05      RHS Rural Rental Housing Program,                -              -
                                            Lewiston Properties, Fayetteville, New
                                            York
 34004-5-HY     02/18/00        TBD         RBS Audit of Procurement Operations,             -              -
                                            Virginia State Office, Richmond, Virginia




 USDA
    190             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                           Monetary Amount
                              Estimated                                                   DC
                   Date      Completion                                                  (U.S.          FTBU
    Audits       Issued          Date                       Audit Title                 dollars)    (U.S. dollars)
 (23) Pending receipt and/or processing of final action documentation
 02007-1-AT       3/13/03      12/30/05     ARS Florida Agricultural and Mechanical     421,764            -
                                            University – Specific Cooperative
                                            Agreements for Establishment of a
                                            Science Center
 03099-32-KC     12/22/99      09/30/05     FSA Controls Over Administrative                -              -
                                            Payment Operations
 04004-04-AT      7/15/04      11/30/05     RHS Local Government's Management               -              -
                                            of Multi-Family Housing Projects in
                                            North Carolina
 04601-2-HY      07/22/03      10/31/05     RHS Review of Project Funds for              84,011            -
                                            Progressive Property Management Inc.
 04601-5-KC      08/08/02      11/30/05     RHS Rural Rental Housing Program            418,321       15,500,000
                                            Insurance Expenses, Phase III
 04801-6-KC      12/18/00      12/30/05     RHS Rural Rental Housing Program            1,029,999        9,000
                                            Insurance Expenses, Phase I
 08001-1-HQ      06/28/00      11/30/05     FS Implementation of the Government             -              -
                                            Performance and Results Act
 08003-2-SF      08/05/98      12/31/05     FS Toiyabe/Humboldt National Forest             -         27,900,000
                                            Land Adjustment Program
 08003-5-SF      12/15/00      12/31/05     FS Land Acquisitions and Urban Lot              -         10,329,300
                                            Management Program
 08016-1-SF      09/30/03      12/30/05     FS Follow-Up Review of FS Security              -              -
                                            Over Aircraft & Aircraft Facilities
 08401-1-FM      01/09/03      09/30/05     FS Audit of FY 2002 Financial                   -              -
                                            Statements
 08601-25-SF     06/22/01      12/30/05     FS Working Capital Fund Enterprise              -          2,600,000
                                            Services
 08801-2-TE      09/24/98      03/31/06     FS Assistance Agreements with               $140,497       1,173,925
                                            Nonprofit Organizations
 23099-2-FM      05/22/02      12/30/05     DA Security of Information Technology           -              -
                                            Resources at USDA Departmental
                                            Administration
 33099-4-CH      03/03/04        TBD        APHIS Management and Security of                -              -
                                            Information Technology Resources
 34601-14-TE     09/27/02      10/30/05     RBS Business and Industry Direct Loan           -              -
                                            Program – Arkansas
 34601-15-TE     09/30/03       6/30/06     RBS National Report on the Business and
                                            Industry Loan Program
 50099-13-AT     03/29/02      12/30/05     Multi-Agency Audit Oversight and                -              -
                                            Security of Biological Agents at
                                            Laboratories Operated by USDA
 50099-14-AT      9/29/03      12/30/05     Homeland Security Controls Over                 -              -
                                            Biological, Chemical and Radioactive
                                            Materials at Institutions Funded by
                                            USDA
 50601-9-KC      08/18/04        TBD        APHIS Phase I Review of BSE                     -              -
                                            Surveillance
 50801-2-HQ       2/27/97      12/30/05     Civil Rights Evaluation Report for the          -              -
                                            Secretary on Civil Rights Issues, Phase I
 50801-12-AT      9/9/02       12/30/05     HMMP Management of Hazardous                    -          1,813,809
                                            Materials Management Funds
 85401-9-FM       11/7/03      03/31/06     RD Financial Statements for FY 2003             -              -
                                            and 2002




                                                                                                               USDA
                              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                      191
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                          Monetary Amount
                               Estimated                                                 DC
                    Date      Completion                                                (U.S.          FTBU
     Audits       Issued          Date                        Audit Title              dollars)    (U.S. dollars)
 (10) Pending systems development, implementation, or enhancement
 03008-2-KC        9/25/03      09/30/06     FSA Review of FSA and CCC Bidding             -              -
                                             Procedures and Awards for
                                             Commodities
 03099-27-TE       5/24/01      10/01/06     FSA Payment Limitations – Majority            -              -
                                             Stockholders of Corporations
 05401-8-FM       03/30/00      12/30/05     RMA FY 1999 FCIC Financial                    -              -
                                             Statements Report on Management
                                             Issues
 06401-16-FM       11/7/03      09/30/06     CCC Financial Statements for FY 2003          -              -
 08099-6-SF       03/27/01      09/30/06     FS Security Over USDA Information             -              -
                                             Technology Resources
 08401-2-FM       02/28/03      09/30/06     FS Audit of FY 2002 Financial                 -              -
                                             Statements – Summary of Information
                                             Technology Findings
 24099-1-FM       08/11/03      09/30/05     FSIS Security Over Information                -              -
                                             Technology Resources at FSIS
 27004-3-AT       11/09/01      12/31/05     FNS Florida Food Stamp Program,               -         15,443,610
                                             Tallahassee, Florida
 50099-27-FM      03/30/01       3/31/06     OCIO Security Over USDA Information           -              -
                                             Technology Resources Needs
                                             Improvement
 50099-50-FM       9/10/02      12/31/05     OCIO Government Information Security          -              -
                                             Reform Act – FY 2002
 (1) Pending results of internal monitoring or program review
 27401-8-HY       06/27/97      12/31/05     FNS FY 1996 Financial Statements              -              -
 (1) Pending results of request for change in management decision
 33004-1-AT       03/07/00        TBD        APHIS Plant Protection and Quarantine         -              -
                                             Activities in Florida
 (1) External Action Required
 27004-3-CH       08/14/98      12/31/05     FNS Administration of the Food Stamp      2,921,556          -
                                             Employment and Training Program –
                                             Columbus, Ohio
 (1) Pending Administrative Action
 23801-1-HQ       08/20/98        TBD        OO Review of Office of Operations             -           249,866
                                             Contract with B&G Maintenance, Inc.
 (1) Pending Office of General Counsel (OGC) or OIG advice
 27010-11-SF      02/05/99      10/30/05     FNS Child and Adult Care Food             829,833            0
                                             Program – Culver City, California
 Total Number Audits (65)                                       Total $              10,922,697    261,439,296



FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT
REPORT ON MANAGEMENT CONTROLS
BACKGROUND

While USDA made progress in correcting certain milestones for its existing material deficiencies, two of them
remain outstanding at fiscal year-end. Additionally, one new material deficiency was added this year. USDA
is committed to operating its programs efficiently and effectively in compliance with the Federal Managers’
Financial Integrity Act (FMFIA). FMFIA requires agencies to provide reasonable assurance that:



 USDA
    192             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



            Obligations and costs comply with applicable laws and regulations;
            Federal assets are safeguarded against fraud, waste and mismanagement; and
            Transactions are accounted for and properly recorded.

The Federal Information Security Management Act (FISMA) requires agencies to report any significant
deficiency in information security policy, procedure or practice identified (in agency reporting):
            As a material weakness in reporting under FMFIA; and
            If relating to financial management systems, as an instance of a lack of substantial compliance under
            the Federal Financial Management Improvement Act (see the Report on Financial Management
            Systems). The act requires that financial management systems comply substantially with: (1) Federal
            financial management system requirements; (2) applicable Federal accounting standards; and (3) the
            Standard General Ledger at the transaction level.

FMFIA also requires a separate statement as to whether financial management systems conform to standards,
principles and other requirements. This statement ensures that Federal managers have timely, relevant and
consistent financial information for decision-making purposes. USDA’s goal was to eliminate material
internal control weaknesses and financial system nonconformances by the end of FY 2005. While this result
was not achieved fully, the Department made significant progress through:
            The continuous evaluation of its programs, operations and financial systems;
            Financial statement and other Office of Inspector General (OIG) and Government Accountability
            Office audits;
            Management and system reviews;
            Establishing an Information Technology Security Task Force to monitor corrective actions by USDA
            component agencies; and
            Prompt attention to correcting the causes of identified weaknesses.

USDA’s management control program ensures compliance with the requirements of FMFIA and Office of
Management and Budget (OMB) Circulars A–123, “Management’s Responsibility for Internal Control,” and
A–127, “Financial Management Systems.”

USDA’s agency managers, at all levels, are responsible for ensuring that their programs operate efficiently
and effectively, and comply with relevant laws. They must also ensure that financial management systems
conform to applicable laws, standards, principles and related requirements. In conjunction with OIG, USDA
management works aggressively to determine the root causes of its material deficiencies and corrects
them promptly and efficiently. The term “material deficiency” describes both material weaknesses and
financial system non-conformances, collectively.

FY 2005 Results
The “Message from the Secretary” provides qualified assurance that USDA’s systems of internal control
comply with FMFIA’s objectives. The Department’s internal control systems comply substantially with the
objectives of FMFIA, with the exception of the material deficiencies described in this section.




                                                                                                         USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                193
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



USDA agencies continue to report quarterly on progress in correcting existing material deficiencies. The
agencies also provided annual assurance statements. Throughout the year, determinations are made as to
whether newly identified weaknesses should be declared as agency-level material deficiencies. If an agency-
level material deficiency is declared, OCFO staff reviews the supporting documentation to determine whether
it meets the criteria to be considered a Departmental material deficiency. The criteria for reportable condition,
corrected and downgraded material deficiencies are outlined below.

During the fiscal year, USDA implemented a number of corrective actions on the three material deficiencies
declared in FY 2004. The scheduled completion dates for the two remaining material weaknesses have been
delayed until FY 2006. Significant accomplishments are as follows:
            The Department gained approval for 14 security policies this fiscal year. These include policy
            guidance on: Certification and Accreditation, Capital Planning and Investment Controls, Privacy,
            Telework/Remote Access, Firewall, Encryption, Access Control, Risk Management Methodology,
            Personnel Security, Sensitive-but-Unclassified, IT Contingency Plans, Annual Security Plans and
            System Development Life Cycle;
            USDA’s component agencies continue to develop contingency plans for their IT major applications
            and general support systems with the support of USDA’s enterprise-wide system, Living Disaster
            Recovery Planning System;
            Approximately 70 percent of the disaster recovery and business resumption plans currently are
            tested;
            The Forest Service (FS) established policy and procedures on information security program
            management and implemented access controls. It also implemented monitoring to detect
            vulnerabilities and eliminate unauthorized applications, implemented a Memorandum of
            Understanding with the OCFO regarding the management, operations and security of connections
            between FS and NFC information systems, and tested continuity of operations plans;
            FS’ financial management internal control weakness was related to compliance with accounting
            standards for revenue recognition and reporting accruals. All corrective actions were implemented
            during the year; and
            FSA completed application-level contingency plans for its major applications, finalized security
            policies, and regularly scans its networks; it documented standard processes for recording obligation
            for programs with common business events, added or restructured transaction codes for obligations
            in the general ledger system to reduce manual postings, and completed a review of posting models
            for transactions that have a material impact on the financial statement.

USDA’s FY 2006 goal is to eliminate the existing material deficiencies and correct any new material
deficiencies within one year.

Also, during the fiscal year, USDA’s Rural Utilities Service (RUS) reported a violation of the Anti-Deficiency
Act. The act bars U.S. Government employees from making or authorizing an expenditure or obligation
exceeding the amount available in an appropriation or fund for the expenditure or obligation. As required by
section 1517(b) of Title 31, U.S. Code, the Department reported the violation of section 1517(a)(1) of Title 31
of the Anti-Deficiency Act to OMB. The violation occurred in the Rural Electrification and



 USDA
    194             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                      SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



Telecommunications Direct Loan Financing Account in the amount of $1 billion. RUS officials
unintentionally executed a bond guarantee agreement and the related guarantee of payment prior to the
approval of the official notification that funds were available for obligation. Financial management system
controls prevented any attempts to disburse the funds and the violation was discovered.

While no funds were disbursed, an Anti-Deficiency Act violation occurred because the obligation was made
without an apportionment of the guaranteed loan level. To prevent future violations, the Office of the
Assistant Administrator for Electric Programs will hold the unsigned note pending written verification that
OMB has processed the apportionment of funds.

In September 2005, the Department entered into a contract for assistance in the implementation of the new
reporting requirements in Appendix A of OMB Circular A-123. USDA has established an Assessment
Implementation Team to plan and execute the Department-wide assessment approach. This top-down
approach will assess the key processes of those component agencies that contribute materially to the balances
of selected significant accounts/line items in the key financial reports. An implementation plan has been
developed that addresses the major tasks identified by OMB to implement the Department-wide assessment
approach.

USDA Guidelines for Reporting Material Deficiencies
The criteria for Departmental material weaknesses and financial system noncomformances are described
below.
            A Departmental material weakness is a deficiency in internal controls (Section 2 of FMFIA) that
            satisfies at least one of the following criteria:
             Merits the attention of the Executive Office of the President and the relevant congressional
                    oversight committees;
             Violates statutory or regulatory requirements;
             Deprives the public of needed services;
             Significantly weakens safeguards against waste, loss, unauthorized use or misappropriation of
                    funds, property or other assets;
             Significantly impairs fulfillment of the Department’s mission;
             Results in a conflict of interest; or
             Is of a nature that omission from the annual Report on Management Controls could reflect
                    adversely on USDA’s actual or perceived management integrity.
            A Departmental material financial system nonconformance (Section 4 of FMFIA) is a deficiency that
            satisfies one or more of the following criteria:
             Merits the attention of the Executive Office of the President and relevant congressional oversight
                    committees;
             Prevents USDA’s primary financial management system from achieving central control over
                    agency financial transactions and resource balances; or
             Prevents compliance of the primary financial management system with standards published by
                    OMB Circular A–127, which includes the availability of timely, consistent and relevant financial
                    information for decision-making purposes.



                                                                                                            USDA
                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              195
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM




Material Weakness Reported Under FMFIA
Information Technology (IT) security continues to be an issue for USDA. The Department depends on IT to
deliver its programs efficiently and effectively, as well as to provide meaningful and reliable financial
reporting. While further efforts are needed to address weaknesses within USDA’s information security
program, the Department and its agencies have made significant progress toward improving security of IT
resources. USDA, under the direction of the Office of the Chief Information Officer (OCIO), has worked
diligently to assist agencies in complying with security mandates. OCIO plans to conduct an independent
verification and validation of all information systems certified in FY 2005. The majority of the systems (86
percent) have been certified and accredited. Other systems are being reviewed. Additionally, OCIO has
become actively involved in the budget process to ensure that cyber security and FISMA requirements are
addressed in IT acquisitions.

USDA’s component agencies need to aggressively implement IT security requirements to reduce the level of
vulnerability. The following exhibit describes areas of continued concern for the Department and summarizes
corrective actions planned to eliminate this material deficiency. Additional corrective actions to address
specific areas of concern will be identified by the end of the first quarter of FY 2006.

Historical Data on Material Deficiencies
Although USDA did not complete corrective actions on two of the existing material deficiencies, there was
only one newly identified material deficiency for FY 2005. USDA has reduced the number of existing
material deficiencies from a high of 19 in FY 2002 to 3 in FY 2005. This is an 84 percent decrease in the
number of outstanding material deficiencies reported 3 years ago.

SUMMARY OF MATERIAL DEFICIENCIES


Exhibit 99: Summary of Outstanding Material Deficiencies and Estimated Completion Dates

                                                                                                          Current
                       Material                                                                          Estimated
 Responsible          Deficiency             Areas of           Corrective Actions           Year       Completion
 Agency(ies)         Description             Concern          Remaining To Be Taken        Identified      Date
 Section 2 Material Weakness
 Multiple       Multi 00-01: USDA        Policy, oversight   • Improve the quality and     FY 2000       FY 2006
                Information              and monitoring        process for managing
                Security Weakness:                             USDA information
                Weaknesses have                                security vulnerabilities
                been identified in                             and actions;
                the Department’s                             • Complete vulnerability
                ability to protect its                         assessments of all
                assets from fraud,                             mission critical systems;
                misuse and
                disruption.




 USDA
    196             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                                              Current
                        Material                                                                             Estimated
 Responsible           Deficiency             Areas of              Corrective Actions           Year       Completion
 Agency(ies)           Description            Concern           Remaining To Be Taken          Identified      Date
                                                               • Continue to manage the
                                                                  USDA information
                                                                  survivability program to
                                                                  guide agencies in the
                                                                  development and testing
                                                                  of disaster recovery and
                                                                  business resumption
                                                                  plans for USDA’s highest
                                                                  priority mission critical
                                                                  systems;
                                                               • Implement and maintain
                                                                  a robust Internet Protocol
                                                                  (IP) database that
                                                                  includes accurate, up-to-
                                                                  date contacts for each IP
                                                                  address;
                                                               • Refine policy and issue
                                                                  new policy; and
                                                               • Ensure that security
                                                                  management personnel
                                                                  have the authority and
                                                                  cooperation of agency
                                                                  management to
                                                                  implement and manage
                                                                  security programs
                                                                  effectively.
                                          General Control      • FS will: Improve controls     FY 2005       FY 2006
                                          Environment             over the PRCH system
                                                                  data access, input, and
                                                                  integrity and segregation
                                                                  of duties.
                                                               • NRCS will: Document           FY 2005       FY 2006
                                                                  change control
                                                                  processes, software
                                                                  changes, and testing
                                                                  processes for the
                                                                  ProTracts System.
                                                                  Improve controls and
                                                                  documentation of change
                                                                  control for payment
                                                                  specifications. Reconcile
                                                                  Protracts appropriations,
                                                                  obligations and payments
                                                                  to FFIS.
                                                               • FSA/CCC will:                 FY 2004       FY 2006
                                                                  Collaborate with OCIO to
                                                                  identify and implement
                                                                  additional improvements
                                                                  needed to improve the
                                                                  agency’s general control
                                                                  environment.
 Multiple           Multiple 05-01:       Inadequate           FS will determine specific      FY 2005       FY 2006
                    Improvement           Accountability for   actions to be taken.
                    needed in financial   Undelivered
                    accounting and        Orders (UDOs)
                    reporting policies,
                    practices and
                    procedures




                                                                                                                USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                    197
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                                      Current
                        Material                                                                     Estimated
 Responsible           Deficiency        Areas of       Corrective Actions               Year       Completion
 Agency(ies)           Description       Concern     Remaining To Be Taken             Identified      Date
                                                    • FSA/CCC will: Re-                 FY 2004       FY 2006
                                                      examine existing accrual
                                                      policies and analytical
                                                      procedures with regard to
                                                      Federal accounting
                                                      standards and CCC
                                                      business practices,
                                                      determine where
                                                      improvements need to be
                                                      made, and implement
                                                      improvements
 Section 4 Financial Management System Nonconformance
 FSA/CCC        MW 04-01:          N/A              FSA/CCC will:                       FY 2004       FY 2006
                Improvement                         • Document and evaluate
                Needed in Funds                        current system of
                Control                                budgetary accounting
                Mechanisms                             controls, identify
                                                       deficiencies and develop
                                                       improved control
                                                       processes.
                                                    • Obtain training for staff,
                                                       and implement
                                                       organizational changes,
                                                    • Identify compensating
                                                       controls to address
                                                       material weakness and
                                                       ensure requirements are
                                                       incorporated into the
                                                       next generation of
                                                       program feeder systems.
                                                    • Enhance usage of
                                                       existing web services for
                                                       funds control.



Exhibit 100: Material Deficiencies Decline

                                          Corrected            New             Remaining
                          Fiscal Year
                                         Deficiencies      Deficiencies        Deficiencies
                             2002             15                 2                  19
                             2003             12                 1                   8
                             2004              7                 2                   3
                             2005              1                 1                   3



Summary of Corrected or Downgraded Material Deficiencies
Material deficiencies, for which corrective actions were completed or deemed no longer material as of
September 30, 2005, are summarized below.

Criteria to Downgrade FMFIA Material Deficiencies
A material deficiency may be reassessed and downgraded for one of two reasons. The control vulnerability
either is no longer considered to be material or no longer exists. Although downgraded from a material
deficiency, it remains possible for these issues to be reported in other sections of this report (such as Improper



 USDA
    198             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



Payments or Management Challenges). USDA component agencies will continue to monitor and assess
downgraded deficiencies through completion of corrective actions.

Guidelines for Reporting a Corrected or Downgraded Material Deficiency
To report a material deficiency as corrected or downgraded, USDA agencies must:
            Demonstrate commitment of senior-level managers to resolve the material deficiency as evidenced
            by resource deployment and regular monitoring of corrective action progress;
            Provide substantial, timely and documented progress in completing corrective actions for the
            material deficiency;
            Complete the most significant corrective actions with the remaining ones being minor in scope and
            not having a material effect on the program or operation; and
            Implement corrective actions that eliminate or minimize the cause(s) of the material deficiency.
Exhibit 101: Material Deficiencies Corrected or Downgraded

                                                                                                        Status
      Responsible                                                                          Year        Corrected/
        Agency                     Number and Title of Material Deficiencies             Identified   Downgraded
                           04-01: Financial Management Internal Control Weaknesses:        2004        Corrected
 FS
                           Controls inadequate to assure improvements in data quality.
 RMA/RD/APHIS              00-01: Agency Specific Information Security Weaknesses:         2004        Corrected
                           Weaknesses have been identified in the Department’s ability
                           to protect its assets from fraud, misuse and disruption.


Material Weaknesses Corrected
FS-04-01: Financial Management Internal Control Weaknesses
Controls inadequate to assure data-quality improvements.

During the fiscal year, FS completed the following corrective actions to close the weakness:
            Developed roles, responsibilities, staffing plans, migration plans, IT requirements and performance
            metrics for staff and processes migrating to the Albuquerque Service Center (ASC);
            Transitioned people and processes from the field and Washington, D.C., office to the ASC;
            Built training materials for transitioning staff; and
            Developed and implemented policy, procedures and reports for transitioning business processes.
Multi 00-01: Agency Specific Information Security Weaknesses
Weaknesses have been identified in the Department’s ability to protect its assets from fraud, misuse and
disruption. Although the information security weakness remains open for the Department, several agencies
completed agency-specific actions to eliminate component-level material weaknesses. They are as follows:

RMA
            Implemented new security policies, formalized draft policies and developed additional policies as
            required.




                                                                                                            USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  199
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



RD
            Entered into an Incidental Transfer Agreement and Memorandum of Understanding with OCIO
            delineating roles and responsibilities for infrastructure resources; initiated scanning and patching for
            the National Office and certain field offices, established and implemented hardening guides on
            Windows and Linux servers, completed a detailed review of all servers managed by RD, and
            mitigated vulnerabilities; and
            Completed certification and accreditation of the RUS legacy system.

APHIS
            Completed the certification and accreditation of the User Fee Financial System.

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
REPORT ON FINANCIAL MANAGEMENT SYSTEMS
BACKGROUND

The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial and program
managers’ accountability, provide better information for decision-making and improve the efficiency and
effectiveness of Federal programs. FFMIA requires that financial management systems provide reliable,
consistent disclosure of financial data in accordance with generally accepted accounting principles and
standards. These systems must also comply substantially with: (1) Federal financial management system
requirements; (2) applicable Federal accounting standards; and (3) the Standard General Ledger at the
transaction level. Additionally, the Federal Information Security Management Act (FISMA) requires that
there be no significant deficiencies in information security policies, procedures or practices to be substantially
compliant with FFMIA (referred to as Section 4 in the table below).

FY 2005 RESULTS

During FY 2005, USDA evaluated its financial management systems to assess substantial compliance with the
act. The Department is not substantially compliant with the Federal Financial Management System
Requirements, applicable Federal accounting standards, the Standard General Ledger at the transaction level
or the FISMA requirement. As part of its financial systems strategy, USDA agencies will work continuously
to meet FFMIA and FISMA objectives. During the fiscal year, the Office of the Chief Financial Officer
(OCFO) and the Office of the Chief Information Officer (OCIO) formed a joint task force to address
information technology (IT) security weaknesses in USDA’s financial systems. As a result, corrective actions
were taken to eliminate/mitigate several significant deficiencies known as of July 31, 2005. In assessing
FFMIA conformance, USDA considered all the information available. This information included the auditor’s
opinions of component agencies’ financial statements, the work of independent contractors and progress made
in addressing the material weaknesses identified in the FY 2004 Performance and Accountability Report -
Report on Management Controls section.

While USDA’s FY 2004 and FY 2003 Consolidated Financial Statements received an unqualified audit
opinion from the Office of the Inspector General (OIG), the auditor’s Report on Compliance with Laws and
Regulations also disclosed that the Department was not substantially compliant with FFMIA requirements.



 USDA
    200             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                      SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



OIG found material weaknesses for USDA’s financial and accounting systems and information security
program. The Department has completed many of the FY 2005 initiatives to substantially comply with the
act’s requirements. Additionally, USDA has added new initiatives with several milestones to improve the
controls over the Commodity Credit Corporation’s financial management systems, and the Natural Resource
Conservation Service’s application controls for the Program Contracts System (ProTracts) as reported below.
The Department will continue monitoring progress on plans to improve its financial management systems. It
will also work to comply fully with FFMIA and FISMA requirements. Significant accomplishments in FY
2005 are listed in the exhibit below.
Exhibit 102: Initiatives Completed

                                        Initiatives Completed to Achieve FFMIA Compliance
                                                                                                                                Remediation
                                                                                                           Completion              Plan
   Agency                                    Initiatives Completed                                           Date                Reference
 Section 1—Federal Financial Management System Requirements
 RMA        • Financial Management Planning and Assurance Process.                                         06/30/2005                 1.1
                    • Information Technology Security Controls.                                            06/30/2005                 1.2
                    • Application Program and System Software Change Controls.                             12/31/2004                 1.3
 APHIS              • Certification & Accreditation for the User Fee System.                               09/13/2005                 1.5
 RD                 • Certification & Accreditation for of the RUS Legacy System.                          05/30/2005                 1.5
                    • Strengthen Network Security and Logical Access Controls.                             06/30/2005                 1.6
                                                                                    1
 Section 4—Information Security Policies, Procedures or Practices
 1
   Completed corrective actions for this initiative apply to both Section 1 (OMB Circular A-130) and Section 4 (information security policies,
 procedures or practices) noncompliances and therefore are not repeated in Section 4.

Exhibit 103: Initiatives To Be Completed

                                        Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                                                 Target           Remediation
                                                               Section of                                      Completion            Plan
                Initiative                                  Noncompliance                      Agency             Date             Reference
 Information Technology Security                    Section 1 and 4, OMB A-123, A-            FSA/CCC          09/30/2006             1.4
 Controls.                                          127, A-130 and FISMA
 Improve General Control Environment                Section 1 – OMB Circular A-130               FS            03/31/2006                1.7
 Application Controls – ProTracts (New)             Section 1 – OMB Circular A-130              NRCS           12/31/2005                1.8

 Federal Accounting Standards                       Section 2 – SFFAS                           FS             10/30/2005                2.1
 Federal Accounting Standards                       Section 2 – SFFAS, OMB A-123              FSA/CCC          09/30/2006                2.1
 Funds Control Mechanisms                           Section 3 – Treasury Financial            FSA/CCC          09/30/2006                3.1
                                                    Manual and OMB Circulars A-
                                                    123 and A-127
 Sections:                                                               OMB Circulars:
 FFMIA:                                                                  A-123, Management Accountability and Control.
 1 – Federal financial management system requirements.                   A-127, Financial Management Systems.
 2 – Applicable Federal accounting standards.                            A-130, Management of Federal Information Resources (Appendix 3).
 3 – Standard General Ledger at the transaction level.
 FISMA:
 4 – Information security policies, procedures or practices.




                                                                                                                                        USDA
                                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                           201
                      SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM




Remediation Plans to Achieve Substantial Compliance
As required by law, USDA, in consultation with OMB, develops remediation plans that will result in
substantial compliance with FFMIA and improved financial management systems. These plans provide details
of completed and planned actions as discussed in the table that follows.
                                                                                  Target      Revised       Actual
                                                                                Completion   Completion   Completion
            Area of Noncompliance/Proposed Corrective Actions                      Date        Date          Date
                               Section 1 – Federal Financial Management System Requirements
1.1         Financial Management Planning and Assurance Process
            Agency Point of Contact: RMA – Chief Financial Officer
            • Reviewed RMA/FCIC’s Financial Management Systems for              4/30/2005                 4/30/2005
               compliance with financial management systems
               requirements. (OMB A-123, A –127)
            • Provided documentation to the OCFO of RMA’s continuous            5/31/2005                 5/31/2005
               monitoring effort to ensure compliance with the financial
               management systems requirements including a remediation
               plan for any areas of substantial noncompliance with the
               FFMIA (OMB A-123, A –127).
1.2         Information Technology (IT) Security Controls
            Agency Point of Contact: RMA—Chief Financial Officer
            • Enforced newly implemented security policies, formalized          12/31/2004   5/31/2005    5/31/2005
              draft policies and developed additional required policies.
            • Performed an agency-wide review of user IDs and access            9/30/2005                 9/23/2004
              levels to monitor the effectiveness of existing controls.
            • Performed regular and periodic comprehensive reviews of           11/30/2004                11/30/2004
              file, directory and user permissions in the UNIX environment.
            • Delegated sufficient authorities and provided adequate staff      9/30/2004    5/31/2005    6/30/2005
              and other resources to the chief information officer to develop
              and oversee an effective IT system, organization and
              operation, and manage and administer RMA IT security
              activities properly.
            • Prescribed and applied a periodic review process to ensure        12/31/2004   5/31/2005    6/30/2005
              that approved policies and procedures for RMA IT operations,
              processes, functions and activities are applied properly and
              enforced consistently agency-wide.

            • Identify and include RMA IT organizational and security           5/31/2005                 5/31/2005
              weaknesses in the annual FMFIA report and subsequent
              reports until all material weaknesses have been corrected
              and IT operations substantially comply with applicable laws
              and regulations.
            • Developed, documented and implemented an action plan              9/30/2004    5/31/2005    5/31/2005
              with milestone dates for an overall strategy to address the
              weaknesses not cited in RMA’s FMFIA report.
            • Prepared and submitted quarterly status reports to OCIO until     9/30/2005                 8/31/2005
              the FMFIA weaknesses were corrected.
            • Developed internal written policies and procedures that           12/31/2004   5/31/2005    5/31/2005
              established effective access controls for RMA-controlled
              users to follow in using RMA, NITC and NFC systems in
              accordance with applicable Federal guidance and
              Departmental regulation requirements.
            • Implemented stronger physical security.                           9/30/2004    5/31/2005    5/31/2005




 USDA
      202           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM




                                                                             Target      Revised       Actual
                                                                           Completion   Completion   Completion
         Area of Noncompliance/Proposed Corrective Actions                    Date        Date          Date
                            Section 1 – Federal Financial Management System Requirements
        • Prescribed and implemented in RMA’s formal directive             12/31/2004   5/31/2005    5/31/2005
          system a System Development Lifecycle (SDLC)
          methodology in accordance with Departmental regulations,
          and provided senior management oversight to ensure that
          application managers properly implement the prescribed
          SDLC methodology and management controls.
        • Strengthened senior management oversight and periodically        9/30/2004                 5/31/2005
          monitored and documented the effectiveness of agency-wide
          policies, procedures and management controls to ensure that
          IT services contract provisions conform to all applicable laws
          and regulations, and contract provisions are enforced.
        • Added a contract provision requiring background                  11/30/2004                11/30/2004
          investigations for all IT contractor employees and associated
          subcontractor employees, where applicable, and ensured
          they were completed satisfactorily before access to RMA
          systems, hardware and facilities was authorized.
        • Amended the appropriate contract to describe the specific        9/30/2004    5/31/2005    5/31/2005
          security services expected from contractor employees and
          record the details of the services or deliverables to be
          provided by them.
        • Prepared individual task orders and other needed supporting      11/30/2004                11/30/2004
          documentation to describe the specific security services
          expected from contractor employees and record the details of
          the services or deliverables provided by them.
        • Developed and applied a policy to conduct routine and timely     12/31/2004                12/30/2004
          reviews of RMA’s firewall configuration and verify the
          effectiveness of FSA firewall protection.
        • Improved network operating system policy and procedures.         12/31/2004   6/17/2005    6/17/2005
        • Secured funding for the Business Impact Assessment               12/31/2004   1/31/2005    1/31/2005
          completed by a third party.

1.3     Application Program and System Software Change Controls
        Agency Point of Contact: RMA—Chief Financial Officer
        • Implemented enterprise-wide change management                    12/31/2004                12/31/2004
          procedures.
1.4     Information Security
        Agency Point of Contact: FSA/CCC—Director, Information
        Technology Services Division
        Estimated Resources Needed: FY 2006 FTE: 40, Dollars
        $3,200,000 and Contractors $2,600,000
        • Updated AS400 log files to show trail of when user profiles      9/30/2004     1/31/05     1/31/2005
           were used or modified last. Granted access on a need-to-
           know basis using standard security request forms.
        • Developed and tested contingency plans for FSA/CCC               12/31/2004                12/31/2004
          financial applications.
        • Worked with the new Information Technology Service to            9/30/2004     1/31/05     1/31/2005
          strengthen the physical security in field office computer
          rooms housing FSA/CCC applications.
        • Developed plan to perform security clearance and                 10/31/2004                10/31/2004
          background checks on all personnel accessing FSA/CCC
          applications.
        • FSA will collaborate with the Office of the Chief Information    9/30/2006
          Officer to identify and implement additional improvements
          needed to improve USDA’s general control environment




                                                                                                          USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               203
                       SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                  Target      Revised       Actual
                                                                                Completion   Completion   Completion
            Area of Noncompliance/Proposed Corrective Actions                      Date        Date          Date
                                 Section 1 – Federal Financial Management System Requirements
1.5         Certification & Accreditation
            Agency Point of Contact: APHIS—Deputy Administrator,
            MRP Business Services
            • Completed Phases I & II of Certification & Accreditation for      12/30/2004   9/13/2005     9/9/2005
              the User Fee System.
            Agency Point of Contact: RD—Deputy Chief Financial
            Officer
            • Completed certification & accreditation of the RUS Legacy         6/30/2005                 5/23/2005
               System.
1.6         Strengthen Network Security and Logical Access Controls
            Agency Point of Contact: RD—Deputy Chief Financial
            Officer
            • Completed network security enhancements:                          6/30/2005                 6/30/2005
               −  Summarized the corrected vulnerabilities and rescanned
                  to verify the corrections.
            • Strengthened logical access controls                              6/30/2005                 6/30/2005
               −    Established an Information Security-Point of Contact to
                    serve as liaison with the Information Systems Security
                    Staff (ISSS) on security matters and ensured the ISSS is
                    staffed adequately.
               −    Developed a logbook system to track and monitor access
                    requests. Worked with the local access network (LAN)
                    support personnel to differentiate between privileged
                    users, and implemented procedures to restrict authority.
               −    Worked with the LAN support personnel to implement
                    policies and procedures for limiting privileged user’s
                    accounts. Expanded the monthly user access verification
                    and certification process to include reports for all user
                    types.
               −    Established a database for all current contractors and
                    standardized logbook forms to track and monitor
                    authorized access by contractors.
               −    Implemented procedures to verify user identification and
                    access reports. Attested the accuracy of the user IDs for
                    their organizations.
               −    Completed major project to strengthen controls over
                    logical access to major applications and general support
                    systems
               −    Conducted a review of the change control process for all
                    major applications and general support systems to
                    ensure the process complies with Departmental
                    guidance.
1.7         Improve General Control Environment
            Agency Point of Contact: FS—Financial Management
            Systems Director
            • Implemented Information Security Program Management and           9/30/2004                  8/3/2005
              Access Controls




 USDA
      204            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                       SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM




                                                                                  Target      Revised           Actual
                                                                                Completion   Completion       Completion
         Area of Noncompliance/Proposed Corrective Actions                         Date        Date              Date
                                 Section 1 – Federal Financial Management System Requirements
        • Software Management Controls
            −       Replaced ISS with a suite of commercial scanning tools      8/31/2005                     8/24/2005
                    and a comprehensive monitoring infrastructure to detect
                    enterprise-level vulnerabilities, and eliminate unused or
                    unauthorized applications.
            −Develop and implement entity-wide software                         3/31/2006
             management policy and procedures.
        • Service Continuity
            − Tested the continuity of operations plan entity-wide.             9/30/2005                     9/30/2005
1.8     Application Controls – ProTracts
        Agency Point of Contact: NRCS—Chief Information Officer
        Estimated Resources Needed: FY 2006 FTE: 1, Dollars
        $150,000
        • Document the ProTracts change control process.                        11/15/2005
        • Document changes to the ProTracts software.                           11/15/2005
        • Establish a ProTracts testing process.                                12/31/2005
        • Changed the per-unit cost of the current program payment              6/30/2005                     6/30/2005
          specifications.
        • Establish a formally approved document for the ProTracts              11/15/2005
          payment specifications.
        • Establish a schedule for the systematic reconciliation of             11/15/2005
          ProTracts appropriations, obligations and payments with
          amounts recorded in FFIS.
                                 Section 2 – Applicable Federal Accounting Standards
2.1      Federal Accounting Standards
         Agency Point of Contact: FS—Financial Management
         Systems Director
         • SFFAC 2 (OMB Bulletin No. 01-09) Improve financial
           statement note disclosures
             −      Conducted training on OMB Bulletin No. 01-09 to ensure       5/31/2005                     5/25/2005
                    proper note disclosures to the financial statements.
         • SFFAS 5 Accounting for Liabilities of the Federal
           Government
             −      Changed cookbook certification reviews to a November,        5/31/2005                     5/31/2005
                    February, May, August quarterly cycle.
             −      Monitored compliance with the review and certification       5/31/2005                     5/31/2005
                    requirements for obligations and accruals.
         • SFFAS 6, 8 Proper accounting for leases, internal use
           software and non-monetary business processes
             −      Established policy and procedures for the proper             5/31/2005    6/30/2005        9/30/2005
                    accounting treatment of leases, internal-use software and
                    non-monetary business processes.
                                                                                                          1
             −      Conduct training and implement monitoring process for        5/31/2005   10/30/2005
                    compliance with established policy and procedures.
         • SFFAS 7, 21 Accounting for Revenue and Other Financing
           Sources and Reporting Correction of Errors and Changes in
           Accounting Principles
             −      Issued memo and conducted training to re-emphasize the       5/31/2005                     5/31/2005
                    proper recording of revenue transactions.




                                                                                                                   USDA
                                     FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                    205
                       SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM




                                                                                        Target             Revised              Actual
                                                                                      Completion          Completion          Completion
            Area of Noncompliance/Proposed Corrective Actions                            Date               Date                 Date
                                       Section 2 – Applicable Federal Accounting Standards
               −    Implemented Department policy for the review and          5/31/2005                                         6/1/2005
                    recording of prior period adjustments.
               −    Conducted monthly Cumulative Results of Operations                  5/31/2005                              6/15/2005
                    review and analysis.
            Agency Point of Contact: FSA/CCC—Director, Information
            Technology Services Division
            Estimated Resources Needed for Sections 2 and 3: FY 2006
            FTE: 10, Dollars $800,000 and Contractors $2,000,000
            • SFFAS No. 5 - Accounting for Liabilities of the Federal
              Government
               −  Developed and approved accrual policies and                           6/30/2005                              6/30/2005
                  procedures.
            • Improvement needed in controls to ensure funds control and                9/30/2006
              budgetary transactions are properly supported, recorded
              timely and accurately
               −    Document and evaluate current system of budgetary                   9/30/2006
                    accounting controls, identify deficiencies, develop and
                    implement improved, well-defined control processes, as
                    part of OMB A-123 Appendix A assessment of CCC’s
                    internal controls over financial reporting.
               −    Obtain contractor training for financial management staff           9/30/2006
                    in budgetary accounting and analysis.
               −    Implement organizational structure changes to leverage              9/30/2006
                    expertise and improve performance in financial and
                    budgetary accounting policy documentation,
                    reconciliations, analysis, and review.
               −    Analyze current feeder systems to determine compliance              9/30/2006
                    with financial data requirements (and if required financial
                    data are being transmitted to the Core financial system.)
                    Identify feeder system gaps and costs to correct.
               −    Ensure that all financial management requirements are               9/30/2006
                    incorporated at the transaction level in the next
                    generation of program feeder systems
               −    Enhance existing financial web services, such as the                9/30/2006
                    National Payment Service and e-Funds control systems,
                    and increase CCC programs using these systems.
               −    Implement a new integrated financial management                       TBD 2
                    system that includes funds control functionality, under
                    OMB Financial Management-Line of Business.
1
  This corrective action has been revised to align with the establishment of guidance on the accounting treatment of leases and on internal
use software, which were completed on 9/30/2005.
2
  OMB Financial Management-Line of Business, is dependent upon decisions by the U.S. Department of Agriculture and funding for this
initiative at both the Department and FSA/CCC levels.


                                                                                         Target             Revised             Actual
                                                                                       Completion          Completion         Completion
            Area of Noncompliance/Proposed Corrective Actions                             Date               Date                Date
                            Section 3 – Standard General Ledger at the Transaction Level
3.1     Funds Control Mechanisms
        Agency Point of /Contact: FSA/CCC – Controller
        For Estimated Resources Needed see Sections 2.




 USDA
      206           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                 Target      Revised       Actual
                                                                               Completion   Completion   Completion
         Area of Noncompliance/Proposed Corrective Actions                        Date        Date          Date
                                Section 3 – Standard General Ledger at the Transaction Level
        • Corrected posting models to be compliant with the SGL.

           −    Completed financial posting logic review of transactions       8/31/2004    6/30/2005    6/30/2005
                and implemented all required changes to financial posting
                logic that may have a material impact on CCC’s Financial
                Statements.
           −    Implemented improved interface controls between feeder         9/30/2004                 11/30/2004
                systems and the CORE accounting system.
        • Developed standard operating procedures for feeder systems.          11/30/2004                11/30/2004
        • Expanded the obligation review and certification process to
          include all open obligations and programs having
          disbursements during the fiscal year. Identified and grouped
          programs with specific obligation and disbursement events.
           −    Developed, distributed and provided necessary training on      6/30/2005                 6/30/2005
                the new Funds Status Report to program managers and
                staff. The training consisted of providing an understanding
                of the report design, how the report can be used,
                Governmental finance/budgetary concepts and an
                overview of how information is recorded in CCC’s general
                ledger.
           − Expanded the review and certification of obligations to           6/30/2005                 4/30/2005
             include all programs with open obligation balances. The
             obligations team developed a process to implement the
             certification quarterly.
        • Developed an approach for estimating obligations by business         5/31/2005                 5/31/2005
          event.
        • Identified and implemented changes to current financial
          management processes and systems to improve the accuracy
          and timeliness of obligation amounts in the core financial
          system.
           −    Performed more timely and accurate identification and          6/30/2005                 6/30/2005
                quantification of program obligations, and published
                updated policies and procedures for recording budgetary
                entries related to obligations.
           −    Reviewed and enhanced monthly general ledger budgetary         6/30/2005                 6/30/2005
                account reconciliation to evaluate all program obligation
                and disbursement activity.
                                                                                       1
           − Developed and implemented changes in the program and                TBD                     Discontinued
             financial software to record obligations at the transaction
             level.
        • Improvement needed in controls to ensure funds control and           9/30/2006
          budgetary transactions are properly supported, recorded timely
          and accurately.
           −    Document and evaluate current system of budgetary              9/30/2006
                accounting controls, identify deficiencies, develop and
                implement improved, well-defined control processes, as
                part of OMB A-123 Appendix A assessment of CCC’s
                internal controls over financial reporting.
           −    Obtain contractor training for financial management staff in   9/30/2006
                budgetary accounting and analysis.
           −    Implement organizational structure changes to leverage         9/30/2006
                expertise and improve performance in financial and
                budgetary accounting policy documentation,
                reconciliations, analysis, and review.




                                                                                                              USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  207
                     SYSTEMS, CONTROLS AND LEGAL COMPLIANCE
11/9/2005 5:07 PM



                                                                                          Target             Revised              Actual
                                                                                        Completion          Completion          Completion
           Area of Noncompliance/Proposed Corrective Actions                               Date               Date                 Date
                                  Section 3 – Standard General Ledger at the Transaction Level
            −   Analyze current feeder systems to determine compliance        9/30/2006
                with financial data requirements and if required financial
                data are being transmitted to the Core financial system.
                Identify feeder system gaps and costs to correct.
            −   Ensure that all financial management requirements are                    9/30/2006
                incorporated at the transaction level in the next generation
                of program feeder systems.
            −   Enhance existing financial web services, such as the                     9/30/2006
                National Payment Service and e-Funds control systems,
                and increase CCC programs using these systems.
                                                                                                  2
            −   Implement a new integrated financial management system                      TBD
                that includes funds control functionality, under OMB
                Financial Management-Line of Business.
1
  Additional transaction codes are being added to automate the liquidation of obligation balances. Reports have been developed to improve
oversight of obligation balances and ensure activity is being recorded in a timely fashion. The actual posting process at the transaction level
remains manual for most programs. USDA has determined that some changes cannot be made due to system or business process limitations.
In those cases, USDA has implemented such compensating controls as program analysis, reviews of account balances and confirmations of
balances with program managers. Obligation balances are being posted monthly and automated sources for data are being utilized.
2
  OMB Financial Management-Line of Business, is dependent upon decisions by the U.S. Department of Agriculture and funding for this
initiative at both the Department and FSA/CCC levels.
                                                                                                                 1
                               Section 4 – Information Security Policies, Procedures or Practices
1
 Completed corrective actions for this initiative apply to both Section 1 (OMB Circular A-130) and Section 4 (information security policies,
procedures or practices) noncompliance and therefore are not repeated in Section 4.




    USDA
     208            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
IV.          Financial Statements, Notes, Supplemental and Other Accompanying Information

MESSAGE FROM THE CHIEF FINANCIAL OFFICER
I hope that you have received a clear snapshot of the significant role that USDA
played in 2005 in enhancing so many aspects of American life. USDA is deeply
committed to the performance and accountability process, and the ample
opportunities it provides to have real visibility into our diverse operations and to
continually improve the quality of services we provide to the American people.
In making the most of this process, we are keenly aware of the pivotal role of
sound financial management—knowing how resources are spent, having the
confidence that programs and services are operating in continually more efficient
ways, and possessing a clear sense of ongoing challenges that require
management attention and focus.

Through the individual leadership and collaborative efforts of USDA managers, employees, business partners
and other stakeholders, we made significant strides in 2005 advancing the Department’s impressive recent
record of excellence in financial management. Here are some highlights of our substantive results over this
past fiscal year:
         Another clean financial audit opinion. Our ability to sustain this critical performance benchmark is
         powerful evidence of the Department’s improved accountability, internal control and data integrity;
         An 84 percent reduction in material deficiencies from FY 2002 to FY 2005. We are down from 19
         to 3, and we plan to eliminate the remaining trouble spots altogether in the year ahead;
         An effective strategic plan for USDA that will guide efforts throughout the Department to align
         strategic direction, operating budgets and performance measures to drive continued performance
         enhancements and clear accountability throughout the organization;
         Innovative information technology solutions relating to financial management and administrative
         systems that allow us to push more resources to the front lines of program delivery. Noteworthy
         among these is the integration of program data from the Food and Nutrition Service into the
         corporate financial system to consolidate processing, reduce costly reconciliations and eliminate
         legacy systems and the implementation of improved financial reporting systems;
         Cost-effective and secure payroll and other administrative services reliably and accurately provided
         Government-wide through our National Finance Center (NFC); and

         Successfully implementing our disaster recovery and continuity of operations plan in response to
         hurricane Katrina. During this disaster, NFC timely and accurately paid over 565,000 federal
         employees from an alternate location, and USDA financial systems and operations resumed to ensure
         that all fiscal year-end deadlines were met.

USDA is committed to providing sound management of the resources under our stewardship and to
communicating the effectiveness of our efforts to all Americans through the performance and accountability



                                                                                                       USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             209
                        CONSOLIDATED FINANCIAL STATEMENTS
11/9/2005 5:07 PM



reporting process. Our results are due to the hard work and innovative leadership of skilled career employees
who take seriously their responsibility for the substantial resources entrusted to them by Congress and the
American people to perform the important work of this Department. While we cannot yet give unqualified
assurance of compliance with the Federal Managers’ Financial Integrity Act (FMFIA) or the financial systems
requirements of the Federal Financial Management Improvement Act (FFMIA), we are redoubling our efforts
in the coming fiscal year to resolve these deficiencies.

In FY 2005, we made exceptional progress in financial management in USDA. As proud as we are of that
record, we look forward to beating it next year as sound financial management continues to enhance all
aspects of USDA’s vital work.



Patricia E. Healy
Acting Chief Financial Officer
November 15, 2005




 USDA
    210             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
Consolidated Financial Statements
                                       CONSOLIDATED BALANCE SHEET
                                       As of September 30, 2005 and 2004
                                                  (in millions)
                                                                               2005           2004
Assets:
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                                     $    42,327    $    39,488
   Investments (Note 5)                                                             69             56
   Accounts Receivable, Net (Note 6)                                               712            625
   Other (Note 10)                                                                   1              1
 Total Intragovernmental                                                        43,109         40,170

  Cash and Other Monetary Assets (Note 4)                                          242            165
  Investments (Note 5)                                                              15             15
  Accounts Receivable, Net (Note 6)                                              9,442          2,478
  Loans Receivable and Related Foreclosed Property, Net (Note 7)                75,176         73,841
  Inventory and Related Property, Net (Note 8)                                      29            142
  General Property, Plant, and Equipment, Net (Note 9)                           4,885          4,914
  Other (Note 10)                                                                   86             89

Total Assets (Note 2)                                                          132,984        121,814

Liabilities:
  Intragovernmental:
    Accounts Payable                                                               821            809
    Debt (Note 12)                                                              83,515         69,053
    Other (Note 14)                                                             18,591         18,861
  Total Intragovernmental                                                      102,927         88,723

  Accounts Payable                                                               4,292          3,430
  Loan Guarantee Liability (Note 7)                                              1,214          1,188
  Debt Held by the Public (Note 12)                                                  1              1
  Federal Employee and Veterans Benefits                                           834            836
  Environmental and Disposal Liabilities (Note 13)                                  28             23
  Other (Notes 14 & 15)                                                         21,710         12,629
  Total Liabilities (Note 11)                                                  131,006        106,830

  Commitments and Contingencies (Note 16)

Net Position:
 Unexpended Appropriations                                                      21,490         22,158
 Cumulative Results of Operations                                              (19,512)        (7,174)
 Total Net Position                                                              1,978         14,984

Total Liabilities and Net Position                                         $ 132,984      $ 121,814

                      The accompanying notes are an integral part of these statements.



                                                                                               USDA
                                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT               211
                     CONSOLIDATED FINANCIAL STATEMENTS




                          CONSOLIDATED STATEMENT OF NET COST
                         For the Years Ended September 30, 2005 and 2004
                                            (in millions)


                                                                          2005            2004
Strategic Goals:

 Enhance Economic Opportunities for Agricultural Producers:
  Gross Cost                                                          $    44,015     $   19,942
  Less: Earned Revenue                                                     15,137          3,338
    Net Cost of Goal 1                                                     28,878         16,604

 Support Increased Economic Opportunities and
 Improved Quality of Life in Rural America:
   Gross Cost                                                               5,358          6,102
   Less: Earned Revenue                                                     4,344          3,989
    Net Cost of Goal 2                                                      1,014          2,113

 Enhance Protection and Safety of the Nation's
 Agriculture and Food Supply:
  Gross Cost                                                                3,071          2,935
  Less: Earned Revenue                                                        630            520
    Net Cost of Goal 3                                                      2,441          2,415

 Improve the Nation's Nutrition and Health:
   Gross Cost                                                              51,033         45,452
   Less: Earned Revenue                                                        46             41
    Net Cost of Goal 4                                                     50,987         45,411

 Protect and Enhance the Nation's
 Natural Resource Base and Environment:
  Gross Cost                                                                8,580          8,234
  Less: Earned Revenue                                                        887            755
    Net Cost of Goal 5                                                      7,693          7,479


 Total Gross Costs of Strategic Goals                                     112,057         82,665
 Less: Total Earned Revenues                                               21,044          8,643

 Net Cost of Operations (Note 17)                                     $    91,013     $   74,022




                   The accompanying notes are an integral part of these statements.




                                                                                           USDA
                           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                    212
                         CONSOLIDATED FINANCIAL STATEMENTS




                    CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                         For the Years Ended September 30, 2005 and 2004
                                            (in millions)

                                                                   2005                                 2004
                                                     Cumulative                          Cumulative
                                                     Results of       Unexpended         Results of        Unexpended
                                                     Operations      Appropriations      Operations       Appropriations
Beginning Balances                                   $ (7,174)          $ 22,158         $ (19,750)          $ 22,192

Budgetary Financing Sources:
   Appropriations Received                                                     80,697                               87,089
   Appropriations Transfer In (Out)                                              (507)                                 127
   Other Adjustments(recissions, etc.)                                         (2,937)                              (2,665)
   Appropriations Used                                  77,921                (77,921)       84,588                (84,585)
   Nonexchange Revenue                                       8                                   29
   Donations and Forfeitures of Cash                         2                                     2
   Transfers In (Out) without Reimbursement                686                                2,219
   Other Budgetary Financing Sources                        (1)                                   -

Other Financing Sources:
   Donations and Forfeitures of Property                    31                                    4
   Transfers In (Out) without Reimbursement             (1,001)                              (1,074)
   Imputed Financing from Costs Absorbed by Others         833                                  629
   Other                                                   196                                  201
Total Financing Sources                                 78,675                  (668)        86,598                    (34)

Net Cost of Operations                                  (91,013)                             (74,022)

Net Change                                              (12,338)                (668)        12,576                    (34)

Ending Balances                                      $ (19,512)           $   21,490     $    (7,174)          $   22,158




                     The accompanying notes are an integral part of these statements.




                                                                                                                   USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                       213
                     CONSOLIDATED FINANCIAL STATEMENTS




                      COMBINED STATEMENT OF BUDGETARY RESOURCES
                        For the Years Ended September 30, 2005 and 2004
                                           (in millions)

                                                                        2005                                2004
                                                                          Non-Budgetary                       Non-Budgetary
                                                                             Financing                           Financing
                                                         Budgetary            Accounts       Budgetary            Accounts
Budgetary Resources:
 Budget Authority:
   Appropriations Received                               $    88,940                         $    94,316
   Borrowing Authority (Notes 19 & 20)                        45,357           $   10,886         29,006           $   11,356
   Net Transfers                                                 (35)                                  -
 Unobligated Balances:
   Beginning of Period (Note 21)                              18,756                6,325         16,762                5,802
   Net Transfers, Actual                                        (872)                               (193)
 Spending Authority From Offsetting Collections:
   Earned
     Collected                                                27,460                8,576         23,462                7,519
     Change in Receivables from Federal Sources                    -                 (113)          (672)                 146
   Change in Unfilled Customer Orders
     Advances Received                                        (1,383)                               935
     Without Advances from Federal Sources                        15                    2            99                   (97)
   Transfers from Trust Funds - Collected                        899
 Recoveries of Prior Year Obligations                          6,243                  559          5,256                  634
 Permanently not Available                                   (39,871)              (4,911)       (47,065)              (4,376)
 Total Budgetary Resources                                   145,509               21,324        121,906               20,984


Status of Budgetary Resources:
 Obligations Incurred (Note 18):
   Direct                                                     82,879               14,496         75,508               14,659
   Reimbursable                                               43,460                              27,642
 Unobligated Balance:
   Apportioned                                                 5,919                5,672          6,396                5,921
   Exempt from Apportionment                                   1,262                    5            551                    6
 Unobligated Balance not Available                            11,989                1,151         11,809                  398
 Total Status of Budgetary Resources                         145,509               21,324        121,906               20,984


Relationship of Obligations to Outlays:
 Obligated Balance, Net, Beginning of Period (Note 21)        21,010               17,136         21,194               14,871
 Obligations Incurred                                        126,339               14,496        103,150               14,659
  Less:
   Recoveries of Prior Year Obligations                        6,243                  559          5,256                 634
   Change from Federal Sources                                    15                 (111)          (573)                 49
   Obligated Balance, Net, End of Period:
      Accounts Receivable                                     (1,978)                (205)        (1,978)                (316)
      Unfilled Customer Orders from Federal Sources             (428)                (635)          (412)                (635)
      Undelivered Orders                                      15,982               18,716         14,353               17,735
      Accounts Payable                                        12,979                  326          9,047                  352
   Total Obligated Balance, Net, End of Period                26,555               18,202         21,010               17,136

  Disbursements                                            114,536                 12,982         98,651               11,711
  Collected and Advances Received                          (26,976)                (8,576)       (24,397)              (7,519)
 Outlays                                                    87,560                  4,406         74,254                4,192
     Less: Distributed Offsetting Receipts                   1,445                    722          1,928                  600
 Net Outlays                                             $ 86,115              $    3,684    $    72,326           $    3,592



                  The accompanying notes are an integral part of these statements.



                                                                                                                          USDA
                              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                214
                          CONSOLIDATED FINANCIAL STATEMENTS




                                  CONSOLIDATED STATEMENT OF FINANCING
                         For the Years Ended September 30, 2005 and 2004
                                            (in millions)

                                                                                                              2005           2004
Resources Used to Finance Activities:
Budgetary Resources Obligated
   Obligations Incurred                                                                                   $ 140,835      $ 117,809
   Less: Spending authority from offsetting collections and recoveries                                       42,258         37,282
   Obligations net of offsetting collections and recoveries                                                  98,577         80,527
   Less: Distributed Offsetting receipts                                                                      2,167          2,528
   Net Obligations                                                                                           96,410         77,999

Other Resources
   Donations and forfeitures of property                                                                           31              4
   Transfers in(out) without reimbursement                                                                     (1,001)        (1,074)
   Imputed financing from costs absorbed by others                                                                833            629
   Other                                                                                                          196            201
   Net other resources used to finance activities                                                                  59           (240)

   Total resources used to finance activities                                                                 96,469         77,759

Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in resources obligated for goods, services and benefits ordered, but not yet provided                2,192          2,532
   Resources that fund expenses recognized in prior periods                                                    2,127          2,529
   Budgetary offsetting collections and receipts that do not affect net cost of operations
    Credit program collections which increase liabilities for loan guarantees or allowances for subsidy       (14,921)       (14,136)
    Other                                                                                                     (12,825)       (10,259)
   Resources that finance the acquisition of assets                                                            31,208         23,151
   Other resources or adjustments to net obligated resources that do not affect net cost of operations          2,789          1,509

   Total resources used to finance items not part of the net cost of operations                               10,570          5,326

   Total resources used to finance the net cost of operations                                                 85,899         72,433

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                                                             -              49
   Upward/Downward reestimates of credit subsidy expense                                                       (1,853)         (341)
   Increase in exchange revenue receivable from the public                                                     (7,791)          534
   Other                                                                                                        9,151         1,587
   Total components of Net Cost of Operations that will require or generate
     resources in future periods (Note 25)                                                                      (493)         1,829

Components not Requiring or Generating Resources:
  Depreciation and amortization                                                                                  524            598
  Revaluation of assets or liabilities                                                                          (525)          (633)
  Other                                                                                                        5,608           (205)
  Total components of Net Cost of Operations that will not require or generate resources                       5,607           (240)

   Total components of Net Cost of Operations that will not require or generate
    resources in the current period                                                                            5,114          1,589

   Net Cost of Operations                                                                                 $   91,013     $   74,022




                       The accompanying notes are an integral part of these statements.




                                                                                                                         USDA
                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                          215
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




NOTES TO THE CONSOLIDATED FINANCIAL STATEMENTS
As of September 30, 2005 and 2004
(in millions)

NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States and around
the world. USDA is organized into seven distinct mission areas and agencies that execute these missions.

Listed below are the missions and the agencies within each mission including four Government corporations:
FARM AND FOREIGN AGRICULTURAL SERVICES (FFAS)
           Farm Service Agency (FSA)
           •     Commodity Credit Corporation (CCC)

           Foreign Agricultural Service (FAS)
           Risk Management Agency (RMA)
           •     Federal Crop Insurance Corporation (FCIC)
FOOD, NUTRITION, AND CONSUMER SERVICES (FNCS)
           Food and Nutrition Service (FNS)
FOOD SAFETY
           Food Safety and Inspection Service (FSIS)
MARKETING AND REGULATORY PROGRAMS (MRP)
           Agricultural Marketing Service (AMS)
           Animal and Plant Health Inspection Service (APHIS)
           Grain Inspection, Packers and Stockyards Administration (GIPSA)
NATURAL RESOURCES AND ENVIRONMENT (NRE)
           Forest Service (FS)
           Natural Resources Conservation Service (NRCS)
RESEARCH, EDUCATION, AND ECONOMICS (REE)
           Agricultural Research Service (ARS)
           Cooperative State Research, Education, and Extension Service (CSREES)
           Economic Research Service (ERS)
           National Agricultural Statistics Service (NASS)




 USDA
    216              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM



RURAL DEVELOPMENT
           Rural Development (RD)
           •     Rural Telephone Bank (RTB) – a corporation
           •     Alternative Agricultural Research and Commercialization Corporation (AARC)

The President’s Fiscal Year 2006 Budget proposes to establish the process and terms to implement dissolution
of the RTB due to insufficient demand for the bank’s loans and the availability of adequate financing from
other sources. Stockholders of the RTB will receive a cash payout for their stock at par value. In August
2005, the RTB Board unanimously approved resolutions describing the process and terms to implement the
liquidation and dissolution of the RTB, subject to there being no legal restrictions on redeeming Government-
owned Class A Stock.

Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and
balances are eliminated, except for the Statement of Budgetary Resources that is presented on a combined
basis. The financial statements are prepared in accordance with generally accepted accounting principles for
the Federal Government.

Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect
the amounts reported in the financial statements and accompanying notes. Actual results could differ from
those estimates.

Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists,
delivery has occurred or services have been rendered, sales price is fixed or determinable, and collection is
reasonably assured. In certain cases, the prices charged by the Department are set by law or regulation, which
for program and other reasons may not represent full cost. Prices set for products and services offered through
the Department’s working capital funds are intended to recover the full costs incurred by these activities.
Revenue from non-exchange transactions is recognized when a specifically identifiable, legally enforceable
claim to resources arises, to the extent that collection is probable and the amount is reasonably estimable.
Appropriations are recognized as a financing source when used. An imputed financing source is recognized
for costs subsidized by other Government entities.

Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities.
Investments in non-marketable par value Treasury securities are classified as held to maturity and are carried
at cost. Investments in market-based Treasury securities are classified as held to maturity and are carried at




                                                                                                       USDA
                              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             217
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




amortized cost. The amortized cost of securities is based on the purchase price adjusted for amortization of
premiums and accretion of discounts using the straight-line method over the term of the securities.

Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The
adequacy of the allowance is determined based on past experience and age of outstanding balances.

Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the present value
of the net cash-flows estimated over the life of the loan or guarantee. The difference between the outstanding
principal of the loans and the present value of their net cash inflows is recognized as a subsidy cost allowance;
the present value of estimated net cash outflows of the loan guarantees is recognized as a liability for loan
guarantees. The subsidy expense for direct or guaranteed loans disbursed during the year is the present value
of estimated net cash outflows for those loans or guarantees. A subsidy expense also is recognized for
modifications made during the year to loans and guarantees outstanding and for reestimates made as of the
end of the year to the subsidy allowances or loan guarantee liability for loans and guarantees outstanding.

Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the present-value
method. Under the present-value method, the outstanding principal of direct loans is reduced by an allowance
equal to the difference between the outstanding principal and the present value of the expected net cash flows.
The liability for loan guarantees is the present value of expected net cash outflows due to the loan guarantees.

Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are
valued on the basis of historical cost using a first-in, first-out method. Commodities are valued at the lower of
cost or net realizable value using a weighted average method.

Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is
determined using the straight-line method over the estimated useful lives of the assets. Useful lives for PP&E
are disclosed in Note 9. Capitalization thresholds for personal property and real property are $25,000, and
$100,000 for internal use software.

Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at the
time the employees’ services are rendered. The expense is equal to the actuarial present value of benefits
attributed by the pension plan’s benefit formula, less the amount contributed by the employees. An imputed
cost is recognized for the difference between the expense and contributions made by and for employees.

Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized
when a future outflow or other sacrifice of resources is probable and measurable on the basis of events




 USDA
    218              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




occurring on or before the reporting date. The liability for long-term other post-employment benefits is the
present value of future payments.

Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future outflow
or other sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.

Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the entity, pursuant to the
requirements of 31 U.S.C. 3515(b).

While the statements have been prepared from the books and records of the entity in accordance with the
formats prescribed by the Office of Management and Budget (OMB), they also are used to monitor and
control budgetary resources, which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity. Thus, liabilities cannot be liquidated without enabling legislation that provides resources to
do so.

NOTE 2. NON-ENTITY ASSETS

Non-entity assets include proceeds from the sale of timber payable to Treasury, and employer contributions
and payroll taxes withheld for agencies serviced by the National Finance Center.

                                                                           FY 2005              FY 2004
      In tra g o v e rn m e n ta l:
         F u n d b a la n c e w ith T re a s u ry                      $           140      $           243
         A c c o u n ts R e c e iva b le                                               1                    1
      S u b to ta l In tra g o ve rn m e n ta l                                    141                  244

      W ith th e P u b lic :
         C a s h a n d o th e r m o n e ta ry a s s e ts                             91                   81
         A c c o u n ts re c e iva b le                                              81                   80
      S u b to ta l W ith th e P u b lic                                           172                  161

      T o ta l n o n -e n tity a s s e ts                                          313                  405

      T o ta l e n tity a s s e ts                                           1 3 2 ,6 7 1         1 2 1 ,4 0 9

      T o ta l a s s e ts                                              $     1 3 2 ,9 8 4   $     1 2 1 ,8 1 4




                                                                                                                 USDA
                                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                         219
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




NOTE 3. FUND BALANCE WITH TREASURY

Other Fund Types include special, deposit, and clearing accounts. Clearing Account Balances including
suspense accounts are awaiting disposition or reclassification. Borrowing Authority not yet Converted to
Fund Balance represents un-obligated and obligated amounts recorded at year-end that will be funded by
future borrowings.
                                                                                 FY 2005                 FY 2004
 Fund Balances:
    Trust Funds                                                             $            759        $          648
    Revolving Funds                                                                   11,011                10,552
    Appropriated Funds                                                                30,009                27,584
    Other Fund Types                                                                     548                   704
 Total                                                                                42,327                39,488


 Status of Fund Balance with Treasury:
 Unobligated Balance:
    Available                                                                         12,630                12,190
    Unavailable                                                                       11,870                11,669
 Obligated Balance not yet Disbursed                                                  26,357                20,579
 Clearing Account Balances                                                               170                   299
 Borrowing Authority not yet Converted to Fund Balance                                (8,700)               (5,249)
 Total                                                                      $         42,327        $       39,488




NOTE 4. CASH AND OTHER MONETARY ASSETS

In fiscal 2005 and 2004, cash includes Federal crop insurance escrow amounts of $65 million and $83 million,
funds held in escrow for single family housing borrowers of $90 million and $81 million, and other receipts of
$87 million and $1 million, respectively. The other receipts of $87 million in fiscal 2005 include $26 million
of interest-bearing deposits.

                                                                       FY 2005                 FY 2004


             Cash                                                  $            242      $           165




 USDA
    220              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




NOTE 5. INVESTMENTS
 FY 2005                                                Unamortized                    Market
                         Amortization                    Premium/      Investments,     Value
                           Method           Cost         (Discount)        Net        Disclosure
 Intragovernmental:
   Non-marketable
     Par value                          $          64   $      -       $        64    $      -
     Market-based       Straight Line               5              -             5               5
 Total                                  $          69   $      -       $        69    $          5
 With the Public:
   AARC                                 $          15   $      -       $        15    $       15
 Total                                  $          15   $      -       $        15    $       15




 FY 2004                                                Unamortized                    Market
                         Amortization                    Premium/      Investments,     Value
                           Method           Cost         (Discount)        Net        Disclosure
 Intragovernmental:
   Non-marketable
     Par value                          $          52   $          -   $        52    $          -
     Market-based       Straight Line               4              -             4               4
 Total                                  $          56   $          -   $        56    $          4

 With the Public:
  AARC                                  $          15              -   $        15    $       15
 Total                                  $          15   $          -   $        15    $       15




                                                                                          USDA
                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                        221
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




NOTE 6. ACCOUNTS RECEIVABLE, NET

               FY 2005
                                              Accounts            Allowance for             Accounts
                                            Receivable,            Uncollectible          Receivable,
                                               Gross                Accounts                  Net
              Intragovernmental             $       712           $          -            $       712
              With the Public                     9,607                      165                9,442
              Total                         $    10,319           $          165          $    10,154

               FY 2004
                                              Accounts            Allowance for             Accounts
                                            Receivable,            Uncollectible          Receivable,
                                               Gross                Accounts                  Net
              Intragovernmental             $       625           $          -            $       625
              With the Public                     2,696                      218                2,478
              Total                         $     3,321           $          218          $     3,103




NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS

Direct Loans
Direct loan obligation or loan guarantee commitments made pre-1992 and the resulting direct loans or loan
guarantees are reported at net present value.

Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform Act of
1990 as amended governs the resulting direct loan or loan guarantees. The Act requires agencies to estimate
the cost of direct loans and loan guarantees at present value for the budget. Additionally, the present value of
the subsidy costs (i.e. interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and
other cash flows) associated with direct loans and loan guarantees are recognized as a cost in the year the loan
or loan guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at any
point in time is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of
the subsidy at that time.

The net present value of Loans Receivable and Related Foreclosed Property, Net is not necessarily
representative of the proceeds that might be expected if these loans were sold on the open market.

Loans Receivable and Related Foreclosed Property, Net at the end of FY 2005 was $75,176 million compared
to $73,841 million at the end of FY 2004. Loans exempt from the Federal Credit Reform Act of 1990
represent $1,057 million of the total compared to $2,092 million in FY 2004. Table 1 illustrates the overall
composition of the Department’s credit program balance sheet portfolio by credit program for FY 2005 and
2004.



 USDA
    222              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the
value of the subsidy cost allowance held against those loans. Current year subsidy expense, modifications and
reestimates all contribute to the change of the subsidy cost allowance through the year. The subsidy cost
allowance moved from $6,256 million to $4,674 million during FY 2005, a decrease of $1,582 million. Table
2 shows the reconciliation of subsidy cost allowance balances from FY 2004 to FY 2005.

Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the
current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total
direct loan subsidy expense in FY 2005 was negative $783 million compared to negative $131 million in FY
2004. Table 3 illustrates the breakdown of total subsidy expense for FY 2005 and 2004 by program.

Direct loan volume increased from $6,430 million in FY 2004 to $7,740million in FY 2005. Volume
distribution between mission area and program is shown in Table 4.

Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95 percent
of the principal loan amount. Under the guaranteed loan programs, the lender is responsible for servicing the
borrower's account for the life of the loan. The Department, however, is responsible for ensuring borrowers
meet certain qualifying criteria to be eligible and monitoring the lender's servicing activities. Borrowers
interested in guaranteed loans must apply to a conventional lender, which then arranges for the guarantee with
a Department agency. Estimated losses on loan and foreign credit guarantees are reported at net present value
as Loan Guarantee Liability. Defaulted guaranteed loans are reported at net present value as Loans Receivable
and Related Foreclosed Property, Net.

Guaranteed loans outstanding at the end of FY 2005 were $34,072 million in outstanding principal and
$30,269 million in outstanding principal guaranteed, compared to $34,161 and $30,368 million, respectively
at the end of FY 2004. Table 5 shows the outstanding balances by credit program.

During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability
held against those loans. Current year subsidy expense, modification and reestimates all contribute to the
change of the loan guarantee liability through the year. The loan guarantee liability is a combination of the
liability for losses on pre-1992 guarantees and post-1991 guarantees. Table 6 shows that total liability moved
from $1,188 million to $1,214 million during FY 2005, an increase of $26 million. The post-1991 liability
moved from $1,183 million to $1,210 million, an increase of $27 million. Table 7 shows the reconciliation of
loan guarantee liability post-1991 balances and the total loan guarantee liability.

Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans
disbursed in the current year, modifications to existing loans, and interest rate and technical reestimates to
existing loans. Total guaranteed loan subsidy expense in FY 2005 was negative $222 million compared to
negative $312 million in FY 2004. Table 8 illustrates the breakdown of total subsidy expense for FY 2005 and
2004 by program.

Guaranteed loan volume decreased from $10,721 million in FY 2004 to $8,987 million in FY 2005. Volume
distribution between mission area and program is shown in Table 9.




                                                                                                           USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  223
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area through
the FSA and the CCC, and in the RD mission area.

The Farm and Foreign Agricultural Services (FFAS) Mission Area
The FFAS mission area helps keep America's farmers and ranchers in business as they face the uncertainties
of weather and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance
programs that help strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the
farm sector with programs that encourage the expansion of export markets for U.S. agriculture.

FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial
credit and nonprofit entities that are engaged in the improvement of the nation's agricultural community.
Often, FSA borrowers are beginning farmers who cannot qualify for conventional loans due to insufficient
financial resources. Additionally, the agency helps established farmers who have suffered financial setbacks
from natural disasters, or have limited resources to maintain profitable farming operations. FSA officials also
provide borrowers with supervision and credit counseling.

FSA's mission is to provide supervised credit. FSA works with each borrower to identify specific strengths
and weaknesses in farm production and management, and provides alternatives to address weaknesses. FSA is
able to provide certain loan servicing options to assist borrowers whose accounts are distressed or delinquent.
These options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of
easements, and debt write-downs. The eventual goal of FSA's farm credit programs is to graduate its
borrowers to commercial credit.

CCC's foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving
humanitarian assistance to the most-needy people throughout the world. CCC offers both guarantee credit and
direct credit programs for buyers of U.S. exports, suppliers, and sovereign countries in need of food
assistance.

CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is an
internationally recognized organization under the leadership of the French Ministry of Economics and
Finance. Its sole purpose is to assess, on a case-by-case basis, liquidity problems faced by the world's most
severely economically disadvantaged countries. The general premise of the Club's activities is to provide
disadvantaged nations short-term liquidity relief to enable them to re-establish their credit worthiness. The
Departments of State and Treasury lead the U.S. Delegation and negotiations for all U.S. Agencies.




 USDA
    224              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Farm and Foreign Agricultural Service List of Programs
                         Farm Service Agency                       Commodity Credit Corporation
           Direct Farm Ownership                           Guaranteed Sales Manager Credit Program
           Direct Farm Operating                           Supplier Credit Guarantee Program
           Direct Emergency Loans                          Facility Program Guarantee
           Direct Indian Land Acquisition                  P.L. 480 Title 1 Program
           Direct Boll Weevil Eradication                  Direct Farm Storage Facility
           Direct Seed Loans to Producers                  Direct Sugar Storage Facilities
           Guaranteed Farm Operating
           Subsidized/Unsubsidized
           Agricultural Resource Demonstration Fund
           Bureau of Reclamation Loan Fund
           Guaranteed Farm Ownership Unsubsidized




The Rural Development (RD) Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the quality
of rural housing. To leverage the impact of its programs, RD is working with State, local and Indian tribal
Governments, as well as private and not-for-profit organizations and user-owned cooperatives.

Through its rural housing loan and grant programs, RD provides affordable housing and essential community
facilities to rural communities. Rural housing programs help finance new or improved housing for moderate,
low, and very low-income families each year. The programs also help rural communities finance, construct,
enlarge or improve fire stations, libraries, hospitals and medical clinics, industrial parks, and other community
facilities.

The Rural Business Program goal is to promote a dynamic business environment in rural America. RD
partners with the private sector and community-based organizations to provide financial assistance and
business planning. It also provides technical assistance to rural businesses and cooperatives, conducts research
into rural economic issues, and provides cooperative educational materials to the public.

The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan
programs for electric energy, telecommunications, and water and environmental projects. This program
leverages scarce Federal funds with private capital for investing in rural infrastructure, technology and
development of human resources.

RD programs provide certain loan servicing options to borrowers whose accounts are distressed or delinquent.
These options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of
easements and debt write-downs. The choice of servicing options depends on the loan program and the
individual borrower.




                                                                                                         USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 225
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




Rural Development List of Programs
        Rural Housing Program               Rural Business Program                Rural Utilities Program
 Home Ownership Direct Loans          Business and Industry Direct Loans   Water and Environmental Direct
 Home Ownership Guaranteed Loans      Business and Industry Guaranteed     Loans
 Home Improvement and Repair          Loans                                Water and Environmental
 Direct Loans                         Intermediary Relending Program       Guaranteed Loans
 Home Ownership and Home              Direct Loans                         Electric Direct Loans
 Improvement and Repair               Rural Economic Development Direct    Electric Guaranteed Loans
 Nonprogram Loans                     Loans                                Telecommunications Direct Loans
 Rural Housing Site Direct Loans                                           Rural Telephone Bank
 Farm Labor Housing Direct Loans                                           Federal Financing Bank-
 Rural Rental and Rural Cooperative                                        Telecommunications Guaranteed
 Housing Loans                                                             Distance Learning and Telemedicine
 Rental Housing Guaranteed Loans                                           Direct
 Multi-family Housing–Nonprogram–                                          Broadband Telecommunications
 Credit Sales                                                              Services
 Community Facilities Direct Loans
 Community Facilities Guaranteed
 Loans




Discussion of Administrative Expenses, Subsidy Costs and Subsidy Rates
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses for FY 2005 and 2004 are shown in Table 10.

Reestimates, Default Analysis, and Subsidy Rates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting
treatment of direct and guaranteed loans. The long-term cost to the Government for direct loans or loan
guarantees is referred to as "subsidy cost." Under the act, subsidy costs for loans obligated beginning in FY
1992 are recognized at the net present value of projected lifetime costs in the year the loan is disbursed.
Subsidy costs are revalued annually. Components of subsidy include interest subsidies, defaults, fee offsets,
and other cash flows.

Rural Development’s cashflow models are tailored for specific programs based on unique program
characteristics. The models utilized are housing, guaranteed, and a direct model that covers the remaining
portfolio with similar characteristics. Actual budgetary reestimates lag a year behind while the approximator
method is used for financial statement purposes. For example, the FY 2004 and FY 2003 actual budgetary
reestimates were recorded as of September 30, 2005 and 2004, respectively. The two exceptions to the
method are the single family and multi-family housing programs whose reestimates are recorded in the current
fiscal year.

The annual reestimate process updates the budget assumptions with actual portfolio performance, interest
rates and updated estimates for future loan performance. The FY 2005 reestimate process resulted in a $1,162
million reduction in the post 1991 direct loan portfolio and a $519 million reduction in the post 1991
guaranteed loan portfolio.




 USDA
    226              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 3 discloses the direct loan subsidy expense including the $1.2 billion reduction due to reestimates. The
reduction was most affected by a $751 million reduction in the housing program and $343 million reduction
in the export program. The housing FY 2005 downward reestimates was largely due to model and data
assumption changes that were implemented during the current fiscal year. After analyzing foreign credits
government-wide, OMB determined that actual performance on foreign credits was better than had been
previously forecast and therefore mandated a change to the default calculation methodology. This is a major
contributor to the significant downward subsidy reestimates for the food aid program

Table 8 discloses the loan guarantee subsidy expenses including the $518 million reduction due to reestimate.
The reduction was most impacted by the $475 million reduction in the export programs and $161 million
reduction in the farm loan programs. After analyzing foreign credits government-wide, OMB determined that
actual performance on foreign credits was better than had been previously forecast and therefore mandated a
change to the default calculation methodology. This is a major contributor to the significant downward
subsidy reestimates for the export program. The reduction in the farm loan program has not been fully
analyzed at this time. A detailed analysis will be performed during FY 2006.

Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference between
the budgeted and actual interest for both borrower and Treasury remain the key components for the subsidy
formulation and reestimate rates of many USDA direct programs. USDA uses the Government-wide interest
rate projections provided by the Office of Management and Budget (OMB) in order to do its calculations and
analysis.

The Inter-agency Country Risk Assessment System is a Federal interagency effort chaired by OMB under the
authority of the Federal Credit Reform Act of 1990 as amended. The system provides standardized risk
assessment and budget assumptions for all direct credits and credit guarantees provided by the Government, to
foreign borrowers. Sovereign and non-sovereign lending risks are sorted into risk categories, each associated
with a default estimate.

The CCC delinquent debt is estimated at 100-percent allowance. When the foreign borrower reschedules their
debt and renews their commitment to repay CCC, the allowance is estimated at less than 100 percent.

Subsidy rates are used to compute each year's subsidy expenses as disclosed above. The subsidy rates
disclosed in Tables 11 and 12 pertain only to the FY 2005 and 2004 cohorts. These rates cannot be applied to
the direct and guaranteed loans disbursed during the current reporting year to yield the subsidy expense. The
subsidy expense for new loans reported in the current year could result from disbursements of loans from both
current year cohorts and prior-year cohorts. The subsidy expense reported in the current year also includes
reestimates.

As a result of new guidance provided by the credit reform Treasury certificate training class, CCC chose to
reflect interest on downward reestimates in the Statement of Changes in Net Position as other financing
sources for FY 2005 and 2004, respectively. The remainder of USDA credit programs chose to reflect
downward reestimates in earned revenue on the Statement of Net Cost. Both methodologies are accepted
alternatives that have been promulgated by Treasury.




                                                                                                       USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               227
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM



Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated
with loans are reported at their market value at the time of acquisition. The projected future cash flows
associated with acquired properties are used in determining the related allowance (at present value).

As of September 30, 2005 and 2004, foreclosed property consisted of 587 and 783 rural single-family housing
dwellings, with an average holding period of 26 and 24 months, respectively. As of September 30, 2005 and
2004, FSA-Farm Loan Program properties consist primarily of 100 and 133 farms, respectively. The average
holding period for these properties in inventory for FY 2005 and 2004 was 57 and 60 months, respectively.
Certain properties can be leased to eligible individuals.

Non-performing Loans
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on rescheduling
agreements until such time two consecutive payments have been made following the rescheduling.

When RD, FSA and CCC calculate loan interest income, however, the recognition of revenue is deferred. Late
interest is accrued on arrears.

Loan Modifications
The Debt Reduction Fund is used to account for CCC's "modified debt." Debt is considered to be modified if
the original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until
paid. All outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed by the
Federal Credit Reform Act of 1990 as amended.

Interest Credit
Approximately $18,200 and $18,300 million of RHS unpaid loan principal as of September 30, 2005, and
2004 were receiving interest credit, respectively. If those loans receiving interest credit had accrued interest at
the full-unreduced rate, interest income would have been approximately $1,100 million higher for FY 2005
and 2004.

Restructured Loans
At the end of FY 2005 and 2004, the RD portfolio contained approximately 80,000 and 88,000 restructured
loans with an outstanding unpaid principal balance of $2,600 and $2,500 million, respectively. At the end of
FY 2005 and 2004, the farm loan portfolio contained approximately 25,008 and 27,259 restructured loans
with an outstanding unpaid principal balance of $1,351 and $1,484 million, respectively. Direct credit and
credit guarantee principal receivables in the food aid and export programs under rescheduling agreements as
of September 30, 2005 and 2004, were $5.5 and $7.4 billion, respectively.




 USDA
    228              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 1. Total Loans Receivable and Related Foreclosed Property, Net
FY 2005                                                         Loans                                  Present       Value of Assets
Direct Loans                                                  Receivable,    Interest    Foreclosed      Value         Related to
                                                                Gross       Receivable    Property    Allowance       Direct Loans
Obligated Pre-1992
  Farm                                                        $    2,336    $     151    $      21    $      (247)   $       2,261
  Export                                                           5,909           69            -         (2,624)           3,354
  Food Aid                                                             -            -            -              -                -
  Housing                                                         12,379          114           13         (5,112)           7,394
  Electric                                                        12,308           25            -         (1,599)          10,734
  Telecommunications                                               1,526            3            -           (109)           1,420
  Water and Environmental                                          1,700           17            -           (248)           1,469
  Business and Industry                                                1            -            -             (1)               -
  Economic Development                                                52            -            -            (25)              27
Pre-1992 Total                                                    36,211          379           34         (9,965)          26,659

Obligated Post-1991
  Farm                                                             4,562          141            3           (645)           4,061
  Export                                                           2,794           37            -         (1,391)           1,440
  Food Aid                                                             -            -            -              -                -
  Housing                                                         14,423           73           19         (1,114)          13,401
  Electric                                                        17,857            2            -           (600)          17,259
  Telecommunications                                               2,533            3            -             24            2,560
  Water and Environmental                                          6,639           65            -           (705)           5,999
  Business and Industry                                               83            -            -            (76)               7
  Economic Development                                               452            2            -           (157)             297
Post-1991 Total                                                   49,343          323           22         (4,664)          45,024
Total Direct Loan Program Receivables                             85,554          702           56        (14,629)          71,683

Defaulted Guarantee Loans
  Pre-1992
     Farm                                                              9            -             -           (7)                 2
     Export                                                        1,401           15             -         (122)             1,294
     Food Aid                                                          -            -             -            -                  -
     Housing                                                           -            -             -            -                  -
     Electric                                                          -            -             -            -                  -
     Telecommunications                                                -            -             -            -                  -
     Water and Environmental                                           -            -             -            -                  -
     Business and Industry                                             -            -             -            -                  -
     Economic Development                                              3            1             -            -                  4
  Pre-1992 Total                                                   1,413           16             -         (129)             1,300

  Post-1991
      Farm                                                            26            1             -          (18)                 9
      Export                                                       1,605           24             -         (691)               938
      Food Aid                                                         -            -             -            -                  -
      Housing                                                         13            -             -            -                 13
      Electric                                                         -            -             -            -                  -
      Telecommunications                                               -            -             -            -                  -
      Water and Environmental                                          -            -             -            -                  -
      Business and Industry                                          167            1             -            8                176
      Economic Development                                             -            -             -            -                  -
  Post-1991 Total                                                  1,811           26             -         (701)             1,136
Total Defaulted Guarantee Loans                                    3,224           42             -         (830)             2,436

Loans Exempt from Credit Reform Act:
  Commodity Loans                                                  1,031            -             -             -             1,031
  Other Foreign Receivables                                           26            -             -             -                26
Total Loans Exempt                                                 1,057            -             -             -             1,057

Total Loans Receivable and Related Foreclosed Property, Net                                                          $      75,176




                                                                                                                           USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                             229
          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS
11/9/2005 12:15 PM




Table 1. Total Loans Receivable and Related Foreclosed Property, Net (cont’d)
  FY 2004                                                         Loans                                  Present       Value of Assets
  Direct Loans                                                  Receivable,    Interest    Foreclosed     Value          Related to
                                                                  Gross       Receivable    Property    Allowance       Direct Loans
  Obligated Pre-1992
    Farm                                                        $    2,799    $     171    $      28    $      (327)   $       2,671
    Export                                                           6,244           71            -         (2,930)           3,385
    Food Aid                                                             -            -            -              -                -
    Housing                                                         12,949          123           17         (5,558)           7,531
    Electric                                                        13,283           28            -         (1,780)          11,531
    Telecommunications                                               2,092            9            -           (159)           1,942
    Water and Environmental                                              -            -            -              -                -
    Business and Industry                                                -            -            -              -                -
    Economic Development                                             2,176           21            -           (347)           1,850
  Pre-1992 Total                                                    39,543          423           45        (11,101)          28,910

  Obligated Post-1991
    Farm                                                             4,646          120            5           (598)           4,173
    Export                                                           3,007           34            -         (1,821)           1,220
    Food Aid                                                             -            -            -              -                -
    Housing                                                         13,874           87           25         (2,066)          11,920
    Electric                                                        14,675            4            -           (748)          13,931
    Telecommunications                                               2,339            2            -             (5)           2,336
    Water and Environmental                                          6,009           64            -           (760)           5,313
    Business and Industry                                               89            -            -            (78)              11
    Economic Development                                               435            2            -           (158)             279
  Post-1991 Total                                                   45,074          313           30         (6,234)          39,183
  Total Direct Loan Program Receivables                             84,617          736           75        (17,335)          68,093

  Defaulted Guarantee Loans
    Pre-1992
       Farm                                                             10            1            -             (8)                3
       Export                                                        4,709           21            -         (2,204)            2,526
       Food Aid                                                          -            -            -              -                 -
       Housing                                                           -            -            -              -                 -
       Electric                                                          -            -            -              -                 -
       Telecommunications                                                -            -            -              -                 -
       Water and Environmental                                           -            -            -              -                 -
       Business and Industry                                             -            -            -              -                 -
       Economic Development                                              4            1            -              -                 5
    Pre-1992 Total                                                   4,723           23            -         (2,212)            2,534

    Post-1991
        Farm                                                            15            -             -           (11)                4
        Export                                                       1,794           27             -          (873)              948
        Food Aid                                                         -            -             -             -                 -
        Housing                                                          4            -             -             -                 4
        Electric                                                         -            -             -             -                 -
        Telecommunications                                               -            -             -             -                 -
        Water and Environmental                                          -            -             -             -                 -
        Business and Industry                                          176            -             -           (10)              166
        Economic Development                                             -            -             -             -                 -
    Post-1991 Total                                                  1,989           27             -          (894)            1,122
  Total Defaulted Guarantee Loans                                    6,712           50             -        (3,106)            3,656

  Loans Exempt from Credit Reform Act:
    Commodity Loans                                                  1,798            -             -             -             1,798
    Other Foreign Receivables                                          294            -             -             -               294
  Total Loans Exempt                                                 2,092            -             -             -             2,092

  Total Loans Receivable and Related Foreclosed Property, Net                                                          $      73,841




 USDA
    230              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
      NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991)
Direct Loans
                                                                                    FY 2005        FY 2004


 Beginning balance of the subsidy cost allowance                                $    6,256     $    6,654
 Add: Subsidy expense for direct loans disbursed during the year by component
   Interest rate differential costs                                                     (89)           (83)
   Default costs (net of recoveries)                                                   141            211
   Fees and other collections                                                            (7)           (12)
   Other subsidy costs                                                                 326            339
 Total subsidy expense prior to adjustments and reestimates                            371            455


 Adjustments
   Loan modifications                                                                     6           142
   Fees received                                                                        20             17
   Loans written off                                                                  (191)          (405)
   Subsidy allowance amortization                                                     (527)          (317)
   Other                                                                                (99)          437
 Total subsidy cost allowance before reestimates                                     5,836          6,983


 Add or subtract subsidy reestimates by component
   Interest rate reestimate                                                            108            275
   Technical/default reestimate                                                      (1,270)        (1,002)
 Total reestimates                                                                   (1,162)         (727)
 Ending balance of the subsidy cost allowance                                   $    4,674     $    6,256




                                                                                                      USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                    231
                                            NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 3. Direct Loan Subsidy Expense by Program and Component


        FY 2005
                                                    Interest                       Fees and Other                           Subtotal        Total               Rate              Technical           Total          Total Subsidy
                                             Differential           Defaults            Collections             Other       Subsidy     Modifications       Reestimates       Reestimates         Reestimates            Expense
        Direct Loan Programs
         Farm                                $              (4)      $    97        $               -           $ (18)      $     75    $           -       $           (8)   $          42       $           34     $        109
         Export                                            21              5                                -        1            27                    6                -              (343)             (343)              (310)
         Food Aid                                               -              -                            -           -           -                   -                -                    -                 -                  -
         Housing                                          (176)           35                            (7)       358            210                    -              (52)             (699)             (751)              (541)
         Electric                                          (23)            2                                -      (10)          (31)                   -              126              (147)                 (21)            (52)
         Telecommunications                                 (2)            1                                -       (2)           (3)                   -               27               (38)                 (11)            (14)
         Water and Environmental                           77              1                                -       (3)           75                    -               16               (80)                 (64)             11
         Business and Industry                                  -              -                            -           -           -                   -                1                (1)                   -                  -
         Economic Development                              18                  -                            -           -         18                    -               (2)               (2)                  (4)             14
        Total Direct Loan Subsidy Expense       $          (89)      $   141        $                   (7)     $ 326        $   371    $               6   $          108    $       (1,268)     $     (1,160)      $       (783)


        FY 2004
                                                Interest                           Fees and Other                           Subtotal        Total               Rate              Technical           Total          Total Subsidy
                                            Differential            Defaults           Collections              Other       Subsidy     Modifications       Reestimates       Reestimates         Reestimates            Expense
        Direct Loan Programs
         Farm                               $             (29)      $    163       $            -               $ (10)      $    124    $           -       $          (12)   $        (194)      $      (206)       $        (82)
         Export                                           21              10                            -           3             34                141                 (2)            (319)             (321)               (146)
         Food Aid                                           -              -                            -           -              -                    -                -                    -                 -                  -
         Housing                                       (148)              33                    (12)             355             228                    -              (10)             (23)              (33)                195
         Electric                                         (19)             3                            -          (6)           (22)                   -          352                 (456)             (104)               (126)
         Telecommunications                                 2              1                            -          (1)             2                    -               9               (46)              (37)                (35)
         Water and Environmental                          73               1                            -          (3)            71                    -              (67)               5               (62)                     9
         Business and Industry                              -              -                            -           -              -                    -               5                37                   42               42
         Economic Development                             17               -                            -           -             17                    -               (2)               (3)                  (5)             12
        Total Direct Loan Subsidy Expense   $             (83)      $    211       $            (12)            $ 338       $    454    $           141     $      273        $        (999)      $      (726)       $       (131)
                                                      .




USDA
  232        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
     NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                               FY 2005       FY 2004
    Direct Loan Programs
      Farm                                                 $      906    $      956
      Export                                                        -            60
      Food Aid                                                     20             -
      Housing                                                   1,744         1,626
      Electric                                                  3,600         2,600
      Telecommunications                                          567           445
      Water and Environmental                                     855           700
      Business and Industry                                         2             -
      Economic Development                                         46            43
    Total Direct Loans Disbursed                           $    7,740    $    6,430




                                                                                  USDA
                           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT           233
                                    NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 5. Loan Guarantees Outstanding
                                                   Pre - 1992       Post - 1991       Total         Pre - 1992       Post - 1991       Total
                                                  Outstanding       Outstanding   Outstanding       Outstanding      Outstanding   Outstanding
                    FY 2005
                                                   Principal,        Principal,    Principal,        Principal,       Principal,    Principal,
                                                  Face Value        Face Value    Face Value        Guaranteed       Guaranteed    Guaranteed
                Loan Guarantee Programs
                  Farm                            $         115     $   10,209    $    10,324       $         101    $     9,170   $      9,271
                  Export                                        -         4,240          4,240                   -         4,098          4,098
                  Food Aid                                      -             -                 -                -             -                 -
                  Housing                                      6        14,788         14,794                   11       13,287         13,298
                  Electric                                  233            220            453                 233           220            453
                  Telecommunications                            -             -                 -                -             -                 -
                  Water and Environmental                       -            32               32                 -            26               26
                  Business and Industry                       35          4,191          4,226                  22         3,098          3,120
                  Economic Development                         3              -                3                 3             -                3
                Total Guarantees Disbursed        $         392     $   33,680    $    34,072       $         370    $   29,899    $    30,269




                                                      Pre - 1992    Post - 1991       Total             Pre - 1992   Post - 1991       Total
                                                  Outstanding       Outstanding   Outstanding       Outstanding      Outstanding   Outstanding
                     FY 2004
                                                   Principal,        Principal,    Principal,        Principal,       Principal,    Principal,
                                                   Face Value       Face Value    Face Value        Guaranteed       Guaranteed    Guaranteed
                Loan Guarantee Programs
                  Farm                            $          152    $    10,224   $     10,376      $          134   $     9,182   $      9,316
                  Export                                       0          5,042          5,042                   0         4,833          4,833
                  Food Aid                                     0              0                 0                0             0                 0
                  Housing                                      9         13,986        13,995                    8       12,569         12,577
                  Electric                                   255            221               476              255          221                476
                  Telecommunications                           4              0                 4                3             0                 3
                  Water and Environmental                      0             33                33                0            27               27
                  Business and Industry                       41          4,194          4,235                  31         3,105          3,136
                  Economic Development                         0              0                0                 0             0                0
                Total Guarantees Disbursed        $          461    $    33,700   $     34,161      $          431   $    29,937   $     30,368




USDA
  234    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992
Guarantees)
                                                                            Liabilities for Loan
                                            Liabilities for Losses on      Guarantees on Post-
     FY 2005
                                             Pre-1992 Guarantees            1991 Guarantees                Total Liabilities for Loan
                                                 Present Value                Present Value                      Guarantees
Loan Guarantee Programs
  Farm                                       $                     2       $                     26        $                     28
  Export                                                               -                        260                            260
  Food Aid                                                             -                           -                               -
  Housing                                                              -                        556                            556
  Electric                                                             -                           -                               -
  Telecommunications                                                   -                           -                               -
  Water and Environmental                                              -                           -                               -
  Business and Industry                                            2                            368                            370
  Economic Development                                                 -                           -                               -
Total Liability for Loan Guarantees          $                     4       $                  1,210        $                 1,214



                                                                                Liabilities for Loan
                                            Liabilities for Losses on          Guarantees on Post-
     FY 2004
                                             Pre-1992 Guarantees                1991 Guarantees            Total Liabilities for Loan
                                                 Present Value                    Present Value                  Guarantees
Loan Guarantee Programs
  Farm                                      $                     2            $                162        $                    164
  Export                                                           -                            240                             240
  Food Aid                                                         -                                   -                           -
  Housing                                                          -                            447                             447
  Electric                                                         -                                   -                           -
  Telecommunications                                               -                                   -                           -
  Water and Environmental                                          -                                   -                           -
  Business and Industry                                           3                             334                             337
  Economic Development                                             -                                   -                           -
Total Liability for Loan Guarantees         $                     5            $              1,183        $                  1,188




                                                                                                                           USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                         235
        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                      FY 2005            FY 2004
Beginning balance of the loan guarantee liability                                 $       1,183      $         876
Add:Subsidy expense for guaranteed loans disbursed during the year by component
  Interest rate differential costs                                                              35                 35
  Default costs (net of recoveries)                                                         369                481
  Fees and other collections                                                               (106)              (105)
  Other subsidy costs                                                                            -                 0
Total of the above subsidy expense components                                               298                411


Adjustments
  Loan modifications                                                                             -                  -
  Fees received                                                                             103                116
  Interest supplements paid                                                                 (10)                   (4)
  Claim payments to lenders                                                                (360)              (372)
  Interest accumulation on the liability balance                                                16                 31
  Other                                                                                     498                847
Ending balance of the subsidy cost allowance before reestimates                           1,728              1,905


Add or subtract subsidy reestimates by component:
  Interest rate reestimate                                                                 (284)              (202)
  Technical/default reestimate                                                             (235)              (520)
Total of the above reestimate components                                                   (519)              (722)
Ending balance of the loan guarantee liability                                    $       1,209      $       1,183




USDA
  236           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                             NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 8. Guarantee Loan Subsidy Expense by Program and Component
      FY 2005
                                                                                                                                                  Interest                                                   Total
                                                   Interest                  Fees and Other                                   Total                Rate               Technical           Total          Subsidy
      Loan Guarantee Programs                  Supplement         Defaults       Collections         Other     Subtotal   Modifications       Reestimates         Reestimates         Reestimates        Expense
        Farm                                   $          29      $    58    $             (17)      $     -   $    70    $               -   $           (19)    $        (142)      $       (161)      $      (91)
        Export                                                -       181                  (16)            -       165                    -            (287)               (188)              (475)            (310)
        Food Aid                                              -          -                      -          -         -                    -                   -                   -                 -                -
        Housing                                               6        93                  (66)            -        33                    -               18                 75                   93           126
        Electric                                              -          -                      -          -         -                    -                   -                   -                 -                -
        Telecommunications                                    -          -                      -          -         -                    -                   -                   -                 -                -
        Water and Environmental                               -          -                      -          -         -                    -                   -                   -                 -                -
        Business and Industry                                 -        36                      (8)         -        28                    -                  4               21                   25             53
        Economic Development                                  -          -                      -          -         -                    -                   -                   -                 -                -
      Total Loan Guarantee Subsidy Expense     $          35      $   368    $            (107)      $     -   $   296    $               -   $        (284)      $         (234)     $       (518)      $     (222)



      FY 2004
                                                                                                                                                  Interest                                                   Total
                                                   Interest                  Fees and Other                                   Total                Rate               Technical           Total          Subsidy
      Loan Guarantee Programs                  Supplement         Defaults       Collections         Other     Subtotal   Modifications       Reestimates         Reestimates         Reestimates        Expense
        Farm                                   $          27      $    64    $             (20)      $     -   $    71    $               -   $              9    $          (32)     $           (23)   $       48
        Export                                                -       271                  (25)            -       246                    -            (259)                (549)             (808)            (562)
        Food Aid                                              -          -                      -          -          -                   -                   -                   -                 -                -
        Housing                                               8        90                  (47)            -        51                    -                  40              12                   52           103
        Electric                                              -          -                      -          -          -                   -                   -                   -                 -                -
        Telecommunications                                    -          -                      -          -          -                   -                   -                   -                 -                -
        Water and Environmental                               -          -                      -          -          -                   -                   -                   -                 -                -
        Business and Industry                                 -        54                  (12)            -        42                    -                  8               49                   57             99
        Economic Development                                  -          -                      -          -          -                   -                   -                   -                 -                -
      Total Loan Guarantee Subsidy Expense     $          35      $   479    $           (104)       $ -       $   410    $           -       $        (202)      $         (520)     $       (722)      $     (312)




                                                                                                                                                                                                                         USDA
                                                                                                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                              237
        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 9. Guaranteed Loans Disbursed
                                                FY 2005                                       FY 2004
                                   Principal, Face        Principal,                                      Principal,
                                                                               Principal, Face
                                        Value            Guaranteed                                      Guaranteed
                                                                              Value Disbursed
                                     Disbursed           Disbursed                                       Disbursed
Loan Guarantee Programs
    Farm                           $       2,191     $         1,968         $             2,347     $           2,108
    Export                                 2,956               2,678                       3,873                 3,373
    Food Aid                                    -                      -                       -                        -
    Housing                                3,130               2,813                       3,555                 3,193
    Electric                                    2                    2                       18                        18
    Telecommunications                          -                      -                       -                        -
    Water and Environmental                     5                    4                        4                        3
    Business and Industry                    703                 550                        924                    725
    Economic Development                        -                      -                       -                        -
Total Guaranteed Loans Disbursed   $       8,987     $         8,015         $         10,721        $           9,420




Table 10. Administrative Expenses
                                                                           FY 2005                   FY 2004
   Direct Loan Programs                                          $                   516         $              567
   Guaranteed Loan Programs                                                          253                        163
 Total Administrative Expenses                                   $                   769         $              730




USDA
  238          FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
     NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                               Fees and
        FY 2005                                      Interest                   Other
                                                    Differential   Defaults   Collections    Other    Total
      Direct Loan Programs
         Farm Operating                                   0.14        9.39            -       0.56     10.09
         Indian Land Acquisition                          5.30        0.43            -      (0.46)     5.27
         Emergency Disaster                               2.46       17.55            -      (7.07)    12.94
         Boll Weevil Eradication                         (4.08)      (0.88)           -      (0.72)    (5.68)
         Farm Ownership                                  (0.40)      14.77            -      (9.02)     5.35
         Farm Storage Facility Loan Program              (1.68)       0.51          (0.11)   (0.15)    (1.43)
         Sugar Storage Facility Loan Program               -           -              -        -         -
         Community Facility Loans                         4.48        0.24            -      (0.67)     4.05
         Water and Waste Disposal Loans                   9.36        0.10            -      (0.46)     9.00
         Distance Learning and Telemedicine Loans          -          1.61            -      (0.19)     1.42
         Broadband 4% Loans (Mandatory)                   5.83        2.18            -        -        8.01
         Broadband 4% Loans (Discretionary)               5.83        2.18            -        -        8.01
         Broadband Treasury Loans (Mandatory)              -          2.27            -      (0.14)     2.13
         Broadband Treasury Loans (Discretionary)          -          2.27            -      (0.14)     2.13
         Electric Hardship Loans                          3.19        0.03            -      (0.18)     3.04
         Municipal Electric Loans                         1.63        0.03            -      (0.31)     1.35
         FFB Electric Loans                              (1.35)       0.01            -      (0.89)    (2.23)
         Treasury Electric Loans                           -          0.03            -      (0.08)    (0.05)
         Telecommunication Hardship Loans                (1.25)       0.02            -       0.02     (1.21)
         FFB Telecommunications Loans                    (1.03)       0.12            -      (1.04)    (1.95)
         Treasury Telecommunication Loans                  -          0.05            -      (0.01)     0.04
         Rural Telephone Bank Loans                      (1.43)       0.02            -      (0.42)    (1.83)
         Single-Family Housing Credit Sales             (21.08)       1.72            -       3.13    (16.23)
         Multi-Family Housing Credit Sales              (18.85)       0.07            -      67.22     48.44
         Section 502 Single-Family Housing              (17.35)       2.68            -      26.25     11.58
         Section 504 Housing Repair                      26.95        2.38            -      (0.27)    29.06
         Section 515 Multi-Family Housing               (18.03)       0.02          (0.05)   65.15     47.09
         Section 523 Self-Help Site Development          (0.47)        -              -        -       (0.47)
         Section 524 Site Development                    (5.91)       0.96            -       0.01     (4.94)
         Section 514 Farm Labor Housing                  45.87        0.02            -       1.17     47.06
         Intermediary Relending Program                  46.64         -              -      (0.26)    46.38
         Rural Economic Development Loans                20.32        0.04            -      (1.57)    18.79
         P. L. 480 Direct Credits                        45.85       10.13            -        -       55.98




                                                                                                                USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                     239
        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




                                                                                                         Fees and
            FY 2004                                                    Interest                           Other
                                                                      Differential    Defaults          Collections    Other       Total
         Direct Loan Programs
            Farm Operating                                                 (3.05)           16.48               -        0.99       14.42
            Indian Land Acquisition                                        (1.02)            0.76               -       (0.52)      (0.78)
            Emergency Disaster                                              2.15            18.10               -       (6.42)      13.83
            Boll Weevil Eradication                                        (6.73)            1.58               -       (0.92)      (6.07)
            Farm Ownership                                                 (6.48)           37.56               -       (9.00)      22.08
            Farm Storage Facility Loan Program                             (0.97)            1.62             (0.11)     0.68        1.22
            Sugar Storage Facility Loan Program                              -                -                 -         -           -
            Community Facility Loans                                       (0.48)            0.19               -       (0.42)      (0.71)
            Water and Waste Disposal Loans                                  3.56             0.09               -       (0.32)       3.33
            Distance Learning and Telemedicine Loans                         -                -                 -         -           -
            Broadband 4% Loans (Mandatory)                                  2.79             2.15               -         -          4.94
            Broadband 4% Loans (Discretionary)                              2.79             2.15               -         -          4.94
            Broadband Treasury Loans (Mandatory)                             -               2.28               -       (0.10)       2.18
            Broadband Treasury Loans (Discretionary)                         -               2.28               -       (0.10)       2.18
            Electric Hardship Loans                                        (2.27)            0.03               -       (0.09)      (2.33)
            Municipal Electric Loans                                       (2.26)            0.03               -       (0.19)      (2.42)
            FFB Electric Loans                                             (1.35)            0.01               -       (0.65)      (1.99)
            Treasury Electric Loans                                          -               0.03               -       (0.09)      (0.06)
            Telecommunication Hardship Loans                               (4.49)            0.02               -        0.03       (4.44)
            FFB Telecommunications Loans                                   (1.04)            0.11               -       (0.92)      (1.85)
            Treasury Telecommunication Loans                                 -               0.04               -        0.01        0.05
            Rural Telephone Bank Loans                                     (4.29)            0.02               -       (0.05)      (4.32)
            Single-Family Housing Credit Sales                            (21.54)            1.22               -        2.86      (17.46)
            Multi-Family Housing Credit Sales                             (21.32)            0.07               -       65.45       44.20
            Section 502 Single-Family Housing                             (19.23)            2.62               -       25.88        9.27
            Section 504 Housing Repair                                     25.08             2.59               -       (0.21)      27.46
            Section 515 Multi-Family Housing                              (20.70)            0.01               -       63.70       43.01
            Section 523 Self-Help Site Development                          0.13             3.22               -       (0.27)       3.08
            Section 524 Site Development                                   (4.76)            3.37               -        1.36       (0.03)
            Section 514 Farm Labor Housing                                 42.74             0.03               -       (0.04)      42.73
            Intermediary Relending Program                                 43.27              -                 -         -         43.27
            Rural Economic Development Loans                               19.61             0.04               -       (1.04)      18.61
            P. L. 480 Direct Credits                                       42.49            24.53               -       11.88       78.90



Table 12. Subsidy Rates for Loan Guarantees (percentage)
                                                                                                    Fees and
        FY 2005                                         Interest                                      Other
                                                       Differential           Defaults              Collections        Other               Total
 Guaranteed Loan Programs
   CCC Export Loan Guarantee Program                           -                     7.48                  0.65             -                 8.13
   Farm Operating—Unsubsidized                                 -                     4.12                 (0.89)            -                 3.23
   Farm Operating—Subsidized                                 10.31                   3.07                   -             (0.07)             13.31
   Farm Ownership—Unsubsidized                                 -                     1.43                 (0.90)            -                 0.53
   Business and Industry Loans                                 -                     6.51                 (1.47)          (0.01)              5.03
   Guaranteed Business & Industry NadBank Loans                -                     9.91                 (1.61)            -                 8.30
   Community Facility Loans                                    -                     0.93                 (0.84)            -                 0.09
   Water and Waste Disposal Loans                              -                      -                   (0.90)            -                (0.90)
   Electric Guaranteed Loans                                   -                     0.06                   -               -                 0.06
   Local Television Loans (Discretionary)                      -                      -                     -               -                  -
   Local Television Loans (Mandatory)                          -                      -                     -               -                  -
   Guaranteed Broadband Loans (Discretionary)                  -                     3.93                   -               -                 3.93
   Guaranteed Broadband Loans (Mandatory)                      -                     3.93                   -               -                 3.93
   Section 502 Single-Family Housing Purchase                  -                     3.07                 (2.00)            -                 1.07
   Section 502 Single-Family Housing Refinance                 -                     0.77                 (0.50)            -                 0.27
   538 Multi-Family Housing-Subsidized                       10.32                   0.55                 (7.39)           0.01               3.49
   Renewable Energy                                            -                     6.51                 (0.78)            -                 5.73
   Rural Business Investment Program                           -                      -                     -               -                  -




USDA
  240             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



                                                                             Fees and
      FY 2004                                      Interest                    Other
                                                  Differential   Defaults    Collections    Other      Total
 Guaranteed Loan Programs
   CCC Export Loan Guarantee Program                      -           7.48         (0.66)       -         6.82
   Farm Operating—Unsubsidized                            -           4.23         (0.90)       -         3.33
   Farm Operating—Subsidized                            10.18         3.48         (0.89)       -        12.77
   Farm Ownership—Unsubsidized                            -           1.44         (0.90)       -         0.54
   Business and Industry Loans                            -           6.33         (1.48)      0.01       4.86
   Guaranteed Business & Industry NadBank Loans           -           4.53         (1.59)       -         2.94
   Community Facility Loans                               -           0.23         (0.83)       -        (0.60)
   Water and Waste Disposal Loans                         -            -           (0.90)       -        (0.90)
   Electric Guaranteed Loans                              -           0.06           -          -         0.06
   Local Television Loans (Discretionary)                 -           8.96         (0.50)       -         8.46
   Local Television Loans (Mandatory)                     -           8.96         (0.50)       -         8.46
   Guaranteed Broadband Loans (Discretionary)             -           3.90           -          -         3.90
   Guaranteed Broadband Loans (Mandatory)                 -           3.90           -          -         3.90
   Section 502 Single-Family Housing Purchase             -           3.07         (1.50)       -         1.57
   Section 502 Single-Family Housing Refinance            -           0.79         (0.50)       -         0.29
   538 Multi-Family Housing-Subsidized                   9.61         0.56         (4.22)       -         5.95
   Renewable Energy                                       -            -             -          -          -
   Rural Business Investment Program                      -            -             -          -          -




NOTE 8. INVENTORY AND RELATED PROPERTY, NET

Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing
emergency food assistance in developing countries and providing price support and stabilization. Commodity
loan forfeitures during the fiscal years ended September 30, 2005 and 2004 were $79 million and $25 million,
respectively. In fiscal year 2005, tobacco loan forfeitures amounted to $985 million including accrued
interest.




                                                                                                        USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             241
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




                                                              FY 2005                         FY 2004
       Inventories                                                  $            -                      $            1

       Commodities:                                 Volume              Amount       Volume                 Amount
         Corn (In Bushels):
           On hand at the beginning of the year          12                  22           16                     29
           Acquired during the year                      99                 204           19                     52
           Disposed of during the year
               Sales                                    (97)               (198)          (22)                  (58)
               Donations                                (13)                (25)            -                    (1)
               Other                                      -                  (1)           (1)                    -
           On hand at the end of the year                 1                   2            12                    22
         Wheat (In Bushels):
          On hand at the beginning of the year           81                 291           81                    290
          Acquired during the year                       68                 287           56                    240
          Disposed of during the year
              Sales                                     (71)               (295)          (51)                 (221)
              Donations                                 (31)               (112)           (4)                  (16)
              Other                                       -                   -            (1)                   (2)
          On hand at the end of the year                 47                 171            81                   291
         Nonfat Dry Milk (In Pounds):
           On hand at the beginning of the year         661                 594         1,440                 1,294
           Acquired during the year                      34                  26           359                   288
           Disposed of during the year
              Sales                                    (186)               (164)         (381)                 (344)
              Donations                                (276)               (259)         (436)                 (388)
              Other                                    (129)               (103)         (321)                 (256)
           On hand at the end of the year               104                  94           661                   594
         Sugar (In Pounds):
           On hand at the beginning of the year          32                   8            -                         -
           Acquired during the year                      48                  10           32                         8
           Disposed of during the year
              Sales                                     (80)                 (18)          -                         -
              Donations                                   -                    -           -                         -
              Other                                       -                    -           -                         -
           On hand at the end of the year                 -                    -          32                         8
         Tobacco (In Pounds):
           On hand at the beginning of the year           2                   2           96                    278
           Acquired during the year                     280                 986            -                      -
           Disposed of during the year
              Sales                                    (200)               (696)           (2)                   (4)
              Donations                                 (82)               (292)            -                     -
              Other                                       -                   -           (93)                 (272)
           On hand at the end of the year                 -                   -             1                     2
          Other:
             On hand at the beginning of the year                            33                                  93
             Acquired during the year                                     5,675                                 871
             Disposed of during the year
                 Sales                                                    (5,507)                              (689)
                 Donations                                                  (164)                              (239)
                 Other                                                         -                                 (3)
             On hand at the end of the year                                   37                                 33
       Allowance for losses                                                 (275)                              (809)
       Total Commodities                                                      29                                141
       Total Inventory and Related Property, Net                    $         29                        $       142




USDA
 242           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
  FY 2005                                             Useful                                                    Net
                                                       Life                                 Accumulated        Book
     Category                                        (Years)              Cost              Depreciation       Value

  Land and Land Rights                                              $             76        $        -     $         76
  Improvements to Land                               10 - 50                   4,958               2,596          2,362
  Construction-in-Progress                                                       562                   -            562
  Buildings, Improvements and Renovations            15 - 30                   1,820               1,055            765
  Other Structures and Facilities                    15 - 50                   1,602               1,146            456
  Equipment                                           5 - 20                   1,781               1,397            384
  Assets Under Capital Lease                          3 - 20                      40                  17             23
  Leasehold Improvements                                10                        50                  30             20
  Internal-Use Software                               5-8                        417                 211            206
  Internal-Use Software in Development                                            29                   -             29
  Other General Property, Plant and Equipment        5 - 15                        2                   -              2
      Total                                                         $         11,337        $      6,452   $      4,885


  FY 2004                                             Useful                                                    Net
                                                       Life                                 Accumulated        Book
     Category                                        (Years)              Cost              Depreciation       Value

  Land and Land Rights                                              $             76        $        -     $         76
  Improvements to Land                               10 - 50                   4,917               2,480          2,437
  Construction-in-Progress                                                       438                   -            438
  Buildings, Improvements and Renovations            15 - 30                   1,766                 983            783
  Other Structures and Facilities                    15 - 50                   1,544               1,092            452
  Equipment                                           5 - 20                   1,842               1,378            464
  Assets Under Capital Lease                          3 - 20                      40                  17             23
  Leasehold Improvements                                10                        46                  26             20
  Internal-Use Software                               5-8                        335                 163            172
  Internal-Use Software in Development                                            43                   -             43
  Other General Property, Plant and Equipment        5 - 15                        6                   -              6
      Total                                                         $         11,053        $      6,139   $      4,914



NOTE 10. OTHER ASSETS

In fiscal 2005 and 2004, other assets include investments of $35 million in trust for loan asset sales.

                                                               FY 2005                     FY 2004
                    Intragovernmental:
                      Advances to Others                $                1             $              1
                    Subtotal Intragovernmental                           1                            1

                    With the Public:
                      Advances to Others                                 48                          51
                      Prepayments                                         1                           1
                      Other Assets                                       37                          37
                    Subtotal With the Public                             86                          89

                    Total Other Assets                  $                87            $             90




                                                                                                                 USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                   243
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




NOTE 11. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

In fiscal 2005 and 2004, other intragovernmental liabilities not covered by budgetary resources include
accruals for Federal Employee Compensation Act (FECA) of $155 million and $161 million. Contract
disputes claims payable to Treasury’s Judgment Fund of $10 million and $7 million, respectively.

In fiscal 2005 and 2004, other liabilities with the public not covered by budgetary resources include, accruals
for rental payments under the Conservation Reserve Program (CRP) of $1,858 million and $1,663 million,
unfunded leave of $546 million and $526 million, Payments to States $378 million and $380 million, future
funded indemnity cost of $479 million, and, contingent liabilities of $19 million and $10 million, respectively.
There were no future funded indemnity costs in fiscal 2004. In fiscal 2005, CCC reported a long-term liability
in the amount of $7,100 million under the TTPP.


                                                                             FY 2005                FY 2004
   Intragovernmental:
     Other                                                               $         166          $         168
   Subtotal Intragovernmental                                                      166                    168
   With the Public:
   Federal employee and veterans' benefits                                        834                    836
   Environmental and disposal liabilities                                          28                     23
   Benefits due and payable                                                         -                     36
   Other                                                                       10,553                  2,634
   Subtotal With the Public                                                    11,415                  3,529
   Total liabilities not covered by budgetary resources                        11,581                  3,697
   Total liabilities covered by budgetary resources                           119,425                103,133
   Total liabilities                                                     $    131,006           $    106,830




USDA
   244        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




NOTE 12. DEBT
                                                        Beginning                                 Ending
 FY 2005
                                                         Balance         Net Borrowing            Balance
 Intragovernmental:
   Debt to the Treasury                             $       41,439       $      13,545        $      54,984
   Debt to the Federal Financing Bank                       27,614                 917               28,531
 Total Intragovernmental                                    69,053              14,462               83,515

 Agency Debt:
   Held by the Public                                               1                 -                     1

 Total Debt                                         $       69,054       $      14,462        $      83,516


                                                        Beginning                                 Ending
 FY 2004
                                                         Balance         Net Borrowing            Balance
 Intragovernmental:
   Debt to the Treasury                             $       53,440       $       (6,547)      $      46,893
   Debt to the Federal Financing Bank                       22,700                 (540)             22,160
                                                            76,140               (7,087)             69,053
 Agency Debt:
   Held by the Public                                           80                  (79)                    1

 Total Debt                                         $       76,220       $       (7,166)      $      69,054




NOTE 13. ENVIRONMENTAL AND DISPOSAL LIABILITIES

The Department is subject to the Comprehensive Environmental Response, Compensation, and Liability Act,
the Clean Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous waste. The
FS and CCC estimate the liability for total cleanup costs for sites known to contain hazardous waste to be $18
million and $10 million in fiscal 2005, $8 million for FS and $15 million for CCC in fiscal 2004, based on
actual cleanup costs at similar sites. These estimates will change as new sites are discovered, remedy
standards change and new technology is introduced. This liability is not covered by budgetary resources.

NOTE 14. OTHER LIABILITIES

As of September 30, 2005 and 2004, other intragovernmental liabilities include; credit reform reestimates of
$410 million and $382 million; and General Sales Manager (GSM) Program $23 million and $17 million
respectively.

Other liabilities with the public include estimated losses on crop insurance claims of $1,924 million and
$2,320 million, stock payable to RTB borrowers of $1,390 million and $1,343 million, estimated underwriting
gains on crop insurance of $740 million and $784 million, crop insurance premium subsidy deficiency reserve




                                                                                                      USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              245
        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




of $371 million and $420 million, RTB dividend payable to treasury of $50 million and $49 million and
peanut/tobacco programs of $33 million and $32 million respectively.
    FY 2005                                                  Non-Current         Current         Total
    Intragovernmental:
      Other Accrued Liabilities                             $         6      $    1,018    $    1,024
      Employer Contributions and Payroll Taxes                        1              38            39
      Unfunded FECA Liability                                         1             156           157
      Advances from Others                                            -              21            21
      Liability for Deposit Funds, Clearing Accounts                  -              30            30
      Resources Payable to Treasury                                   -          16,819        16,819
      Custodial Liability                                            22              46            68
      Other Liabilities                                               -             433           433
    Subtotal Intragovernmental                                       30          18,561        18,591

    With the Public:
     Contract Holdbacks                                               -               2             2
     Other Accrued Liabilities                                        6          16,023        16,029
     Accrued Funded Payroll and Leave                                 -              49            49
     Unfunded Leave                                                  11             527           538
     Other Unfunded Employment Related Liability                      -               4             4
     Advances from Others                                             2              50            52
     Deferred Credits                                                 -             248           248
     Liability for Deposit Funds, Clearing Accounts                  12             160           172
     Contingent Liabilities                                           -              47            47
     Capital Lease Liability                                          -              23            23
     Custodial Liability                                              -              12            12
     Other Liabilities                                            1,409           3,125         4,534
    Subtotal With the Public                                      1,440          20,270        21,710

    Total Other Liabilities                                 $     1,470      $ 38,831      $ 40,301




USDA
  246         FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




     FY 2004                                                     Non-Current        Current           Total
     Intragovernmental:
       Other Accrued Liabilities                             $           19     $      582     $       601
       Employer Contributions and Payroll Taxes                           1             35              36
       Unfunded FECA Liability                                           39            124             163
       Advances from Others                                               3             15              18
       Liability for Deposit Funds, Clearing Accounts                    (1)            83              82
       Resources Payable to Treasury                                      -         17,469          17,469
       Custodial Liability                                               34             59              93
       Other Liabilities                                                  -            399             399
     Subtotal Intragovernmental                                          95         18,766          18,861

     With the Public:
       Other Accrued Liabilities                                         11          5,997           6,008
       Accrued Funded Payroll and Leave                                   2             37              39
       Unfunded Leave                                                    31            495             526
       Other Unfunded Employment Related Liability                        -             43              43
       Advances from Others                                               -             41              41
       Deferred Credits                                                   -            309             309
       Liability for Deposit Funds, Clearing Accounts                    20            614             634
       Contingent Liabilities                                             1              9              10
       Capital Lease Liability                                            -             23              23
       Accounts Payable from Canceled Appropriations                      1              -               1
       Custodial Liability                                                -             16              16
       Other Liabilities                                              1,361          3,618           4,979
     Subtotal With the Public                                         1,427         11,202          12,629

     Total Other Liabilities                                 $        1,522     $   29,968     $    31,490



NOTE 15. LEASES

USDA activities based in the Washington D.C. area are located in General Services Administration (GSA)
leased facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten Building, South
Building and Cotton Annex) is a government owned facility, which is part of the GSA Federal Buildings
Inventory. As the result of a 1998 Agreement between GSA and USDA, a moratorium was placed on the
rental billings for the Headquarters complex beginning in FY 1999.

Pursuant to the agreement, USDA retains that portion of GSA rental payments and makes it available for the
operation, maintenance and repair of the building and expends such funds directly for the operation,
maintenance or repair of the building or facility. At current market rate, the estimated yearly rental payment
for the above mentioned space would be $52 million. This agreement is still in effect and as a result, USDA
activities located in the Headquarter complex are not billed for rental costs.




                                                                                                        USDA
                                 FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                           247
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




        FY 2005
        Capital Leases:
         Summary of Assets Under Capital Leases
           Land and Building                               $           38
           Accumulated Amortization                                    17

         Future Payments Due:
                                                                Land &      Machinery &
                                                                                           Totals
                                                               Buildings    Equipment
           Fiscal Year
           2006                                                       11               -             11
           2007                                                       11               -             11
           2008                                                       11               -             11
           2009                                                       11               -             11
           2010                                                       10               -             10
           After 5 Years                                              88               -             88
        Total Future Lease Payments                                  142               -            142
        Less: Imputed Interest                                        38               -             38
        Less: Executory Costs                                         48               -             48
        Less: Lease Renewal Options                                   33               -             33
        Net Capital Lease Liability                                   23               -             23

        Lease liabilities covered by budgetary resources               23

        Operating Leases:
         Future Payments Due:
                                                              Land &        Machinery &
                                                                                           Totals
         Fiscal Year                                         Buildings       Equipment
           2006                                                     106               1             107
           2007                                                      98               1              99
           2008                                                      89               1              90
           2009                                                      78                -             78
           2010                                                      69                -             69
         After 5 Years                                              408                -            408
         Total Future Lease Payments                       $        848     $         3    $        851




USDA
 248        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




          FY 2004
          Capital Leases:
           Summary of Assets Under Capital Leases:
             Land and Building                               $           40
             Accumulated Amortization                                    17

           Future Payments Due:
                                                                  Land &
                                                                                  Totals
                                                                 Buildings
             Fiscal Year
             2005                                                       11              11
             2006                                                       11              11
             2007                                                       11              11
             2008                                                       10              10
             2009                                                       10              10
             After 5 Years                                              88              88
          Total Future Lease Payments                                  141             141
          Less: Imputed Interest                                        38              38
          Less: Executory Costs                                         48              48
          Less: Lease Renewal Options                                   32              32
          Net Capital Lease Liability                        $          23    $         23

          Lease liabilities covered by budgetary resources   $           23

          Operating Leases:
           Future Payments Due:
                                                                Land &        Machinery &
           Fiscal Year                                                                           Totals
                                                               Buildings       Equipment
            2005                                                      101               1             102
            2006                                                       93               1              94
            2007                                                       85               1              86
            2008                                                       75                -             75
            2009                                                       67                -             67
           After 5 Years                                              360                -            360
           Total Future Lease Payments                       $        781     $         3    $        784




NOTE 16. COMMITMENTS AND CONTINGENCIES

The Department is subject to various claims and contingencies related to lawsuits as well as commitments
under contractual and other commercial obligations.

For cases in which payment has been deemed probable and for which the amount of potential liability has
been estimated, $47 million and $10 million has been accrued in the financial statements as of September 30,
2005 and 2004, respectively.

No amounts have been accrued in the financial statements for claims where the amount or probability of
judgment is uncertain. The Department’s potential liability for these claims ranges from $114 million to $134
million, as of September 30, 2005 and $475 million to $514 million as of September 30, 2004.




                                                                                                            USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 249
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




In fiscal 2005 and 2004, commitments under contractual and other commercial obligations were estimated to
be $39,000 million and $66,000 million respectively. These consist of $2,000 million and $32,000 million in
rental payments under the CRP; $2,000 million and $2,000 million in loan guarantees; and $19,000 million
and $18,000 million of undelivered orders in direct loans, respectively. In addition, undelivered orders were
$16,000 million for fiscal year 2005 and $14,000 million for fiscal 2004.




USDA
   250       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                          NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
            FY 2005                                                             FSA                                    CCC                                   FAS
                                                                Intragovernmental   With the Public    Intragovernmental   With the Public   Intragovernmental   With the Public

            Strategic Goals:

            Enhance Economic Opportunities for Agricultural
            Producers:                                                          -                 -                     -                -                   -                 -
            Gross Costs                                         $             848    $        1,129     $           1,870   $       34,623   $              88    $          231
            Less: Earned Revenue                                              260               418                   130           13,104                  74                 -
            Net Goal Cost                                                     588               711                 1,740           21,519                  14               231
                                                                                -                 -                     -                -                   -                 -
            Support Increased Economic Opportunities and                        -                 -                     -                -                   -                 -
            Improved Quality of Life in Rural America:                          -                 -                     -                -                   -                 -
            Gross Costs                                                         -                 -                     -                -                   -                 -
            Less: Earned Revenue                                                -                 -                     -                -                   -                 -
            Net Goal Cost                                                       -                 -                     -                -                   -                 -
                                                                                -                 -                     -                -                   -                 -
            Enhance Protection and Safety of the Nation's                       -                 -                     -                -                   -                 -
            Agriculture and Food Supply:                                        -                 -                     -                -                   -                 -
            Gross Costs                                                         -                 -                     -                -                   -                 -
            Less: Earned Revenue                                                -                 -                     -                -                   -                 -
            Net Goal Cost                                                       -                 -                     -                -                   -                 -
                                                                                -                 -                     -                -                   -                 -
            Improve the Nation's Nutrition and Health:                          -                 -                     -                -                   -                 -
            Gross Costs                                                         -                 -                     -                -                   -                 -
            Less: Earned Revenue                                                -                 -                     -                -                   -                 -
            Net Goal Cost                                                       -                 -                     -                -                   -                 -
                                                                                -                 -                     -                -                   -                 -
            Protect and Enhance the Nation's Natural Resource                   -                 -                     -                -                   -                 -
            Base and Environment:                                               -                 -                     -                -                   -                 -
            Gross Costs                                                         -                 -                     -                -                   -                 -
            Less: Earned Revenue                                                -                 -                     -                -                   -                 -
            Net Goal Cost                                                       -                 -                     -                -                   -                 -
                                                                                -                 -                     -                -                   -                 -
            Total Gross Costs                                                 848             1,129                 1,870           34,623                  88               231
            Less: Total Earned Revenue                                        260               418                   130           13,104                  74                 -
            Net Cost of Operations                              $             588    $          711     $           1,740   $       21,519   $              14    $          231




                                                                                                                                                                                   USDA
                                                                                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 251
                                       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




         FY 2005                                                             RMA                                    FNS                                   FSIS
                                                             Intragovernmental   With the Public    Intragovernmental   With the Public   Intragovernmental    With the Public

         Strategic Goals:

         Enhance Economic Opportunities for Agricultural
         Producers:                                                          -                  -                    -                -                    -                 -
         Gross Costs                                         $              40    $         3,678   $                -   $            -   $                -    $            -
         Less: Earned Revenue                                                -              1,019                    -                -                    -                 -
         Net Goal Cost                                                      40              2,659                    -                -                    -                 -
                                                                             -                  -                    -                -                    -                 -
         Support Increased Economic Opportunities and                        -                  -                    -                -                    -                 -
         Improved Quality of Life in Rural America:                          -                  -                    -                -                    -                 -
         Gross Costs                                                         -                  -                    -                -                    -                 -
         Less: Earned Revenue                                                -                  -                    -                -                    -                 -
         Net Goal Cost                                                       -                  -                    -                -                    -                 -
                                                                             -                  -                    -                -                    -                 -
         Enhance Protection and Safety of the Nation's                       -                  -                    -                -                    -                 -
         Agriculture and Food Supply:                                        -                  -                    -                -                    -                 -
         Gross Costs                                                         -                  -                    -                -                  249               748
         Less: Earned Revenue                                                -                  -                    -                -                    3               119
         Net Goal Cost                                                       -                  -                    -                -                  246               629
                                                                             -                  -                    -                -                    -                 -
         Improve the Nation's Nutrition and Health:                          -                  -                    -                -                    -                 -
         Gross Costs                                                         -                  -                1,093           50,513                    -                 -
         Less: Earned Revenue                                                -                  -                    5               24                    -                 -
         Net Goal Cost                                                       -                  -                1,088           50,489                    -                 -
                                                                             -                  -                    -                -                    -                 -
         Protect and Enhance the Nation's Natural Resource                   -                  -                    -                -                    -                 -
         Base and Environment:                                               -                  -                    -                -                    -                 -
         Gross Costs                                                         -                  -                    -                -                    -                 -
         Less: Earned Revenue                                                -                  -                    -                -                    -                 -
         Net Goal Cost                                                       -                  -                    -                -                    -                 -
                                                                             -                  -                    -                -                    -                 -
         Total Gross Costs                                                  40              3,678                1,093           50,513                  249               748
         Less: Total Earned Revenue                                          -              1,019                    5               24                    3               119
         Net Cost of Operations                              $              40    $         2,659   $            1,088   $       50,489   $              246    $          629




USDA
 252   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



FY 2005                                                             AMS                                    APHIS                                 GIPSA
                                                    Intragovernmental   With the Public     Intragovernmental   With the Public   Intragovernmental   With the Public

Strategic Goals:

Enhance Economic Opportunities for Agricultural
Producers:                                                          -                  -                    -                 -                   -                 -
Gross Costs                                         $              82    $         1,325    $               -    $            -   $              26    $           66
Less: Earned Revenue                                                3                189                    -                 -                   1                36
Net Goal Cost                                                      79              1,136                    -                 -                  25                30
                                                                    -                  -                    -                 -                   -                 -
Support Increased Economic Opportunities and                        -                  -                    -                 -                   -                 -
Improved Quality of Life in Rural America:                          -                  -                    -                 -                   -                 -
Gross Costs                                                         -                  -                    -                 -                   -                 -
Less: Earned Revenue                                                -                  -                    -                 -                   -                 -
Net Goal Cost                                                       -                  -                    -                 -                   -                 -
                                                                    -                  -                    -                 -                   -                 -
Enhance Protection and Safety of the Nation's                       -                  -                    -                 -                   -                 -
Agriculture and Food Supply:                                        -                  -                    -                 -                   -                 -
Gross Costs                                                         -                  -                  252             1,063                   -                 -
Less: Earned Revenue                                                -                  -                   20               462                   -                 -
Net Goal Cost                                                       -                  -                  232               601                   -                 -
                                                                    -                  -                    -                 -                   -                 -
Improve the Nation's Nutrition and Health:                          -                  -                    -                 -                   -                 -
Gross Costs                                                         -                  -                    -                 -                   -                 -
Less: Earned Revenue                                                -                  -                    -                 -                   -                 -
Net Goal Cost                                                       -                  -                    -                 -                   -                 -
                                                                    -                  -                    -                 -                   -                 -
Protect and Enhance the Nation's Natural Resource                   -                  -                    -                 -                   -                 -
Base and Environment:                                               -                  -                    -                 -                   -                 -
Gross Costs                                                         -                  -                    -                 -                   -                 -
Less: Earned Revenue                                                -                  -                    -                 -                   -                 -
Net Goal Cost                                                       -                  -                    -                 -                   -                 -
                                                                    -                  -                    -                 -                   -                 -
Total Gross Costs                                                  82              1,325                  252             1,063                  26                66
Less: Total Earned Revenue                                          3                189                   20               462                   1                36
Net Cost of Operations                              $              79    $         1,136    $             232    $          601   $              25    $           30




                                                                                                                                                                        USDA
                                                                                          FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  253
                                      NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



         FY 2005                                                                 FS                                    NRCS                                   ARS
                                                             Intragovernmental        With the Public   Intragovernmental   With the Public   Intragovernmental   With the Public

         Strategic Goals:

         Enhance Economic Opportunities for Agricultural
         Producers:                                                          -                      -                   -                 -                   -                 -
         Gross Costs                                         $               -        $             -   $               -    $            5   $              71    $          398
         Less: Earned Revenue                                                -                      -                  (1)                -                  19                 7
         Net Goal Cost                                                       -                      -                   1                 5                  52               391
                                                                             -                      -                   -                 -                   -                 -
         Support Increased Economic Opportunities and                        -                      -                   -                 -                   -                 -
         Improved Quality of Life in Rural America:                          -                      -                   -                 -                   -                 -
         Gross Costs                                                         -                      -                  23               108                   -                 -
         Less: Earned Revenue                                                -                      -                   1                 3                   -                 -
         Net Goal Cost                                                       -                      -                  22               105                   -                 -
                                                                             -                      -                   -                 -                   -                 -
         Enhance Protection and Safety of the Nation's                       -                      -                   -                 -                   -                 -
         Agriculture and Food Supply:                                        -                      -                   -                 -                   -                 -
         Gross Costs                                                         -                      -                   -                 -                  69               387
         Less: Earned Revenue                                                -                      -                   -                 -                  18                 7
         Net Goal Cost                                                       -                      -                   -                 -                  51               380
                                                                             -                      -                   -                 -                   -                 -
         Improve the Nation's Nutrition and Health:                          -                      -                   -                 -                   -                 -
         Gross Costs                                                         -                      -                   -                 -                  16                89
         Less: Earned Revenue                                                -                      -                   -                 -                   4                 2
         Net Goal Cost                                                       -                      -                   -                 -                  12                87
                                                                             -                      -                   -                 -                   -                 -
         Protect and Enhance the Nation's Natural Resource                   -                      -                   -                 -                   -                 -
         Base and Environment:                                               -                      -                   -                 -                   -                 -
         Gross Costs                                                       929                  4,902                 433             1,953                  42               232
         Less: Earned Revenue                                              265                    524                  80                45                  11                 4
         Net Goal Cost                                                     664                  4,378                 353             1,908                  31               228
                                                                             -                      -                   -                 -                   -                 -
         Total Gross Costs                                                 929                  4,902                 456             2,066                 198             1,106
         Less: Total Earned Revenue                                        265                    524                  80                48                  52                20
         Net Cost of Operations                              $             664        $         4,378   $             376    $        2,018   $             146    $        1,086




USDA
 254   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                             NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



FY 2005                                                           CSREES                                   ERS                                  NASS
                                                    Intragovernmental  With the Public     Intragovernmental   With the Public   Intragovernmental   With the Public

Strategic Goals:

Enhance Economic Opportunities for Agricultural
Producers:                                                          -                 -                    -                 -                   -                 -
Gross Costs                                         $              10    $          360    $              14    $           26   $              35    $          101
Less: Earned Revenue                                                8                 -                    1                 -                  19                 4
Net Goal Cost                                                       2               360                   13                26                  16                97
                                                                    -                 -                    -                 -                   -                 -
Support Increased Economic Opportunities and                        -                 -                    -                 -                   -                 -
Improved Quality of Life in Rural America:                          -                 -                    -                 -                   -                 -
Gross Costs                                                         3               167                    3                 6                   4                16
Less: Earned Revenue                                                5                 -                    -                 -                   -                 -
Net Goal Cost                                                      (2)              167                    3                 6                   4                16
                                                                    -                 -                    -                 -                   -                 -
Enhance Protection and Safety of the Nation's                       -                 -                    -                 -                   -                 -
Agriculture and Food Supply:                                        -                 -                    -                 -                   -                 -
Gross Costs                                                         9               275                    1                 3                   1                 3
Less: Earned Revenue                                                6                 -                    -                 -                   1                 -
Net Goal Cost                                                       3               275                    1                 3                   -                 3
                                                                    -                 -                    -                 -                   -                 -
Improve the Nation's Nutrition and Health:                          -                 -                    -                 -                   -                 -
Gross Costs                                                         2               131                    6                11                   -                 -
Less: Earned Revenue                                                4                 -                    -                 -                   -                 -
Net Goal Cost                                                      (2)              131                    6                11                   -                 -
                                                                    -                 -                    -                 -                   -                 -
Protect and Enhance the Nation's Natural Resource                   -                 -                    -                 -                   -                 -
Base and Environment:                                               -                 -                    -                 -                   -                 -
Gross Costs                                                         5               201                    4                 8                   2                 5
Less: Earned Revenue                                                4                 -                    -                 -                   1                 -
Net Goal Cost                                                       1               201                    4                 8                   1                 5
                                                                    -                 -                    -                 -                   -                 -
Total Gross Costs                                                  29             1,134                   28                54                  42               125
Less: Total Earned Revenue                                         27                 -                    1                 -                  21                 4
Net Cost of Operations                              $               2    $        1,134    $              27    $           54   $              21    $          121




                                                                                                                                                                       USDA
                                                                                         FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  255
                                       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




         FY 2005                                                                 RD                                          DO                                    TOTAL
                                                             Intragovernmental        With the Public    Intragovernmental        With the Public   Intragovernmental   With the Public

         Strategic Goals:

         Enhance Economic Opportunities for Agricultural
         Producers:                                                           -                     -                     -                     -                    -                -
         Gross Costs                                         $                -       $             -    $              124       $           271   $            3,208   $       42,213
         Less: Earned Revenue                                                 -                     -                   190                     5                  704           14,782
         Net Goal Cost                                                        -                     -                   (66)                  266                2,504           27,431
                                                                              -                     -                     -                     -                    -                -
         Support Increased Economic Opportunities and                         -                     -                     -                     -                    -                -
         Improved Quality of Life in Rural America:                           -                     -                     -                     -                    -                -
         Gross Costs                                                      3,314                 1,730                    49                   106                3,396            2,133
         Less: Earned Revenue                                               416                 3,920                    74                     2                  496            3,925
         Net Goal Cost                                                    2,898                (2,190)                  (25)                  104                2,900           (1,792)
                                                                              -                     -                     -                     -                    -                -
         Enhance Protection and Safety of the Nation's                        -                     -                     -                     -                    -                -
         Agriculture and Food Supply:                                         -                     -                     -                     -                    -                -
         Gross Costs                                                          -                     -                    60                   132                  641            2,611
         Less: Earned Revenue                                                 -                     -                    92                     2                  140              590
         Net Goal Cost                                                        -                     -                   (32)                  130                  501            2,021
                                                                              -                     -                     -                     -                    -                -
         Improve the Nation's Nutrition and Health:                           -                     -                     -                     -                    -                -
         Gross Costs                                                          -                     -                    35                    77                1,152           50,821
         Less: Earned Revenue                                                 -                     -                    54                     1                   67               27
         Net Goal Cost                                                        -                     -                   (19)                   76                1,085           50,794
                                                                              -                     -                     -                     -                    -                -
         Protect and Enhance the Nation's Natural Resource                    -                     -                     -                     -                    -                -
         Base and Environment:                                                -                     -                     -                     -                    -                -
         Gross Costs                                                          -                     -                    77                   168                1,492            7,469
         Less: Earned Revenue                                                 -                     -                   118                     3                  479              576
         Net Goal Cost                                                        -                     -                   (41)                  165                1,013            6,893
                                                                              -                     -                     -                     -                    -                -
         Total Gross Costs                                                3,314                 1,730                   345                   754                9,889          105,247
         Less: Total Earned Revenue                                         416                 3,920                   528                    13                1,886           19,900
         Net Cost of Operations                              $            2,898       $        (2,190)   $             (183)      $           741   $            8,003   $       85,347




USDA
 256   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                             NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




FY 2005                                             Intradepartmental
                                                       Eliminations      GRAND TOTAL

Strategic Goals:

Enhance Economic Opportunities for Agricultural
Producers:                                                          -               -
Gross Costs                                         $          (1,406)   $     44,015
Less: Earned Revenue                                             (349)         15,137
Net Goal Cost                                                  (1,057)         28,878
                                                                    -               -
Support Increased Economic Opportunities and                        -               -
Improved Quality of Life in Rural America:                          -               -
Gross Costs                                                      (171)          5,358
Less: Earned Revenue                                              (77)          4,344
Net Goal Cost                                                     (94)          1,014
                                                                    -               -
Enhance Protection and Safety of the Nation's                       -               -
Agriculture and Food Supply:                                        -               -
Gross Costs                                                      (181)          3,071
Less: Earned Revenue                                             (100)            630
Net Goal Cost                                                     (81)          2,441
                                                                    -               -
Improve the Nation's Nutrition and Health:                          -               -
Gross Costs                                                      (940)         51,033
Less: Earned Revenue                                              (48)             46
Net Goal Cost                                                    (892)         50,987
                                                                    -               -
Protect and Enhance the Nation's Natural Resource                   -               -
Base and Environment:                                               -               -
Gross Costs                                                      (381)          8,580
Less: Earned Revenue                                             (168)            887
Net Goal Cost                                                    (213)          7,693
                                                                    -               -
Total Gross Costs                                              (3,079)        112,057
Less: Total Earned Revenue                                       (742)         21,044
Net Cost of Operations                              $          (2,337)   $     91,013




                                                                                                                                        USDA
                                                                                        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    257
                                                    NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




       FY 2004                                                                     FSA                                                 CCC                                                 FAS
                                                           Intragovernmental             With the Public       Intragovernmental             With the Public       Intragovernmental             With the Public
       Strategic Goals:
       Enhance Economic Opportunities for Agricultural
       Producers:
       Gross Costs                                         $              687            $           665       $            1,221            $           12,115    $              161            $           155
       Less: Earned Revenue                                               252                        474                      135                         1,510                    75                          -
       Net Goal Cost                                                      435                        191                    1,086                        10,605                    86                        155
       Support Increased Economic Opportunities and
       Improved Quality of Life in Rural America:
       Gross Costs                                                             -                           -                       -                           -                       -                           -
       Less: Earned Revenue                                                    -                           -                       -                           -                       -                           -
       Net Goal Cost                                                           -                           -                       -                           -                       -                           -
       Enhance Protection and Safety of the Nation's
       Agriculture and Food Supply:
       Gross Costs                                                             -                           -                       -                           -                       -                           -
       Less: Earned Revenue                                                    -                           -                       -                           -                       -                           -
       Net Goal Cost                                                           -                           -                       -                           -                       -                           -
       Improve the Nation's Nutrition and Health:
       Gross Costs
       Less: Earned Revenue                                                    -                           -                       -                           -                       -                           -
       Net Goal Cost                                                           -                           -                       -                           -                       -                           -
       Protect and Enhance the Nation's Natural Resource
       Base and Environment:
       Gross Costs                                                             -                           -                       -                           -                       -                           -
       Less: Earned Revenue                                                    -                           -                       -                           -                       -                           -
       Net Goal Cost                                                           -                           -                       -                           -                       -                           -
       Total Gross Costs                                                  687                        665                    1,221                        12,115                   161                        155
       Less: Total Earned Revenue                                         252                        474                      135                         1,510                    75                          -
       Net Cost of Operations                              $              435            $           191       $            1,086            $           10,605    $               86            $           155




USDA
 258         FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                             NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




FY 2004                                                                     RMA                                                 FNS                                                 FSIS
                                                    Intragovernmental             With the Public       Intragovernmental             With the Public       Intragovernmental              With the Public
Strategic Goals:
Enhance Economic Opportunities for Agricultural
Producers:
Gross Costs                                         $              61             $         3,810       $                   -         $                 -   $                   -          $                 -
Less: Earned Revenue                                                -                         745                           -                           -                       -                            -
Net Goal Cost                                                      61                       3,065                           -                           -                       -                            -
Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                             -                           -                       -                           -                       -                            -
Less: Earned Revenue                                                    -                           -                       -                           -                       -                            -
Net Goal Cost                                                           -                           -                       -                           -                       -                            -
Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                             -                           -                       -                           -                 234                          729
Less: Earned Revenue                                                    -                           -                       -                           -                   9                          117
Net Goal Cost                                                           -                           -                       -                           -                 225                          612
Improve the Nation's Nutrition and Health:
Gross Costs                                                             -                           -                1,040                      45,056                          -                            -
Less: Earned Revenue                                                    -                           -                    1                          17                          -                            -
Net Goal Cost                                                           -                           -                1,039                      45,039                          -                            -
Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                             -                           -                       -                           -                       -                            -
Less: Earned Revenue                                                    -                           -                       -                           -                       -                            -
Net Goal Cost                                                           -                           -                       -                           -                       -                            -
Total Gross Costs                                                  61                       3,810                    1,040                      45,056                    234                          729
Less: Total Earned Revenue                                          -                         745                        1                          17                      9                          117
Net Cost of Operations                              $              61             $         3,065       $            1,039            $         45,039      $             225              $           612




                                                                                                                                                                                                                 USDA
                                                                                                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                        259
                                                    NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




       FY 2004                                                                     AMS                                             APHIS                                             GIPSA
                                                           Intragovernmental             With the Public       Intragovernmental           With the Public       Intragovernmental           With the Public
       Strategic Goals:
       Enhance Economic Opportunities for Agricultural
       Producers:
       Gross Costs                                         $              86             $           840       $                   -       $                 -   $              19           $            57
       Less: Earned Revenue                                                2                         178                           -                         -                   2                        35
       Net Goal Cost                                                      84                         662                           -                         -                  17                        22
       Support Increased Economic Opportunities and
       Improved Quality of Life in Rural America:
       Gross Costs                                                             -                           -                       -                         -                       -                         -
       Less: Earned Revenue                                                    -                           -                       -                         -                       -                         -
       Net Goal Cost                                                           -                           -                       -                         -                       -                         -
       Enhance Protection and Safety of the Nation's
       Agriculture and Food Supply:
       Gross Costs                                                             -                           -                 241                       980                           -                         -
       Less: Earned Revenue                                                    -                           -                  31                       332                           -                         -
       Net Goal Cost                                                           -                           -                 210                       648                           -                         -
       Improve the Nation's Nutrition and Health:                                                          -
       Gross Costs                                                             -                           -                       -                         -                       -                         -
       Less: Earned Revenue                                                    -                           -                       -                         -                       -                         -
       Net Goal Cost                                                           -                           -                       -                         -                       -                         -
       Protect and Enhance the Nation's Natural Resource
       Base and Environment:
       Gross Costs                                                             -                           -                       -                         -                       -                         -
       Less: Earned Revenue                                                    -                           -                       -                         -                       -                         -
       Net Goal Cost                                                           -                           -                       -                         -                       -                         -
       Total Gross Costs                                                  86                         840                     241                       980                      19                        57
       Less: Total Earned Revenue                                          2                         178                      31                       332                       2                        35
       Net Cost of Operations                              $              84             $           662       $             210           $           648       $              17           $            22




USDA
 260         FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                             NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



FY 2004                                                                 FS                                         NRCS                                          ARS
                                                    Intragovernmental        With the Public   Intragovernmental          With the Public    Intragovernmental         With the Public
Strategic Goals:
Enhance Economic Opportunities for Agricultural
Producers:
Gross Costs                                                         -                      -                   -                       (8)                  64                    445
Less: Earned Revenue                                                -                      -                   1                        -                   22                      9
Net Goal Cost                                                       -                      -                  (1)                      (8)                  42                    436
Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                         -                      -                  21                     110                     -                       -
Less: Earned Revenue                                                -                      -                   3                       1                     -                       -
Net Goal Cost                                                       -                      -                  18                     109                     -                       -
Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                         -                      -                   -                        -                   60                    421
Less: Earned Revenue                                                -                      -                   -                        -                   21                      8
Net Goal Cost                                                       -                      -                   -                        -                   39                    413
Improve the Nation's Nutrition and Health:
Gross Costs                                                         -                      -                   -                        -                   14                     96
Less: Earned Revenue                                                -                      -                   -                        -                    5                      2
Net Goal Cost                                                       -                      -                   -                        -                    9                     94
Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                     1,207                 4,712                  406                   1,497                    34                    240
Less: Earned Revenue                                              121                   538                   58                      16                    12                      5
Net Goal Cost                                                   1,086                 4,174                  348                   1,481                    22                    235
Total Gross Costs                                               1,207                 4,712                  427                   1,599                   172                  1,202
Less: Total Earned Revenue                                        121                   538                   62                      17                    60                     24
Net Cost of Operations                                          1,086                 4,174                  365                   1,582                   112                  1,178




                                                                                                                                                                                         USDA
                                                                                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                          261
                                                    NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



       FY 2004                                                             CSREES                                            ERS                                         NASS
                                                           Intragovernmental      With the Public    Intragovernmental             With the Public   Intragovernmental          With the Public
       Strategic Goals:
       Enhance Economic Opportunities for Agricultural
       Producers:
       Gross Costs                                         $              12        $         357    $               16            $            31   $               36         $            92
       Less: Earned Revenue                                               13                    4                     1                          1                   15                       3
       Net Goal Cost                                                      (1)                 353                    15                         30                   21                      89
       Support Increased Economic Opportunities and
       Improved Quality of Life in Rural America:
       Gross Costs                                                         3                  163                        4                       7                       3                   17
       Less: Earned Revenue                                                9                    2                        -                       -                       -                    -
       Net Goal Cost                                                      (6)                 161                        4                       7                       3                   17
       Enhance Protection and Safety of the Nation's
       Agriculture and Food Supply:
       Gross Costs                                                         9                  263                        1                       2                       1                    3
       Less: Earned Revenue                                                9                    1                        -                       -                       -                    -
       Net Goal Cost                                                       -                  262                        1                       2                       1                    3
       Improve the Nation's Nutrition and Health:
       Gross Costs                                                         3                  124                        3                       6                       -                        -
       Less: Earned Revenue                                                7                    1                        -                       -                       -                        -
       Net Goal Cost                                                      (4)                 123                        3                       6                       -                        -
       Protect and Enhance the Nation's Natural Resource
       Base and Environment:
       Gross Costs                                                         6                  197                        4                       7                       1                    2
       Less: Earned Revenue                                                7                    1                        -                       -                       -                    -
       Net Goal Cost                                                      (1)                 196                        4                       7                       1                    2
       Total Gross Costs                                                  33                 1,104                   28                         53                   41                     114
       Less: Total Earned Revenue                                         45                     9                    1                          1                   15                       3
       Net Cost of Operations                              $             (12)       $        1,095   $               27            $            52   $               26         $           111




USDA
 262         FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                             NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



FY 2004                                                                 RD                                              DO                                         TOTAL
                                                    Intragovernmental        With the Public       Intragovernmental         With the Public   Intragovernmental           With the Public
Strategic Goals:
Enhance Economic Opportunities for Agricultural
Producers:
Gross Costs                                                         -                          -                 127                    227                2,490                    18,786
Less: Earned Revenue                                                -                          -                 152                     11                  670                     2,970
Net Goal Cost                                                       -                          -                 (25)                   216                1,820                    15,816
Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Costs                                                     3,339                  2,407                      55                     98                3,425                      2,802
Less: Earned Revenue                                              349                  3,620                      66                      5                  427                      3,628
Net Goal Cost                                                   2,990                 (1,213)                    (11)                    93                2,998                       (826)
Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Costs                                                         -                          -                  59                    105                  605                      2,503
Less: Earned Revenue                                                -                          -                  70                      5                  140                        463
Net Goal Cost                                                       -                          -                 (11)                   100                  465                      2,040
Improve the Nation's Nutrition and Health:
Gross Costs                                                         -                          -                  38                     68                1,098                    45,350
Less: Earned Revenue                                                -                          -                  45                      3                   58                        23
Net Goal Cost                                                       -                          -                  (7)                    65                1,040                    45,327
Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Costs                                                         -                          -                  78                    140                1,736                      6,795
Less: Earned Revenue                                                -                          -                  94                      7                  292                        567
Net Goal Cost                                                       -                          -                 (16)                   133                1,444                      6,228
Total Gross Costs                                               3,339                  2,407                     357                    638                9,354                    76,236
Less: Total Earned Revenue                                        349                  3,620                     427                     31                1,587                     7,651
Net Cost of Operations                                          2,990                 (1,213)                    (70)                   607                7,767                    68,585




                                                                                                                                                                                               USDA
                                                                                                       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                            263
                                                    NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



       FY 2004                                             Intradepartmental    GRAND TOTAL
                                                              Eliminations
       Strategic Goals:
       Enhance Economic Opportunities for Agricultural
       Producers:
       Gross Costs                                         $          (1,334)   $     19,942
       Less: Earned Revenue                                             (301)          3,339
       Net Goal Cost                                                  (1,033)         16,603
       Support Increased Economic Opportunities and
       Improved Quality of Life in Rural America:
       Gross Costs                                                      (125)          6,102
       Less: Earned Revenue                                              (65)          3,990
       Net Goal Cost                                                     (60)          2,112
       Enhance Protection and Safety of the Nation's
       Agriculture and Food Supply:
       Gross Costs                                                      (172)          2,936
       Less: Earned Revenue                                              (85)            518
       Net Goal Cost                                                     (87)          2,418
       Improve the Nation's Nutrition and Health:
       Gross Costs                                                      (994)         45,454
       Less: Earned Revenue                                              (40)             41
       Net Goal Cost                                                    (954)         45,413
       Protect and Enhance the Nation's Natural Resource
       Base and Environment:
       Gross Costs                                                      (299)          8,232
       Less: Earned Revenue                                             (103)            756
       Net Goal Cost                                                    (196)          7,476
       Total Gross Costs                                              (2,924)         82,666
       Less: Total Earned Revenue                                       (594)          8,644
       Net Cost of Operations                              $          (2,330)   $     74,022




USDA
 264           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




NOTE 18. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED


   FY 2005
                                                          Direct          Reimbursable            Total
   Apportionment by Fiscal Quarter                       $ 65,399         $       447           $  65,846
   Apportionment for Special Activities                    30,937              42,982              73,919
   Exempt from Apportionment                                1,039                  31               1,070
   Total Obligations Incurred                            $ 97,375         $    43,460           $ 140,835


   FY 2004
                                                          Direct          Reimbursable            Total
   Apportionment by Fiscal Quarter                       $ 69,234         $       891           $ 70,125
   Apportionment for Special Activities                    19,897              26,702              46,599
   Exempt from Apportionment                                1,036                  49               1,085
   Total Obligations Incurred                            $ 90,167         $    27,642           $ 117,809



NOTE 19. AVAILABLE BORROWING AUTHORITY, END OF PERIOD

Available borrowing authority at September 30, 2005 and 2004 was $29,073 and $38,828 million,
respectively.



NOTE 20. TERMS OF BORROWING AUTHORITY USED

The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the
purpose of discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and
debt related to foreign assistance programs. The permanent indefinite borrowing authority includes both
interest bearing and non–interest notes. These notes are drawn upon daily when disbursements exceed
deposits. Notes payable under the permanent indefinite borrowing authority have a term of one year. On
January 1 of each year, USDA refinances its outstanding borrowings, including accrued interest, at the
January borrowing rate.

In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export credit
programs to finance disbursements on post-credit reform, direct credit obligations, and credit guarantees. In
accordance with the Federal Credit Reform Act of 1990 as amended, USDA borrows from Treasury on
October 1, for the entire fiscal year, based on annual estimates of the difference between the amount
appropriated (subsidy) and the amount to be disbursed to the borrower. Repayment under this agreement may
be, in whole or in part, prior to maturity by paying the principal amount of the borrowings plus accrued
interest to the date of repayment. Interest is paid on these borrowings based on weighted average interest rates
for the cohort, to which the borrowings are associated. Interest is earned on the daily balance of uninvested
funds in the credit reform financing funds maintained at Treasury. The interest income is used to reduce
interest expense on the underlying borrowings.



                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                265
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




USDA has authority to borrow from the Federal Financing Bank (FFB) and private investors in the form of
Certificates of Beneficial Ownership (CBO) or loans executed directly between the borrower and FFB with an
unconditional USDA repayment guarantee. CBO’s outstanding with the FFB and private investors are
generally secured by unpaid loan principal balances. CBO’s outstanding are related to pre-credit reform loans
and no longer used for program financing.

FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans. Borrowings made
to finance loans directly between the borrower and FFB mature and are repaid as the related group of loans
become due. Interest rates on the related group of loans are equal to interest rates on FFB borrowings, except
in those situations where an FFB funded loan is restructured and the terms of the loan are modified.

Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made on FFB
CBO’s, without a penalty.

Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient amount of
its borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by
agencies and others. All bonds, notes, debentures, and similar obligations issued by the Department are
subject to approval by the Secretary of the Treasury. Reservation of borrowing authority for these purposes
has not been required for many years.



NOTE 21. ADJUSTMENTS TO BEGINNING BALANCE OF BUDGETARY RESOURCES

In fiscal 2004, RMA corrected errors in amounts previously reported. The effect of these corrections
increased obligated and unobligated balances by $97 million and $3 million, respectively.

In fiscal 2004, FS corrected errors in amounts previously reported. The effect of these corrections increased
obligated and decreased unobligated balances by $82 million.



                                                      FY 2005                             FY 2004
                                            Obligated       Unobligated         Obligated       Unobligated
Beginning balances                         $    38,146      $   25,081         $    35,886      $   22,644
Adjustments                                           -               -                179              (80)
Beginning balances, as adjusted            $    38,146      $   25,081         $    36,065      $   22,564




NOTE 22. PERMANENT INDEFINITE APPROPRIATIONS

USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit reform
programs, 2) certain costs of the crop insurance program, and 3) certain costs associated with FS programs.

The permanent indefinite appropriations for credit reform are mainly available to finance any disbursements
incurred under the liquidating accounts. These appropriations become available pursuant to standing



USDA
   266       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




provisions of law without further action by Congress after transmittal of the Budget for the year involved.
They are treated as permanent the first year they become available, as well as in succeeding years. However,
they are not stated as specific amounts but are determined by specified variable factors, such as cash needs for
liquidating accounts, and information about the actual performance of a cohort or estimated changes in future
cash flows of the cohort in the program accounts.

The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy,
delivery expenses, losses in excess of premiums and research and delivery costs.

The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs,
Brush Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and
Improvements, Roads and Trails for States, National Forest Fund, Timber Roads, Purchaser Elections, Timber
Salvage Sales and Operations, and Maintenance of Quarters. Each of these permanent indefinite
appropriations is funded by receipts made available by law, and is available until expended.

NOTE 23. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES

Unobligated budget authority is the difference between the obligated balance and the total unexpended
balance. It represents that portion of the unexpended balance unencumbered by recorded obligations.
Appropriations are provided on an annual, multi-year, and no-year basis. An appropriation expires on the last
day of its period of availability and is no longer available for new obligations. Unobligated balances retain
their fiscal-year identity in an expired account for an additional five fiscal years. The unobligated balance
remains available to make legitimate obligation adjustments, i.e., to record previously unrecorded obligations
and to make upward adjustments in previously underestimated obligations for five years. At the end of the
fifth year, the authority is canceled. Thereafter, the authority is not available for any purpose.

Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions
section at the end of the appropriations act.

NOTE 24. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND THE
BUDGET OF THE UNITED STATES GOVERNMENT

The differences between the FY 2004 Statement of Budgetary Resources and the FY 2004 actual numbers
presented in the FY 2006 Budget of the United States Government (Budget) are summarized below. The
Budget excludes expired accounts that are no longer available for new obligations.

Corrections of timing differences and errors were made subsequent to the Budget submission as follows:

Rural Development — Error resulting from activity incorrectly recorded to Recoveries of Prior Year
Obligations and Obligations Incurred when interest rate changes were processed due to market rate
fluctuations. Forest Service — Cash adjustment, Supplemental 224, processed subsequent to the Budget
submission.

In addition, Food and Nutrition Service made a downward adjustment to the current period Grant account
balances based on the historical relationship between the September 30 grant account balance and the final



                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                267
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




grant account balance produced throughout the closeout process which does not occur for 3-9 months after the
end of the fiscal year. Unavailable collections for the Native American Institution Endowment Fund were
included as budgetary resources in the Statement of Budgetary Resources.

The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market
Administrators participate in the Federal retirement system, though these funds are not available for use by the
Department. Other items mainly consist of balances in suspense accounts and differences due to rounding that
are excluded from the Budget.

A comparison between the fiscal 2005 Statement of Budgetary Resources and the fiscal 2005 actual numbers
presented in the fiscal 2007 Budget cannot be performed as the fiscal 2007 Budget is not yet available. The
fiscal 2007 Budget is expected to be published in February 2006 and will be available from the Government
Printing Office.

  FY 2004
                                                                             Budgetary
                                                                             Resources               Outlays
  Combined Statement of Budgetary Resources                              $          142,890      $       78,446
  Reconciling Items:
    Expired accounts                                                                 (8,236)                    (8)
     Food and Nutrition Service                                                          (453)                   -
     Rural Development                                                                   (239)                   -
     Forest Service                                                                         0                  154
     Native American Institutions                                                         (11)                 (10)
     Milk Market Orders Fund                                                              49                     5
     Other                                                                                (47)                   7
  Budget of the United States Government                                 $          133,953      $       78,594



NOTE 25. RELATIONSHIP BETWEEN LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
ON THE BALANCE SHEET AND THE CHANGE IN COMPONENTS REQUIRING OR GENERATING
RESOURCES IN FUTURE PERIODS

The change in liabilities not covered by budgetary resources should be the same as the change in components
requiring or generating resources in future periods, except for other components requiring or generating
resources in future periods that are reported separately. The components requiring or generating resources in
future periods as reported on the Statement of Financing differ from the components requiring or generating
resources in future periods reflected below for the portion of liabilities not covered by budgetary resources.




USDA
   268         FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




                                                                                    FY 2005             FY 2004
 Current year liabilities not covered by budgetary resources,                       $ 11,581            $ 3,697
 as disclosed in Note 11
 Prior year liabilities not covered by budgetary resources                              (3,697)           (5,141)
 Increase (Decrease) in liabilities not covered by budgetary resources                    7,884           (1,444)
 Upward/Downward Reestimates of Credit Subsidy Expense                                  (1,853)             (341)
 Increase in Exchange Revenue Receivable from the Public                                (7,791)             534
 Other                                                                                    1,267            3,080
 Components requiring or generating resources in future periods,
 as reported on the Statement of Financing                                          $      (493)        $ 1,829



NOTE 26. DESCRIPTION OF TRANSFERS THAT APPEAR AS A RECONCILING ITEM ON THE
STATEMENT OF FINANCING

Allocation transfers that appear as reconciling items on the Statement of Financing include funds received
from the Department of Labor for training underemployed youths; the Department of Transportation for
maintenance and upkeep of federal highways traversing National Forest System lands; the Appalachian
Regional Commission and Economic Development Administration for accounting services; and funds
transferred to the Agency for International Development for transportation in connection with foreign
commodity donations.

NOTE 27. INCIDENTAL CUSTODIAL COLLECTIONS

The majority of custodial collections represent National Forest Fund receipts from the sale of timber and other
forest products. The balance represents miscellaneous general fund receipts such as collections on accounts
receivable related to canceled year appropriations, civil monetary penalties and interest, and commercial fines
and penalties. Custodial collection activities are considered immaterial and incidental to the mission of the
Department.


  Revenue Activity:                                                             FY 2005                FY 2004
       Sources of Collections:
       Miscellaneous                                                        $           64         $         62
  Total Cash Collections                                                                64                   62
  Accrual Adjustments                                                                   (7)                   9
  Total Custodial Revenue                                                               57                   71
  Disposition of Collections:
  Transferred to Others:
       Treasury                                                                          (8)                 (7)
       States and Counties                                                               (7)                (52)
  ( Increase )/Decrease in Amounts Yet to be Transferred                                (42)                (12)
  Net Custodial Activity                                                    $             -        $          -




                                                                                                            USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                    269
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




NOTE 28. DEDICATED COLLECTIONS

Dedicated funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing sources
are required by statute to be used for designated activities, benefits or purposes and must be accounted for
separately from the Government’s general revenues.

Financial information for all significant dedicated collections is shown below. Following the descriptive
narrative is the financial information for each of the significant dedicated collection funds. Donations are
handled on the cash basis and all other collections are accounted for on the accrual basis.

Commodity Credit Corporation
Tobacco Transition Payment Program
The Tobacco Transition Payment Program (TTPP) was authorized by the Fair and Equitable Tobacco Reform
Act of 2004. The program terminates the New Deal-era tobacco quota program and establishes a 10-year
transitional payment program funded through assessments of approximately $10 billion on domestic
manufacturers of tobacco products and importers of foreign tobacco. The legislation authorizes the Farm
Service Agency (FSA) to provide outreach, communication and other necessary services to ensure that all
eligible producers and quota holders are familiar with the features of the TTPP.

Risk Management Agency
Federal Crop Insurance Corporation Fund (FCIC)
Resources for the FCIC Fund includes funds collected from the public for insurance premiums and other
insurance related fees that are used with appropriations from Congress and unobligated balances from
previous years to fund the Federal Crop Insurance Program. Funds are available under 7 U.S.C. 1501-1519.

Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods and
other necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize markets.
The fund is permanently financed by statutory transfer of an amount equal to 30 percent of customs receipts
collected during each calendar year is automatically appropriated for expanding outlets for perishable, non-
price supported commodities. An amount equal to 30 percent of receipts collected on fishery products is
transferred to the Food and Nutrition Service and is used to purchase commodities under section 6 of the
National School Lunch Act and other authorities specified in the child nutrition appropriation. Funds are
available under section 32 of the Act of August 24, 1935, as amended (7 U.S.C. 612c).

Expenses and Refunds, Inspection and Grading of Farm Products
The commodity grading programs provide grading, examination, and certification services for a wide variety
of fresh and processed food commodities using federally approved grade standards and purchase
specifications. This fund is financed by the collection of fees charged to producers of various food


USDA
   270        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




commodities who request, on a voluntary basis, inspection and grading of agricultural food commodities. This
program is authorized by the Agricultural Marketing Act of 1946 (7 U.S.C. 1621-1627).
Perishable Agricultural Commodities Act
The act is intended to ensure equitable treatment to farmers and others in the marketing of fresh and frozen
fruits and vegetables. Commission merchants, dealers, and brokers handling these products in interstate and
foreign commerce are licensed. The fund is financed by license fees charged for the issuance of Federal
licenses to dealers in perishable agricultural commodities who meet and maintain the financial stability
necessary to ensure payment is made to producers of perishable agricultural commodities. License fees are
deposited in this special fund and are used to meet the costs of administering the Perishable Agricultural
Commodities and Produce Agency Act (7 U.S.C. 491-497, 499a-499s).

Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report on expenditures and revenue associated with operating Agricultural
Quarantine Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the Federal
Agriculture Improvement and Reform Act of 1996, gave the Animal and Plant Health Inspection Service
(APHIS) the authority to charge user fees for AQI services, and to use the revenue to fund AQI activities. In
March of 2003, a portion of the AQI program was transferred to the Department of Homeland Security
(DHS); however, APHIS retained the authority to collect AQI revenue. APHIS transfers a portion of the
revenue to DHS periodically throughout the year to fund their expenditures. The revenue in the fund is
collected from airlines, air passengers, vessels, trucks, and railroad cars that are subject to AQI inspection at
ports of entry. These user fees are an inflow of revenue from the public that is used to fund AQI inspections
that are required by APHIS and DHS. The authority is codified in 21 U.S.C. 136(a).

Miscellaneous Contributed Funds
The revenue in this fund is collected, in advance of the work, from cooperators who request services for
activities such as inspecting and pre-clearing certain fruits, vegetables, and nursery products before they are
shipped to the United States, or for inspecting commercial birds in a Veterinary Services (VS) approved
commercial bird quarantine facility. All costs incurred to provide these services are the responsibility of the
cooperator, and are recorded in this fund. The authority is codified in 21 U.S.C. 111 and 134(c).

Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions of the
agreement between the cooperator and the USDA Forest Service. Cooperators include timber purchasers, not-
for-profit organizations, and local hunting and fishing clubs. The governing authorities are the Act of June 30,
1914 (16 U.S.C. 498), and the Knutson-Vandenberg Act.

Land Acquisition
Each fiscal year this fund receives a transfer of recreation user fees from the Department of the Interior’s Land
and Water Conservation Fund, to be used for the acquisition of land or waters, or interest therein, including



                                                                                                          USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 271
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




administrative expenses, to carry out the provisions of the Land and Water Conservation Fund Act of 1965, as
amended (16 U.S.C. 460l-4-11), pertaining to the preservation of watersheds. The Land Acquisition program
is authorized by the Interior and Related Agencies Appropriations Act of December 30, 1982 (96 Stat. 1983,
Public Law 97-394).

Payments to States, National Forest Fund
The Payments to States, National Forest Fund receives receipts from the National Forest Fund. These monies
are generated from the sale of goods and services at the national forests. Annually, revenue-sharing payments
are made to the States in which the national forests are located, for public schools and public roads in the
county or counties in which the national forests are situated. The Act of May 23, 1908, as amended (16
U.S.C. 500), authorized the Payments to States, National Forest Fund program.
Timber Salvage Sales
The Salvage Sale Fund was established to facilitate the timely removal of timber damaged by fire, wind,
insects, disease, or other events. Amounts collected from the sale of salvaged timber are used on other
qualifying salvage sales to cover the cost of preparing and administering the sales. The Timber Salvage Sales
program is authorized by 16 USC 472(a).

Fees, Operations and Maintenance of Recreation Facilities
This fund accumulates a portion of deposits derived from fees authorized by the Land and Water Conservation
Fund Act and is available for expenditure by the USDA Forest Service only upon appropriation by Congress.
Funds deposited are not appropriated under this heading and Congressional intent is to not use the deposits for
activities over and above those amounts already provided in the National Forest System appropriation. The
Land and Water Conservation Fund Act (16 U.S.C. 4601 et. seq.) authorized the establishment of this special
fund and regulates admission and special recreation user fees at certain recreational areas.

Timber Roads, Purchaser Election
The Timber Roads fund receives deposits from small business timber purchasers who elect to pay the USDA
Forest Service to construct or reconstruct any road or bridge required by their respective timber sale. These
collections are used to finance only those forest development roads constructed or reconstructed under the
terms and conditions of the timber sale contract(s) involved, and only to a standard necessary to harvest and
remove the timber and other products covered by the particular sale(s). The Timber Roads, Purchaser
Election program is authorized by 16 USC 472(I) (2).

Expenses, Brush Disposal
Deposits from timber purchasers are used to cover the cost required to dispose of slash, brush, and other
debris resulting from timber cutting operations and for supplemental protection of the cutover areas in lieu of
actual disposal. The Expenses, Brush Disposal program is authorized by 16 U.S.C. 490-498.

State, Private, and International Forestry Land and Water Conservation Fund
The Fiscal Year 2004 Department of Interior and Related Agencies Appropriation Act (Public Law 108-108)
authorizes the Forest Service to receive a transfer of receipts from the Department of Interior’s Land and
Water Conservation Fund to finance the existing Forest Legacy Program, funded previously by State and
Private Forestry general appropriation. To accommodate the new financing arrangement and at OMB’s



USDA
   272        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




request, the U.S. Department of Treasury established a new special fund, “State, Private and International
Forestry Land and Water Conservation Fund”. The program expenditures include grants and an occasional
land purchase, but not real property will be procured or constructed.

Federal-Aid Highways
The Federal Highway Act, as amended (23 U.S.C. 120, 125, and 205) establishes the Federal Highway Trust
Fund, managed by the Department of Transportation. Federal highway construction, maintenance, and other
projects defined in the Act are financed from the Federal Highway Trust Fund. The Department of
Transportation transfers these monies to the Forest Service for highway projects pertinent to National Forest
System lands. The Secretary of Transportation, through the Federal Highway Administration (FHWA),
requests through the U.S. Department of Treasury, to transfer trust funds to eligible Federal agencies that
qualify under 23 U.S.C. 125.

Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from projects
that are part of the Recreation Fee Demonstration Program. These monies are retained and used for backlog
repair and maintenance of recreation areas, sites or projects. These funds are also used for interpretation,
signage, habitat or facility enhancement, resource preservation, annual operation, maintenance, and law
enforcement related to public use of recreation areas and sites. The Recreation Fee Demonstration Program is
authorized by 16 U.S.C. 4601-6(a).

Roads and Trails for States, National Forest Fund
The Roads and Trails for States, National Forest Fund receives annual deposits equal to ten percent of all
revenues from the National Forest Fund. These amounts are then paid to the States, without regard to the
State in which the amounts were derived, to repair or reconstruct roads, bridges, and trails on National Forest
System lands. Also, to carry out and administer projects to improve forest health conditions, which may
include the repair or reconstruction of roads, bridges, and trails on National Forest System lands in the wild
land-community interface where there is an abnormally high risk of fire. The Roads and Trails for States,
National Forest Fund is authorized by the Act of March 4, 1913, as amended (16 U.S.C. 501).

National Forest Fund Receipts
The Federal Lands Recreation Enhancement Act (FLREA) (Public Law 108-447) sets forth provisions for
collection of recreation fees and retention of special recreation permit fees by the Forest Service. The Forest
Service deposits 85 percent of special use permit revenues from these authorizations into the National Forest
Fund.
Reforestation Trust Fund
The Reforestation Trust Fund receives periodic transfers of tariffs collected from exported timber from the
U.S. Department of Treasury. Such deposits may not exceed $30 million dollars in a fiscal year. Amounts
are invested and reinvested in United States Treasury interest-bearing Government securities. The interest
income is added to the balance in the Reforestation Trust Fund for use by the Secretary of Agriculture for
reforestation and timber-stand improvement activities. The Act of October 14, 1980, as amended (16 U.S.C.
1606(a)(d)) established the Reforestation Trust Fund.




                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                273
         NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Restoration of Forest Lands and Improvements
The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) provides that any moneys
received by the United States with respect to lands under the administration of the Forest Service (a) as a
result of the forfeiture of a bond or deposit by a permittee or timber purchaser for failure to complete
performance of improvement, protection, or rehabilitation work required under the permit or timber sale
contract or (b) as a result of a judgment, compromise, or settlement of any claim, involving present or
potential damage to lands or improvements, shall be deposited into the United States Treasury and are
appropriated and made available until expended to cover the cost to the United States of any improvement,
protection, or rehabilitation work on lands under the administration of the Forest Service rendered necessary
by the action which led to the forfeiture, judgment, compromise, or settlement: Provided, that any portion of
the moneys received in excess of the amount expended in performing the work necessitated by the action
which led to their receipt shall be transferred to miscellaneous receipts.

Payments to Counties, National Grasslands
Credit receipts from Title III of the Bankhead-Jones Farm Tenant Act lands designated as either national
grasslands or land utilization projects to a special account (sec. 60.1, para. 3). When the status of such lands
is changed to that of a national forest, credit such receipts to the National Forest Fund. At the end of each
calendar year, 25 percent of the net revenues from each national grassland or land utilization project are paid
to the counties in which such lands are located. These payments are not payments in lieu of taxes (PILT);
instead, they are national grassland or land utilization project receipts to be shared through grants with local
governments for the purposes stated in the Act.

Timber Sales Pipeline Restoration Fund
The Timber Sale Pipeline Restoration Fund provides an additional source of funds for restoring the timber
sale pipeline and addressing backlog recreation project needs. These funds are revenue from timber sales
released under section 2001(k) of the fiscal year 1995 Supplemental Appropriations for Disaster Assistance
and Recessions Act, minus payments to States and local governments and other necessary deposits (sec. 60.1,
para. 27). Based on an Office of General Counsel opinion dated December 13, 2002, payments to States must
be made from these receipts before net receipts are deposited into this fund (sec. 60.1, para. 28). The Forest
Service and the Bureau of Land Management share in these revenues, referred to as first generation funds.
Seventy-five percent of the net funds are deposited in an account for timber sale pipeline preparation and 25
percent are deposited separately for the recreation backlog program. Revenues (less payments to States and
other necessary deposits) generated by timber sales prepared using these funds are to be deposited back into
the Timber Sale Pipeline Restoration Fund for additional timber sale preparation and backlog recreation work
using the same 75 percent and 25 percent distributions, respectively. However, these second generation funds
are not shared with the Bureau of Land Management.

Cooperative State Research Education and Extension Service
Native American Institutions Endowment Fund
The Native American Institutions Endowment Fund is authorized by Public Law 103-382 (7 U.S.C. 301 note).
This program provides for an endowment for the 1994 land-grant institutions (31 Tribally controlled colleges)
to strengthen the infrastructure of these institutions and develop Indian expertise for the food and agricultural




USDA
   274        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
       NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




sciences and businesses and their own communities. At the termination of each fiscal year, the Secretary shall
withdraw the income from the endowment fund for the fiscal year, and after making adjustments for the cost
of administering the fund, distribute the adjusted income on a formula basis to the 1994 land-grant
institutions.

Agricultural Research Service
Miscellaneous Contributed Funds
This fund is used to promote research in food, agriculture and related areas; to enhance the accomplishment of
technology transfer; and share the licensing and royalty fees resulting from patents. The Agricultural
Research Service (ARS) may receive Miscellaneous Contributed Funds (MCF) from states, counties,
municipal agencies, universities and colleges, associations, companies, organizations, and individuals for the
purpose of supporting cooperative/in-house research or research related services of mutual interest to the
agency and the contributing party. The duration of an incoming MCF is as specified in the agreement, but it
must not exceed 5 years. Authorization to use these revenues and other financing sources are under statutory
authority 7 U.S.C. 450(a), 3318(b), 450(b), 3319(c), 4501.

Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund
This fund was set up to expedite the development and market penetration of biobased industrial (nonfood-
nonfeed) products from agricultural and forestry materials as well as assist in bridging the gap between the
private sector for the research and commercialization of these biobased industrial (nonfood-nonfeed) products
from farm and forestry materials and animal by-products. Funding is currently limited to the amounts
collected from the recipients of the program and these funds are used to pay the costs of managing the closure
of the fund and the remaining is returned to the United States Treasury. The authority to establish this fund
occurred in the 1990 Farm Bill, P.L. 101-624, but was discontinued in fiscal year 1999. The Farm Security
and Rural Investment Act of 2002, Section 6201, transferred the complete portfolio to Rural
Development/Rural Business –Cooperative Service (RD/RBS) to manage the fund while safeguarding its
assets.




                                                                                                      USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              275
                                                              NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Dedicated Collections
As of and for the year ended September 30, 2005
(in millions)
        Dedicated Collections
        As of and for the year ended September 30, 2005
                                                                      CCC                RMA             AMS             AMS              AMS             APHIS             APHIS            FS             FS              FS               FS               FS              FS



                                                                                                                      Expenses
                                                                                                        Funds for    and Refunds,                     Agricultural                                                                                            Fee,
                                                                    Tobacco          Federal Crop    Strengthening    Inspection       Perishable     Quarantine                                                        Payments to                      Operation and     Timber
                                                                    Transition         Insurance        Markets,     and Grading       Agricultural   Inspection        Miscellaneous                                      States,         Timber        Maintenance       Roads,
                                                                    Payment           Corporation     Income, and       of Farm       Commodities      User Fee          Contributed     Cooperative      Land            National         Salvage       of Recreation    Purchaser
        (In Millions)                                               Program              Fund            Supply        Products            Act         Account             Funds           Work         Acquisition     Forests Fund        Sales           Facilities     Election
        ASSETS
        Fund Balance with Treasury                              $                -   $     1,537     $         350   $         44     $         20    $        91       $           13   $        624   $        67     $        165   $          101    $         13     $        68
        Investments                                                              -              -                -               -               -                 -                 -              -              -               -                 -               -              -
        Accounts Receivable, Net                                         7,215             1,368                1              23                -                8                 10             2             20                -                 2               -              -
        Loans Receivable                                                         -              -                -               -               -                 -                 -              -              -               -                 -               -              -
        General Property, Plant, and Equipment, Net                              -              -                -               2               -                4                  -            17             48               3                  1               -              2
        Other                                                                    -             65              244             15                3                 -                 -              -              -               -                 -               -              -
        TOTAL ASSETS                                                     7,215             2,970               595              84              23             103                  23            643            135             168              104               13             70


        LIABILITIES
        Accounts Payable                                                   341                 13                1               3               -                (3)                -              -              -              1                (1)               -              -
        Federal Employee and Veterans Benefits                                   -              -                -             34                -                 -                 -              -              -               -                 -               -              -
        Other                                                                    -         3,486                3              22                1                4                  -            49               1             65                  5             11               -
        TOTAL LIABILITIES                                                  341             3,499                4              59                1                1                  -            49               1             66                  4             11               -
        Total Net Position                                               6,874              (529)              591             25               22            102                   23            594            134             102              100               2              70
        TOTAL LIABILITIES AND NET POSITION                               7,215             2,970               595             84               23            103                   23            643            135             168              104              13              70


        CHANGE IN NET POSITION                                                   -              -                -               -               -                 -                 -              -              -               -                 -               -              -
        Beginning Balances                                                       -          (205)              933             34               27             95                   16            442            145             69               95               82              63
        Prior Period Adjustments                                                 -              -                -               -               -                 -                 -              -              -               -                 -               -              -
        Beginning Balances, as adjusted                                          -          (205)              933             34               27             95                   16            442            145             69               95               82              63


        Budgetary Financing Sources:
            Appropriations Received                                              -         2,242                 -               -               -                 -                 -              -              -               -                 -               -              -
            Appropriations Transfer In (Out)                                     -             (5)               -               -               -                 -                 -              -              -               -                 -               -              -
            Other Adjustments (rescissions, etc.)                                -             49                -               -               -                 -                 -              -              -               -                 -               -              -
            Donations and Forfeitures of Cash                                    -              -                -               -               -                 -                 -              -              -               -                 -               -              -
            Transfers In (Out) without Reimbursement                             -             5               749               -               -           (208)                   -            149            61                -                 -             (80)             -
            Imputed Financing from Costs Absorbed by Others                      -              -                -             28                -                 -                 -              -              -               -                 -               -              -
            Other                                                                -             2                 -               -               -                 -                 -              -              -               -                 -               -              -
        Total Financing Sources                                                  -         2,293               749             28                -           (208)                   -            149            61                -                 -             (80)             -
        Net Cost of Operations                                           6,874            (2,618)          (1,090)             (38)             (4)           215                    8             3             (72)            32                  5               -              7
        Ending Balances                                         $        6,874       $      (530)    $         592   $         24     $         23    $       102       $           24   $        594   $        134    $        101   $          100    $          2     $        70




USDA
  276           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



Dedicated Collections
As of and for the year ended September 30, 2005
                                                             FS               FS              FS              FS              FS             FS              FS               FS              FS             FS             CSREES           ARS


                                                                        State, Private,
                                                                              and
                                                                         International                                    Roads and                                                                                       Native
                                                                        Forestry, Land                                     Trails for                                    Restoration of   Payments to    Timber Sales    American
                                                         Expenses,        and Water                      Recreation Fee     States,       National                        Forest Lands     Counties,       Pipeline     Institutions     Miscellaneous
                                                           Brush        Conservation      Federal-Aid    Demonstration     National      Forest Fund    Reforestation         and          National       Restoration   Endowment         Contributed
(In Millions)                                             Disposal           Fund          Highways        Program        Forest Fund     Receipts       Trust Fund      Improvements     Grasslands        Fund           Fund             Funds
ASSETS
Fund Balance with Treasury                               $        57    $          80     $        24    $         130    $        29    $        21    $         26     $          19    $        54    $        12    $         7      $         18
Investments                                                        -                 -              -                -              -              -                -                 -             -              -             64                  -
Accounts Receivable, Net                                           -                 -             28                1              -              7                -                 -             7              -                 -               -
Loans Receivable                                                   -                 -              -                -              -              -                -                 -             -              -                 -               -
General Property, Plant, and Equipment, Net                        -                 -             10                3             16              -                -                 -             -              2                 -              1
Other                                                              -                 -              -                1              -              -                -                 -             -              -                 -               -
TOTAL ASSETS                                                      57                80             62              135             45             28               26                19            61             14              71                19


LIABILITIES
Accounts Payable                                                   -                 -              -                1             1               -                -                 -             -              -                 -               -
Federal Employee and Veterans Benefits                             -                 -              -                -              -              -                -                 -             -              -                 -               -
Other                                                             (1)                6              1                3             2              25                3                 -            18              -                 -               -
TOTAL LIABILITIES                                                 (1)                6              1                4             3              25                3                 -            18              -                 -               -
Total Net Position                                                58               74              61              131             42              3              23                20             43             14             71                19
TOTAL LIABILITIES AND NET POSITION                                57               80              62              135             45             28              26                20             61             14             71                19


CHANGE IN NET POSITION                                             -                 -              -                -              -              -                -                 -             -              -                 -               -
Beginning Balances                                                56               52              52               44             38             (1)             23                20             (1)            13             58                23
Prior Period Adjustments                                           -                 -              -                -              -              -                -                 -             -              -                 -               -
Beginning Balances, as adjusted                                   56               52              52               44             38             (1)             23                20             (1)            13             58                23


Budgetary Financing Sources:
    Appropriations Received                                        -                 -              -                -              -              -                -                 -             -              -             12                  -
    Appropriations Transfer In (Out)                               -                 -              -                -              -              -                -                 -             -              -                 -               -
    Other Adjustments (rescissions, etc.)                          -                 -              -                -              -              -                -                 -             -              -                 -               -
    Donations and Forfeitures of Cash                              -                 -              -                -              -              -                -                 -             -              -                 -               -
    Transfers In (Out) without Reimbursement                       -               57              16               81              -              -              30                  -             -              -                 -               -
    Imputed Financing from Costs Absorbed by Others                -                 -              -                -              -              -                -                 -             -              -                 -               -
    Other                                                          -                 -              -                -              -              -                -                 -             -              -                 -               -
Total Financing Sources                                            -               57              16               81              -              -              30                  -             -              -             12                  -
Net Cost of Operations                                             1               (35)            (6)               6             4               3              (30)                -            44              1              1                (4)
Ending Balances                                          $        57    $          74     $        62    $         131    $        42    $         2    $         23     $          20    $        43    $        14    $        71      $         19




                                                                                                                                                                                                                                                         USDA
                                                                                                                                        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                     277
                                                        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



       Dedicated Collections
       As of and for the year ended September 30, 2005
                                                                  AARC




                                                                Alternative
                                                                Agricultural
                                                               Research and
                                                             Commercialization
       (In Millions)                                          Revolving Fund         Other             Total
       ASSETS
       Fund Balance with Treasury                            $               -   $           83    $     3,653
       Investments                                                         15                 5                84
       Accounts Receivable, Net                                              -               21          8,713
       Loans Receivable                                                      -                -                 -
       General Property, Plant, and Equipment, Net                           -                2            111
       Other                                                                 -                -            328
       TOTAL ASSETS                                                         15               111         12,889


       LIABILITIES
       Accounts Payable                                                      -                1            358
       Federal Employee and Veterans Benefits                                -               10                44
       Other                                                                 -               15          3,719
       TOTAL LIABILITIES                                                     -               26          4,121
       Total Net Position                                                  15                85          8,769
       TOTAL LIABILITIES AND NET POSITION                                  15            111            12,890


       CHANGE IN NET POSITION                                                -                -                 -
       Beginning Balances                                                  15                57          2,245
       Prior Period Adjustments                                              -                -                 -
       Beginning Balances, as adjusted                                     15                57          2,245


       Budgetary Financing Sources:
           Appropriations Received                                           -                1          2,255
           Appropriations Transfer In (Out)                                  -                1                (4)
           Other Adjustments (rescissions, etc.)                             -                -                49
           Donations and Forfeitures of Cash                                 -                -                 -
           Transfers In (Out) without Reimbursement                          -                4            864
           Imputed Financing from Costs Absorbed by Others                   -               10                38
           Other                                                             -                8                10
       Total Financing Sources                                               -               24          3,212
       Net Cost of Operations                                                -                4          3,311
       Ending Balances                                       $             15    $           85    $     8,768




USDA
 278        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS




Dedicated Collections
As of and for the year ended September 30, 2004
(in millions)
         As of and for the year ended September 30, 2004
                                                                     RMA                  AMS                 AMS              AMS              APHIS               APHIS                FS                  FS                 FS



                                                                                                          Expenses and
                                                                                        Funds for           Refunds,        Perishable         Agricultural
                                                                 Federal Crop         Strengthening      Inspection and     Agricultural       Quarantine       Miscellaneous                                              Payments to
                                                                   Insurance         Markets, Income,    Grading of Farm   Commodities      Inspection User      Contributed         Cooperative                          States, National
         (In Millions)                                          Corporation Fund       and Supply           Products            Act           Fee Account          Funds               Work            Land Acquisition    Forests Fund
         ASSETS
         Fund Balance with Treasury                             $          2,160     $           453     $           67    $          27    $            82     $           15   $            472      $            99    $           131
         Investments                                                            -                   -                 -                -                   -                 -                     -                 -                   -
         Accounts Receivable, Net                                          1,487                    4                18                -                 10                  -                     2                 -                   -
         Loans Receivable                                                       -                   -                 -                -                   -                 -                     -                 -                   -
         General Property, Plant, and Equipment, Net                            -                   -                 2                -                   5                1                  16                   48                  2
         Other                                                                84                 481                  -                1                   -                 -                     -                 -                   -
         TOTAL ASSETS                                                       3,731                 938                87               28                  97                16                490                  147                133


         LIABILITIES
         Accounts Payable                                                     82                    -                 2                1                   -                 -                     -                 -                  1
         Federal Employee and Veterans Benefits                                 -                   -                35                -                   -                 -                     -                 -                   -
         Other                                                             3,854                    4                15                -                   1                 -                 48                    3                 63
         TOTAL LIABILITIES                                                 3,936                    4                52                1                   1                 -                 48                    3                 64
         Total Net Position                                                 (205)                934                 35               27                 96                 16                442                 144                  69
         TOTAL LIABILITIES AND NET POSITION                                3,731                 938                 87               28                 97                 16                490                 147                 133


         CHANGE IN NET POSITION                                                 -                   -                 -                -                   -                 -                     -                 -                   -
         Beginning Balances                                                 (451)                410                 42               29                 90                 13                300                   76                 53
         Prior Period Adjustments                                               -                   -                 -                -                   -                 -                     -                 -                   -
         Beginning Balances, as adjusted                                    (451)                410                 42               29                 90                 13                300                   76                 53


         Budgetary Financing Sources:
             Appropriations Received                                       3,366                    -                 -                -                   -                 -                     -                 -                   -
             Appropriations Transfer In (Out)                                  (5)                  -                 -                -                   -                 -                     -                 -                   -
             Other Adjustments (recissions, etc.)                             (78)                  -                 -                -                   -                 -                     -                (1)                  -
             Donations and Forfeitures of Cash                                  -                   -                 -                -                   -                 -                     -                 -                   -
             Transfers In (Out) without Reimbursement                           5               1,148                 -                -                (141)                -                154                 163                  93
             Imputed Financing from Costs Absorbed by Others                    -                   -                27                -                   -                 -                     -                 -                   -
             Other                                                              2                   -                 -                -                   -                 -                     -                 -                   -
         Total Financing Sources                                           3,290                1,148                27                -                (141)                -                154                 162                  93
         Net Cost of Operations                                            (3,044)               (624)              (35)              (2)               147                 2                 (12)                 (94)               (77)
         Ending Balances                                        $           (205)    $           934     $           34    $          27    $            96     $           15   $            442      $          144     $            69




                                                                                                                                                                                                                                             USDA
                                                                                                                           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                      279
                                                        NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



       As of and for the year ended September 30, 2004
                                                                  FS               FS               FS              FS                 FS                   FS                 FS                FS                 FS                FS


                                                                                                                                 State, Private,
                                                                              Fee, Operation                                    and International
                                                                                   and                                           Forestry, Land                                              Roads and
                                                                              Maintenance of   Timber Roads,                       and Water                              Recreation Fee      Trails for
                                                             Timber Salvage     Recreation       Purchaser       Expenses,       Conservation           Federal-Aid       Demonstration    States, National   National Forest    Reforestation
       (In Millions)                                             Sales           Facilities       Election     Brush Disposal         Fund               Highways           Program          Forest Fund      Fund Receipts       Trust Fund
       ASSETS
       Fund Balance with Treasury                            $          98    $          93    $         62    $          56    $            55     $            33       $          42    $           26     $            20    $          26
       Investments                                                       -                -                -               -                   -                      -               -                  -                  -                    -
       Accounts Receivable, Net                                          -                1                -               -                   -                 12                   2                  -                  6                    -
       Loans Receivable                                                  -                -                -               -                   -                      -               -                  -                  -                    -
       General Property, Plant, and Equipment, Net                       1                -               1                -                   -                      8               4                15                   -                    -
       Other                                                             -                -                -               -                   -                      -               -                  -                  -                    -
       TOTAL ASSETS                                                     99               94               63              56                  55                  53                 48                 41                 26                26


       LIABILITIES
       Accounts Payable                                                 (1)               -                -               -                   -                      -               1                 1                   -                    -
       Federal Employee and Veterans Benefits                            -                -                -               -                   -                      -               -                  -                  -                    -
       Other                                                             5               12                -               -                  3                       1               3                 2                  27                3
       TOTAL LIABILITIES                                                 4               12                -               -                  3                       1               4                 3                  27                3
       Total Net Position                                               95               82              63               56                 52                  52                  44                38                  (1)              23
       TOTAL LIABILITIES AND NET POSITION                               99               94              63               56                 55                  53                  48                41                  26               26


       CHANGE IN NET POSITION
       Beginning Balances                                               56               82              29               35                   -                 48                  28                38                  31               25
       Prior Period Adjustments                                          -                -                -               -                   -                      -               -                  -                  -                    -
       Beginning Balances, as adjusted                                  56               82              29               35                   -                 48                  28                38                  31               25


       Budgetary Financing Sources:
           Appropriations Received                                       -                -                -               -                   -                      -               -                  -                  -                    -
           Appropriations Transfer In (Out)                              -                -                -               -                   -                      -               -                  -                  -                    -
           Other Adjustments (recissions, etc.)                          -                -                -               -                   -                      -               -                  -                  -                    -
           Donations and Forfeitures of Cash                             -                -                -               -                   -                      -               -                  -                  -                    -
           Transfers In (Out) without Reimbursement                     35                -              35               20                 64                  12                  14                 (2)              (121)              30
           Imputed Financing from Costs Absorbed by Others               -                -                -               -                   -                      -               -                  -                  -                    -
           Other                                                         -                -                -               -                   -                      -               -                  -                  -                    -
       Total Financing Sources                                          35                -              35               20                 64                  12                  14                 (2)              (121)              30
       Net Cost of Operations                                            5                -                -               2                (12)                  (8)                 2                 2                  89              (32)
       Ending Balances                                       $          96    $          82    $         64    $          57    $            52     $            52       $          44    $           38     $            (1)   $          23




USDA
 280           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      NOTES TO THE CONSOLIDATED FINANACIAL STATEMENTS



As of and for the year ended September 30, 2004
                                                               FS              FS                FS               CSREES                ARS               AARC



                                                                                                                   Native                               Alternative
                                                          Restoration of   Payments to       Timber Sales         American                              Agricultural
                                                           Forest Lands     Counties,          Pipeline          Institutions       Miscellaneous      Research and
                                                               and          National          Restoration        Endowment           Contributed     Commercialization
(In Millions)                                             Improvements     Grasslands           Fund                Fund               Funds          Revolving Fund          Other              Total
ASSETS
Fund Balance with Treasury                                $          12    $        17       $         12    $              5       $         22     $               -    $           74     $           4,159
Investments                                                            -                 -              -                  53                   -                  15                  4                    72
Accounts Receivable, Net                                              8                  -              -                       -               -                    -                 6                 1,556
Loans Receivable                                                       -                 -              -                       -               -                    -                  -                     -
General Property, Plant, and Equipment, Net                            -                 -              2                       -              2                     -                 2                   109
Other                                                                  -                 -              -                       -               -                    -                  -                  566
TOTAL ASSETS                                                          20             17                14                   58                 24                   15                 86                 6,462


LIABILITIES
Accounts Payable                                                       -                 -              -                       -               -                    -                  -                   87
Federal Employee and Veterans Benefits                                 -                 -              -                       -               -                    -                 9                    44
Other                                                                  -            18                  1                       -              1                     -                20                 4,084
TOTAL LIABILITIES                                                      -            18                  1                       -              1                     -                29                 4,215
Total Net Position                                                   20              (1)               13                  58                 23                   15                 57                 2,247
TOTAL LIABILITIES AND NET POSITION                                   20             17                 14                  58                 24                   15                 86                 6,462


CHANGE IN NET POSITION                                                 -                 -              -                       -               -                    -                  -                     -
Beginning Balances                                                    7              (1)               11                  48                 29                   16                 99                 1,143
Prior Period Adjustments                                               -                 -              -                       -               -                    -                  -                     -
Beginning Balances, as adjusted                                       7              (1)               11                  48                 29                   16                 99                 1,143


Budgetary Financing Sources:
    Appropriations Received                                            -                 -              -                       -               -                    -                 1                 3,367
    Appropriations Transfer In (Out)                                   -                 -              -                       -               -                    -                  -                    (5)
    Other Adjustments (recissions, etc.)                               -                 -              -                       -               -                   (1)                 -                   (80)
    Donations and Forfeitures of Cash                                  -                 -              -                       -               -                    -                 1                      1
    Transfers In (Out) without Reimbursement                           -             (6)                5                       -               -                    -                (47)               1,461
    Imputed Financing from Costs Absorbed by Others                    -                 -              -                       -               -                    -                10                    37
    Other                                                              -                 -              -                       -               -                    -                  -                     2
Total Financing Sources                                                -             (6)                5                       -               -                   (1)               (35)               4,783
Net Cost of Operations                                               13              6                 (3)                 10                  (6)                   -                 (7)               (3,678)
Ending Balances                                           $          20    $         (1)     $         13    $             58       $         23     $             15     $           57     $           2,248




                                                                                                                                                                                                                   USDA
                                                                                                                                          FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             281
                    REQUIRED SUPPLEMENTARY INFORMATION




REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
USDA has stewardship responsibility for certain resources entrusted to it that do not meet the criteria for
recognition in the financial statements. Information about these resources is important to understanding
USDA’s mission, operations, and financial condition at the date of the financial statements and in subsequent
periods. Costs of these stewardship-type resources are treated as expenses in the financial statements in the
year the costs are incurred. However, these costs and resultant resources are intended to provide long-term
benefits to the public and are included as required supplementary stewardship reporting to highlight their
long-term benefit nature and to demonstrate accountability over them.

Stewardship resources are categorized into two major groups, Stewardship Property, Plant and Equipment and
Stewardship Investments as follows:

STEWARDSHIP PROPERTY, PLANT AND EQUIPMENT

Stewardship PP&E consists of assets whose physical properties resemble those of general PP&E that are
traditionally capitalized in financial statements. However, due to the nature of these assets, (1) valuation
would be difficult and (2) matching costs with specific periods would not be meaningful. Stewardship PP&E
includes heritage assets and stewardship land.

Heritage Assets
                                                                       FY 2004
                                      Category                          (Sites)       Condition
            Total Heritage Assets                                         318,259    Poor to Fair
            Eligible for the National Register of Historic Places           57,925   Poor to Fair
            Listed on the National Register                                  3,397   Fair
            Sites with Structures Listed on the National Register            1,874   Poor to Fair
            National Historic Landmarks                                         19   Fair to Good


The FS estimates that more than 320,000 heritage assets are on land that it manages. Assets held at museums
and universities are managed by those entities. This information was estimated from the nine FS regions and
annual Department of the Interior report to Congress. Some of these assets are listed on the National Register
of Historic Places, and some are designated as National Historic Landmarks. The FS heritage resource
specialists on the 155 national forests maintain separate inventories of heritage assets. Most assets not used
for administrative or public purposes receive no annual maintenance. A long-term methodology to better
assess the extent and condition of these assets is being formulated to comply with Executive Order 13287,
Preserve America. A module in the agency’s Real Property Management Infrastructure System (INFRA) has
been developed and implemented for heritage assets. The Healthy Forests Initiative and competing budget
priorities, however, have prevented full population of the database. Heritage assets include the following:

Historic Structures
Constructed works consciously created to serve some human purpose. They include buildings, monuments,
logging and mining camps, and ruins.




USDA
   282       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    REQUIRED SUPPLEMENTARY INFORMATION




National Historic Landmarks
Includes sites, buildings, or structures that possess exceptional value in commemorating or illustrating the
history of the United States, and exceptional value or quality in illustrating and interpreting the heritage of the
United States. The Secretary of the Interior is the official designator of National Historic Landmarks.

National Register of Historic Places
Includes properties, buildings, and structures that are significant in U.S. history, architecture, and archaeology,
and the cultural foundation of the Nation.

Eligible for the National Register
Those sites formally determined as eligible for the National Register through the Keeper of the National
Register or documented by consultation with State Historic Preservation Offices.

Acquisition and Withdrawal of Heritage Assets
The FS generally does not construct heritage assets, although in some circumstances important site-structural
components may be rehabilitated or reconstructed into viable historic properties to provide forest visitors with
use and interpretation. Heritage assets can be acquired through the procurement process, but this rarely occurs.
Normally heritage assets are part of the land acquisition and inventory process. Withdrawal occurs through
land exchange or natural disasters.




                                                                                                           USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  283
                            REQUIRED SUPPLEMENTARY INFORMATION




Stewardship Land
The acquisition cost of stewardship land in FY 2005 and FY 2004 was $246 million and $113 million,
respectively.
                                                             FY 2005                                         FY 2004
  Description                                                             Additions (+)   Withdrawals (-)
                                                             Balance                                         Balance
  National Forest System Land (In acres):
        National Forests                                    144,460,314        383,523                  -    144,076,791
        National Forests Wilderness Areas                    34,957,078          3,708                  -     34,953,370
        National Forests Primitive Areas                       173,762                -                 -       173,762
        National Wild and Scenic River Areas                   930,633                -          (20,273)       950,906
        National Recreation Areas                             2,818,268               -          (92,971)      2,911,239
        National Scenic–Research Areas                         137,290             160                  -       137,130
        National Game Refuges and Wildlife Preserve Areas     1,198,099               -                 -      1,198,099
        National Monument Areas                               3,834,041            100                  -      3,833,941
        National Grasslands                                   3,838,166               -            (1,377)     3,839,543
        Purchase Units                                         370,031                5                 -       370,026
        Land Utilization Projects                                 1,876               -                 -          1,876
        Other Areas                                            509,857          59,229                 (9)      450,637
  Total National Forest System Land                         193,229,415        446,725          (114,630)    192,897,320

  Conservation Easements (In acres):
        Natural Resources Conservation Service
                Wetlands Reserve Program                      1,396,369        134,250                  -      1,262,119
                Grassland Reserve Program                       13,712          13,712                  -              -
                Emergency Wetlands Reserve Program              92,159                -                 -        92,159
                Emergency Watershed Protection Program          94,349             250                  -        94,099
  Total Conservation Easements                                1,596,589        148,212                  -      1,448,377


                                                             FY 2004                                         FY 2003
  Description                                                             Additions (+)   Withdrawals (-)
                                                             Balance                                         Balance
  National Forest System Land (In acres):
        National Forests                                    144,076,791        233,515                  -    143,843,276
        National Forests Wilderness Areas                    34,953,370        124,868                  -     34,828,502
        National Forests Primitive Areas                       173,762                -                 -       173,762
        National Wild and Scenic River Areas                   950,906           2,907                  -       947,999
        National Recreation Areas                             2,911,239               -                 -      2,911,239
        National Scenic–Research Areas                         137,130               58                 -       137,072
        National Game Refuges and Wildlife Preserve Areas     1,198,099               -                 -      1,198,099
        National Monument Areas                               3,833,941               -                 -      3,833,941
        National Grasslands                                   3,839,543            376                  -      3,839,167
        Purchase Units                                         370,026          10,675                  -       359,351
        Land Utilization Projects                                 1,876               -                 -          1,876
        Other Areas                                            450,637             236                  -       450,401
  Total National Forest System Land                         192,897,320        372,635                  -    192,524,685

  Conservation Easements (In acres):
        Natural Resources Conservation Service
                Wetlands Reserve Program                      1,262,119        162,784                  -      1,099,335
                Emergency Wetlands Reserve Program              92,159                -                 -        92,159
                Emergency Watershed Protection Program          94,099                -                 -        94,099
  Total Conservation Easements                                1,448,377        162,784                  -      1,285,593




USDA
  284               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                   REQUIRED SUPPLEMENTARY INFORMATION




National Forest System
The FS manages over 192 million acres of public land, the majority of which is classified as stewardship land.
Stewardship land is valued for its environmental resources, recreational and scenic value, cultural and
paleontological resources, vast open spaces, and resource commodities and revenue provided to the Federal
government, states and counties. The National Forest System (NFS) is comprised of the following:

National Forests
A unit formerly established and permanently set-aside and reserved for National Forest purposes. The
following categories of NFS lands have been set-aside for specific purposes in designated areas:
        National Forests Wilderness Areas: Areas designated by Congress as part of the National Wilderness
        Preservation System.
        National Forests Primitive Areas: Areas designated by the Chief of the Forest Service as primitive
        areas. They are administered in the same manner as wilderness areas, pending studies to determine
        sustainability as a component of the National Wilderness Preservation System.
        National Wild and Scenic River Areas: Areas designated by Congress as part of the National Wild
        and Scenic River System.
        National Recreation Areas: Areas established by Congress for the purpose of assuring and
        implementing the protection and management of public outdoor recreation opportunities.
        National Scenic-Research Areas: Areas established by Congress to provide use and enjoyment of
        certain ocean headlands and to insure protection and encourage the study of the areas for research
        and scientific purposes.
        National Game Refuges and Wildlife Preserve Areas: Areas designated by Presidential Proclamation
        or by Congress for the protection of wildlife.
        National Monument Areas: Areas including historic landmarks, historic and prehistoric structures,
        and other objects for historic or scientific interest, declared by Presidential Proclamation or by
        Congress.

National Grasslands
A unit designated by the Secretary of Agriculture and permanently held by the USDA under Title III of the
Bankhead-Jones Farm Tenant Act.
Purchase Units
A unit of land designated by the Secretary of Agriculture or previously approved by the National Forest
Reservation Commission for purposes of Weeks Law acquisition. The law authorizes the federal government
to purchase lands for stream-flow protection, and maintain the acquired lands as national forests.

Land Utilization Projects and Research and Experimentation Areas
Reserved and dedicated by the Secretary of Agriculture for forest and range research and experimentation.

Other Areas
Areas administered by the FS that are not included in one of the above groups.



                                                                                                       USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               285
                    REQUIRED SUPPLEMENTARY INFORMATION




Condition of NFS Lands
The FS monitors the condition of NFS lands based on information compiled by two national inventory and
monitoring programs. Annual inventories of forest status and trends are conducted by the Forest Inventory and
Analysis program in 45 States covering 77 percent of the forested lands of the U.S. The Forest Health
Monitoring program is active in 50 states providing surveys and evaluations of forest health conditions and
trends. While most of the 193 million acres of forestland on NFS lands continue to produce valuable benefits
(i.e. clean air, clean water, habitat for wildlife, and products for human use), significant portions are at risk to
pest outbreaks and/or catastrophic fires.

About 33 million acres of NFS forestland are at risk to future mortality from insects and diseases (based on
the current Insect and Disease Risk Map). Nearly 73 million acres of NFS forestland are prone to catastrophic
fire based on current condition and departure from historic fire regimes (Fire Regimes 1&2 and Condition
Classes 2&3). Based on these two maps, approximately 9.5 million acres are at risk to both pest caused
mortality and fire. Invasive species of insects, diseases and plants continue to impact our native ecosystems by
causing mortality to, or displacement of native vegetation. The National Fire Plan has enhanced our efforts to
prevent and suppress future fires adequately and restore acres that are at risk. Risk to fires was reduced by fuel
hazard treatments on 1.5 million acres in fiscal year 2005 and another .4 million acres were treated to reduce
risk from fire, improve wildlife habitat and prevent insect outbreaks for a total of 1.9 million acres of NFS
lands. Insect and disease prevention and suppression treatments were completed on 1.7 million acres of NFS
lands.

Conservation Easements
Wetlands Reserve Program
The Wetlands Reserve Program (WRP) is a voluntary program established to restore, protect, and enhance
wetlands on agricultural land. Participants in the program may sell a conservation easement or enter into a
cost-share restoration agreement with CCC/NRCS in order to restore and protect wetlands. The landowner
voluntarily limits the future use of the land, yet retains private ownership. The program provides many
benefits for the entire community, such as better water quality, enhanced habitat for wildlife, reduced soil
erosion, reduced flooding, and better water supply.

To be eligible for WRP, land must be restorable and suitable for wildlife benefits. Once land is enrolled in the
program, the landowner continues to control access to the land—and may lease the land—for hunting, fishing,
and other undeveloped recreational activities. Once enrolled, the land is monitored to ensure compliance with
program requirements. At any time, a landowner may request the evaluation of additional activities (such as
cutting hay, grazing livestock, or harvesting wood products) to determine if there are other compatible uses
for the site. Compatible uses are allowed if it is fully consistent with the protection and enhancement of the
wetland. The condition of the land is immaterial as long as the easement on the land meets the eligibility
requirements of the program.

CCC/NRCS records an expense for the acquisition cost of purchasing easements plus any additional costs
such as closing transactions, survey, and restoration costs. Easements can be either permanent or 30-year
duration. In exchange for establishing a permanent easement, the landowner receives payment up to the
agricultural value of the land and 100 percent of the restoration costs for restoring the wetlands. The 30-year




USDA
   286        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    REQUIRED SUPPLEMENTARY INFORMATION




easement payment is 75 percent of what would be provided for a permanent easement on the same site and 75
percent of the restoration cost.

Withdrawals from the program are rare. The Secretary of Agriculture has the authority to terminate contracts,
with agreement from the landowner, after an assessment of the effect on public interest, and following a 90-
day notification period of the House and Senate agriculture committees.
Grassland Reserve Program
The Grassland Reserve Program (GRP) is a voluntary program that helps landowners and operators restore
and protect grassland, including rangeland, pastureland, and certain other lands, while maintaining the land’s
suitability for grazing. The emphasis of the program is to support grazing operations, plant and animal
biodiversity, and grassland and land containing shrubs or forbs under the greatest threat of conversion. The
program is jointly administered by the Natural Resources Conservation Service (NRCS) and the Farm Service
Agency (FSA). NRCS has the lead responsibility on technical issues and easement administration. FSA has
the lead responsibility for rental agreement administration and financial activities.

Land is eligible if it is privately owned or tribal land and it is: 1) grassland that contains forbs or shrubs
(including rangeland and pastureland); or 2) located in an area that has been historically dominated by
grassland, forbs, or shrubs; and has potential to provide habitat for animal or plant populations of significant
ecological value if the land is retained in the current use; or restored to a natural condition. Incidental lands
may be included to allow for the efficient administration of an agreement or easement.

Participants have the opportunity to enroll acreage in rental agreements with varying lengths or long-term or
permanent easements. With both easements and rental agreements, participants have the opportunity to utilize
common management practices to maintain the viability of the grassland acreage. GRP participants are
required to follow a conservation plan on all acres enrolled in the program.

Enrollment options permit grazing on the land in a manner that is consistent with maintaining the viability of
the natural grasses, shrubs, and forbs. Haying, mowing, or harvesting for seed production is also permitted
except during the nesting seasons for birds in the area that are in significant decline.

The various enrollment options are as follows:
         10-year, 15-year, 20-year or 30-year rental agreements: Rental payment amounts will not exceed 75
         percent of the grazing value for the length of the agreement. Rental payments are paid annually after
         the anniversary date of the agreement. Local grazing values are determined on a per county basis
         based on soil productivity and posted in USDA Service Centers. Payment rates are evaluated locally
         to determine whether the rates generally reflect local prevailing rental rates.
         Permanent easements: Easement duration is in perpetuity. Participants are provided an easement
         payment after the easement is filed. Easement payment amounts are based on the current market
         value of the land less the grazing value of the land encumbered by the easement. Land values are
         determined through a site specific appraisal.
         30-year easements or easements for the maximum duration permitted based on State law:
         Participants are provided an easement payment that is 30 percent of the amount determined for a
         permanent easement.



                                                                                                           USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  287
                    REQUIRED SUPPLEMENTARY INFORMATION




For all easement options, the CCC pays for all the overhead costs associated with recording the easement in
the local land records office including recording fees, charges for abstracts, surveys, appraisal fees, and title
insurance. If NRCS and the landowner determine that restoration is necessary to return the vegetation to a
desired condition, cost-share assistance is available. Participants may receive up to 90 percent of the cost of
carrying out measures and practices on lands that have never been cultivated and not more than 75 percent of
the cost on land that has been cultivated.
Emergency Wetlands Reserve Program
The Emergency Wetlands Reserve Program (EWRP) administered by NRCS was established as part of the
emergency restoration package following the flooding of the Mississippi River and its tributaries in 1993.
EWRP provides landowners an alternative to restoring agricultural production lands that previously were
wetlands. The program is patterned after the WRP. Participants in the program sell a conservation easement to
USDA in order to restore and protect wetlands. The landowner voluntarily limits the future use of the land, yet
retains private ownership.

To be eligible, the land must have been damaged by a natural disaster and be restorable as a wetland. Once the
land is enrolled in the program, the landowner continues to control access to the land. The land is monitored
to ensure that the wetland is in compliance with contract requirements, including compatible uses, such as
recreational activities or grazing livestock.

Easements purchased under this program meet the definition of stewardship land. NRCS records an expense
for the acquisition cost of purchasing easements plus any additional costs such as closing, survey, and
restoration costs. Easements purchased under EWRP are permanent in duration. In exchange for establishing a
permanent easement, the landowner receives payment based on agricultural value of the land, a geographic
land payment cap, or the landowner offer. Easement values are assessed on pre-disaster conditions. The
landowner may receive up to 100 percent of restoring the wetland. There are no provisions in the easement to
terminate the purchase.
Emergency Watershed Protection Program
The Emergency Watershed Protection Program (EWP) Floodplain Easements is administered by NRCS. A
floodplain easement is purchased on flood prone lands to provide a more permanent solution to repetitive
disaster assistance payments and achieve greater environmental benefits where the situation warrants when
the affected landowner is willing to participate in the easement approach. The easement is to restore, protect,
manage, maintain, and enhance the functions of wetlands, riparian areas, conservation buffer strips, and other
lands.

Easements purchased under this program meet the definition of stewardship land. NRCS records an expense
for the acquisition cost of purchasing easements plus any additional costs such as closing, survey, and
restoration costs. Easements purchased under EWP are permanent in duration. In exchange for establishing a
permanent easement, the landowner receives payment based on agricultural value of the land, a geographic
land payment cap, or the landowner offer. Easement values are assessed on pre-disaster conditions. The
landowner may receive up to 100 percent of the installation and maintenance of land treatment measures
deemed necessary and desirable to effectively achieve the purposes of the easement. The easements provide




USDA
   288        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    REQUIRED SUPPLEMENTARY INFORMATION




permanent restoration of the natural floodplain hydrology as an alternative to traditional attempts to restore
damaged levees, lands, and structures. There are no provisions in the easement to terminate the purchase.




                                                                                                         USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                289
                         REQUIRED SUPPLEMENTARY INFORMATION




STEWARDSHIP INVESTMENTS

Stewardship investments are substantial investments made by the Federal Government for the benefit of the
nation but are not physical assets owned by the Federal Government. Such investments are measured in terms
of expenses incurred for non-federal physical property, human capital, and research and development.

Stewardship Investments (in millions)
                                                               FY 2005   FY 2004   FY 2003   FY 2002   FY 2001
                                                               Expense   Expense   Expense   Expense   Expense
Non-Federal Physical Property:
Food and Nutrition Service
      Food Stamp Program                                       $   22    $   36    $   39    $     -   $   41
      Special Supplemental Nutrition Program                       17         8        16          -       18
Cooperative State Research, Education, and Extension Service
      Extension 1890 Facilities Program                            17        15        15        14        12
Total Non-Federal Property                                     $   56    $   59    $   70    $   14    $   71

Human Capital:
Cooperative State Research, Education, and Extension Service
      Higher Education and Extension Programs                  $   507   $   502   $   511   $   532   $   479
Food and Nutrition Service
      Food Stamp Program                                           49        75        99          -       57
Forest Service
      Job Corps Program                                            161       106       118       104       101
Agricultural Research Service
      National Agricultural Library                                21        21        21        20        21
Risk Management Agency
      Risk Management Education                                     10         7         4         -         -
Total Human Capital                                            $   748   $   711   $   753   $   656   $   658
Research and Development:
Agricultural Research Service
      Plant Sciences                                           $     -   $     -   $   394   $   384   $   324
      Commodity Conversion and Delivery                              -         -       185       182       194
      Animal Sciences                                                -         -       194       102       146
      Soil, Water, and Air Sciences                                  -         -       110       100        98
      Human Nutrition                                               84        83        78        80        77
      Integration of Agricultural Systems                            -         -        43        40        34
      Collaborative Research Program                                 6         5         6        11        11
      Product Quality/Value Added                                  105       104         -
      Livestock Production                                          84        82         -         -         -
      Crop Production                                              197       194         -         -         -
      Food Safety                                                  103        96         -         -         -
      Livestock Protection                                          78        64         -         -         -
      Crop Protection                                              193       183         -         -         -
      Environmental Stewardship                                    219       216         -         -         -
      Homeland Security                                              -        21         -         -         -
Cooperative State Research, Education, and Extension Service
      Land-grant University System                                 645       610       601       542       495
Forest Service                                                     295       312       233       227       200
Economic Research Service
      Economic and Social Science                                  74        71        69        67        66
National Agricultural Statistics Service
      Statistical                                                    5         5         5         5         4
Total Research and Development                                 $ 2,088   $ 2,046   $ 1,918   $ 1,740   $ 1,649




USDA
   290           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                   REQUIRED SUPPLEMENTARY INFORMATION




Non-Federal Physical Property
Food and Nutrition Service
FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the State
and local governments for the purpose of administering the Food Stamp Program. The total Food Stamp
Program Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial
statements. FNS’ nonfederal physical property also consists of computer systems and other equipment
obtained by the State and local governments for the purpose of administering the Special Supplemental
Nutrition Program for Women, Infants and Children.
Cooperative State Research, Education and Extension Service
The Extension 1890 facilities program supports the renovation of existing buildings and the construction of
new facilities that permit faculty, students, and communities to benefit fully from the partnership between
USDA and the historically African-American land-grant universities.

Human Capital
Cooperative State Research, Education and Extension Service
The Higher Education programs include graduate fellowship grants, competitive challenge grants,
Secondary/2-year Post Secondary grants, Hispanic serving institutions education grants, a multicultural
scholars program, a Native American institutions program, a Native American institutions endowment fund,
an Alaska Native Serving and Native Hawaiian Serving institutions program, a resident instruction grant
program for insular areas, and a capacity building program at the 1890 institutions. These programs enable
universities to broaden their curricula, increase faculty development and student research projects, and
increase the number of new scholars recruited in the food and agriculture sciences. CSREES also supports
extension-related work at 1862 and 1890 land-grant institutions throughout the country through formula and
competitive programs. CSREES supported the Outreach and Assistance for Disadvantaged Farmers Program
for the first time in fiscal 2003. The purpose is to enhance the ability of minority and small farmers and
ranchers to operate farming or ranching enterprises independently to assure adequate income and maintain
reasonable lifestyles.

Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the Food Stamp Program. The E&T
program requires recipients of food stamp benefits to participate in an employment and training program as a
condition to food stamp eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 839,218 work registrants subject to the 3 - month Food Stamp Program participant limit
and 1,207,295 work registrants not subject to the limit in either job-search, job-training, job-workfare,
education, or work experience.




                                                                                                      USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              291
                    REQUIRED SUPPLEMENTARY INFORMATION




Forest Service
The FS’ Job Corps Civilian Conservation (Job Corps) Centers, in coordination with the Department of Interior
(DOI) National Parks Service, Fish and Wildlife Service, and Bureau of Reclamation, continued
“Empowering Youth and Enhancing Communities and Natural Resources.”

In partnership with the U.S. Department of Labor (DOL), the FS operates 18 Job Corps Centers. Job Corps is
the only Federal residential employment and education training program for economically challenged young
people ages 16 to 24. The purpose of the program is to provide young adults with the skills necessary to
become employable, independent, and productive citizens. The program is administered in a structured,
coeducational, residential environment that provides education, vocational and life skills training, counseling,
medical care, work experience, placement assistance and follow-up, recreational opportunities, and biweekly
monetary stipends. Job Corps students choose from a wide variety of careers, such as urban forestry, heavy
equipment operations and maintenance, business, clerical, carpentry, culinary arts, painting, cement and brick
masonry, welding, auto mechanics, health services, building and apartment maintenance, warehousing, and
plastering.

Job Corps is funded from DOL annually on a program year; the fiscal year is July 1 to June 30. During Job
Corps’ FY 2005, accomplishments included the following:
         8,889 participants received 4,441 placements with an average starting hourly wage of 43 cents more
         than the DOL national average.
         Approximately 1,500 female students received training in nontraditional vocations.
         482 students received high school diplomas, and 1,934 students obtained general equivalency
         diplomas.
         Approximately 1,100 Job Corps students and staff assisted the agency in its firefighting efforts.
         Students accomplished conservation work on NFS lands appraised at $20.3 million.

Since 1964, the FS’ Job Corps Centers have trained and educated more than 300,000 young men and women.

On January 10, 2005 the agency successfully transferred the Mingo Job Corps Center from DOI Fish and
Wildlife Service to the USDA Forest Service.

Agricultural Research Service
As the Nation's primary source for agricultural information, the National Agricultural Library (NAL) has a
mission to increase the availability and utilization of agricultural information for researchers, educators,
policymakers, consumers of agricultural products, and the public. The NAL is one of the world's largest and
most accessible agricultural research libraries and plays a vital role in supporting research, education, and
applied agriculture.

The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962.
One of four national libraries of the U.S. (with the Library of Congress, the National Library of Medicine, and
the National Library of Education), it is also the coordinator for a national network of State land-grant and
USDA field libraries. In its international role, the NAL serves as the U.S. center for the international
agricultural information system, coordinating and sharing resources and enhancing global access to



USDA
   292        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    REQUIRED SUPPLEMENTARY INFORMATION




agricultural data. The NAL collection of over 3.5 million items and its leadership role in information services
and technology applications combine to make it the foremost agricultural library in the world.

Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the
Federal Agricultural Improvement and Reform Act of 1996, the FCIC has formed new partnerships with the
CSREES, the Commodity Futures Trading Commission, the USDA National Office of Outreach, Economic
Research Service, and private industry to leverage the federal government’s funding of its RME program by
using both public and private organizations to help educate their members in agricultural risk management.
The RME effort was launched in 1997 with a Risk Management Education Summit that raised awareness of
the tools and resources needed by farmers and ranchers to manage their risks. RMA has built on this
foundation since 2003 by expanding State and Regional education partnerships; encouraging the development
of information and technology decision aids; supporting the National Future Farmers of America (FFA)
foundation with an annual essay contest; facilitating local training workshops; and supporting Cooperative
Agreements with Educational and outreach organizations.

During fiscal years 2005 and 2004, the RME worked toward the goals by funding risk management sessions,
most of which targeted producers directly. The number of producers reached through these sessions is
approximately 47,000 in fiscal year 2005 and 46,000 in fiscal year 2004. Additionally, some training sessions
helped those who work with producers, such as lenders, agricultural educators, and crop insurance agents,
better understand those areas of risk management with which they may be unfamiliar. Total RME obligations
incurred by the FCIC were approximately $9.4 million for fiscal year 2005 and $9.8 million for fiscal year
2004. The following table summarizes the RME initiatives since fiscal year 2001:
                 (dollars in millions)                  2005       2004       2003       2002      2001
      RME Obligations                              $     9.4        10          9          6         5
      Number of producers attending RME sessions       47,000     46,000     62,000     50,000    50,000



One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational and
outreach efforts in certain areas of the country that have been historically underserved by the Federal crop
insurance program. The Secretary determined that fifteen states met the underserved criteria. These states are
Maine, Massachusetts, Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada, Pennsylvania,
Vermont, Maryland, Utah, Rhode Island, New Hampshire, and West Virginia.

Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of high
national priority and provide information access and dissemination to: ensure high quality, safe food, and
other agricultural products; assess the nutritional needs of Americans; sustain a competitive agricultural
economy; enhance the natural resource base and the environment; and provide economic opportunities for
rural citizens, communities, and society as a whole.

ARS has five strategic goals and two major management initiatives (i.e., NAL and Buildings and Facilities).




                                                                                                        USDA
                            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                293
                  REQUIRED SUPPLEMENTARY INFORMATION




GOAL 1: Enhance Economic Opportunities for Agricultural Producers. Under this goal research
focuses on:
        Product Quality/Value Added—New products, new uses, and value-added processes that appeal
        to consumers will create additional demand-driven need for agricultural production, thus providing
        more opportunities for agricultural producers and businesses. Biobased technologies promise new
        opportunities for energy, industrial, and pharmacological markets for U.S. farmers. New markets are
        emerging for environmental activities and products that mitigate environmental concerns.
        Livestock Production—Intense competition in global markets emphasizes the need for American
        agriculture to pursue and market higher value animal products. Research must respond to consumer
        demands for more healthful and safe products to ensure a sustainable and profitable livestock
        production system that produces affordable value-added food, fiber, and industrial products. These
        superior technologies must effectively differentiate U.S. agricultural products from competing
        sources, and provide customers with value-added processes that enhance product quality.
        Crop Production—ARS will develop and disseminate science-based information to provide U.S.
        crop producers with increased flexibility to effectively manage unforeseen risks that impact
        profitability and product quality. U.S. agricultural production and marketability is constantly
        influenced by factors such as unpredictable weather, disease and pest outbreaks, and changing
        consumer demands. Use of genetically diverse germplasm resource collections and best
        management practices require research that helps improve production efficiency and productivity
        through the development of pest resistant varieties and information to facilitate decision-making.

GOAL 2: Support Increased Economic Opportunities and Improved Quality of Life in Rural America.
While ARS research has a positive impact on rural America, most of its research programs are organized
around the other four programmatic strategic goals detailed here.
GOAL 3: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply. Under this goal
research focuses on:
        Food Safety—For the Nation to have affordable and safe food, the food system must be protected
        at each step from production to consumption. The production and distribution system for food in the
        United States has been a diverse, extensive, and easily accessible system. This open system is
        vulnerable to introduction of pathogens and toxins through natural processes, global commerce, and
        by intentional means. Thus, the food supply must be protected during production, processing, and
        preparation from pathogens, toxins, and chemical contamination that cause disease in humans.
        Livestock Protection—Economic sustainability of livestock production systems in both domestic
        and global markets is limited by the disease status of the animals. Many factors affect the likelihood
        of diseases in livestock. These include globalization and international commerce, presence of
        pathogen vectors, industrialization of agriculture, availability of vaccines and protection systems,
        movements of animals during production, continued emergence of new diseases, genetic resistance,
        and the availability of trained animal health specialists. Livestock production systems are in
        transition from open and extensive systems to more closely monitored intensive management
        systems which remain vulnerable to accidental and intentional exposure to pathogens. Many of these
        pathogens are zoonotic and impact public health.



USDA
  294       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    REQUIRED SUPPLEMENTARY INFORMATION




         Crop Protection—Economic sustainability of agricultural crop production in both domestic and
         global markets is limited by the disease status of crops. Many factors affect the likelihood of
         diseases to crops including, globalization and international commerce, presence of pathogen vectors,
         availability of protection systems, continued emergence of new diseases, genetic resistance of crops,
         and the availability of trained plant health specialists. Crop systems have limited diversity and will
         remain extensive and thereby more vulnerable to intentional exposure to pathogens.

GOAL 4: Improve the Nation’s Nutrition and Health. Under this goal research focuses on:
         Human Nutrition: Improving the Nation’s health requires enhancing the quality of the American
         diet. The United States is experiencing an obesity epidemic resulting from multifaceted causes
         including a “more is better” mindset, a sedentary lifestyle, and the selection of readily available high
         calorie foods. In addition, four of the top ten causes of death in the United States - cardiovascular
         disease, cancer, stroke, and diabetes - are associated with the quality of our diets - diets too high in
         calories, total fat, saturated fat, cholesterol, or too low in fiber. Americans want fresh foods that taste
         good, are convenient to prepare and consume, and yet, offer nutrition and health benefits. Building a
         strong connection between agriculture and human health is an important step to providing a
         nutritionally enhanced food supply. Promoting healthier food choices and educating Americans to
         balance caloric intake with sufficient daily physical activity are vital steps to preventing obesity and
         decreasing risk for chronic disease.

GOAL 5: Protect and Enhance the Nation’s Natural Resource Base and Environment. Under this goal
research focuses on:
         Environmental Stewardship—Agriculture relies on a natural resource base whose sustainability
         depends on sound, science-based production practices. The management of our renewable natural
         resources often seems to be a continuous balancing of conflicting and competing goals and concerns.
         While this is often the case, particularly in the short-term, longer-term management strategies
         combined with adequate knowledge of the complex natural systems can yield maximum sustainable
         benefits from our resources that can satisfy most competing concerns. The outcome will be
         technology and practices that will mitigate the adverse impact of agriculture on the environment,
         moderate the build up of greenhouse gasses that may contribute to climate change, and remove the
         necessity of farming environmentally sensitive marginal lands.

Management Initiative: Provide Agricultural Library and Information Services to USDA and the Nation
via the National Agricultural Library.
The National Agricultural Library (NAL), the world’s primary agricultural library, has two legislative
mandates, to serve the Nation as one of four national libraries of the United States, and to be USDA’s library.
NAL, whose vision statement is “advancing access to global information for agriculture,” serves its customers
by identifying, collecting, providing access to, and preserving agricultural information. NAL’s collections,
programs, and services support USDA agencies as well as multiple client audiences which include scientists,
researchers, practitioners, policy-makers, teachers, and students. The Library’s program is organized to
provide three kinds of services:




                                                                                                           USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                  295
                    REQUIRED SUPPLEMENTARY INFORMATION




         Access to Information—Reference and research services, many Web-based; specialized
         information centers in Animal Welfare, Food, Nutrition and Food Safety, Alternative Farming, Water
         Quality, Technology Transfer, and Rural Revitalization; management of NAL collections including
         Special Collections (responsible for rare and historical publications); document delivery services;
         desktop access for USDA staff to electronic information via the USDA Digital Desktop Library
         (DigiTop) initiative; leadership of the AgNIC (Agricultural Network Information Center) Alliance,
         an international partnership which provides collaboration access to agricultural information via the
         Web, and the www.invasivespecies.gov, www.nutrition.gov and www.science.gov Federal
         interagency Web portals.
         Information Management—Production of the AGRICOLA database; selection and acquisition of
         printed and electronic publications for the NAL collections and the USDA Digital Desktop Library
         (DigiTop) initiative; production of the NAL Thesaurus; and development and promulgation of
         standards for the creation, organization, and maintenance of computerized bibliographic data.
         Information Systems—Information technology support for the Library’s programs and services;
         preservation of digital publications; and digitization of printed materials.

Management Initiative: Facilities
         ARS’ Facilities program is designed to meet the needs of its scientists and support personnel to
         accomplish the agency’s mission.
         ARS has over 100 laboratories, primarily located throughout the United States. The agency is in the
         process of modernizing and upgrading selected laboratories, many of which are badly outdated and
         no longer meet ARS’ requirements.

Cooperative State Research, Education, and Extension Service Program
CSREES participates in a nationwide land-grant university system of agriculture related research and program
planning and coordination between State institutions and USDA. It assists in maintaining cooperation among
the State institutions, and between the State institutions and their Federal research partners. CSREES
administers grants and formula payments to State institutions to supplement State and local funding for
agriculture research.

Forest Service
FS Research and Development (R&D) provides reliable, science-based information that is incorporated into
natural resource decision making. Responsibilities include developing new technology and then adapting and
transferring this technology to facilitate more effective resource management. Some major research areas
include the following:
         Vegetation management and protection
         Wildlife, fish, watershed, and air
         Resource valuation and use research
         Forest Resources inventory and monitoring




USDA
   296        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    REQUIRED SUPPLEMENTARY INFORMATION




Research staff is involved in all areas of the FS, supporting agency goals by providing more efficient and
effective methods where applicable.

A representative summary of FY 2005 accomplishments include the following:
         63 new interagency agreements and contracts
         93 interagency agreements and contracts continued
         1,320 articles published in journals
         1,779 articles published in all other publications
         1 patents granted
         16 rights to inventions established

Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on
agriculture, food, natural resources, and rural America. Research results and economic indicators on these
important issues are fully disseminated through published and electronic reports and articles; special staff
analyses, briefings, presentations, and papers; databases; and individual contacts. ERS’ objective information
and analysis helps public and private decision makers attain the goals that promote agricultural
competitiveness, food safety and security, a well-nourished population, environmental quality, and a
sustainable rural economy.

National Agricultural Statistics Service
Statistical research and service is conducted to improve the statistical methods and related technologies used
in developing U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS
estimation program through development of better estimators at lower cost and with less respondent burden.
This means greater efficiency in sampling and data collection coupled with higher quality data upon which to
base the official estimates. In addition, new products for data users are being developed with the use of
technologies such as remote sensing and geographic information systems. Continued service to users will be
increasingly dependent upon methodological and technological efficiencies.




                                                                                                       USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              297
                                                                  REQUIRED SUPPLEMENTARY INFORMATION
11/9/2005 12:16 PM




REQUIRED SUPPLEMENTARY INFORMATION
STATEMENT OF BUDGETARY RESOURCES
        FY 2005                                                                 FSA                                CCC                     FAS           RMA            FNS           FSIS           AMS            APHIS
                                                                                  Non-Budgetary                      Non-Budgetary
                                                                                    Financing                          Financing
                                                                   Budgetary        Accounts        Budgetary          Accounts        Budgetary     Budgetary      Budgetary     Budgetary      Budgetary      Budgetary
            Budgetary Resources:
            Budget Authority:
            Appropriations Received                               $    1,736     $             -    $    15,444     $             -    $      316    $    2,314     $   47,398    $       827    $     6,267    $     1,179
            Borrowing Authority (Note 19 & 20)                             -               1,723         45,357                 688             -             -              -              -              -              -
          Contract Authority                                               -                   -              -                   -             -             -              -              -              -              -
            Net Transfers                                                 50                   -         (2,171)                  -            13            (1)         5,168              -         (5,139)           169
            Other                                                          -                   -              -                   -             -             -              -              -              -              -
            Unobligated Balances:                                          -                   -              -                   -             -             -              -              -              -              -
          Beginning of Period (Note 21)                                  246               1,868          1,197               2,643            37         2,060          7,768             54            517            366
            Net Transfers, Actual                                          -                   -           (665)                  -             -             -              -              -              -           (208)
               Anticipated Transfers Balances                              -                   -              -                   -             -             -              -              -              -              -
               Spending Authority From Offsetting Collections:             -                   -              -                   -             -             -              -              -              -              -
            Earned                                                         -                   -              -                   -             -             -              -              -              -              -
               Collected                                               1,016               1,535         17,267               1,769            97         1,236             80            110             59             81
               Receivable from Federal Sources                            13                   -           (158)               (113)          (24)            -              -              6             (2)            17
            Change in Unfilled Customer Orders                             -                   -              -                   -             -             -              -              -              -              -
            Advance Received                                               3                  (3)        (1,391)                  3             -             -              -              2              -              -
            Without Advance from Federal Sources                           -                   -              -                  (4)            -             -              -              -              -              -
          Anticipated for the Rest of Year, Without Advances               -                   -              -                   -             -             -              -              -              -              -
          Previously unavailable                                           -                   -              -                   -             -             -              -              -              -              -
          Transfers from Trust Funds                                       -                   -            899                   -             -             -              -              -              -              -
          Recoveries of Prior Year Obligations                            70                  70          2,837                   3           761             5            391            247             10            269
        Temporarily not Available Pursuant to Public Law                   -                   -              -                   -             -             -              -              -              -              -
        Permanently not Available                                       (655)             (1,368)       (33,582)               (735)           (3)           (2)        (2,511)           (17)          (164)            (8)
          Total Budgetary Resources                                    2,479               3,825         45,034               4,254         1,197         5,612         58,294          1,229          1,548          1,865

            Status of Budgetary Resources:
          Obligations Incurred (Note 18):
            Direct                                                     1,714               1,678         2,954                1,556           926         4,255         51,157          1,053         1,115           1,305
            Reimbursable                                                 419                   -        40,784                    -            97             -             28            104            56             245
            Unobligated Balance:                                           -                   -             -                    -             -             -              -              -             -               -
          Apportioned                                                    176               1,692           333                2,523            76         1,355            526             42            49             274
          Exempt from Apportionment                                        -                   -           872                    5             1             -              -              2           343              12
        Other Available                                                    -                   -             -                    -             -             -              -              -             -               -
        Unobligated Balance not Available                                166                 454            97                  170            98             2          6,582             28           (14)             29
          Total Status of Budgetary Resources                          2,475               3,824        45,040                4,254         1,198         5,612         58,293          1,229         1,549           1,865

          Relationship of Obligations to Outlays:
          Obligated Balance, Net, Beginning of Period (Note 21)          200                 436         5,596                 (229)           73           204          3,048            101            93             435
            Obligated Balance, Transferred, Net                            -                   -          (216)                   -             -             -              -              -             -               -
            Obligations Incurred                                       2,133               1,678        43,738                1,556         1,023         4,255         51,185          1,157         1,171           1,550
            Less:                                                          -                   -             -                    -             -             -              -              -             -               -
                 Recoveries of Prior Year Obligations                     70                  70         2,837                    3           761             5            391            247            10             269
                 Change from Federal Sources                              13                   -          (158)                (117)          (24)            -              -              6            (2)             17
                 Obligated Balance, Net, End of Period:                    -                   -             -                    -             -             -              -              -             -               -
                 Accounts Receivable                                     (21)                  -        (1,221)                (205)          (29)            -              -            (27)           (6)            (43)
               Unfilled Customer Orders from Federal Sources             (10)                (11)            -                    -             -             -              -              -             -               -
          Undelivered Orders                                             129                 183         1,661                   48            87            80            700             91            99             463
               Accounts Payable                                           68                 314         7,988                    1            19           188          3,240             18            26              60
               Total Obligated Balance, Net, End of Period               166                 486         8,428                 (156)           77           268          3,940             82           119             480

               Disbursements                                           2,079               1,564         38,011               1,591          281           4,186        49,902            923         1,137           1,218
               Collected and Advances Received                        (1,015)             (1,536)       (16,780)             (1,768)         (97)         (1,236)          (79)          (112)          (59)            (81)
               Outlays                                                 1,064                  28         21,231                (177)         184           2,950        49,823            811         1,078           1,137
               Less: Offsetting Receipts                                 322                   -              1                 722            -               -             -              3           122              15
               Net Outlays                                        $      742     $            28    $    21,230     $          (899)   $     184     $     2,950    $   49,823    $       808    $      956     $     1,122




 USDA
    298              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                               REQUIRED SUPPLEMENTARY INFORMATION
11/9/2005 12:16 PM


  FY2005                                                        GIPSA          FS            NRCS           ARS           CSREES           ERS             NASS                    RD                     DO                       TOTAL
                                                                                                                                                                                    Non-Budgetary                                     Non-Budgetary
                                                                                                                                                                                      Financing                                         Financing
                                                            Budgetary      Budgetary     Budgetary      Budgetary     Budgetary        Budgetary       Budgetary     Budgetary        Accounts        Budgetary     Budgetary           Accounts
      Budgetary Resources:
      Budget Authority:
      Appropriations Received                               $       37     $    5,812    $     1,354    $    1,314    $      1,195     $      75       $      130    $    2,997    $             -    $      545    $    88,940      $             -
      Borrowing Authority (Note 19 & 20)                             -              -              -             -               -             -                -             -              8,475             -         45,357               10,886
    Contract Authority                                               -              -              -             -               -             -                -             -                  -             -              -                    -
      Net Transfers                                                  -             50          1,813             6               5             -                -             1                  -             1            (35)                   -
      Other                                                          -              -              -             -               -             -                -             -                  -             -              -                    -
      Unobligated Balances:                                          -              -              -             -               -             -                -             -                  -             -              -                    -
    Beginning of Period (Note 21)                                    7          1,738            313           342             148             2                5         3,751              1,814           205         18,756                6,325
      Net Transfers, Actual                                          -              1              -             -               -             -                -             -                  -             -           (872)                   -
         Anticipated Transfers Balances                              -              -              -             -               -             -                -             -                  -             -              -                    -
         Spending Authority From Offsetting Collections:             -              -              -             -               -             -                -             -                  -             -              -                    -
      Earned                                                         -              -              -             -               -             -                -             -                  -             -              -                    -
         Collected                                                  36            448          1,637            67              30             1               23         4,737              5,272           535         27,460                8,576
         Receivable from Federal Sources                             1             13             45            (1)             (7)            -                2            19                  -            76              -                 (113)
      Change in Unfilled Customer Orders                             -              -              -             -               -             -                -             -                  -             -              -                    -
      Advance Received                                               -              3              -             -               -             -                -             -                  -             -         (1,383)                   -
      Without Advance from Federal Sources                           -             75              -             4              (7)            -               (3)            -                  6           (54)            15                    2
    Anticipated for the Rest of Year, Without Advances               -              -              -             -               -             -                -             -                  -             -              -                    -
    Previously unavailable                                           -              -              -             -               -             -                -             -                  -             -              -                    -
    Transfers from Trust Funds                                       -              -              -             -               -             -                -             -                  -             -            899                    -
    Recoveries of Prior Year Obligations                            11            169            464           265             350            28               22           273                486            71          6,243                  559
  Temporarily not Available Pursuant to Public Law                   -              -              -             -               -             -                -             -                  -             -              -                    -
  Permanently not Available                                         (1)           (67)            (9)          (14)            (16)           (2)              (1)       (2,812)            (2,808)           (7)       (39,871)              (4,911)
    Total Budgetary Resources                                       91          8,242          5,617         1,983           1,698           104              178         8,966             13,245         1,372        145,509               21,324

      Status of Budgetary Resources:
    Obligations Incurred (Note 18):
      Direct                                                        47          5,545          5,011         1,478           1,511           101              150        3,949              11,262           608         82,879               14,496
      Reimbursable                                                  37            264            139            94              58             2               22          520                   -           591         43,460                    -
      Unobligated Balance:                                           -              -              -             -               -             -                -            -                   -             -              -                    -
    Apportioned                                                      5          1,804            306           395             101             -                3          362               1,457           112          5,919                5,672
    Exempt from Apportionment                                        -              -              4            11              14             -                -            -                   -             3          1,262                    5
  Other Available                                                    -              -              -             -               -             -                -            -                   -             -              -                    -
  Unobligated Balance not Available                                  3            625            158             5              13             1                2        4,136                 527            58         11,989                1,151
    Total Status of Budgetary Resources                             92          8,238          5,618         1,983           1,697           104              177        8,967              13,246         1,372        145,509               21,324

    Relationship of Obligations to Outlays:
    Obligated Balance, Net, Beginning of Period (Note 21)            9          1,493          1,437           476           1,192            29               15        6,527              16,929            82         21,010               17,136
      Obligated Balance, Transferred, Net                            -              -            216             -               -             -                -            -                   -             -              -                    -
      Obligations Incurred                                          84          5,809          5,150         1,572           1,569           103              172        4,469              11,262         1,199        126,339               14,496
      Less:                                                          -              -              -             -               -             -                -            -                   -             -              -                    -
           Recoveries of Prior Year Obligations                     11            169            464           265             350            28               22          273                 486            71          6,243                  559
           Change from Federal Sources                               1             88             45             3             (14)            -               (1)          19                   6            22             15                 (111)
           Obligated Balance, Net, End of Period:                    -              -              -             -               -             -                -            -                   -             -              -                    -
           Accounts Receivable                                      (6)          (226)           (99)          (39)             (9)           (2)              (6)         (97)                  -          (147)        (1,978)                (205)
         Unfilled Customer Orders from Federal Sources               -           (192)            (1)          (38)            (57)            -               (3)           -                (624)         (127)          (428)                (635)
    Undelivered Orders                                               5          1,226          3,506           462           1,329            24               18        5,852              18,485           250         15,982               18,716
         Accounts Payable                                            8            752            160            58               5             5                7          268                  11           109         12,979                  326
         Total Obligated Balance, Net, End of Period                 7          1,560          3,566           443           1,268            27               16        6,023              17,872            85         26,555               18,202

         Disbursements                                               74         5,489          2,728         1,338           1,157               76           152         4,681              9,827         1,104        114,536               12,982
         Collected and Advances Received                            (36)         (451)        (1,637)          (67)            (30)              (1)          (23)       (4,737)            (5,272)         (535)       (26,976)              (8,576)
         Outlays                                                     38         5,038          1,091         1,271           1,127               75           129           (56)             4,555           569         87,560                4,406
         Less: Offsetting Receipts                                    -           426              -            15               3                -             -           538                  -             -          1,445                  722
         Net Outlays                                        $        38    $    4,612    $     1,091    $    1,256    $      1,124     $         75    $      129    $     (594)    $        4,555    $      569    $    86,115      $         3,684




                                                                                                                                                                                                                                          USDA
                                                                                                                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                        299
                                                                                 REQUIRED SUPPLEMENTARY INFORMATION
11/9/2005 12:16 PM


                             FY 2004                                         FSA                                       CCC                          FAS                RMA               FNS               FSIS                 AMS
                                                                                Non-Budgetary                             Non-Budgetary
                                                                                  Financing                                 Financing
                                                              Budgetary           Accounts              Budgetary           Accounts              Budgetary          Budgetary         Budgetary         Budgetary            Budgetary
    Budgetary Resources:
    Budget Authority:
    Appropriations Received                               $        1,514     $                 -    $        24,941     $             -       $           273    $        3,438    $       42,592    $          788       $         6,141
    Borrowing Authority (Note 19 & 20)                                 -                   2,184             29,004                   693                   -                 -                 -                 -                     -
  Contract Authority                                                   -                       -                  -                      -                  -                 -                 -                 -                     -
    Net Transfers                                                     (6)                      -             (1,781)                     -                 15                 -             4,715                (1)               (4,779)
    Other                                                              -                       -                  -                      -                  -                 -                 -                 -                     -
    Unobligated Balances:                                              -                       -                  -                      -                  -                 -                 -                 -                     -
  Beginning of Period (Note 21)                                      173                   2,315              1,340                 2,095                  61             1,857             8,077                65                   245
    Net Transfers, Actual                                              -                       -                 (2)                     -                  -                 -                 -                 -                     -
       Anticipated Transfers Balances                                  -                       -                  -                      -                  -                 -                 -                 -                     -
       Spending Authority From Offsetting Collections:                 -                       -                  -                      -                  -                 -                 -                 -                     -
    Earned                                                             -                       -                  -                      -                  -                 -                 -                 -                     -
       Collected                                                   1,169                   1,485             13,931                 1,090                  55               928                84               124                    48
       Receivable from Federal Sources                                (4)                      -               (669)                  150                  19                 -                 -                (2)                    -
    Change in Unfilled Customer Orders                                 -                       -                  -                      -                  -                 -                 -                 -                     -
    Advance Received                                                   -                       -                942                      -                  -                 -                 2                 -                     -
    Without Advance from Federal Sources                              (3)                     (1)                 -                      -                  -                 -                 -                 -                     -
  Anticipated for the Rest of Year, Without Advances                   -                       -                  -                      -                  -                 -                 -                 -                     -
  Previously unavailable                                               -                       -                  -                      -                  -                 -                 -                 -                     -
  Transfers from Trust Funds                                           -                       -                  -                      -                  -                 -                 -                 -                     -
  Recoveries of Prior Year Obligations                               112                      79              1,848                     12                357                10               468                93                    24
Temporarily not Available Pursuant to Public Law                       -                       -                  -                      -                  -                 -                 -                 -                     -
Permanently not Available                                           (728)                 (1,906)           (40,856)                 (123)                 (2)               (2)           (2,369)              (21)                   (2)
  Total Budgetary Resources                               $        2,227     $             4,156    $        28,698    $            3,917     $           778    $        6,231    $       53,569    $        1,046       $         1,677
    Status of Budgetary Resources:
  Obligations Incurred (Note 18):
    Direct                                                $        1,578     $            2,289     $        2,431      $           1,274     $           654    $        4,171    $       45,783    $          847       $        1,111
    Reimbursable                                                     406                      -             25,070                      -                  88                 -                19               145                   50
    Unobligated Balance:                                               -                      -                  -                      -                   -                 -                 -                 -                    -
  Apportioned                                                         66                  1,861                813                  2,627                  13             2,057               619                 -                   17
  Exempt from Apportionment                                            -                      -                  1                      6                   2                 -                 -                 1                  500
Other Available                                                        -                      -                  -                      -                   -                 -                 -                 -                    -
Unobligated Balance not Available                                    178                      7                382                     10                  23                 3             7,149                54                    -
  Total Status of Budgetary Resources                     $        2,228     $            4,157     $       28,697     $            3,917     $           780    $        6,231    $       53,570    $        1,047       $        1,678
  Relationship of Obligations to Outlays:
  Obligated Balance, Net, Beginning of Period (Note 21)   $          263     $              512     $        5,789      $             (30)    $           137    $          240    $        2,796    $             88     $           82
    Obligated Balance, Transferred, Net                                -                      -                  -                      -                   -                 -                 -                   -                  -
    Obligations Incurred                                           1,984                  2,289             27,501                  1,274                 742             4,171            45,801                 993              1,161
    Less:                                                              -                      -                  -                      -                   -                 -                 -                   -                  -
         Recoveries of Prior Year Obligations                        112                     79              1,848                     12                 357                10               468                  93                 24
         Change from Federal Sources                                  (7)                    (1)              (669)                   150                  19                 -                 -                  (2)                 -
         Obligated Balance, Net, End of Period:                        -                      -                  -                      -                   -                 -                 -                   -                  -
         Accounts Receivable                                          (6)                     -             (1,379)                  (316)                (52)                -                 -                 (22)                (8)
       Unfilled Customer Orders from Federal Sources                  (5)                   (16)                 -                      -                   -                 -                 -                   -                  -
  Undelivered Orders                                                 160                    101              1,885                     87                 115                75               532                  92                 79
       Accounts Payable                                               50                    351              5,090                      1                  11               129             2,517                  31                 22
       Total Obligated Balance, Net, End of Period        $          199     $              436     $        5,596     $             (228)    $            74    $          204    $        3,049    $            101     $           93
       Disbursements                                      $         1,942    $             2,286    $        26,515    $             1,311    $           429    $        4,197    $       45,081    $             888    $        1,126
       Collected and Advances Received                             (1,169)                (1,485)           (14,873)                (1,090)               (55)             (928)              (86)                (124)              (48)
       Outlays                                                        773                    801             11,642                    221                374             3,269            44,995                  764             1,078
       Less: Offsetting Receipts                                      994                      -                  -                    601                  -                 -                 -                    3               126
       Net Outlays                                        $          (221)   $               801    $        11,642    $              (380)   $           374    $        3,269    $       44,995    $             761    $          952




 USDA
    300               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                                            REQUIRED SUPPLEMENTARY INFORMATION
11/9/2005 12:16 PM


                             FY 2004                           APHIS             GIPSA                 FS                 NRCS               ARS             CSREES              ERS              NASS


                                                              Budgetary         Budgetary           Budgetary            Budgetary         Budgetary         Budgetary         Budgetary         Budgetary
    Budgetary Resources:
    Budget Authority:
    Appropriations Received                               $        1,056    $            36     $           5,923    $        1,182    $        1,171    $        1,095    $           71    $           129
    Borrowing Authority (Note 19 & 20)                                 -                  -                     -                 -                 -                 -                 -                  -
  Contract Authority                                                   -                  -                     -                 -                 -                 -                 -                  -
    Net Transfers                                                    210                  -                   (12)            1,616                 6                 6                 -                  -
    Other                                                              -                  -                     -                 -                 -                 -                 -                  -
    Unobligated Balances:                                              -                  -                     -                 -                 -                 -                 -                  -
  Beginning of Period (Note 21)                                      327                 10                 1,256               150               455               207                 3                  3
    Net Transfers, Actual                                           (194)                 -                     4                 -                 -                 -                 -                  -
       Anticipated Transfers Balances                                  -                  -                     -                 -                 -                 -                 -                  -
       Spending Authority From Offsetting Collections:                 -                  -                     -                 -                 -                 -                 -                  -
    Earned                                                             -                  -                     -                 -                 -                 -                 -                  -
       Collected                                                      99                 36                   428                77                57                42                 2                 19
       Receivable from Federal Sources                               (12)                 1                   (13)                2                13                 -                 1                 (1)
    Change in Unfilled Customer Orders                                 -                  -                     -                 -                 -                 -                 -                  -
    Advance Received                                                   -                  -                   (10)                1                 -                 -                 -                  -
    Without Advance from Federal Sources                               -                  -                    20                (5)                4                 4                (1)                 3
  Anticipated for the Rest of Year, Without Advances                   -                  -                     -                 -                 -                 -                 -                  -
  Previously unavailable                                               -                  -                     -                 -                 -                 -                 -                  -
  Transfers from Trust Funds                                           -                  -                     -                 -                 -                 -                 -                  -
  Recoveries of Prior Year Obligations                               318                  8                    97               533               244               730                10                 21
Temporarily not Available Pursuant to Public Law                       -                  -                    (1)                -                 -                 -                 -                  -
Permanently not Available                                             (6)                 -                   (54)               (7)              (10)              (18)               (1)                (1)
  Total Budgetary Resources                               $        1,798    $            91     $           7,638    $        3,549    $        1,940    $        2,066    $           85    $           173
    Status of Budgetary Resources:
  Obligations Incurred (Note 18):
    Direct                                                $        1,237    $            47     $           5,632    $        3,181    $        1,504    $        1,837    $           82    $           142
    Reimbursable                                                     195                 37                   269                54                93                81                 2                 25
    Unobligated Balance:                                               -                  -                     -                 -                 -                 -                 -                  -
  Apportioned                                                        317                  1                 1,263               251               308               116                 -                  4
  Exempt from Apportionment                                           24                  -                     -                 5                15                 2                 -                 (1)
Other Available                                                        -                  -                     -                 -                 -                 -                 -                  -
Unobligated Balance not Available                                     26                  6                   475                58                20                30                 2                  2
  Total Status of Budgetary Resources                     $        1,799    $            91     $           7,639    $        3,549    $        1,940    $        2,066    $           86    $           172
  Relationship of Obligations to Outlays:
  Obligated Balance, Net, Beginning of Period (Note 21)   $          410    $             3     $           1,597    $        1,192    $          414    $        1,134    $           23    $            10
    Obligated Balance, Transferred, Net                                -                  -                     -                 -                 -                 -                 -                  -
    Obligations Incurred                                           1,432                 84                 5,901             3,235             1,597             1,918                84                168
    Less:                                                              -                  -                     -                 -                 -                 -                 -                  -
         Recoveries of Prior Year Obligations                        318                  8                    97               533               244               730                10                 21
         Change from Federal Sources                                 (12)                 1                     7                (3)               17                 3                 -                  2
         Obligated Balance, Net, End of Period:                        -                  -                     -                 -                 -                 -                 -                  -
         Accounts Receivable                                         (25)                (5)                 (213)              (55)              (40)              (16)               (2)                (4)
       Unfilled Customer Orders from Federal Sources                   -                  -                  (120)               (1)              (34)              (65)                -                 (7)
  Undelivered Orders                                                 387                 11                 1,233             1,408               498             1,266                22                 18
       Accounts Payable                                               73                  3                   594                85                52                 6                 9                  8
       Total Obligated Balance, Net, End of Period        $          435    $             9     $           1,494    $        1,437    $          476    $        1,191    $           29    $            15
       Disbursements                                      $        1,100    $             69    $           5,901    $        2,460    $        1,274    $        1,127    $           68    $           140
       Collected and Advances Received                               (99)                (36)                (418)              (78)              (58)              (42)               (2)               (19)
       Outlays                                                     1,001                  33                5,483             2,382             1,216             1,085                66                121
       Less: Offsetting Receipts                                      16                   -                  384                 -                14                 2                 -                  1
       Net Outlays                                        $          985    $             33    $           5,099    $        2,382    $        1,202    $        1,083    $           66    $           120




                                                                                                                                                                                                                USDA
                                                                                                                                                       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT             301
                                                                                 REQUIRED SUPPLEMENTARY INFORMATION
11/9/2005 12:16 PM


                             FY 2004                                         RD                              DO                            TOTAL
                                                                                  Non-Budgetary                                                Non-Budgetary
                                                                                    Financing                                                    Financing
                                                              Budgetary             Accounts              Budgetary         Budgetary            Accounts
    Budgetary Resources:
    Budget Authority:
    Appropriations Received                               $         3,457    $                  -     $          508    $       94,315       $               -
    Borrowing Authority (Note 19 & 20)                                  2                   8,480                  -            29,006                  11,357
  Contract Authority                                                    -                       -                  -                 -                       -
    Net Transfers                                                       3                       -                  8                 -                       -
    Other                                                               -                       -                  -                 -                       -
    Unobligated Balances:                                               -                       -                  -                 -                       -
  Beginning of Period (Note 21)                                     2,298                   1,391                233            16,760                   5,801
    Net Transfers, Actual                                               -                       -                  -              (192)                      -
       Anticipated Transfers Balances                                   -                       -                  -                 -                       -
       Spending Authority From Offsetting Collections:                  -                       -                  -                 -                       -
    Earned                                                              -                       -                  -                 -                       -
       Collected                                                    5,852                   4,943                509            23,460                   7,518
       Receivable from Federal Sources                                (16)                     (4)                10              (671)                    146
    Change in Unfilled Customer Orders                                  -                       -                  -                 -                       -
    Advance Received                                                    -                     (96)                 -               935                     (96)
    Without Advance from Federal Sources                                -                       -                 77                99                      (1)
  Anticipated for the Rest of Year, Without Advances                    -                       -                  -                 -                       -
  Previously unavailable                                                -                       -                  -                 -                       -
  Transfers from Trust Funds                                            -                       -                  -                 -                       -
  Recoveries of Prior Year Obligations                                309                     543                 73             5,255                     634
Temporarily not Available Pursuant to Public Law                        -                       -                  -                (1)                      -
Permanently not Available                                          (2,981)                 (2,347)                (8)          (47,066)                 (4,376)
  Total Budgetary Resources                               $         8,924    $             12,910     $        1,410    $      121,900      $           20,983
    Status of Budgetary Resources:
  Obligations Incurred (Note 18):
    Direct                                                $        4,665     $             11,096     $          606    $       75,508       $          14,659
    Reimbursable                                                     509                        -                599            27,642                       -
    Unobligated Balance:                                               -                        -                  -                 -                       -
  Apportioned                                                        396                    1,434                156             6,397                   5,922
  Exempt from Apportionment                                            -                        -                  2               551                       6
Other Available                                                        -                        -                  -                 -                       -
Unobligated Balance not Available                                  3,355                      381                 48            11,811                     398
  Total Status of Budgetary Resources                     $        8,925     $             12,911     $        1,411    $      121,909      $           20,985

  Relationship of Obligations to Outlays:
  Obligated Balance, Net, Beginning of Period (Note 21)   $        6,916     $             14,389     $          100    $       21,194       $          14,871
    Obligated Balance, Transferred, Net                                -                        -                  -               0.00                    0.00
    Obligations Incurred                                           5,174                   11,096              1,205           103,151                  14,659
    Less:                                                              -                        -                  -                  -                       -
         Recoveries of Prior Year Obligations                        309                      543                 73             5,255                     634
         Change from Federal Sources                                 (16)                    (100)                87              (573)                     49
         Obligated Balance, Net, End of Period:                        -                        -                  -                  -                       -
         Accounts Receivable                                         (78)                       -                (71)           (1,976)                   (316)
       Unfilled Customer Orders from Federal Sources                   -                     (618)              (181)             (413)                   (634)
  Undelivered Orders                                               6,320                   17,547                253            14,354                  17,735
       Accounts Payable                                              285                        -                 81             9,046                     352
       Total Obligated Balance, Net, End of Period        $        6,527     $             16,929     $           82    $       21,011      $           17,137
       Disbursements                                      $         5,270    $               8,113    $        1,064    $        98,651     $           11,710
       Collected and Advances Received                             (5,852)                  (4,943)             (509)           (24,396)                (7,518)
       Outlays                                                       (582)                   3,170               555             74,255                  4,192
       Less: Offsetting Receipts                                      387                        -                 -              1,927                    601
       Net Outlays                                        $          (969)   $               3,170    $          555    $        72,328     $            3,591




 USDA
    302               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                     REQUIRED SUPPLEMENTARY INFORMATION




DEFERRED MAINTENANCE
                                                     Cost to Return to      Cost of Critical   Cost of Non-critical
         FY 2005
                                                   Acceptable Condition      Maintenance         Maintenance
 Asset Class
    Forest Service
       Bridges                                    $                 115     $            25    $                90
       Buildings                                                    439                 118                    321
       Dam                                                           26                   9                     17
       Developed Site (minor Constr. Features)                       89                   -                     89
       Fence                                                        437                 437                      -
       Handling Facility                                             24                  24                      -
       Heritage                                                      32                   8                     24
       Road                                                       4,571                 712                  3,859
       Trail Bridge                                                   9                   4                      5
       W astewater                                                   32                  19                     13
       W ater                                                        81                  46                     35
       W ildlife, Fish, TES                                           6                   4                      2
       Trails (FY 2001)                                              98                  33                     65
       General Forest Area (FY 2001)                                  4                   1                      3
 Total Forest Service                             $               5,963     $         1,440    $             4,523

                                                     Cost to Return to      Cost of Critical   Cost of Non-critical
         FY 2004
                                                   Acceptable Condition      Maintenance         Maintenance
 Asset Class
    Forest Service
       Bridges                                    $                 121     $            25    $                96
       Buildings                                                    436                 113                    323
       Dam                                                           29                  10                     19
       Developed Site (minor Constr. Features)                       91                   0                     91
       Fence                                                        440                 440                      0
       Handling Facility                                             24                  24                      0
       Heritage                                                      10                   5                      5
       Road                                                       5,159                 749                  4,410
       Trail Bridge                                                   8                   3                      5
       W astewater                                                   31                  19                     12
       W ater                                                        79                  49                     30
       W ildlife, Fish, TES                                           6                   4                      2
       Trails (FY 2001)                                              98                  33                     65
       General Forest Area (FY 2001)                                  4                   1                      3
 Total Forest Service                             $               6,536     $         1,475    $             5,061


Deferred maintenance is maintenance that was scheduled to be performed and delayed until a future period.
Deferred maintenance represents a cost that the government has elected not to fund and, therefore, the costs
are not reflected in the financial statements. Maintenance is defined to include preventative maintenance,
normal repairs, replacement of parts and structural components, and other activities needed to preserve the
asset so that it continues to provide acceptable service and achieve its expected life. It excludes activities
aimed at expanding the capacity of an asset or otherwise upgrading it to service needs different from, or
significantly greater than, those originally intended. Deferred maintenance is reported for general PP&E,
stewardship assets, and heritage assets. It is also reported separately for critical and non-critical amounts of
maintenance needed to return each class of asset to its acceptable operating condition.

The FS uses condition surveys to estimate deferred maintenance on all major classes of PP&E. There is no
deferred maintenance for fleet vehicles and computers that are managed through the Agency’s working capital
fund. Each fleet vehicle is maintained according to schedule. The cost of maintaining the remaining classes of
equipment is expensed.




                                                                                                            USDA
                               FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 303
                    REQUIRED SUPPLEMENTARY INFORMATION




Currently, no comprehensive national assessment of FS property exists. Deferred maintenance estimates for
all assets are based on condition surveys performed on a 5-year maximum revolving schedule, with the
exception of bridges which are a maximum of 2 years. Condition surveys were performed on a statistical
sample of closed and very low traffic volume roads.

The overall agency indirect cost for managing the program is 17.8 percent.

Condition of Assets
The overall condition of major asset classes range from poor to good depending on the location, age, and type
of property. The standards for acceptable operating condition for various classes of general PP&E,
stewardship, and heritage assets are as follows.
Roads and Bridges
Conditions of roads and bridges with the National Forest System Road system are measured by various
standards that include applicable regulations for the Highway Safety Act developed by the Federal Highway
Administration, best management practices for road construction and maintenance developed by the
Environmental Protection Agency and the states to implement the non-point source provisions of the Clean
Water Act, road management objectives developed through the forest planning process prescribed by the
National Forest Management Act, and the requirements of Forest Service Manuals and Handbooks.

Dams
The overall condition of dams is below acceptable. The condition of dams is acceptable when current design
standards are met and no deficiencies that threaten the safety of the structure or public are detected. Managed
according to Forest Service Manual 7500, Water Storage and Transmission, and Forest Service Handbook
7509.11, Dams Management as determined by condition surveys.

Buildings
Comply with the National Life Safety Code, the Forest Service Health and Safety Handbook, and the
Occupational Safety Health Administration as determined by condition surveys. These requirements are found
in FSM 7310, Buildings and Related Facilities, revised November 19, 2004. The condition of administrative
facilities ranges from poor to good. Approximately half of these buildings are obsolete or in poor condition,
needing major repairs or renovation. Approximately a quarter of these buildings are in fair condition, and the
remaining facilities are in good condition.

Recreation Facilities
This category includes developed recreation sites, general forest areas, campgrounds, trailheads, trails,
wastewater facilities, interpretive facilities, and visitor centers. All developed sites are managed in accordance
with Federal laws and regulations (CFR 36). Detailed management guidelines are contained in the Forest
Service Manual (FSM 2330, Publicly Managed Recreation Opportunities) and regional and forest level user
guides. Standards of quality for developed recreation sites were developed under the meaningful measures
system and established for the following categories: health and cleanliness, settings, safety and security,
responsiveness, and the condition of facility.




USDA
   304        FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                    REQUIRED SUPPLEMENTARY INFORMATION




Range Structures
The condition assessment (fences and stock handling facilities) is based on: 1) a determination by
knowledgeable range specialists or other district personnel that the structure performs as intended, and 2) a
determination through the use of a protocol system to assess conditions based on age. A long-range
methodology is used to gather this data.

Heritage Assets
These assets include archaeological sites that require determinations of National Register of Historic Places
status, National Historic Landmarks, and significant historic properties. Some heritage assets may have
historical significance, but their primary function within the agency is as visitation or recreation sites and,
therefore, may not fall under the management responsibility of the heritage program.

Trails
Trails are managed according to Federal law and regulations (CFR 36). More specific direction is contained in
the Forest Service Manual (FSM 2350, Trail, River, and Similar Recreation Opportunities) and the Forest
Service Trails Management Handbook (FSH 2309.18).

Wildlife, Fish and Threatened and Endangered Species Structures
Field biologists at the forest used their professional judgment to determine deferred maintenance. Deferred
maintenance was considered as upkeep that had not occurred on a regular basis. The amount was considered
critical if resource damage or species endangerment would likely occur if maintenance was deferred much
longer.




                                                                                                          USDA
                             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 305
                                REQUIRED SUPPLEMENTARY INFORMATION




INTRAGOVERNMENTAL AMOUNTS

Assets
           FY 2005                                              Fund Balance with                               Accounts
                                                                    Treasury            Investments            Receivable             Other
Trading Partner (Code)
     Unidentified (00)                                          $               -   $                  -   $                140   $           (4)
     Department of Interior (14)                                                -                      -                     46                -
     Department of Justice (15)                                                 -                      -                      2                -
     Department of Labor (16)                                                   -                      -                      4                -
     Department of the Navy (17)                                                -                      -                      1                -
     U.S. Postal Service (18)                                                   -                      -                      1               6
     Department of the Treasury (20)                                      42,327                      69                     7                 -
     Department of the Army (21)                                                -                      -                     13                -
     Office of Personnel Management (24)                                        -                      -                     2                 -
     General Services Administration (47)                                       -                      -                     30                -
     Environmental Protection Agency (68)                                       -                      -                     2                 -
     Department of Transportation (69)                                          -                      -                    195               (1)
     Department of Homeland Security (70)                                       -                      -                     96                -
     Agency for International Development (72)                                  -                      -                     24                -
     Department of Health and Human Services (75)                               -                      -                     1                 -
     National Aeronautics & Space Admin. (80)                                   -                      -                     1                 -
     Department of Energy (89)                                                  -                      -                     2                 -
     U.S. Army Corps of Engineers (96)                                          -                      -                     3                 -
     Office of the Secretary of Defense-Defense Agencies (97)                   -                      -                     8                 -
     Treasury General Fund (99)                                                -                       -                    134               -
Total Assets                                                    $         42,327    $                 69   $                712   $           1



           FY 2004                                              Fund Balance with                               Accounts
                                                                    Treasury            Investments            Receivable             Other
Trading Partner (Code)
     Unidentified (00)                                          $               -   $                  -   $                143   $           (5)
     Department of Interior (14)                                                -                      -                     29                -
     Department of Justice (15)                                                 -                      -                      1                -
     Department of Labor (16)                                                   -                      -                      -                -
     Department of the Navy (17)                                                -                      -                      1                -
     U.S. Postal Service (18)                                                   -                      -                      -               6
     Department of State (19)                                                   -                      -                      -                -
     Department of the Treasury (20)                                      39,488                      56                     10                -
     Department of the Army (21)                                                -                      -                     10                -
     Office of Personnel Management (24)                                        -                      -                     2                 -
     General Services Administration (47)                                       -                      -                     7                 -
     Federal Deposit Insurance Corporation (51)                                 -                      -                      -                -
     Department of Transportation (69)                                          -                      -                    298                -
     Department of Homeland Security (70)                                       -                      -                     9                 -
     Agency for International Development (72)                                  -                      -                     54                -
     Department of Health and Human Services (75)                               -                      -                      -                -
     Department of Energy (89)                                                  -                      -                      2                -
     U.S. Army Corps of Engineers (96)                                          -                      -                      1                -
     Office of the Secretary of Defense-Defense Agencies (97)                   -                      -                     12                -
     Treasury General Fund (99)                                                -                       -                     46               -
Total Assets                                                    $         39,488    $                 56   $                625   $           1

                                                                                                                                  .




USDA
    306              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                          REQUIRED SUPPLEMENTARY INFORMATION




Liabilities
           FY 2005                                                                               Resources
                                                                     Accounts                    Payable to
                                                                     Payable        Debt          Treasury        Other
Trading Partner (Code)
      Unidentified (00)                                          $          7   $        -   $            -   $      171
      Architect of the Capitol (01)                                         -            -                -           (5)
      Government Printing Office (04)                                       -            -                -           (4)
      Department of Commerce (13)                                           -            -                -            1
      Department of Interior (14)                                           -            -                -          128
      Department of Justice (15)                                            -            -                -           32
      Department of Labor (16)                                              -            -                -          199
      U.S. Postal Service (18)                                              -            -                -            2
      Department of State (19)                                              1            -                -           (4)
      Department of the Treasury (20)                                       -       83,515                -           19
      Department of the Army (21)                                           -            -                -            4
      Office of Personnel Management (24)                                   -            -                -           42
      Department of Veterans Affairs (36)                                   -            -                -           (1)
      General Services Administration (47)                                  -            -                -           31
      Department of Transportation (69)                                     -            -                -            1
      Department of Homeland Security (70)                                  -            -                -            1
      Agency for International Development (72)                           813            -                -            5
      Department of Health and Human Services (75)                          -            -                -           (2)
      National Aeronautics & Space Admin. (80)                              -            -                -            -
      U.S. Army Corps of Engineers (96)                                     -            -                -         (176)
      Treasury General Fund (99)                                            -            -           18,147            -
Total Assets                                                     $        821   $   83,515   $       18,147   $      444



           FY 2004                                                                               Resources
                                                                     Accounts                    Payable to
                                                                     Payable        Debt          Treasury        Other
Trading Partner (Code)
      Unidentified (00)                                          $          4   $        -   $            -   $      205
      Architect of the Capitol (01)                                         -            -                -           (5)
      Government Printing Office (04)                                       -            -                -            -
      Department of Commerce (13)                                           -            -                -            3
      Department of Interior (14)                                           -            -                -          129
      Department of Justice (15)                                            -            -                -           22
      Department of Labor (16)                                              -            -                -          166
      Department of the Navy (17)                                           -            -                -            -
      U.S. Postal Service (18)                                              -            -                -            1
      Department of State (19)                                              -            -                -           (4)
      Department of the Treasury (20)                                       1       69,053                -           20
      Department of the Army (21)                                           -            -                -            5
      Office of Personnel Management (24)                                   -            -                -           39
      General Services Administration (47)                                  -            -                -           21
      Tennessee Valley Authority (64)                                       -            -                -            1
      Environmental Protection Agency (68)                                  -            -                -            1
      Department of Transportation (69)                                     -            -                -            1
      Department of Homeland Security (70)                                  -            -                -            -
      Agency for International Development (72)                           804            -                -            1
      Department of Health and Human Services (75)                          -            -                -           30
      Department of Energy (89)                                             -            -                -            1
      U.S. Army Corps of Engineers (96)                                     -            -                -         (133)
      Office of the Secretary of Defense-Defense Agencies (97)              -            -                -            1
      Treasury General Fund (99)                                            -            -           17,469          887
Total Liabilities                                                $        809   $   69,053   $       17,469   $    1,392




                                                                                                              USDA
                                     FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                             307
                     REQUIRED SUPPLEMENTARY INFORMATION




Non-exchange Revenue
                                                                                 FY 2005                    F Y 2004
                                                                        T ransfers-   T ransfers-   Transfers-    Transfers-
                                                                             In           O ut          In           O ut
T rading P artner (C ode)
    U nidentified (00)                                                  $     473     $     (293)   $     395        $     (376)
    D epartm ent of C om m erce (13)                                            -            (80)           -               (80)
    D epartm ent of Interior (14)                                               1             (5)         131               (13)
    D epartm ent of Justice (15)                                                -              -            1                 -
    D epartm ent of Labor (16)                                                114             (3)         100                (1)
    D epartm ent of S tate (19)                                                 6              -            5                 -
    A ppalachian R egional C om m ission (46)                                  12              -           16                 -
    D epartm ent of T ransportation (69)                                        -              -           12                 -
    D epartm ent of H om eland S ecurity (70)                                   -           (208)          30              (194)
    A gency for International D evelopm ent (72)                               13         (1,159)           -              (696)
    A rm s C ontrol & D isarm am ent A gency (94)                               -              -            3                 -
    Independent A gencies (95)                                                  1              -            -                 -
    O ffice of the S ecretary of D efense-D efense A gencies (97)              40              -            -                 -
    T reasury G eneral F und (99)                                       $   6,051     $   (5,785)   $   5,930        $   (3,991)
                                                                        $   6,711     $   (7,533)   $   6,623        $   (5,351)
                                                                    .                                            .




USDA
  308          FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                     REQUIRED SUPPLEMENTARY INFORMATION




Segment Information
The Departmental Working Capital Fund and the FS Working Capital Fund are not separately reported in the
consolidated financial statements. The following information summarizes the working capital funds’ financial
condition and results of operations as of and for the fiscal years ending September 30, 2005, and 2004.
              FY 2005                             Departmental        Forest Service           Total
                                                 Working Capital      Working Capital      Working Capital
                                                     Fund                 Fund                 Funds
   Condensed Information
         Fund Balance                            $              56    $          128      $           184
         Accounts Receivable                                   106                 1                  107
         Property, Plant, and Equipment                         54               205                  259
         Other Assets                                            -                 -                    -
   Total Assets                                  $             216    $          334      $           550

   Liabilities and Net Position
          Accounts Payable                       $               2    $            -      $             2
          Deferred Revenues                                      -                 -                    -
          Other Liabilities                                    102                34                  136
          Unexpended Appropriations                             84                 9                   93
          Cumulative Results of Operations                      28               291                  319
   Total Liabilities and Net Position            $             216    $          334      $           550

                                                                                              Excess of
                                                     Cost of Goods         Related            Costs Over
                                                     and Services         Exchange            Exchange
                                                       Provided           Revenue              Revenue
   Product or Business Line
   Departmental Working Capital Fund:
         Finance and Management                  $             255    $          233      $                22
         Communications                                          7                 7                        -
         Information Technology                                193               185                        8
         Administration                                         40                40                        -
         Executive Secretariat                                   3                 4                       (1)
   Total Departmental Working Capital Fund                     498               469                       29

   Forest Service Working Capital Fund:
         Other                                                 238               178                       60
   Total Working Capital Funds                   $             736    $          647      $                89




                                                                                                      USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                          309
                     REQUIRED SUPPLEMENTARY INFORMATION




              FY 2004                             Departmental       Forest Service             Total
                                                 Working Capital     Working Capital        Working Capital
                                                     Fund                Fund                   Funds
   Condensed Information
         Fund Balance                            $             109   $          139         $           248
         Accounts Receivable                                    29                3                      32
         Property, Plant, and Equipment                         52              242                     294
         Other Assets                                            1                -                       1
   Total Assets                                  $             191   $          384         $           575

   Liabilities and Net Position
          Accounts Payable                       $               2   $            1         $             3
          Deferred Revenues                                      -                -                       -
          Other Liabilities                                     77               24                     101
          Unexpended Appropriations                             87                9                      96
          Cumulative Results of Operations                      25              350                     375
   Total Liabilities and Net Position            $             191   $          384         $           575

                                                                                                Excess of
                                                     Cost of Goods        Related               Costs Over
                                                     and Services        Exchange               Exchange
                                                       Provided          Revenue                 Revenue
   Product or Business Line
   Departmental Working Capital Fund:
         Finance and Management                  $             257   $          250         $                 7
         Communications                                         11               11                           -
         Information Technology                                 96               97                          (1)
         Administration                                         34               33                           1
         Executive Secretariat                                   3                3                           -
   Total Departmental Working Capital Fund                     401              394                           7

   Forest Service Working Capital Fund:
         Other                                                 263              238                          25
   Total Working Capital Funds                   $             664   $          632         $                32




Departmental Working Capital Fund
Services provided by the Departmental Working Capital Fund include the following:

         Administrative and Supply Services;
         Video, Teleconferencing, Graphic and Exhibit Services;
         Payroll, Accounting and Administrative Services and Thrift Savings Plan Support;
         ADP Services, Application Development, and Telecommunications Services; and
         Executive correspondence control and tracking.

Major customers of the fund are the FSA and the FS in FY 2005 and the FS and the Thrift Savings Investment
Board in FY 2004.




USDA
  310          FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                   REQUIRED SUPPLEMENTARY INFORMATION




Forest Service Working Capital Fund
Services provided by the FS Working Capital Fund include the following:
        Fleet services, rental, and maintenance;
        Aircraft services, operation, and maintenance;
        Supply services; and
        Computer services.

Major customers of the fund are FS units.




                                                                           USDA
                           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    311
          REQUIRED SUPPLEMENTARY INFORMATION




USDA
 312   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                     U.S. Department of Agriculture

                                          Office of Inspector General
                                           Financial & IT Operations




                Audit Report

 U.S. Department of Agriculture’s
Consolidated Financial Statements
  for Fiscal Years 2005 and 2004



 Pages 313 through 316 have intentionally been left blank.
OIG’s Report is included in the first section of this document.




                                              Report No. 50401-56-FM
                                                      November 2005
VI.   Appendices

APPENDIX A—MANAGEMENT CHALLENGES




                                                                   USDA
                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    317
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    318             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    319
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    320             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    321
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    322             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    323
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    324             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    325
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    326             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    327
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    328             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    329
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    330             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    331
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    332             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    333
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    334             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                              APPENDICES
11/9/2005 5:07 PM




                                                                    USDA
                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT    335
                                               APPENDICES
11/9/2005 5:07 PM




APPENDIX B—IMPROPER PAYMENT AND RECOVERY AUDITING
DETAILS
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management
and Budget’s (OMB) Circular A-11. Under the Improper Payments Information Act (IPIA), executive
agencies must identify any of its programs that may be susceptible to significant improper payments, estimate
the annual amount of improper payments and submit those estimates to Congress. Section 831 of the Defense
Authorization Act for FY 2002 requires recovery auditing. In this process, agencies that enter into contracts
with a total value of more than $500 million in a fiscal year must execute a cost-effective program for
identifying errors made in paying contractors and for recovering amounts erroneously paid to the contractors.
In FY 2005, Eliminating Improper Payments became a President’s Management Agenda (PMA) initiative.
Under this guidance, USDA has four programs required to report under Section 57 of A-11 and has identified
an additional seven programs at risk of significant improper payments through the risk assessment process.

USDA is taking steps to implement IPIA fully and achieve a “green” rating for the Eliminating Improper
Payments PMA initiative. During FY 2005 USDA achieve “yellow” status by completing the following items:
            Completed assessments of risk for all programs;
            Developed plans to measure improper payments for all high risk programs and received OMB
            approval;
            Developed corrective action plans to reduce improper payments and established both reduction and
            recovery targets for all high-risk programs; and
            Fully complied with reporting standards.

USDA will be able to move to “green” status when error rates are available for all programs and it can
demonstrate that reduction and recovery goals are being met. Due to budget and program constraints, this
upgrade can be complicated. For the programs that have not yet estimated an error rate, USDA is working
with OMB to develop interim methods to establish and track erroneous payment percentages.

Additionally, USDA is implementing recovery auditing fully. The Department completed a pilot recovery
auditing project at the Forest Service. Using an independent recovery audit contractor working on
contingency, USDA identified $333,000 worth of improper payments. The Department has recovered
$189,000 to date. These numbers represent a dramatic improvement in findings and collections from FY 2004.
Based on these results, USDA is expanding the use of independent recovery audit contractor working on
contingency to the entire Department. A second dramatic increase in findings and collections is expected in
FY 2006.

On August 23, 2005, OMB provided a reporting template for IPIA in OMB Circular A-136. The template
requires responses to specific issues. USDA’s response to these issues follows.

I.          Describe your agency’s risk assessments, performed subsequent to compiling your
            full program inventory. List the risk-susceptible programs identified through your
            risk assessments.




 USDA
     336            FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                 APPENDICES
11/9/2005 5:07 PM



OCFO issued detailed guidance for the risk assessment premise and processes including templates and
extensive reviews of drafts. Programs with larger outlays were required to perform more detailed assessments
than smaller programs. For USDA’s largest programs, the risk-assessment process required the following:
            The number of improper payments needed to meet the reporting standards;
            A description of the program including purpose, basic eligibility requirements and how fund were
            disbursed;
            Improper Payments were defined specifically for the program;
            Program vulnerabilities to improper payments;
            Internal controls designed to offset the program vulnerabilities;
            Testing of the internal controls;
            A listing of significant reviews and audits;
            A final determination of risk;
            Planned future enhancements (optional); and
            A description of how improper payments are recovered (optional)

The Office of Inspector General is in the process of reviewing the FY 2005 risk assessments and will make
recommendations to USDA agencies for additional improvements to be used in the FY 2006 risk assessment
process.

USDA has identified the following 11 programs as susceptible to improper payments.
      Selection Methodology                             Agency                                 Program
 Section 57 of OMB Circular A-11       Farm Service Agency (FSA), Commodity     Marketing Assistance Loan Program
                                       Credit Corporation (CCC)
                                       Food Nutrition Service (FNS)             Food Stamp Program
                                                                                School Lunch and Breakfast
                                                                                Woman, Infants and Children
 USDA Identified as Risk-Susceptible   Farm Service Agency (FSA)                Milk Income Loss Contract Program
                                                                                Loan Deficiency Payments
                                       Food Nutrition Service (FNS)             Child and Adult Care Food Program
                                       Forest Service (FS)                      Wildland Fire Suppression Management
                                       Rural Development (RD)                   Rental Assistance Program
                                       Risk Management Agency                   Federal Crop Insurance Corporation
                                                                                Program Fund
                                       Natural Resource Conservation Service    Farm Security and Rural Investment
                                       (NRCS)                                   Programs




                                                                                                               USDA
                                FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                     337
                                                  APPENDICES
11/9/2005 5:07 PM



II.         Describe the statistical sampling process conducted to estimate the improper
            payment rate for each program identified.
   Agency          Program                                           Sampling Process
  FSA/CCC       Marketing       The Marketing Assistance Loan (MAL) Program is composed of an application, review
                Assistance      and payment phase. The application phase (Phase I) is the most complex of the three
                Loan Program    phases. It requires the demonstration of the applicant eligibility, the commodity (crop)
                                eligibility and financial compliance with the terms of the program.
                                In Phase II, the application then is reviewed by the FSA representative (county field
                                office) and county committee to validate the application information. Phase III includes the
                                authorization of the application, which then initiates the loan payment to the applicant.
                                Statistical program sampling occurs today during Phase I, at the completion of Phase II
                                and at the completion of Phase III as follows:
                                • Phase I Statistical Sampling: During Phase I, the county field offices completed
                                  random spot checks on 2.5 percent of all loan value originating in the county office.
                                  The county requested additional background and supporting information to validate the
                                  application. Validation may include additional documentation, Geological Information
                                  System information on the farm acreage or viewing of the commodity and storage
                                  arrangements on the production site.
                                • Phase II Statistical Sampling: Random statistical sampling was conducted by an
                                  outside contractor on all commodity loans granted within a selected crop year. The
                                  statistical analysis included reviewing randomly-selected loans approved during Phase
                                  II from all the loans made in the same crop year. The number of sample files chosen
                                  satisfied the OMB requirements for statistically significant sampling process. The files
                                  then were reviewed against USDA/FSA requirements for loan approval to determine
                                  whether the loan was compliant or a potential erroneous payment.
                                • Phase III Sampling: The approved loan applications were reviewed for correct
                                  payment information as part of the contractor sampling process. The sampling
                                  included review of the loan dollar value, address and recipient name.
  FNS           Food Stamp      The FSP payment-error rate is developed from a long-standing program-integrity process
                Program (FSP)   called Quality Control (QC). QC reviews and measures the accuracy of household
                                certifications using a statistical-sampling process initially established in 1970. The system
                                is mandated by the Food Stamp Act and further defined in program regulations and
                                agency guidance. Specific procedures are established in three handbooks: Sampling
                                Methodology, State Review Procedures and Federal Validation Reviews. This well-
                                designed and controlled process yields quality data with a confidence level for accuracy
                                that complies with IPIA.
                                During the process:
                                • States select a statistical sample from all participating households. This occurs after
                                  the monthly issuance amount for households has been determined, and follows the
                                  Federally pre-approved sampling plan devised for that fiscal year;
                                • State personnel conduct QC reviews on the cases selected;
                                • States report the findings of all QC reviews to FNS;
                                • FNS conducts validation reviews of a statistical sample of the completed State
                                  reviews;
                                • The results of the Federal validation and State findings are used to calculate a final
                                  error rate for each State agency. These individual rates have been used previously to
                                  assess penalties against States with high rates and award incentives to those with low
                                  rates; and
                                • Official State error rates are weighted annually to determine a national average error
                                  rate for the Food Stamp Program.
  FNS           School Lunch    The School Lunch and Breakfast erroneous payments rate for School Year 2005-2006 is
                and Breakfast   anticipated to be reported in the FY 2007 Performance and Accountability Report. The
                                next section discusses estimating this rate and includes detailed, OMB-approved plans to
                                calculate the rate as well as component rates in the future.




 USDA
      338           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                    APPENDICES
11/9/2005 5:07 PM



  Agency           Program                                            Sampling Process
 FNS            Women, Infants    A measurement of the dollar amount of erroneous payments associated with certification
                and Children      error in WIC is scheduled to be reported in the FY 2008 Performance and Accountability
                (WIC)             Report. The vendor management study currently underway will provide a dollar amount
                                  estimate for erroneous payments involving vendor charges. The next section discusses
                                  estimating these rates and includes detailed, OMB-approved plans to calculate these
                                  rates in the future.
 FNS            Child and Adult   The measurement of the dollar amount of erroneous payments in CACFP is anticipated to
                Care Food         be reported in the FY 2010 Performance and Accountability Report. The next section
                Program           discusses estimating this rate and includes detailed, OMB-approved plans to calculate a
                (CACFP)           component rate in the future. Congress denied funding for this activity in FY 2006.
 FSA            Milk Income       MILC is composed of the application, market-rate evaluation and payment phases. The
                Loss Contract     application phase (Phase I) occurs where producer eligibility and evidence of production
                Program           is determined. The market rate evaluation phase (Phase II) occurs where the Boston
                (MILC)            Class I price for milk during any month falls below the $16.94 per hundredweight target.
                                  The payment phase (Phase III) occurs when the payment is calculated and payment
                                  limitation imposed.
                                  Four requirements were determined to be conclusive as to whether or not an improper
                                  payment was made. These four criteria can be grouped into one of the three phases as
                                  follows:
                                  • Phase I for consistent eligibility determination of "dairy operation" and quantity per
                                    operation based on evidence of production provided by the producer;
 FSA            Milk Income       • Phase II for MILC Rate Accuracy; and
                Loss Contract     • Phase III for MILC Payment Accuracy and to ensure that the maximum quantity
                Program             payment was not exceeded.
                (MILC) [cont’d]
 FSA            Loan              The Loan Deficiency Payment (LDP) Program is composed of an application, review and
                Deficiency        payment phase. The application phase (Phase I) is the most complex of the three phases
                Payments          and requires the demonstration of the applicant eligibility, the commodity (crop) eligibility,
                                  and financial compliance with the terms of the program.
                                  In Phase II, the application then was reviewed by the FSA representative (county field
                                  office) and the county committee to validate and approve the application information.
                                  In Phase III the producer determines the day the LDP request will be made. The decision
                                  initiates the LDP payment to the applicant. The producer has to provide evidence of
                                  production to support the quantity. The payment is calculated by multiplying the quantity
                                  by the difference between the loan rate and posted county price.
                                  Statistical program sampling occurs as follows:
                                  • Phase I Statistical Sampling: During Phase I, the county field offices complete an
                                    automated spot check process on 2.5 percent of all LDPs originating in the county
                                    office each month. The county requests additional background and supporting
                                    information to validate the application. Validation may include additional
                                    documentation, Geological Information System information on the farm acreage or
                                    viewing of the commodity and storage arrangements on the production site.
                                  • Phase II Statistical Sampling: Random statistical sampling was conducted by an
                                    outside contractor on all LDP payments made within a selected crop year. The
                                    statistical analysis included reviewing randomly-selected payments approved during
                                    Phase II from all the payments made in the same crop year. The number of sample
                                    files chosen satisfied the OMB requirements for statistically significant sampling
                                    process. The program files were reviewed against USDA/FSA requirements for LDP
                                    approval. This process was designed to determine if there is sufficient evidence of
                                    production and beneficial interest in the commodity. Such evidence would ensure that
                                    the request for the program payment either was compliant or a potential erroneous
                                    payment.
                                  • Phase III Sampling: The approved LDP payments also were reviewed for correct
                                    payment information as part of the contractor sampling process. The sampling
                                    included review of the LDP rate used to calculate the payment, dollar value calculated,
                                    the recipient name and address, and banking information if the payment was
                                    electronic.




                                                                                                                         USDA
                                  FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                              339
                                                      APPENDICES
11/9/2005 5:07 PM



   Agency          Program                                             Sampling Process
  FS            Wildland Fire      A service need is identified and requested through the requisition process. After the
                Suppression        services are performed and invoice received, the payment is completed.
                Management
                                   The FY 2005 statistical sample wild fire suppression payments was reviewed and
                                   evaluated against payment criteria. Documentation to support the review was gathered
                                   from the requisition through the payment process.
  RD            Rental             USDA provides rental assistance subsidies to more than a quarter-million households. To
                Assistance         qualify for assistance, a household must submit an application to a multifamily borrower
                Program            or his or her property management agent. The application process requires that the
                                   individual or family provide information on the amount and source(s) of income. A
                                   property agent will verify this information. This income determination is the primary
                                   determinant of a family's rent charge and, in turn, the amount of housing subsidy
                                   provided. The source of errors studied in the IPIA Report on Section 521 Rental
                                   Assistance was the borrowers’ analysis and computation of the housing subsidy amount.
                                   The Rural Housing Service conducted a sample audit from March through May 2005.
                                   Agency staff conducted the sample and input data to an on-line questionnaire. The
                                   questionnaire was monitored electronically for timely completion and automatic data
                                   calculation. Sample size was sufficient to achieve a 90-percent confidence level.
  RMA           Federal Crop       Under the terms of the Standard Reinsurance Agreement, the companies are provided a
                Insurance          random sample of indemnity payments to review at the completion of each crop year.
                Corporation        RMA selects the policies from the entire population of indemnities paid. The companies
                Program Fund       then are required to review the payments, correct errors according to procedure and
                                   report the results to RMA. For the current cycle, the companies reviewed 1,575 polices
                                   with $44,346,567 in indemnities. RMA will use this interim process for the 2004 and 2005
                                   reporting. Starting with the 2006 reporting cycle, RMA will begin using random policy
                                   selections from company operations reviews to develop a rolling program error rate. RMA
                                   will review all participating companies triennially. Accordingly, the first full review cycle will
                                   be completed for the FY 2008 Performance and Accountability Report.
  NRCS          Farm Security      The Farm Security and Rural Investment Programs were treated as eight different
                and Rural          programs following the apportionment schedule (FRPP, WRP, CSP, EQIP-Base, EQIP-
                Investment         GSWC, EQIP-Klamath, WHIP, and GRP). The statistical sample was identified separately
                Programs           based upon input from individual program managers. Improper payment criteria were
                                   identified. This identification incorporated statutory items common to all the programs and
                                   added causes unique to each specific program.
                                   Each national program manager was interviewed to determine potential areas of risk of
                                   Improper Payments. Statutory requirements and program rules were reviewed further for
                                   internal control measures to mitigate risks.
                                   Statistical samples were selected based upon a baseline estimate of rate of occurrence, a
                                   confidence level of 95 percent and precision range provided by the program managers.
                                   Payments then were reviewed for program, contract and statutory compliance.


III.         Describe the Corrective Action Plans for reducing the estimated rate of improper
             payments. Include in this discussion what is seen as the cause of errors and the
             corresponding steps necessary to prevent future occurrences. If efforts are already
             underway, and/or have been ongoing for some length of time, it is appropriate to
             include that information in this section.
   Agency             Program                                       Corrective Actions Planned
  FSA/CCC           Marketing      Causes of Improper Payments
                    Assistance     Loan Rate Validity Essential Requirement: The correct loan rate must be applied for
                    Loan program   loan payment calculations. The loan rate must be for the correct commodity, county and
                                   crop year. It also should agree with the loan rate information contained on form CCC-677.
                                   Otherwise, the payment is considered improper. The statistical sample results indicate a
                                   .60-percent error rate for this requirement.
                                   Evidence of Production: A producer can certify or provide acceptable production
                                   evidence of the commodities pledged as collateral for a MAL. Within the file, form CCC-
                                   666 (Farm Stored Loan Quantity Certification), CCC-677-1 or warehouse receipt must be
                                   completed to FSA minimum standards. The analysis team reviewed forms to verify the




 USDA
       340          FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      APPENDICES
11/9/2005 5:07 PM



  Agency              Program                                      Corrective Actions Planned
 FSA/CCC            Marketing      commodity, type and quantity disclosed on the form. The form also requires the
                                   producer’s signature and date of certification. Commodities must meet the minimum
 (cont’d)           Assistance
                                   United States Grain Standards to be eligible for a MAL. Production evidence must
                    Loan program
                                   coincide with the form FSA-578 values for production quantities. If not, the calculation of
                                   the loan amount would be incorrect and the payment would be considered improper. The
                                   statistical sample results indicate a .60-percent error rate for this requirement.
                                   Corrective Action Plans
                                   The agency will remind State and county offices through notices and policy handbooks of
                                   the necessary policy requirements for receiving loan benefits. The agency also is
                                   developing new software and databases that will automate several manual processes to
                                   validate producer eligibility requirements. The centralized databases will help to alleviate
                                   manual data entry errors. Applicant eligibility “flags” would be set and read in “real time” to
                                   verify when eligibility. The new eligibility process will read such information as AD-1026
                                   and crop acreage files.
                                   The new automated process also will include a centralized loan rates table. Loan rates
                                   and other types of program payment data will be obtained directly from the loan rates
                                   table instead of entering loan rates manually.
 FNS                Food Stamp     Causes of Improper Payments
                    Program
                                   An improper payment occurs when a participating household is certified for too many or
                                   too few benefits compared to the level for which they are eligible. This can result from
                                   incomplete or inaccurate reporting of income and/or assets by participants at the time of
                                   certification. It also can occur from changes subsequent to certification or errors in
                                   determining eligibility or benefits by caseworkers. Eligibility worker delays in action or
                                   inaction taken on client reported changes also are a cause of improper payments.
                                   An analysis of the FY 2004 completed statistical sample revealed that approximately 69
                                   percent of all variances occurred before or at the most recent
                                   certification/recertification. Additionally, 42 percent of the errors were client-caused. The
                                   majority of errors (50 percent) were income related and caused by the client misreporting
                                   or the agency misapplying the reported income. Misreporting or misapplying deductions
                                   was the second largest source of errors at 31 percent.
                                   Corrective Action Plans
                                   Program regulations require State agencies to analyze data. The agencies use this
                                   analysis to develop corrective action plans for reducing or eliminating program
                                   deficiencies. A State with a high error rate must develop a QC corrective action plan to
                                   address deficiencies revealed through an analysis of its own quality control data. A State
                                   with an excessive error rate will be required to invest a specified amount (depending on its
                                   error rate and size) designated specifically to correct and lower its error rate. The State
                                   also will face further fiscal penalties if it fails to lower its error rate in a future fiscal year.
                                   Specific strategies already exist which are designed to help States prevent erroneous
                                   payments. FSP builds upon and refines its activities in small increments absent a
                                   significant increase in funding for payment accuracy. Additionally, examples of activities
                                   determined to be both cost efficient and effective toward reducing payment errors are:
                                   • FNS, through its regional offices, informs States of the importance of payment
                                     accuracy and correct payments to its leadership. The agency also assists States in
                                     developing effective corrective action strategies to reduce payment errors. Regional
                                     offices provide many forms of technical assistance to States, such as:
                                     Data analysis;
                                       Reviewing and monitoring corrective action plans;
                                       Developing error-reduction and corrective action strategies;
                                       Participating on boards and in work groups; and
                                       Hosting, attending and supporting payment accuracy conferences.
                                   • FNS administers a State Exchange Program. The program provides funds to States to
                                     facilitate travel to obtain, observe and share information on best practices and effective
                                     techniques for error reduction. Coalitions have been formed among States to promote
                                     partnerships, information exchange and collaborative efforts. These efforts address
                                     mutual concerns and support the development of effective corrective action.




                                                                                                                               USDA
                                   FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                  341
                                                      APPENDICES
11/9/2005 5:07 PM



  Agency              Program                                      Corrective Actions Planned
 FNS                School Lunch    Causes of Improper Payments
                    and Breakfast   In the National School Lunch and School Breakfast Programs, erroneous payments
                                    potentially can occur when ineligible households misreport income at application, are
                                    approved for free or reduced-price meals and then receive them. Such payments also can
                                    occur when a school incorrectly certifies a student as eligible for meal benefits, or submits
                                    inaccurate claims for meals that were misclassified, not served or failed to meet program
                                    requirements.
                                    In recent years, there has been growing evidence of errors in certifying students for
                                    subsidized school meals. While certification errors alone do not result in a loss to the
                                    Government – loss occurs when ineligible students actually receive meals – these errors
                                    represent a significant risk for erroneous payments. In response, FNS has participated in
                                    several demonstration projects to understand the extent and nature of the problem better.
                                    FNS also is working with program partners to improve certification in the context of current
                                    regulations, and exploring alternatives to and/or improvements in the process.
                                    Corrective Action Plans
                                    FNS has collected data on eligibility determination and verification efforts at the school
                                    food authority (SFA) level. States are expected to identify and resolve problems with the
                                    certification and verification processes based on these data. A number of key data
                                    elements are reported to FNS. These elements include certification type (direct
                                    certification or application), verifications conducted and results of verification activity.
                                    These efforts will be used to explore regulatory, policy and training efforts to improve the
                                    accuracy and reliability of the eligibility-determination process. The first required reports
                                    from all SFAs for School Year 2004-05 were due to FNS in April 2005. Some States
                                    experienced significant difficulties in implementing the new reporting requirements. FNS is
                                    working with these States to assist them in completing their reports.
                                    FNS also has secured resources and entered into a contract to conduct a nationally
                                    representative study of the NSLP/SBP eligibility determination process and establish the
                                    first erroneous-payments rate. An erroneous payments rate for School Year 2005-2006 is
                                    anticipated to be available in FY 2007. Because of the scope and cost of this study, it is
                                    more prudent to repeat it on a multi-year cycle. With appropriate funding approval, FNS
                                    will repeat this type of study and produce an erroneous payment measurement every five
                                    years. FNS also will develop a methodology that uses data available from other sources.
                                    This methodology will measure erroneous payments on a component of the National
                                    School Lunch Program annually.
                                    In the interim (before the nationally representative erroneous payments rate is available in
                                    FY 2007), FNS is planning to monitor/assess two components of the program:
                                    Conducting annual on-site reviews focused on the certification and verification process.
                                    One important source of certification error that FNS has identified is SFA errors in
                                    certifying and verifying applications. In 2002, FNS conducted on-site reviews of the
                                    application verification process at 14 SFAs. It determined that 6 percent of the SFAs’
                                    verification determinations were incorrect due to administrative errors. Training and
                                    technical assistance are being developed to help SFAs improve the accuracy of these
                                    processes. Beginning in FY 2005, FNS will review a statistical sample of SFA application
                                    eligibility determinations annually. This review will be used to measure changes in
                                    administrative error rates, allowing FNS to assess the impact of its corrective action, and
                                    target and focus future activities. Beginning in 2007, it is anticipated that this component
                                    also will become part of the formula used to develop the annual payment error estimate.
                                    Comparing annual demographic data on the number of children eligible for school meals
                                    with the number of children actually certified. One of the sources of data originally used to
                                    assess the extent of certification error was a comparison of national survey data on
                                    household income with administrative data on NSLP certification. FNS plans to resume
                                    the use and publication of this analysis annually. Data from the Survey on Income and
                                    Program Participation (SIPP) will be compared with State-reported administrative data on
                                    the number of free and reduced price certifications. The U.S. Census Bureau administers
                                    SIPP. While this comparison has some methodological weaknesses and cannot substitute
                                    for the payment error estimate required under IPIA, the comparison does provide an




 USDA
    342             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                        APPENDICES
11/9/2005 5:07 PM



  Agency               Program                                        Corrective Actions Planned
 FNS                School Lunch      annual error indicator that will help gauge changes in the rate of certification error. It also
 (cont’d)           and Breakfast     will determine the effectiveness of administrative initiatives intended to improve
                                      certification accuracy. Results from analysis of 2001 and 2002 data will be reported in FY
                                      2005. Information based on 2003 data will be reported in FY 2006.

 FNS                Special           Causes of Improper Payments
                    Supplemental      Erroneous WIC payments potentially can occur at the participant level (ineligible persons
                    Program for       receive benefits) and/or the vendor level (WIC food instruments redeemed for foods not
                    Women,            received, provided at excess prices or for unauthorized items). FNS periodically has
                    Infants and       constructed estimates relating to these types of errors.
                    Children (WIC)
                                      Corrective Action Plans
                                      FNS plans to continue periodic examinations of certification and vendor error in WIC.
                                      • Certification Error: The next decennial national study to measure WIC certification
                                        error is scheduled for 2008. This study will include a first measurement of the amount
                                        of erroneous payments associated with certification error. Previous studies did not
                                        include any value determination of erroneous payments. Selected demographic,
                                        income and other characteristic data were and continue to be collected on a near
                                        census of WIC participants biannually. From this, data that correlate most strongly with
                                        error, along with other administrative data and data from the 1998 study, were used to
                                        develop aged estimates of the WIC certification error rate since 1998. When the data
                                        from the 1998 decennial study is applied to the demographics, it provides a trend in the
                                        error rate over a six-year period. This error rate remains constant at 2.6 percent. A
                                        similar method or an improved alternative (conditional upon funding for its
                                        development) will be used to develop estimates for the years following the 2008 study.

                                      • Vendor Error: The vendor management study currently underway will provide a
                                        national erroneous payments estimate of vendor charges. This information, for FY
                                        2005 activity, will be available in 2006. Subsequently, FNS will generate an annual
                                        update for the improper payment measurement of this vendor component using
                                        statistical techniques. FNS is exploring options for aging this estimate for the years
                                        following this study using existing administrative data. Although FNS has not
                                        determined a specific approach, the agency is continuing to explore other options.
                                        These options include focusing on information on high-risk vendors and information
                                        from States which might serve as “sentinel sites.” If an acceptable method for aging
                                        cannot be developed using existing data, FNS could develop a regulatory proposal
                                        requiring limited new data collection and reporting by the States on not more than 1
                                        percent of WIC vendors.
                                      Since the 1998 measurements were made, FNS has taken substantial actions aimed at
                                      improving program operations and reducing improper payments, including:
                                      • Changing program rules so that WIC applicants now are required to document income;
                                      • Publishing a final rule in December 2000 on food-delivery systems that strengthened
                                         retail vendor management by establishing mandatory vendor selection criteria, price
                                         limitations on the amounts paid to vendors, vendor-training requirements, criteria to be
                                         used to identify high-risk vendors and such vendor-monitoring requirements as
                                         compliance investigations; and supporting the development of WIC electronic benefits
                                         transfer (EBT) systems. EBT is an electronic system that allows a recipient to authorize
                                         the transfer of his WIC benefits from a State account to a retailer account to pay for
                                         supplemental foods received. Because these systems require a personal identification
                                         number entry prior to retail transactions and the validation of WIC-authorized foods by
                                         Universal Product Codes, participant and vendor error are minimized. An evaluation of
                                         several WIC EBT pilot projects thus far indicates that participant and vendor error
                                         related to the retail transaction process virtually are eliminated.

 FNS                Child and Adult   Causes of Improper Payments
                    Care Food         Payments and claim information in this program are transferred among FNS, State
                    Program           agencies, program sponsors and program sites. Each such transaction represents a risk
                    (CACFP)           for erroneous payments. Because requirements vary for each different type of program
                                      sponsor and site, a full and rigorous assessment of the rate of erroneous payments is
                                      extremely complex.




                                                                                                                              USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                              343
                                                        APPENDICES
11/9/2005 5:07 PM



  Agency               Program                                        Corrective Actions Planned
 FNS                Child and Adult   Corrective Action Plans
 (cont’d)           Care Food         As the problems in the CACFP were identified, FNS initiated actions to address them,
                    Program           including:
                    (CACFP)           • Working with Congress to enact legislation to improve oversight and accountability.
                                        Interim regulations implementing these laws have been published;
                                      • Developing new management improvement guidance for program cooperators;
                                      • Training all State agencies on implementing statutory and regulatory changes, and
                                        new management improvement guidance materials;
                                      • Revising monitoring tools to evaluate State agencies’ and institutions’ implementation
                                        of CACFP better and support State agency oversight efforts;
                                      • Developing additional discretionary changes designed to improve management and
                                        accountability; and
                                      In July 2002 and September, 2004, published an interim rule implementing such changes.
                                      FNS has initiated the Child Care Assessment Project to measure the effectiveness of
                                      efforts to improve the integrity of CACFP family day care homes. Over a four-year period,
                                      begun in the spring of 2004, FNS will conduct comprehensive on-site assessments of a
                                      sample of participating family day care home sponsors. These assessments are designed
                                      to analyze the effectiveness of FNS regulatory and policy initiatives on program
                                      performance. It also will offer additional insights on the control points in the claiming and
                                      reimbursement process that cause or contribute to improper payments most frequently.
                                      Additionally, this information will help support the effort to develop measurement
                                      strategies to estimate CACFP erroneous payments pursuant to IPIA.
 FSA                Milk Income       Causes of Improper Payments
                    Loss Contract     The statistical sample data specifically identified 2 erroneous payments out of 594
                    Program           contracts examined by the contractor. Both of these erroneous payments were caused by
                    (MILC)            errors in the MILC payment calculation. They also occurred in the same office. Other
                                      causes identified through separate reviews of the program included input errors in
                                      recording production and not confirming that the maximum payment amount had not been
                                      exceeded.
                                      Corrective Action Plans
                                      FY 2005 is the last year of the program. No payments will be made in FY 2006 unless
                                      there is legislation to extend the program and funding authorized by the Office of
                                      Management and Budget. No additional corrective actions or statistical samples currently
                                      are possible.

 FSA                Loan              Causes of Improper Payments
                    Deficiency        The statistical sample data specifically identified three potential areas that contribute to
                    Payments          erroneous payments. They are:
                    (LDP)
                                      1. Production Evidence (Quantity)
                                      A producer who receives an LDP must provide production evidence in accordance to the
                                      Commodity Credit Corporation (CCC) requirements. Production evidence includes:
                                      • Evidence of sales;
                                      • Warehouse receipts;
                                      • Load summary; and
                                      • Assembly sheets.
                                      Eligible commodities include:
                                      Barley, Small Chickpeas, Corn, Grain Sorghum, Honey, Lentils, Mohair, Oats, Dry Peas,
                                      Peanuts, Rice, Soybeans, Upland Cotton, Wheat, Wool and Other Oilseeds
                                      If the quantity reflected on form CCC 700 did not agree with the evidence of production
                                      presented, the quantity was considered inaccurate. Therefore, the payment was
                                      considered improper.




 USDA
    344              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                      APPENDICES
11/9/2005 5:07 PM



  Agency               Program                                      Corrective Actions Planned
 FSA                Loan            2. Loan Deficiency Payment Rate (Price)
 (cont’d)           Deficiency      The CCC determines the local county market price on either daily or weekly for
                    Payments        commodities eligible for Loan Deficiency Payment. This is referred to as the posted
                    (LDP)           county price.
                                    The LDP rate equals the amount by which the applicable loan rate where the commodity
                                    is stored exceeds the alternative loan repayment rate for the respective commodity.
                                    The loan rate must be for the correct commodity, county and crop year. The loan rate
                                    information contained on form CCC 700 should agree with the prevailing rate published at
                                    the time of payment on the USDA/FSA Price Support Web site. Otherwise, the payment is
                                    improper.
                                    3. Loan Deficiency Payment Amount (Price)
                                    The LDP amount equals the rate multiplied by the quantity of the commodity for which the
                                    payment is requested. If this was calculated incorrectly, then the payment was considered
                                    improper.
                                    Corrective Action Plans
                                    The agency will continue to remind State and county offices through notices and policy
                                    handbooks of the necessary requirements for receiving LDP benefits. The agency has
                                    developed a new electronic loan deficiency payment process. The process has eliminated
                                    manual processes and validates producer eligibility and commodity reasonableness online. A
                                    customer profile is created based on the applicant’s eligibility, which includes the necessary
                                    eligibility requirements for receiving LDP benefits. The electronic loan deficiency payment
                                    (eLDP) process calculates the LDP rate and the LDP amount based on the information entered
                                    by the producer. The LDP rates are selected from a centralized rate table.
                                    The agency will continue to promote such Web-based programs as eLDP fully. These types of
                                    processes reduced the number of errors caused by manually entered data. The eLDP process
                                    validates the data entered against a customer profile that reads “real time” eligibility files.
 FS                 Wildland Fire   Causes of Improper Payments
                    Suppression     There are three basic causes of improper payments listed below.
                    Management
                                    • Payment for services not authorized under contract.
                                    • Invoice had wrong rate for services and error was not identified during field office
                                      review.
                                    • Failure to take early-payment discount.
                                    Corrective Action Plans
                                    A memo will be issued to all field offices, emphasizing the importance of comparing
                                    invoice rates to contract rates to ensure invoice accuracy. The memo also will emphasize
                                    the importance of taking early-payment discounts when advantageous to do so. All fire
                                    incident payments were consolidated in four centers nationwide, effective May 15, 2005.
                                    Payment processing for invoices related to fire incidents will be consolidated in the
                                    Albuquerque Service Center (ASC) in the second quarter of FY 2006.

 RD                 Rental          Causes of Improper Payments
                    Assistance      The statistical sample showed that insufficient file documentation was the most common
                    Program         source of all errors (36 percent of instances assigning fault did so for this reason),
                                    followed by management agent error, “other” and mathematical or transcription errors.
                                    The lack of documentation did not permit the analyzer to determine the accuracy of the
                                    tenant certification. File documentation is a requirement of the Sections 515, 514 and 516
                                    loan and grant programs. Failure to obtain and maintain such documentation is the fault of
                                    the borrower and his management agent.
                                    Corrective Action Plans
                                    After reviewing the most recent survey and determining the error findings, the national
                                    office will compile a list of these errors. The office then will submit the list to States that
                                    reported having either insufficient documentation to support the income reported on the
                                    tenant certification or management agent error in calculating the tenant’s income. As part
                                    of the agency’s follow-up, the field staff will review the list of errors and provide a report as
                                    to corrections that may or may not have been taken to correctly identify the errors. This
                                    report will be due back to the national office by December 31, 2005, for tabulation.




                                                                                                                             USDA
                                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                               345
                                                     APPENDICES
11/9/2005 5:07 PM



  Agency              Program                                     Corrective Actions Planned
 RD                 Rental         The agency implemented a number of recommendations from the prior report. Its
 (cont’d)           Assistance     oversight of borrowers and management agents was improved through implementation of
                    Program        the 7 CFR 3560, the new Multi-Family Housing regulation. Borrowers and agents are
                                   responsible for ensuring tenant incomes are verified with sufficient supporting
                                   documentation. The new regulation took effect February 24, 2005. Specifically, the two
                                   recommendations that were implemented were:
                                   1. HB-2-3560, Multi-Family Housing Asset Management Handbook, Chapter 6, Section
                                        2: “Calculating Income and Initial Certification,” provides extensive guidance
                                        regarding the procedures that borrowers should follow to assure that proper
                                        verification and income calculations are done.
                                   2.   HB-2-3560, Multi-Family Housing Asset Management Handbook, Chapter 9, Section
                                        9.14 provides guidance to the State offices regarding the use of wage and benefit
                                        matching with State Departments of Labor or similar agencies.
                                   Because of the regulation’s newness, the agency has not yet seen results of this
                                   improved guidance.
                                   While the agency responded to the prior report’s findings by implementing a corrective
                                   action plan, the timing of those actions and the FY 2005 survey overlapped to some
                                   degree. Thus, the results of the corrective actions are not reflected in this report and may
                                   have impacted the error rate positively.
                                   The agency trained field staff as partial implementation of the prior report’s training
                                   recommendation. It revised the survey instrument from the initial study to capture more
                                   responsive information. Quality assurance issues appeared to be less of a problem with
                                   this re-designed instrument. Consequently, the data reported in the FY 2005 report may
                                   be more reliable.
                                   Recommendations for the FY 2005 report will include the following:
                                   1.   State offices must train field staff, borrowers and property managers in appropriate
                                        and required documentation. They also must follow-up with tenants and income-
                                        verifiers.
                                   2.   The national office will continue to pursue access to the HSS New Hires data to be
                                        shared with State Offices. This legislation currently is being prepared for OMB
                                        review.
                                   3.   Recognizing that the New Hires data access process may take some time, State
                                        offices must participate with available wage matching programs and make such data
                                        available to borrowers if permitted. Office staff must ensure that this shared data is
                                        used by borrowers and property managers. The new regulation, 7 CFR 3560,
                                        requires State offices to report quarterly on their efforts to participate in wage
                                        matching, where available.
                                   4.   The national office must complete its evaluation and restructuring of the supervisory
                                        visit procedure. These moves strengthen and provide more focus when reviewing
                                        tenant files.
                                   5.   The national office should employ an independent contractor to undertake this study
                                        in the future. An independent contractor will provide objective and impartial analysis.
                                   6.   The national office will add to the Multi-Family Housing Program’s Servicing Goals.
                                        This move is a requirement for the State offices to be more aggressive in educating
                                        and training borrowers/management agents on calculating and documenting tenant’s
                                        incomes.

 RMA                Federal Crop   Causes of Improper Payments
                    Insurance      While the majority of improper payments are caused by simple error, some are related to
                    Corporation    program abuse and fraud.
                    Program Fund
                                   RMA renegotiated the 2005 Standard Reinsurance Agreement (SRA) to include an entirely
                                   new process. This process requires companies to review policies identified as anomalous by
                                   data mining in accordance with the Agricultural Risk Protection Act of 2000. The 2003
                                   random sample conducted by the insurance companies required by the old SRA produced
                                   an error rate result smaller than anticipated, and therefore questioned. RMA will calculate
                                   the error rate in the FY 2006 reporting cycle. Performing the sample with RMA staff will
                                   provide more detailed information on the causes and magnitude of improper payments.




 USDA
    346             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                     APPENDICES
11/9/2005 5:07 PM



  Agency              Program                                     Corrective Actions Planned
 RMA                Federal Crop    Corrective Action Plans
 (cont’d)           Insurance       For 2005, RMA negotiated and entered into a new SRA with the companies who deliver
                    Corporation     crop insurance on behalf of the Federal Crop Insurance Corporation. The new SRA
                    Program Fund    contains a range of new controls and requirements to improve program integrity and
                                    reduce program errors. The majority of the changes are found in Appendix III and
                                    Appendix IV to the SRA. Appendix III provides the submission requirements to the
                                    companies for the policies they write to be reinsured by FCIC. Appendix IV provides
                                    requirements and the authority for FCIC to have the companies review policies under a
                                    quality-control environment driven largely by data mining and the identification of
                                    anomalous financial behavior.
 NRCS               Farm Security   Causes of Improper Payments
                    and Rural       A total of 1,193 payments were sampled statistically. Thirty-nine were determined to be
                    Investment      improper. These improper payments resulted from:
                    Programs
                                    • Incomplete documentation, causing 20 improper payments;
                                    • Payment share miscalculations, causing 9 of the errors; and
                                    • Procedural errors accounting for the rest.
                                    Corrective Action Plans
                                    NRCS has developed a software feeder system as a tool to automate the contracting and
                                    payment process for many of the FSRIA 2002 programs. This tool incorporates
                                    automated edits that prevent many of the improper payment errors identified in the
                                    statistical sample.
                                    Beginning October 1, 2004, all contracts and payment processing for the Environmental
                                    Quality Incentives Program (Base, Klamath, and GSWC) were transferred from the Farm
                                    Service Agency (FSA) to NRCS. Of the improper payments found in the sample, 26
                                    payments (65 percent) would not have occurred if they were processed through our
                                    feeder system.
                                    Currently, NRCS is in the final stages of updating the Conservation Program Contracting
                                    Manual for programs using ProTracts. The procedures outlined in the manual include
                                    information specifically addressing IPIA and the need for preventing improper payments.
                                    The Financial Management Division’s (FMD) efforts to educate NRCS staff of the IPIA
                                    initiative will continue. Additionally, FMD is developing plans focused on improving the
                                    timing of field sampling and the amount of time given to return sample requests. These
                                    moves are designed to minimize the impact on NRCS field personnel.
                                    This was the first year IPIA sampling was performed by NRCS field offices. NRCS’ FMD
                                    has engaged senior agency and program managers in every step of the process. It is
                                    committed to continuing its efforts to educate NRCS employees of the entire improper
                                    payment issues. This education and communication initiative already has resulted in an
                                    increased sensitivity to the issues and ramifications of improper payments throughout the
                                    agency.



IV.         Based on the rate(s) obtained in Step III, set annual improvement targets through FY
            2007.
                                Improper Payment Reduction Outlook FY 2004 – FY 2007
Below is a summary-level table for all high-risk programs outlining improper payment rates for the last two
years and future reduction targets. When a number cannot be provided, an explanation is provided in the notes
below. Amounts represent when the sampling results are reported. USDA programs report results the year
following sampling activity. For example, results reported during FY 2005 represent measures of FY 2004
outlays and program activity. This change from FY 2004 reporting was implemented to comply with OMB
Circular A-136 revised August 23, 2005.




                                                                                                                      USDA
                                    FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                        347
                                                         APPENDICES
11/9/2005 5:07 PM



                                 Improper Payment Sampling Results ($ in millions)
                                                              FY 2003 Results                                      FY 2004 Results
                                                           Reported in FY 2004                                   Reported in FY 2005
                         Program                         Outlays    IP%        IP$                            Outlays    IP%       IP$
 Marketing Assistance Loan Program, FSA/CCC               8,768       B         B                              6,400    0.70%       45
 Food Stamp Program, FNS                                 21,371    6.64%      1,400                           24,358    5.88%     1,432
 School Lunch and Breakfast, FNS                          8,390       C         C                              8,187      C         C
 Women, Infants and Children, FNS                         4,764       C         C                              4,812      C         C
 Child and Adult Care Food Program, FNS                   1,989       C         C                              2,061      C         C
 Milk Income Loss Contract Program, FSA                   1,859       B         B                               245     0.09%      0.2
 Loan Deficiency Payments, FSA                             650        B         B                               453     1.00%        5
 Wildland Fire Suppression Management, FS                  625        B         B                              1,980    3.70%       73
 Rental Assistance Program, RD                            710.3    2.59%        20                              846     3.19%       27
 Federal Crop Insurance Corporation Program Fund, RMA     2,500     5.0%       125                             3,170    0.89%       28
 (Note A)
 Farm Security and Rural Investment Programs, NRCS          50        B         B                               1,027      1.55%          16


The following table is a detailed breakout of the FY 2004 error rates (reported in FY 2005) by type of
improper payment.
                    Detailed Breakout of FY 2004 Improper Payment Rates reported in FY 2005 ($ in millions)
                                                                                                                                     Farm
                        Marketing                          Milk                             Wildland                                Security
                        Assistance                       Income             Loan              Fire                Rental           and Rural
                           Loan           Food             Loss           Deficiency       Suppressio           Assistance        Investment
    Program              Program         Stamps          Contract         Payments             n                 Program           Programs
 Total                    $      %        $        %      $        %       $     %           $          %        $        %         $          %
 Payments               6,400          24,358            245              453              1,980                846               1,027
 Total Improper                 0.70              5.88         0.09             1.00                   3.70              3.19              1.55
 Payments
 Overpayments                   0.70              4.48         0.09             1.00                   2.79              2.07              1.44
 Underpayments                  0.00              1.41         0.00             0.00                   0.91              1.12              0.10
 Other                          0.00              0.00         0.00             0.00                   0.00              0.00              0.01



                                       Improper Payment Reduction Outlook ($ in millions)
                                              FY 2006 Reporting        FY 2007 Reporting                               FY 2008 Reporting
                                                FY 2005 Targets         FY 2006 Targets                                  FY 2007 Targets
             Program                        Outlays    IP%      IP$ Outlays      IP%      IP$                         Outlays    IP%     IP$
 Marketing Assistance Loan
 Program, FSA/CCC                               10,132   0.69%           70     10,041       0.65%            65        9,743     0.60%        58
 Food Stamp Program, FNS                        29,721   6.50%         1,932    33,079       6.20%          2,051             D       E
 School Lunch and Breakfast, FNS                 9,073         C                 7,253             C                          D       C
 Women, Infants and Children, FNS                5,070         C                 5,394             C                          D       C
 Child and Adult Care Food
 Program, FNS                                    2,065         C                 2,161             C                          D       C
 Milk Income Loss Contract
 Program, FSA                                      20          F          F            0           F           F              0       F            F
 Loan Deficiency Payments, FSA                   5,124   0.95%           49      4,444       0.90%            40        3,567     0.80%        29
 Wildland Fire Suppression
 Management, FS                                  1,782   3.00%           53      1,508       2.90%            44          700     2.80%        20
 Rental Assistance Program, RD                    838    2.99%           25       855        2.79%            24          836     2.59%        22




 USDA
    348             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                               APPENDICES
11/9/2005 5:07 PM



                                           Improper Payment Reduction Outlook ($ in millions)
                                                  FY 2006 Reporting        FY 2007 Reporting                                 FY 2008 Reporting
                                                    FY 2005 Targets         FY 2006 Targets                                    FY 2007 Targets
              Program                           Outlays    IP%      IP$ Outlays      IP%      IP$                           Outlays    IP%     IP$
 Federal Crop Insurance
 Corporation Program Fund, RMA
 (Note A)                                            2,883      4.90%          141        3,358      4.80%          161         3,321      4.70%      156
 Farm Security and Rural
 Investment Programs, NRCS                            1375      1.00%           14         1452      0.80%           12         1558       0.60%             9

NOTE A:     The amount reported for FY 2004 PAR for Federal Crop Insurance Corporation Program Fund was based on an internal RMA
            estimation methodology and is not comparable to other numbers. The amount reported in FY 2005 is based on an industry
            compliance program conducted the insurance companies. While this methodology has been criticized by both RMA and the Office
            of the Inspector General, it is comparable to other years. The comparable FY 2004 improper payment rate was 0.52 percent. RMA
            is developing a new compliance testing program that will begin reporting next fiscal year. RMA’s target rates are based on the
            expected results of this new compliance program.
NOTE B:     FY 2004 was the first year of implementing the Improper Payments Information Act. Marketing Assistance Loan, Wildland Fire Suppression
            Management and Farm Security and Rural Investment Programs did not complete a statistical sample in FY 2004. Milk Income Loss Contract
            Program and Loan Deficiency Payments first were determined to be high risk in FY 2005. The FY 2005 statistical sample created the baseline
            error rate for all of these programs.
NOTE C:     Due to the program complexity and cost of sampling, a comprehensive error rate has not been developed for School Lunch and Breakfast, WIC
            and CACFP. OMB has approved plans for these programs to develop an error rate to be used in the future.
NOTE D:     While OMB’s reporting template requires the reporting of three years of estimated outlays from the most recent President’s Budget, that budget
            only reports two years of estimated outlays. Internal USDA estimates have been provided where available. FY 2007 estimated outlays will be
            updated when the FY 2007 President’s Budget is issued.
NOTE E:     Food Stamp targets are developed during the budget process. The FY 2007 President’s Budget has not been issued.
NOTE F:     The Milk Income Loss Contract Program is scheduled to end with FY 2005. FY 2004 was the last year with significant disbursements for this
            program. Because the program is ending, no additional statistical samples will be completed and there is no need for future targets.


V.          Discussion of your Agency’s Recovery Auditing effort, if applicable, including any
            contract types excluded from review and the justification for doing so; actions taken
            to recoup improper payments, and the business changes and internal controls
            instituted and/or strengthened to prevent further occurrences. In addition, complete
            the table below.
USDA conducted a recovery audit pilot program as the Forest Service using an independent recovery audit
firm. USDA exempted all contracts except those in the Forest Service because the agency-developed recovery
audit programs in FY 2004 were not cost effective. Additionally, the effectiveness of independent firms had
yet to be proven.

Using the independent recovery audit firm, USDA has been able to increase its findings and collections
dramatically in FY 2005 while reducing the cost of administering the program. This trend is expected to
continue in FY 2006. Due to the success of the Forest Service pilot, USDA will expand the use of independent
recovery audit firms to the entire Department in FY 2006.

Specific types of payment errors found during the course of the recovery audit process include:
            Duplicate payments;
            Unposted credit memos resulting from returned merchandise to vendors;
            Overpayment of various contractual charges, such as incorrect per diem rates;
            Improper rates charged for meals provided during fire suppression; and
            General and administrative expense recovery not provided by contract.




                                                                                                                                                 USDA
                                       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                349
                                                    APPENDICES
11/9/2005 5:07 PM



Additional overpayment errors included the payment of both sales tax on tangible personal property purchased
and a previously voided invoice. All recovery audit information and the underlying transactions will be
communicated to all Forest Service employees to reduce future errors.
                                      FY 2005 Recovery Auditing Results ($ in Million)
                     Amount Subject         Actual                          Amount
                      to Review for        Amount         Amounts         Identified /     FY 2004     FY 2003
     Agency              FY 2004        Reviewed and    Identified for  Actual Amount      Amounts     Amounts
  Component             Reporting         Reported        Recovery         Reviewed       Recovered   Recovered
 Forest
 Service                 2,428              2,428           0.333         0.0137%           0.189          0
 All Others              2,538                0               0              N/A              0            0
 USDA Total              4,965              2,428           0.333         0.0137%           0.189          0


VI.         Describe the steps the agency has taken and plans to take (including time line) to
            ensure that agency managers (including the agency head) are held accountable for
            reducing and recovering improper payments.
Food and Nutrition Service (FNS)
FNS already has a corporate priority to improve stewardship of Federal funds. Within this priority are specific
goals applicable to programs at high risk for erroneous payments. Each program’s goals and priorities are
incorporated into each manager’s performance plan.
            The goal for the Food Stamp Program is to continue reducing the error rate.
            The goal for NSLP is to improve the accuracy of NSLP certifications;
            The goals for WIC are to maintain certification accuracy and continue to improve vendor
            management; and
            The goal for CACFP is to continue management improvements.

Forest Service (FS)
To ensure that FS management holds itself accountable for reducing and recovering improper payments, the
agency has taken several steps:
            Hold accountable the entire Albuquerque Service Center (ASC) management team for compliance
            with IPIA through performance metrics in their performance elements;
            Issue specific policy guidance throughout the agency, emphasizing corrective actions to mitigate the
            causes of improper payments;
            Consolidate payment processing at ASC for more consistency; and
            Reduce future improper payments by communicating all information related to improper payment
            recoveries and the underlying transactions to all FS employees.

Farm Service Agency (FSA)
FSA has included performance based rating measures in each employee’s performance standards and
appraisals. Managers are held accountable for program administration.




 USDA
      350           FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                              APPENDICES
11/9/2005 5:07 PM




Natural Resource and Conservation Service (NRCS)
NRCS is updating performance plans that would tie back to the strategic goals of the agency. This includes
measuring performance against results for all applicable elements of the President’s Management Agenda.
The Financial Management Division of NRCS will continue to emphasize the education of NRCS staff on the
importance of internal controls and eliminating improper payments.

Rural Development (RD)
Within the Multi-Family Program, the national office establishes and ensures implementation of policy,
including the achievement of certain loan servicing goals. The State offices oversee area offices, whose
responsibility it is to monitor the performance of the multi-family portfolio. Area office staff makes property
inspections, performs supervisory site visits, approves the amount of subsidy (RA) request and generally
oversees all activity at the properties. The servicing goals have been modified to include as a State office goal
a reduction in the error rate by property managers in the calculation and documentation support of RA.
Servicing goal achievement is monitored quarterly and reported back to the States, the Rural Housing Service
administrator and the Undersecretary for Rural Development. State directors report directly to the
Undersecretary.

Risk Management Agency (RMA)
RMA has revised its strategic plan to provide results intended to enhance accountability. These results also
ensure that procedures are in place to ensure future corrective actions are taken to address program
vulnerabilities. Additionally, a strategic objective element has been placed into every employee’s performance
plan agreement for FY 2005.

VII.A.      Describe whether the agency has the information systems and other infrastructure it
            needs to reduce improper payments to the levels the agency has targeted.
USDA has identified 11 high-risk programs in 6 USDA agencies. The issues of information systems and other
infrastructure are determined at the agency level. USDA is working to complete or revise the statistical
analysis of four high-risk programs. More system and infrastructure needs may be developed as more
programs complete the statistical analysis. Currently, three agencies have identified information and
infrastructure improvements needed to reduce improper payments.

Farm Service Agency (FSA)
Currently, the agency is reviewing business processes and automated systems associated with programs and
program delivery. This project, entitled “MIDAS,” is scheduled to be implemented fully by the beginning of
FY 2009. The completion date is subject to the business case being approved and funding availability to
support the implementation. As part of this project, the agency reviewed current business practices and
the associated software.
            Infrastructure improvements needed to reduce improper payments associated specifically with loan
            deficiency payments included additional funding to support the existing electronic loan deficiency
            payments (eLDP) software and the anticipated future enhancements. If additional funds are provided
            to support the eLDP Web-based software, the necessary enhancements can be made to ensure better
            compliance reviews and enhanced eligibility validation through mainframe centralized databases.




                                                                                                         USDA
                              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 351
                                               APPENDICES
11/9/2005 5:07 PM



            Public and field office employees have praised eLDPs. The time savings have allowed field office
            employees to review other program-related issues in more detail. This benefit has resulted in
            decrease in errors associated with other programs; and
            Web-based software (e-MILC) has been developed to validate eligibility entries and monthly
            payment rates. This software is designed to reduce the occurrence of improper payments to MILC
            applicants.

Systems also are needed to improve the collection of data-identifying improper payments. Currently the best
measure the Agency has is reviewing the receivable activity and the statistical samples.

Food and Nutrition Service (FNS)
While the infrastructure already exists for the Food Stamp Program, there is nothing in place for the other
FNS programs. Until such time as baseline erroneous-payment estimates are produced for NSLP, WIC and
CACFP, reduction targets cannot be established.

Risk Management Agency (RMA)
RMA recently has initiated work on a planned information technology (IT) architecture that will replace
USDA’s current system. The new system is expected to have far more extensive and reliable edits and other
controls to assist RMA in reducing errors.

VII.B.      If the agency does not have such systems and infrastructure, describe the resources
            the agency requested in its FY 2006 budget submission to Congress to obtain the
            necessary information systems and infrastructure.
Farm Service Agency (FSA)
FSA has requested $2.6 million in the FY 2006 President’s Budget to continue MIDAS.

Food and Nutrition Service (FNS)
In the President’s Budget for FY 2005, FNS requested $7 million and 77 staff years to enhance integrity in the
Food Stamp and Child Nutrition Programs. Congress did not appropriate funds for this purpose at that time.
Because the FY 2005 appropriation was not signed into law until well into FY 2005, FNS did not request
additional resources in the budget for FY 2006, thinking that Congress would approve the new assets for FY
2005. The resources for this activity are linked to the President’s Management Agenda item #3, “Improved
Financial Performance,” and remain a critical factor in lowering erroneous payments. Until necessary funding
is received, FNS will request resources to improve integrity in Food Stamps, School Lunch/Breakfast, WIC
and CACFP.

Risk Management Agency (RMA)
RMA has requested $83 million the FY 2006 President’s Budget for system improvements.

VIII.       Describe any statutory or regulatory barriers which may limit the agencies’ corrective
            actions in reducing improper payments and actions taken by the agency to mitigate
            the barriers’ effects.
Farm Service Agency (FSA)




 USDA
    352             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                               APPENDICES
11/9/2005 5:07 PM



Recoveries of improper payments are limited by the “Finality Rule.” The Department of Agriculture
Reorganization Act of 1994, Section 281 provides that “[E]ach decision of a State, county, or area committee
or an employee of such a committee, made in good faith in the absence of misrepresentation, false statement,
fraud, or willful misconduct shall be final not later than 90 calendar days after the date of filing of the
application for benefits, [and] ...no action may be taken...to recover amounts found to have been disbursed as
a result of the decision in error unless the participant had reason to believe that the decision was erroneous.”

The Farm Security and Rural Investment Act of 2002, Section 1502(d)(2), provides that the Secretary shall
apply the same standards as were applied in implementing the dairy program under Section 805 of the
Agriculture, Rural Development, Food and Drug Administration, and Related Agencies Appropriations Act,
2001. This provision precludes the agency from developing a definition of a single unit dairy operation that
can be applied consistently among States.

Food and Nutrition Service (FNS)
In many instances, the mandated goal of providing easy access to benefits must be balanced against the goal
of reducing improper and erroneous payments. Provisions that improve access can increase the risk of
improper payments. While the risks involved vary by program, some general characterizations can be made:
      a. Program administration is highly decentralized and can involve a myriad of Governmental and
      non-Governmental organizations. For example, there are approximately 48,000 child and adult care
      centers, almost 1,000 family day care home sponsoring organizations and 158,000 family home day care
      providers through which benefits are distributed. Many of these simply do not have the capacity to
      develop robust accountability processes. This puts a special burden on Federal and State oversight and
      technical assistance systems.
      b. States and localities tend to focus on managing local funds, rather than Federal funds. One
      hundred percent of benefit costs and a significant portion of administrative expenses incurred by State
      agencies are funded by Federal appropriations. Although this distribution of costs has contributed to the
      strength of the nutrition safety net with national eligibility standards and program access, States and
      localities may be expected to put a higher priority on managing programs funded with local revenues than
      those subsidized by the Federal Government.
      c. Proper implementation of nutrition assistance programs requires a high degree of accuracy. This
      accuracy helps to ensure that benefits generally are well-targeted to those most in need, uniformity of
      access across the country and that benefits only can be used for food. Despite the standards, their exacting
      nature creates a significant number of opportunities for error.

Rural Development (RD)
The Rural Housing Service (RHS) is seeking legislation similar to that of the U.S. Housing and Urban
Development. The legislation would permit access to the U.S. Health and Human Services’ “New Hires” data.
RHS also wants the legislation to allow borrowers and their management agents to have access to the data.
Borrowers and agents collect and verify the tenant’s income documentation.




                                                                                                          USDA
                              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                 353
                                                                  APPENDICES
11/9/2005 5:07 PM




APPENDIX C—TABLE OF EXHIBITS
Exhibit 1:           Headquarters Organization ...................................................................................................... 1
Exhibit 2:           FY 2005 and 2004 USDA Program Obligations Dedicated to Strategic Goals* ..................... 6
Exhibit 3:           FY 2005 and 2004 USDA Staff Years Dedicated to Strategic Goals* .................................... 6
Exhibit 4:           USDA Scorecard for FY 2005 ................................................................................................. 7
Exhibit 5:           Summary of Outstanding Material Deficiencies and Estimated Completion Dates............... 29
Exhibit 6:           Resources Dedicated to Expand Alternative Markets for Agricultural Products and Activities
                      ............................................................................................................................................... 35
Exhibit 7:           Increase U.S. Market Opportunities....................................................................................... 40
Exhibit 8:           Expand and Retain Market Access ........................................................................................ 41
Exhibit 9:           Resources Dedicated to Support International Economic Development and Trade Capacity
                     Building ................................................................................................................................. 41
Exhibit 10:          Support Foreign Food Assistance .......................................................................................... 44
Exhibit 11:          McGovern-Dole International Food for Education and Child Nutrition Program ................. 44
Exhibit 12:          Resources Dedicated to Expand Alternative Markets for Agriculture Products and Activities
                      ............................................................................................................................................... 45
Exhibit 13:          Increase the Use of Biobased Products .................................................................................. 48
Exhibit 14:          Biobased Products Performance ............................................................................................. 49
Exhibit 15:          Resources Dedicated to Providing Risk Management and Financial Tools to Farmers and
                     Ranchers ................................................................................................................................ 50
Exhibit 16:          Providing Credit Assistance................................................................................................... 54
Exhibit 17:          Performance Trends: Lending to beginning, racial and ethnic minorities, and women farmers
                     and timeliness of loan processing. ......................................................................................... 56
Exhibit 18:          Expand Use of Risk Management Tools................................................................................ 58
Exhibit 19:          Providing Risk Management and Financial Tools to Farmers and Ranchers......................... 58
Exhibit 20:          Resources Dedicated to Support Expanding Economic Opportunities Through Financing of
                     Businesses.............................................................................................................................. 59
Exhibit 21:          Strengthen Rural Businesses.................................................................................................. 64
Exhibit 22:          Trends in Creating or Saving Jobs ......................................................................................... 64
Exhibit 23:          Resources Dedicated to Support Improving the Quality of Life in Rural America Through
                     Financing Housing, Utilities and Community Facilities ........................................................ 65
Exhibit 24:          Improving Rural Quality of Life Through Homeownership Opportunities ........................... 67
Exhibit 25:          Trends in Rural Homeownership ........................................................................................... 69
Exhibit 26:          Support High-Speed Telecommunications Service................................................................ 70
Exhibit 27:          Trends in the Number of Subscribers Served by High-Speed Telecommunications Service 70
Exhibit 28:          Improving Water and Waste Disposal ................................................................................... 71
Exhibit 29:          Trends in Water and Waste Disposal Service ........................................................................ 72
Exhibit 30:          Connecting and Improving Electric Service .......................................................................... 73
Exhibit 31:          Trends in Connecting and Improving Electric Service .......................................................... 73
Exhibit 32:          Number of New and Improved Community Facilities........................................................... 74
Exhibit 33:          Trends in New and Improved Essential Community Facilities.............................................. 75
Exhibit 34:          Resources Dedicated to Enhance Protection of Meat, Poultry, and Egg Products Inspection 76
Exhibit 35:          Pathogen Reduction (Food Inspection).................................................................................. 79
Exhibit 36:          Trends in Pathogen Reduction (Food Inspection).................................................................. 80
Exhibit 37:          Public Health Outreach & Education..................................................................................... 83
Exhibit 38:          Number of Viewings for Food Safety Messages ................................................................... 83
Exhibit 39:          Resources Dedicated to Reducing Pest and Disease Outbreaks............................................. 84
Exhibit 40:          Strengthen the Effectiveness of Pest and Disease Surveillance and Detection Systems........ 88
Exhibit 41:          Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and Detection
                     Systems .................................................................................................................................. 89
Exhibit 42:          Ensure the Humane Care and Handling of Animals Used in Commerce............................... 90


 USDA
    354             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                               APPENDICES
11/9/2005 5:07 PM



Exhibit 43:         Trends in Ensuring the Humane Care and Handling of Animals Used in Commerce ........... 91
Exhibit 44:         Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved......................... 91
Exhibit 45:         Trends Improving the Capabilities of Diagnostic Laboratories ............................................. 92
Exhibit 46:         Provide Scientific Information to Protect Animals from pests, Infectious Diseases, and Other
                    Disease-Causing Entities that Impact Animal and Human Health......................................... 93
Exhibit 47:         Trends in Providing Scientific Information to Protect Animals from Pests, Infectious
                    Diseases, and Other Disease-Causing Entities that Impact Animal and Human Health ........ 93
Exhibit 48:         Resources Dedicated to Improving Access to Nutritious Food ............................................. 97
Exhibit 49:         Improve Access to Nutritious Food ....................................................................................... 99
Exhibit 50:         Trends in Improving Access to Nutritious Food................................................................... 101
Exhibit 51:         Resources Dedicated to Promote Healthier Eating Habits and Lifestyles............................ 102
Exhibit 52:         Promoting Healthier Eating Habits and Lifestyles............................................................... 105
Exhibit 53:         Trends to Promote Healthier Eating Habits and Lifestyles.................................................. 106
Exhibit 54:         Increasing Nutrition Information Available to the Public.................................................... 107
Exhibit 56:         Resources Dedicated to Improve Food Program Management and Customer Service........ 107
Exhibit 57:         Increase Efficiency in Food Management............................................................................ 109
Exhibit 58:         Trends in Increased Efficiency in Food Management.......................................................... 109
Exhibit 59:         Resources Dedicated to Protect the Nation’s Resource Base and Environment .................. 110
Exhibit 60:         Hazardous Fuel Reduction................................................................................................... 114
Exhibit 61:         Trends in Treatment of Hazardous Fuel................................................................................ 114
Exhibit 62:         Resources Dedicated to Improving Management of Private Lands ..................................... 115
Exhibit 63:         Maintain the Productive Capacity of the Natural Resource Base and the Quality of the
                    Environment......................................................................................................................... 119
Exhibit 64:         Trends in Planning and Application of Improved Management of Cropland and Grazing
                    Lands.................................................................................................................................... 120
Exhibit 65:         Ensure Diverse Wildlife Habitats ........................................................................................ 121
Exhibit 66:         Trends in Wetland Protection................................................................................................ 121
Exhibit 67:         USDA Program Obligations ................................................................................................ 123
Exhibit 68:         Performance Threshold for 1.1.1 ......................................................................................... 133
Exhibit 69:         Performance Threshold for 1.2.1 ......................................................................................... 135
Exhibit 70:         Performance Threshold for 1.3.1 ......................................................................................... 136
Exhibit 71:         Performance Threshold for 1.4.1, 1.4.2 and 1.4.3................................................................ 137
Exhibit 72:         Performance Threshold for 1.4.4 ......................................................................................... 138
Exhibit 73:         Performance Threshold for 2.1.1 ......................................................................................... 139
Exhibit 74:         Performance Threshold for 2.2.1 ......................................................................................... 140
Exhibit 75:         Performance Threshold for 2.2.2 ......................................................................................... 141
Exhibit 76:         Performance Threshold for 2.2.3 ......................................................................................... 142
Exhibit 77:         Performance Threshold for 2.2.4 ......................................................................................... 142
Exhibit 78:         Performance Threshold for 2.2.5 ......................................................................................... 143
Exhibit 79:         Performance Thresholds for 3.1.1, 3.1.2, 3.1.3 and 3.1.4 .................................................... 145
Exhibit 80.         Performance Threshold for 3.2.1 ......................................................................................... 147
Exhibit 81:         Performance Thresholds for 3.2.2 and 3.2.3 ........................................................................ 148
Exhibit 82:         Performance Thresholds for 3.2.4 and 3.2.5 ........................................................................ 148
Exhibit 83:         Performance Thresholds for 3.2.6........................................................................................ 149
Exhibit 84:         Performance Threshold for 4.1.1, 4.1.2 and 4.1.3................................................................ 151
Exhibit 85:         Performance Threshold for 4.2.1 ......................................................................................... 152
Exhibit 86:         Performance Threshold for 4.2.2 ......................................................................................... 153
Exhibit 87:         Performance Threshold for 4.3.1 ......................................................................................... 154
Exhibit 88:         Performance Threshold for 5.1.1 and 5.1.2.......................................................................... 155
Exhibit 89:         Performance Threshold for 5.2.1, 5.2.2, 5.2.3, 5.2.4 and 5.2.5............................................ 156
Exhibit 90:         Performance Threshold for 5.2.6 ......................................................................................... 157
Exhibit 91:         Decrease in Total Open Audit Inventory ............................................................................. 185



                                                                                                                                                      USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                                                                       355
                                                             APPENDICES
11/9/2005 5:07 PM



Exhibit 92:          Audit Follow-Up Definitions ............................................................................................... 186
Exhibit 93:          Inventory of Audits with Disallowed Costs ......................................................................... 187
Exhibit 94:          Distribution of Adjustments to Disallowed Costs................................................................ 188
Exhibit 95:          Inventory of Audits with Funds to be Put to Better Use ...................................................... 188
Exhibit 96:          Decrease In Audits Open One or More Years Past Management Decision Date................. 188
Exhibit 97:          Distribution of Audits Open One or More Years Past the Management Decision Date,
                     Disallowed Costs and FTBU ............................................................................................... 189
Exhibit 98:          Audits Open One Year or More Past the Management Decision Date and Behind Schedule189
Exhibit 99:          Summary of Outstanding Material Deficiencies and Estimated Completion Dates............. 196
Exhibit 100:         Material Deficiencies Decline.............................................................................................. 198
Exhibit 101:         Material Deficiencies Corrected or Downgraded................................................................. 199
Exhibit 102:         Initiatives Completed ........................................................................................................... 201
Exhibit 103:         Initiatives To Be Completed ................................................................................................ 201




 USDA
    356             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                         APPENDICES
11/9/2005 5:07 PM




APPENDIX D—ACRONYMS
 ACC                Afghan Conservation Corps                    e-LDP   Electronic Loan Deficiency Payments
 AGOA               African Growth and Opportunity Act           EA      Enterprise Architecture
 AGR                Adjusted Gross Revenue                       EBT     Electronic Benefits Transfer
 AHMS               Animal Health Monitoring and Surveillance    EFNEP   The Expanded Food and Nutrition
                                                                         Education Program
 AMP                Asset Management Plan                        EIS     Environmental Impact Statement
 AMS                Agricultural Marketing Service               EMRS    Emergency Management Response
                                                                         System
 APHIS              Animal Plant and Health Inspection Service   EONR    Economically Optimal Nitrogen Fertilizer
                                                                         Rate
 ARMS               Agricultural Resource Management Survey      EPA     U.S. Environmental Protection Agency
 ARS                Agricultural Research Service                EPP     Emerging Plant Pest
 ASC                Albuquerque Service Center                   ERS     Economic Research Service
 AWA                Animal Welfare Act                           EWP     The Emergency Watershed Protection
                                                                         Program
 CAFTA-             Central American Free Trade Agreement        EWRP    The Emergency Wetlands Reserve
 DR                                                                      Program
 B&I                Business and Industry                        E&T     Employment and Training
 BFP                The Norman E. Borlaug International          EU      European Union
                    Science and Technology Fellows Program
 BRS                Biotechnology Regulatory Service             FAS     Foreign Agricultural Service
 BSE                Bovine Spongiform Encephalopathy             FB4P    The Federal Biobased Products Preferred
                                                                         Procurement Program
 CACFP              Child and Adult Care Food Program            FCIC    Federal Crop Insurance Corporation
 CAP                Combined Application Demonstration Project   FDA     United States Food and Drug
                                                                         Administration
 CATIE              Tropical Agricultural Research and Higher    FDW     Financial Data Warehouse
                    Education Center
 CCC                Commodity Credit Corporation                 FFAS    Farm and Foreign Agricultural Services
 CDC                U.S. Centers for Disease Control and         FFE     The McGovern-Dole International Food for
                    Prevention                                           Education and Child Nutrition Program
 CNPP               Center for Nutrition Policy                  FFMIA   The Federal Financial Management
                                                                         Improvement Act
 CPAP               Community Programs Application Processing    FISMA   Federal Information Security Management
                    System                                               Act
 CRP                The Conservation Reserve Program             FLP     Farm Loan Program
 CSP                Conversation Security Program                FMD     Foot and Mouth Disease
 CSREES             Cooperative State Research, Education and    FMD     Financial Management Division
                    Extension Service
 CWPP               Community Wildlife Protection Plans          FNS     Food Nutrition Service
 DC                 Disallowed Costs                             FNSE    Food Stamp Nutrition Education
 DHS                United States Department of Homeland         FRPC    Federal Real Property Council
                    Security
 DOI                United States Department of the Interior     FS      Forest Service
 DOL                U.S. Department of Labor                     FSA     Farm Service Agency




                                                                                                              USDA
                                       FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                              357
                                                            APPENDICES
11/9/2005 5:07 PM




 FSIS               Food Safety and Inspection Service            NAFTA     North American Free Trade Agreement
 FSP                Food Stamp Program                            NAHLN     National Animal Health Laboratory Network
 FSRIA              The Farm Security Rural Investment Act of     NAHMS     National Animal Health Monitoring System
                    2002
 FSRIO              Food Safety Research and Information Office   NDB       National Data Bank
 FTA                Free Trade Agreement                          NECFE     Northeast Center for Food
                                                                            Entrepreneurship
 FTAA               Free Trade Area of the Americas               NEPA      National Environmental Policy Act
 FTBU               Funds to Be Put to Better Use                 NFP       National Fire Plan
 FY                 Fiscal Year                                   NFS       National Forest System
 GAO                Government Accountability Office              NAHRS     National Animal Health Reporting System
 GEO                Genetically Engineered Organisms              NAIS      National Animal Identification System
 GIPSA              Grain Inspection, Packers and Stockyards      NAL       National Agricultural Library
                    Administration
 GIS                Geographic Information System                 NASS      National Agricultural Statistics Service
 GLS                Guaranteed Loan System                        NCES      National Center for Educational Statistics
 GRIP               Group Risk Income Protection                  NCIE      National Center for Import and Export
 GRP                Grassland Reserve Program                     NHANES    National Health and Nutrition Examination
                                                                            Survey
 GSA                General Services Administration               NOP       National Organic Program
 HACCP              Hazard Analysis Critical Control Point        NRCS      Natural Resource Conservation Service
 HEI                Healthy Eating Index                          NRE       Natural Resources Environment
 HFI                Healthy Forests Initiative                    NSLP      National School Lunch Program
 HFRA               Healthy Forest Restoration Act                NSU       National Surveillance Unit
 HFRA               Healthy Forests Restoration Act of 2003       OCFO      The Office of the Chief Financial Officer
 HPA                Horse Protection Act                          OCIO      The Office of the Chief Information Officer
 HPP                High-Pressure Processing                      OGC       The Office of the General Counsel
 HSPD               Homeland Security Presidential Directive      OIG       The Office of the Inspector General
 IP                 Internet Protocol                             OMB       The Office of Management and Budget
 IPIA               Improper Payments Information Act             OPM       The Office of Personnel Management
 ISSS               International Society of Soil Science         PAR       Performance and Accountability Report
 IT                 Information Technology                        PART      Performance Assessment Rating Tool
 LAN                Local Access Network                          PCR       Polymerase Chain Reaction
 LARIS              Licensing and Registration Information        PHV/IIC   Senior Veterinary Medical
                    System                                                  Officer/Inspector-in-Charge
 LCMV               Lymphocytic Choriomeningitis Virus            PLAS      Program Loan Accounting System
 LDP                Loan Deficiency Payment                       PP&E      Property, Plant and Equipment
 LPAI               Low Pathogenic Avian Influenza                PMA       President’s Management Agenda
 MBDA               Minority Business Development Agency          POINTS    Program Operations Information Tracking
                                                                            System
 MCR                Management Control Review                     PPQ       Plant Protection and Quarantine
 MILC               Milk Income Loss Contract Program             PRA       Pest-Risk Assessments
 MITS               Management Information Tracking System        QC        Quality Control
 MRP                Marketing and Regulatory Programs             RA        Amount of Subsidy
 NACMCF             National Advisory Committee on                RD        Rural Development
                    Microbiological Criteria for Foods




 USDA
    358              FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
                                                        APPENDICES
11/9/2005 5:07 PM




 REE                Research, Education and Economics            SRA     Standard Reinsurance Agreement
 RFI                Request for Information                      SRDC    Southern Rural Development Center
 RHS                Rural Housing Service                        SSOP    Sanitation Standard Operating Procedures
 RMA                Risk Management Agency                       TIGR    The Institute for Genetic Research
 RME                Risk Management Education                    TN      Team Nutrition
 RPC                Real Property Council                        TPA     Trade Promotion Authority
 RTE                Ready-to-Eat                                 TRADE   Trade for African Enterprise and
                                                                         Development Initiative
 RULSS              Rural Utilities Loan Servicing System        UM&R    Uniform Standards and Rules
 RUS                Rural Utilities Service                      USAID   United States Agency for International
                                                                         Development
 SAML               Security Assertion Markup Language           USDA    United States Department of Agriculture
 SARE               Southern-Region Sustainable Agriculture      USTR    Office of the United States Trade
                    Research and Education Program                       Representative
 SBP                School Breakfast Program                     WAOB    World Agricultural Outlook Board
 SDF                Small Disadvantaged Farmers                  WEP     Water and Environmental Programs
 SDLC               System Development Life Cycle                WEPS    Wind Erosion Prediction System
 SEBAS              Socio-Economic Benefit Assessment System     WFP     World Food Program
 SFA                School Food Authority                        WIC     The Special Supplemental Nutritional
                                                                         Program for Women, Infants and Children
 SIPP               Survey on Income and Program Participation   WTO     World Trade Organization
 SPR                Surface Plasmon Resonance                    WUI     Wildland-Urban Interface
 SPS                Sanitary and Phytosanitary




                                                                                                              USDA
                                      FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT                               359
                                        APPENDICES
11/9/2005 5:07 PM




 USDA
    360             FY 2005 PERFORMANCE AND ACCOUNTABILITY REPORT
